<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-195]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-195

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                          Department of

                                                      Homeland Security

                                                            Fiscal Year
                                                                   2006
                                          109th CONGRESS, FIRST SESSION

                                                              H.R. 2360

DEPARTMENT OF HOMELAND SECURITY

NONDEPARTMENTAL WITNESSES

           Department of Homeland Security, 2006 (H.R. 2360)


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                                        S. Hrg. 109-195
 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2360

 AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF HOMELAND SECURITY 
 FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2006, AND FOR OTHER PURPOSES

                               __________

                    Department of Homeland Security
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                  JUDD GREGG, New Hampshire, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii
ARLEN SPECTER, Pennsylvania          PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
WAYNE ALLARD, Colorado               DIANNE FEINSTEIN, California

                           Professional Staff
                             Rebecca Davies
                              James Hayes
                              Carol Cribbs
                          Kimberly Nelson Hill
                            Shannon O'Keefe
                       Charles Kieffer (Minority)
                        Chip Walgren (Minority)
                         Scott Nance (Minority)
                      Drenan E. Dudley (Minority)

                         Administrative Support

                              Avery Forbes

                            C O N T E N T S

                              ----------                              

                        Wednesday, March 2, 2005

                                                                   Page
Department of Homeland Security..................................     1

                       Wednesday, April 20, 2005

Department of Homeland Security..................................   117

                        Thursday, April 28, 2005

Department of Homeland Security..................................   349
Nondepartmental Witnesses........................................   435


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MARCH 2, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:34 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Thad Cochran presiding.
    Present: Senators Cochran, Byrd, and Leahy.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        MICHAEL J. GARCIA, ASSISTANT SECRETARY, IMMIGRATION AND CUSTOMS 
            ENFORCEMENT
        ROBERT C. BONNER, COMMISSIONER, CUSTOMS AND BORDER PROTECTION
        EDUARDO AGUIRRE, JR., DIRECTOR, U.S. CITIZENSHIP AND 
            IMMIGRATION SERVICES


                   STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. The hearing will please come to order. 
Today we begin our committee's review of the fiscal year 2006 
budget request for the Department of Homeland Security. We will 
consider specifically the request for programs and activities 
of U.S. Citizenship and Immigration Services, Customs and 
Border Protection, and Immigration and Customs Enforcement.
    I am pleased to welcome the Director of U.S. Citizenship 
and Immigration Services, Eduardo Aguirre; the Commissioner of 
Customs and Border Protection, Robert Bonner; and the Assistant 
Secretary of Immigration and Customs Enforcement, Michael 
Garcia.
    Our committee will work with you to help ensure that we 
provide the funds necessary for your agencies to carry out 
their responsibilities and missions. For fiscal year 2006, the 
President's budget requests $12.9 billion to fund the 
organizations appearing before us today. This includes 
mandatory and discretionary appropriations, user fee 
collections, and trust funds.
    We thank each of you for submitting to the committee copies 
of your statements in advance. These will be made a part of the 
record and we invite you to make any comments you think will be 
helpful to the committee's understanding of the budget request.
    Before hearing from the witnesses, I am pleased to yield to 
Senator Leahy or other Senators who may wish to make opening 
statements. Senator Leahy.


                 STATEMENT OF SENATOR PATRICK J. LEAHY


    Senator Leahy. Thank you, Mr. Chairman.
    I think these three agencies before us have the duty of 
keeping our Nation safe, but also keeping our historic 
commitment to legal immigration. I know I have to think about 
the fact that my grandparents came, my maternal grandparents, 
came to this country not speaking any English. If they had not 
been here, their grandson would not be here, and how proud and 
how happy they were to come.
    I remember talking with my grandparents as a child and how 
much it meant to them to be the first generations of Americans. 
It has left a mark in my own mind. You look around this room, 
look around anywhere else, look at your own backgrounds, and we 
know that we are a Nation of immigrants. We have to keep being 
able to do that.


     BUDGET SHORTFALLS AND INCREASED STAFFING FOR THE BORDER PATROL


    When we held hearings on these three agencies last year, 
Mr. Chairman, they were facing substantial budget shortfalls. 
They had imposed hiring freezes. I want to know where we stand 
today on these issues. I am concerned that the administration 
is ignoring Congress's clear and consistent call, call from 
both Republicans and Democrats, for substantial increases in 
staffing for the Border Patrol. The Border Patrol's presence on 
our northern border--and I want to remind everybody we have a 
northern border as well as a southern border; I live an hour's 
drive from it--it was minimal before the September 11th 
attacks. I think we had something like 300 agents stretched 
over 4,000 miles of border. There is no other place in the 
world similar to that.
    I authored a provision in the Patriot Act to triple that 
number. It has been achieved. A lot more needs to be done. The 
President signed the Intelligence Reform and Terrorism 
Prevention Act of 2004. That mandated increasing at least 2,000 
Border Patrol agents for fiscal year 2006, 20 percent of them 
for the northern border. But that is the good news and the 
President did sign that bill for the 2,000, but his budget 
provides only enough funding for 210. So he signed the bill 
with great fanfare for 2,000 and put the budget in for 10 
percent of it. And it appears none of them go to the northern 
border.
    So I hope Mr. Bonner will explain why the administration is 
not heeding this Congressional mandate and whether he now 
believes it is time to declare mission accomplished for the job 
of protecting our northern border.


                     LAW ENFORCEMENT SUPPORT CENTER


    Assistant Secretary Garcia and I have spoken a number of 
times about the excellent work of the Law Enforcement Support 
Center. We have visited this. This is the place that stores 
information for State and local police. It provides immigration 
status and identities of aliens any time of the day or night, 
every day of the year.


    FISCAL YEAR 2006 BUDGET REQUEST FOR CITIZENSHIP AND IMMIGRATION 
                                SERVICES


    Of course, Mr. Aguirre, we talked before, I am concerned 
about the President's proposed budget for Citizenship and 
Immigration Services. It calls for a 50 percent cut in the 
amount of directly appropriated funds for CIS. At the same time 
the President says he will achieve his goal of reducing the 
average wait time for applicants for immigration benefits to 6 
months.
    He has asked the Congress to enact a guest worker program 
that is going to significantly increase the CIS workload. That 
is fine, we can increase it, but if the administration is 
cutting the manpower for this substantially, but wanting to add 
to the workload, I do not know how you ever get here.


                            H2B VISA PROGRAM


    I hope--the last thing is I hope the CIS and the 
administration will support bipartisan efforts in Congress to 
increase the cap for the H2B visa program. The Department 
announced in January for the second straight year the statutory 
cap has been reached and that is causing tourism-related 
businesses across the country to go into justifiable panic and 
concern.
    We have a bipartisan group of 16 colleagues introducing S. 
352, the Save Our Small and Seasonal Business Act of 2005. It 
would allow aliens who obtained H2B visas in recent years to 
reenter under that program. I hope the administration would 
support it. It is a quick, easy, I think effective, cost 
effective way of handling this.
    So thank you, Mr. Chairman. Those are some of the concerns 
I have. I thought I would express them here because I know we 
are going to have votes in between and I may have to go back 
and forth.
    Senator Cochran. Thank you very much, Senator.
    Senator Byrd.


                  STATEMENT OF SENATOR ROBERT C. BYRD


    Senator Byrd. Thank you, Mr. Chairman.
    Excuse me, I am sorry.
    Senator Leahy. Any time you want.
    Senator Byrd. Thank you.
    Well, today, Mr. Commissioner and also Mr. Assistant 
Secretary and Director Aguirre, we hold the first hearing on 
the President's budget for the Department of Homeland Security. 
Chairman Cochran and I have worked together over the last 2 
years to produce bipartisan legislation to fill critical gaps 
in the security of our homeland. I commend Chairman Thad 
Cochran for his excellent leadership of this subcommittee and 
of any other committee or subcommittee that he chairs. I know 
how well it is going to be run.
    Today our witnesses will focus on issues related to border 
security, immigration, and trade. For the third year in a row, 
the President has submitted a budget for the Department of 
Homeland Security that ignores the stark reality of the 
resources needed to secure the homeland. The 9/11 Commission 
report concluded this:
    ``More than 500 million people annually cross U.S. borders 
at legal entry points, about 330 million of them non-
citizens.'' What a flow of humanity. ``Another 500,000 or more 
enter illegally without inspection across America's thousands 
of miles of land borders or remain in the country past the 
expiration of their permitted stay.'' Now, that was the 
commission talking.
    The commission concluded that, quote: ``Two systemic 
weaknesses came together in our border system's inability to 
contribute to an effective defense against the 9/11 attacks: 
one, a lack of well-developed counterterrorism measures as a 
part of border security; and two, an immigration system not 
able to deliver on its basic commitments, much less support 
counterterrorism.''


            INTELLIGENCE REFORM AND TERRORISM PREVENTION ACT


    In response to the commission's findings, Congress enacted 
the Intelligence Reform and Terrorism Prevention Act. In a 
December 6, 2004, letter to the Congress urging final passage 
of that Act, President Bush stated, ``I also believe the 
conference took an important step in strengthening our 
immigration laws by, among other items, increasing the number 
of Border Patrol agents and detention beds.'' Close of 
quotation.
    As enacted, the Act authorizes the hiring of 2,000 new 
Border Patrol agents and 800 new ICE investigators and the 
funding of 8,000 new detention beds for illegal alien 
immigrants. Yet, when the President submitted his budget 
request months after sending that letter, virtually no new 
funds were requested for any of these activities.
    At the same time, the President's own terrorism experts are 
extremely concerned about the threat posed by terrorists to our 
borders. In written testimony before the Senate Intelligence 
Committee on February 16, 2005, the Department's Deputy 
Secretary, Admiral James Loy, cited recently received 
information as the reason for his concern about the threat 
facing the Mexican border. He called it a ``very serious 
situation'' and added: ``Several Al Qaeda leaders believe 
operatives can pay their way into the country through Mexico 
and also believe illegal entry is more advantageous than legal 
entry.'' How about that, ``believe illegal entry is more 
advantageous than legal entry for operational security 
reasons.''


                             FUNDING ISSUE


    Despite this testimony, there is virtually no funding in 
the budget to increase our border security. In addition to 
having a strong deterrent to illegal immigration at the border, 
it is critically important for the Department to have the 
resources to enforce our immigration laws. Therefore, I am very 
troubled by the fact that 6 months into the fiscal year we have 
not received a supplemental request or a reprogramming proposal 
to address a shortfall in funding for immigration and customs 
enforcement.
    Since last spring, the Congress has been ringing the alarm 
bell--ding-a-ling, ding-a-ling, ding-a-ling--that the 
Department's primary investigative arm, Immigration and Customs 
Enforcement, ICE, faced significant budget shortfalls. To 
partially address this problem, ICE last year instituted a 
hiring freeze, significantly reduced spending, and took other 
painful steps--bring on the aspirin--to cope with the 
shortfall. There were even media reports that some apprehended 
illegal aliens were being released because ICE could not afford 
to cover the costs associated with holding these individuals.
    Well, Congress stepped up to the plate. This man, Cochran, 
he is on the ball. Congress stepped up to the plate by 
providing ICE with $193 million more for the current fiscal 
year than requested by the President. However, the hiring 
freeze and other spending restraints remain in place halfway 
through the new fiscal year. We are being warned by the 
Department that ICE faces a funding gap of nearly $300 million 
for the rest of this year.
    Has the President found any room in his $81.9 billion 
supplemental spending request to address this gap? No. He is 
willing to request billions of dollars for foreign aid to build 
the most expensive U.S. embassy in the world in Baghdad. I do 
not plan to go there often. But he does not seem to be able to 
find the funds to hire and support the men and women fighting 
the war on terrorism here at home.
    Today I sent a letter to Secretary Chertoff raising these 
issues, and I hope that he will work with the White House to 
send to the Congress a request that would implement the 
recommendations of the 9/11 Commission contained in the 
Intelligence Reform and Terrorism Prevention Act.
    Thank you, Mr. Chairman. Thank you, Mr. Commissioner.
    [The information follows:]

                   Letter From Senator Robert C. Byrd

                                               U.S. Senate,
                                     Washington, DC, March 2, 2005.
Hon. Michael Chertoff,
Secretary, Department of Homeland Security,
Washington, DC.
    Dear Secretary Chertoff: Congratulations are in order as you assume 
the task of leading the Department of Homeland Security, an immense and 
important burden. Sadly, the President, in his fiscal year 2006 budget 
request for the Department, has not made your task any easier.
    For the third year in a row, the President has submitted a budget 
that ignores the stark reality of the steps needed to secure the 
homeland.
    The 9/11 Commission report concluded that:
    More than 500 million people annually cross U.S. borders at legal 
entry points, about 330 million of them noncitizens. Another 500,000 or 
more enter illegally without inspection across America's thousands of 
miles of land borders or remain in the country past the expiration of 
their permitted stay. The challenge for national security in an age of 
terrorism is to prevent the very few people who may pose overwhelming 
risks from entering or remaining in the United States undetected.
    Our investigation showed that two systemic weaknesses came together 
in our border system's inability to contribute to an effective defense 
against the 9/11 attacks: a lack of well-developed counterterrorism 
measures as a part of border security and an immigration system not 
able to deliver on it basic commitments, much less support 
counterterrorism.
    In response to the Commission's findings, Congress enacted the 
Intelligence Reform and Terrorism Prevention Act. In his December 6, 
2004, letter to Congress urging final passage of that Act, President 
Bush stated, ``I also believe the Conference took an important step in 
strengthening our immigration laws by, among other items, increasing 
the number of border patrol agents and detention beds.'' As enacted, 
the Act authorizes the hiring of 2,000 new Border Patrol agents and 800 
new ICE investigators, and the funding of 8,000 new detention beds for 
illegal aliens immigration. The President's letter called that ``an 
important step.'' Yet that letter appears to be another empty 
rhetorical gesture. When the President submitted his budget request 2 
months after sending that letter, virtually no new funds were requested 
for any of these activities.
    At the same time, the President's own terrorism experts are 
extremely concerned about the threat terrorists pose to our borders. In 
written testimony before the Senate Intelligence Committee on February 
16, 2005, the Department's Deputy Secretary, Admiral James Loy cited 
recently received information as the reason for his concern about the 
threat facing the Mexican border. He called it a ``very serious 
situation'' and added, ``several Al Qaeda leaders believe operatives 
can pay their way into the country through Mexico and also believe 
illegal entry is more advantageous than legal entry for operational 
security reasons.''
    Mr. Secretary, I know that this budget was completed prior to your 
coming onboard. I strongly encourage you to work with the White House 
to formally request additional resources to implement the Intelligence 
Reform and Terrorism Prevention Act authorization enacted to respond to 
the recommendations of the 9/11 Commission.
    In addition to having a strong deterrent to illegal immigration at 
the border, it is critically important for the Department to have the 
resources to enforce our immigration laws. Therefore, I am very 
troubled by the fact that, 6 months into the fiscal year, we have not 
received a supplemental request or reprogramming proposal to address a 
shortfall in funding for Immigration and Customs Enforcement. Since 
last spring, the Congress has been ringing the alarm bells that the 
Department's primary investigative arm, Immigration and Customs 
Enforcement (ICE), faced significant budget shortfalls. To partially 
address this problem, ICE last year instituted a hiring freeze, 
significantly reduced spending, and took other painful steps to cope 
with the shortfall. There were even media reports that some apprehended 
illegal aliens were being released because ICE could not afford to 
cover the costs associated with holding these individuals.
    Congress stepped up to the plate by providing ICE with $193 million 
more for the current fiscal year than requested by the President. 
However, the hiring freeze and other spending restraints remain in 
place halfway through the new fiscal year. We are being warned by the 
Department that ICE faces a funding gap of nearly $300 million for the 
rest of this year. Has the President found any room in his $81 billion 
supplemental spending request to address this gap? No. He is willing to 
add to the deficit to provide hundreds of millions of dollars to build 
the most expensive U.S. embassy in the world in Baghdad, but he does 
not seem to be able to find the funds to hire and support the men and 
women fighting the war on terrorism here at home. To them, he suggests 
they carpool to work.
    Mr. Secretary, you really have your work cut out for you. Our 
repeated entreaties to the President and his representatives to provide 
the resources to meet these threats fall on deaf ears. I know that you 
will do all that you can to get this Administration to put its money 
where its rhetoric is. I wish for you success.
    With kind regards, I am.
            Sincerely yours,
                                            Robert C. Byrd,
                                                      U.S. Senator.

    Senator Cochran. Thank you, Senator Byrd.

STATUS OF SECURITY OF THE UNITED STATES 2 YEARS AFTER THE ESTABLISHMENT 
                 OF THE DEPARTMENT OF HOMELAND SECURITY

    I am going to ask our witnesses, in view of the fact that 
it has been almost exactly 2 years--March 1, 2005, actually 
would have been the second anniversary of the establishment of 
the Department of Homeland Security--in your estimation from 
what you know as administrators of these important agencies at 
the Department, are we safer now 2 years later after the 
Department of Homeland Security has been created than we were 2 
years ago?
    Mr. Garcia, would you like to start?
    Mr. Garcia. Thank you very much, Mr. Chairman. That is a 
question I often hear in many different forms, and everybody 
brings I think their own perspective.
    Senator Cochran. I am going to ask each one to answer that 
before you proceed with your statements. Tell us what you 
think?

                              ICE RESPONSE

    Mr. Garcia. I think we are safer, yes, and I bring 
perspective I think that is somewhat unique to that answer. I 
was a prosecutor in New York in the 1990s. I prosecuted many of 
the terrorism cases before 9/11 and I saw terrible exploitation 
of our immigration systems and our border security in those 
cases. Now, as part of the Homeland Security Department, I am a 
piece of the Government's response to those attacks in a 
Department that was created to address the vulnerabilities that 
were exposed by the 9/11 attacks.
    From that vantage point, I can clearly say that we are 
safer, and I see evidence of that, Mr. Chairman, every day. I 
will speak mostly about the ICE contributions here and how my 
agency has responded with creativity, using these new combined 
authorities that we have been given in ICE. You look at the 
systems and we have created--and I think Senator Leahy and 
Senator Byrd may have mentioned--overstays and how there was no 
tracking. We have created a Compliance Enforcement Unit that 
sends out thousands of prioritized leads to look at deterrent 
effect, to look at enforcing our immigration rules and bringing 
integrity to the system as a whole.
    We work very hard in benefits fraud with Director Aguirre's 
folks to close those vulnerabilities that were exploited in the 
past. So we are improving the integrity of the system.
    Senator Cochran. Let me ask Mr. Bonner for his reaction to 
that question before you proceed with your full statement.

                              CBP RESPONSE

    Mr. Bonner. Yes, thank you, Mr. Chairman. First of all, 
yes, America is absolutely unquestionably safer now than it was 
before the creation of the Department of Homeland Security on 
March 1, 2003. Our borders are more secure now than they were 
before 2001--excuse me, March 1, 2003. Part of that is that one 
of the truly big and important ideas of the Department of 
Homeland Security was to create one front-line border agency 
for our government that combined at our front line all of 
Customs' powers and personnel, Immigration powers and 
personnel, agriculture protection, and most importantly anti-
terrorism as a focus and a priority mission.
    So as a result of that one step alone, unifying our border 
agencies, whereas before March 1, 2003, they had literally been 
fragmented at our borders, at our ports of entry, among four 
different agencies of government reporting to three different 
Departments, it is now one front-line border agency, that is 
Customs and Border Protection, within the Department of 
Homeland Security, with a priority mission which is nothing 
less than keeping terrorists and terrorist weapons out of our 
country.
    So are we totally safe? No, but we are safer and more 
secure because our borders are more secure.
    Senator Cochran. Mr. Aguirre.

                             USCIS RESPONSE

    Mr. Aguirre. Mr. Chairman, as the Director of the agency 
that is responsible for administering immigration services, I 
say unquestionably we are safer from the vantage point in which 
I sit. We process 6 to 7 million applications a year and we 
have implemented some national security components and fraud 
deterrent components that were simply not there 2 or 3 years 
ago. Therefore I think we have tightened the filter, if you 
will, to determine those who may do us harm or who wish to take 
advantage of our good nature. I think we are much better off.
    There is no finish line to this effort, but I think we are 
far, far beyond where we were a couple years ago.
    Senator Cochran. Thank you very much.
    Now you may proceed with your opening statements. Mr. 
Garcia?

                      STATEMENT OF MICHAEL GARCIA

    Mr. Garcia. Mr. Chairman, Senator Byrd, Senator Leahy, it 
is my pleasure to be with you today to discuss the President's 
fiscal year 2006 budget request for U.S. Immigration and 
Customs Enforcement, or ICE, the largest investigative arm of 
the Department of Homeland Security. The $4.36 billion request 
underscores the vital role that ICE plays in the Department's 
mission of ensuring the security of the American people.
    In order to provide a better understanding of the 
President's 2006 budget request for ICE, I would like to first 
provide you with the context in which the request is made. 
Specifically, I would like to share with you a few highlights 
of significant ICE achievements as well as some of the 
challenges we have faced.

                      SIGNIFICANT ICE ACHIEVEMENTS

    ICE removed a record number, 160,000, illegal aliens from 
the United States in 2004. More than half of those were 
criminal aliens. We also arrested a record number of fugitive 
aliens. In fact, that was an increase of more than 100 percent.
    ICE conducted 7,600 money-laundering and other financial 
investigations. ICE agents conducted more than 2,500 
investigations into illegal exports that would have sent 
sensitive technology and weapons components to Iran, Iraq, 
China, and other nations. ICE arrested more than 5,000 sexual 
predators since Operation Predator was launched and have 
removed almost half of them from the United States. ICE agents 
also made the first 11 arrests for child sex tourism, targeting 
U.S. citizens who attempt to exploit children overseas.
    ICE arrested more than 1,600 human smugglers and ICE's 
Federal Protective Service officers made more than 4,000 
arrests, a nearly 60 percent increase over the previous year. 
ICE Federal Air Marshals logged millions of miles on tens of 
thousands of flights and Air Marshals have completed advanced 
training, an important benchmark to ensure professionalism and 
peak performance.
    Senator Leahy mentioned the Law Enforcement Support Center 
in Vermont. That Center received more than 600,000 inquiries 
from Federal, State, and local law enforcement officials last 
fiscal year, a 12 percent increase over the year before. 15,000 
detainers with police agencies nationwide on aliens were lodged 
from Vermont alone.
    I could continue with many, many additional examples of 
achievements that ICE's employees have made. I would like to 
note that ICE's accomplishments over the last 2 years, which I 
believe are unprecedented in law enforcement, were brought 
about despite significant challenges. In addition to the 
challenges faced in creating a new law enforcement agency, ICE 
has faced severe budget issues related to resource allocations. 
During the organization of the new Department, the budgets for 
component agencies, including those for overhead, information 
technology support, legal support, and other administrative 
functions, were broken apart in ways that were not entirely 
consistent. As a result, in some cases ICE was paying for 
services when the funds for those services had been allocated 
to other agencies.

                             BUDGET ISSUES

    When we realized the budget issues that would arise from 
these allocation errors, we took swift action. ICE placed a 
freeze on new hires. We limited expenditures to those deemed 
mission essential and we moved to set clear priorities for 
funding. We also worked with the Department to undertake a 
budget review to determine what money was appropriately due to 
ICE in return for shared services.
    These measures got results. Diligent and conscientious 
efforts on the part of our employees and field management 
helped us to realize tens of millions of dollars in short-term 
savings during fiscal year 2004. In addition, ICE identified 
and recouped more than $500 million from other agencies in the 
second half of 2004. ICE also bought services from other DHS 
components as part of the shared services concept, such as 
human resources, logistics, and fleet management.
    We are also in the process of systematically improving 
financial management throughout the entire agency. Some changes 
have been implemented and we expect to implement additional 
improvement in the coming months. These steps have been further 
outlined in a letter recently submitted to this committee.

                    COMMUNICATION WITH ICE EMPLOYEES

    While this has been a challenging time for ICE, we have 
made every effort to communicate the facts to our employees at 
every opportunity through such measures as town hall meetings, 
broadcast messages to all employees, and visits by myself and 
other senior members of the agency's leadership to all of our 
field offices.
    Over the past 2 years, ICE employees have refused to be 
defined by our challenges, but rather we have been defined by 
our achievements, which represent the true story of our agency. 
Our accomplishments represent the abiding commitment of all ICE 
employees to meeting these challenges head-on and accomplishing 
the critical mission with which we are charged.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The proposed 2006 budget builds on the foundation of our 
accomplishments while addressing many of the challenges 
outlined above. The President's 2006 budget request seeks more 
than $4.36 billion for ICE, which represents an increase of 
more than 13 percent over fiscal year 2005. I would like to 
briefly address these enhancements.

                         DETENTION AND REMOVAL

    The President's 2006 budget proposal request seeks $176 
million in enhancements for Detention and Removal operations. 
These enhancements will be used to fund detention bed space and 
management, Alternatives to Detention, Fugitive Operations, the 
Institutional Removal Program and interior repatriation. This 
funding will help ICE to continue to build on the vigorous 
enforcement efforts we have developed in the last 2 years.

                    INVESTIGATIONS AND INTELLIGENCE

    The President's budget also seeks $171 million in 
enhancements for ICE investigations and intelligence. 
Specifically, the budget will replace funding for Organized 
Crime Drug Enforcement Task Force activities. This enhancement 
requests no additional positions or money, but proposes that 
346 positions currently on board be paid by direct 
appropriation instead of reimbursement from DOJ. In addition to 
a base increase, the enhancement allows for maintenance of Visa 
Security operations initiated in 2005 and support for one 
additional Visa Security Unit overseas. It funds 143 positions 
and training to successfully implement a worksite enforcement 
component for the proposed temporary worker program.

                      FEDERAL AIR MARSHALS SERVICE

    We are also seeking enhancements to increase staffing for 
the Federal Air Marshal Service, funding for additional 
attorneys required to improve the ability of ICE's legal 
program to complete matters in Immigration Court, and money for 
Department-wide secure classified and computer to computer 
connectivity.

            OVERVIEW OF ICE FISCAL YEAR 2006 BUDGET REQUEST

    The President's 2006 budget request for ICE is a solid step 
forward for this agency and ICE is dedicated to protecting the 
homeland by enforcing immigration and customs laws, restoring 
integrity to the immigration system, as we discussed before, 
and ensuring the sanctity of our financial and trade systems. 
We protect Federal property and we ensure the security in our 
civil aviation.
    That is a broad and diverse mission, but the men and women 
of ICE are dedicated to building this agency into a model for 
law enforcement in the 21st century. The 2006 budget request 
provides us with the resources that will make this goal a 
reality as we strive to secure the American homeland and 
protect the American people.

                           PREPARED STATEMENT

    I would like to thank you, Mr. Chairman, Senator Byrd, 
Senator Leahy, for the opportunity to testify before you today. 
I look forward to answering any questions you may have.
    [The statement follows:]

                Prepared Statement of Michael J. Garcia

                              INTRODUCTION

    Mr. Chairman, Senator Byrd, and distinguished Members of the 
Subcommittee. It is my pleasure to be with you today to discuss the 
President's fiscal year 2006 budget request for U.S. Immigration and 
Customs Enforcement (ICE), the largest investigative arm of the 
Department of Homeland Security (DHS). This $4.36 billion request 
underscores the vital role that ICE plays in the Department's mission 
of ensuring the security of the American people.
    By integrating these various components in a single agency, ICE is 
able to more effectively meet the threats of the post-9/11 world, 
wherever these threats may arise--across our borders, within the 
Nation's interior, in our financial systems, at Federal facilities 
nationwide, in cyberspace, or civil aviation.
    With ICE's broad authorities and expertise, we are prepared to 
counter the threats posed by criminal and terrorist organizations in 
ways not possible before the creation of the Department of Homeland 
Security.

                     REVIEW OF ICE ACCOMPLISHMENTS

    In order to provide a better understanding of the President's 
fiscal year 2006 budget request for ICE, I would first like to provide 
you with the context in which the request is made. Specifically, I 
would like to share with you a few highlights of significant ICE 
achievements as well as some of the challenges we have faced.
  --Prioritizing Removals of Criminal and Fugitive Aliens.--As part of 
        our mission to restore integrity to the Nation's immigration 
        system, the Office of Detention and Removal Operations (DRO) 
        removed a record number of illegal aliens from the United 
        States, posting approximately 160,200 such removals. More than 
        half of those were criminal aliens. 7,200 fugitive aliens were 
        removed last fiscal year--an increase of 112 percent over the 
        previous year.
  --Protecting U.S. Financial and Trade Systems.--The ICE Office of 
        Investigations conducted 7,670 money laundering and other 
        financial investigations in fiscal year 2004, resulting in more 
        than 1,368 arrests, 895 indictments and the seizure of more 
        than $202 million. These achievements stem from ICE's 
        Cornerstone initiative, in which we direct our expertise in 
        financial, trade, and intellectual property investigations 
        toward shutting down the schemes that criminal or terrorist 
        organizations use to earn, move, and store their assets.
  --Checking Illegal Flows of Weapons and Sensitive Technology.--ICE 
        agents conducted more than 2,500 investigations into the 
        illegal export of U.S. arms and technology in fiscal year 2004. 
        These investigations protect national security by keeping 
        sensitive technologies and weapons--whether it's missile 
        components or night vision technology, laser scopes for 
        military rifles or sensitive software--out of the hands of our 
        Nation's adversary. In the last year, ICE investigated export 
        violations that would have sent sensitive technology and 
        weapons components to Iran, Iraq, China, and other nations. 
        These investigations not only contribute to the security of the 
        United States, but they serve to enhance the security of our 
        troops and allies around the globe as well.
  --Protecting Children from Sexual Exploitation.--Under Operation 
        Predator, ICE arrested more than 4,900 sexual predators since 
        the program was launched in 2003. We have ensured that 2,100 of 
        those predators were removed from the United States. ICE agents 
        also made the first 11 arrests for child sex tourism, targeting 
        U.S. citizens who attempt to exploit children overseas under 
        the PROTECT Act. Leads developed out of ICE investigations into 
        online child pornography have been provided to foreign law 
        enforcement authorities through ICE's 54 International Attache 
        offices. These leads have led to the arrest of approximately 
        850 child pornography subscribers overseas. ICE Attaches also 
        provided expertise and support to their law enforcement 
        counterparts in areas ravaged by the tsunami waves in southeast 
        Asia in December, to ensure that children were not victimized 
        by sexual predators or trafficking networks.
  --Targeting Human Smuggling and Trafficking.--Another of ICE's top 
        priorities is to dismantle criminal organizations that smuggle 
        and traffic human beings for profit. In fiscal year 2004, ICE 
        arrested more than 1,630 human smugglers. Operation ICE Storm, 
        an initiative we launched in 2003 to target violent human 
        smuggling networks in Arizona, has brought charges against more 
        than 300 defendants and resulted in the seizure of more than $7 
        million. This unprecedented seizure of alien smuggling proceeds 
        is a direct result of the combination of our immigration and 
        customs authorities (particularly customs financial crimes 
        expertise). Law enforcement authorities in Arizona have 
        credited Operation ICE Storm with a dramatic decrease in 
        homicides and other violent crime in the Phoenix metropolitan 
        area.
  --Improving Security at Federal Facilities.--ICE's Federal Protective 
        Service (FPS) made 4,426 arrests in fiscal year 2004--a 58 
        percent increase over the previous fiscal year. In addition, 
        FPS officers prevented nearly 550,000 prohibited items and 
        weapons from being carried into Federal facilities--a fourfold 
        increase over the previous year. FPS officers also responded to 
        430 bomb threats and more than 875 calls about suspicious 
        packages and other items. All of these achievements are key 
        components of the FPS mission to provide a safe and secure 
        environment for Federal workers and the American public.
  --Enhancing Security in the Skies.--ICE's Federal Air Marshal Service 
        (FAMS) once again logged millions of miles on tens of thousands 
        of flights in fiscal year 2004, as part of the division's 
        enhanced mission of providing security in the air since 9/11. 
        All FAMS recruited and deployed since 9/11 have successfully 
        completed advanced training--an important benchmark to ensure 
        professionalism and peak performance.
  --Stopping the Flow of Drugs into the United States.--ICE plays a 
        leading role in the Nation's war on drugs, with significant 
        results. In fiscal year 2004, ICE agents, working in 
        cooperation with our partners at other agencies, were involved 
        in the seizure of roughly 3.1 million pounds of illegal drugs 
        in fiscal year 2004--a 63 percent increase over the previous 
        year. Another key achievement stemming from an ICE 
        investigation was the extradition of one of the leaders of Cali 
        drug cartel from Colombia, as well as the arrest of several 
        leaders of the Norte Valle cartel.
  --Providing Support and Assistance to the Law Enforcement 
        Community.--ICE's Law Enforcement Support Center (LESC) 
        responded to more than 603,000 inquiries related to immigration 
        status from Federal, State, and local authorities in fiscal 
        year 2004--a 12 percent increase over the previous year. In 
        addition, the LESC placed more than 15,000 immigration 
        detainers with police agencies nationwide. These detainers 
        allow ICE to more efficiently remove aliens from the United 
        States once their jail term is expired.

                               CHALLENGES

    I could continue with many, many additional examples. I would like 
to note that ICE's accomplishments of the last 2 years--which I believe 
are unprecedented in law enforcement--have taken place against a 
backdrop of significant challenges.
    First, we have faced the organizational and logistical challenges 
inherent in bringing our various divisions together into an integrated 
whole within the Department of Homeland Security. The challenges of the 
DHS reorganization have been likened to ``trying to change the engine 
in an airplane in mid-flight.'' We have certainly experienced those 
challenges at ICE, where we have had to build a new agency almost from 
the ground up--bringing together divisions from four separate agencies 
into a single functioning unit, and melding the cultures and missions 
of various units into a unified whole. This process was analogous to 
that of building a new start-up company while performing a large-scale 
merger and acquisition--with the notable difference that we had but a 
few weeks to accomplish our merger, compared to the months, or years, 
that would be devoted to a merger in the private sector. While the 
reorganization is still ongoing, I am pleased to report that the 
majority of these organizational and logistical challenges have been 
met and addressed, thanks to the commitment, and perseverance of ICE 
employees.
    Another significant challenge that ICE has faced has been budget 
issues related to resource allocations. During the reorganization of 
the new department, the budgets for component agencies--including those 
for overhead, information technology support, legal support, and other 
administrative functions--were broken apart in ways that were not 
entirely consistent. As a result, in some cases ICE was paying for 
services when the funds for those services had been allocated to other 
agencies. When we realized the budget issues that would arise from 
these allocation errors, we took swift action. ICE placed a temporary 
freeze on new hires; we limited expenditures to those deemed ``mission 
essential''; and we moved to set clear priorities for funding. We also 
worked with DHS to undertake a budget review to determine what money 
was appropriately due to ICE in return for shared services.
    These measures got results. Diligent and conscientious efforts on 
the part of our employees and field management helped us to realize 
$120 million in short-term savings during fiscal year 2004. In 
addition, ICE identified and recouped more than $500 million from other 
agencies in the second half of fiscal year 2004. ICE also bought 
services from other DHS components as part of the shared services 
concept such as HR, logistics and fleet management.
    We are also in the process of systematically improving financial 
management throughout the entire agency. Some changes have been 
implemented, and we expect to implement additional improvements in the 
coming months. We will update the Congress periodically with details on 
our reforms in reports requested by the Committees.
    While this has been a challenging time for ICE, we have made every 
effort to communicate the facts to our employees at every opportunity--
through such measures as town hall meetings; broadcast messages to all 
employees; and visits by myself and other members of the agency's 
senior leadership to all of our field offices.
    Over the past 2 years ICE employees have refused to be defined by 
our challenges, but rather by our achievements, which represent the 
true story of our agency. Our accomplishments represent the abiding 
commitment of all ICE employees to meeting these challenges head-on and 
accomplishing the critical mission with which we are charged.

                  BUDGET REQUEST FOR FISCAL YEAR 2006

    The proposed fiscal year 2006 budget builds on the foundation of 
our accomplishments while addressing many of the challenges outlined 
above. The President's fiscal year 2006 Budget request seeks more than 
$4.36 billion for ICE, which represents an increase of 13.5 percent 
over fiscal year 2005. This budget request will allow ICE to pursue our 
priority missions--including the apprehension, detention, and removal 
of illegal aliens; financial and trade investigations; protection of 
Federal infrastructure; and protection of the civil aviation system--
with even greater effectiveness. In my testimony, I will address our 
major program areas--Investigations, Detention and Removal Operations, 
the Federal Air Marshal Service, and the Federal Protective Service--as 
well as issues related to management, administration, and information 
technology.

                     FISCAL YEAR 2006 ENHANCEMENTS

    The President's fiscal year 2006 budget proposal request for ICE 
Detention and Removal Operations will enhance public safety and 
national security by ensuring that those aliens who pose the most 
critical threats are removed from the United States first--a critical 
objective in ICE's long-term strategy to restore integrity to the 
Nation's immigration system. In addition, this funding will help ICE to 
meet its detention needs, which are growing every year as we move to 
aggressively enforce immigration laws. This funding will help ICE to 
continue building on the vigorous enforcement efforts we have developed 
in the last 2 years.
    Detention and Removal Operations.--The DHS Immigration and Customs 
Enforcement (ICE) fiscal year 2006 President's budget seeks $176.0 
million in enhancements for Detention and Removal Operations:
  --$90 million/16 Full-Time Employees (FTEs) for Custody Management/
        Bedspace. In many cases, apprehended aliens must be detained 
        while they go through immigration proceedings and until they 
        are removed. Custody Management provides safe, secure, and 
        humane confinement for these aliens. It also ensures that 
        aliens in ICE custody appear for their immigration hearings, 
        and then for their subsequent removal. This request would 
        provide $90 million to fund requirements of the Custody 
        Management budget activity, adding 16 FTE and increasing funded 
        bedspace by 1,920 beds. This enhancement will improve detention 
        efforts that ensure public safety and national security.
  --$5.4 million/7 FTEs for the Alternatives to Detention program. The 
        Alternatives to Detention program places low-risk aliens under 
        close supervision, rather than into traditional detention, 
        serving as a cost-effective way to ensure their appearance for 
        an immigration hearing or for removal. ICE's Intensive 
        Supervision Appearance Program (ISAP) is a community-based case 
        management program that is aimed at improving the appearance 
        rate of aliens at immigration hearings. This request includes 
        $5.4 million/7 FTE to expand the ISAP to two additional 
        locations.
  --$8.9 million for Fugitive Operations. Approximately 465,000 aliens 
        have received final orders of removal but are not confirmed to 
        have departed the United States. This request includes $8.9 
        million to enhance case management resources that enable the 
        Fugitive Operations program to locate and apprehend fugitive 
        aliens in the United States. This investment will serve to 
        improve the integrity of the immigration enforcement process 
        that is instrumental in deterring the efforts of potential 
        absconders.
  --$5.4 million/19 FTEs for the Institutional Removal Program (IRP). 
        Many removable aliens are currently incarcerated in Federal or 
        State prisons for criminal convictions. If these aliens are 
        released upon completion of their criminal sentence, they are 
        likely to avoid immigration removal proceedings. The IRP 
        ensures that these aliens are not released back into the 
        community before they are removed from the United States. The 
        $5.4 million requested would provide for Immigration 
        Enforcement Agents to enhance the IRP with staff support needed 
        to facilitate the removal of aliens following completion of 
        criminal sentences.
  --$39.3 million for Interior Repatriation, as part of the Arizona 
        Border Control multi-agency effort. One of the major components 
        of enhanced border control is a focus on border safety through 
        the removal of migrants from the dangers associated with 
        crossing the border illegally. The United States, in 
        cooperation with the government of Mexico, has focused on the 
        use of every available tool to break the cycle of migrant 
        deaths in the dangerous terrain where human smugglers value 
        profits more than the human life they often sacrifice for 
        personal gain. One of the major tools agreed to by both 
        countries is the use of a voluntary interior repatriation 
        program. The interior repatriation program allows for movement 
        at the U.S. border of Mexican nationals who voluntarily return 
        to selected cities within the interior of Mexico by means of 
        commercial flights. Without this program, a significant number 
        of persons who are apprehended and returned to Mexico at the 
        border seek re-entry through dangerous border terrains, thus 
        repeatedly risking injury or death in the process.
  --$24.0 million for the Office of Detention and Removal. This request 
        provides that the base budget for Detention Removal Operations 
        be adjusted by $24 million for salary costs and operating 
        expenses. These funds will augment support for increased 
        detention and removal activities to ensure the departure of 
        removable aliens from the United States through the fair 
        enforcement of immigration laws.
    ICE's Office of Investigations and Office of Intelligence play a 
vital role in advancing national security and homeland defense through 
aggressive investigations and cooperation with other agencies to share 
information on organized criminal activity and terrorist organizations. 
ICE's investigators have a long history of targeting money laundering 
networks; narcotics trafficking; criminal financial schemes; 
counterfeiting and piracy; trade fraud; export violations; and other 
financial and economic crimes. In addition, our investigators lead the 
way in targeting child sexual predators, human traffickers, and child 
labor violators. Our investigators are also at the forefront of 
combating immigration violations, including enforcement of immigration 
laws at worksites and shutting down organizations that provide 
fraudulent documentation for a price.
    Investigations and Intelligence.--The ICE fiscal year 2006 
President's budget seeks $171.7 million in enhancements for 
Investigations and Intelligence:
  --$43.7 million/346 FTEs for Organized Crime Drug Enforcement Task 
        Force (OCDETF) activities. This increase replaces funding 
        previously received on a reimbursable basis from the Department 
        of Justice (DOJ) for ICE's participation in the OCDETF program. 
        OCDETF is a Federal drug enforcement program that focuses on 
        the disruption and dismantling of major drug trafficking 
        organizations. OCDETF has been in existence since 1982 and 
        operates under the guidance and oversight of the Attorney 
        General. Employing the resources and expertise of 11 member 
        Federal agencies, along with support from State and local law 
        enforcement agencies, OCDETF has contributed to the successful 
        prosecution and conviction of more than 44,000 members of 
        criminal organizations and resulted in the seizure of cash and 
        property assets totaling more than $3.0 billion. This 
        enhancement requests no additional FTEs but proposes that 346 
        positions currently on board be paid by direct appropriation 
        instead of by reimbursable funding.
  --$5.0 million/5 FTEs for Visa Security Program Expansion. The ICE 
        Visa Security Program provides follow-up investigations on visa 
        applicants seeking to enter the United States, for the purpose 
        of denying visas to terrorists, criminals, and persons of 
        special interest. Officers are assigned to posts to perform 
        this law enforcement review of immigrant and nonimmigrant visa 
        applications prior to visa issuance by consular officers of the 
        Department of State. This enhancement would allow ICE to 
        maintain operations initiated in fiscal year 2005 and support 
        one additional Visa Security Unit overseas.
  --$18.0 million/72 FTEs for Temporary Worker Worksite Enforcement. As 
        part of the President's proposed temporary worker program (TWP) 
        to match willing foreign workers with willing U.S. employers, 
        enforcement of immigration laws to ensure compliance is 
        required. The requested resources would fund 143 positions and 
        the required training to conduct employer audits, investigate 
        possible violations, and prepare criminal employer case 
        presentations. This funding more than doubles the resources 
        dedicated to the worksite enforcement effort.
  --$105.0 million for the Office of Investigations. This request 
        includes $105 million for salary and support costs, including 
        vehicle and other equipment purchases.
  --$3.5 million/24 FTEs for Legal Proceedings. This enhancement would 
        provide funding for additional attorneys and support staff 
        required to improve the ability of ICE's legal program to 
        complete matters in Immigration Court and help reduce the case 
        backlog.
  --$11.3 million/1 FTE for the Homeland Secure Data Network (HSDN). A 
        total of $37 million is required for the HSDN to provide for 
        secure classified, computer-to-computer connectivity. The HSDN 
        is expected to streamline and modernize the classified data 
        capabilities of DHS to facilitate high-quality and high-value 
        classified data communication and collaboration within DHS and 
        with other Federal agencies and organizations, including the 
        Department of Defense (DOD). Based on modern network and 
        telecommunications designs, the HSDN will optimize both the 
        classified data exchanges between DHS offices, and other 
        networks of classified data such as the Anti-Drug Network 
        (ADNET), Automatic Digital Network (AUTODIN), and Defense 
        Message System (DMS). The HSDN will provide a scalable 
        infrastructure, capable of supporting the growth and evolution 
        of the DHS mission. ICE's allotted portion in support of the 
        network is $11.3 million. Enhancement request includes one 
        position to serve as a liaison between ICE and DHS.
    The Federal Air Marshal Service (FAMS) has been charged with 
providing security in the skies since 9/11. The President's budget 
request will help FAMS to continue in that mission as we continue the 
evolutionary process of integrating this key Homeland Security division 
into the agency.
    Federal Air Marshal Service (FAMS).--The ICE fiscal year 2006 
President's budget seeks $14.8 million in The Federal Air Marshal 
Service (FAMS) has been charged with providing security in the skies 
since 9/11. The President's budget request will help FAMS to continue 
in that mission as we continue the evolutionary process of integrating 
this key Homeland Security division into the agency.
    Federal Air Marshal Service (FAMS).--The ICE fiscal year 2006 
President's budget seeks $9.9 million in enhancements for the Federal 
Air Marshal Service (FAMS). This enhancement request would allow the 
FAMS to increase its staffing level to a level that will allow it to 
meet its mission objective through the risk-based deployment of Federal 
Air Marshals. In accomplishing this objective, FAMS works closely with 
DHS and other Federal, State and local agencies and private industry to 
develop, deploy and sustain a comprehensive intelligence-driven 
approach and response to terrorist and related criminal threats against 
the United States and its interests. FAMS provides critical support to 
the DHS mission to prevent terrorist acts within the United States, 
reduce vulnerability to terrorism, and minimize damage from potential 
attacks.

                               CONCLUSION

    The President's fiscal year 2006 budget request for ICE is a solid 
step forward for the agency. ICE is dedicated to protecting the 
homeland by enforcing immigration and customs laws; restoring integrity 
to the immigration system; ensuring the sanctity of our financial and 
trade systems; protecting Federal property; and ensuring security in 
the air. That is a broad and diverse mission, but the men and women of 
ICE are dedicated to building this agency into a model for law 
enforcement in the 21st century. The fiscal year 2006 budget request 
provides us with the resources that will make this goal a reality as we 
strive to secure the American homeland and protect the American people. 
We look forward to continuing to work with you to accomplish these 
worthy objectives.
    I would like to thank you, Chairman Cochran, Senator Byrd, and 
Members of the Committee, for the opportunity to testify before you 
today. I look forward to answering any questions that you may have.

    Senator Cochran. Thank you very much, Mr. Garcia.
    Mr. Bonner, you may proceed.

                     STATEMENT OF ROBERT C. BONNER

    Mr. Bonner. Yes, thank you, Mr. Chairman, Senator Byrd, 
Senator Leahy. I am very pleased to be here this morning to 
discuss the fiscal year 2006 budget request for U.S. Customs 
and Border Patrol, or CBP. I am also very pleased to be here 
with my colleagues from the Department of Homeland Security, 
both Director Aguirre of CIS and Mike Garcia, the Assistant 
Secretary for ICE.
    I particularly want to thank the members of this 
subcommittee for your strong support of the work that CBP does 
every day 24-7 to protect and defend the borders of our 
country. As you know, CBP's priority mission is homeland 
security and for a front-line border agency, which is what we 
are, that means that CBP's priority mission is keeping 
terrorists and terrorist weapons from getting into the United 
States.
    The budget request for 2006 in my view will provide 
resources to perform our all-important priority mission, our 
anti-terrorism mission, as well as our traditional missions, 
which go from everything from interdicting illegal drugs at our 
border to determining admissibility of people appearing at our 
ports of entry to apprehending people illegally entering the 
United States, protecting American agriculture, regulating 
trade, as well as collecting about $27 billion in duties and 
fees.

                  FISCAL YEAR 2004 WORKLOAD STATISTICS

    The magnitude of our border task is reflected by just a few 
statistics from fiscal year 2006, because in fiscal year 2004 
CBP through its Border Patrol agents apprehended over 1.1 
million people illegally entering our country or attempting to 
enter our country, 1.1 million. By the way, you want to 
translate that? It is about 3,000 each and every day of the 
year, day and night.
    CBP officers at our ports of entry and Border Patrol agents 
collectively seized slightly over 2 million pounds, nearly 1 
million kilograms, of illegal drugs attempting to be entered 
through our ports of entry. That is 56,000, by the way, 
separate seizures of illegal drugs at our borders last year.
    We seized almost $46 million in cash and currency that was 
leaving the United States, much of that of course is from the 
proceeds of illegal drug trafficking. We just seized about $1.7 
million in cash in a vehicle a couple of days ago that was 
going outbound in a vehicle through the Port of Laredo back to 
Mexico.
    There were 450,000 aliens that were turned around at our 
ports of entry. By that I mean they were not allowed to enter 
the United States because they were determined to be 
inadmissible. There were 78,000 fraudulent passports and other 
documents that were seized and intercepted by CBP at our 
borders.

                         ONE FACE AT THE BORDER

    So it gives you an idea of the magnitude of the task, but 
it also tells you what we are doing and that the job is getting 
done. We have unified our work force to create one unified 
front-line border agency for managing and securing and 
controlling the borders of our country. We have developed a 
comprehensive border strategy at our ports of entry for our CBP 
officers and Agriculture specialists and between our ports of 
entry, primarily our land borders with Mexico and Canada, with 
our CBP Border Patrol agents.
    The transfer of the air and marine operations to CBP last 
November I believe further strengthens our effort to secure our 
borders, to interdict drugs at and beyond our borders, and to 
support our homeland security mission.

                       TRADE/TRAVEL FACILITATION

    We have moved forward on important initiatives set in 
motion after 9/11 to secure the movement of goods and people 
across our border and our ports of entry without unduly 
impeding the legitimate flow of trade, the flow of legitimate 
trade and travel that is so important to our economy.

            WEAPONS OF MASS DESTRUCTION DETECTION TECHNOLOGY

    We are also deploying more technology at our ports of entry 
and between them to help detect potential terrorists and 
terrorist weapons, including potentially weapons of mass 
destruction, and I am talking about nuclear devices and 
radiological weapons, at our borders. This includes, by the 
way, already the over 400 radiation portal monitors at many of 
our major ports of entry. We are in phases three and four of 
that project to deploy better radiation detection equipment at 
our borders.
    As I said, Mr. Chairman, because the personnel and 
functions from the front-line border agencies of our you have 
been unified into one border agency, our Nation's borders are 
more secure and our Nation is safer than it was when we were 
literally fragmented between four agencies and three different 
departments of government that were responsible for our border. 
With over 41,000 approximately FTE Customs and Border 
Protection, about one-fourth of all the employees of the 
Department of Homeland Security, is by far the largest actual 
merger of people and functions taking place in the Department.

                 COMPREHENSIVE BORDER CONTROL STRATEGY

    Having one border agency also allows us for the first time 
in the history of our country to implement a comprehensive 
border strategy, not just at our ports of entry but between our 
ports of entry as well. Between our ports of entry--along the 
Mexican border and the Canadian border--the strategic goal is 
clear. That goal is to establish operational control of our 
borders, which by the way I think was always an important goal 
for our country, but is absolutely essential, as Senator Byrd 
suggested in his comments. It is absolutely essential in the 
post-9/11 era, in the era of global terrorism.
    Now, to do this, by the way, it is not all about staffing. 
It is also about the better use and deployment of technology. 
It is about organizing ourselves better in terms of how we 
protect and secure our border. To do this, we have done a 
number of things that are not widely known. One is we have 
centralized the Border Patrol command structure and increased 
the use and deployment of technology, including remote camera 
system and sensoring devices. We are pioneering as the first 
law enforcement agency ever the use of unmanned aerial 
vehicles, or UAV's, to establish literally an aerial patrol 
over significant segments of our borders.
    But we recognize that technology alone, by the way, is not 
a substitute for well trained and dedicated Border Patrol 
Agents. One of our goals of our strategy to control the border 
is to increase our ability to more rapidly deploy Border Patrol 
Agents to respond to weak spots along our borders with Mexico 
and Canada.

                      CARGO/SUPPLY CHAIN SECURITY

    Let me just say one other thing. Just shortly after 9/11, 
U.S. Customs, now CBP, developed a strategy for securing the 
movement of cargo to the United States and we did that through 
essentially four interrelated initiatives: the 24-hour rule to 
get advance information on all cargo coming into the United 
States; the use of an automated targeting system to identify 
the high-risk cargo, particularly for the terrorist threat, and 
that is done at our National Targeting Center in Northern 
Virginia; the container security initiative, an initiative that 
partners with other governments to screen high-risk containers 
before they are loaded on board vessels for the United States. 
Currently there are 35 foreign seaports that are partnered with 
us in CIS, including ports like Singapore and Rotterdam, and 
most recently Shanghai, China.
    Through the Customs Trade Partnership Against Terrorism (C-
TPAT), our partnership with the private sector, many major 
importers in the United States, oceangoing carriers and others, 
to improve the security of the supply chain literally back to 
the manufacturer, the foreign loading docks of manufacturers in 
foreign countries, all the way to U.S. ports of arrival, in 
exchange for benefits of faster processing that CBP can give to 
goods of companies that have better secured their supply chain.
    Those initiatives provide greater protection for our 
country against potential terrorist attack and not a one of 
those initiatives existed before 9/11.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman, for letting me make an opening 
statement and for this opportunity to appear, and I look 
forward to answering any questions you or the other members may 
have.
    [The statement follows:]

                 Prepared Statement of Robert C. Bonner

                       INTRODUCTION AND OVERVIEW

    Chairman Cochran, Ranking Member Byrd, Members of the Subcommittee, 
it is a privilege and an honor to appear before you today to discuss 
U.S. Customs and Border Protection's (CBP) fiscal year 2006 budget 
request.
    I want to begin by expressing my gratitude to the Committee for the 
support it provided for important initiatives implemented by CBP last 
year. That support enabled CBP to make significant progress in securing 
our borders and protecting our country against the terrorist threat. As 
the Commissioner of CBP, I look forward to working with you to build on 
these successes.
    As the frontline border agency, CBP's mission is to prevent 
terrorists and terrorist weapons from entering the United States. That 
extraordinarily important priority mission means improving security at 
our physical borders and ports of entry, but it also means extending 
our zone of security beyond our physical borders--so that American 
borders are not our first line of defense.
    And we must do this while continuing to perform our traditional 
missions well. These missions include apprehending individuals 
attempting to enter the United States illegally, stemming the flow of 
illegal drugs and other contraband, protecting our agricultural and 
economic interests from harmful pests and diseases, protecting American 
businesses from theft of their intellectual property, regulating and 
facilitating international trade, collecting import duties, and 
enforcing U.S. trade laws. In fiscal year 2004, CBP processed almost 30 
million trade entries, collected $27 billion in revenue, seized 2.2 
million pounds of narcotics, processed 428 million pedestrians and 
passengers, 121 million privately owned vehicles, and processed and 
cleared 23.5 million sea, rail and truck containers.
    We must perform all of this important security and border-related 
work without stifling the flow of legitimate trade and travel that is 
so important to our Nation's economy. In other words, we have ``twin 
goals:'' Building more secure and more efficient borders.
    The fiscal year 2006 budget for CBP totals $6.7 billion, including 
$5.6 billion in appropriated resources and $1.1 billion from user fees. 
The total program increase request for fiscal year 2006 is $261 
million. This increase is paramount to help CBP fulfill its priority 
mission of preventing terrorists and terrorist weapons from entering 
the United States. As Commissioner, I will continue to ensure funds are 
devoted to support the traditional missions for which CBP is 
responsible, including resources for the automation and information 
technology programs that will improve overall operations of the agency.
    Mr. Chairman, although I will touch on each of the priority 
programs and initiatives in my statement, I want to point out that in 
many cases, funds spent in one area have a direct and positive impact 
on other areas. For example, funds spent on automation and information 
technology provide invaluable assistance to our priority mission of 
preventing terrorists and terrorist weapons from entering the United 
States. Also, funds spent on our priority anti-terrorism mission often 
result in improvements in our effectiveness and efficiency in carrying 
out our traditional missions, such as interdicting narcotics.
    By way of summary of the fiscal year 2006 budget for CBP, I can 
tell you that the program increases we are requesting include:
  --$125 million to continue the deployment and enhancement of Weapons 
        of Mass Destruction Detection Technology to our Nation's ports 
        of entry (POE);
  --$19.8 million for the continued deployment of surveillance and 
        intrusion detection technology along our Nation's land borders 
        through the America's Shield Initiative;
  --$36.9 million to hire 210 new Border Patrol Agents thereby 
        increasing border security and enhancing control of the borders 
        between the ports of entry;
  --$20 million to replace 12 of the Border Patrol's 58 Vietnam-era 
        vintage helicopters ensuring that Agents on the ground have 
        adequate and reliable air support;
  --$5.4 million to enhance and improve the efficiency our cargo, 
        conveyance and passenger screening systems ensuring that 
        legitimate trade and travel crosses our borders without delay 
        and that terrorists and their weapons, criminals or contraband 
        are intercepted before entering the United States;
  --$2.0 million for expansion of the Immigration Advisory Program to 
        additional overseas locations ensuring that terrorists, 
        criminals or persons traveling with fraudulent documents do not 
        board aircraft bound for the United States;
  --$5.4 million to expand the Container Security Initiative to 
        strategically important foreign seaports;
  --$8.2 million for the Customs-Trade Partnership Against Terrorism to 
        increase supply chain security and expedite the clearance of 
        legitimate trade;
  --$1.0 million for the operating expenses associated with the Arizona 
        Border Control Initiative;
  --$3.0 million for the operation of the Automated Biometric 
        Identification System (IDENT)/Integrated Automated Fingerprint 
        System (IAFIS) so that CBP Officers and Border Patrol Agents 
        can positively identify known terrorists and criminals 
        attempting to enter the United States;
  --$31.7 million to operate and maintain the long range radar system 
        in partnership with the Department of Defense, ensuring that 
        aircraft are detected and tracked as they attempt to enter U.S. 
        airspace; and
  --$3.2 million to contribute to the development of the DHS-wide 
        Homeland Security Data Network.
    In my statement, I will discuss these programs and others that CBP 
has been working on during the past year, and outline the actions CBP 
is planning to take in each area. I would like to begin, though, with a 
brief update for the Subcommittee on the status of CBP after its second 
year of existence as a consolidated agency within DHS.

             CUSTOMS AND BORDER PROTECTION--THE SECOND YEAR

    Fiscal year 2004 was the first full year that CBP operated as the 
single, unified border agency for the United States. From a strategic 
and operational standpoint, this consolidation has significantly 
increased our ability to execute our anti-terrorism and traditional 
missions at our Nation's borders more effectively than ever before, 
thereby enhancing the security of the United States, its citizens and 
the economy. I believe firmly that the United States is safer today 
than it was on September 11, 2001, because of the creation of CBP and 
the efforts and vigilance of CBP's personnel.

Achieve One Face at the Border
    With the creation of CBP, one agency has the responsibility for the 
entirety of our country's borders, for all purposes, customs, 
immigration, agriculture protection and, importantly, terrorism. This 
means that for the first time in our Nation's history, we are able to 
design a comprehensive strategy for our borders.
    To create ``One Face at the Border,'' CBP had to unify and 
integrate its operations and workforce. CBP is the largest merger of 
people and functions taking place within the DHS. Nowhere was 
unification more critical than at the ports of entry (POEs) where 
19,000 legacy Customs, Immigration and Agriculture inspectors joined 
together to carry out CBP's priority and traditional missions. To unify 
the Inspector workforce at the POEs, CBP established a new frontline 
team--the CBP officer and CBP Agriculture Specialist. In March 2004, 
former Agriculture Inspectors became CBP Agriculture Specialists and in 
July, all former Customs and Immigration Inspectors were converted to 
the CBP Officer position with a new series, title and job description. 
The two occupational groups wear the same uniform and have been unified 
under a single compensation system for overtime and premium pay, 
ensuring efficient and equitable assignment of work and compensation. 
This consolidation was commemorated in August when the new CBP badges 
with the DHS seal were issued to our personnel. Today CBP Officers and 
CBP Agriculture Specialists are our frontline team at all of our 
Nation's ports of entry and overseas pre-clearance locations.

Secure and Improve the Flow of Global Trade
    For the first time ever, on December 9, 2004, the World Customs 
Organization (WCO) Policy Committee endorsed a Framework of Standards 
to secure and facilitate global trade. The WCO represents 164 Customs 
administrations from around the world and accounts for 99 percent of 
all global trade. The framework is based in large part on principles 
designed and implemented by CBP in the aftermath of September 11, 
including: the 24-Hour Rule; the Advanced Targeting System located at 
the National Targeting Center; the Container Security Initiative, and 
the Customs-Trade Partnership Against Terrorism (C-TPAT). The WCO 
framework encourages cooperation among worldwide Customs 
administrations to secure international supply chains and facilitate 
the movement of legitimate trade and travel.

Develop and Implement a Comprehensive Border Control Strategy
    As a sovereign Nation, it has always been important that we control 
our borders. In light of the terrorist attacks of September 11, and the 
continuing threat posed to our country by international terrorists, it 
is now absolutely essential that we do so. and it is likewise essential 
that we have a coherent and understood strategy for doing so. We are 
developing a new Border Patrol strategy designed to achieve the goal of 
operational control of the United States borders. This strategy will 
build on the previous Border Patrol strategies, but will be enhanced to 
reflect the current threat environment.
    CBP's Office of Border Patrol is a vital part of CBP, responsible 
for controlling the border between official ports of entry. In the last 
2 years, the Border Patrol has made significant strides in improving 
our ability to control our border and establish a substantial 
probability of apprehending terrorists and their weapons as they 
attempt to illegally enter the United States between the ports of 
entry. For example, CBP has tripled the number of Border Patrol Agents 
on the Northern Border since 9/11, centralized the Border Patrol's 
command structure, and deployed additional technology to improve border 
enforcement operations, including cameras, electronic sensors, and 
Unmanned Aerial Vehicles.
    As important as these milestones are, we cannot afford to become 
complacent or let down our guard. To meet the threat of global 
terrorism, we must implement a layered, defense in-depth strategy to 
protect our borders. New challenges and opportunities are on the 
horizon for CBP. Our achievements over the past year and the 
President's fiscal year 2006 budget will serve as the foundation to 
meet them.

Integrate Air and Marine Operations
    The fiscal year 2005 Department of Homeland Security (DHS) 
Appropriations Act directed the transfer of missions and assets of the 
Air Marine Operations (AMO) from Immigration and Customs Enforcement 
(ICE) to CBP. The transfer will be completed in two phases. Phase One, 
which was completed on October 31, 2004, moved AMO intact from ICE to 
CBP. This included the transfer of operational responsibility and 
responsibility for all AMO personnel, missions, commitments, 
facilities, and assets to CBP.
    Phase Two, which commenced in late November, is the integration of 
all CBP air and marine personnel, missions, and assets. To accomplish 
this, CBP is using the Transition Management Office (TMO) process that 
was used successfully during the merger of the legacy CBP entities. CBP 
has made significant progress in Phase Two. I am confident that upon 
completion of this process, we will have a more integrated, effective 
and efficient aviation and marine program.

Provide Assistance to the New Government of Iraq
    In August, teams of CBP Officers and Border Patrol Agents were 
deployed to the Jordanian International Police Training Center to train 
officers of the Iraqi Department of Border Enforcement. The Iraqis have 
been provided with courses on border security tactics, human rights, 
defensive tactics, weapons training, and vehicle searches; in addition 
to basic customs and immigration activities. To date, CBP personnel 
have assisted in the training of more than 2,100 Iraqi border control 
officers. The training provided by CBP personnel will continue in the 
aftermath of the recent elections and focuses on keeping saboteurs, 
terrorists and armaments from crossing into or out of Iraq. The Iraqi 
officials CBP trained are now putting these skills to use at their 
country's borders and ports of entry.
meeting our twin goals: building more secure and more efficient borders
    As the single, unified border agency of the United States, CBP's 
mission is extraordinarily important to the protection of America and 
the American people. In the aftermath of the terrorist attacks of 
September 11th, CBP has developed numerous initiatives to meet our twin 
goals of improving security and facilitating the flow of legitimate 
trade and travel. The fiscal year 2006 budget will help us expand upon 
those initiatives to ensure further protection of both the American 
people and the American economy. Our strategy in implementing these 
initiatives involves a number of factors, including: (A) constant 
improvement of our targeting systems to better screen people and goods 
entering and departing the United States; (B) extending our zone of 
security outward by partnering with other countries; (C) extending our 
zone of security outward by partnering with the private sector; (D) 
deploying advanced inspection technology and equipment at our ports of 
entry to improve our ability to detect weapons of mass destruction; and 
(E) deploying advanced detection and monitoring equipment between our 
ports of entry to detect illegal crossings of our land borders with 
Mexico and Canada.

Enhancing Our Ability to Identify High-Risk People and Cargo
    Information is one of the most important keys to our ability to 
increase security without stifling legitimate trade and travel. Good 
information enables us to more accurately identify--or target--what is 
``high risk,'' defined as a potential threat, and what is low risk or 
absolutely no risk whatsoever. The separation of high risk from no risk 
is critical because searching and scrutinizing 100 percent of the cargo 
and people that enter the United States would cripple the flow of 
legitimate trade and travel to the United States. What is necessary and 
advisable is searching 100 percent of the high-risk cargo and people 
that enter our country. To do this, we need to be able to identify what 
is high risk, and do so as early in the process as possible. CBP has 
several programs and initiatives that help us accomplish that task.

            Automated Targeting System
    The Automated Targeting System (ATS), which is used by National 
Targeting Center (NTC) and field targeting units in the United States 
and overseas, is essential to our ability to target high-risk cargo and 
passengers entering the United States. ATS is the system through which 
we process advance manifest and passenger information to pick up 
anomalies and ``red flags'' and determine what passengers and cargo are 
``high risk,'' and therefore scrutinized at the port of entry or, in 
some cases, overseas.
    The funding increases sought for ATS in the fiscal year 2006 budget 
will allow for the continued improvement of the system as well as 
provide it with the capacity to process the electronic data related to 
the ever-increasing number of people and goods entering the United 
States. For example, the funding will allow us to develop and implement 
a version of ATS that, for the first time, will be able to identify 
potentially high-risk travelers in passenger vehicles. It will also be 
used to upgrade our passenger targeting system by improving the amount 
of government data that the system can access and analyze as well as 
provide us with the capacity to train more people on the use of the 
system. On the cargo side, the funding will permit ATS to increase its 
capacity and upgrade its capabilities by utilizing cutting edge 
information analysis technologies developed by CBP and the private 
sector.

Extending our Zone of Security Outward--Partnering with Other Countries
            Container Security Initiative (CSI)
    To meet our priority mission of preventing terrorists and terrorist 
weapons from entering the United States, CBP must extend our zone of 
security outward--so that our borders are not the first line of defense 
to keep terrorists and terrorist weapons out of the United States. We 
have done this by partnering with other countries on our Container 
Security Initiative (CSI), one of the most revolutionary and successful 
homeland security initiatives developed and implemented after September 
11, 2001.
    Almost 25,000 seagoing containers arrive and are off loaded at U.S. 
seaports each day. That equates to nine million cargo containers 
annually. Because of the sheer volume of sea container traffic and the 
opportunities it presents for terrorists, containerized shipping is 
uniquely vulnerable to terrorist attack. Under CSI, which is the first 
program of its kind, we are partnering with foreign governments to 
identify and inspect high-risk cargo containers at foreign ports, 
before they are shipped to our seaports and pose a threat to the United 
States and to global trade.
    The three core elements of CSI are:
  --First, identifying ``high-risk'' containers, using ATS and the 24-
        hour rule, before they set sail for the United States.
  --Second, performing security inspections of ``high risk'' containers 
        at the foreign CSI port before they are shipped to the United 
        States.
  --Third, using technology to perform security inspections of the 
        high-risk containers, including both radiation detection 
        equipment and large-scale imaging machines, to detect potential 
        terrorist weapons.
    CSI continues to generate exceptional participation and support. 
Right now, CSI is operational in 35 foreign seaports, including: 
Rotterdam, the Netherlands; Le Havre and Marseilles, France; 
Bremerhaven and Hamburg, Germany; Antwerp and Zebrugee, Belgium; 
Singapore; Yokohama, Tokyo, Nagoya and Kobe Japan; Hong Kong; 
Gothenburg, Sweden; Felixstowe, Liverpool, Southampton, Thamesport, and 
Tilbury United Kingdom; Genoa, La Spezia, Naples, Gioia Tauro and 
Livorno Italy; Busan, Korea; Durban, South Africa; and Port Kelang and 
Tanjung Pelepas, Malaysia; Piraeus, Greece; Algericas, Spain; and Laem 
Chabang, Thailand; Halifax, Montreal and Vancouver, Canada; and most 
recently Shanghai, China.
    I want to express my gratitude to the Committee members for their 
support of CSI in fiscal year 2005. With the $5.4 million increase in 
funding requested for fiscal year 2006, we will continue expanding CSI 
capabilities to ports with strategic importance or ports through which 
containers from high risk areas are transshipped. The fiscal year 2006 
budget will allow for future expansion of the program to additional 
high-risk or strategic foreign ports.

            Immigration Advisory Program
    The Immigration Advisory Program (IAP) extends our zone of security 
outward by screening passengers before boarding aircraft destined for 
the United States. Immigration Advisory Program teams identify high 
risk and terrorist watchlisted passengers using the Automated Targeting 
System and are able to intervene by questioning high risk passengers at 
overseas boarding areas of foreign hub airports. They are able to check 
documentation of high-risk passengers prior to departure and make 
preliminary decisions whether the passenger will be admissible to the 
United States upon arrival. If potentially fraudulent identification or 
immigration documents are identified, or the individual's purpose poses 
a threat, the airline is advised not to board the passenger and the 
host country law enforcement is contacted. The IAP teams have access to 
the passenger screening information produced by CBP's NTC through the 
vetting of passenger manifests against terrorist watch lists and 
criminal databases. If a ``hit'' occurs or documents are found to be 
deficient or fraudulent, the passenger is not allowed to board the 
aircraft. There are two significant advantages to this approach. First, 
terrorists, criminals or inadmissible aliens are not allowed to board, 
thereby preventing their entry into the United States and/or the 
inconvenience and expense of an in flight diversion of the aircraft. 
Second, the United States Government avoids penalties and the costs of 
detaining the individual before being deported and the airline avoids 
the costs of transporting the individual back to the originating 
airport.
    IAP is currently operating on a pilot basis in Amsterdam's Schipol 
Airport in the Netherlands and at Chopin Airport in Warsaw, Poland. The 
fiscal year 2006 budget includes $2.0 million to expand IAP to two 
additional overseas locations. I thank the Committee for their support 
of this program in the fiscal year 2005 DHS Appropriations Act.

Extending our Zone of Security--Partnering with the Trade
            Customs-Trade Partnership Against Terrorism (C-TPAT)
    The Customs-Trade Partnership Against Terrorism (C-TPAT) is a 
voluntary partnership between CBP and industry to secure international 
supply chains from end-to-end. C-TPAT importers secure supply chains 
from the foreign factory loading docks of their vendors to the port of 
arrival in the United States. CBP, in return, offers C-TPAT shipments 
expedited processing and provides C-TPAT participants with other 
benefits.
    As C-TPAT has evolved, we have steadily added to the rigor of the 
program. In order to join C-TPAT, a company must conduct a self-
assessment of its current supply chain security procedures using C-TPAT 
security criteria and best practices developed in partnership with 
logistics and security experts from the trade. A participant must also 
commit to increasing its supply chain security to meet minimal supply 
chain security criteria. Perhaps most importantly, participants also 
make a commitment to work with their business partners and customers 
throughout their supply chains to ensure that those businesses also 
increase their supply chain security. By leveraging the influence of 
importers and others on different participants in the supply chain, C-
TPAT is able to increase security of U.S. bound goods to the point of 
origin (i.e., to the point of container stuffing). This reach--to the 
foreign loading dock--which is beyond the regulatory reach of the 
United States Government, is critical to the goal of increasing supply 
chain security.
    C-TPAT is currently open to all importers, cross-border air, sea, 
truck, and rail carriers, brokers, freight forwarders, consolidators, 
non-vessel operating common carriers, and U.S. Marine and Terminal 
operators. We are currently enrolling certain foreign manufacturers in 
the C-TPAT program as well, and we will continue to develop ways to 
include this important element of the supply chain in the program. The 
intent is to increase point of origin to point of arrival security into 
the supply chain with active C-TPAT links at each point in the 
logistics process.
    Although C-TPAT is a partnership, the risk is too great to simply 
take participants at their word when it comes to their supply chain 
security. We have created a cadre of specially trained supply chain 
security specialists to validate the commitments made by C-TPAT 
participants--to ensure that they are increasing supply chain security 
as they have promised CBP. These specialists meet with personnel from 
C-TPAT participants and their business partners and observe the 
security of their supply chains, including security at overseas loading 
docks and manufacturing plants, as well as transportation links 
outbound to the United States. Through this process, we work with C-
TPAT participants to identify ways that they can further increase their 
supply chain security and we ensure that companies that are not 
honoring their commitments lose their C-TPAT benefits. As of January 
12, 2005, C-TPAT had reviewed and verified the security profiles for 
4,460 companies; there are more than 3,500 company profiles pending 
acceptance. We have validated or are in the process of validating parts 
of the supply chain of over 1,200 of the 4,460 certified partners, or 
approximately 27 percent. Our fiscal year 2006 program increase request 
of $8.2 million will enable outreach activities and continue 
validations and verifications of C-TPAT certified partner profiles.

Using Technology to Detect Weapons of Mass Destruction at our Ports of 
        Entry
    As trade increases, CBP's reliance on Non-Intrusive Inspection 
(NII) technology to secure the borders becomes more and more critical. 
Only by using NII technology to speed the inspections process for 
weapons of mass destruction (WMD) and contraband can CBP meet its twin 
goals of increasing security and at the same time facilitating trade.
    CBP uses various technologies in different combinations to 
substantially increase the likelihood that a nuclear or radiological 
weapon or weapons grade material will be detected. In addition, CBP 
also uses NII technology to detect and interdict narcotics, currency 
and other contraband secreted in large containers and commercial 
shipments. Technologies deployed to our Nation's land, sea and air 
ports of entry include large-scale X-ray and gamma-imaging systems--
systems that can image the contents of an entire container in minutes. 
These systems include the Vehicle and Cargo Inspection System (VACIS), 
Mobile VACIS, Truck X-ray, Mobile Truck X-ray, Rail VACIS, Mobile Sea 
Container Examinations Systems and the Pallet Gamma-ray System. In 
September 1996, our first large-scale NII system, a Truck X-ray, became 
operational in Otay Mesa, California. Today, we have 145 large-scale 
NII systems deployed.
    In addition, we have developed and are implementing a comprehensive 
radiation detection strategy at our ports of entry. Pursuant to that 
Strategy, we are deploying nuclear and radiological detection equipment 
to include personal radiation detectors (PRDs), radiation portal 
monitors (RPMs) and radiation isotope identifier devices (RIIDs). In 
combination with our layered detection strategy--working overseas to 
prevent the proliferation of nuclear materials and to detect them 
before they are shipped to the United States--and our use of multiple 
inspection technologies, these tools currently provide CBP with 
significant capacity to detect nuclear or radiological weapons and 
materials. We currently have over 400 RPMs deployed at our borders.
    The fiscal year 2006 request includes $125 million to continue the 
acquisition, deployment, and enhancement of Weapons of Mass Destruction 
Detection Technology at our Nations ports of entry. These actions will 
be coordinated with the Domestic Nuclear Detection Office (DNDO), which 
is being established to develop, acquire and support the deployment of 
the national nuclear detection architecture, including future 
acquisition issues. CBP's radiation detection strategy will be 
integrated into the overall strategy developed by DNDO.
    Our investment in WMD Detection technology is paying off as 
demonstrated by the following recent event. On January 26, 2005, at the 
Los Angeles seaport a PRD activated in proximity to a vessel from Kwan 
Yang, South Korea. A search of the vessel revealed that the source of 
the radiation was located in the ship's engine room. Subsequent 
screening with a Radiation Isotope Identifier and analysis by CBP 
Laboratory and Scientific Services Personnel stationed at the NTC 
revealed that the material was Cobalt 60, a material used in industrial 
and medical applications. Following coordination with the Science and 
Technology Directorate's Secondary Reachback Program, scientists were 
dispatched from the Department of Energy Radiation Assistance Program 
and it was confirmed that the radiation levels posed no threat to 
safety and that it was emanating from a gauge in the ship's fire 
extinguishing system. Although this alarm proved to be benign, the 
event demonstrates CBP's improving ability to detect sources of 
radiation in conveyances arriving at our borders and quickly take 
appropriate action to resolve any potential threats. Indeed, since CBP 
installed the first RPMs in May 2002, we have resolved over 10,000 
radiation hits of vehicles or cargo shipments crossing our borders.

Detecting and Responding to Illegal Crossings Between our Ports of 
        Entry
            America's Shield Initiative (ASI)
    The America's Shield Initiative, formerly known as the Integrated 
Surveillance Intelligence System (ISIS), is an effort to develop a 
comprehensive and unified system of electronic surveillance of our 
entire land borders. ASI is a critical part of CBP's strategy to build 
smarter borders. This, in turn, is critical to the Border Patrol's 
ability to increase its apprehension capabilities along our borders, 
and thereby establish greater control of our borders. The deployment of 
ASI is critical to prevent terrorists from entering the United States 
and to achieve operational control of our Nation's borders.
    I thank the Committee for the $64.2 million provided for ASI in the 
fiscal year 2005 Appropriations Act. These resources are being used to 
solicit and award a contract for the nation-wide integration of legacy 
ISIS capabilities and to deploy additional systems along our borders. 
Nation-wide integrated ASI capabilities will provide the Border Patrol 
with a tactical, command and control, situational awareness and 
intelligence collection and management system. The $19.8 million 
requested for fiscal year 2006 would enable CBP to broaden 
substantially its ASI coverage of the northern and southern borders by 
deploying the system where no coverage currently exists. In addition, 
with the advent of ASI, system capabilities will be improved to enhance 
the sensor and video surveillance capabilities of currently installed 
components, integrate new, state of the market surveillance 
technologies and increase interoperability with other law enforcement 
agencies.
    ASI acts as an important force-multiplier that allows CBP's Border 
Patrol agents to remotely monitor the border and respond to specific 
illegal border crossings rather than having to exhaustively patrol an 
area adjacent to the border. By contrast, Border Patrol operations 
without ASI support are not only less effective, they are more 
resource-intensive and less safe for Border Patrol Agents. Expanding 
the portion of the border covered by electronic surveillance, 
integration of new components and technologies, and improved Agent 
support equipment via the ASI program will provide the Border Patrol 
with the increased ability to meet its and CBP's priority mission 
threats.

            Border Patrol Aircraft Modernization and Replacement
    Aviation is one of the most effective force multipliers used in 
securing our Nation's borders. Aircraft perform a multitude of missions 
in this environment, including border surveillance, operational patrol, 
personnel deployment to permit rapid response to intrusions, and 
medical evacuation. In fiscal year 2004, CBP Border Patrol Aircraft 
flew almost 46,000 hours, apprehending 96,341 persons and assisted in 
seizing $103.6 million in illegal narcotics. This equates to 2.1 
arrests and $2,259 in seized contraband for each flight hour. The 
largest segment of the Border Patrol fleet is its helicopters; 
including 58 that are Vietnam era vintage. The high level of fight time 
is taking its toll on these important assets. New parts are no longer 
manufactured, requiring that salvaged parts be used to repair broken or 
damaged aircraft. The $20.0 million requested will allow CBP to begin 
implementation of the fleet modernization and replacement plan through 
the acquisition of 12 new helicopters. This initiative will improve 
Border Patrol Agent safety and ensure that these valuable assets, 
essential to effective border control, continue to be available to our 
frontline personnel.

            Border Patrol Agent Staffing
    An increase of $36.9 million is included in the fiscal year 2006 
budget to enhance Border Patrol staffing by 210 Agents. The additional 
Agents will be deployed along the southwest border to areas with the 
highest concentration of illegal entry activity. To date in, fiscal 
year 2005, there has been a 15 percent increase in apprehensions along 
the southwest border when compared to the aliens from the same time 
period in fiscal year 2004. In addition, there has been an increase in 
the number of Special Interest Aliens (SIA) and High-Risk Other Than 
Mexican illegal entrant aliens that pose an increased threat to U.S. 
national security. CBP has experienced significant operational success 
in targeted areas. Additional Agents and supporting resources are 
necessary to sustain and expand the progress made in border control 
efforts.

            Arizona Border Control Initiative-ABCI
    This landmark program supporting the mission of CBP to detect and 
deter terrorist activities and cross-border illegal trafficking of 
people and drugs was initiated on March 16, 2004, in the Border 
Patrol's Tucson Sector. Working in partnership with Immigration and 
Customs Enforcement (ICE), the government of Mexico, state, local, 
tribal and Federal law enforcement organizations, the CBP Border 
Patrol-led ABCI was designed to produce a safer and more secure 
southwest border at one of the weakest segments of our border with 
Mexico.
    The goals of ABCI were and are to: (1) achieve operational control 
of the Arizona border (2) support CBP's priority antiterrorism mission; 
(3) significantly impair the ability of smuggling organizations to 
operate; and (4) decrease the rate of violent crime and reduce the need 
for social services in southern Arizona. In fiscal year 2004, as part 
of ABCI, CBP repatriated 14,058 Mexican nationals on a voluntary basis 
to the interior of Mexico by means of commercial flights. This is the 
first successful interior repatriation effort, and it is a result of 
cooperation of and coordination with the Government of Mexico. These 
flights decreased the incidence of border crossing recidivism and 
reduced the number of heat related exposure deaths in the Arizona 
desert by 69 percent--from 45 in fiscal year 2003, to 14 in fiscal year 
2004 (during the period of July 12th through September 30th). ICE will 
assume responsibility for the interior repatriation flights in fiscal 
year 2006. Our fiscal year 2006 budget request of $1.0 million will 
assist in offsetting the costs of CBP's continued participation in the 
ABCI. These resources will be used for Border Patrol Agent support 
costs and other operational expenses including fuel, vehicle 
maintenance, and overtime associated with increased border surveillance 
within the Arizona area of operation.

            Long Range Radar
    The fiscal year 2006 CBP budget includes a total of $44.2 million, 
an increase of $31.7 million over base resources for our share of the 
joint agreement with the Department of Defense (DOD) to assume 
financial responsibility for the operations and maintenance costs of 
the primary component of the Federal Aviation Administration (FAA) 
long-range radar system. Beginning in fiscal year 2006, CBP and DOD 
will share these costs equally.
    Continued access to the primary component of the long-range radar 
system is essential to our ability protect the United States from acts 
of terrorism and drug smuggling via cross-border aviation. The FAA's 
primary radar system is used to track aircraft that either do not have 
transponders or have their transponders turned off in an attempt to 
avoid radar detection. Most small, non-commercial aircraft do not have 
transponders and these are the vehicle of choice for smugglers 
attempting to bring loads of cocaine, marijuana and heroin to the 
United States from Mexico and other source countries in Central and 
South America.

            IDENT/IAFIS
    The Automated Biometric Identification System/Integrated Automated 
Fingerprint Identification System otherwise known as IDENT/IAFIS, was 
established to merge the capabilities of the FBI's criminal master 
fingerprint file and the former Immigration and Naturalization 
Service's immigration violator database. These systems have been 
integrated into one system that captures biometric and biographical 
information through the use of a ``10 Print'' fingerprint machine and 
computer based facial imagery. The goals of the system are to identify 
repeat immigration offenders and identify criminals and previously 
deported aliens who should be detained. IDENT/IAFIS provides CBP's 
front line personnel with access to approximately 48 million criminal 
history records dating back to the 1920's. All Border Patrol field 
locations now have access to integrated IDENT/IAFIS and all CBP Ports 
of Entry will have access to the system by the end of this year. 
Previous studies indicate that combining IDENT and IAFIS checks 
increases the probability of identifying criminal aliens by almost 10 
percent. In addition, significant efficiencies are gained by being able 
to electronically scan fingerprints to and get a response back from the 
databases within ten minutes. From October 1, 2003, through August 31, 
2004, IDENT/IAFIS technology assisted Border Patrol Agents in the 
arrest of 138 homicide suspects; 67 kidnapping suspects; 226 sexual 
assault suspects 431 robbery suspects; 2,342 suspects for assaults of 
other types and 4,801 suspects involved with illegal drugs.
    The Directorate of Border and Transportation Security has assumed 
ownership of the IDENT/IAFIS system. The fiscal year 2006, $3.0 million 
budget initiative will offset CBP's share of IDENT/IAFIS operations and 
maintenance costs.

                   AUTOMATION/INFORMATION TECHNOLOGY

    Mr. Chairman, no discussion of a successful strategy to protect the 
American people and the American economy in the 21st century would be 
complete without consideration of the central importance of automation 
and information technology to CBP's mission.
Automated Commercial Environment
    The Automated Commercial Environment (ACE) is an important project 
for CBP, for the business community, for our country, and for the 
future of global trade. If done properly, it will reform the way we do 
business with the trade community. It will also greatly assist CBP in 
the advance collection of information for targeting high-risk cargo to 
better address the terrorist threat. And in doing so, it will help us 
expedite the vast majority of low-risk trade.
    The successful implementation of ACE has been and continues to be 
one of my top priorities as Commissioner. Increasing support from 
Congress and the Administration for ACE has been essential to the 
development of the new system. Funding of $321 million in fiscal year 
2005 has enabled us to continue development and begin to expand the 
first installment of ACE benefits to the trade community. Indeed, since 
my testimony last year, I can tell you that the development of ACE and 
the efforts to put its capabilities to work on America's borders have 
continued full throttle. We have over 350 importers, brokers, and 
carriers using the ACE Secure Data Portal and, since June 2004, have 
been collecting an increasing amount of duties and fees via the ACE 
Period Monthly Statement. CBP is also operating a pilot test of the ACE 
truck cargo release software in the port of Blaine, Washington, and 
plans to expand this new capability to ports across our northern and 
southern borders. In parallel with this development, CBP is working 
with the DHS Chief Information Officer and the US-VISIT program to 
ensure compliance with the DHS Enterprise Architecture and position the 
ACE architecture so that it can be leveraged to support the broad 
homeland security mission.
    Included within the $321 million for ACE is $16 million dedicated 
to continuing support of the International Trade Data System (ITDS). 
ITDS is our mechanism for coordinating intergovernmental support for 
ACE and ensuring that ACE meets the needs of government agencies with a 
need for trade data and a stake in border security. To that end, the 
ITDS Board of Directors has adopted a standard set of trade data as a 
step toward realizing the concept of using the ACE portal as the 
``single window'' into government for the trade community. We are 
pleased to report that the original group of eight participating 
agencies in ITDS has now grown to twenty-six. Representatives from 
these agencies are actively involved in defining the releases of ACE 
software.
    I want to thank Congress again for its past support of ACE. The 
continued support of ACE with $321 million in funding for fiscal year 
2006 will enable us to keep pace with our schedule for future ACE 
releases including:

            Account Revenue and Secure Trade Data
    ACE Release 5, scheduled to be complete in fiscal year 2007 will 
leverage the inherent capabilities of CBP's core financial system, SAP. 
Release 5 will integrate the entry summary business process from 
manifest receipt to entry liquidation. Through this release, ACE will 
become the system of record for all entry summaries.

            Screening and Targeting Capabilities
    The Targeting Foundation scheduled for release during fiscal years 
2005 and 2006 will extend ACE capabilities to entry summary processing 
through enhanced links to the NTC and its systems. Advanced Targeting 
capabilities will be expanded providing risk assessment and modeling, 
data mining, link analysis and pattern recognition capabilities.
Homeland Security Data Network--HSDN
    The Homeland Security Data Network addresses the Department of 
Homeland Security's requirement for a system capable of managing and 
disseminating sensitive and classified information in a secure 
environment. The HSDN effort will streamline and modernize the 
classified data transmission capabilities of DHS in order to facilitate 
communication and collaboration within DHS and with other Federal 
agencies including the Department of Defense. When implemented, the 
HSDN will facilitate transmission of data between DHS offices and other 
networks including the Anti-Drug Network (ADNET), Automatic Digital 
Network (AUTODIN) and the Defense Message System (DMS). HSDN will 
provide a scalable infrastructure, capable of supporting the growth and 
evolution of the DHS mission. CBP's share of this DHS-wide initiative 
is $3.2 million in fiscal year 2006.

                       OTHER TRADITIONAL MISSIONS

    Although CBP's priority mission is preventing terrorists and 
terrorist weapons from entering the United States, we know that we 
must--and will--accomplish that priority mission while continuing to 
perform our traditional missions well. Included among those missions 
are our responsibilities for interdicting drugs, apprehending 
individuals who enter the United States illegally, regulating and 
facilitating international trade, and protecting U.S. agricultural and 
economic interests from harmful pests and diseases.

Drug Interdiction
    Our anti-terrorism and counter-narcotics missions are not mutually 
exclusive, and one does not necessarily come at the expense of the 
other. The initiatives we have put in place to prevent terrorists and 
terrorist weapons from entering the United States have enabled us to be 
more effective in seizing other illegal contraband, including illegal 
drugs. Indeed, one of the first results we saw after implementing ATS 
for commercial trucks on the land border was a large narcotics seizure 
from a targeted shipment. And, it is worth noting that the lessons we 
have learned in our battle against international drug trafficking will 
help us in the fight against international terrorism.
    It would be a grave mistake for drug traffickers and other 
criminals to misinterpret our focus on terrorism as a weakening of 
resolve on other fronts. If anything, we have made life even more 
miserable for drug smugglers as we have intensified our overall 
presence along America's borders. Our heightened state of security 
along America's borders has strengthened, not weakened, our 
counternarcotics mission. As we have added staffing for both inspectors 
at the ports of entry and Border Patrol Agents between the ports of 
entry, acquired more inspection technology, conducted more questioning 
of travelers, and carried out more inspections of passengers and goods 
in response to the terrorist threat, we have seized greater amounts of 
narcotics. In fiscal year 2004, for example, we seized almost 2.2 
million pounds of illegal drugs, and made some of the largest 
individual seizures ever recorded by officers safeguarding our borders.
    The CBP Office of Air and Marine Operations (AMO) protects the 
Nation's borders and the American people from the smuggling of 
narcotics and other contraband with an integrated, coordinated and 
highly trained air and marine interdiction force. To accomplish the 
mission, AMO's thoroughly trained interdiction assets are deployed 
throughout the Western Hemisphere. The Air and Marine Operations Center 
(AMOC) in Riverside California, provides command, control, 
communications, and intelligence for those assets by assimilating 
information from a wide array of sensors.
    Effective coordination between inspectors at the ports of entry and 
agents who carry out investigative activities is essential to the 
success of our counternarcotics mission. For that reason, CBP will 
continue to cooperate closely with special agents from ICE to carry out 
this mission.

Apprehend Individuals Entering Illegally Between the Ports of Entry
    CBP's Office of the Border Patrol is specifically responsible for 
patrolling thousands of miles of Mexican and Canadian international 
land borders. Its primary task is securing America's borders between 
official ports of entry by preventing the illegal entry of people, 
goods, and contraband across our borders.
    The Border Patrol relies on agents, enforcement equipment (such as 
a fleet of specialized aircraft and vehicles of various types), 
technology (such as sensors and night vision cameras), tactical 
infrastructure (such as roads and vehicle barriers), and intelligence 
to carry out its mission. Applied in the correct combination, these 
resources can effectively deter, detect, monitor, and respond to 
illegal border crossings, as we have seen in locations such as the San 
Diego Sector and during operations such as Desert Safeguard.
    In fiscal year 2004, the Border Patrol played a key role in 
safeguarding the United States from the entry of terrorists, criminals, 
and illegal immigrants. Among the nearly 1.2 million people apprehended 
by the Border Patrol in fiscal year 2004 were 643 aliens from special 
interest countries.
    CBP will continue to work with other agencies and the Mexican 
Government to re-institute and increase the operational tempo of the 
Arizona Border Control Initiative this year. Under this initiative, CBP 
will aim to substantially reduce the number of illegal entries that 
occur in Arizona, and, as a result, will reduce the number of deaths 
that occur as aliens try to cross the Arizona desert. In turn, CBP will 
increase its ability to apprehend potential terrorists seeking to enter 
through the Arizona corridor.

Prevent Individuals from Entering Illegally at the Ports of Entry
    With respect to preventing individuals from entering the country 
illegally at the ports of entry, CBP continues to stop hundreds of 
thousands of people a year who are inadmissible into the United States 
for a variety of reasons, including prior immigration violations, 
criminal history, or the possession of false or fraudulent documents, 
and potential terrorists.
    We are helped in this effort by our close work with the Department 
of State to ensure CBP inspectors have the tools they need to verify 
the identity of visa holders and the authenticity of visas issued by 
the Department of State. Data on holders of immigrant visas is 
transferred electronically to ports of entry. When the electronic 
record is updated to reflect an immigrant's admission at a port of 
entry, that data is transferred electronically to the Bureau of 
Citizenship and Immigration Services (CIS) for production of a 
permanent resident card and creation of the immigrant file.
  --In fiscal year 2004, CBP processed more than 262 million aliens 
        attempting to enter the United States through the ports of 
        entry; 643,091 were deemed inadmissible under U.S. law. CBP 
        Officers also intercepted: 78,255 fraudulent immigration 
        documents; recorded 1.8 million lookout intercepts; and, 
        apprehended 399 travelers for terrorism or national security 
        concerns. In addition, 19,740 criminal aliens attempting entry 
        were not admitted and 566 stowaways were intercepted.

Regulate and Facilitate International Trade
    CBP maintains responsibility for regulating and facilitating 
legitimate international trade. As I mentioned earlier, many of the 
initiatives CBP implements serve the twin goals of increasing security 
and facilitating trade. With the right level of industry partnership 
and the right combination of resources, we can develop innovative 
solutions that not only protect legitimate trade from being used by 
terrorists, but also create a better, faster, more productive system 
for moving goods and people across our borders and thus contributing to 
U.S. economic growth. The key to the success of this effort is 
partnerships, and we devote considerable time and effort to dialogue 
and interact with both large and small enterprises engaged in trade.
    We have two major venues for engaging the trade community on an 
ongoing basis. The Commercial Operations Advisory Committee, created 
under the Federal Advisory Committee Act, is the primary group that 
provides advice on the CBP issues. The Committee meets quarterly and 
holds lively discussions on the full range of critical issues on our 
common agenda. The COAC was particularly important in helping us 
implement the Trade Act, and they most recently have worked on a series 
of measures to implement the Maritime Trade Security Act and to improve 
the Customs-Trade Partnership Against Terrorism (C-TPAT).
    Another key group of our private sector partners is the Trade 
Support Network (TSN), whose members work on developing specific 
requirements for the Automated Customs Environment to ensure ACE 
delivers the critical functionality required by both CBP, the trade and 
other government agencies. The TSN recently created a Supply Chain 
Security Committee, which will be the focal point for helping us 
identify information required to achieve the end-to-end view of the 
supply chain and identify the parties capable of reporting that data.
    As I have indicated, we have continued to work with the trade on 
these security and trade facilitation matters over the past year, and 
we will continue to do so in the year ahead. In fiscal year 2004, CBP 
processed 27.6 million entries of goods, a 7.9 percent increase over 
fiscal year 2003 levels and processed 23.5 million sea, truck and rail 
containers entering the United States, an increase of 5.5 percent over 
fiscal year 2003. CBP also collected more than $27 billion in revenue 
in fiscal year 2004: second only to the Internal Revenue Service in the 
Federal Government sector. CBP officers also completed 2,681 cargo 
merchandise seizures totaling almost $233 million and effected 8,586 
seizures of counterfeit commodities with a fair market value of $48.4 
million
    To increase our effectiveness and provide national direction over 
trade concerns, CBP has a National Trade Strategy that focuses on 
priority trade issues such as revenue collection, intellectual property 
rights, anti-dumping and countervailing duties, textile enforcement, 
and risks associated with intentional or unintentional contamination of 
agricultural products. The goals of the National Trade Strategy are to 
collect the appropriate duties, protect American businesses and our 
economic interests from theft of intellectual property and from unfair 
trade practices, and from the contamination of agricultural products by 
aggressively targeting high-risk shipments. In addition, CBP is 
responsible for key deliverables in the Administration's Strategy 
Targeting Organized Piracy (STOP) initiative, a multi-agency effort to 
improve protection of intellectual property rights, such as using state 
of the art analytical techniques to target suspect shipments and using 
post-entry audits.

Protect U.S. Agricultural and Economic Interests and the Food Supply
    CBP also enforces the laws and regulations pertaining to the safe 
importation and entry of agricultural food commodities into the United 
States. The traditional goals of the Agriculture Inspections (AI) 
program have been to reduce the risk of introduction of invasive 
species into the United States, protect U.S. agricultural resources, 
maintain the marketability of agricultural products, and facilitate the 
movement of law-abiding people and commodities across the borders. 
Accordingly, inspecting potentially high-risk travelers and cargo is 
critical to keeping the prohibited items out of the United States, 
monitoring for significant agricultural health threats, encouraging 
compliance with regulations, and educating the public and importers 
about agricultural quarantine regulations. In August, 2004, CBP 
Agriculture Specialists at the Port of Miami, intercepted and 
quarantined a shipment of habanero peppers infested with Mediterranean 
Fruit Fly larvae at and the False Coddling Moth. This shipment was 
manifested as coming from the Netherlands but was suspected of 
originating elsewhere. The quick actions of the CBP Agriculture 
Specialists prevented an incident that could have created severe 
economic losses to Florida's burgeoning agricultural products industry.
    With the creation of CBP, the AI program has expanded its focus to 
include a new priority mission of preventing potential terrorist 
threats involving agriculture. Indeed, the threat of intentional 
introductions of pests or pathogens as a means of biological warfare or 
terrorism is an emerging concern. To address this threat and to enhance 
its traditional AI missions, CBP has already begun using the Automated 
Targeting System, and its collective expertise regarding terrorism and 
agriculture, to strengthen our ability to identify shipments that may 
pose a potential risk to our agricultural interests.
    In addition, CBP working closely with the Food and Drug 
Administration (FDA) to implement the Bioterrorism Act to guard against 
threats to the food supply. The implementation of Phase III of the Act 
requires that prior notice of importation or intent to import all food 
to be consumed by humans be provided to both CBP and the FDA. Under the 
BTA, food products shipped by truck require two hours advance notice, 
by rail and air four hours and by sea eight hours. Enforcement of the 
provisions of the BTA are designed to protect the food that is on every 
table of every American household and to detect potential incidents of 
bio- and agroterrorism involving food. These efforts have built on our 
priority and traditional missions to make the food supply more secure, 
and will be supported in part by the targeting funding sought in the 
fiscal year 2006 budget.

                               CONCLUSION

    Mr. Chairman, Members of the Subcommittee, I have outlined a broad 
array of initiatives today that, with your assistance, will help CBP 
continue to protect America from the terrorist threat while fulfilling 
our other important traditional missions. Because of your support, we 
are far safer today than we were on September 11th. But our work is not 
complete. With the continued support of the President, DHS, and the 
Congress, CBP will succeed in meeting the challenges posed by the 
ongoing terrorist threat and the need to facilitate ever-increasing 
numbers of legitimate shipments and travelers.
    Thank you again for this opportunity to testify. I will be happy to 
answer any of your questions.

    Senator Cochran. Thank you very much, Mr. Bonner.
    Mr. Aguirre, you may proceed.

                      STATEMENT OF EDUARDO AGUIRRE

    Mr. Aguirre. Thank you, Mr. Chairman. Good morning, 
Chairman Cochran, ranking member Byrd, and Senator Leahy. My 
name is Eduardo Aguirre and I am the Director of USCIS. I 
appear before you to discuss the President's USCIS budget 
request for fiscal year 2006.

                       PROGRESS SINCE MARCH 2003

    Yesterday, as was noted, USCIS celebrated its second 
anniversary. Today I am looking forward to sharing with you our 
tremendous progress since March 2003. We are delivering on the 
President's promise to welcome immigrants with open arms, not 
endless lines. Our remarkable progress is not an anomaly, but 
rather a strong foundation and a new baseline from which to 
grow in the coming years. We secure America's promise as a 
Nation of immigrants by fundamentally reforming our tired 
system of immigration services.

                    FISCAL YEAR 2006 BUDGET REQUEST

    USCIS is one of the largest fee-funded agencies in the 
Federal Government. Our 15,000 employees and contractors serve 
applicants throughout our broad national and international 
network. The President's fiscal year 2006 budget will allow us 
to build upon the progress we have made. The budget includes a 
total for USCIS of $1.854 billion, $80 million in appropriated 
funds and $1.774 billion in fees. This budget will allow USCIS 
to process over 7 million immigration benefit applications.
    We note that fiscal year 2006 will be the final year of the 
President's 5-year plan for backlog elimination. Our budget 
includes a total of $100 million to support backlog elimination 
efforts as well as improvements in applications processing. 
This brings the 5-year total for this aggressive initiative to 
$560 million. We are on track to achieve the President's 
backlog elimination mandate.
    As Will Rogers eloquently stated, even if you are on the 
right track you will get run over if you just sit there. Thus, 
we have taken and continue to take a hard reengineering look at 
the way we currently conduct our business. Since my appointment 
and confirmation as Director of USCIS, our leadership team has 
continually reviewed our processes, identified opportunities 
for streamlining and further improvement, and implemented 
meaningful changes.
    Let me plainly state that as we improve our ways we are 
committed to never compromise national security in an effort to 
increase productivity. From day 1, USCIS established three 
crystal-clear priorities: One, eliminate the immigration 
benefit applications backlog; two, enhance national security; 
and three, improve customer service. Let me briefly touch upon 
progress made on each of these priorities.

                          BACKLOG ELIMINATION

    Eliminating the backlog. Operationally, fiscal year 2004 
was truly an outstanding year for USCIS and we continue the 
momentum so far in fiscal year 2005. We successfully reduced 
the backlog to 1.365 million cases, down from a high of 3.8 
million cases just a year ago in 2004. We increased overall 
completions by 21 percent processed, met, or exceeded cycle 
time targets in 15 of 16 major form types. We completed 109,000 
asylum cases in fiscal year 2004, a 20 percent increase, and 
also 53,000 refugees were admitted to the United States in 
fiscal year 2004, an 86 percent increase.

                       NATIONAL SECURITY MISSION

    Ensuring national security as well as preventing and 
detecting fraud are essential elements of our mission. Our 
newly created Fraud Detection and National Security Unit 
developed a joint anti-fraud strategy with ICE. We enhanced our 
background check process and we share information with key law 
enforcement and intelligence agencies.

                    IMPROVEMENT IN CUSTOMER SERVICE

    As an immigrant who once passed through the old INS system, 
I insist that we treat those who come before USCIS with dignity 
and respect. That brings me to improving customer service. 
Therefore, we have promoted a customer service culture and 
expanded many of the services available to customers online and 
by phone. Electronic filing now supports 50 percent of the 
total volume of benefit applications.
    InfoPass, our web-based system, enables applicants to go 
online in 12 different languages to schedule appointments. No 
more endless lines outside our immigration offices. We expanded 
phone services and access to customer's case status information 
via our website.
    Finally, in the past year USCIS has naturalized more than 
7,000 military service members. This past October, I personally 
led a USCIS team to Afghanistan and Iraq and launched overseas 
naturalizations to our military.

                           PREPARED STATEMENT

    In summary, although we have a long ways to go before our 
destination, I note that we are on the right track and moving 
forward to make USCIS an exemplary United States Government 
agency. This concludes my opening remarks, prepared remarks. I 
thank you for your support and for the invitation to testify 
before this subcommittee, and of course would be happy to 
answer your questions. Thank you, sir.
    [The statement follows:]

               Prepared Statement of Eduardo Aguirre, Jr.

    Good afternoon Chairman Cochran and Ranking Member Byrd and Members 
of the Subcommittee. My name is Eduardo Aguirre and I have the honor of 
serving as the first Director of U.S. Citizenship and Immigration 
Services, within the Department of Homeland Security.
    We are a welcoming Nation, and the hard work and patriotism of our 
immigrants has made our Nation prosperous. Since USCIS was established 
in March of 2003, we have made tremendous progress, which I will share 
with you today, to deliver the President's vision of ``welcoming 
immigrants with open arms . . . not endless lines.'' It is my sincere 
belief that the progress we have made in the past year is not an 
anomaly, but rather a strong foundation and a new baseline from which 
to grow.
    USCIS will continue to secure America's promise as a Nation of 
immigrants by providing accurate and useful information to our 
customers, granting immigration and citizenship benefits, promoting an 
awareness and understanding of citizenship, and ensuring the integrity 
of our immigration system. Our vision is to strengthen America's future 
by becoming a customer-focused innovator of benefits processing, a 
catalyst for citizenship education, instruction and outreach, a 
recognized and credible source of useful information, and a leading 
contributor to the security of the United States.
    USCIS has established three core values: integrity, respect, and 
ingenuity. We shall always strive for the highest level of integrity in 
our dealings with our customers, our fellow employees, and the citizens 
of the United States. We will also demonstrate respect in all our 
actions to ensure that everyone we affect will be treated with dignity 
and courtesy regardless of the outcome of the decision. And we will 
also use ingenuity, resourcefulness, creativity, and sound management 
principles to strive for world-class results.
    USCIS is one of the largest fee-funded agencies in the Federal 
Government--charging fees for a variety of immigration benefits from 
individuals seeking to enter, reside, or work in the United States. 
Therefore, the actual cash flow for our business operations, including 
a network of 250 local offices, Application Support Centers, Service 
Centers, Asylum Offices, National Customer Service Call (NCSC) Centers, 
Forms Centers, and Internet portals, varies from year to year with the 
number of immigration benefit applications received.
    In any typical work day, our workforce of 15,000 (one-third of whom 
are contractors) will:
  --Conduct 140,000 national security background checks.
  --Receive 100,000 hits to our Internet website (www.uscis.gov).
  --Answer phone inquiries from 80,000 callers at four National 
        Customer Service Centers.
  --Process 30,000 applications for an immigration benefit.
  --Answer in-person inquiries from 25,000 visitors to information 
        counters at 92 local offices.
  --Issue 7,000 green cards.
  --Capture 8,000 sets of fingerprints at 130 Application Support 
        Centers.
  --Welcome 3,000 new citizens.
  --Welcome 3,000 new permanent residents.
  --Welcome nearly 200 refugees from around the world.
  --Help American parents adopt nearly 80 foreign-born orphans.
  --Process the naturalization application of 50 individuals serving in 
        the U.S. military.
  --Grant asylum to 80 individuals already in the United States.
    USCIS has established three priorities: (1) enhancing national 
security, (2) eliminating the immigration benefit application backlog, 
and (3) improving customer service. In our second year of operations, 
we have successfully reduced the backlog to 1.5 million cases (down 
from a high of 3.8 million cases in January 2004), expanded electronic 
filing to support 50 percent of the total volume of benefit 
applications, expanded InfoPass (a USCIS Web-based system that enables 
the public to go online to schedule appointments), expanded phone 
services to allow round-the-clock access via automated means, expanded 
access to customers' case status information via the USCIS website, and 
created the Fraud Detection and National Security Unit to work closely 
with the appropriate law enforcement entities in responding to concerns 
relating to aliens who may pose a threat to national security or public 
safety.
    The President's fiscal year 2006 budget will allow us to build upon 
the progress we have made in the past year. The budget includes a total 
for USCIS of $1.854 billion, $80 million in appropriated funds and 
$1.774 billion in fees. The fiscal year 2006 budget will allow USCIS to 
process over 7 million immigration benefit applications and is the 
final year of the President's 5-year plan to achieve a 6-month cycle 
time standard or less for all immigration benefit applications at every 
USCIS office, including a total of $100 million to support backlog 
elimination efforts as well as improvements in application processing. 
This brings the 5-year total for this aggressive initiative to $560 
million.
    The USCIS fiscal year 2006 budget also includes two important fee-
related legislative proposals. One proposal involves the removal of a 
statutory cap on the Temporary Protected Status processing fee. This 
proposal will allow the fee to be adjusted above the current $50 to 
recover full costs, subject to a fee review, similar to the way other 
immigration benefit application fees are currently set. The other 
proposal is a customer service enhancement that authorizes expansion of 
premium processing service to non-employment based applications and 
petitions. The Department is currently authorized to collect a $1,000 
premium processing fee, in addition to the normal processing fee, for 
employment-based applications and petitions. This proposal would 
authorize the Secretary of Homeland Security to set the premium 
processing fee for certain non employment-based applications and 
petitions, such as travel documents, advance parole, employment 
authorization, re-entry permits, fiance adjudications, etc., not to 
exceed $1,000, and in excess of $1,000 for the investor visa (EB-5) 
program.

Eliminating the Backlog
    Although we are on track to achieve the President's backlog 
elimination mandate, we fully realize that funding alone will not 
enable us to achieve this goal. As Will Rogers so simply stated, ``Even 
if you're on the right track, you'll get run over if you just sit 
there.'' Thus, we have taken, and continue to take, a hard look at the 
way we currently conduct our business. This commitment is not just one 
of words, but one of action. Since my appointment and confirmation as 
Director of USCIS, I have worked closely with the leaders in USCIS to 
continually review our processes, identify opportunities for 
streamlining and further improvement, and to implement meaningful 
change. Let me assure you that USCIS will never compromise national 
security in an effort to increase productivity.
    In the past year, USCIS forwarded to the Congress a Backlog 
Elimination Plan that outlines the roadmap to achieve the President's 
mandate. We will continue to provide the Congress with quarterly 
progress reports on our Backlog Elimination status and achievements.
    Fiscal year 2004 was truly an outstanding year for USCIS. USCIS 
increased overall completions by 17 percent over the fiscal year 2003 
volume and met and/or exceeded cycle time targets in fifteen of sixteen 
major form types. In addition, USCIS completed a total of 109,000 
asylum cases in fiscal year 2004, representing a 20 percent increase in 
productivity from the previous fiscal year, when it completed 91,000. 
USCIS also worked steadily with its refugee program partners to 
successfully meet refugee admissions levels designated by the President 
while ensuring that the integrity and security of the program remained 
intact. USCIS officers conducted refugee status interviews in 50 
countries around the world and interviewed more than 70,000 refugee 
applicants of at least 65 different nationalities. As a result of these 
efforts, almost 53,000 refugees were admitted to the United States 
during fiscal year 2004, an 86 percent increase over the previous 
year's admissions.
    USCIS will increase its focus on Information Technology through an 
enterprise-wide transformation effort to ensure that long-term backlog 
elimination goals are sustained, customer service is improved, fraud 
detection and national security capabilities are enhanced, and a 
technology environment is deployed to support new processes and 
workflow aligned with the DHS mission and the Presidential mandate for 
eGov standards. USCIS is currently undergoing an infrastructure upgrade 
of its District and Service Center operations, upgrading its web 
presence environment, and developing a new integrated case management 
system to ultimately operate in a paperless adjudication environment.

Ensuring National Security
    USCIS understands that ensuring national security and preventing 
and detecting fraud are essential elements of its mission. As such, our 
newly established Fraud Detection and National Security Unit (FDNS) 
developed a joint anti-fraud strategy with Immigration and Customs 
Enforcement (ICE), hired and trained nearly 100 anti-fraud officers, 
and is in the midst of implementing an anti-fraud initiative throughout 
the United States. The FDNS is also leading the enhancement of USCIS' 
background check process, which is aimed at identifying applicants, 
beneficiaries, and petitioners who pose a threat to national security 
and public safety prior to granting them immigration benefits. The FDNS 
is also leading USCIS' information sharing initiative with key law 
enforcement and intelligence agencies.
    The establishment of a Refugee Corps with an expanded management 
support structure will provide a strong and effective overseas refugee 
processing program that will more efficiently identify inadmissible 
persons and those who are of national security interest without 
compromising the U.S. Refugee Program's (USRPs) humanitarian 
objectives. A Refugee Corps will ensure responsiveness to USRP 
commitments and goals, while greatly reducing the need to draw on 
scarce domestic program resources. It will also ensure the quality and 
consistency of refugee adjudications and improve the detection of 
refugee application fraud and the identification of security concerns 
relating to refugee admissions.
    USCIS also implemented the Safe Third Country Agreement on Asylum 
with Canada to help strengthen public confidence in the integrity of 
the immigration system and ensure that all asylum seekers will be 
heard, that they will receive procedural safeguards, and that they not 
be removed until either Canada or the United States has made a 
determination on the protection claim, in accordance with national laws 
implementing treaty obligations.

Improving Customer Service
    The Office of Citizenship continues to focus on providing 
information to immigrants at two key points in their journey towards 
citizenship: when they first become Permanent Residents and later when 
they are ready and eligible to begin the formal naturalization process. 
In the past year, the Office of Citizenship introduced an orientation 
guide entitled ``Welcome to the United States: A Guide for New 
Immigrants.'' The guide, which will be available in 10 languages in 
fiscal year 2005, contains practical information to help immigrants get 
started in the United States, and provides information to assist 
immigrants in the civic integration process. The Office of Citizenship 
also held a series of focus groups across the United States during the 
spring of 2004 to hear directly from local communities about their 
strengths, gaps, and needs in the areas of immigrant integration and 
citizenship preparation. The results of these focus group discussions 
were published in a report called ``Helping Immigrants Become New 
Americans: Communities Discuss the Issues.''
    Additionally, we have been examining the standard of knowledge in 
the current citizenship test to ensure that prospective and new 
citizens know not only the facts of our Nation's history, but also the 
ideals that have shaped that history. We also are working to 
standardize testing procedures in an effort to ensure equitable and 
more uniform results. Currently, a candidate in Los Angeles is, in all 
likelihood, not tested the same way or asked the same questions as a 
candidate taking the same exam on the same day in Boston.
    We do not want to make the test more difficult. We do not want to 
make it less difficult. We want to make it more meaningful in a way 
that does not have an adverse impact on any particular group of 
applicants. Therefore, we will carefully pilot test the revised 
English, history, and government tests before implementing them. And we 
will consult with our stakeholders to solicit their input, as we have 
done throughout the process. Once the test development is done, the 
Office of Citizenship will coordinate the creation of educational 
materials to complement this important initiative.
    Our plan is to begin implementing the new test and testing process 
in 2007. Given the importance of the ultimate benefit for those 
tested--U.S. citizenship--this process is not one that can or should be 
rushed. We are committed to improving the current process and to 
improving it in the right way.
    In our commitment to modernize and enhance the delivery of 
immigration services, InfoPass was launched in Miami in June of 2003. 
InfoPass is a free, easy and convenient alternative to waiting in line. 
It allows USCIS customers to go on-line and use an Internet-based 
system to make an appointment to speak with an Immigration Information 
Officer at a time that is convenient for the customer. InfoPass is now 
available for customers at all USCIS District and sub offices.
    Other conveniences available on www.uscis.gov include ``E-Filing'' 
for certain immigration applications, including the renewal and 
replacement of ``green cards,'' (Form I-90). E-Filing provides a quick, 
easy and convenient way for customers to complete, submit, and pay fees 
for petitions and applications at any time, from any computer with 
Internet access. As a further time saver, the USCIS Web site is now set 
up to accept credit cards for the payment of application fees. To date, 
USCIS has received more than 250,000 applications through its E-Filing 
system. E-Filing now supports form types that account for 50 percent of 
the total volume of benefits applications USCIS receives annually. 
During fiscal year 2005, USCIS plans to combine E-Filing with the 
Lockbox program to further streamline our internal processes. E-Filing 
will also play a key supporting role in implementing Premium Processing 
for additional form types; the newly enacted H1-B/L-1 Visa Reform Acts; 
and an electronic adjudication initiative.
    Additionally, the public is encouraged to use the Internet to check 
the status of applications filed with any of USCIS' Service Centers. 
Our Case Status Service Online, available in English and Spanish, 
allows customers who have a receipt number for an application or 
petition filed at a USCIS Service Center to check the status of their 
pending case online through the USCIS website (USCIS.gov), or by 
calling the toll-free telephone number of our National Customer Service 
Center. The Case Status Online system offers customers the option of 
establishing a portfolio of up to 100 cases that can be checked through 
a single login 24 hours a day, 7 days a week. Customers can also elect 
to have USCIS automatically send an email informing them of any change 
in status of a pending case.
    In the past year, USCIS has responded to over 11,000,000 queries 
for verification of immigration status. USCIS provides immigration and 
employment authorization status information to over 126,000 government 
and private sector users. By providing the best possible verification 
services to thousands of agencies and employers, USCIS saves the 
Government money by ensuring that only eligible aliens receive public 
benefits. In addition, an employment verification pilot program 
authorized in 1996 and reauthorized in 2004, helps to ensure that jobs 
are available only to workers authorized to accept employment in the 
United States.
    As you are aware, the National Defense Authorization Act for fiscal 
year 2004 authorized overseas military naturalizations. In the past 
year, USCIS has naturalized more than 7,000 military service members 
both in the United States and overseas, and posthumously naturalized 39 
service members who died in service to the United States.
    Finally, USCIS committed itself to the global effort to recover 
from the earthquake and tsunami by announcing temporary relief measures 
for those individuals who are unable to return to their home country 
due to the destruction and humanitarian crisis in Southeast Asia. USCIS 
is expediting the processing of certain immigration benefit 
applications, including requests for advance parole and relative 
petitions for minor children from the affected areas. USCIS also is 
more readily approving applications from visitors from the tsunami-
affected countries who requested a change or extension of their 
nonimmigrant status.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this committee and I would be happy to answer any 
questions.

    Senator Cochran. Thank you, Mr. Aguirre.

                       ALTERNATIVES TO DETENTION

    This morning National Public Radio did a report on 
Alternatives to Detention and the program run by the 
Immigration and Customs Enforcement agency using ankle 
bracelets to keep up with and track noncriminal aliens as they 
await the outcome of their immigration cases being considered 
and disposed of. What is the utility of this method and do you 
consider it more humane, more efficient, and less expensive 
than detaining through forcible imprisonment, or whatever other 
devices you have, those who you know may not be legally 
entitled to be in our country? Mr. Garcia?
    Mr. Garcia. Thank you, Mr. Chairman. A timely topic as 
there is a $5.4 million enhancement for that program in the 
2006 request. We right now have eight sites where we do 
Alternatives to Detention and we plan to expand that two more 
for a total of ten.
    This is a program, Mr. Chairman, that does exactly what it 
says. It is an alternative to detention. These are illegal 
aliens who would otherwise be subject to incarceration. The 
program is in three steps: a 30-day period with an ankle 
bracelet, a monitoring and reporting requirement. If the alien 
complies, the bracelet comes off and then it is telephonic 
interviews and home visits. After an additional period, it 
becomes only telephonic interviews.
    It is extremely cost-effective, estimated at a quarter of 
the cost of detention space. It provides assistance to the 
aliens in the process, linking them with pro bono services, et 
cetera. And it asks for responsibility on the part of the 
alien, who has voluntarily opted into this program, and that is 
an important point. This is a voluntary program. But it asks 
for responsibility on the part of the participants and if they 
show that, then the conditions become less onerous over time.

                       USE OF RADIATION MONITORS

    Senator Cochran. Mr. Bonner, we understand too the 
importance of upgrading technologies in the Border Patrol area, 
and you highlighted that in your statement. What is the success 
that you anticipate from using radiation monitors? Is this a 
technology that has been proven? I ask this in the context with 
our experience in Iraq, where the weapons inspectors were using 
radiation monitors there and David Kay made a point of saying 
you can deploy these monitors, but after the sand and the heat 
and the other influences of nature take place you might have a 
useless piece of equipment there in the desert. Have you had 
any experiences similar to that at CBP?
    Mr. Bonner. Well, first of all, the main thing that we have 
going in terms of detecting against a nuclear device or special 
nuclear materials is a combination of technology that we would 
deploy and we are deploying at our ports of entry principally. 
So there is where we have radiation portal monitors. We have 
completed the first two phases, which is the International Mail 
Facility, so every package that comes in is screened. The 
International Air Express Consignment Facilities are completed. 
We have substantially deployed well over 200 portal monitors on 
our northern border ports of entry with Canada. We are in the 
process of now deploying a significant number along our 
southern border ports of entry with Mexico, and we have started 
deployment at some of our major seaports.
    We have a long way to go here. But the question is are they 
effective. Well, you need a combination of technology. 
Radiation portal monitors are highly sensitive to both gamma 
and neutron detection. In other words, you can have, without 
getting into sort of the classified area here, you can have a 
fair degree of confidence in the fact that you are going to 
detect radiation. In fact, since we started deploying the 
radiation portal monitors--and these are large things at our 
ports of entry, through every--not just commercial truck, every 
passenger vehicle that comes through--since we have started 
deploying them, we have resolved over 10,000 radiation hits.
    The good news to tell you is that those radiation hits 
turned out to be negative. In other words, we resolved them to 
be naturally occurring radiation sources or radioactive 
material consistent with the shipment of goods. That might be, 
by the way, a shipment of tiles, which very frequently emits 
radiation that reads for thorium and so on.
    So this is not the only thing, though. We combine that with 
our targeting system, and our NII equipment, that is our large-
scale X-ray scanning machines, as well as isotope identifiers 
and other personal radiation detector equipment, to give us a 
combination of resources that improves our ability to detect 
against a dirty bomb coming across our border and/or 
potentially a nuclear device, which is obviously of the most 
momentous consequence one can imagine.
    We have found them to be effective. Now, we are looking 
for--we are always looking for better technology to detect 
against this issue.

         SIX-MONTH AVERAGE FOR PROCESSING BENEFITS APPLICATIONS

    Senator Cochran. Mr. Aguirre, you mentioned reducing the 
backlog of your benefit application cases down to 1.3 million 
cases from a high of 3.8 million in January of 2004. I know you 
have devoted special funding in this area, too. Once you do not 
set aside dollars to bring down the backlog, are you going to 
be able to maintain this 6-month average of processing 
applications?
    Mr. Aguirre. Senator, I am certain of that. I am certain 
that we are going to meet the commitment to eliminate the 
backlog by September 2006. In fact, I will be surprised if we 
do not beat that by a little. And in the process, we have re-
engineered all our processes so that not only are we 
eliminating the backlog and perhaps put it below a cycle time 
of 6 months, but also making sure that we are taking care of 
the applications that are coming in day in and day out.
    So once this 5-year commitment expires, I do not feel that 
we are going to need to go back to any appropriated funds for 
this particular endeavor.
    Senator Cochran. We have a vote that is occurring on the 
floor of the Senate right now. But before we cut off the right 
of any Senator to ask questions, I am going to proceed and 
recognize Senator Byrd and Senator Leahy both if they wanted to 
ask questions before we go vote.
    Senator Byrd. Mr. Chairman, thank you for your courtesies 
always.
    First, let me ask unanimous consent that a letter from me 
to the Honorable Michael Chertoff be included in the record 
following my earlier statement.
    Senator Cochran. Without objection, it is so ordered.

              ANTIDUMPING/COUNTERVAILING DUTY COLLECTIONS

    Senator Byrd. Thank you.
    Commissioner Bonner, on December 17, 2004, Customs and 
Border Protection (CBP) issued its regular annual report on the 
Byrd Amendment trade law. The annual report describes how 
hundreds of millions of dollars in duties are not being 
collected by Customs, and the agency has been unable to explain 
why it cannot collect these funds.
    In fiscal year 2003, the agency failed to collect $130 
million in duties owed to the United States under the U.S. 
anti-dumping and countervailing duty laws, and CBP failed to 
collect an additional $260 million in fiscal year 2004. The 
majority of that $390 million is the result of uncollected 
duties on goods imported from China. The conference report 
accompanying the Department of Homeland Security Appropriations 
Act for fiscal year 2005, which was enacted in October 2004, 
included language that directed Customs and Border Protection 
to submit a report to the House and Senate Appropriations 
Committees by January 15, 2005, on the implementation of 
recommendations that were made by the U.S. Treasury 
Department's Inspector General concerning the Customs and 
Border Protection's implementation of the Byrd Amendment trade 
law.
    The Senate Appropriations Committee has not yet received 
that report. Why is this problem of noncollection growing, and 
what are you doing to address it? Finally, do your efforts 
respond to the recommendations of the Treasury Inspector 
General?
    Mr. Bonner. Let me first of all say, Senator Byrd, that we 
are committed, I am personally committed, to improving our 
collection efforts. I am troubled that we used to say when we 
were settling cases that we were leaving too much money on the 
table here that is not collected. It is not accurate to say 
that we are unable to explain what the problem is. I think we 
have a pretty good understanding of the problems and we have 
taken some steps to improve our collections of antidumping and 
countervailing duty assessments. But let me just identify a 
couple of ways where we are moving forward. One of the problems 
in terms of collections was the insufficiency of continuous 
duty bonds for these kinds of high-risk shipments. These tend 
to be, by the way, agriculture and seafood products, a lot of 
it coming from China, but some other countries, and the 
continuous duty bonds were not nearly sufficient when the 
ultimate duty assessment was made by the Department of 
Commerce.
    So we have taken steps to raise the continuous duty bonds 
on goods that are particularly those types of goods that are or 
are very likely to be subject to antidumping duties, a final 
order.
    There were insufficient single entry bonds. In other words, 
we did not have recourse. So we are more diligent. We now have 
something that is very close to real-time monitoring of 
shipments that are subject to preliminary orders of commerce or 
potentially high-risk shipments of goods, and are raising the 
single entry duty bonds to higher levels that are more 
consistent with what we expect the ultimate duty assessment to 
be.
    By the way, just to let you know that we have taken not 
just those two steps to increase the bond coverage, but we have 
a better mechanism now for potentially identifying 
circumvention of the antidumping duties. By the way, as you can 
imagine, there is all sorts of circumvention. It is everything 
from fraudulent misdescribing of the goods, so that it is not a 
good that was subject to an antidumping order--we have had 
that, by the way, with respect to catfish shipments mislabeled 
as groupers. I know you are interested in this issue, Mr. 
Chairman. But we have had that.
    We have had sham companies that are set up and so forth. So 
we have ratcheted up our enforcement effort through our 
Commercial Enforcement Division and, frankly, are working very 
closely with ICE in nine significant and hopefully potential 
criminal prosecutions, but criminal investigation of fraud. We 
think that it would be very important to bring additional cases 
in this area for its deterrent value.
    We are better coordinating with the Department of Commerce 
so that we are actually in communication with them before even 
a preliminary order comes out and we can take some steps.

                      DEFAULT OF A SURETY COMPANY

    We have discussed with the Treasury Department one other 
issue, and that was actual default of a surety company, which 
was about $100 million of the total failure to collect. This 
was a surety company that had been approved by the Treasury 
Department and it defaulted on its surety bond obligations. So 
we are working with Treasury to make sure that the surety 
companies that are approved by the Treasury Department to write 
customs bonds are financially viable when payment time comes 
up.

               INITIAL PRELIMINARY ORDERS IN LIQUIDATION

    So we have taken all these steps. Now, there is a lag time, 
as you know, between the initial preliminary orders in 
liquidation. So it is going to take some period of time before 
we see substantial results here, but I do think we have taken 
some very important steps to identify the problem and take 
concrete actions that are going to improve, and I hope 
substantially improve, our collection rate.
    Senator Byrd. Mr. Commissioner, I am heartened by your 
response. I know that you are very much alert to the problem. 
It is complex, it is difficult, and I compliment you on the way 
that you are working with other agencies and departments to 
deal with this problem. I thank you. I urge you to continue to 
work on it and to work even harder. I do appreciate your 
efforts.
    Mr. Bonner. Thank you, Senator.
    Senator Byrd. Mr. Chairman, let me close, because we are up 
against the voting situation over there. Incidentally, I have 
cast over 17,000 votes, but I do want to cast some today. I am 
going to submit the remainder of my questions, if I may, to be 
answered for the record.
    I thank all the witnesses.
    Senator Cochran. Thank you, Senator, for your contribution 
to the hearing.

                     ICE HIRING IN FISCAL YEAR 2006

    Senator Leahy. Just very quickly and I will put most of my 
questions in the record. To Assistant Secretary Garcia: When 
ICE was here last year it had severe budget problems, a hiring 
freeze. Does the fiscal year 2006 request bring ICE back to 
fiscal solvency? Will you be lifting the hiring freeze. If not, 
when?
    Mr. Garcia. Thank you, Senator Leahy. You are correct, we 
were here last year, we had a hiring freeze. We have taken a 
number of steps to address that. Working with the Department, 
we continue to do that. We need to take further steps. 
Secretary Loy testified a couple of weeks ago to that effect.
    The 2006 as we have proposed it will move us forward. We 
will be hiring in 2006.
    Senator Leahy. All these temporary people who have been 
there for 3 or 4 years, does that mean they can be looking for 
permanent positions now?
    Mr. Garcia. That is certainly our intention, Senator. I 
know that there are a number of those temporary positions at 
our Law Enforcement Support Center up in Burlington. As we have 
discussed, I only see the role of that Center expanding and 
becoming more important under our homeland security mission.
    Senator Leahy. Does the budget cover what you need or are 
you going to need reprogramming?
    Mr. Garcia. Hard to answer because, as we go along I will 
look at that. I have not been able to do that yet, obviously, 
because of the lack of clarity on some of the budget issues and 
the challenges we have been facing. But it is an issue that we 
consider a top priority.

                 BORDER PATROL AGENT STAFFING INCREASES

    Senator Leahy. Mr. Bonner, I mentioned before the budget 
only asks for 10 percent of the mandated agents. You think we 
need further agents on the northern border.
    Mr. Bonner. Well----
    Senator Leahy. Because you are only asking for 10 percent 
of what Congress mandated.
    Mr. Bonner. As you know, Senator, I am in full, violent 
support of the President's budget request, which requests 210 
Border Patrol agents in addition to, of course, replacing 
attrition.
    Senator Leahy. But none of them for the northern border?
    Mr. Bonner. Well, you know, you did note----
    Senator Leahy. We needed more.
    Mr. Bonner. You did note and let me note that we had 360 
Border Patrol agents on the northern border for the entire 
border with Canada on 9/11. On March 1, 2003, that was up to 
about 500.
    One of the first actions I took was to direct Border Patrol 
to meet the 1,000 goal, which they did actually in fiscal year 
2003.
    Senator Leahy. Do we need any more--this is what the bottom 
line is. Do we need any more on the northern border? Do we have 
enough on the northern border today?
    Mr. Bonner. You mean beyond what we have in the request?
    Senator Leahy. No, no. Do we have enough on the northern 
border with the number we have today. There is no request for 
the northern border. It is 210, 10 percent of what we mandated. 
But that is not for the northern border.
    Do we have enough on the northern border? It is an easy 
answer, yes or no.
    Mr. Bonner. We do not have enough agents. We do not have 
enough technology to give us the kind of security we need on 
the northern border.
    Senator Leahy. I am just a lawyer from a small town in 
Vermont. I do not understand. Is that a yes or a no?
    Mr. Bonner. I am just a lawyer from a small town in Kansas, 
so--
    That moved to California at some point.
    Senator Leahy. Here we are in the big city. Is it yes or 
no?
    Mr. Bonner. Well, we need more agents----
    Senator Leahy. Help me out here.
    Mr. Bonner. We need more agents. But look, I think it is 
the right combination of people and technology, and essential 
to this is the American Shield Initiative. The fiscal year 2006 
budget includes $81 million for technology, for more 
helicopters, and for UAV's for the Border Patrol. We need to do 
a smarter and a better job. I think we can do that. The 
President's request is for 210 more Agents. I do not know that 
they are necessarily earmarked all for the southern border. If 
you are asking me, I think probably most of them will go there.
    Senator Leahy. We should have this discussion in greater 
detail, because I am not happy. I do not think we are getting 
the number, we are certainly not getting anywhere near the 
number that the Congress mandated.

                            I-91 CHECKPOINT

    I also want to have your staff and mine talk about this 
checkpoint you have on Interstate 91 in Vermont, a long, long 
distance from the border, that just stops honest Vermonters 
that have been driving back and forth there forever and ever.
    You had people--aliens that have been there for ever and 
ever, they keep getting stopped over and over and over again. 
There is a real suspicion of some racial profiling people who 
have honestly, working in New Hampshire and Vermont for years 
and years, and just continuously get stopped. They continuously 
get asked the same questions as they got asked the day before.
    The irony is, of course, if anybody wanted to circumvent 
that they would just go out one of the back roads, and the 
agents would never find them.
    So let our staff talk about that. It is creating, both in 
the ``Live Free Or Die'' State of New Hampshire and the former 
independent republic of Vermont, it is creating a bit of a 
concern. It is not going to do anything to stop people from 
coming across the border, because they are not the ones getting 
stopped.
    Mr. Bonner. Could I briefly respond, though? That is that 
part of the strategy is not putting everything on the line 
itself. There has to be a second line of defense. It is not 
that the checkpoint is necessarily going to--that terrorists 
that might come across the Canadian border into the United 
States. Part of the strategy of a checkpoint is lateral 
enforcement from the checkpoint. It gives us a second line of 
defense.
    Senator Cochran. Senator, we have a vote.
    Mr. Bonner. It is going to be important. It is an important 
part of the overall strategy to get better control of our 
borders, something you and I have a common interest in.
    Senator Leahy. Yes. But when I have to stop and prove my 
identification and I am a U.S. citizen, I know this is helping 
somebody. It is sort of like security stopping Ted Kennedy a 
dozen times from going on a plane because he is seen on a 
terrorist list and the government does not know how the hell to 
get him off it.
    Thank you.
    Mr. Bonner. Thank you, Senator.
    Senator Cochran. This Senate hearing will stand in recess 
until we go vote and we will return to resume our questioning 
of the witnesses. We appreciate your indulgence.

          NEW OFFICE OF SCREENING COORDINATION AND OPERATIONS

    Thank you very much for your patience. I apologize for 
having to go vote on the floor of the Senate during our 
hearing.
    The President's budget proposes to create the Office of 
Screening Coordination and Operations within the Border and 
Transportation Security Directorate. How do each of you see 
this new office contributing to the Department's ability to 
implement the 9/11 Commission recommendation? Mr. Bonner, let 
us start with you.
    Mr. Bonner. Well, I would say this, that certainly there 
will be some benefits from thinking through this issue of 
screening, particularly for the terrorist threat. So I expect 
that it will assist in terms of coordinating those efforts, 
understanding that there are fundamentally very different 
screening opportunities that are presented depending upon which 
homeland security agency you are talking about.
    We have the broadest law enforcement authority of any law 
enforcement agency in our country, Customs and Border 
Protection, and that is because we have the full authority to, 
without cause or suspicion, ask questions of anybody who is 
crossing our border or entering our country through our 
official entry points and certainly to arrest anybody who is 
not. Secondly, we have the broad customs search authority, 
which is the broadest search authority under the Fourth 
Amendment of our Constitution, which permits us to search and 
inspect luggage of everybody, by the way, U.S. citizens, non-
citizens, without cause, warrant, or suspicion.
    So we have broad authorities, which we are using right now 
in terms of being as intelligent as we can to perform that 
priority mission of preventing terrorists from entering our 
country. But I think nonetheless the Screening Coordination 
Office should, I believe, play a helpful role.

                        VETTED TRAVELER PROGRAMS

    There is another area, just briefly let me touch on it, Mr. 
Chairman, where the Screening Coordination Office I think could 
play a valuable role. That is, there are in place right now 
essentially what I call trusted, vetted traveler programs. 
Customs and Border Protection vastly expanded the Nexus program 
at the Canadian border. We now have almost 80,000 people that 
we have vetted. That is not only taking biometrics from them; 
that is a personal interview to make sure that they pose no 
terrorist threat or smuggling threat. We have a similar program 
that we inherited from INS, the SENTRI program at the Mexican 
border. We have FAST, the FAST program for commercial truckers 
from both Mexico, coming from Mexico or Canada, and so forth.
    We have mature actual programs. They are not pilots. We 
have enrolled about 200,000 people into these programs. But on 
the other hand, TSA is piloting a registered passenger program 
and so forth. You need to look at the issue of what are the 
biometrics that should be collected from each person that is 
enrolled or is going to be considered to be a trusted or 
registered individual for receiving some benefits. You need to 
look at the biometric you use to identify them when they appear 
at the border port of entry or when they appear at the airport 
if it is a TSA issue and the like, and so forth.
    I think the Screening Coordination Office could play a very 
important role in getting those policy decisions, and they are 
policy decisions, made and implemented in the most visionary 
way possible, so that at the end of the day somebody that is 
vetted in for one of these programs, let us say for the Nexus 
program, would be cleared in for other kinds of trusted 
passenger programs.
    That is a big idea and I think the Screening Coordination 
Office can and I hope will play a valuable role in harmonizing, 
if you will, the technology issues for these different kinds of 
trusted, vetted, or registered passenger or traveler programs.
    Senator Cochran. Mr. Garcia, this was part of the 
presidential commission, the National Commission on Terrorist 
attacks, the 9/11 Commission's, recommendations, that there be 
a centralized office created, designed to provide comprehensive 
screening across, addressing common problems and setting common 
standards in a systemwide operation. Do you see this office 
contributing to the Department's ability to implement this 
recommendation?
    Mr. Garcia. Thank you, Mr. Chairman. Yes, absolutely. 
Again, you tie it back to the 9/11 Commission report. I think 
you also look at the staff report on terrorist travel, the 
recommendations in there, incredibly important work, the 
conclusion that terrorist travel is at least as important an 
area or vulnerability as terrorist financing. This center 
certainly moves us forward in addressing those vulnerabilities. 
ICE will play a role, as we will CBP and CIS, in working with 
that center. For example, as we discussed, people who are 
screened who are turned back we now can follow through with 
associates present in the country by looking at our systems and 
our data.
    We can use our forensic document lab to examine their 
travel documents and provide bulletins and intelligence 
analysis to the front-line folks by analyzing that travel 
documentation that terrorists or other national security 
threats use to try to enter the country.
    So certainly centralization of the screening function, and 
as importantly I think what will flow from that within the 
Department and within the agencies.
    Senator Cochran. Mr. Aguirre, does this affect your agency 
and how are you cooperating in this effort if so?
    Mr. Aguirre. Mr. Chairman, it does affect our agency 
because, of course, we are all in the immigration business to 
one extent or another. Even though we are not on the 
enforcement side, we are involved in the biometric of, 
capturing biometrics of millions of applicants year in and year 
out, and those biometrics of course are oftentimes being used 
for law enforcement purposes where necessary.
    I actually view the issue from a service standpoint, in 
contrast to the enforcement standpoint. Any time you can have 
consistency and coordination of the identification process and 
the biometrics and so on, it can be an expedited opportunity 
for those who do not have hits or do not have any reason to 
feel the need of scrutiny.
    So I think it would expedite the processing of the 97, 98 
percent of those individuals that cross in and out. As you 
probably know, USCIS is the organization that generates many of 
the cards that are being used today. For instance, the Green 
Cards are produced by us. We have put in those Green Cards--
permanent residency card--any number of biometric data for our 
colleagues on the enforcement side to be able to work with.

        OFFICE OF SCREENING COORDINATION AND OPERATIONS MISSION

    Senator Cochran. Commissioner Bonner, should the Office of 
Screening Coordination and Operations have actual operational 
authority for various screening programs, as proposed, or 
should it focus on the integration and coordination function 
necessary across so many programs involved in the activity?
    Mr. Bonner. I would say with respect to operations, you are 
talking about the actual gathering of biometric data on 
potential enrollees. You are talking about the actual interview 
that we do and have done with a couple hundred thousand people. 
I think that probably should be an operational function left 
with the agency that is ultimately responsible for and going to 
be held accountable for whatever benefit is being given.
    If you took just the border issue in terms of our screening 
at our ports of entry, international airports, land border, 
ultimately CBP is operating these programs right now--the NEXUS 
program, the SENTRI program. It may well make sense to leave 
that operation at the agency level, in the agency that actually 
is responsible.
    Now, having said that, let me say we have a new Secretary 
of Homeland Security, Mike Chertoff. By the way, I think 
Secretary Chertoff is somebody who, based upon my past 
experience, is going to be an extraordinary Secretary. He 
ultimately makes the decision, not me, as to how you make this 
distinction between what operational functions should remain at 
the agency level and what, if any, systems functions should be 
performed by the Screening Coordination Office.
    I do not think that has been decided. Those are my views 
subject to, of course, further guidance from Secretary 
Chertoff.
    Senator Cochran. Director Aguirre, what is your take on 
that? Just from an opposite point of view, should the 
Citizenship and Immigration Services programs, screening 
programs, be moved to the Office of Screening Coordination and 
Operations?
    Mr. Aguirre. Mr. Chairman, I am not sure that in the vacuum 
of this hearing I can give you an accurate answer. I think the 
issue of operations and the issue of ``who is responsible for 
what'' needs to be weighed in the context of is it working 
well/is it not working well/and how can it work better. So 
within Homeland Security I think we have a number of components 
that can always stand improvement, and to determine here and 
now what is better or worse, I would be ad libbing.

         INTELLIGENCE REFORM ACT/BORDER PATROL STAFF INCREASES

    Senator Cochran. Mr. Bonner, this request does not include 
resources to fulfill the new Intelligence Reform and Terrorism 
Prevention Act authorizations. Were the new authorizations 
considered or was the bill enacted into law too late to be 
considered when the fiscal year 2006 budget process was 
completed inside the administration?
    Mr. Bonner. That is a good question. I need to probe my 
memory on it in terms of the time line. Obviously, as you know, 
the process is that we did make a request that goes through the 
Department process, and ultimately ends up getting a lot of 
scrubbing and review. I actually participated in the 
Departmental Resources Review Board. I am not on that Board, 
but I was allowed to be present and to present the CBP budget 
request.
    I need to get back to you. I do not have the time line 
clearly in mind, but I do not remember as I was presenting the 
CBP budget to the Department that the intelligence bill I do 
not believe had passed with that authorization level. In fact, 
I am just reminded it was not signed until December 17, 2004. 
So it may have been one of those things where the budget was 
being put together before we even knew what the Congressional 
intent was in the intelligence bill.
    That said, by the way, let me say that--and I was 
addressing this a little bit with Senator Leahy--we have in the 
last 10 years or so, literally tripled the size of the Border 
Patrol, from about 4,000 Border Patrol Agents in the mid-90's 
to now, and with the President's request it will be just about 
11,000 Border Patrol Agents.
    There is a limit, by the way, in thinking of bringing new 
agent resources on board, there is a limit to how much a law 
enforcement organization like the Border Patrol can absorb. 
There are limits to how many agents the Border Control can 
recruit, hire, and train in a single year, and still maintain 
its cohesiveness as a law enforcement organization.
    But that is going beyond your question, Senator. I think 
the answer is I do not believe that the 2000 number was out 
there as the budget request was going forward.

                 IMPLEMENTATION OF THE VISA REFORM ACT

    Senator Cochran. Mr. Aguirre, the Visa Reform Act was 
passed as part of the fiscal year 2005 Consolidated 
Appropriations Act. That act tightens controls on the L1 visa 
and expands the cap on the H1B visas. What steps have been 
taken to begin implementation of that act?
    Mr. Aguirre. Well, Mr. Chairman, on the L1B visas there is 
a provision for additional resources, human resources, to be 
ensured that we can prevent fraudulent applications on the L1B. 
I think you are clearly aware that fraud is a major issue for 
Immigration Services, and L1B visas in particular are ones that 
we have felt, and I think the Congress has felt as well, that 
it is vulnerable to fraud. Therefore we are putting additional 
human resources and applying our fraud detection and national 
security unit to make sure that the applications are properly 
processed, and expedited in the normal process, but that we 
identify if there are any indices of fraud that we can identify 
appropriately.

                    L1 VISA INTER-AGENCY TASK FORCE

    Now, on the H1B applications, as you know, there is a 
provision for an additional 20,000 applications, or the cap is 
raised by 20,000. We are in the process of implementing that 
number and within the next few days, if not weeks, we will have 
an improved process to take advantage of that.
    Senator Cochran. Has the L1 Visa Inter-Agency Task Force 
been set up?
    Mr. Aguirre. Senator, I am not aware of that, no, sir.

                UNFAIR TRADE PRACTICES--CATFISH IMPORTS

    Senator Cochran. Mr. Bonner, this committee is interested 
in the progress to protect American industries from unfair 
competition. You mentioned the catfish and grouper issue a 
while ago. Of importance of course in our State and in the 
South is the catfish industry and the enforcement of 
antidumping orders in connection with Vietnamese tra and basa. 
What are ICE and CBP doing now to enforce this antidumping 
order?
    Mr. Bonner. Well, I can tell you, Senator, that going back 
to October of last year we began a special enforcement effort 
to essentially identify the misdescription, mislabeling of 
catfish, imported catfish that would be subject to antidumping 
duties. We do have a laboratory science and services branch 
where we were taking samples literally of imports that were 
coming into the port of L.A., Long Beach, Miami, and the Port 
of New York, and determining whether in fact they were what 
they were represented to be. We found that there was 
significant misdescription of a product that was being shipped 
from Vietnam.
    We have taken three important actions. One, based upon that 
identification at the port levels, we have raised the 
continuous duty bonds. We are requiring higher single entry 
duty bonds with respect to product that we believe in fact was 
subject to the countervailing duties, that is to say was in 
fact catfish. We have required payment of additional duties. We 
are actively pursuing what are called section 1592 penalty 
actions against those importers who imported mislabeled, I 
might say falsely and potentially fraudulently mislabeled 
product. We are working with ICE, as I indicated to Senator 
Byrd, to attempt to get further investigation through the ICE 
special agents, and potentially we are hopeful to get criminal 
prosecutions in at least some of these cases in conjunction 
with the Department of Justice and the relevant U.S. attorney's 
offices.
    Clearly, we have taken some steps. We are moving out on 
this issue because there is clearly some false labeling that is 
taking place here to essentially circumvent and fraudulently 
evade the antidumping duties.
    Senator Cochran. Mr. Garcia, you have some responsibilities 
in this area as well, do you not?
    Mr. Garcia. Yes, I do, Mr. Chairman. ICE, as Commissioner 
Bonner indicated, is responsible for investigations in this 
area. We are committed to doing that. I know this crime has a 
very real impact on industries in this country. I have spoken 
with a number of members of Congress about those impacts in 
their particular districts and particular industries.
    I have seen a number of significant cases, and again 
Commissioner Bonner touched on them, that have come across my 
desk. I believe that we will be moving forward, again with the 
relevant U.S. attorney's office, to seek to bring criminal 
charges in a number of cases. We are using our overseas assets 
very aggressively to root out some of the fraud that has been 
going on in this area.
    So we have made progress and we are committed to continuing 
those enforcement efforts.

                   BORDER PATROL AIRCRAFT REPLACEMENT

    Senator Cochran. Mr. Bonner, the budget request includes 
some money, $20 million, to begin replacing Border Patrol 
helicopters. The plan calls for the full replacement of the air 
fleet to be completed in 2010. Is the request that is included 
in the budget sufficient to get you started in this direction? 
Would additional resources allow you to speed up the 
replacement of the fleet?
    Mr. Bonner. I am happy to get started on the 
recapitalization of the Border Patrol air assets. As I think 
you know, Mr. Chairman, out of the 110 or so air platforms that 
the Border Patrol has, roughly--this is a rough estimate as I 
do not have the exact number, about 40 to 50 of those are 
Vietnam vintage aircraft--the OH-6's, the small bubble 
surveillance helicopters, as well as about maybe 10 or 12 
Vietnam vintage Hueys.
    It is a good start. As we move forward with the integration 
of the Air and Marine Office in a better configuration with the 
Border Patrol air assets, we are going to find that there are 
some benefits there in terms of how we look at the air 
resources we need.
    But nonetheless, there is a significant amount of 
recapitalization that is going to need to be done and this is a 
start on it. Yes, Mr. Chairman, if there were more funding it 
would help us get there faster.

                INTEGRATION OF CBP AIR AND MARINE ASSETS

    Senator Cochran. The integration of the air and marine 
resources has begun, as you point out. What progress is being 
made toward integrating the units with the Border Patrol?
    Mr. Bonner. There is some good progress. First of all, of 
course, the first phase of it was essentially the integration 
or the transfer. In some ways I see it as a transfer back to 
U.S. Customs, but anyway it was the transfer in November of 
last year of the Air and Marine Operations (AMO) office to CBP. 
That was phase one. That has been completed.
    We are now into phase two. In phase two, I am using the 
Transition Management Office process that we used very 
successfully to unify and integrate CBP. It is a process that 
essentially looks at the ways that we can now further integrate 
essentially the air assets and also the marine assets that are 
now all within CBP.
    By the way, there have already been some very important 
benefits from this, from the transfer of AMO to CBP in terms of 
better operational coordination between the Border Patrol and 
AMO and the like. But phase two will do this. It will better 
integrate one procurement, for not just the Border Patrol and 
not just for AMO, but for both. It will better integrate one 
maintenance system for all aviation air assets, one training 
system for all of our pilots, whether they are from the Border 
Patrol or whether they were AMO pilots. Ultimately, as part of 
this process, we are going to determine ways to better 
operationally integrate the efforts of both of these air and 
marine groups and assets.
    I have had several briefings on this already. I believe 
that we will be able to make some key decisions along the lines 
I have described certainly in the next couple of months or so, 
so that we are continuing to move forward with the best optimal 
organization, if you will, of the sum total of the air and 
marine assets that are now within CBP.
    Senator Cochran. I appreciate very much the cooperation of 
each of you and your agencies with our committee and the 
requests that we submit for information from time to time. 
Particularly, I appreciate your taking time to come here today 
and participate in this hearing, which is very important for us 
to have to get a full understanding of how you are allocating 
the resources under the budget request and what the priorities 
are.

                     ADDITIONAL COMMITTEE QUESTIONS

    We want to help you succeed in your activities. So we thank 
you very much for your cooperation with our subcommittee. 
Senators may submit questions to you in writing and we ask you 
to respond to those within a reasonable time for our committee 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                   CONTINUED FUNDING SHORTFALLS--ICE

    Question. In September of 2004, this Committee approved a request 
to transfer and reprogram $152 million in order to allow Immigration 
and Customs Enforcement (ICE) ``to effectively manage its financial 
position through year end''. In other words, the request was to move 
$152 million to ensure that ICE did not have a shortfall.
    This Committee worked with the Department to permanently move $193 
million in base resources from Customs and Border Protection to ICE in 
the fiscal year 2005 Appropriations Act. Admiral Loy recently testified 
to the House Appropriations Committee that he expects there to be a 
reprogramming request submitted soon to provide anywhere from an 
additional $250 to $300 million to ICE in order to finish out fiscal 
year 2005.
    The cycle of stopgap solutions needs to end. Too much time seems to 
have been spent trying to figure out how this situation came about--
what is termed ``mapping''--rather than trying to make sure this 
problem is resolved so that we can move forward to ensure that an 
agency vital to combating terrorism is solvent.
    When will this Committee receive the transfer/reprogramming 
proposal to address the fiscal year 2005 shortfall?
    Answer. The notification of the proposed reprogramming was 
transmitted to the Appropriations Committees on March 12, 2005, in a 
letter dated March 11, 2005.
    Question. Have Congressional initiatives funded in the fiscal year 
2005 Appropriations Act been deferred until this problem is resolved?
    Answer. In the proposed reprogramming, ICE is proposing to defer 
$85.216 million of the $193.916 million in enhancements, i.e., 
Congressional initiatives, funded in the fiscal year 2005 
Appropriations Act. Item 2, on page 5 of the Report of Proposed 
Reprogramming Action discusses, in detail, the enhancements which are 
being reduced from their original appropriated amounts. The 
enhancements that have been reduced are shown below:

Fugitive Operations
    The enhancement is reduced to $9 million from the appropriated $50 
million level. This will allow funding of 42 positions instead of the 
236 positions originally planned. The reduction will mean that fewer 
Fugitive Operations teams can be deployed as originally planned.

Institutional Removal Program
    The enhancement is reduced to $4 million from the appropriated $30 
million level. This will allow funding of 37 positions instead of the 
279 positions originally planned. Higher cost Special Agents will 
continue to perform some institutional removal duties, instead of 
replacing all of them with Immigration Enforcement Agents.

Compliance Enforcement Units
    The enhancement is reduced to $11 million from the appropriated 
level of $16 million. This will permit funding of 89 positions instead 
of the 130 positions originally planned.

Alternatives to Detention
    The enhancement is reduced to $2 million from the appropriated 
level of $11 million. This will permit funding of 11 positions instead 
of the 60 positions originally planned. Some capacity increases will 
occur at each of the current eight Intensive Supervision sites, though 
not to the anticipated levels.

Guantanamo Migrant Operations Center
    The enhancement is reduced to $2 million from the appropriated 
level of $6.2 million. The level should be sufficient to support the 
Center's operations. (Note: remaining, fully-funded, enhancements 
include $26.5 million for Detention Bed Space; $25 million for Benefit 
Fraud; $14 million for the Visa Security Unit and the Office of 
International Affairs; $6 million for the Immigration Court Backlog; $5 
million for Worksite Enforcement; and, $4.2 million for the Cyber Crime 
Center.)
    Question. What assurance do we have that the fiscal year 2006 
request for ICE will solve this problem permanently?
    Answer. The full funding level requested in the President's Budget, 
internally realigned for the impact of the fiscal year 2005 
reprogramming request, will allow ICE to carry out its mission during 
fiscal year 2006. We do not foresee the need for further reprogramming 
or funding transfers among bureaus.
    Question. ICE has now lived under a hiring freeze for close to a 
calendar year. What impact is this having on the organization's ability 
to carry out its mission?
    Answer. ICE has had to implement several measures to ensure it 
operates within existing resources. It has had to prioritize funding 
requirements. In all cases, ICE has worked to ensure that mission 
critical requirements have been funded with the intent of minimizing 
any adverse impact on its national security related mission.
    Question. There are significant resources requested for fiscal year 
2006 to increase the base funding available to ICE: $105 million for 
the Office of Investigations, $24 million for the Office of Detention 
and Removals, and a significant portion of the $90 million for Custody 
Management. What method was used to come up with these estimates?
    Answer. Estimates were derived by looking at the entire operation 
and determining that the resources of these offices/programs needed 
increases in order to attain key operational goals.
    Question. Will the fiscal year 2006 request provide ICE with the 
funding necessary to enable it to lift the hiring freeze on October 1, 
2005?
    Answer. ICE continues to work closely with DHS, BTS, and OMB to 
identify solutions to address its financial issues. One of ICE's 
priorities is to implement financial solutions that will allow the 
lifting of the hiring freeze. This work is ongoing and as a result, it 
is too early to state whether the hiring freeze will be lifted on 
October 1, 2005. An alternative may be to implement solutions that 
would allow the freeze to be lifted later in the fiscal year.
    Question. According to the just delivered ``ICE Financial 
Management Overhaul'' report, ``The ICE Assistant Secretary brought in 
a team from other components of DHS on a 90-day detail to help identify 
solutions to ICE's financial issues. The team will make recommendations 
to the Assistant Secretary by later this Spring.'' Its charter 
includes: development of short-term recommendations to address fiscal 
year 2005 funding issues; an action plan with key recommendations to 
place ICE into a stable funding position for fiscal year 2006 and 
beyond; and recommendations for policies and procedures that will 
result in transparent budget and financial planning and execution. What 
potential is there that these recommendations could cause significant 
revisions to the President's fiscal year 2006 budget request?
    Answer. The President's Budget includes the necessary funding to 
ensure ICE can accomplish its mission to detect vulnerabilities and 
prevent violations that threaten national security. As mentioned in the 
``ICE Financial Management Overhaul'' report, the team is developing 
recommendations to improve ICE's financial position in 2006.
    As noted in your question, the final report is due to the Assistant 
Secretary later this spring. The team's recommendations will be shared 
with the ICE's new CFO and Budget Director. ICE appreciates your 
interest in this effort and looks forward to working with you and your 
staff where necessary to implement any recommendations.
    Question. How is it that this organization is almost 2 years old 
and is just now looking to develop sound financial planning policies 
and procedures?
    Answer. The creation of the Department of Homeland Security 
represented a reorganization unprecedented in the Federal Government. 
2005 represents the first year that ICE has focused on issues other 
than transition and reconciliation. It is an opportune time to further 
refine financial policies and procedures previously implemented and to 
continue developing sound policies and processes as necessary.
    Question. ICE has two outsourcing competitions on going--labor 
management and intelligence support. Is this an area where ICE could 
see significant cost savings?
    Answer. Fiscal year 2005 would have been U.S. Immigration and 
Custom Enforcement's (ICE's) initial full year of participation in 
competitive sourcing since its inception. ICE intended to initiate its 
original studies on a relatively small scale in order to properly 
establish its competitive sourcing infrastructure. Significant cost 
savings were not expected to be realized based on the fiscal year 2005 
studies. More significant savings would be anticipated based on broader 
studies under consideration for fiscal year 2006. ICE expects to be an 
active participant in the initiative in fiscal year 2006.
    Question. Please provide a chart with the on-board staffing level 
for ICE, by position type, for September 30, 2004, and fiscal year 2005 
through January 31, 2005, both excluding Air and Marine Operations.
    Answer. Attached are the ICE on-board staffing charts for the end 
of fiscal year 2004 and fiscal year 2005, through the pay period ending 
February 5, 2005. Federal Protective Service positions are included, 
but Federal Air Marshal Service positions are not included.
    Highlighted changes from 2004 to 2005 are:
  --An increase of 185 positions transferred from Customs and Border 
        Protection to ICE for International Affairs
  --The movement of 112 Organized Crime Drug Enforcement Task Force 
        positions from reimbursable to direct
  --The movement of 138 positions from reimbursable to direct 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. Please provide updated fee projection charts for each fee 
account for fiscal year 2006 as compared to fiscal year 2005, with the 
chart for the Student Exchange Visitor Information System broken out by 
month.
    Answer. Attached are fee projection charts for ICE by fee account 
for fiscal year 2006 versus fiscal year 2005.

------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
              Fee accounts                     2005            2006
------------------------------------------------------------------------
Immigration User Fee....................        $100,000        $101,621
Breached Bond Detention Fund............         114,000         115,260
Student and Exchange Visitor Program:
    I-901 Revenues:
        October.........................       1,459,215       2,039,431
        November........................       2,636,660       2,166,852
        December........................       3,451,620       3,135,481
        January.........................       2,211,365       2,092,676
        February........................       1,970,220       1,485,072
        March...........................       2,661,321       2,661,321
        April...........................       4,452,487       4,452,487
        May.............................       6,211,727       6,311,727
        June............................       7,225,460       7,509,932
        July............................       7,149,570       7,441,213
        August..........................       4,515,573       4,524,954
        September.......................       2,072,375       2,072,375
                                         -------------------------------
          Total.........................      46,017,593      45,893,520
                                         ===============================
    I-17 Revenues:
        October.........................          30,659       1,050,960
        November........................          27,960         403,680
        December........................          38,416         187,920
        January.........................          28,540         231,420
        February........................          33,330         320,740
        March...........................          29,000         211,120
        April...........................          29,000         372,940
        May.............................          29,000         309,720
        June............................          29,000         161,240
        July............................          29,000         132,820
        August..........................          29,000          53,360
        September.......................          29,000          62,640
                                         -------------------------------
          Total.........................         361,905       3,498,560
------------------------------------------------------------------------

    Question. Please provide a chart with the fiscal year 2006 
annualization projections broken out by fiscal year 2005 initiative.
    Answer. Please see table below.

----------------------------------------------------------------------------------------------------------------
                          Enhancement                             Annualization   One-time costs        Net
----------------------------------------------------------------------------------------------------------------
Compliance.....................................................         $13,743         ($9,710)          $4,033
IRP............................................................          28,478         (11,420)          17,058
Fugitive Ops...................................................          25,799         (11,543)          14,256
Alternatives...................................................           4,925          (2,856)           2,069
Bed Space......................................................           2,869          (1,326)           1,543
Backlog........................................................          13,256          (2,222)          11,034
Worksite.......................................................           3,044          (1,648)           1,396
                                                                ------------------------------------------------
      Total....................................................          92,114         (40,725)          51,389
----------------------------------------------------------------------------------------------------------------

    Question. Please provide detailed comprehensive justifications for 
each program increase requested in the fiscal year 2006 President's 
budget.
    Answer.
Homeland Security Data Network (HSDN)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                     Program                        2004 budget     2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
ICE's portion of HSDN \1\.......................  ..............  ..............          11,300          11,300
----------------------------------------------------------------------------------------------------------------
\1\ Note: There is no base budget for HSDN. However, the Department's Working Capital Fund assessment for fiscal
  year 2005 is currently estimated to be $8.695 million. ICE contributed $3.2 million to the WCF in fiscal year
  2004 for HSDN.

    The fiscal year 2006 enhancement for HSDN totals $11.3 million and 
1 FTE.
    HSDN is a multi-agency, Department-wide project, funded from 
contributions from participating agencies. For fiscal year 2005, ICE's 
estimated contribution to HSDN is $8.7 million. In fiscal year 2004, 
ICE contributed $3.2 million to HSDN. Although ICE contributes funding 
for HSDN, the development, deployment, and management of the network is 
the direct responsibility of the HSDN Program Office which also manages 
all the funding for this ICE-sponsored initiative.
    The HSDN is a secure communication network for transmission of 
information classified up to SECRET. It has been designed to replace 
several disparate legacy systems. HSDN will provide connectivity to the 
Department of Defense (DOD) Secret Internet Protocol Router Network 
(SIPRNet) to all users. DOD has indicated that non-DOD agencies should 
not use the SIPRNet as their primary classified communications medium. 
HSDN will provide access to SIPRNet via controlled gateways, satisfying 
this DOD concern. There are more than 400 DHS sites requiring HSDN 
deployment. Funding of this initiative will provide access to as many 
as 700 users in fiscal year 2006.
    Funding for this request would support a HSDN coordinator to serve 
as a liaison between ICE program offices and the DHS's Science and 
Technology (S&T) Directorate, the HSDN program manager. The remaining 
resources would be provided to S&T for costs associated with the HSDN 
development process, including a survey of ICE locations, installation 
of equipment, set-up of terminals, and activation of service to 
terminals.
    HSDN implementation was designed to follow a phased schedule. The 
first phase--which included the design and approval of the overall 
network design--has been completed. The second phase proposes the 
installation of a limited number of terminals in 72 locations. Among 
these, 13 are ICE locations which include facilities within the Office 
of Intelligence and Office of Investigations. Equipment installation at 
these ICE locations is expected to continue through fiscal year 2005.
    The remaining HSDN implementation phases will encompass the 
installation of all remaining locations including State and local 
offices. ICE has identified an additional eighty-eight locations which 
will have the HSDN installed in these remaining phases. These include 
the remaining Special Agent in Charge Offices, most Resident Agent in 
Charge Offices, Intelligence Collection and Analysis Teams, and 
remaining Office of Intelligence locations.
    Performance Impact.--Funding of this initiative will provide access 
to HSDN as follows:

----------------------------------------------------------------------------------------------------------------
                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year
      Performance increase         2006 request    2007 request    2008 request    2009 request    2010 request
                                       level           level           level           level           level
----------------------------------------------------------------------------------------------------------------
Total number of HSDN users......             700           1,000           1,000           1,000           1,000
----------------------------------------------------------------------------------------------------------------

Visa Security Unit

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year
             Program                2004 budget     2005 budget      2006 base      2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
Visa Security Unit..............  ..............          10,000          10,000          15,000           5,000
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2006 enhancement for VSU totals $5 million and 5 
FTE.
    The ICE Visa Security Unit (VSU) conducts in-depth review of visa 
applicants wishing to enter the United States, with the goal of denying 
visas to terrorists, criminals, and persons of special interest. Visa 
Security Program officers are assigned to posts to perform this law 
enforcement review of immigrant and nonimmigrant visa applications 
prior to visa issuance by consular officers of the Department of State.
    For fiscal year 2005, the VSU's first year of funding, $10 million 
was provided to: (1) establish permanent operations in Saudi Arabia; 
(2) expand visa security operations to five additional high-risk 
locations (locations are not named here due to law enforcement 
sensitivity); and (3) hire 22 permanent positions (five at Headquarters 
and 17 at the overseas posts).
    The enhancement requested for fiscal year 2006 would support nine 
additional positions ($4.827 million) and provide $173,000 for 
Investigations Training. These resources would advance incremental 
progress toward program expansion.
    A $5 million enhancement to the base would:
  --fund new overseas visa security post (to be selected based on 
        current risk), staffed by three permanent Visa Security 
        Officers, to expand the scope of visa security operations. 
        Overseas operations involve: conducting in-depth scrutiny of 
        high risk visa applicants; providing advice and training to 
        consular officers to enhance their ability to detect terrorist, 
        criminal, and otherwise fraudulent visa applicants through the 
        consular adjudication process; and initiating investigations 
        under DHS authority;
  --hire two additional officers at Headquarters to provide operational 
        and administrative support to the overseas operations;
  --hire four permanent officer positions to replace temporary duty 
        personnel currently investigating Security Advisory Opinions 
        (SAOs) and ``Section 306'' cases (visa applicants from a State 
        Sponsor of Terrorism);
  --expand funding for Consular Training programs, including 
        Headquarters consular training program development, Rapid 
        Response Team capability, and consular evaluation program 
        development.
    Performance Impact.--The Homeland Security Act authorizes the 
Secretary of Homeland Security to assign employees of the Department to 
diplomatic and consular posts at which visas are issued, unless the 
Secretary determines that such an assignment to a particular post would 
not promote homeland security. The Secretary must submit an annual 
report to Congress that describes the basis for each determination that 
the assignment of an employee of the Department at a particular post 
would not promote homeland security.
    Conducting the activities of the VSU in Saudi Arabia and expanding 
to the locations designated as highest risk by the Secretary are 
expected to generate an increase in homeland security outputs such as: 
recommendations to refuse individual visa applications, generation of 
investigative leads, additional lookouts and watch list entries, 
identification of visa fraud schemes (including fraudulent documents, 
businesses, organizations, and associates), delivery of formal and 
informal training to consular officers, and other enforcement actions. 
The outcomes associated with these outputs may include a decrease in 
the vulnerabilities in the visa issuance process, increased integrity 
of the immigration system, and a greater awareness of terrorist 
suspects and activity patterns.

----------------------------------------------------------------------------------------------------------------
                                                 Fiscal year  Fiscal year  Fiscal year  Fiscal year  Fiscal year
                                    Fiscal year      2006         2007         2008         2009         2010
         Performance level           2005  est.    request      request      request      request      request
                                       level        level        level        level        level        level
----------------------------------------------------------------------------------------------------------------
Percentage security review of all           100          100          100          100          100          100
 visa applications in Saudi Arabia
Percentage of high risk visa                 NA
 applicants scrutinized at the non-
 Saudi posts......................
----------------------------------------------------------------------------------------------------------------

Legal Proceedings

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
             Program                Fiscal year     Fiscal year     Fiscal year     Fiscal year        2006
                                    2004 budget     2005 budget      2006 base      2006 budget    enhancements
----------------------------------------------------------------------------------------------------------------
Principal Legal Advisor.........          86,423         113,105         119,514         123,014           3,500
----------------------------------------------------------------------------------------------------------------
Note: Funding from the Salaries and Expense account only. Does not include reimbursable funding.

    The fiscal year 2006 enhancement for Legal Proceedings totals $3.5 
million and 24 FTE.
    Of the fiscal year 2005 enhancements, 16 attorney and 12 support 
positions are scheduled for Headquarters while 38 attorneys and 8 
support positions are targeted for the Field. The Headquarters 
positions will be distributed among existing Headquarters teams dealing 
with the following areas:
  --Commercial and Administrative Law Division (primarily working on 
        Merit Systems Protection Board appeals, and defending Equal 
        Employment Opportunity claims generated by ICE clients (Federal 
        Protective Service (FPS) and Federal Air Marshals (FAMS)), and 
        handling bid protests primarily generated by FPS contracts;
  --the National Security Law Division overseeing the litigation of 
        national security cases, providing legal advice to the Office 
        of Intelligence, and performing liaison activities with other 
        law enforcement agencies;
  --the Customs Enforcement Law Division, dealing with policy issues, 
        and day to day monitoring of undercover operations, and ongoing 
        criminal investigations; the Enforcement Law Division, dealing 
        with a wide range of issues generated by the Office of 
        Detention and Removal, the Office of Investigations, FAMS, and 
        FPS, including statutory authority, search and seizure, use of 
        force, and parole and custody issues, and the Human Rights Law 
        Division, coordinating the litigation and advices the field on 
        human rights abuser and persecutor cases.
    The fiscal year 2005 field positions will be devoted to the 
following field areas:
  --increased time and efforts spent on national security, predator and 
        persecutor cases at the field level;
  --increased training of staff on national security and persecutor 
        issues;
  --increased review of Notices to Appear prior to issuance or the 
        hearing date;
  --more timely movement of ``change of venue cases'' between district 
        offices to cut down on adjournments because the agency 
        representative does not have the file;
  --increased amount of time spent on preparing a case for hearing, 
        with a particular focus on review of alien evidentiary 
        submissions and investigation thereof so as to minimize the 
        number of adjournments required for document checks (by the 
        Forensic Document Laboratory, the Department of States, and 
        ICE/CIS offices abroad);
  --increased emphasis on benefit and asylum fraud, including 
        development of criminal prosecutions, so as to discourage the 
        filing of fraudulent or frivolous applications;
  --increased emphasis on responding to motions to reopen and filing 
        responses to alien briefs before the Board of Immigration 
        Appeals so as to diminish the number of non-meritorious cases 
        that are reopened, and to speed up appeal processing at the 
        Board of Immigration Appeals level.
    These increased resources will also be used to assist the Office of 
Immigration Litigation (OIL) and the Offices of the United States 
Attorney (USAO) litigating Petitions of Review of removal orders and 
habeas challenges to custody and removal.
    Past, current, and planned deployment of resources (Attorneys/
Support):

----------------------------------------------------------------------------------------------------------------
                                                                                  Planned fiscal  Planned fiscal
                                                                      Current        year 2005       year 2006
----------------------------------------------------------------------------------------------------------------
Arlington.......................................................            11/4            13/4            14/4
Atlanta.........................................................             8/3             9/3            10/3
Baltimore.......................................................            10/4            11/4            12/4
Boston (Includes Hartford Office)...............................            19/6            21/6            23/7
Buffalo.........................................................             8/3             8/3
Chicago (Includes Kansas City Office)...........................            17/7            19/7
Dallas..........................................................            10/4            10/4
Denver (Includes Helena and Salt Lake City Offices).............            11/5            12/6            12/7
Detroit (Includes Cleveland, Cincinnati Offices)................            12/4            14/5            16/6
El Paso.........................................................            10/4            11/4            12/4
Honolulu........................................................             2/1             2/1
Houston.........................................................            18/7            19/7            20/7
Los Angeles (Includes Las Vegas Office).........................           75/26           83/28           89/32
Miami...........................................................           52/18           56/19           60/22
Newark..........................................................            21/7            23/7            24/8
New Orleans (Includes Memphis Office)...........................            14/5            16/5            17/5
New York........................................................           75/26           77/27           80/29
Orlando.........................................................            11/4            12/4
Philadelphia....................................................            15/5            16/6            17/7
Phoenix.........................................................            22/8            25/9            27/9
St. Paul (Includes Omaha Office)................................             8/3            10/3            11/3
San Antonio (Includes Harlingen Office).........................            22/8            23/8            23/9
San Diego.......................................................            25/9            25/9
San Francisco...................................................           41/14           43/14           45/15
San Juan........................................................             3/2             3/2
Seattle (Includes Portland and Anchorage Offices)...............            11/4            11/4
----------------------------------------------------------------------------------------------------------------

    EOIR's statistical data demonstrates that the largest pending case 
load exists in descending order in Los Angeles, Miami, New York, San 
Antonio (including Harlingen), San Francisco, Chicago, Boston 
(including Hartford), Orlando, Arlington, and Philadelphia Many cases 
from Harlingen are ultimately transferred through a change of venue 
order to more urban locations.
    The specific results expected by the investment of resources and/or 
the impact of not providing the investment:
    At present, six different entities (CIS--Asylum Offices and 
Examinations; CBP--Inspections and Border Patrol; ICE--Investigations 
and Detention and Removal) create the Notices to Appear (charging 
documents) that form the basis for litigation before the immigration 
court. With these expanded resources, ICE legal staff will be able to 
review more ICE generated charging documents to ensure better quality. 
It can also take more proactive steps to review charging documents 
created by other offices prior to the first master calendar on these 
cases, amending those charges that are legally deficient and filing 
such amended charges with the court in advance of the hearing date. 
This will lead to a reduction in adjournments. In addition, it will 
also permit the ICE litigation staff to terminate any cases that may 
have been improvidently brought.
    Another source of adjournments (and hence backlog) stems from those 
cases where venue of the hearing has been transferred from one district 
to another. Frequently, because of a lack of support staffs, the needed 
files are not forwarded to the gaining office on a timely basis. With 
these added support resources, more focus can be made on those files, 
which are the subject of a change in venue, with either the losing 
office sending the file more expeditiously or the gaining office making 
more determined efforts to obtain the needed file in advance of the 
scheduled hearing date. These same support personnel can also more 
readily assist Assistant Chief Counsel in administrative tasks, which 
consume a great deal of attorney time best spent on moving a case 
forward.
    The nature of immigration court litigation case has grown 
exceedingly complex. In the larger city offices, the vast majority of 
cases before the court are asylum claims, which are very time intensive 
to litigate. Unfortunately, asylum claims are frequently fraudulent and 
can be used by unscrupulous individuals as a way to gain status in the 
country. As part of the application process, aliens normally provide a 
large number of documents in support of their claim, many of which may 
have been manufactured. To attempt to ensure the process is not abused, 
the Assistant Chief Counsel must conduct intensive alien file and 
document review. The Assistant Chief Counsel attempts to make full use 
of the Forensics Document Laboratory and other avenues of investigation 
to determine if the claim/documentation is bona fide. The Assistant 
Chief Counsel must also try to track down related alien files to 
determine if the alien has applied for a benefit under a different 
alien number/different name, locate alien files of relatives to 
determine consistency of the claim, and run extensive record checks. 
Assistant Chief Counsel also needs to contact victims in cases that are 
brought under the ICE Predator Initiative to assure that they are 
available to testify regarding the life long adverse impact these 
actions caused to them to assure alien sexual violators are removed and 
their relief applications are denied. With these additional attorney 
resources, Assistant Chief Counsel will be in a better position to do 
more complete and timely case review, and to request document checks, 
make record checks, and review related files in a timely manner. This 
in turn not only makes a better record on which the immigration judge 
can base his/her decision; it speeds up resolution of the case because 
all the crucial steps in the process are undertaken sooner.
    Agency lawyers also work closely with the Office of the United 
States Attorneys, and Office of Immigration Litigation litigators by 
preparing litigation reports, reviewing records where remands are 
proposed, preparing recommendations for further review where judicial 
decisions are adverse to DHS interests and by providing guidance, 
advice and assistance on complex immigration law issues.
    In a related vein, in larger city offices, ICE tries to have joint 
attorney-investigator focus on travel agencies and corrupt attorneys 
who actively encourage and assist in the filing of fraudulent or 
frivolous asylum cases. These cases clog the system and lead to 
additional court backlog. Currently, these joint attorney-investigator 
efforts have had to be more ad hoc and limited in nature. With these 
additional attorney resources, the staff would devote more time and 
effort to identifying the individuals who are the source of such 
claims, and work more closely with the criminal investigators in 
developing criminal prosecutions for the United States Attorneys 
Offices.
Temporary Worker Worksite Enforcement (TWP/WSE)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year
                     Program                        2004 budget     Fiscal year     Fiscal year     Fiscal year
                                                        \1\         2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
TWA.............................................  ..............           5,000          23,000          18,000
----------------------------------------------------------------------------------------------------------------
\1\ No funding was devoted to ``Temporary Worker Worksite Enforcement'' in fiscal year 2004, but approximately
  $18 million was devoted to Worksite Enforcement in fiscal year 2004.

    The fiscal year 2006 enhancement for TWP totals $18 million and 72 
FTE
    As part of the President's proposed temporary worker program to 
match willing foreign workers with willing U.S. employers, enforcement 
of immigration laws to ensure compliance is required. Under the 
President's proposal, the temporary worker program would be open to new 
foreign workers, and to the undocumented men and women currently 
employed in the United States. The program would allow workers who 
currently hold jobs unlawfully to participate legally in America's 
economy, while not encouraging further illegal behavior.
    The spend plan for the $5 million enhancement in fiscal year 2005 
focuses on field training, employer outreach, and reconstituting the 
Worksite Enforcement Program infrastructure within the Office of 
Investigations in Headquarters in the final half of fiscal year 2005. 
Resources requested for fiscal year 2006 will primarily fund the 
deployment of FTEs to States (CA, TX, FL, NY, IL) having the greatest 
population of unauthorized workers.
    The $18 million enhancement (of which $16.216 million is required 
in the Investigations Operations activity and $1.784 million is 
required in the Investigations Training activity) would fund 140 
Special Agent and 3 support positions.
    Performance Impact.--The additional resources will broaden the 
scope of the worksite enforcement program's strategic goals to include 
protecting the jobs and wages of legal workers by identifying and 
removing unauthorized workers. ICE will increase its presence at 
worksites, concentrating on employers in specific industries and 
geographical areas who intentionally violate the law or who have 
historically hired large numbers of unauthorized workers. ICE will also 
coordinate with Citizenship and Immigration Services to improve and 
expand verification services (Basic Pilot Program) to employers 
nationwide pursuant to the Basic Pilot Program Extension and Expansion 
Act of 2003.

----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
              Performance measure                Fiscal year 2006 request level    2007 request    2008 request
                                                                                       level           level
----------------------------------------------------------------------------------------------------------------
Administrative Worksite Case Completions......  Base............................    + 20 percent    + 30 percent
Criminal Employer Case Presentations..........  Base............................    + 20 percent    + 30 percent
----------------------------------------------------------------------------------------------------------------

Organized Crime Drug Enforcement Task Force (OCDETF)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                     Program                        2004 budget     2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
OCDETF..........................................          47,300          33,100          43,678          10,578
----------------------------------------------------------------------------------------------------------------
Note: In fiscal year 2004 and fiscal year 2005, OCDETF funding was reimbursable. In fiscal year 2006, funding
  proposed to be directly appropriated to ICE.

    The fiscal year 2006 enhancement for OCDETF totals $43.678 million 
and 346 FTE.
    Currently, funding for ICE OCDETF is provided on a reimbursable 
basis from the Department of Justice (DOJ). Beginning in fiscal year 
2006, funding is being requested via direct appropriations to ICE. 
Funding requested would cover salary costs for 332 Special Agents 
($41.840 million) and 14 Intelligence Research Specialists ($1.838 
million) for a total of $43.678 million.
    The Organized Crime Drug Enforcement Task Force (OCDETF) program is 
a Federal drug enforcement program that focuses attention and resources 
on the disruption and dismantling of major drug trafficking 
organizations. OCDETF provides a framework for Federal, State, and 
local law enforcement agencies to work together to target well-
established and complex organizations that direct, finance, or engage 
in illegal narcotics trafficking and related crimes. Related crimes 
include money laundering and tax violations, public corruption, illegal 
immigration, weapons violations, and violent crimes. The OCDETF program 
has been in existence since 1982 and operates under the guidance and 
oversight of the Attorney General. Utilizing the resources and 
expertise of 11 member Federal agencies, along with support from State 
and local law enforcement partners, OCDETF has contributed to the 
successful prosecution and conviction of more than 44,000 members of 
criminal organizations and resulted in the seizure of cash and property 
assets totaling more than $3.0 billion.
    No new FTEs are being requested. Rather, existing personnel will be 
paid by direct appropriation instead of by reimbursable funding.
    In fiscal year 2004, ICE was reimbursed $47.3 million for costs 
associated with OCDETF. The reimbursable agreement for fiscal year 2005 
provides for up to $33.1 million--a decrease of $14.2 million.
    Performance Impact.--This initiative is intended to restore funding 
that was cut in fiscal year 2005, to ensure a consistent and more 
reliable funding source for ICE OCDETF activities, and to establish an 
appropriated base in lieu of reimbursable funding. This initiative is 
intended to provide funding that supports dedicated resources engaged 
in OCDETF activities and to maintain priority status for the program. 
The impact resulting from the decrease in reimbursable funding in 
fiscal year 2005 has ICE OCDETF requirements competing for funding--
including priority status--within the ICE operational base. As a 
result, there can be no assurance that prior year performance levels 
can be maintained or achieved. Direct appropriated base funding is 
expected to support out-year ICE operations' planning that promotes the 
continued collaboration with other OCDETF participating agencies to 
achieve OCDETF goals and objectives.
$105 Million Base Increase for Investigations Operations

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year
            Program               Fiscal year     Fiscal year     Fiscal year     2006 budget   Fiscal year 2006
                                  2004 budget     2005 budget      2006 base          \1\       enhancements \1\
----------------------------------------------------------------------------------------------------------------
Investigations Operations.....         796,478       1,138,495       1,099,554       1,267,437          167,883
----------------------------------------------------------------------------------------------------------------
\1\ Note: The President's budget proposes enhancements of $167.883 million to the Investigations Operations
  budget activity. Of that amount, $105 million is a base increase, $4.827 million is for the Visa Security
  Unit, $16.216 million is for Temporary Worker Worksite Enforcement, and $41.840 million is for OCDETF
  activities.

    The $105 million base increase will provide resources required to 
fund base requirements for the Office of Investigations, including 
salary costs, vehicle replacement, and other general expenses.
    Performance Impact.--Improved infrastructure on which to support 
continuation of investigative activities, both domestically and 
internationally.
Detention Bed Space

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year
            Program               Fiscal year     fiscal year     Fiscal year     2006 budget   Fiscal year 2006
                                  2004 budget     2005 budget      2006 base          \1\       enhancements \1\
----------------------------------------------------------------------------------------------------------------
DRO-Custody Management \1\....         550,912         697,855         594,169         727,769          108,600
----------------------------------------------------------------------------------------------------------------
\1\ Note: There are three enhancements to the Custody Management program, totaling $90.0 million, $25.0 million,
  and $18.6 million respectively. The $25.0 million for ABC/Interior Repatriation is excluded in this display,
  as it is described separately.

    The fiscal year 2006 enhancement for Detention Bed Space totals 
$108 million and 16 FTE.
    The President's Budget requests an additional $90 million for 
detention bed space and $18.6 million as a base increase for the 
Custody Management program. Approximately $63 million of the $90 
million is intended for the direct cost of providing an additional 
1,920 beds. The balance of the $90 million request is intended to fund 
32 new positions (16 FTE) to provide staff to support to those beds. 
This increase in bed space responds to increased demand for detention 
bed space generated by apprehending agencies (e.g., Border Patrol, 
Inspections, Investigations, etc.). The $18.6 million increase will 
provide resources required to fund base requirements for the Custody 
Management budget activity within the Office of Detention and Removal.
    The fiscal year 2005 appropriation provided an additional $26.5 
million for 1,216 new beds and 28 positions (14 FTE) above fiscal year 
2004 levels.
    Detention capacity and the necessary resources are fundamental 
components to the immigration enforcement mission. For the immigration 
enforcement mission to be successful, detention capacity must be 
considered at an appropriate ratio compared with resources provided for 
investigations and apprehensions. Increased detention capacity will 
improve the ability of ICE to verify alien identity, deter subsequent 
illegal entry, dramatically increase removal rates, prevent criminal 
aliens from returning to communities, and protect national security. 
Criminal aliens comprise more than half of the total detained 
population and we expect their numbers continue to rise due to enhanced 
enforcement efforts like IRP (Institutional Removal Program) and 287(g) 
expansion (local law enforcement authority to enforce immigration 
violations). Criminal aliens comprise a significant portion of our 
mandatory detention population (those individuals who have received 
final orders of removal and whose removal is imminent, those who are 
pending expedited removal activities, and those who are otherwise 
required by law or policy to be detained). In recent months, ICE's 
mandatory population has increased at a gradual, but steady rate due to 
increased enforcement activities (particularly from Expedited Removal 
initiative). As these targeted enforcement efforts continue, further 
growth in our mandatory detention population is likely. ICE continues 
to improve the efficiency of its detention program by consolidating 
populations and improving capacity management. These measures are 
anticipated to reduce costs by eliminating travel from detention 
facilities to proceedings, reducing average time in detention, and 
providing for more consistent and higher quality conditions of 
confinement for the detained population.
    ICE will continue to enforce its robust facility inspection program 
and coordinate with our governmental organizations and non-governmental 
organization partners in pursuit of maintaining acceptable and 
appropriate conditions of confinement for the detained population. We 
are committed to effectively enforcing our immigration laws and 
protecting our Nation's security in a manner that affords the rights 
and proper treatment obligated under our laws to detainees, including 
those claiming asylum.
Fugitive Operations

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
             Program                Fiscal year     Fiscal year     Fiscal year     Fiscal year        2006
                                    2004 budget     2005 budget      2006 base      2006 budget     enhancement
----------------------------------------------------------------------------------------------------------------
DRO-Fugitive Ops................          26,916          44,687          48,121          57,001           8,880
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2006 enhancement for the Fugitive Operations is 
$8.88 million and 0 FTE.
    The President's Budget requests an additional $8.88 million to 
support increased efforts to apprehend fugitive aliens. While estimates 
vary, the alien absconder population is more than 465,000 and that it 
continues to grow at a rate of more than 40,000 absconders per year. 
Experience with the current fugitive operations teams suggests that 
each team yields at least 500 absconder apprehensions/case closures per 
year. This success is very encouraging and expanding these efforts will 
stem the growth of the alien absconder population and begin to reduce 
the overall numbers of alien absconders at large.
    ICE currently employs 16 fugitive operations nation-wide. Cities 
with fugitive operations teams include: Los Angles (2 teams), Boston, 
San Francisco, Miami, Houston, New York City (2 teams), Chicago, Newark 
(2 teams), Detroit, Atlanta, Baltimore, San Diego, and Seattle.
    The fiscal year 2005 reprogramming request reduced the $50 million 
appropriated enhancement to $9 million. For fiscal year 2005, $9 
million will support 42 full time positions (21 FTE) and additional 
funding for bed space and operating costs associated with increased 
apprehension activity.
    This proposed enhancement is aligned to Department of Homeland 
Security Strategic Objective 2.2, Enforce trade and immigration laws.
    All increases in removal rates increase the control DRO has over 
the removal alien population which contributes directly to national 
security.
Institutional Removal Program (Criminal Alien Program)

                                            [In thousands of dollars
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
             Program                Fiscal year     Fiscal year     Fiscal year     Fiscal year        2006
                                    2004 budget     2005 budget      2006 base      2006 budget     enhancement
----------------------------------------------------------------------------------------------------------------
DRO-IRP.........................          17,467          31,512          33,706          39,041           5,335
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2006 Institutional Removal Program (IRP) 
enhancement is $5.355 million and 19 FTE.
    The President's Budget requests an additional $5.355 million to 
expand the IPR program and to continue the transfer of the program from 
the Office of Investigation to the Office of Detention and Removal 
Operations. The fiscal year 2005 amount will complete the transition of 
the State of New York and a sizable portion of the State of California. 
The fiscal year 2006 amount will continue the staffing of California.
    IRP, now referred to as ICE's Criminal Alien Program (CAP), 
identifies aliens who are in criminal incarceration and processing them 
for removal prior to their incarceration release. This is an effective 
approach to preventing criminal recidivism and to ensure removable 
aliens are actually removed once so ordered by an immigration judge.
    Currently, the ICE Office of Investigations administers the IRP 
program with a variety of resources (including job series 1811 criminal 
investigators). The workload for each immigration enforcement agent 
(IEA) is 300 charging documents served per year. This figure 
encompasses the number of interviews and record checks of individuals 
that are not amenable to removal but are of foreign birth. The plan for 
CAP is to interview 90 percent or more of all foreign born inmates in 
Federal, State and mega-county (populations over 1 million) areas. 
287(g) (local law enforcement authority to enforce immigration 
violations) and video teleconferencing will serve the outlying areas.
    ICE has placed increased emphasis on complex criminal 
investigations for its 1811 job series. In recognition of this, 
Congress provided an additional $30 million in the fiscal year 2005 
appropriation to initiate the transfer of IRP from OI to DRO. The 
fiscal year 2005 reprogramming requests the enhancement be reduced to 
$4 million. This will allow for 37 positions and thus, Special Agents 
will continue to perform some institutional removal duties, instead of 
replacing all of them with Immigration Enforcement Agents (IEA). 
Criminal Alien Program (CAP) is the unification of the old 
Institutional Removal Program (IRP) and the Alien Criminal Apprehension 
Program (ACAP). All DRO activities in the incarcerated criminal alien 
arena will be referred to simply as CAP in the future.

                             STAFFING MODEL

    Based on recent production numbers from New York State Department 
of Corrections (DOC) and Florida Department of Corrections, an IEA will 
in a year will do 600 interviews in Southern tier States and 500 
interviews in Northern tier States. The statistics from these two DOCs 
suggest a higher percentage of naturalized foreign-born individuals in 
southern tier States requiring more interviews to obtain the goal of 
300 charging documents issued per agent.
    The transition will focus on a state-by-state transition of 
responsibility from OI to DRO. The first States, in order, are New 
York, California, Texas, Florida and Illinois. The transition, to date, 
is limited to the New York City Jail of Riker's Island.
    New York.--The plan has been coordinated with NY State Department 
of Corrections and New York City Department of Corrections, the two 
largest non-Federal partners. Pre-existing system and partnerships with 
Executive Office for Immigration Review and Bureau of Prisons exist 
under legacy Institutional Hearing Program (IHP). Video 
teleconferencing will cover traditional ACAP locations at smaller 
county facilities. Equipment and staffing will be at newly completed 
Castle Point Facility which offers space for increased staffing.
    California.--Plans have been discussed to improve the efficiency of 
identifying and starting removal proceedings for amenable aliens with 
the California Department of Corrections. The system is currently in a 
number of locations. Pre-existing system and partnerships with EOIR and 
BOP exist under legacy IHP. Video teleconferencing will cover 
traditional ACAP locations at smaller county facilities. Equipment and 
staffing will be hired and located to meet the needs of the State of 
California stretch the capacity of the New York VTC center. Due to the 
costs of installing VTC equipment to local detention facilities, the 
need will be relatively small in the first years and will be built up 
as demand grows.
Arizona Border Control (ABC)/Interior Repatriation

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                     Program                        2004 budget     2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
ABC.............................................  ..............  ..............          39,349          39,349
----------------------------------------------------------------------------------------------------------------

    This fiscal year 2006 enhancement is $39.349 million for the ABC/
Interior Repatriation Program. With this funding, the Interior 
Repatriation program will transfer from Customs and Border Protection 
to ICE/DRO in fiscal year 2006. DRO is in the business of removals and 
will use its experience to build on previous successes.
    Interior repatriation (IR) is a component of the Arizona Border 
Control initiative (ABCI). ABCI is a multi-pronged approach to 
controlling the Arizona Border, which includes anti-smuggling 
investigations, fugitive arrests, as well as controlling and arresting 
illegal crossings. IR has a singular focus of the repatriating Mexican 
nationals. IR's aim is promoting deterrence, reducing recidivism of 
illegal crossings and thus reducing the number of deaths along the 
Arizona border.
    In fiscal year 2004, 14,058 undocumented immigrants were 
voluntarily flown from Tucson, AZ, to the interior of Mexico from July 
12 to September 30, 2004, after screening by DHS and a Mexican Consular 
Official. During the IR, Border Patrol Agents interviewed 96,793 
potential candidates.
    Of those interviewed, 82,735 refused to participate. Of those who 
declined to participate, 14,069 had been deemed ``at risk'' migrants. 
These migrants as well as the other migrants who refused to participate 
were processed either through voluntary return to the Arizona/Mexico 
border or other removal mechanisms.
    A total of 7 percent (1,008) of IRP participants were arrested 
attempting re-entry into the United States during the IRP operation 
dates. This is much lower than the Tucson sector's average recidivism 
rate of 37 percent.
    Interior repatriation can result in a dramatic reduction in the 
number of deaths in the desert suffered by intending immigrants. 
Interior repatriation efforts have resulted in strong U.S.-Mexico and 
cooperation. Since the IR pilot last year, DHS has also implemented 
expedited removal between ports of entry in the Tucson and Laredo 
sectors, resulting in additional apprehensions in the Tucson area.
Alternatives to Detention

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                  Fiscal year     Fiscal year     Fiscal year     Fiscal year   Fiscal year 2006
            Program               2004 budget     2005 budget      2006 base      2006 budget   enhancements \1\
----------------------------------------------------------------------------------------------------------------
DRO-Alternatives..............           8,659          12,202          12,733          23,533           10,800
----------------------------------------------------------------------------------------------------------------
\1\ Note: There are two enhancements to the Alternatives to Detention program, each totaling $5.4 million.

    The fiscal year 2006 enhancement for Alternatives to Detention 
totals $10.8 million and 7 FTE.
    The President's Budget requests an additional $5.4 million to 
expand the Intensive Supervision Appearance Program (ISAP) and $5.4 
million increase for the Alternatives to Detention program, for a total 
of $10.8 million in enhancements. Alternatives to Detention include 
intensive supervision, electronic monitoring, and telephonic voice 
recognition. Currently, ICE (through the Office of Detention and 
Removal Operations--DRO) is piloting several alternatives to detention 
initiatives. Early indications are encouraging and suggest that these 
approaches to monitoring aliens who are not in physical custody may 
yield better appearance rates to immigration proceedings and better 
rates of removal once an alien has been ordered removed. The program is 
still too new to draw definitive conclusions. Over the next 6 to 12 
months ICE will be collecting data and evaluating the efficacy of 
various alternatives to detention strategies.
    ICE began piloting this initiative in fiscal year 2004 and has 
expanded the pilots in fiscal year 2005. Pilot cities include: Miami, 
Philadelphia, Baltimore, Portland, Denver, San Francisco, and others. 
The fiscal year 2005 Budget provided $11 million to expand the number 
of pilot locations and to fund 60 new full time positions (30 FTE). The 
fiscal year 2005 reprogramming reduces the funding to $2 million which 
permits funding for 11 new full time positions.
    DRO will measure the performance of the ISAP program on three 
levels: (1) Do aliens enrolled in ISAP have a greater rate of 
appearance at hearings than the rate of a control group of non-detained 
aliens not enrolled in ISAP? (2) If ordered removed or granted 
voluntary departure, do aliens enrolled in ISAP surrender/depart at a 
greater rate than a control group? (3) If the alien fails to surrender 
for removal or otherwise fails to depart, are absconding aliens in ISAP 
re-apprehended at a greater rate than that for a control group?
    DRO and its ISAP contractor are collecting certain data to test the 
hypothesis that the performance measures for aliens in ISAP will 
indicate a greater success rate than the performance measures for a 
control group of non-detained aliens. ``Success'' is defined as a 
statistically significant increase in the appearance rates, surrender 
rates, and re-apprehension rates. The hypothesis test will involve 
standard statistical tests (such as ``t tests'') and commonly accepted 
levels of statistical significance (generally the significance level in 
social science research is set to .05). DRO expects it will have gained 
a sufficiently large sample population to draw statistical inference 
within the next 6 to 12 months.
    DRO and its contractor will also collect data on the appearances at 
hearings, surrenders for removal, departure from the United States, 
number of re-apprehensions of absconders.
    The ISAP population is non-criminal aliens that are not mandatory 
detention, who live within a reasonable commuting distance of an ISAP 
office, and who agree to the conditions of the program. DRO will select 
a control group of non-detained aliens that are not participating in 
ISAP. These aliens will be selected from Docket Control Offices that 
have ISAP. The control group will closely match the ISAP group on such 
relevant characteristics as country of origin, gender, and length of 
stay in the United States.
    General Explanation and Justification for the Initiative.--
Detention of all aliens that are apprehended and placed into removal 
proceedings is not the only way to ensure that aliens appear at their 
immigration hearings or for removal. Aliens who disappear from ICE 
supervision pose a potential threat to public safety and national 
security. To mitigate this flow of cases into the fugitive population, 
ICE's DRO seeks to further develop alternatives to detention in two 
ways. First, expansion of the ISAP to two additional locations in 
fiscal year 2006. Each site is intended to accommodate 200 participants 
daily. These additional resources would bring the total number of 
participants nationwide on any given day to 2,000. The ISAP is a 
community-based, case management program that provides close 
supervision of illegal aliens emphasizing compliance with Immigration 
Court requirements. Expansion of the program requires 14 positions (7 
FTEs). In order to properly execute the alternatives to detention 
program within DRO, positions must accompany program expansion. These 
positions will be used to manage the alternatives to detention docket 
including enrolling participants, managing the data, ensuring departure 
from the United States as required, and acting as the local Contracting 
Officer's Technical Representative.
    This proposed enhancement is aligned to Department of Homeland 
Security Strategic Objective 2.2, Enforce trade and immigration laws.
    Performance Impact.--This is a cost-effective way to ensure that 
aliens will appear for their immigration hearings or for removal. This 
program will increase the integrity of the immigration enforcement 
process by adding two additional ISAP locations, each intended to 
accommodate 200 participants daily. ICE is still analyzing the results 
of alternative to detention programs and will baseline the appearance 
rates in fiscal year 2006 to begin measuring the true outcome of ISAP. 
The goal of this program is in line with the strategic objective of 
removing all removable aliens. The anticipated increase in appearance 
rates will also mean fewer cases entering the fugitive population.
Federal Air Marshal Service (FAMS)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
             Program                Fiscal year     Fiscal year     Fiscal year     2006 budget        2006
                                    2004 budget     2005 budget      2006 base          \1\         enhancement
----------------------------------------------------------------------------------------------------------------
FAMS............................         610,290         662,900         678,994         688,860           9,866
----------------------------------------------------------------------------------------------------------------

    This enhancement will allow the FAMS to increase its staffing level 
to a level that will allow it to meet its mission objective, the risk-
based deployment of Federal Air Marshals. FAMS works closely with DHS 
and other Federal, State and local agencies and private industry to 
develop, deploy and sustain a comprehensive intelligence-driven 
approach and response to terrorist and related criminal threats against 
the United States and its interests. FAMS provides critical support to 
DHS' missions to prevent terrorist acts within the United States, 
reduce vulnerability to terrorism, and minimize damage from potential 
attacks.
    Additional information can be provided in a secure manner.
Student and Exchange Visitor Program (SEVP)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                     Program                        2004 budget     2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
SEVP............................................           1,465          40,000      \1\ 58,100      \1\ 18,100
----------------------------------------------------------------------------------------------------------------
\1\ These numbers have been revised since submission of the President's budget on February 7, 2005.

    DHS Strategic Objective Supported: 2.2 Enforce Trade and 
Immigration Laws
    The Student and Exchange Visitor Program (SEVP) was created to 
restore integrity to the U.S. immigration system by ensuring that 
international students, scholars, and exchange visitors studying in the 
United States comply with the terms of their visas. One of SEVP's 
primary functions is to track the immigration status of foreign 
students and exchange visitors.
    In fiscal year 2004, SEVP operated with two separate streams of 
funding--a fee collection process for school certification and 
appropriated dollars from counter-terrorism funds. The Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 mandated 
the establishment and maintenance of a fee collection process to 
support the Student and Exchange Visitor Information System (SEVIS) and 
SEVP. To become a fully fee funded program, SEVP implemented a fee 
collection process (the SEVIS I-901 Fee) on September 1, 2004. This fee 
is paid by all prospective students and exchange visitors ($100 for 
most and $35 for some exchange visitors) prior to seeking a visa at the 
consulates and embassies overseas. The I-901 fee and the fees collected 
from schools seeking certification to host nonimmigrant students (I-17 
Fee), provides the full funding for SEVP, portions of the Compliance 
Enforcement Unit (CEU), and the Department of State efforts.
    In fiscal year 2005, SEVP projects it will collect $46 million from 
the SEVIS I-901 fee and $362,000 from the I-17 school certification 
fees. In addition, SEVP had a carryover balance of $2.6 million from 
fiscal year 2004. Although SEVP projects to have total resources of 
$49.0 million for fiscal year 2005, the execution level will remain at 
$40 million to ensure continuity of funding for the program.
    In fiscal year 2006, SEVP projects to collect $45.9 million from 
the SEVIS I-901 fee and $3.5 million from the I-17 school certification 
fees. The increase in I-17 school certification fees is based on SEVP 
collecting initial fees as well as the re-certification fees whereas in 
fiscal year 2005 they will only collect initial fees. In fiscal year 
2006 SEVP will have a full cycle of SEVIS I-901 fees since its 
inception in September 2004. SEVP projects to have total resources of 
$58 million for fiscal year 2006 that includes a $9 million carryover 
balance from fiscal year 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The additional $18.1 million spending authority for fiscal year 
2006 will allow SEVP to:
  --Maintain staffing levels--the cost of salaries and benefits of 
        newly hired employees
  --Continue to improve SEVIS with IT enhancements--allows SEVP to 
        accelerate the implementation of planned enhancements to 
        improve the batch and real time interface processing, 
        incorporate historical data from the SEVIS predecessor (CIPRIS) 
        and implement a user-friendly reporting tool. This increase in 
        funding will also allow SEVP to develop a search tool for the 
        historical data.
  --Conduct analysis of current fee structures (I-901 SEVIS fee and I-
        17 school certification)--fee studies for both the I-901 SEVIS 
        fee and the I-17 school certification were conducted in early 
        2000
    SEVP will continue to perform the following functions:
  --Certify schools desiring to participate in SEVIS
  --Provide law enforcement with current information on F, M and J 
        nonimmigrants
  --Conduct outreach to the academic community
  --Accept and process fee payments
  --Enhance the functionality of the SEVIS system
  --Write policies and regulations to implement statutory requirements
  --Train users of the SEVIS system
  --Assist ports of entry, DoS consular officials, schools and program 
        sponsors with the entry and stay of F, M and J nonimmigrants

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                      Performance Increase                         2006 request    2007 request    2008 request
                                                                       level           level           level
----------------------------------------------------------------------------------------------------------------
Percent of F, M, and J nonimmigrant information maintained in                100             100             100
 SEVIS..........................................................
----------------------------------------------------------------------------------------------------------------

    Question. Are there any services that ICE is being assessed working 
capital fund charges for in fiscal year 2004 or fiscal year 2005 that 
are not directly utilized by ICE? Is ICE being charged for services on 
a basis proportionate to its usage?
    Answer. According to the DHS Working Capital Fund reimbursable 
agreements, ICE will only be billed for actual services received. This 
was true for fiscal year 2004 WCF billings, and is expected for fiscal 
year 2005 billing. DHS provided detailed proration guidance with the 
fiscal year 2005 anticipated WCF billings. ICE agrees with DHS 
proration of WCF costs.

   OFFICE OF SCREENING COORDINATION AND OPERATIONS (9/11 COMMISSION 
                            RECOMMENDATION)

    Question. The President's Budget proposes to create the Office of 
Screening Coordination and Operations within the Border and 
Transportation Security Directorate. CIS has significant screening and 
identification capabilities and needs, yet the President's budget does 
not propose moving the operational responsibility for any of those 
programs out of CIS. In order to ensure that there is the closest 
possible coordination across screening programs, should CIS screening 
programs be moved to the Office of Screening Coordination and 
Operations?
    Answer. The Office of Screening Coordination and Operations (SCO) 
is the first step in implementing the requirements of HSPD-11, which 
directs DHS to review and integrate all screening requirements across 
the Federal government. USCIS operational requirements and other 
security elements are being reviewed within the Department, and where 
deemed appropriate, may be incorporated within the purview of the SCO.

               TERRORIST TRAVEL (9/11 COMMISSION REPORT)

    Question. In addition to the formal 9/11 Commission Report, the 
Commission issued two staff monographs, one of them on Terrorist 
Travel. While no specific recommendations were made, the report reached 
interesting conclusions. One conclusion was that ``Border inspectors 
today still do not have basic intelligence and operational training to 
aid them in detecting and preventing terrorist entry.'' They are not 
talking about people who are on watchlists, but providing inspectors 
with training to detect terrorists not on the watchlist. What steps is 
CBP taking to incorporate the information uncovered by the 9/11 
Commission staff on terrorist travel into basic training for CBP 
officers?
    Answer. CBP has established anti-terrorism response protocols to 
more effectively handle potential terrorism threats identified by CBP 
personnel. These national-level CBP policies operate both for a CBP 
Officer questioning a person applying for admission at a port of entry 
and for a Border Patrol Agent processing an individual who's been 
apprehended after crossing the border illegally to ensure consistent 
application throughout the border. CBP has also developed specific 
anti-terrorism training for passenger processing that includes specific 
instruction in behavioral analysis, deception detection and eliciting 
information.
    The integrated curriculum for new CBP Officers includes three (3) 
specific components: Pre-Academy, Academy Basic training at Glynco, GA, 
and post-Academy training conducted at the Ports of Entry (In-port 
training). Academy Training courses for new CBP Officers include new 
anti-terrorism passenger training and fraudulent document detection. 
Most importantly, the role of an Officer in CBP's priority mission, 
anti-terrorism, is taught on day one and reiterated throughout the 
curriculum.
    Under our new curriculum, our basic trainees receive 16 hours in 
fraudulent document training at the Academy that culminates with a 
graded practical exercise during which trainees examine characteristics 
of unique documents and determine if the documents are genuine, 
counterfeit or altered. The course highlights fraud indicators that may 
be present in evaluating any document for authenticity. Security 
features of United States entry documents and imposter detection are 
emphasized as well. Trainees that fail to successfully complete the 
course are removed from training. All instructors teaching this course 
have received training from the Forensic Document Lab.
    With regard to questioning techniques, we use practical exercises 
throughout a trainee's 15 weeks at the Academy. With the help of role 
players, students are presented with scenarios based on primary 
inspection situations. During the labs and graded practical exercises, 
trainees review documents presented, question role players about their 
visit to the United States and make ``refer or release'' 
recommendations. Interviewing labs require trainees to practice 
observational skills and questioning skills, while applying their job 
knowledge of documentation requirements, immigration issues, customs 
exemptions, prohibited and restricted articles, and agricultural 
issues.
    Question. Has CBP considered asking the 9/11 Commission staff to 
put together a seminar on its findings for all current inspectors, 
allowing them to sharpen their skills?
    Answer. CBP is open to new training concepts, and though we are not 
sure that using former Commission staff for training CBP inspectors is 
an optimal approach, we will keep such ideas in mind as we continue to 
refine training programs.
    Question. The report on Terrorist Travel also calls attention to 
the lack of ``viable options to prevent documents known to be 
fraudulent from being returned to travelers denied entry into the 
United States''. What additional authority would CBP need to be able to 
confiscate or in some way invalidate fraudulent documents prior to 
denying entry to someone?
    Answer. U.S. Customs and Border Protection (CBP) implemented on 
January 1, 2005, under existing legal authority, a comprehensive 
program for the seizure and systematic processing of fraudulent travel 
documents presented for admission into the United States. Key parts of 
that program include the requirement that no fraudulent travel document 
be returned to the subject presenting the document and the mandatory 
forwarding of all seized documents to CBP's newly established 
Fraudulent Document Analysis Unit for intelligence collection and final 
disposition (return to issuing authority for destruction). Subjects 
from whom fraudulent documents have been seized are now issued a Single 
Journey Letter (SJL) to facilitate their return travel. The SJL 
conforms with all International Civil Aviation Organization (ICAO) 
Annex 9 standards for issuance of such documents. It includes 
interdiction and biographic information as well as the subject's 
photograph and fingerprints from both right and left index fingers.
    Question. The report also states ``There is no programmatic effort 
to focus on terrorist travel facilitators, and special agents lack the 
resources and authority to pursue visitors for immigration violations 
associated with terrorist activity''. What is the Department's position 
on this statement? What can be done to change this?
    Answer. ICE has special agents assigned to CBP's National Targeting 
Center (NTC), the FBI's Foreign Terrorist Travel Task Force (FTTTF) and 
the FBI's Terrorist Financing Operations Section. All three locations 
have developed specialized databases to facilitate the investigation of 
terrorist travel and terrorist travel facilitators. ICE Attaches 
assigned to posts around the world, and the ICE special agent assigned 
to the Department of Defense Central Command, are also well-positioned 
to act upon information relating to terrorist travel facilitators.
    Question. One of the most interesting findings included in the 
report on Terrorist Travel, was related to the U.S. Department of 
Justice's Absconder Apprehension Initiative, started in 2001. Today, 
this initiative has become the responsibility of ICE's Fugitive 
Operations Program.
    Of the almost 6,000 aliens determined to be the highest priority to 
track down and remove, 5 percent had been granted U.S. citizenship or 
had become legal permanent residents after being ordered deported. Can 
ICE and CIS guarantee that this can never happen again? What steps have 
been taken to ensure that this cannot happen again?
    Answer. ICE works to ensure that data is shared and has developed 
and implemented agreements with CIS to share data. ICE also routinely 
runs CIS cases against the fugitive database. In addition, CIS has 
access to the Deportable Alien Computer System (DACS), which tracks all 
cases under removal proceedings.
    Question. Is all of the relevant information that each organization 
has in its records being shared today? Is the Department confident that 
someone who has been ordered deported from this country can not be 
granted U.S. citizenship while an absconder?
    Answer. The information regarding who is an absconder is readily 
available for queries and searches for CIS to determine if an applicant 
is considered an absconder or fugitive. An applicant for citizenship 
has the burden of establishing that he was lawfully admitted for 
permanent residency in the United States. The Naturalization 
application requires additional identity and security checks; a 
definitive response from the FBI background checks, and IBIS checks. In 
addition, all applications are processed in accordance with established 
Naturalization Quality Procedures (NQP).
    Question. When someone is found to be attempting to fraudulently 
obtain U.S. citizenship, through the use of a false name or some other 
method, why does it take so long to bring them to justice?
    On February 10, 2005, Mostofa Kamal, aka Shaheen Sardar, a native 
of Bangladesh, was arrested in New York. He entered this country in 
1994, over 10 years ago. He was ordered to leave the United States in 
1997. This individual made his first fraudulent request for benefits in 
1997. Mr. Kamal was interviewed by CIS in connection with his 
application for U.S. citizenship in November of 2004, an application 
that was received by CIS in August of 2003, but he was only arrested 3 
weeks ago. The Department has known for sometime where he was--employed 
by the New York City Police Department as a Traffic Enforcement Agent. 
What is the issue? Is it resources, priorities? Why do these cases drag 
on so long before ICE arrests someone?
    Answer. In the referenced case, the subject had previously entered 
the United States in 1993 under a false name and made claims to 
political asylum. His asylum claim was denied, and an Immigration Judge 
granted him Voluntary Departure with an alternate order of deportation 
should he not depart by the specified date in May of 1996. In 1997, he 
changed his name (name referenced in question), married a U.S. citizen, 
and applied for a benefit through that relationship. Based on that 
relationship, he left the United States, reentered, and was admitted to 
the United States as a Lawful Permanent Resident in 2000. He, in 
effect, caused an alternate order of deportation when he departed the 
United States to pick up his Visa. As a result of the name change, the 
fraud had not been detected. In continuance of this fraud, the subject 
applied for citizenship, for which he passed all stages in the process 
and was awaiting a naturalization date. The fraud was discovered. In 
February 2005, he was presented for criminal prosecution in the 
Southern District of New York for committing naturalization fraud.
    It may take many years for an individual to exhaust his legal 
administrative remedies. Normally, arrests would not take place while 
there is an adjudicative or administrative judicial process being 
pursued and would only take place if the subject were considered likely 
to abscond. Generally, single scheme frauds are not accepted for 
criminal prosecution unless there are extraordinary circumstances that 
would sway the U.S. Attorney's office to consider it.

                   ARIZONA BORDER CONTROL INITIATIVE

    Question. The Arizona Border Control (ABC) Initiative has been 
underway for almost a full 12 months. What are the results of this 
initiative so far? Has it been a success?
    Answer. The Arizona Border Control Initiative (ABCI) has been very 
successful. Initial successes have established a foundation to expand 
on during fiscal year 2005 in order to achieve operation control of the 
Arizona/Mexico Border under control. Intelligence and arrest trends 
collected through ABCI indicate that alien smugglers have been forced 
to change their operating procedures as a result of ABCI. Selected 
statistics associated with ABCI are as follows:
  --42 percent increase in arrests over the previous year
  --105 percent increase in narcotics seizures over the previous year
  --26 percent decrease in migrant deaths
  --22 percent increase in Immigration Felony Prosecutions
  --461 percent increases in vehicle seizures
  --350 percent increase in weapons seizures
    Question. What lessons from the ABC initiative can now be 
incorporated into the operations of CBP, ICE and others across the 
Nation?
    Answer. Lessons learned that can be incorporated throughout the 
Nation include:
  --Development of Planning Cell Committees of agency leadership 
        personnel to coordinate the creation of operation plans to 
        foster a seamless flow of information and to establish 
        operating coalitions.
  --Establishing a coordinated leadership structure with an emphasis on 
        information and intelligence sharing and ensuring that 
        sufficient resources are deployed is a requirement for success.
  --Integrating operations between all BTS entities, State, local, 
        tribal agencies and foreign governments achieve better results 
        than working alone.
  --Integrating ground-based surveillance technology, air surveillance, 
        and ground personnel creates a ``defense in depth'' posture, 
        which inhibits the ability of criminal enterprises to operate 
        freely along the U.S./Mexico Border.
    Question. Funding for this initiative has been requested in the 
fiscal year 2006 budget request. Should this initiative now be regarded 
as a permanent resource enhancement?
    Answer. The $1 million increase included in the fiscal year 2006 
President's Budget for the Arizona Border Control Initiative (ABCI) 
should be considered to be a permanent increase to CBP's base funding. 
These additional resources are required to meet the objectives of the 
ABCI.
    Question. The use of unmanned aerial vehicles as a part of the ABC 
initiative has been considered very successful. However, the contract 
vehicle that the Science and Technology Directorate was using to 
provide the UAVs has ended, and there is no UAV coverage while CBP 
evaluates how best to continue this project. When does CBP expect to 
have this issue resolved so that UAV coverage can be put back into 
place in the Tucson Sector?
    Answer. CBP is currently refining requirements to issue a request 
for proposals (RFP) to the unmanned aerial vehicle (UAV) industry. The 
contract will specify delivery of the system within 30 days of contract 
award, which will allow CBP to establish a UAV initial operating 
capability on the Southern Border in support of the Arizona Border 
Control Initiative. CBP expects to award a contract for UAV procurement 
in the fourth quarter of fiscal year 2005.

                      ASYLUM AND EXPEDITED REMOVAL

    Question. The United States Commission on International Religious 
Freedom recently issued a report entitled ``Asylum Seekers in Expedited 
Removal''. The report contains a number of recommendations for the 
Department of Homeland Security. The report raised specific issues on 
the difficulty of applying the standards for asylum and credible fear 
in a consistent manner across the Department. Has a working group or 
other mechanism been put in place to look into how the standards are 
applied and ensure consistent treatment of asylum seekers?
    Answer. Since the inception of the expedited removal process in 
1997, a standing inter-agency working group has addressed expedited 
removal issues. The Expedited Removal Working Group is an established 
forum for discussing all issues relating to expedited removal and 
comprises experts from each of the affected DHS entities (U.S. 
Citizenship and Immigration Services, Customs and Border Protection, 
and Immigration and Customs Enforcement).
    Pursuant to former Deputy Secretary Admiral James Loy's concurrence 
with a joint memorandum from former Undersecretary of Border and 
Transportation Security Asa Hutchinson, USCIS Director Eduardo Aguirre, 
and Officer for Civil Rights and Civil Liberties Daniel Sutherland, the 
Expedited Removal Working Group has been tasked with coordinating 
review of the United States Commission on International Religious 
Freedom report, ``Asylum Seekers in Expedited Removal.'' The working 
group also will draft the Department's responses to the report's 
recommendations. The working group will report on its review and 
proposed responses to BTS, USCIS, and CRCL, and their report then will 
be forwarded to the Secretary.
    Question. The report also raised concerns about the detention 
policies and facilities used for the majority of asylum applicants. 
CBP, ICE, and CIS must all balance the national security needs of this 
country with the humanitarian needs of legitimate asylum applicants. In 
fact, almost at the same time that this report was made public, the 
11th defendant in a significant case ``Operation Jakarta'' involving 
asylum fraud and document fraud pleaded guilty in a Federal court in 
Virginia. What is being done to review these programs and evaluate the 
specific recommendations of the Commission?
    Answer. The Department of Homeland Security established a working 
group to review and respond to the recommendations suggested by the 
Commission. The working group will issue an evaluation on those 
recommendations this summer.
    Question. What steps have been taken as a result of ``Operation 
Jakarta'' to track down anyone who received benefits fraudulently 
because of this criminal enterprise and remove them from the United 
States?
    Answer. During the course of the criminal investigation, the USCIS 
Asylum Offices have reviewed 12,000 Indonesian asylum cases in order to 
identify all fraudulent cases related to ``Operation Jakarta.'' 
Approximately 800 principal asylum cases were directly linked to the 
perpetrators of the fraud and will be processed for termination. Due to 
the high volume of fraud cases, the Asylum Offices have created teams 
of Asylum Officers to process the cases expeditiously. As the cases are 
terminated, the individuals will then be referred for judicial review 
to the Executive Office of Immigration Review (EOIR). All of the 
individuals that applied for and/or received benefits associated with 
this fraud will be entered as ``lookouts'' in the Treasury Enforcement 
Communications Systems (TECS).

           USE OF STOLEN PASSPORTS--INSPECTOR GENERAL REPORT

    Question. In December of 2004, the Department of Homeland 
Security's Office of Inspector General issued a report entitled ``A 
Review of the Use of Stolen Passports from Visa Waiver Countries to 
Enter the United States''. Both ICE and CBP concurred with the 
recommendations in this report. What progress has ICE and CBP made to 
implement those recommendations?
    Answer. ICE and CBP have implemented coordinated standard operating 
procedures to ensure ICE receives information on all individuals 
present in the United States who entered on a lost or stolen passport. 
On January 28, 2005, the Director of the National Targeting Center 
(NTC) sent the ICE Compliance Enforcement Unit (CEU) a letter 
confirming the agreement between ICE and CBP. CBP will ensure lookouts 
are placed on all lost or stolen passports, conduct appropriate 
database queries, and forward information to the CEU on anyone present 
in the United States who entered on a lost or stolen passport.
    Question. Please provide the Committee with a detailed, item by 
item, breakout of any fiscal year 2004 representation funds that were 
allocated to CBP, CIS, ICE, and the Under Secretary for Border and 
Transportation Security.
    Answer. The requested information has been provided in the tables 
below.

------------------------------------------------------------------------
                                            Fiscal year
         Organizational element                2004         Fiscal year
                                           appropriated   2004 obligated
------------------------------------------------------------------------
Office of Under Secretary for BTS.......  ..............  ..............
CBP.....................................         $40,000         $37,661
ICE.....................................          15,000           6,837
USCIS...................................           5,000           4,953
------------------------------------------------------------------------


 FISCAL YEAR 2004 SUMMARY OF RECEPTION & REPRESENTATION FUND OBLIGATIONS
------------------------------------------------------------------------
              Date                       Event               Amount
------------------------------------------------------------------------
     U.S. Customs and Border
           Protection
 
30-Oct-03.......................  Official luncheon              $381.14
                                   held in honor of
                                   U.S./Mexico Border
                                   Partnership
                                   Meeting.
13-Nov-03.......................  Protocol Supplies..             170.98
03-Nov-03.......................  Refreshments served              74.82
                                   at the Operation
                                   Safe Commerce
                                   Meeting.
08-Nov-03.......................  Sponsor the                     150.00
                                   Ministers from
                                   Trinidad & Tobago
                                   at the Marine
                                   Corps Ball in
                                   Trinidad in
                                   furtherance of
                                   CMAA negotiations.
12-Nov-03.......................  Refreshments for                 21.09
                                   meeting hosted by
                                   Deputy
                                   Commissioner with
                                   Mexican Delegation.
17-Nov-04.......................  Official Dinner in              402.82
                                   honor of Lars
                                   Karlsson, 2nd
                                   Deputy Director
                                   General, Sweden
                                   Customs.
19-Nov-03.......................  Official Dinner                 923.55
                                   with officials
                                   from New Zealand
                                   during CIS
                                   Discussions.
02-Dec-04.......................  Official reception              326.97
                                   for the opening of
                                   the CSI Port in
                                   Durban, South
                                   Africa.
12-Dec-03.......................  Protocol Supplies--           1,200.00
                                   Commissioner of
                                   Customs office.
18-Dec-04.......................  Official Reception           10,523.50
                                   hosted by
                                   Commissioner of
                                   Customs in honor
                                   of foreign
                                   dignitaries and
                                   high level
                                   officials from
                                   various Embassies.
21-Jan-04.......................  Honorary Award Item              95.00
                                   for WCO Regional
                                   Security
                                   Conference in
                                   Senegal.
21-Jan-04.......................  Official luncheon               148.00
                                   hosted by Chief De
                                   La Vina in honor
                                   of Mexican
                                   Officials,
                                   Fernando Creixell
                                   and Agustin Caso.
23-Jan-04.......................  Official luncheon               213.68
                                   in honor of Canada
                                   Border Security
                                   Agency, President
                                   Alain Jolicoeur
                                   and Director Greg
                                   Boatbe.
28-Jan-04.......................  International                 3,473.00
                                   Customs Day
                                   Reception.
29-Jan-04.......................  Official dinner               1,487.20
                                   hosted by
                                   Secretary Ridge in
                                   honor of Canadian
                                   Prime Minister and
                                   delegation.
24-Feb-04.......................  Official Luncheon               608.00
                                   for Italian
                                   Delegation during
                                   CSI Program Review.
03-Mar-04.......................  Flowers sent on                 219.06
                                   behalf of Customs
                                   and Border
                                   Protection upon
                                   the death of
                                   Comptroller of
                                   Customs, Robin
                                   Dare (New Zealand).
24-Mar-04.......................  Official luncheon               125.13
                                   hosted by Acting
                                   Assistant
                                   Commissioner,
                                   International
                                   Affairs in honor
                                   of Mr. Kaci Abes,
                                   Director, External
                                   Cooperation &
                                   Relations.
22-Apr-04.......................  Protocol Supplies               261.52
                                   for US/EU Signing.
28-Apr-04.......................  Official Luncheon               379.10
                                   hosted in honor of
                                   US/EU signing and
                                   the Joint Customs
                                   Cooperation
                                   Committee.
08-May-04.......................  Protocol Supplies--              10.60
                                   Office of Trade
                                   Relations.
13-May-04.......................  Official luncheon               592.62
                                   hosted in honor of
                                   Mr. Mu Xin-Sheng,
                                   Minister, General
                                   Administration of
                                   China Customs and
                                   his delegation.
24-May-04.......................  Refreshments during             616.92
                                   meetings held with
                                   the European
                                   Community & U.S.
                                   Expert Groups on
                                   Container Security.
08-Jun-04.......................  Dinner hosted by                450.00
                                   Commissioner
                                   Bonner in honor of
                                   the U.S./Canada
                                   Shared Border
                                   meeting.
08-Jun-04.......................  Official luncheon               514.30
                                   hosted by
                                   Commissioner
                                   Bonner in honor of
                                   U.S./Canada Shared
                                   Border meeting.
08-Jun-04.......................  Official Reception            1,967.06
                                   hosted by
                                   Commissioner
                                   Bonner at the U.S./
                                   Canada Shared
                                   Border Meeting.
14-Jun-04.......................  Official luncheon               216.25
                                   hosted by
                                   Commissioner
                                   Bonner in
                                   conjunction with
                                   the U.S./Mexico
                                   Bilateral Meeting.
16-Jun-04.......................  Official luncheon               562.50
                                   hosted by Acting
                                   Assistant
                                   Commissioner,
                                   International
                                   Affairs in honor
                                   of high level
                                   Georgian Officials.
22-Jun-04.......................  Official luncheon               323.01
                                   hosted by Acting
                                   Assistant
                                   Commissioner, INA
                                   for the New
                                   Zealand delegation
                                   attending the WCO
                                   Policy &
                                   Commission
                                   meetings..
25-Jun-04.......................  Official luncheon               421.65
                                   and toast hosted
                                   by Commissioner
                                   Bonner at the
                                   signing of the CSI
                                   agreement with the
                                   Hellenic Republic.
28-Jun-04.......................  Official Luncheon               495.00
                                   hosted by
                                   Commissioner
                                   Bonner for high
                                   level French
                                   Customs officials.
14-Jul-04.......................  Refreshments for                297.01
                                   CSI Global
                                   Targeting Assembly
                                   of Technical
                                   Experts Conference.
27-Jul-04.......................  Official luncheon               878.41
                                   hosted by Acting
                                   Deputy AC, INA for
                                   attendees of the
                                   U.S./Australia
                                   Regional Movement
                                   Alert List System
                                   Conference.
04-Sep-04.......................  Protocol Supplies--              27.73
                                   Director, Trade
                                   Relations.
15-Sep-04.......................  Refreshments during             106.60
                                   conference with
                                   Russian officials
                                   and CBP on
                                   Passenger Name
                                   Record
                                   connectivity.
22-Sep-04.......................  Protocol Supplies--             290.76
                                   AC, INA and
                                   Commissioner
                                   Bonner's Office.
22-Sep-04.......................  CSI PTP, Malaysia               301.62
                                   Luncheon.
23-Sep-04.......................  Honorary Award                8,404.74
                                   Items for Foreign
                                   Officials.
                                                      ------------------
      Total Obligation..........  ...................          37,661.34
                                                      ==================
  U.S. Immigration and Customs
           Enforcement
 
11-Dec-03.......................  Assistant Secretary           1,325.89
                                   Holiday Reception
                                   for members of
                                   Congress and other
                                   dignitaries.
3-Feb-04........................  International                   717.75
                                   Attache briefing w/
                                   light refreshments
                                   hosted by the
                                   Federal Air
                                   Marshal Services.
                                   Dignitaries and
                                   honorable guests
                                   traveled from
                                   Netherlands,
                                   Austria, Japan,
                                   China, Belgium,
                                   Egypt,
                                   Philippines,
                                   Brazil, New
                                   Zealand, Hungary,
                                   et.al.
2-Mar-04........................  Breakfast with                  205.53
                                   Danish Minister at
                                   ICE.
3-Mar-04........................  ICE One Year                    299.06
                                   Anniversary Event
                                   attended by
                                   Captains, Chiefs
                                   of Police, State
                                   Police Officials,
                                   and
                                   representatives of
                                   other Federal
                                   Agencies.
20-May-04.......................  Luncheon event for              416.75
                                   the Office of the
                                   Assistant
                                   Secretary with
                                   local officials
                                   and dignitaries
                                   who made
                                   substantial
                                   contribution to
                                   Nation or DHS.
8-Jun-04........................  Detention and                   203.66
                                   Removal Operations
                                   Dinner during Four
                                   Country Conference
                                   in San Diego, CA
                                   to address mutual
                                   immigration and
                                   removal issues.
                                   Hosted by DRO;
                                   attendees included
                                   representatives
                                   from the Embassy
                                   of Australia;
                                   Canada Border
                                   Protection Agency;
                                   United Kingdom
                                   Immigration
                                   Service; and other
                                   foreign officials.
20-Aug-04.......................  Opening ceremony                490.00
                                   for ICE Air and
                                   Marine Operations--
                                   Bellingham Branch;
                                   attended by U.S.
                                   Senator Patty
                                   Murray, U.S.
                                   Representative
                                   Rick Larsen, and
                                   other
                                   Congressional
                                   representatives.
                                  Purchase of food                476.08
                                   and beverage items
                                   for AMO ceremony.
18-Sep-04.......................  ICE Air and Marine            2,702.13
                                   Operations
                                   briefing and site
                                   visit for
                                   Congresswoman Kay
                                   Granger and
                                   others. Includes
                                   purchase of
                                   refreshments for
                                   the event.
                                                      ------------------
      Total Obligation..........  ...................           6,836.85
                                                      ==================
U.S. Citizenship and Immigration
            Services
 
                                  Kitchenware                     389.07
                                   supplies for
                                   Director's suite,
                                   for hosting VIPs
                                   and dignitaries.
                                  Honorary award                  998.93
                                   items (coasters)
                                   for VIPs and
                                   dignitaries.
                                  Official luncheon                25.77
                                   with dignitary
                                   Eduardo Ibarolla
                                   and Director
                                   Aguirre.
                                  Official dinner                 220.96
                                   with incoming
                                   Mexican Ambassador
                                   Icaza and Director
                                   Aguirre to
                                   establish
                                   professional
                                   rapport.
                                  Honorary award item              79.95
                                   (Cufflinks) for
                                   guest speaker at
                                   USCIS 2004
                                   Director's
                                   Leadership
                                   Conference.
                                  Honorary Award                1,075.95
                                   Items (Cufflinks)
                                   for senior
                                   representative and
                                   foreign
                                   dignitaries during
                                   official travel
                                   and visits.
                                  Honorary Award                1,135.00
                                   Items (Lapel Pins)
                                   for distribution
                                   by Director
                                   Aguirre during
                                   official travel
                                   and visits.
                                  Honorary Award                1,000.00
                                   Items (Pewter
                                   bowls and
                                   platters) for high-
                                   level dignitaries.
                                  Official Luncheon                27.52
                                   with senior-level
                                   guest (Alecia
                                   Casteneda) to
                                   establish
                                   professional
                                   interagency
                                   rapport.
                                                      ------------------
      Total Obligation..........  ...................           4,953.15
------------------------------------------------------------------------

   SECURE ELECTRONIC NETWORK FOR TRAVELERS RAPID INSPECTION PROGRAM 
                                (SENTRI)

    Question. In June of 2004 the Department of Homeland Security's 
Office of Inspector General (OIG) issued a report on the Secure 
Electronic Network for Travelers Rapid Inspection program, known as 
SENTRI. CBP agreed with the recommendations made by the Inspector 
General. Please provide an update on the progress that has been made in 
implementing each of the OIG's recommendations regarding the SENTRI 
program.
    Answer. On January 24, 2005, a new Standard Operating Procedure 
(SOP) Manual was sent to the San Diego, CA, and El Paso, TX, Field 
Offices for the administration of the SENTRI program that addressed the 
majority of the recommendations in the OIG's report, including stating 
clearly the program eligibility criteria, establishing procedures for 
background checks and their resolution, developing minimum documentary 
requirements, separation of duties between initial enrollment and final 
approval, monitoring continued eligibility, and recording SENTRI 
violations. Certain other recommendations, relating to the Global 
Enrollment System and integration with related information systems are 
awaiting technical upgrades to achieve completion.

                      IMMIGRATION ADVISORY PROGRAM

    Question. The Immigration Advisory Program is designed to improve 
border security against the threat of terrorism by enabling CBP to 
identify and intercept suspected terrorists and undocumented passengers 
before they board planes bound for the United States from overseas 
locations. The pilots established in Amsterdam and Warsaw in 2004 
appear very promising. The fiscal year 2006 request includes funds to 
expand this program to two additional airports. Can, or should, this 
program be expanded more quickly?
    Answer. Based on the results from Amsterdam and Warsaw through 
February 28, 2005, CBP believes the IAP should be expanded and has 
great potential for similar success at other large European, Latin 
American, and Asian hub airports. IAP expansion is dependent on 
reaching a bilateral agreement with the host country government and 
will be rolled out as expeditiously as possible while ensuring 
operational connectivity to port of entry operations.
    Question. Please provide any evaluations or reports on the 
effectiveness of the IAP pilots.
    Answer. Accomplishments for June 5, 2004, to February 28, 2005, for 
Amsterdam and September 5, 2004, to February 28, 2005, for Warsaw 
follow:

------------------------------------------------------------------------
 
------------------------------------------------------------------------
No Board Advisements....................................             222
Fraud Intercepts........................................              34
NTC Targets Confirmed...................................              16
CBP Costs Avoided.......................................        $334,554
Potential Carrier Savings...............................        $414,150
------------------------------------------------------------------------

              CUSTOMS-TRADE PARTNERSHIP AGAINST TERRORISM

    Question. The fiscal year 2006 budget requests an additional $8.2 
million to expand the Customs-Trade Partnership Against Terrorism (C-
TPAT). The fiscal year 2006 President's budget states that as of 
January 12, 2005, CBP had reviewed and accepted the security profiles 
of 4,460 companies, making these companies certified partners. The next 
step in the process is validation. According to information that was 
submitted for the record after last year's hearing, CBP planned to 
complete 400 validations of C-TPAT certified partners in fiscal year 
2004. Was that goal met last fiscal year (fiscal year 2004)?
    Answer. CBP initiated 500 validations and completed 287 during 
2004. As of March 25, 2005, over 540 validations have been completed, 
with an additional 400 underway or in various stages of completion. CBP 
anticipates that over 900 validations will be completed by the end of 
fiscal year 2005.
    In fiscal year 2004, CBP created a new position, Supply Chain 
Specialist (SCS), and sought to recruit qualified officers throughout 
the year. CBP continues to aggressively recruit permanent Supply Chain 
Specialists, and has trained field officers to help assist in the 
initiation of validations.
    Question. What is the target number of validations CBP plans to 
complete in fiscal year 2005?
    Answer. CBP will complete 500 validations in fiscal year 2005, for 
a total of 900 since the inception of program.
    The overwhelming response by the trade community (volume of 
applications) forced CBP to reconsider the original goal to validate 
all certified members within a 3-year period.
    CBP's strategy is for C-TPAT to determine and prioritize which 
sectors of membership will be selected for validations, selecting 
individual companies based upon a standardized risk assessment, and 
identifying ``company specific'' high-risk supply chains to better 
focus our efforts/resources.
    Question. How many more validations will CBP be able to complete 
each year with the new resources that have requested?
    Answer. The fiscal year 2006 request of $8.2 million will allow CBP 
to conduct as many as 600 more validation trips per year. Oftentimes, 
multiple validations are conducted on a single trip.
    CBP anticipates having 100 Supply Chain Specialists (SCSs) on board 
by the end of fiscal year 2005. Each SCS is expected to complete 17 
validation trips per year, with more than one validation conducted per 
trip. With 100 SCSs on board, CBP anticipates completing 1,700 
validation trips per year. When fully staffed with SCSs, CBP could 
complete 2,669 validation trips per year.
    Question. Last year, the Committee was informed that validations of 
foreign manufacturers would begin in calendar year 2004. Was that 
review of foreign manufacturers begun last year (calendar year 2004)?
    Answer. During calendar year 2004, CBP initiated 500 validations of 
importers' foreign supply chains, which includes foreign manufacturers, 
and completed 287.
    Validations of the Mexican manufacturer enrollment sector began in 
earnest in March 2005. Additional validations of Mexican manufacturers 
are being planned for June 2005.

                      AMERICA'S SHIELD INITIATIVE

    Question. The President's fiscal year 2006 Budget includes a 
request of $19.8 million for the America's Shield Initiative (ASI). 
These funds will allow CBP to begin deployment of next generation 
technology for electronic surveillance along our Nation's land borders.
    CBP is working on awarding a contract for the integration of ASI 
sometime this year. At the same time, CBP needs to operate and maintain 
the equipment that is in the field today. There are currently 
significant critical operational breakdowns, cameras with unusable 
pictures, cameras down due to lightening strikes, camera control 
problems, cameras that have been replaced but are missing enclosures. 
In fact, the maintenance contract for the current installations lapsed 
in September of 2004, and CBP is still working on finalizing the 
replacement of those services. What is the plan to get the maintenance 
backlog taken care of?
    Answer. As noted, CBP is moving ahead with plans to develop and 
implement the America's Shield Initiative (ASI), which will provide a 
more comprehensive, integrated solution to electronic surveillance the 
border. But simultaneously, CBP is still working to ensure that 
existing border surveillance infrastructure remains operational. For 
example, with regard to operational Remote Video System (RVS) 
installations in the field, activities are underway to address repair 
issues for operational sites. In addition, data and lessons learned 
from these current activities are being used to provide baseline data 
towards the development of an interim operations, maintenance, and 
repair program. This interim program will provide maintenance and 
repair support to existing field equipment pending the development and 
implementation of a maintenance and repair program that will support 
both existing and new field equipment.
    Currently within CBP, the ASI Program Management Office (PMO), the 
National Emergency Equipment Repair and Maintenance Program (NEEMR), 
and the Tactical Communications Organization (TCO) have partnered to 
address several of these repair issues. For example, NEEMR, TCO, and 
the ASI (PMO) partnered to address the lightning strike incident that 
occurred at the Douglas, AZ Border Patrol RVS site. A team consisting 
of these three components responded to repair this installation. That 
activity was initiated at the beginning of February and concluded at 
the beginning of March. The result of this activity was the repair of 
the installation to a pre-lightning strike state, an assessment of 
current installation issues, and a collection of significant amount of 
baseline data regarding how these components worked together.
    Question. When will the maintenance backlog be cleared up?
    Answer. Establishing the ASI Program Management Office and the 
partnership with the National Emergency Equipment Repair and 
Maintenance Program (NEEMR) and the Tactical Communications 
Organizations (TCO), and awarding contracts for parts and equipment 
repair to original equipment manufacturers has significantly reduced 
the maintenance backlog. CBP believes that the maintenance backlog will 
be completely eliminated during the summer of 2005.
    Question. This fiscal year, the plan for ASI calls for spending $10 
million on surge technology. Please provide an explanation of what this 
is and what the plans are for this surge technology?
    Answer. Surge technology is surveillance equipment that can be 
rapidly deployed in self-contained system packages that have the 
mobility and deployment capabilities to allow it to be positioned in a 
very short period of time to support changes in national operational 
needs. The plan at this time is to procure vehicle-mounted ground radar 
equipment that is co-mounted with a cooled, thermal imaging system that 
can sense and identify a vehicle as well as a human over 5 miles away. 
A system of this type will allow the detection and tracking of multiple 
items-of-interest and provides vectoring information to agents on the 
ground. By virtue of their mobility and transportability, CBP will be 
able to deploy these assets to the geographic regions or corridors that 
align with the current, nationally-assessed threat environment.
    Question. CBP also plans to spend $10.6 million for replacement/
repair of ground sensors in fiscal year 2005. Given that plans are in 
place to possibly award an integration contract to upgrade all of this 
technology, why are we replacing ground sensors now? Is it possible we 
will be replacing these again with something new in just a year or two?
    Answer. In the early 1990's, the Federal Communications Commission 
(FCC) modified the spectrum range of commercial and government 
frequency usage. As such, CBP is required to change its systems to 
support the FCC frequency spectrum allocation requirements. CBP's 
Office of Border Patrol (OBP) is purchasing new unattended ground 
sensors to further augment its already deployed sensor fleet, to meet 
operational objectives, and to meet these FCC requirements.
    An objective of this procurement effort is to ensure compatibility 
with any future systems that are acquired. Replacement of newly 
procured unattended ground sensors in a year or two is not anticipated. 
An objective of this procurement is to ensure that these sensors will 
readily integrate with future systems.
    A cost analysis is being performed regarding the ability to upgrade 
our currently deployed unattended ground sensors that were procured and 
deployed prior to the FCC frequency spectrum allocation modification. 
This effort is also being undertaken in such a manner as to ensure that 
these upgrades are made to meet FCC requirements and future systems 
integration.
    Question. What is the timeline for initiating and completing all 
identified ground sensor repairs?
    Answer. A proposal has been developed to augment sensor 
capabilities in Tucson Sector with 1,240 new digital sensors. As these 
sensors are deployed, the ``old'' sensors that are replaced, or rotated 
in from the field will, be assessed for redeployment to other Sectors 
as needed and in alignment with current enforcement objectives and 
national threat assessments. The project is scheduled to begin June 
2005, with projected completion March 2008.

                    AUTOMATED COMMERCIAL ENVIRONMENT

    Question. CBP has been working on modernizing the information 
technology systems that it uses for some time. The most significant 
project is the Automated Commercial Environment, known as ACE. Last 
year, CBP released the re-baseline estimate for completion of the ACE 
system. The new schedule has ACE being fully deployed in 2011, and 
costing an additional $1 billion. How confident is CBP that this new 
timeline can be accomplished?
    Answer. CBP is confident the project can be completed in that time 
frame. That said, the new proposed baseline is presently under review. 
CBP will continue to strive to find ways to deliver ACE better, sooner, 
and at less cost. In addition, CBP has worked to improve ACE 
management. The staffs of legacy systems were merged into the CBP 
Modernization Office last December. The merger greatly increased the 
number of government staff on the program, as well as available subject 
matter expertise and IT project management skills. This will help keep 
the program on budget and schedule.
    CBP now also has the advantage of working with an operational 
system. Release 3, implemented in June 2004, is fully operational and 
has already increased the amount of duty collected via Periodic Monthly 
Statement from $80,000 in June to over $109 million in February 2005. 
The Release 4 pilot in Blaine, Washington although currently 
experiencing some technical problems, has processed over 40,000 trucks. 
Having these ACE systems operating in ``real-world'' CBP environments 
provides excellent experience and feedback for the program team, and 
provides a solid base on which to build future capabilities.
    Question. What is the status of the pilot in Blaine, Washington, of 
e-Manifest Trucks?
    Answer. The ACE truck cargo/eManifest pilot was initiated in 
Blaine, Washington, on December 12, 2004. The system was very well 
received by the CBP Officers in the port, demonstrating a number of 
improvements over previous systems. However, system issues were 
uncovered, which caused delays in the processing of trucks. This 
resulted in a temporary halt to the pilot in late December in order to 
implement necessary changes.
    The ACE pilot was re-started in mid-January with improved 
capabilities and significant streamlining of the cargo screening and 
release functions. With these changes, ACE has been processing trucks, 
on average, more quickly than the different release systems that had 
been in use prior to ACE. Average truck processing times were in the 70 
second range.
    Additional problems with the pilot were uncovered in early March. 
These problems were manifested as a result of the increased volume of 
trucks being processed (over 40,000 trucks had been processed with 
ACE). The problems have been corrected, and the revised system has been 
tested. Since the testing results were positive, CBP re-started the 
pilot April 4.
    Part of the reason for difficulties with the pilot has been the low 
volume of electronic manifests submitted by carriers and service 
providers. A combination of difficulties with the CBP eManifest 
certification process and the effort required by the trade participants 
to make changes to their systems have led to the low participation. 
However, for those eManifests that have been submitted, ACE has 
performed extremely well, demonstrating the full promise of the system. 
CBP is working closely with the carrier community to increase, as 
quickly as possible, their use of eManifests.
    CBP firmly believes that the current problems with the ACE pilot 
will be quickly corrected and the pilot will be operating successfully 
in the Port of Blaine. Plans have been developed to expand ACE to 
additional ports on the northern and southern land borders. Efforts are 
also underway to support 28 new carriers and service providers who have 
state their intentions to begin providing eManifests.

              AIR AND MARINE OPERATIONS--RECAPITALIZATION

    Question. A request for funding to begin the re-capitalization of 
the Border Patrol air fleet was included in the fiscal year 2006 
budget, but there is no request for the replacement of Air and Marine's 
fleet. When can we expect to see such a request?
    Answer. A program increase for re-capitalization of the Air and 
Marine Operations (AMO) fleet is not included in the fiscal year 2006 
President's Budget, however, the fiscal year 2006 AMO base budget does 
include approximately $55 million for the procurement of replacement 
aircraft and deployment of new aircraft to CBP air wings.
    Modernization of CBP air and marine assets is a priority in order 
to meet expanded missions in the areas of detection, surveillance, 
deterrence and apprehension, search and rescue, interdiction and 
Airspace Domain Security.
    CBP is currently conducting a review of AMO and Border Patrol air 
and marine missions, operations and assets with the objective of 
determining how best to allocate and manage resources. It is 
anticipated that areas of both integrated and distinct aviation and 
marine missions will be defined, and opportunities for combining fleet 
modernization requirements will be identified. The existing AMO and 
Border Patrol modernization plans will be reviewed in the context of 
supporting the updated mission needs resulting from the transition 
analysis. All opportunities for commonality of aircraft, vessels, 
facility locations, command and control, maintenance and procedural 
standards are being reviewed. Potential benefits include enhanced 
threat engagement, procurement cost efficiencies, reduced life cycle 
costs, increased mission readiness and operational performance.
    Development of a unified recapitalization plan for all CBP air and 
marine assets is will commence following completion of the integration.

                          WORKSITE ENFORCEMENT

    Question. The President's budget requests $18 million for 
Immigration and Customs Enforcement (ICE) to double the resources 
devoted to worksite enforcement. The President's budget does not 
request any additional investigators for this program. Are there a 
sufficient number of investigators to pursue any leads or cases that 
may be developed?
    Answer. ICE's fiscal year 2006 President's Budget requests $18 
million for the temporary worker program to fund 140 agents and 
investigations training. It is proposed that the agents be assigned to 
field offices nationwide primarily to conduct employer audits, examine 
and prioritize leads, prepare and deliver Notices of Inspection and 
Notices of Inspection Results, and develop employer cases involving 
administrative fines. Agents would be assigned to field offices in the 
States with the greatest number of unauthorized workers.
    The requested resources would enable ICE to increase its presence 
at worksites in specific industries and geographical areas, 
concentrating on employers who intentionally violate the law or who 
have historically hired large numbers of unauthorized workers.
    Question. Please provide the Committee with a description of ICE's 
current worksite enforcement program, including what authorities are 
being enforced and how the program is run.
    Answer. ICE worksite enforcement program activities focus primarily 
on removing unauthorized workers from critical infrastructure 
facilities to reduce the risk of terrorist attack from insiders. This 
may be accomplished through screening and arrest operations to identify 
and remove the unauthorized workers, as well as through strategic 
partnering with employers and the law enforcement entities controlling 
facility access. ICE worksite enforcement activities also target 
criminal employers whose violations have a nexus to human smuggling, 
immigration document or benefit fraud, and worker exploitation.
    The authorities being enforced generally include one or more of the 
civil and/or criminal provisions of INA 274A (Unlawful Employment of 
Aliens). Many criminal employer investigations also charge violations 
relating to harboring, smuggling, and document fraud.
    Question. Please provide the Committee with a breakout of worksite 
enforcement workload of administrative cases versus criminal 
investigations for fiscal years 1999 through 2004, including a breakout 
of the FTE devoted to this area by type of employee for those same 
years.
    Answer. Please see table below.

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal year
         Performance category         --------------------------------------------------------------------------
                                           1999         2000         2001        2002        2003        2004
----------------------------------------------------------------------------------------------------------------
Criminal Employer Cases..............      \1\ 182      \1\ 109      \1\ 239      \1\ 21       \1\ 4      \3\ 59
Notices of Intent to Fine Issued.....      \1\ 443      \1\ 213      \1\ 141      \1\ 73      \1\ 16       \1\ 3
Number of Fines Collected............      \4\ 890      \4\ 478      \4\ 292     \4\ 115      \4\ 54      \4\ 64
Fine Amounts Collected...............  \4\ $3,690,  \4\ $2,234,  \4\ $1,599,  \4\ $509,8  \4\ $212,3  \4\ $118,5
                                               575          181          323          35          22          28
Worksite Arrests.....................    \5\ 2,849      \5\ 953      \5\ 418     \6\ 816     \6\ 505     \6\ 642
Investigative Work Years (Work             \5\ 278      \5\ 202      \5\ 134     \5\ 152     \5\ 105      \5\ 90
 Year=1,695 hours)...................
Case Completions.....................    \5\ 3,844    \5\ 1,966    \1\ 1,595   \1\ 2,061   \1\ 1,490     \7\ 523
----------------------------------------------------------------------------------------------------------------
\1\ Source: LYNX.
\2\ Source: TECS.
\3\ Calculated utilizing Treasury Enforcement Comms System(TECS) records (criminal employer cases opened).
\4\ Source: Debt Management Center.
\5\ Source: PAS.
\6\ Manually calculated utilizing internal reports submitted by field offices.
\7\ Manually calculated based upon the number of completed cases in LYNX and the number of cases reported closed
  in TECS.

                           VISA SECURITY UNIT

    Question. The President's budget requests an increase of $5 million 
to expand the Visa Security Unit. The recently submitted ``Visa 
Security Program: Annual Report for 2003-2004'' talks about the 
critical need for coordination and training with the Department of 
State Consular Affairs and CBP. What mechanisms are in place to ensure 
that there is the closest possible cooperation in this program?
    Answer. The Visa Security Program (VSP) within ICE is responsible 
for implementing Section 428(e) of the Homeland Security Act, which 
calls for the deployment of DHS officers to visa-issuing posts, unless 
such a deployment would not benefit homeland security. One of their 
principal duties under Section 428(e)(1) is to provide advice and 
training to consular officers regarding specific security threats 
relating to the adjudication of individual visa applications or classes 
of applications. DHS Visa Security Officers in Saudi Arabia are 
currently providing this training, and upcoming deployments of Visa 
Security Officers will expand this activity to additional posts. In 
addition, ICE and the Department of State have designated points of 
contact at Headquarters who coordinate closely on issues including 
consular training. A representative from the Visa Security Program has 
briefed each graduating class of consular officers since October 2004.
    VSP also coordinates with CBP on several operational levels. Visa 
Security Officers regularly utilize the National Targeting Center as a 
supporting element in their in-depth review of visa applications. In 
addition, CBP officers have served temporary details at Headquarters 
and in the field. Finally, VSP has opened announcements for permanent 
positions to both ICE and CBP officers in order to recruit officers 
with a full range of immigration enforcement skills to serve overseas 
as Visa Security Officers.
    The President's requested increase of $5 million in fiscal year 
2006 will fund expanded VSP operations in the field and at 
Headquarters, to include its consular training responsibilities.
    Question. In August of 2004, the Department of Homeland Security's 
Office of Inspector General issued an evaluation of DHS activities to 
implement section 428 of the Homeland Security Act of 2002. This 
evaluation included a number of recommendations to improve the workings 
of the Visa Security Officers. What is the status of implementing each 
of the recommendations in that report?
    Answer. Since the DHS Inspector General's (IG) evaluation in late 
2003, shortly after the initial deployment of officers to Saudi Arabia, 
Visa Security Program operations in Saudi Arabia have made significant 
progress. Of the IG's twelve recommendations, three had been closed at 
the time of the report's publication. The remaining nine 
recommendations were resolved, and remain open while they are 
implemented. Below is an update on each of the IG's recommendations.
    Recommendation 1.--Develop a curriculum of homeland security 
training for consular officers consistent with the requirement in 
Section 428(b)(1) of the Act.
    ICE is working to develop homeland security training for consular 
officers. A VSP's program development staff member has attended the 
Basic Consular Training Program at the Department of State's (DOS) 
National Foreign Affairs Training Center (NFATC) as a basis for ICE's 
recommendations to DOS about consular training. VSP staff also held a 
curriculum development conference with training experts from the 
Federal Law Enforcement Training Center (FLETC) and ICE Academy to plan 
the development of the consular training program. Since October 2004, 
VSP leadership has been addressing each graduating class from the Basic 
Consular Training Program, to introduce them to the visa security 
mission and to prepare them to work with Visa Security Officers in the 
future.
    Recommendation 2.--Develop a training program for Visa Security 
Officers (VSOs) that includes foreign languages, country studies, and 
interview and fraud detection techniques.
    Working with the ICE Academy and FLETC, VSP developed a 4-week 
training curriculum for Visa Security Officers, incorporating the IG's 
content recommendations. With specific regard to language training, 
ICE's VSO selection criteria will continue to emphasize language 
ability, and VSP will continue to exercise best efforts to provide 
additional language training where necessary.
    Recommendation 3.--In coordination with DOS, develop performance 
standards to evaluate consular officers.
    ICE continues in an audit capacity, to advise DOS on consular 
performance evaluation. A VSP staff member recently attended Basic 
Consular Training to assess how consular officers currently are trained 
and evaluated.
    Recommendation 4.--Develop written criteria for assigning VSOs to 
other countries.
    Closed. ICE established such criteria in early 2004, and the OIG 
closed this recommendation as it published the report in August 2004.
    Recommendation 5.--Assign responsibility to develop and publish the 
report to Congress required by Section 428(e)(4).
    ICE/VSP will prepare the report, and BTS will submit the report to 
Congress.
    Recommendation 6.--Conduct a study of the personnel management 
techniques used by other agencies with a global workforce and evaluate 
ways to facilitate the overseas rotations of DHS employees.
    DHS is continuing to evaluate its international presence. No 
specific policy recommendations have yet been announced.
    Recommendation 7.--Discontinue the practice of filling the VSO 
positions with temporarily assigned officers and move toward filling 
the positions with permanently assigned officers.
    VSP has announced and selected positions for Saudi Arabia. VSP will 
announce permanent positions for all future offices.
    Recommendation 8.--Establish criteria for selecting VSOs based on 
required experience and skill sets to support the visa security 
operation.
    Closed. ICE established such criteria in early 2004, and the OIG 
closed this recommendation as it published the report in August 2004.
    Recommendation 9.--Establish a funding mechanism to ensure that the 
visa security operations receive all required support and that DOS is 
promptly reimbursed for the support that it provides.
    VSP has received funding in fiscal year 2005 for its existing posts 
in Saudi Arabia and for expansion to four additional locations. This 
will become the base for fiscal year 2006 and the out-years for all 
locations opened in or already in operation as of fiscal year 2005. To 
facilitate administrative coordination, DOS and VSP recently signed a 
Memorandum of Agreement that explains how reimbursements and other 
administrative matters will be handled.
    Recommendation 10.--Propose a technical correction to Section 
428(i) to align it with Section 428(e) and permit DHS to review only 
those applications with homeland security interest in Saudi Arabia.
    Closed. The OIG agreed with ICE's position that the legal 
requirement to review all visa applications in Saudi Arabia should not 
be modified. The OIG closed this recommendation as it published the 
report in August 2004.
    Recommendation 11.--Evaluate the possible benefit of analyzing the 
existing visa applications in DOS files of young Saudi males who were 
issued visas in the 2 year period prior to September 11, 2001. BTS 
should coordinate with DOS, the FBI, and other Federal agencies, as 
necessary, before making a determination about whether, or how, to 
proceed to analyze the applications.
    ICE agrees that there may be value in reviewing certain 
applications submitted in Saudi Arabia in the 2 years prior to 
September 11, 2001. DHS is still evaluating whether or how to proceed 
with such an analysis.
    Recommendation 12.--Develop an interface between BTS and DOS 
computer systems that permits a fast and efficient method to automate 
the visa security name check process and eliminate the duplicative data 
entry for database checks.
    ICE has been working with DOS to improve information sharing and 
access and has succeeded in virtually eliminating the manual data entry 
that the IG observed in late 2003/early 2004. VSP is working with DOS 
to further enhance regular information sharing and expects the new 
process to be in place in the third quarter of fiscal year 2005.

                         OVERHEAD COST SHARING

    Question. Last fiscal year and this fiscal year, ICE plans to 
charge a portion of the headquarters overhead costs to the Federal 
Protective Service (FPS) and the Federal Air Marshals (FAMS). On what 
basis were the overhead charges calculated to ensure that those 
organizations were paying for services they received on a basis 
proportionate to their usage?
    Answer. Early in the fiscal year, FPS and/or FAMS were expected to 
provide funding for overhead based for the actual costs for services. 
The headquarters (HQ) overhead costs are allocated to the ICE 
components using full-time equivalents (FTE), at the beginning of the 
fiscal year, to construct the proration percentages. Following a review 
of the overhead costing issue for the FAMS and FPS, a final decision 
was made that the FAMS and FPS would only pay for services actually 
being utilized. However, they will not be assessed an overhead charge 
in fiscal year 2005.
    Question. Will this become a permanent charge to FPS and FAMS? If 
so, why are no additional resources being requested to ensure that the 
funds are available to pay these bills?
    Answer. All ICE Programs, Projects and Activities (PPAs) should be 
expected to share HQ overhead costs for the overhead services that ICE 
provides. However, for fiscal year 2005 there will not be an assessment 
for FPS and FAMS.
    HQ overheads are covered out of base appropriated funds. 
Additionally, every new enhancement request includes funds for HQ 
overhead in the modular costs used to compute the enhancement.
    Question. Will this have an adverse impact on the ability of the 
FAMS to maintain its staffing levels?
    Answer. No, the FAMS are not being assessed an overhead charge.

                          FUGITIVE OPERATIONS

    Question. The President's budget requests an increase of $8.8 
million to expand the capabilities of the fugitive operations teams. In 
answer to questions submitted after last year's hearing, ICE stated 
that the strategic plan called for the elimination of the 400,000 
fugitive backlog within 10 years based on significant increases in the 
fugitive program.
    What impact are the continued funding shortfalls having on the 
Office of Detention and Removals' ability to implement that plan?
    Answer. ICE continues to track and apprehend fugitives and continue 
to surpass goals and previous year's statistics. However, some existing 
teams need additional staff that have not yet been hired, and no new 
teams have been deployed. When corrected later this year, this delay 
will have no effect in meeting the 10-year plan.
    Question. Does the fiscal year 2006 budget request include 
sufficient resources for ICE to continue making progress in locating 
and deporting absconders?
    Answer. Yes. The fiscal year 2006 Budget will allow ICE to show 
significant progress in locating, apprehending and removing absconders.
    Question. Has ICE been able to move ahead with the data integrity 
projects related to the absconder records despite the funding 
situation? What results have been seen from the data integrity 
projects?
    Answer. ICE has been investigating data integrity issues with the 
records of absconders. ICE drew random samples of records of aliens 
with an unexecuted order of removal that did not indicate that the 
alien was an absconder. There are approximately 130,000 such alien 
records (does not include aliens with an acceptable reason for an 
unexecuted order). The samples indicated that almost 70 percent of 
those aliens were absconders. The absconder statistics have been 
revised accordingly. DRO estimates that the absconder population on 
September 30, 2004, was 465,353 aliens.
    ICE believes that the new data system to track aliens in removal 
proceedings (EREM) will address many of the data integrity concerns. 
The data system will be easier to use which will encourage completeness 
and accuracy. It will also be more tightly integrated with the work 
process used in an alien's case.

                          FEDERAL AIR MARSHALS

    Question. On January 27, 2005, ICE announced the creation of the 
Federal Air Marshals (FAMS) Advisory Board. The advisory board will 
provide information and recommendations on key FAMS policy and 
operational issues. Some of the issues the FAMS Advisory Board will 
initially address are hiring, dress code, technology, the FAMS role in 
airport security and the FAMS career ladder within ICE. When does ICE 
expect that the advisory board will begin making recommendations on 
some of these issues?
    Answer. While it is difficult to predict with specificity when the 
FAMS Advisory Board will be prepared to make recommendations, the Board 
is currently meeting on a regular basis. One of the objectives of the 
Board is to increase the pace of the FAMS integration into ICE. To that 
end, the Board hopes to be in a position to make recommendations in the 
near future.

                     INSTITUTIONAL REMOVAL PROGRAM

    Question. What progress has been made in transitioning the 
Institutional Removal program from the Office of Investigations to the 
Office of Detention and Removals?
    Answer. In the planning for the transition of responsibility from 
the Office of Investigations (OI) to Detention and Removal Operations 
(DRO), a review of performance standards and available resources was 
completed.
    This review found less than 50 percent of criminal aliens were 
being identified and removed from the United States (comparing State 
Criminal Alien Assistance Program (SCAAP) numbers to the Performance 
Analysis System (PAS)).
    The prior performance standard based on the number of aliens 
removed is not reflective of the function of the Criminal Alien Program 
(CAP). The performance standard for DRO will be the percentage of 
incarcerated foreign born screened for removal. A performance level of 
90 percent of all foreign-born incarcerated in Bureau of Prisons, State 
department of corrections and mega-counties (areas with populations 
over 1 million) will provide a high level of coverage throughout the 
United States. Smaller population areas would be encouraged to 
participate in 287(g) programs or video teleconferencing with newly 
established VTC centers.
    After careful consideration, DRO determined that a state-by-state 
approach would be the most effective way to ensure a successful 
transition. By approaching the transition on a State level, staffing 
plans and proactive communications with relevant State agencies can 
enhance the productivity and workflow.
    The State of New York was determined to be the first State to 
transition because of the existing work force available in DRO to 
assist in covering the City of New York. DRO assumed sole 
responsibility for the City of New York Department of Corrections (NYC 
DOC) on December 17, 2004. With ten facilities, one satellite facility 
in Bronx, 120,000-130,000 inmates admitted annually and with an average 
daily population of 15,000, NYC DOC is one of the largest detention 
programs in the United States.
    The transition at NYC DOC has been remarkably smooth and in the 
first quarter of fiscal year 2005, improvements have been substantial. 
In the last quarter of fiscal year 2003, prior to the transfer, 921 of 
3,542 incarcerated aliens were screened (26 percent). In the first 
quarter of fiscal year 2005, there were 1,866 of the 2,696 incarcerated 
aliens screened (69 percent). Though well below the stated performance 
level; significant progress has been made without additional staffing. 
As staffing becomes available, NYC DOC operations will achieve the 
target level of screening.
    The State of New York effort has provided an excellent blueprint 
for subsequent transfers, and using the lessons learned, DRO has 
completed transfer plans for California, Florida, Illinois, Arizona and 
New Mexico.
    Question. Are there other ways ICE could be working with State and 
local officials to improve communication in order to identify 
incarcerated aliens in a more timely manner?
    Answer. In the planning for the transition of responsibility from 
the Office of Investigations (OI) to Detention and Removal Operations 
(DRO), a number of possible communications enhancements have been 
explored by DRO.
    The most basic approach to improve communications is and continues 
to be open, face-to-face dialogue with the local and State officials to 
determine the needs and requirements of both parties, to establish an 
approach to accomplish the mutual goals, and to maintain an open line 
of communication between the parties.
    During the planning for the State of New York, ICE met with State 
officials that oversee the entire New York State Department of 
Corrections, Parole and Probation and the State Police. These 
discussion have led to an enhanced streamlined approach to processing 
aliens, centralized release of aliens to ICE custody, created a 
procedure for State of New York Parole to compare information and 
update their information based on removal information and opened the 
dialogue to continue improvements in the areas of conviction documents, 
appeal processes in State courts and new procedures for automated 
immigration status checks. Dialogue has already been started with the 
State of California and a meeting between ICE/DRO and the Assistant 
Chief of Staff of the Governor's office has been planned for the end of 
March.
    ICE has also investigated whether the 287(g) program by State and 
local governments is another opportunity to train local law enforcement 
in the authorities as well as what the information provided to them 
means. The Immigration and Nationality Act (INA) and supportive data 
bases can be confusing to experienced officers, much less individuals 
that have not had years of experience in these issues. The formalized 
training allows for concise communication of status to ensure proper 
enforcement of the INA. Expansion of the 287(g) program has a direct 
impact on the DRO program through the additional identification of 
individuals amenable to removal.
    The PEGASUS program is operated under a COPS grant and allows a new 
venue to share information with local and State authorities. The 
program provides Sheriffs and municipal law enforcement with secure 
access to other participating law enforcement agency databases. Through 
recent presentations, DHS is considering how best to incorporate parts 
of our databases to assist identification of aliens amenable to removal 
as well assist DHS in our mission. The databases in question would 
definitely include the Deportable Alien Control System (DACS) and would 
allow an automatic data search system via a ``pointer system''. The 
possibilities of an automated system would greatly enhance the 
identification of aliens in removal proceedings and those already 
removed. The extent of the data sharing that DHS is willing to consider 
is still under review.
    The Law Enforcement Support Center (LESC) continues to provide a 
one-stop location for searching several data systems. The LESC, 
currently operated by OI, accepts queries from a multitude of law 
enforcement agencies and sends responses back to the originating 
agency. In cases where the alien in question is identified as a 
removable alien, a detainer is placed by the LESC for the local DHS 
office to pursue appropriate removal action.

                       FEDERAL PROTECTIVE SERVICE

    Question. The Federal Protective Service (FPS) has been in the 
midst of a very difficult transition from the General Services 
Administration's (GSA) financial management system to that of ICE.
    Given the financial problems of ICE, which extend to not having 
proper internal fund controls, why wasn't more consideration given to 
having FPS continue to use the GSA financial system for at least 1 more 
year, or until eMERGE2 was ready?
    Answer. The Department of Homeland Security, Office of the Under 
Secretary for Management, initially directed that the FPS transition 
from the GSA financial management system be completed by October 1, 
2003. Following the initial review of the unique financial management 
requirements needed to support the FPS offsetting collections program, 
the transition date was extended to October 1, 2004. At the time that 
this decision was made, ICE felt that the additional year for planning 
the transition would be sufficient to avoid any major problems. The GSA 
and ICE Financial Management staffs worked closely to plan for a smooth 
transition. However, the technical financial and accounting differences 
between the GSA and ICE financial systems proved to be much greater 
than either agency had anticipated. The ICE Financial management staff 
has been following an aggressive plan and timetable to complete the FPS 
transition by September 30, 2005.
    With regard to the specific financial situation, specific planning 
milestones called for a successful transition of FPS to ICE, as agreed 
with GSA, FPS and ICE. This plan was successful, with the only 
contributing factor being data transmission problems from GSA. That 
situation exacerbated payment problems in the ICE transition. Much of 
the data from the GSA financial system has had to be manually uploaded 
into the ICE system, requiring additional quality assurance steps to 
maintain the highest level of data integrity.
    Question. The current remediation plan for fixing the financial 
problems at FPS call for the reconciliation of payments to be finished 
by March 31, 2005. How will this plan solve all of the problems and 
ensure that contractors will get paid in a timely manner?
    Answer. In addition to a full reconciliation of FPS payments, ICE 
is convening a high level working group to address the financial 
problems at FPS. This group will evaluate and make appropriate changes 
in the business process flow to ensure that contractors are paid timely 
and that financial events are properly and timely recorded. ICE will 
continue to work with GSA to resolve any discrepancies in the balances 
transferred. A full reconciliation of financial activities is 
anticipated by September 30, 2005.

                            HUMAN SMUGGLING

    Question. What is ICE doing in the area human smuggling? What has 
happened in the Carreto case that was the subject of a recent CBS News 
report?
    Answer. Recognizing that global human smuggling is of the nature of 
organized crime, ICE has employed Task Force methodologies to attack 
and dismantle the operations and networks that profit from these 
crimes. An example of this methodology is Operation ICE Storm in 
Phoenix, Arizona. ICE, in conjunction with partners in the Federal, 
State, local and foreign law enforcement community, has initiated a 
task force to address widespread violence, kidnapping, extortion, and 
other crimes associated with human smuggling. By vigorously applying 
its money laundering authorities, ICE and our State and local and 
partners in Arizona have deprived human smuggling organizations of 
nearly $7.3 million of their criminal proceeds. Since the inception of 
ICE Storm in October 2003, over 320 persons have been prosecuted for 
human smuggling and related crimes and over 170 firearms have been 
seized. Over 6,700 smuggled aliens have also been arrested and removed 
from the United States.
    ICE is fully supporting the Arizona Border Control (ABC) 
Initiative, which was developed to focus on criminal organizations and 
supporting infrastructures that are currently exploiting the Arizona 
region. ICE's role in this initiative, which is being coordinated 
closely with other BTS components as well as State, local and foreign 
law enforcement agencies, focuses on interdiction and investigation 
efforts to target human and contraband smuggling organizations 
operating near the Arizona/Mexico border. To date, a total of 635 
individuals have been prosecuted as a direct result of those 
enforcement efforts. In addition to what has already been seized under 
ICE Storm, approximately $2.1 million in U.S. currency has been seized 
and 26 weapons have been removed from the streets.
    Since July 2004, ICE has implemented the LAX Initiative, which was 
developed to address the human smuggling organizations using the Los 
Angeles International Airport. This operation targets not only the 
vulnerabilities of airline and border security, but related financial 
institutions and support industries directly affected by the identified 
criminal activity. ICE has seized approximately $1.2 million in U.S. 
currency, 486 undocumented aliens have been arrested, and there have 
been 11 Federal prosecutions in connection with these enforcement 
efforts.
    At this time, we cannot comment on the Carreto case, since it is an 
ongoing criminal investigation.

                         BACKLOG REDUCTION PLAN

    Question. CIS has reduced the benefit application backlog to 1.5 
million cases, down from a high of 3.8 million cases in January of 
2004. What is the plan for maintaining a 6-month average processing 
time--once dollars are no longer specifically set aside for this 
purpose?
    Answer. USCIS is in the process of reengineering its business 
practices to ensure that it will be more efficient and effective. USCIS 
also plans to invest in IT transformation efforts, including a new case 
management system, to build the necessary infrastructure to ensure that 
backlogs do not return for the foreseeable future. Finally, USCIS has 
recently completed an in-depth staffing requirements analysis which 
will ensure that each USCIS office receives the appropriate amount of 
staff necessary to maintain the 6-month cycle time standard.
    Question. What assurances do we have that the productivity gains 
are not coming at the expense of quality, that the right decisions are 
still getting made by the adjudicators?
    Answer. Backlog elimination efforts will not come at the expense of 
national security or adjudicative integrity. USCIS has struck a solid 
balance in this area by ensuring that processes facilitate legal 
immigration, while preventing those who would misuse the system from 
entering or remaining in the United States. It is imperative that the 
integrity of the benefits process not be compromised in the effort to 
stimulate additional productivity.
    Efforts to benchmark and assure quality are at the heart of every 
production initiative. For example, USCIS is committed to attacking 
benefit fraud and has created an Office of Fraud Detection and National 
Security (FDNS) specifically to lead USCIS efforts in this area. FDNS 
will assist USCIS adjudicators in verifying applicant and petitioner 
information, and will work cooperatively with ICE to ensure that fraud 
schemes are identified and referred to ICE for criminal investigation 
and prosecution. USCIS field officers have been instructed to issue 
Notices to Appear for removal proceedings in instances where an 
applicant or beneficiary has attempted to defraud the government.

                            CUSTOMER SERVICE

    Question. In order to improve customer service, CIS is working on 
improving the ability of beneficiaries to interact with the Department 
of Homeland Security electronically. USCIS has now expanded electronic 
filing to support 50 percent of the total volume of benefit 
applications. When is the next expansion of the online filing of 
benefit applications planned?
    Answer. The e-filing system currently includes 8 application form 
types, which represent approximately 50 percent of the USCIS workload. 
The e-filing application volume has doubled each year since its 
inception. The current phase entails enhancing system functionality and 
capabilities, which will include accepting Premium Processing filings 
of the Immigrant Petition for Alien Worker (Form I-140) in the third 
quarter of this fiscal year.
    Question. Which applications does CIS plan to add next?
    Answer. USCIS intends to expand e-filing, but has not yet 
determined which applications will be targeted for the next e-filing 
phase.
    Question. What are the current plans for re-designing and re-
launching the CIS website?
    Answer. USCIS is creating a consolidated ``Customer Service 
Portal'' to integrate and align all public-facing USCIS websites. The 
current USCIS web configuration of ``core'' USCIS.gov content was 
completed in 1998. While the core content is continually refreshed, its 
underlying information architecture (IA) has never been refreshed. 
Moreover, three additional USCIS customer service websites, each adding 
a valuable new service, were appended onto USCIS.gov. However, their 
development was not integrated into the core website due to technical 
limitations at the time.
    This new project will enhance the ability to manage the USCIS.gov 
web content; enforce the DHS branding guidelines; standardize the 
presentation of all USCIS.gov web content as being part of ``One Voice, 
One Face, Many Channels,'' and help initiate the development of a 
comprehensive USCIS-wide web governance.
    The development of the USCIS customer service portal will be 
conducted in phases. The initial phase of the project seeks to enhance 
USCIS.gov content by developing a comprehensive information 
architecture (IA) within which all current and anticipated USCIS.gov 
web content and e-services may be organized. The initial phase includes 
standing up a refreshed, customer-oriented USCIS.gov in the newly 
developed environment, with emphasis placed on the requirements of the 
USCIS Office of Communications. Additional phases will concentrate on 
the development of the consolidated web portal, and the requirements of 
other organizations providing content to USCIS.gov and integrating, to 
the degree possible, content from the three service-oriented websites, 
InfoPASS, Customer Relationship Interface System (CRIS), and e-Filing 
into USCIS.gov. As of March 2005, the project has been funded by the 
USCIS Senior Review Board. A Statement of Work for all phases of the 
project is currently being drafted, and USCIS anticipates awarding the 
contract in fiscal year 2005.
    Question. What is the status of the initiative to begin electronic 
adjudication of Temporary Protected Status applications?
    Answer. The electronic adjudication of Temporary Protected Status 
(TPS) applications began with the re-registration of TPS applicants 
from Honduras and Nicaragua on November 6, 2004, and continued with 
applicants from El Salvador on January 5, 2005. The next designated TPS 
country eligible for electronic adjudication is unknown at this point 
in time.

            OFFICE OF FRAUD DETECTION AND NATIONAL SECURITY

    Question. Please provide a detailed update on the establishment and 
expansion plans for the Office of Fraud Detection and National Security 
(FDNS).
    Answer. USCIS Director Eduardo Aguirre created the Office of Fraud 
Detection and National Security (FDNS) to implement two high priorities 
that support the USCIS mission:
  --Conducting effective background checks on persons seeking 
        immigration benefits, and;
  --Detecting and combating immigration benefit fraud.
    Background: In fiscal year 2004, FDNS developed and implemented a 
joint anti-fraud strategy and initiative with the Bureau of Immigration 
and Customs Enforcement (ICE). To support this effort, the FDNS 
developed the necessary policies, procedures, and organizational 
structure. This included incorporating the staffs of the Service Center 
Fraud Detection Units (FDU) with the allocation, deployment, hiring, 
and training of over 150 new employees at field and headquarters 
locations throughout the interior United States starting in fiscal year 
2004. The present staff of the FDNS is 222 permanent and term 
appointment employees. Of the new employees, 110 are field office 
Immigration Officers located within Districts, Sub-offices, Regional 
offices, and Headquarters. Within the FDUs and Headquarters, FDNS has 
61 Intelligence Research Specialists and 30-term appointment 
Investigative Assistants. The remaining staff provides administrative 
and management support to the field officers and are located within the 
FDUs and Headquarters offices. Utilizing fees generated from the H-1B 
and L Visa Reform Act of 2004, USCIS plans to fill 160 FDNS positions. 
These new positions will enable FDNS to make adjustments to current 
staffing and provide specific levels of support for both the anti-fraud 
and national security operations.

Fraud
    The primary objective of the anti-fraud operation is to detect and 
combat immigration benefit fraud by referring articulated leads to ICE 
for criminal investigation, and conducting administrative inquiries 
when ICE rejects a request for investigation. The primary duty of an 
FDNS Immigration Officer (IO) is to review fraud-based leads referred 
by adjudicators and other sources. This review consists of performing a 
variety of system checks, including data mining; conducting field 
administrative inquiries, which includes interviewing various entities; 
and supporting criminal investigations conducted by ICE and 
prosecutions by U.S. Attorneys. It also includes placing individuals in 
removal proceedings when fraud is verified, collecting and analyzing a 
variety of intelligence data, and posting look-outs on individuals 
involved in fraud conspiracies. By removing cases containing elements 
of fraud from the mainstream adjudications process, adjudicators are 
able to concentrate their expertise on applicants and petitioners 
deserving of, and eligible for, the benefits sought. Thus, this anti-
fraud effort will improve the quality of adjudications, increase 
productivity, and reduce cycle times. The 160 new positions will enable 
FDNS to:
  --Place FDNS IOs in the largest districts and each center, where the 
        overwhelming majority of immigration benefit fraud exists, as 
        well as in most of the sub-offices.
  --Put a position in the Department of State's Fraud Prevention 
        Program Office in Washington, DC, to enhance inter-departmental 
        fraud detection and planning efforts.

National Security
    Shortly after the terrorist attack of September 11, 2001, USCIS 
implemented a policy requiring the completion of background checks on 
applicants, petitioners, beneficiaries, and other individuals seeking 
immigration benefits. The National Security Unit has developed, and is 
implementing, a new policy and process pertaining to the 
identification, reporting, and resolution of IBIS national security 
hits. The Interagency Border Information System (IBIS) is the primary 
tool used to conduct background checks on applicants, petitioners, 
beneficiaries, and other individuals seeking immigration benefits. 
Currently, FDNS is conducting a pilot to test the electronic/paperless 
resolution of background checks and the entry and check of all aliases 
at the front end of the adjudication process.
    Question. How are the relationships working with the Department of 
State and Immigration and Customs Enforcement?
    Answer. ICE and the Department of State (DOS) have a productive 
working relationship and coordinate on issues of visa security as well 
as critical law enforcement issues often involving foreign governments. 
For example, ICE is working closely with DOS to develop and implement a 
``diplomatic'' strategy to encourage several countries to accept 
repatriation of their citizens when they are ordered removed from the 
United States. Additionally, ICE works closely with DOS and other 
agencies as members of the Human Smuggling and Trafficking Center to 
synthesize intelligence, law enforcement and other information to bring 
effective international action against smugglers, traffickers of 
persons and criminals facilitating terrorists' clandestine travel. In 
U.S. embassies around the world, a network of ICE attaches, who with 
DOS, are working with their counterparts in foreign law enforcement 
agencies combating transnational crimes involving national security, 
financial, smuggling, illegal arms exports, forced child labor, child 
pornography, human trafficking, intellectual property rights, 
commercial and immigration fraud violations. ICE looks forward to 
continuing and expanding the collaborative relationship with DOS to 
further safeguard our borders and the American people.
    Question. Please explain what the FDNS fraud tracking system will 
be? Who will have access to this system? What are the timeline and 
major milestones for development of the system?
    Answer. FTS Requirements:
  --The ability to maintain and report on fraud lead and case data in a 
        central repository that is available at a national level to all 
        FDNS staff and authorized external agencies
  --The ability to reference benefits application data related to the 
        subject of a case
  --The ability to share case and lead data on validated fraud cases 
        with fraud investigators at ICE
  --The ability to perform reactive and ad-hoc data searches against 
        benefits claims data
  --The ability to perform data mining analysis on benefits claim data
  --The ability to define fraud profiles and apply them against 
        incoming application receipts
  --The ability to track fraud profile matches and analyze data 
        commonalities
  --The ability to generate and report information for management use
  --The ability to generate and automatically report G22 statistics for 
        FDNS
    Access.--FTS is being sized to accommodate up to 500 simultaneous 
users. This will accommodate the current 222 FDNS field staff, 
supervisors, managers and support staff located in geographically 
disparate locations nationwide, but also potential expansion. It will 
also accommodate information sharing with other agencies such as the 
FBI, CIA, Department of State, and other DHS and intelligence entities 
with need to access this information for national security and law 
enforcement purposes.

                                            MILESTONES AND TIMELINES
----------------------------------------------------------------------------------------------------------------
                                                                       Days            Start            End
----------------------------------------------------------------------------------------------------------------
Discovery Stage.................................................               7         2/18/05         3/17/05
Design Stage....................................................              13         2/18/05         3/25/05
Configuration Stage.............................................              18         3/10/05         4/04/05
Validation Stage................................................              15         3/22/05         4/11/05
Deployment Stage................................................               4         4/12/05         4/15/05
----------------------------------------------------------------------------------------------------------------

    Question. Please provide a detailed plan for the development and 
rollout of the benefit fraud assessment tool, including timelines and 
milestones.
    Answer. U.S. Citizenship and Immigration Service's (CIS) Fraud 
Detection and National Security (FDNS) Unit will implement a Benefit 
Fraud Assessment program (BFA). This program was approved in February 
2005, and will be implemented in various phases through October 2005. 
ICE supports FDNS conducting the BFA so that ICE can direct its 
resources to investigating/prosecuting actual benefit fraud violators.

                         OFFICE OF CITIZENSHIP

    Question. Please provide the following information regarding the 
Guide for New Immigrants: which languages will the guide be produced 
in; how many will be printed in each language in the initial run; how 
will the guides be distributed electronically and physically; what is 
the timeline for translating the guide into each of the planned 
languages; and what is the timeline for producing hard copies in each 
language.
    Answer. To ensure that immigrants from a variety of language groups 
have access to the Guide, the Office of Citizenship will translate the 
English version of the Guide into ten (10) languages--Spanish, Chinese, 
Vietnamese, Tagalog, Portuguese, Russian, French, Korean, Haitian 
Creole, and Arabic.
    Hard copies of the Spanish and English versions of the Guide will 
be available for purchase through the Government Printing Office (GPO), 
and all other versions will be accessible online. In order to initially 
market the product, the Office plans to print approximately 250,000 
copies of the English guide and 150,000 copies of the Spanish guide.
    In addition of the current availability of the English Guide online 
(additional languages to be posted as translations are completed) the 
Office is coordinating a national mailing list of community and faith-
based organizations, immigration service providers, State and local 
contacts and adult educators in an effort to disseminate the Guide 
nationally. USCIS Community Liaison Officers and local field Directors 
will also receive copies of the Guide for additional local 
dissemination. GPO order forms will also be included as part of the 
dissemination effort. In addition to planned dissemination efforts, the 
Office also plans to implement a comprehensive outreach/public 
education effort in key communities. These events will be strategically 
located according to where the centers of the various foreign language 
communities are. Plans include high-profile events in: Los Angeles for 
the Spanish version (May); San Francisco for the Chinese, Tagalog, and 
Vietnamese versions (May); New York City for the Russian and Korean 
versions (July); and Detroit/Dearborn for the Arabic version (August).
    Spanish translation should be completed in April; Chinese, Tagalog 
and Vietnamese will be completed in May; Russian, Korean and Arabic 
will be completed in June; and Portuguese, Haitian Creole and French 
will be completed in July.
    Hard copies of the English and Spanish guides will be available in 
June. All other translation will be available online late summer. There 
are currently no plans to print hard copies of the additional 
languages.

                                STAFFING

    Question. Please provide a complete FTE staffing plan for fiscal 
year 2005 and 2006, including but not limited to; location (i.e., 
District Office, Service Processing Center, etc), position type (i.e., 
Immigration Information Officer, Adjudicator, etc), and physical 
location (i.e., Burlington, VT; Dallas, TX; etc).
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question. Please provide a breakout of attrition rates for each of 
fiscal years 2003, 2004, and 2005 by type of position and location.
    Answer. USCIS only has attrition rates for fiscal year 2004. For 
the major position types, they are:
  --Adjudications Officer: 2.3 percent
  --Asylum Officer: 6.1 percent
  --Asylum/Adjudications Clerk: 2.3 percent
  --Immigration Information Officer/Customer Service
                Representative: 1.2 percent
    Data is not available by location.
    Question. Please provide a chart with the numbers and types of 
employees that have been trained at Glynco, GA for each of fiscal years 
2003, 2004, and 2005.
    Answer:

------------------------------------------------------------------------
                                                            Fiscal year
              Position type                 Fiscal year        2005
                                               2004         (estimate)
------------------------------------------------------------------------
Adjudication Officer....................             751           1,098
Asylum Officer..........................             116             170
Immigration Information Officer.........             142             207
Other...................................              58              85
                                         -------------------------------
      Total.............................           1,067           1,560
------------------------------------------------------------------------
Fiscal year 2003 data is not available.

                              CALL CENTERS

    Question. Please provide a chart with the number of contractors 
assigned to each call center for fiscal years 2004 and 2005.
    Answer. USCIS does not determine the number of contractors assigned 
to each contract call center. Under our contract, the vendor is 
required to have sufficiently trained staff to meet our performance 
requirements, and is responsible for determining the placement and size 
of each of its operations.
    Question. Please provide a chart for each of fiscal years 2004 and 
2005 of the total number of calls received by call center, broken out 
by type of call.
    Answer. USCIS has two kinds of call centers. Contract call centers, 
which provide initial live assistance, and USCIS staffed call centers, 
which answer questions that cannot be answered by the contract staff.
    Our contract call centers operate as one. We do not route calls to 
our general customer service line based on the nature of the call, but 
based on agent availability. Calls are routed to the next available 
agent with the appropriate language skills regardless of location. 
Thus, staff scheduling, availability and performance affect call 
routing, not the nature of the call. USCIS, therefore, does not track 
information by type of call.
    The table below shows the volumes and percentage of live assistance 
calls handled by staff at each of the four (4) contract call centers 
for fiscal year 2004 and fiscal year 2005 (through mid-March).

----------------------------------------------------------------------------------------------------------------
                                                               2004                  2005 (through mid-March)
                                                 ---------------------------------------------------------------
                                                      Volume          Percent         Volume          Percent
----------------------------------------------------------------------------------------------------------------
Phoenix, Arizona................................       1,269,059            16.0         531,867            17.1
Lawrence, Kansas................................       1,534,164            19.3         636,945            20.4
Corbin, Kentucky................................       4,800,717            60.5       1,809,688            58.1
Arlington, Virginia.............................         334,911             4.2         138,153             4.4
Total live assistance calls handled by contract        7,938,851  ..............       3,116,653  ..............
 call centers...................................
Total calls received to USCIS...................      21,295,256  ..............       8,454,022  ..............
Percent of total calls that were handled by       ..............            37.3  ..............            36.9
 contract call centers..........................
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

                        ICE--CYBER CRIME CENTER

    Question. Last year, $4.2 million was secured in the fiscal year 
2005 Homeland Security Appropriations Act to expand the ICE Cyber Crime 
Center to ICE field offices. Are these funds at risk of being diverted 
to address the base budget shortfall within ICE this fiscal year?
    Answer. At this time, it is ICE's intent to execute the entire $4.2 
million in fiscal year 2005 for the purpose for which it was 
appropriated.

                          IMMIGRATION SERVICES

    Question. With the split of immigration and enforcement functions 
precipitated by the creation of the Department of Homeland Security, 
Alaska's capitol, Juneau, was left with no personnel to provide 
immigration services. Without immigration services, immigrants are 
forced to fly to Anchorage to access services. What steps have been 
taken by the Homeland Security Department to ensure Juneau's need for 
immigration services will be met?
    Answer. Since the creation of USCIS, the agency has met the needs 
of Juneau and other distant communities of Alaska by sending an officer 
2 or 3 times each year on periodic circuit rides to conduct benefits 
interviews, naturalization ceremonies, and community outreach. USCIS 
has recently expanded the circuit rides to 4 times a year, even though 
there were only 400 Naturalization and Adjustment of Status cases in 
the entire District in the first quarter of this year. The most recent 
trip was in November 2004, and there are trips to Juneau scheduled for 
April, August, and October of 2005. The current cycle times are just 
over 6 months for naturalization, and just under 6 months in Adjustment 
of Status cases.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                           LAND PORT OF ENTRY

    Question. America has 197 land ports of entry, and it has been 
almost 20 years since we launched a major effort to upgrade 
infrastructure at those ports. That last effort occurred in 1986--
almost 15 years prior September 11, 2001.
    Since September 11, we have placed increasing emphasis on upgrading 
protective measures for our airports, seaports, and critical 
infrastructure. It is imperative that we also improve land port 
security if we are going to be successful in the war on terror. To that 
end, I intend to introduce a bill which will authorize additional funds 
for investment in our Nation's border crossings.
    Have you considered what kinds of improvements are necessary at our 
land ports of entry and how much these upgrades might cost?
    Answer. CBP has initiated a Construction Master Planning Process 
that will allow for increased security at the Nation's borders by 
providing critical facility and infrastructure improvements that are 
prioritized using a rigorous capital investment planning process.
    The planning methodology and resulting allocation of construction 
projects will optimize available resources to support the expanded 
methods of CBP operations and comprehensive border enforcement 
strategy. The construction planning process aligns with the DHS mission 
and strategy, forecasted future growth, identify and justify required 
projects and estimate their associated costs. The CBP Construction 
Master Planning Process was developed in response to the reporting 
requirements included in House Report 108-774 and House Report 108-541.
    Question. Based on your experience at CBP, what do you believe are 
the three top priorities for securing our land ports?
    Answer. Since September 11, 2001, CBP has tightened procedures for 
entry into the United States at all ports of entry, based on three 
strategic priorities:
  --Advance Information and Risk-Targeting.--CBP has moved forward with 
        programs that provide information regarding cargo and 
        passengers as far in advance of arrival to the United States as 
        possible, and systems to review this information and develop 
        targeted response to high-risk cargo and individuals. These 
        programs and systems include C-TPAT, CSI, advance cargo 
        manifests, Advance Passenger Information Systems, all screened 
        through our National Targeting Center.
  --State of the Art Technology.--CBP is investing in state-of-the-art 
        technology, including non-intrusive radiation detection 
        systems, making additional information systems available to 
        inspectors at the ports of entry, and addition of biometric and 
        other systems to enhance security.
  --Training.--CBP has significantly revised and reprioritized our 
        training for CBP Officers based on operational priorities, 
        beginning with the establishment of anti-terrorism protocols 
        for all ports of entry and developing and implementing anti-
        terrorism training for all CBP Officers.
    Question. Specific improvements are needed at the Columbus port of 
entry in New Mexico, and I understand that the General Services 
Administration (GSA) has proposed that construction on the Columbus 
project begin in 2007 or 2008. Do you support GSA's recommendation and 
will you keep the project on track for construction?
    Answer. CBP has requested GSA to modernize and expand the border 
station in Columbus, NM. The existing facility constructed in 1987, is 
a full service port of entry with pedestrian, non-commercial and 
commercial traffic. It is the only 24-hour border crossing point for 
pedestrians and privately owned vehicles in New Mexico. The facility is 
in need of significant renovation and expansion to safely process the 
increased volume of traffic that has occurred since originally 
constructed.
    CBP has requested GSA to include this project at the earliest 
opportunity. If approved for design in fiscal year 2007, construction 
should begin in fiscal year 2009.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

                           OPERATION PREDATOR

    Question. Mr. Secretary, first, let me thank you again this year 
for ICE's efforts to stop the exploitation of children. I understand 
that Operation Predator has had many successes and I am glad to hear of 
its achievements. I believe it is a critical program and I hope it 
continues to be successful. We should continue to do all within our 
power to ensure that children around the world are protected from those 
individuals that would harm them and shamelessly exploit them for 
simple pleasure and monetary gain.
    To that end, I ask that you share with the Committee some of ICE's 
other efforts to eliminate the abuse and exploitation of children. I 
know that you have many partners in this effort. I would appreciate you 
expounding on your opening statement as to what ICE is doing and who 
you are working with to accomplish these goals.
    Answer. In addition to Operation Predator, ICE attempts to 
eliminate the abuse and exploitation of children by enforcing the laws 
related to Forced Child Labor (FCL). ICE has implemented a proactive 
outreach schedule targeting an audience comprised of leaders in 
domestic industry and their employees/agents responsible for foreign 
purchases and related internal security procedures. Our goal is to 
educate this community, promote voluntary compliance, and encourage 
vigilance and reporting of suspected violators. The ICE FCL program 
staff regularly attends other United States Government agency, foreign 
government, and non-governmental organization functions related to 
forced or indentured child labor. In particular, FCL program staff 
attends and participates in monthly meetings with the National Child 
Labor Coalition, an organization that exists to serve as a national 
network for the exchange of information regarding children in an effort 
to end child labor exploitation by promoting progressive initiatives 
and legislation; established contacts with various domestic industry 
trade show representatives and coordinated participation in commodity 
specific events; and published the Forced Child Labor Advisory and 
accompanying pamphlet, produced in English and translated into 5 
foreign languages for distribution in training and outreach activities. 
ICE currently has 20 open investigations related to allegations of the 
importation of products manufactured or produced with forced or 
indentured child labor. During fiscal year 2005, three new 
investigations were opened, twelve were closed, and one investigation 
is in pending status.
    During 2004, ICE hosted two international symposiums on FCL and 
related child exploitation issues as defined in the International Labor 
Organization (ILO) Convention 182. These symposiums hosted in Singapore 
and Johannesburg, South Africa, were geared at educating foreign law 
enforcement partners on U.S. laws, promoting information sharing, and 
enhancing networking vital to successful investigations, and included 
presentations and training on: Forced Child Labor, the Protect Act and 
Operation Predator, Child Pornography, Basic Computer Forensics and 
Investigative Techniques, and Child Sex Tourism. In addition, at the 
Johannesburg, South Africa conference, a block of training was 
conducted by ICE on human smuggling and trafficking particularly with 
regard to children on the African continent.
    In regard to human smuggling and trafficking into the United 
States, ICE does not keep statistics delineating children versus 
adults. However, in terms of all human trafficking (men, women, and 
children), many of these victims are lured from their homes with false 
promises of well-paying jobs; instead, they are forced or coerced into 
prostitution, domestic servitude, or other types of forced labor. ICE, 
with its wide range of authorities, expertise and capabilities attacks 
human trafficking organizations through the aggressive use of human 
trafficking, smuggling and money laundering statutes, as well as 
identification and seizure of criminal proceeds and assets. Each and 
every allegation received by the ICE FCL program is researched, 
analyzed, and referred to the appropriate domestic or foreign office 
for further investigation. ICE's education and outreach process 
provides guidance to ICE agents in distinguishing the clear differences 
between human smuggling violations and human trafficking. This process 
has enabled ICE agents, our State and local law enforcement partners 
and community groups to better understand and identify trafficking 
violations and to better care for victims. ICE office of investigations 
has also conducted extensive outreach and training with our law 
enforcement partners abroad. Coordinating with the ICE Attaches in 
numerous countries, ICE works to combat trafficking organizations, in 
source and transit nations, as well as in the United States.

                           ILLEGAL IMMIGRANTS

    Question. Among each of your roles, is the charge to secure our 
borders and to control illegal immigration. Estimates of the number of 
illegal immigrants range greatly. Some say 8 million others say 
millions more. I believe that we all know that 8 million is an 
extremely conservative estimate.
    What is your best estimate on the number of illegal aliens 
currently residing in the country?
    Answer. It is estimated that the number of illegal aliens currently 
residing in the country is most likely between 11-12 million.
    Question. How many new illegal aliens entered the country last 
year?
    Answer. The total for ``first time'' illegal aliens, in fiscal year 
2004, making entry into the United States between the ports of entry is 
608,073. These numbers are derived from using the data provided in the 
Enforce Integrated Database (EID). This data is based on persons 
identified by biometric data (fingerprints) as first time 
apprehensions.
    Question. Is that an increase or a decrease from the previous year?
    Answer. There was a 20 percent increase in first-time 
apprehensions/entries into to the United States in fiscal year 2004 
compared to fiscal year 2003.
    Fiscal year 2004--608,073.
    Fiscal year 2003--504,889.
    Question. If we are so uncertain about the numbers, doesn't that 
seem to indicate that we are not doing enough to secure our borders and 
our homeland?
    Answer. U.S. Customs and Border Protection is enhancing and 
planning operations in areas along the borders which pose the greatest 
threat to national security. With the development and implementation of 
the Border Patrol's National Strategy, a measured but aggressive 
approach is being taken to increase border security. The guidelines and 
goals outlined in the National Strategy have been translated into the 
CBP/USBP implementation plan.

                             VISA OVERSTAYS

    Question. Another major problem with our immigration system is the 
fact that many of those people currently counted as illegals actually 
entered the country legally, but have overstayed their visas.
    Does the Department have any recent numbers on visa overstays?
    Answer. The US-VISIT Program Office conducted an analysis of 
biometric entry and exit data for the first 9 months of the program 
(January 5, 2004 to September 30, 2004) and initially, the findings 
indicate that, for visa holders on whom biometrics are collected at 
both entry and exit, nearly 90 percent exit the country before their 
periods of admission expire. In addition, US-VISIT's preliminary 
findings show that there is no exit record for less than 1 percent of 
these visa holders. Due to current limitations in capabilities to 
capture complete entry and exit data on all visa holders, the small 
sample size, and the abbreviated period covered by the analysis, US-
VISIT is unable to provide more detailed findings.
    Question. How many temporary visa holders never return to their 
home country?
    Answer. Except for the preliminary information mentioned in the 
previous question, US-VISIT does not yet contain all the technological 
elements that would readily provide this type of status information. 
However, according to a report from the Office Immigration Statistics 
using data from the Nonimmigrant Information System (NIIS), a total of 
23.6 million nonimmigrant departures were recorded by NIIS during 2003. 
Of those, 22.1 million or 94 percent were matched to an arrival and 
showed valid arrival and departure dates.
    The proportion of all admissions matched varies among the broad 
categories of admission. Short-term visitors had the highest match rate 
(95 percent), followed by diplomats and other representatives (93 
percent), students and temporary workers (88 percent), and expected 
long-term residents (87 percent). Records missing the category of 
admission have the highest non-match rate (48 percent) but as a group 
represented less than one percent.
    The report also gives length of visit estimates. Nonimmigrants 
included in NIIS who departed in 2003, remained in the United States an 
average, or mean, of 34 days, or just under 5 weeks, per visit. The 
median length of visit was 8 days, indicating half of all departing 
nonimmigrants remained in the country for 8 days or less. Over 95 
percent of departing nonimmigrants remained for less than 6 months per 
trip, with approximately 4 percent remaining between 6 months and 1 
year, and 1 percent remaining 1 year or more.
    Question. Can you tell us what percentage of the total illegal 
population is visa overstays?
    Answer. It is very difficult to accurately estimate either 
population. The fiscal year 2006 US-VISIT budget request includes $24 
million for the person-centric view that would begin the transformation 
of these systems so as to provide timely and accurate visibility to all 
DOS and DHS officers associated with the visa process regarding those 
who chronically overstay, or are overstaying for extended periods.
    Question. Given that these people make up a large percentage of our 
illegal population, has any consideration been given to strengthening 
the vetting process? What I mean by that is, if a large percentage of 
those people obtaining visas are not returning do you think there a 
breakdown somewhere in the process?
    Answer. Managing the entry, stay and departure of alien visitors is 
a major component of controlling our borders and requires collecting 
information regarding the movement of aliens in, through, and out of 
the United States. The information in the US-VISIT system is available 
to Customs and Border Protection (CBP) officers at ports of entry, 
special agents in Immigration and Customs Enforcement (ICE), 
adjudications staff at U.S. Citizenship and Immigration Services (CIS) 
services offices, U.S. consular offices, and other law enforcement 
agencies. Such information allows these officers to identify and take 
action against those who violate the law, to locate individual aliens 
of interest to law enforcement entities, to validate the immigration 
status of aliens so that only eligible persons receive immigration 
benefits, and to intercept terrorists and other persons who should not 
be allowed into the country. Additionally, the United States Government 
(USG) will be able to use this data to make informed policy and 
management decisions regarding enforcement prioritization, 
participation in visa waiver programs, or immigration benefit programs.
    Collecting exit information through US-VISIT will strengthen the 
vetting process by giving officials who issue visas timely, accurate 
and comprehensive visibility into an applicant's compliance patterns, 
so that appropriate action can be taken on the visa request. Once all 
of the elements of the exit/entry system are in place (i.e., at all 
land, air and sea points of entry, including immigration status 
information capabilities), we will have the ability to accurately 
assess and investigate the overstay population.
    Question. Following-up on that what is your agency doing now and 
what are you planning to do in the future to ensure that this does not 
continue to be a problem?
    Answer. The Homeland Security Act of 2002 gave DHS the 
responsibility for several significant national security programs/
initiatives to track nonimmigrant aliens' compliance with the terms and 
conditions of their admission to the United States. These programs/
initiatives include: the Student and Exchange Visitor Information 
System (SEVIS), the National Security Entry/Exit Registration System 
(NSEERS), and the United States Visitor and Immigrant Status Indicator 
Technology (US-VISIT) program. ICE formed the Compliance Enforcement 
Unit in June 2003, to investigate criminal and administrative 
violations identified through these programs. The CEU receives violator 
data from these programs/initiatives, analyzes the data and sends 
proactive investigation requests to field offices to locate and remove 
the violators. The CEU will continue to exploit the benefits of these 
programs/initiatives.
    Additionally, the fiscal year 2005 budget provides for the hiring 
of additional ICE criminal investigator positions to be assigned to 
compliance enforcement units across the country. ICE plans to staff 
these additional positions in field offices to support compliance 
enforcement investigations generated by the ICE Headquarters CEU. The 
positions will support compliance enforcement of the US-VISIT, NSEERS, 
and SEVIS programs based on current enforcement need projections.
    Question. I know that US-VISIT is slowly being implemented.
    What progress has been made to date and what assurances can you 
give us that we know who is legally entering the United States?
    Answer. The Department of Homeland Security has met the December 
31, 2003, and December 31, 2004, Congressional deadlines to deploy an 
entry-exit program that strengthens security and facilitates travel for 
legitimate visitors while protecting their privacy and ensuring the 
integrity of our immigration system. In conjunction with the Department 
of State's Biometric Visa Program, we are creating a continuum of 
security measures that begins before individuals enter the United 
States and continues through their arrival and departure from the 
country. US-VISIT also works with commercial carriers to receive 
notification of passenger lists before passengers arrive in and depart 
from the United States.
    Since its beginning on January 5, 2004, US-VISIT has implemented 
entry procedures at 115 airports, 14 seaports, and in the secondary 
inspection areas of the 50 busiest land ports of entry. In September 
2004, US-VISIT was expanded from individuals with visas to include 
processing of visitors traveling to the United States under the Visa 
Waiver program. US-VISIT processed over 20 million foreign travelers 
from January 5, 2004, to February 24, 2005, and has prevented 536 
criminals and immigration violators, including Federal and State prison 
escapees, from gaining admission to the United States.
    US-VISIT is protecting our visitors by making it virtually 
impossible for anyone else to claim their identity should their travel 
documents to be stolen or duplicated. Our fingerprint matching system 
has an accuracy rate (True Acceptance Rate or TAR) of 99.6 percent for 
one-to-one verification and a TAR of 96 percent for one-to-many 
identification. DHS is currently working with National Institute of 
Standards and Technology and industry leaders on several initiatives to 
examine mechanisms to increase the level of accuracy.
    Later this summer, US-VISIT will conduct tests using automatic 
identification (Radio Frequency Identification Technology or RFID) at 
land ports of entry to capture entry/exit information. US-VISIT is on 
track to deploy entry procedures to the remaining land ports of entry 
by December 31, 2005, meeting the Data Management Improvement Act 
(DMIA) mandate.
    The work of US-VISIT will extend far past these current efforts. In 
the Intelligence Reform and Terrorism Prevention Act of 2004, Congress 
included requirements and actions to be taken by DHS, the Department of 
State and US-VISIT with the goal of completing a biometric entry and 
exit data system as expeditiously as possible. US-VISIT is preparing a 
Strategic Plan that will describe how a single, unified approach to 
immigration and border management--a U.S. Immigration and Border 
Management Enterprise--will look and operate in the future. The Plan 
will include the overarching vision for how the United States 
Government will manage immigration and its borders, as well as how 
data, facilities, and information technology will contribute to the 
Enterprise mission.
    Question. Conversely, I believe it is important that we know who is 
leaving the country. Specifically, that ties directly into the visa 
overstays. If we know that people are leaving we will have a very good 
accounting of the number of folks that have chosen to stay here 
illegally. Can you tell us what progress has been made on implementing 
the exit portion of the program?
    Answer. In the air and sea environments, DHS is currently 
collecting biographic arrival and departure data through electronic 
manifests submitted by the transportation carriers and is using this 
data to identify alien travelers whose authorized periods of admission 
have expired and for whom no matching departure information is 
available. This information is already being shared with U.S. 
Immigration and Customs Enforcement (ICE). US-VISIT is working 
collaboratively with the ICE Compliance Enforcement Unit (CEU) to 
research existing data limitations and develop protocols and procedures 
to effectively vet these records through additional data sources to 
develop more complete, accurate and actionable information. 
Additionally, US-VISIT is conducting pilots to determine the most 
effective means of capturing exit information.
    Airport and Seaport Pilots.--US-VISIT is currently piloting three 
alternative methods of biometric departure confirmation at one seaport 
(Miami International Cruise line Terminal) and eight airports (Chicago 
O'Hare; Baltimore Washington International; Denver International; 
Dallas/Fort Worth International; Newark Liberty International; Luis 
Munoz International in San Juan, Puerto Rico; San Francisco 
International; and Detroit Metropolitan Wayne County). DHS anticipates 
making a decision on the best method(s) to implement shortly, and 
determining a schedule to expand biometric exit.
    Automated Land Border Entry-Exit.--Later this spring, US-VISIT will 
begin testing Radio Frequency Identification (RFID) technology. Using 
an automatic identifier, RFID technology can detect a visitor at a 
distance and provide primary inspection with entry information as well 
as provide a mechanism for an accurate and timely record of exits. By 
July 31, 2005, testing will begin at the ports of Nogales East and 
Nogales West in Arizona, Alexandria Bay in New York, and the Pacific 
Highway and Peace Arch in Washington. Testing will continue through the 
spring of 2006.
    Question. When does the Department expect the entire program to be 
fully operational?
    Answer. DHS will complete deployment of an initial biometric-based 
entry and exit program at all U.S. ports of entry by the end of 2005, 
meeting the requirements established by legislation. It is important to 
note that the Data Management Improvement Act, which established the 
majority of initial deadlines, only required the integrating of 
existing arrival and departure information--it did not require the 
collection of new information, such as biometrics. The Enhanced Border 
Security and Visa Entry Reform Act contained a requirement to 
biometrically compare and authenticate certain travel documents by 
established dates. DHS, recognizing the importance of biometrics in the 
process, added the requirement to collect biometric information, and is 
establishing additional procedures, beyond those required by statute, 
to enhance security.
    Ultimately, US-VISIT will manage data on foreign nationals covering 
their interactions with U.S. officials before they enter, when they 
enter, while they are in the United States, and when they exit. This 
comprehensive view of immigration and border management will create a 
virtual border and will improve interactions with foreign nationals. In 
its strategic plan (required under the Intelligence Reform and 
Terrorism Prevention Act of 2004) US-VISIT will describe how the U.S. 
Immigration and Border Management Enterprise will look and operate in 
the future.
    Question. Mr. Secretary, can you tell me how many people were 
detained or deported for overstaying their visas last year? Does ICE 
take proactive measures towards apprehending overstays?
    Answer. Statistics obtained from ICE's administrative booking 
system, ENFORCE, revealed that in fiscal year 2004, 3,784 nonimmigrants 
were processed for removal from the United States under the charge of 
INA 237(a)(1)(C)(i), violation of nonimmigrant status or condition of 
entry. The INA does not have a specific charge for visa overstays. The 
above number will include individuals that violated their nonimmigrant 
status by overstaying their visa, as well as other nonimmigrant 
violators. These other nonimmigrant violators include: student visa 
violators, individuals found working without authorization, and 
nonimmigrants that have violated their status by committing a crime.
    The Compliance Enforcement Unit (CEU) receives violator data from 
NSEERS, US-VISIT, and SEVIS. The CEU analyzes the data and sends 
proactive investigation requests to field offices to locate and remove 
the violators. In fiscal year 2004, the CEU sent out over 2,050 visa 
overstay leads generated by NSEERS, US-VISIT, and SEVIS to ICE SAC 
offices throughout the country. The CEU will continue to receive and 
assign overstay leads to ICE SAC offices for investigation.
    Question. What are the ramifications and penalties for overstaying 
a visa? There must be a way to keep track of these folks.
    Answer. A nonimmigrant that has failed to maintain the status in 
which he/she was admitted, or fails to comply with the conditions of 
any such status, to include nonimmigrants that stay beyond their period 
of admission, is subject to removal from the United States under the 
charge of INA 237(a)(1)(C)(i), violation of nonimmigrant status or 
condition of entry.
    DHS implemented the US-VISIT program in January 2004, to address a 
Congressional mandate to implement a nationwide entry-exit tracking 
system. Once fully implemented, US-VISIT will biometrically document 
the entry and exit of all foreign visitors to the United States. The 
CEU works closely with the US-VISIT Program to identify potential visa 
overstay violators and to conduct the necessary follow up 
investigations.

                            BORDER SECURITY

    Question. Every year, I travel to every county in Alabama to hear 
the issues of my constituents and one of their greatest and most 
frequent concerns is immigration and more to the point illegal 
immigration. Every year I feel compelled to tell my constituents that 
while we are making progress we are nowhere near where we need to be.
    What is the Directorate doing to make our borders more secure and 
to eliminate the influx of illegal aliens?
    Answer. ICE is a key player--along with our partners at U.S. 
Customs and Border Protection (CBP) and U.S. Citizenship and 
Immigration Services (USCIS)--in the Department's mission to secure the 
borders and restore integrity to the Nation's immigration system. That 
is a mission ICE takes very seriously--as the tragic results that can 
follow when those wishing to do us harm breach the Nation's border 
security and exploit immigration laws. The key to this effort is 
prioritization--systematically attacking the most serious threats 
first. Specifically, ICE has made the apprehension and removal of 
dangerous criminal aliens and national security threats our top 
enforcement priority. This is not to suggest that ICE does not fully 
and consistently enforce the law in other situations but that ICE 
focuses on addressing the serious threats that individuals with 
possible terrorist associations, fugitive alien absconders, violent 
criminal aliens, sexual predators, and others pose to our communities, 
our families, and our Nation. ICE's objective is to strategically 
target our resources and authorities on the most dangerous aliens in 
order to remove them from the streets before they can do harm.
    It's a strategy that is getting results. In fiscal year 2004, ICE 
removed more than 160,200 aliens with more than half of them having 
prior criminal convictions and 18 fugitive absconder teams across the 
Nation who apprehended more than 11,000 fugitives last year. ICE 
created a ``Most Wanted'' list of the most dangerous criminal aliens, 
which has been a valuable tool for generating tips and leads. From the 
original list, nine of the ten were captured within a few weeks, and 
the tenth was determined to have already left the country. Under ICE's 
``Operation Predator,'' which targets pedophiles, child sex tourists, 
and child pornographers we have arrested more than 5,000 child sex 
predators who exploit children for pleasure or profit. Approximately 40 
percent of the predators arrested under this program have been illegal 
aliens, and an additional 20 percent have been visitors to the United 
States who were ``out of status,'' meaning that they had overstayed or 
otherwise violated the terms of their admission.
    Another priority is to dismantle criminal organizations that 
smuggle and traffic human beings for profit. In fiscal year 2004, ICE 
arrested more than 1,630 human smugglers. Operation ICE Storm, an 
initiative launched in 2003 to target violent human smuggling networks 
in Arizona, has brought charges against more than 300 defendants and 
resulted in the seizure of more than $7 million. This unprecedented 
seizure of alien smuggling proceeds is a direct result of the 
combination of ICE's immigration and customs authorities (particularly 
customs expertise in financial crime investigation). Law enforcement 
authorities in Arizona have credited Operation ICE Storm with a 
dramatic decrease in alien-related kidnappings and other violent crime 
in the Phoenix metropolitan area.
    ICE's Law Enforcement Support Center (LESC) responded to more than 
603,000 immigration status inquiries from Federal, State, and local 
authorities in fiscal year 2004 and placed more than 15,000 immigration 
detainers with police agencies nationwide allowing ICE to more 
efficiently remove aliens from the United States once their jail term 
has expired. ICE is also fostering innovative new relationships through 
our 287(g) program, which delegates authority for immigration 
enforcement to State and local law enforcement. Under the terms of 
Section 287(g) of the Immigration and Nationality Act (Illegal 
Immigration Reform and Immigrant Responsibility Act, Sec. 113, April 
30, 1996), State and local authorities can request this authority for 
their jurisdictions. Once this agreement is in place, ICE provides 
officers with a 5-week training program in immigration issues, and 
provides supervision and support for State and local officers engaged 
in immigration enforcement. These authorities are currently in effect 
in Florida and Alabama.
    The examples above are just a sampling of the critical immigration 
enforcement accomplishments of ICE. By aggressively enforcing our 
immigration laws and targeting criminals, ICE seeks to deter criminal 
and terrorist organizations that threaten our way of life. ICE will 
continue to work with its partners at the Federal, State, and local 
levels to secure the borders and protect the homeland.
    Question. How many aliens have been detained and deported in the 
last year?
    Answer. Based on data reported in the Deportable Alien Control 
System (DACS), as of January 2005, ICE removed/deported 161,090 aliens 
in fiscal year 2004. This number of final order removals is made up of 
criminals and non-criminals, detained and non-detained aliens. This 
does not include any voluntary removals, nor does it include any 
expedited removals, largely handled by the bureau of Customs and Border 
Protection. Virtually all of these removals were detained at least 1 
day prior to their removal.
    Based on data reported in DACS, as of January 2005, 235,449 aliens 
were detained at some point during fiscal year 2004. Some of these 
aliens were detained and then released to the community (bond, 
supervision, recognizance, etc). Others were granted voluntary 
departure, or transferred to other law enforcement agencies. Finally, 
some are still in detention for various reasons.
    Question. If a Mexican citizen looking for work can pay a fee to a 
coyote to traverse our border, what is to keep a terrorist that would 
do us harm from doing the same thing?
    Answer. ICE recognizes that criminal organizations operating 
worldwide are responsible for smuggling and trafficking tens of 
thousands of illegal aliens and thousands of pounds of illegal 
narcotics into the United States. These organizations generate millions 
of dollars in illicit profits that are moved through wire services, 
laundered through front businesses and transported out of the country. 
By exploiting vulnerabilities in border integrity, criminal 
organizations, whether they smuggle humans, illegal narcotics, illegal 
arms, or other contraband, are an unquestionable threat to the security 
of the United States.
    ICE has developed a full range of investigation and enforcement 
methodologies to confront the problem at every point--in source and 
transit countries, on the seas, at the Nation's borders and ports, and 
in the U.S. interior. In U.S. embassies throughout the world, ICE 
Attaches work with consular officials and with foreign law enforcement 
to better coordinate investigations, gather intelligence and follow the 
money trail to seize millions of dollars in profits from these 
organizations. ICE is also integrating intelligence and enforcement 
efforts and is mobilizing other governments and international 
organizations in the fight against human smuggling and trafficking.
    ICE has played a significant role in the newly established Human 
Smuggling and Trafficking Center (HSTC). The HSTC is a joint initiative 
between the Department of Homeland Security, the Department of State, 
the Department of Justice, and members of the national Intelligence 
Community. The HSTC serves as an intelligence fusion center and 
information clearing-house, with the goal of converting intelligence 
into effective action.

        TEMPORARY WORKER PROGRAM AND BACKLOG ELIMINATION PROGRAM

    Question. I remain very concerned with the so called Temporary 
Worker Program that the President has proposed. Last January, we heard 
about this program and despite the claims to the contrary it seemed a 
lot like amnesty. The only difference I can see is that the illegals 
must have jobs in the United States. Beyond that, these people will be 
given permission to work and stay even if only temporarily, in the 
United States despite the fact that they are under the law, criminals. 
I told you last year that I do not believe in rewarding bad behavior 
and I still feel the same way today. Under this plan, over 8 million 
people would have an instant status adjustment. I find this 
particularly troubling considering the severe backlog of people who are 
following the law and waiting sometimes years to be allowed to come to 
the United States.
    Director, I know you spoke about the efforts to eliminate the 
backlog in your testimony and I do appreciate the progress made, but 
there is much more to be done.
    What are we going to do to rectify these problems?
    Answer. The President has stated a Temporary Worker Program (TWP) 
must be guided by four basic principles: that America must control its 
borders; that immigration laws should serve the economic needs of our 
country; that we must not give unfair rewards to illegal immigrants in 
the citizenship process or disadvantage those who came here lawfully, 
or hope to do so; and, that new laws should provide incentives for 
temporary, foreign workers to return permanently to their home 
countries. In designing such a program, we must remain mindful of these 
principles--and, in doing so, address the common and important concerns 
that you point out.
    The President is also committed to achieving our backlog 
elimination goals by the end of fiscal year 2006, which USCIS is on 
track to achieve. A well designed and managed and funded Temporary 
Worker Program would not adversely affect our backlog elimination 
efforts. To ensure this outcome, the TWP program design must be 
cognizant of a variety of factors, including current benefit 
authorities, options for cost recovery via fees, eligibility criteria, 
employer/government partnership opportunities, and application process 
requirements.
    Question. I understand that the backlog at different service 
centers varies, in some cases by months if not years, what is the 
problem and how do we fix it?
    Answer. USCIS has recently submitted a report to the Congress on 
this subject, which speaks to a staffing analysis recently completed 
that will help guide the distribution of resources to ensure that 
Service Centers can meet and maintain backlog elimination goals.
    Question. I am also painfully aware that my abilities to assist my 
constituents through casework has been greatly hindered since at least 
September of 2003 when the Alabama Delegation contacted the Secretary 
regarding staffing at your Atlanta office. To date, my staff has 
trouble receiving prompt replies to inquiries made in Atlanta. Often we 
can do little more than provide them the information they already have 
available to them through your website. What can we do to ensure that 
congressional inquiries to your service offices are acted on promptly?
    Answer. USCIS places a high priority on effectively serving its 
customers. Members of Congress and their staff often contact the agency 
in order to facilitate the resolution of constituent immigration 
casework. Many times, it is through a congressional inquiry that a case 
that has gone off track is identified and resolved. Often these 
inquiries can help us identify trends where changes in operational 
practices or policies would be appropriate.
    Each USCIS District Office and Service Center has staff dedicated 
to working with congressional staff. USCIS Congressional Relations has 
established national standards for responding to congressional 
inquiries. Telephonic inquiries should be acknowledged or resolved by 
close of business the next business day, written inquiries should be 
responded to within 30 days and email inquiries should be responded to 
within 10 days. Atlanta has been meeting these standards. Still, there 
are extenuating circumstances where the complete resolution may take 
longer or where there may be information identified in national 
security background checks that cannot be disclosed to congressional 
offices on individual applicants in order to ensure that ongoing 
investigations or national security are not compromised.
    When we identify a customer service or operational problem specific 
to a particular field office, a multi-programmatic Field Assessment 
Team is deployed to undertake a comprehensive assessment of operational 
effectiveness and responsiveness identifying areas needing improvement, 
action plans, and specific follow up. In the case of the Atlanta 
District, such a study was conducted and follow up takes place on a 
monthly basis. In addition, USCIS has conducted a field study to 
determine workload and workforce allocation. Through this study, many 
offices were identified as understaffed and new staff is being hired. 
As a result of this study, the Atlanta District will be hiring new 
adjudications staff this year. As new staff come on board and backlogs 
are reduced, the need for congressional inquires should likewise 
diminish. The Atlanta District has informed us that they are current 
with all congressional inquires. If there are any outstanding cases 
within your office we would be happy to work with your staff on 
resolving those cases.

                        IMPORTED SHRIMP INDUSTRY

    Question. I know actions are being taken against the imported 
shrimp industry in response to a dumping determination by the ITC and 
Dept. of Commerce. Can you tell me what efforts ICE and CBP are being 
taken in regards to the dumping of shrimp?
    Answer. Although the Department of Commerce (DOC) and U.S. 
International Trade Commission (ITC) share the joint responsibility for 
antidumping and/or countervailing duty (AD/CVD) orders, the 
responsibility for the administration and enforcement of these orders 
belongs to Customs and Border Protection (CBP) and Immigration and 
Customs Enforcement (ICE).
    In July 2004, CBP amended its continuous bond guidelines 
specifically for agriculture/aquaculture AD/CVD merchandise as a 
response to the high-risk nature of these imports. A significant number 
of shipments were found to have circumvented the AD/CVD cases through 
incorrect country declarations, undervaluation, and insufficient surety 
bond coverage, thereby preventing CBP to collect the appropriate duties 
and make the proper distributions.
    The first new case affected by these amended guidelines is shrimp 
from China, Vietnam, Thailand, India, Ecuador and Brazil. CBP has 
performed a risk-based analysis on the continuous bonds used by 
importers of this product to identify circumvention schemes and sham 
companies. To date this effort has been successful, with CBP revoking 
over 100 continuous bonds for failing to respond to requests for 
information. CBP has also worked closely with many importers who are 
willing to comply with the new bond guidelines to appropriately set new 
bond amounts to cover the potential financial risk associated with the 
AD/CVD entries. In addition, CBP is also monitoring imports associated 
with this case on a monthly basis to identify new importers, misuse of 
more favorable AD/CVD rates, misdescription of goods, all to avoid 
paying proper AD/CVD duties.
    CBP is also deploying field officers located at Southeast Asian 
attache offices to determine if the production capabilities exist for 
this commodity. When problems are discovered, CBP will make the 
appropriate referral to ICE for further investigation and action.

                         BORDER PATROL VEHICLES

    Question. As you know, the fiscal year 2005 Homeland Security 
Appropriations conference report calls for a comprehensive border 
patrol vehicle fleet management plan by February 8, 2005. Can you 
please inform the Committee of the status of this report, and 
specifically the findings with respect to extreme terrain border 
regions?
    Answer. CBP has developed a draft comprehensive plan that was 
delivered to the Committee on June 28, 2005. Field implementation of 
the extreme terrain program has begun. The Program consists of four 
steps: (1) terrain mapping; (2) the evaluation and development of an 
off-road vehicle fleet; driver training; and sector management 
orientation. The first step, terrain mapping, involves retrofitting 
severe and enhanced mobility vehicles with specialized equipment to 
measure and pinpoint terrain severity using a global positioning 
system. Agents who have received advanced off-road training operate the 
vehicles in performing their regular duties, and CBP thus obtains 
accurate information about terrain severity that will be used to 
develop the optimal off-road fleet. A total of 10 Border Patrol Sectors 
were selected for the terrain mapping step in this Program. Mapping 
started in San Diego Sector in June 2004, and has been expanded to 
include the El Centro, Yuma, and Tucson Sectors. The following 
additional Sectors are scheduled to begin mapping this fiscal year: 
Marfa, El Paso, El Rio, Laredo, McAllen, and Blaine.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                 VISA WAIVER PROGRAM: FURTHER EXTENSION

    Question. The Enhanced Border Security and Visa Entry Reform Act of 
2002, which President Bush signed into law on May 14, 2002, established 
October 26, 2004, as the deadline by which the 27 existing ``visa 
waiver'' countries must have machine readable passports in order for 
their citizens to enter the United States without a visa. The Congress 
passed legislation last year pushing back that deadline until October 
26, 2005.
    Does the Department believe that additional time is required for 
these visa waiver countries to come into compliance with the machine 
readable passport requirements? If so, has authorizing legislation to 
achieve this goal been introduced?
    Answer. The Enhanced Border Security and Visa Entry Reform Act 
provisions are related to machine-readable passports that are tamper-
resistant and incorporate biometric and document authentication 
identifiers that comply with applicable biometric and document 
identifying standards established by the International Civil Aviation 
Organization. Last year the Administration requested a 2-year extension 
of the deadline requiring Visa Waiver Program (VWP) nationals to 
present biometric passports. Congress provided a 12 month extension to 
give countries designated to participate in the VWP additional time to 
implement the required passport changes. Given that, DHS and DOS have 
continued to work closely with VWP participants to review the progress 
that has been made toward compliance with the new requirement and 
deadline. We will be able to report on this progress to Congress 
shortly, though there are still concerns with the current deadline. I 
look forward to working with you to determine the best solution to both 
enhance the security of the VWP and enable facilitation of legitimate 
travel.
    Question. Former Secretary Ridge stated in one of his departing 
interviews that the United States most likely should impose the same 
requirements regarding biometric identities on U.S. passports. Has the 
machine readable requirement imposed on foreign visas resulted in 
negative treatment of U.S. travelers abroad?
    Answer. The Visa Waiver Permanent Program (Public Law 106-396) 
imposed a requirement that VWP travelers have machine-readable 
passports (with the biographic, not biometric, data being available in 
a standard manner) for VWP entry on or after October 1, 2007, and that 
participating VWP countries certify that they are issuing machine-
readable documents no later than October 1, 2003. Public Law 107-56, 
the USA PATRIOT Act of 2001 advanced the deadline for use of machine-
readable travel documents by VWP applicants from October 1, 2007, to 
October 1, 2003, but provided for the Secretary of State to waive the 
requirement until October 2007. In September 2003, the Secretary 
extended the deadline for individuals to present machine-readable 
documents to October 26, 2004. The requirement for nationals of VWP 
countries to present machine-readable passports to enter the United 
States under the VWP after October 26, 2004, has not resulted in any 
reported negative treatment of U.S. travelers abroad.
    Additionally, U.S. visas now contain biometrics (i.e. two 
fingerprints and a digital photograph). European Union nations are 
discussing options for implementing biometric visa programs as well.

          IMPACT OF BUSH AMNESTY ON BACKLOG REDUCTION/WORKLOAD

    Question. Your agency's budget request states that, if Congress 
provides the minimal discretionary funding you are requesting, you are 
on track to meet the goal of reducing to 6 months the processing 
backlog for immigration documents.
    The President continues to advocate for an amnesty for illegal 
aliens already resident in this country under the guise of an 
immigration reform proposal. I am concerned about the impact on your 
meeting these backlog reduction targets of any immigration proposal. We 
discussed this issue at last year's hearing, and you responded that any 
impacts on your agency's goals and operations would depend in large 
part on what Congress did in response to the President's immigration 
``reform'' proposal. He raised the immigration issue again in his State 
of the Union address. However, we in the Congress continue to await his 
``proposal''. When will Congress get the President's immigration reform 
proposal and what impact would his immigration ``proposal'' have on 
your backlog reduction proposal?
    Answer. The President has outlined his vision for a Temporary 
Worker Program (TWP) and said that it must be guided by four basic 
principles: that America must control its borders; that immigration 
laws should serve the economic needs of our country; that we must not 
give unfair rewards to illegal immigrants in the citizenship process or 
disadvantage those who came here lawfully, or hope to do so; and, that 
new laws should provide incentives for temporary, foreign workers to 
return permanently to their home countries. The key to processing 
temporary worker petitions quickly and efficiently is simplicity in the 
design. A well designed and managed Temporary Worker Program would not 
adversely affect our backlog elimination efforts. To ensure this 
outcome, the TWP program design must be cognizant of a variety of 
factors, including current benefit authorities, options for cost 
recovery via fees, eligibility criteria, employer/government 
partnership opportunities, and application process requirements.
    Question. Rep. Sensenbrenner has promised to attach his immigration 
bill (H.R. 418) to the Emergency Iraqi War Supplemental. This bill 
includes many of the provisions in the original House draft of the 
Intelligence Reform Act.
    Unlike some rhetorical Bush Administration amnesty, the specifics 
of this legislation are known. If the provisions of this bill are 
included in the Supplemental or some other piece of legislation, what 
impact would it have on your agency's abilities to meet your backlog 
reduction goals?
    Answer. This bill would not impact USCIS' ability to meet backlog 
elimination goals.

                          CIS LOCAL OMBUDSMAN

    Question. Section 452 of the Homeland Security Act called for the 
establishment of at least one CIS ombudsman's office in each state. Has 
CIS complied with the Act? If not, when does the Department plan to do 
so?
    Answer. HSA  452 establishes the Office of the Citizenship and 
Immigration Services Ombudsman (CISO), an entity independent of USCIS 
and reporting directly to the DHS Deputy Secretary. HSA  452(e)(1)(A) 
states that the Ombudsman shall have the responsibility and authority 
``to appoint local ombudsmen and make available at least one (1) such 
ombudsman for each State.''
    For fiscal year 2005 the CISO is authorized a total of 24 full-time 
employees (FTE), and the majority of these employees are planned to be 
onboard during the third quarter of the fiscal year. For fiscal year 
2004 the CISO was authorized a total of eight (8) FTE. The fiscal year 
2006 Budget maintains the CISO at the 24 FTE level.
    The CISO has established a ``Local Ombudsman Pilot Program'' which 
is partially staffed at present but planned to be fully staffed by 
April 30, 2005. The pilot program is to design and develop a workable 
local ombudsman office which will have specific operational 
responsibilities over a defined geographic area. The pilot program will 
establish personnel certification and training requirements, determine 
liaison responsibilities and limitations, finalize facilities 
requirements and provide a controlled model for future local ombudsman 
office placements. The pilot program will commence upon the arrival to 
CISO of the new hire personnel to complete the staffing of the pilot 
local ombudsman office (``Beta Office''). The pilot program is 
estimated to last for a minimum of 9 months, however that time may 
expand or contract depending on the results attained. The following is 
a list of tasks to be accomplished during the pilot program:
  --Develop personnel job descriptions based on actual job 
        requirements.
  --Conduct a task and skill analysis for each job position to 
        determine the required skills and knowledge for incumbents, as 
        well as to determine individual training requirements for 
        incumbents.
  --Design and develop a local ombudsman training and certification 
        program.
  --Determine the requisite support equipment necessary for local 
        ombudsman operations.
  --Determine the most efficient data transfer arrangement between the 
        Beta Office and the Ombudsman Information Management System 
        (OIMS) to allow for: (1) inquiries and USCIS actions to be 
        received by the Beta Office from OIMS; (2) Beta Office inputs 
        to OIMS; (3) and statistical data and analyses provided in both 
        directions.
  --Develop and establish inter-office and intra-office liaison 
        methodologies and procedures, with particular emphasis on: (1) 
        Beta Office to Analysis Branch; (2) Beta Office to Executive 
        Officer staff; (3) Beta Office to OIMS staff; (4) Beta Office 
        to USCIS office(s) in geographic area of responsibility; and 
        (5) Beta Office to individuals/employers as appropriate.
  --Develop reporting vehicles for Beta Office operations and 
        productivity.
  --Baseline Beta Office operations, duties and tasks under appropriate 
        quality assurance standards.
  --Develop and produce procedural manuals to baseline Beta Office 
        operations, duties and tasks.
  --Other tasks to be identified throughout the pilot program duration.

                  NATIONAL BORDER SECURITY ASSESSMENT

    Question. The Heritage Foundation issued a December 13, 2004 report 
entitled ``DHS 2.0: Rethinking the Department of Homeland Security,'' 
which made a number of recommendations. One of them recommended that 
the Department of Homeland Security ``conduct a national assessment of 
the resources required for effective border security.''
    Given the comments by Deputy Secretary Loy and other about the 
threat facing our borders from a variety of groups, including Al Qaeda, 
is the Department actively conducting such an assessment and, if not, 
why not?
    Answer. Under the goal of Prevention within the United States 
Department of Homeland Security Strategic Plan, one of the primary 
objectives is to: ``Secure our borders against terrorists, means of 
terrorism, illegal drugs and other illegal activity. We interdict 
terrorist activities by targeting unlawful migration of people, cargo, 
drugs and other contraband, while facilitating legitimate migration and 
commerce. The Department will enforce border security in an integrated 
fashion at ports of entry, on the borders, on the seas and before 
potential threats can reach our borders. Through the continued 
deployment of the appropriate balance of personnel, equipment and 
technology we will create ``smart borders.'' Not only will we create 
more secure United States borders, but in conjunction with 
international partners, we will extend our zones of security beyond our 
physical borders identifying, prioritizing and interdicting threats to 
our Nation before they arrive. We will develop and provide resources 
for a cohesive, unified enforcement capability that makes our border 
security effective, smarter and stronger.''
    DHS operating elements all share in this requirement and are 
conducting assessments within their area(s) of responsibility. For 
example, the Border Patrol has developed America's Shield Initiative, 
which will methodically assess the highest risk illegal border crossing 
corridors and, taking into account the topography and other natural 
barriers, allocate an efficient suite of aerial or ground sensors, 
personnel and equipment, to best secure the areas between the ports of 
entry. At the ports of entry, CBP is using and developing enhanced 
targeting systems and personnel to inspect the highest risk cargo, 
people and conveyances. In addition, radiation portal monitors are 
being deployed at our ports to screen cargo for potential weapons of 
mass effect. One of the tools enforcement officers at the border also 
employ is the United States--Visitor and Immigrant Status Indicator 
Technology (US-VISIT) program which incorporates biometrics (finger 
scans) into entry documentation to ensure we are only letting in those 
visitors with valid visas who have been cleared against terrorist 
watchlists and data bases holding fingerprints for criminals. Our 
national drug control strategy and related annual drug budget also 
contains information on the trans-national drug threat and resources 
devoted to combating this problem which complements our border security 
initiatives. These are a few examples of the family of plans, periodic 
reviews, acquisitions and programs that collectively contain the 
assessments and resource requirements for national border security. 
Annually, those requirements work their way through the budget process 
producing allocations to address the highest priority security 
concerns.

                        IMMIGRATION ENFORCEMENT

    Question. Last year, Congress provided $5 million for a worksite 
enforcement program. For fiscal year 2006, you are requesting $18 
million for the same purpose. How have you used the fiscal year 2005 
funds? Please describe how the requested fiscal year 2006 funds will 
contribute to immigration enforcement.
    Answer. ICE will increase its presence at worksites, concentrating 
on employers in specific industries and geographical areas who 
intentionally violate the law or who have historically hired large 
numbers of unauthorized workers. ICE will also coordinate with 
Citizenship and Immigration Services to improve and expand verification 
services (Basic Pilot Program) to employers nationwide pursuant to the 
Basic Pilot Program Extension and Expansion Act of 2003.

                           DETENTION BEDSPACE

    Question. For the current fiscal year, Congress provided funding to 
fill 20,660 detention beds--yet the total beds that you are filling 
each week thus far is averaging 2,000 below the funded total. Why are 
these beds not being filled? What types or categories of aliens are not 
being held?
    Answer. ICE Detention and Removal Operations (DRO) is detaining 
within its budget.
    National security cases and criminal aliens are ICE's priority in 
immigration enforcement. Daily, ICE is at 100 percent capacity of its 
available allocated funding for detention bed space, the majority of 
those detained being criminal aliens. This aggressive enforcement 
posture is reflected in last year's record 160,284 alien removals, 
including record 84,400 criminal aliens removed from the United States. 
ICE conducts case-by-case determinations on who will be processed for 
removal and who will be detained or released. ICE must also carefully 
consider the conditions of release and factor in community safety 
especially with regards to criminal aliens. ICE will continue to 
aggressively enforce immigration laws against criminal aliens and other 
aliens who pose security threats to the country and expects to continue 
to achieve increased removals.
    Question. Please provide the cost assumptions ICE would use 
regarding hiring the first year (fiscal year 2006) authorized level in 
the Intelligence Reform Act (800) for ICE investigators as well as the 
fiscal year 2007 annualization of those positions. Also, please provide 
the same information for the costs associated with meeting the first 
year authorized levels for detention bedspace (8,000).
    Answer. The fiscal year 2006 Budget includes substantial increases 
for increased detention and removal activities. The fiscal year 2006 
Budget includes $90 million for detention beds and additional detention 
and removal officers. This increase will fund 1,920 beds. In addition, 
the Budget provides $1.5 billion for detention and removal activities, 
$236 million (19 percent increase) over the 2005 enacted level. In 
addition, it also includes $39 million for the detention and 
repatriation costs of the Arizona Border Control Initiative. In 
addition, 140 new Special Agents will also be hired.

          INVESTIGATIONS OF ARMS EXPORT CONTROL ACT VIOLATIONS

    Question. The Department of Justice published revised regulations 
in the November 15, 2004 Federal Register that suggested that DOJ--not 
ICE--will have the lead role in investigations regarding illegal arms 
exports. I understand that in late December, you issued a message which 
stated, in part, ``In recent weeks some media reports have suggested 
that ICE may be ceding some of its authority to investigate violations 
of the Arms Export Control Act, and other export laws. I am writing 
today to inform you that nothing could be further from the truth.''
    This seems to be another troubling example of this new Department's 
willingness to cede authority to other Departments for some of the 
traditional roles played by its component parts over the years. The 
Secret Service had to assert its authority as the primary protector of 
the currency a few years ago and the Department lost some of its lead 
role in terrorist financing when former Secretary Ridge signed a 
Memorandum of Understanding with the former Attorney General. Even the 
Department's central role in coordinating terrorist threat information 
was lost--via Executive Order--almost before the ink was dry on the 
President's signature of the bill creating the Department.
    Please explain for the subcommittee the specific roles played by 
DHS--and ICE in particular--and DOJ in arms export investigations.
    Answer. For over 25 years, U.S. Immigration and Customs Enforcement 
(ICE), has effectively investigated violations of U.S. export control 
laws. The export control laws enforced by ICE include the AECA, the EAR 
(concurrent jurisdiction with the Department of Commerce), the 
International Emergency Economic Powers Act and the Trading with the 
Enemy Act. ICE uses its border search authority, certified undercover 
operations and U.S. money laundering statutes as additional tools to 
prosecute export violators and to assist in the identification and 
seizure of criminal proceeds of specified unlawful activities. As a 
result, ICE has successfully investigated hundreds of significant 
export violations.
    ICE will continue to vigorously pursue criminal violations of the 
export laws and will work jointly with the FBI in export investigations 
that have a nexus to FCI.

                   IMPACT OF THE ICE BUDGET SHORTFALL

    Question. In the fall of 2003, Congress began calling for the 
Department to respond to the fact that ICE had insufficient resources 
to perform its numerous immigration and other investigative duties. In 
both the fiscal year 2004 and 2005 Appropriations Acts, Congress 
stepped up to the plate and provided Immigration and Customs 
Enforcement with more funds than requested by the President to deal 
with the shortfall.
    Yet even with the full acknowledgement that ICE does not have 
sufficient funding, and that the shortfall has hampered its mission and 
damaged the morale of its agents, the President has refused to request 
supplemental funding to make ICE ``whole'' and to put it on a sound 
financial footing.
    Immigration and Customs Enforcement should be able to move forward, 
secure in the knowledge that it has the funds necessary to robustly 
investigate arms smugglers, terrorists, money launderers, child 
predators, as well as enforce existing immigration laws.
    However, ICE has been forced to take dramatic steps--including 
freezing hiring, stopping training, and limiting travel--for more than 
a year in order to live within its constrained budget. The hiring 
freeze and other spending restraints remain in place nearly 6 months 
into the new fiscal year. And now we are being warned that ICE faces a 
funding gap of nearly $300 million this year.
    Mr. Secretary, will you end fiscal year 2005 with fewer 
investigators than you started with at the beginning of Fiscal year 
2004? How has that reduction impacted your mission?
    Answer. The pending reprogramming will give ICE the ability to end 
fiscal year 2005 with at least the same, if not higher, level than 
fiscal year 2004. While ICE has been working through significant 
challenges during the past 2 years, at the same time, ICE has been 
achieving unparalleled success in its mission areas. During fiscal year 
2005, ICE will continue to work through its challenges and accomplish 
its critical mission.
    Question. Did you seek a supplemental to address the shortfall?
    Answer. The proposed reprogramming submitted on March 12, 2005, is 
sufficient to address the financial requirements of ICE.

      CONTAINER SECURITY INITIATIVE: EXPANSION AND REGULARIZATION

    Question. I have long been a supporter of the Container Security 
Initiative, or CSI. This program stations CBP personnel at 
participating foreign seaports to target and inspect ocean-going 
shipping containers prior to their being loaded on U.S.-bound vessels. 
While it was initially skeptical of the program, and reluctant to 
support the funds the Congress provided to begin its implementation, I 
am pleased that this Administration has embraced the CSI.
    The Administration seeks a modest increase of only $5.4 million for 
the CSI for a total fiscal year 2006 request of almost $139 million.
    During visits to some of these ports, my staff has been impressed 
with the generally cooperative relationships that have been formed 
between the CBP personnel and their host country counterparts. As they 
work together and develop increasing levels of trust, the mutually 
beneficial aspects of the CSI program to both our country and theirs 
become apparent. However, the one constant refrain we heard from both 
CBP and host-country officials was the fact that our people are 
generally sent over on a temporary basis. They are concerned that once 
the relationships have matured during the months that the CBP personnel 
are at a port, they are rotated out and the ``trust-building'' process 
must begin again.
    Could the effectiveness of the CSI be improved by resolving this 
temporary duty situation? What are you and the Department doing to 
ensure that CBP personnel based overseas for CSI implementation are 
able to stay at a port for a healthy period of time? Are there problems 
with our State Department representatives that need to be addressed? If 
so, has this been discussed by Secretary Chertoff with Secretary Rice?
    Answer. CBP is transitioning CSI temporary personnel to permanent 
status. This process requires DHS to coordinate with Department of 
State (DOS) as required by National Security Decision Directive 38 
(NSDD-38). DOS negotiates the placement of permanent personnel at 
foreign duty posts and also negotiates the appropriate level of 
Privileges and Immunities (P&I) that will be granted by the host 
government on behalf of all United States Government agencies.
    CBP is currently working with DOS to secure the placement of CSI 
personnel into a permanent status with the appropriate level of P&I. 
The DOS has placed a high level of priority on assisting CBP with this 
initiative.
    Question. Without naming any ports or countries, my staff has also 
heard that some participating ports are often very reluctant to 
cooperate with our requests for more robust inspection and screening of 
containers. If this is indeed the case, has consideration been given to 
lodging formal complaints with the host government--or even to 
suspending a specific port's participation in CSI?
    Answer. There are currently 35 operational CSI ports. The standard 
operating procedures for these CSI ports are in part governed by a 
jointly signed Declaration of Principles, in which the host government 
agrees to pre-screen containers that pose a risk for terrorism.
    It is also understood that due to host government sovereignty, the 
final decision on container examinations is at the discretion of the 
host government. However, CBP has authority to issue no load order for 
those who refused inspection.
    The CSI program has made significant progress in reaching agreement 
with host government agencies on what constitutes a high-risk container 
warranting an examination.
    Challenges still exist at one CSI location with regard to common 
and agreed upon definition/designation of high-risk containers 
warranting examination(s).
    CBP is confident that with the high percentage of CSI locations 
operating very effectively that continued progress will be made in this 
one location. CBP has, and continues to consult with State Department 
(including the U.S. Embassy in this location) to enhance the CSI 
operation.
    CBP has contemplated the alternatives and is receiving full support 
from all Departments and Agencies in making CSI efficient and 
effective.

          IMPACT OF LATE DUTY COLLECTION ON CRAWFISH INDUSTRY

    Question. As mentioned previously, in the past, U.S. industries 
like the U.S. crawfish industry have discovered only very late in the 
year that millions of dollars of antidumping duties for some reason 
have not been collected in their cases against Chinese imports as 
required by law. And, because CBP's failure to collect these duties has 
been discovered late in the year, the non-collection problem in these 
cases could not be addressed in time to enable the industries to obtain 
their yearly distribution of funds under the Byrd Amendment. As a 
consequence, the U.S. crawfish industry, for example, last year failed 
to receive at least $54.4 million it otherwise would have received in 
duties paid the United States Government by Chinese importers.
    It is my understanding that CBP's Office of Information Technology 
(OIT) is fully capable of running an already existing program much 
earlier in each calendar year, (meaning by the end of March at the 
latest), which would enable both CBP and U.S. industries to learn, much 
earlier, if millions of dollars in duties are not being collected by 
CBP from U.S. importers of foreign, dumped products.
    Why can't CBP's Office of information Technology determine by the 
end of this month if there are cases in which CBP is not collecting 
duties owed the United States Government and make that information 
publicly available as early as possible?
    Answer. CBP has responded to the revenue risk posed by the 
inability to collect certain AD/CVD duties through several means, one 
of which is the monitoring the AD/CVD bills and collections on a more 
regular basis. For the distribution of these funds to take place 
timely, it is necessary not only to monitor the timely collection of 
AD/CVD duties but also to ensure our revenue collection system is 
protected from possible circumvention and corporate solvency schemes 
designed to enter AD/CVD goods into the U.S. market with the intention 
of never paying the proper duties at time of liquidation.
    On a monthly basis, CBP is performing a risk-based review of 
outstanding bills for AD/CVD duties. The information has proven 
effective in identifying high-risk companies for AD/CVD evasion as well 
as improve the timeliness of our reviews. CBP is also focused on the 
long-term issue of the company's financial solvency and their ability 
to pay outstanding AD/CVD bills. The continuous bond guidelines for 
imports of certain agriculture/aquaculture imports were amended in July 
2004, to address just such an issue. Working with the Department of 
Commerce, we are addressing the AD/CVD issues that pose the greatest 
risk.

                 OVERTIME PAY WHILE RECEIVING TRAINING

    Question. I understand that since January 2, 2002, your bureau has 
not compensated CBP officers who train 6 days a week at the Federal Law 
Enforcement Training Center. In essence, this means that hundreds of 
newly trained CBP officers have had to work 6 days a week for up to 12 
weeks without any compensation for overtime.
    I support your ``One face at the Border'' initiative and 
acknowledge that the merging of certain legacy personnel into a new 
agency requires intensive training. But I think you would concur that 
this should not come at the expense of basic compensation for these 
professionals.
    How do you plan to correct the current overtime pay problem for 
these CBP officers who were trained between January 2002 and October 
2004?
    Answer. CBP is also concerned about equitable compensation for the 
employees who were engaged in training at the Federal Law Enforcement 
Training Center (FLETC) on a 6-day schedule. As you are aware, the 
Federal Law Enforcement Training Center (FLETC) determined that the 6-
day schedule was a necessity post-September 11 in order to accommodate 
the robust training needs of law enforcement personnel.
    The Government Employee Training Act prohibits the Federal agencies 
from compensating employees with overtime while its employees are 
engaged in training by, in or through government or non-government 
facilities (5 USC, 41). There are only a very few exceptions to this 
broad legislative prohibition, and the CBP has used these, where 
possible, to legally pay our employees so situated.
    Chief amongst these exceptions is a different set of regulations 
that applies to employees covered by the Fair Labor Standards Act 
(FLSA). Legacy INS inspectors, prior to conversion to the CBP Officer 
position and COPRA compensation, were covered by FLSA. We were 
therefore able to retroactively compensate them for the overtime worked 
on the 6 day during the FLETC training; these retroactive payments were 
made in December 2004. Because the agency determined that legacy 
Customs Inspectors were covered by COPRA and therefore exempt from 
FLSA, payment for the 6 day was not appropriate. The different outcomes 
regarding payment of overtime resulted from the fact that these groups 
of employees were covered by different laws at the time that the 
training occurred.
    The National Treasury Employees Union (NTEU) challenged the agency 
through arbitration concerning this issue, and the agency's legal 
interpretation was sustained by the arbitrator. This is a complex 
matter, and there is litigation still pending. It is also important to 
note that effective October 1, 2004, FLETC returned to a 5-day training 
week

                           CONTAINER SECURITY

    Question. In December 2004, the Department unveiled a draft cargo 
security strategy. This strategy stated that the Department proposes to 
adopt a ``zero-tolerance policy'' regarding the arrival of weapons of 
mass effect at our Nation's borders. I concur that preventing these 
weapons from entering the United States should be a priority. I always 
assumed that it was.
    The conference report accompanying the fiscal year 2005 Homeland 
Security Appropriations Act notes that over $200 million has been spent 
over the past 3 years on various projects designed to secure cargo 
containers entering this country. It also calls on the Under Secretary 
for Border and Transportation Security to--among other things--report 
to the Congress no later than February 8, 2005 on which DHS entity will 
have primary responsibility for cargo container security and the 
setting of shipping industry standards. To date we have not received 
this report. I assume your agency was closely involved in the drafting 
of this report.
    How closely were you involved in the drafting of the report and can 
you give us a sense of what it might recommend?
    Answer. In support of the Department's cargo security strategy 
proposal to adopt a ``zero-tolerance policy'' regarding the arrival of 
weapons of mass effect at our Nation's borders, CBP has deployed 
various types of radiation detection technology nationwide with the 
ultimate goal of screening 100 percent of containerized cargo for 
radiation.
    CBP has provided significant input to the draft report on Cargo 
Container Security, including information regarding the current status 
of major CBP initiatives addressing cargo security. In providing 
summary reporting, CBP outlined the desired end state; namely, securing 
and improving operations at existing ports; expanding operations to new 
critical international seaports and encouraging global efforts to 
enhance supply chain security.
    Question. Do you know when the Congress will receive the report 
which is now nearly 1 month overdue?
    Answer. The final report was submitted to the Committee on June 8, 
2005.

                      AMERICA'S SHIELD INITIATIVE

    Question. This Department seems obsessed with selling old wine in 
new bottles. The visa tracking program known for years as ``Entry-
Exit'' became ``US-VISIT''. The Office for Domestic Preparedness became 
the Office for State and Local Government Coordination and 
Preparedness. Now the Border Patrol's Integrated Surveillance 
Information System, or ISIS, has been ``re-branded'' as ``America's 
Shield Initiative''--or ASI. Regardless of the new names for these old 
programs, the fact remains that our borders need to be protected.
    America's Shield Initiative is supposed to implement the Border 
Patrol National Strategy to strengthen U.S. borders to prevent the 
entry into the United States of terrorists and terrorist weapons, 
smugglers and illegal aliens, narcotics and other contraband.
    Our borders are under attack. The President's own experts know and 
are extremely concerned about the threat terrorists pose to our 
borders. In written testimony before the Senate Intelligence Committee 
on February 16, Deputy Secretary Loy cited recently received 
information as the reason for his concern about the threat facing the 
Mexican border. He called it a ``very serious situation.''
    Given this threat, why does the request include only $20 million 
for improved technology on our borders, when CBP staff have estimated 
the full cost to be $250-300 million?
    Answer. The total funding for the ASI program in fiscal year 2006 
is $51 million, including $19.8 million for new investments. The fiscal 
year 2006 request for ASI when coupled with investments for additional 
Border Patrol Agents, helicopter replacements, enhancements to Border 
Patrol facilitates and tactical infrastructure will provide CBP with a 
complement of resources that will increase operational control of our 
Nation's borders.

                           IDENT/IAFIS UPDATE

    Question. The integration of the fingerprint databases created, 
maintained, and used by the Department of Homeland Security and the 
FBI--among other Federal agencies--continues to be a priority concern 
for the Congress and the members of this Subcommittee. It is critical 
that we know whether visitors to this country pose a risk to our 
citizens. As you know, the 9/11 hijackers came into the country on 
student and tourist visas.
    Your Border Patrol agents daily compare the fingerprints of illegal 
aliens apprehended at our borders against these databases. And it is 
your inspectors who--at a growing number of ports of entry--compare the 
fingerprints of visa holders and others wishing to enter this country 
against these same databases via the US-VISIT system.
    That is why I was concerned about the latest Department of Justice 
Inspector General report on this subject. It stated that of the 118,000 
visitors daily entering this country who are subject to US-VISIT, an 
average of about 22,350 individuals are referred for secondary 
inspection. According to DHS, by the end of this fiscal year, it 
expects to directly check only about 800 individuals each day against 
the full FBI fingerprint database known as the IAFIS Criminal Master 
File. This is less than 1 percent of the 118,000 daily visitors.
    Why are we checking less than 1 percent of visitors to this country 
against the FBI fingerprint data base?
    Answer. This response contains information considered Law 
Enforcement Sensitive and has been provided to the Committee under 
separate cover.
    Question. According to the Justice Inspector General report, the 
Justice Department will be increasing the FBI's capacity to handle 
fingerprint checks from 8,000 per day to 20,000 per day by October of 
this year. Will you be changing your policies so that CBP is fully 
utilizing that capacity to check the criminal backgrounds of visitors 
coming into this country?
    Answer. DHS and Department of State have found that IDENT achieves 
their counterterrorism, major law enforcement, and border management 
objectives in timeframes that meet operational needs for processing at 
ports of entry. Every day, DHS and DOS run checks on approximately 
115,000-120,000 individuals using IDENT. These checks are returned, on 
average, within 10 seconds at ports of entry for US-VISIT and within 15 
minutes for Department of State. Even if IAFIS increases its capacity 
to 20,000 fingerprint checks per day, it still cannot come close to the 
number of transactions currently generated by the US-VISIT program. 
Additionally, IAFIS returns results, on average, at best within 10 
minutes, most (such as those transmitted by State) within several 
hours. Currently, IAFIS does not have the capacity to meet our 
operational needs for inspecting visitors. However, we are continuing 
to work with the Department of Justice on finding ways to better 
integrate IAFIS with our existing systems, such as the successful 
integration at our Border Patrol stations.

                          COLLECTION OF DUTIES

    Question. Again, two of the problems that CBP has exhibited with 
respect to its administration of the Byrd Amendment are (1) Customs' 
failure to collect duties rightfully owed; and (2) its failure to pay 
duties already collected in a timely fashion to eligible U.S. companies 
and their workers.
    With respect to the second problem, Customs sometimes holds, in 
what are called ``clearing accounts,'' duties that are collected over 
many years--but for which the agency is awaiting final ``liquidation 
instructions'' from the Commerce Department prior to distribution. 
Often, the Commerce Department claims that such instructions have been 
sent, but CBP does not know they have been sent or never receives them.
    It has been proposed that one solution to this problem would be for 
CBP to publish the amount of funds held in CBP's clearing accounts, by 
administrative review period, so that CBP and Commerce can work 
together to determine which funds should have been liquidated and be 
available for distribution to eligible U.S. producers. CBP, in certain 
circumstances, has provided such information to Members of Congress 
upon request, but has refused to provide such information generally.
    Will you commit to identifying (i.e., publishing) the amount of 
funds held in clearing accounts by administrative review period?
    Answer. The CBP program is designed to generate a bill and collect 
the appropriate duties following the liquidation of each entry summary. 
However, importers are provided the opportunity to appeal these 
decisions, which may involve working with the Departments of Commerce 
and Justice to ultimately collect these AD/CVD duties. During this 
time, estimated duties collected on the entry summary are held pending 
the final liquidation and collection of these duties before they may be 
disbursed in accordance with the Continued Dumping Subsidy Offset Act.
    To ensure transactions are not inadvertently held and made 
available for disbursement, CBP initiated a plan to review and 
liquidate entries that may have been inadvertently held in clearing 
accounts. CBP provided extensive data to Commerce regarding entries by 
administrative review period that remain unliquidated. Feedback from 
Commerce on this analysis allowed CBP field offices to finalize 11,000 
old AD/CVD entries whose liquidation makes $12 million eligible for 
disbursement.
    This process also shed light on the cause of the backlog. Over two-
thirds of old unliquidated entries (10 years old or more) resulted from 
a weakness in communicating liquidation instructions from Commerce to 
CBP. In most instances, CBP is holding old AD/CVD entries with import 
scenarios not covered by any published Commerce instructions. This is 
particularly true where instructions are contingent on a complex mix of 
importer, exporter and/or producer. In fiscal year 2005, CBP is 
concentrating on the liquidation of all remaining AD/CVD entries 
entered prior to 1995 that remain suspended.
    We are committed to working closely with Commerce to ensure that 
CBP promptly receives and acts upon all liquidation instructions 
issued. This will enable CBP to act as promptly as possible to initiate 
liquidation of the affected entries. This could potentially include a 
case-by-case comparison of orders.
    Question. Will you commit similarly to identifying the reasons for 
the lack of liquidation in cases where liquidation has not occurred for 
more than 4 years, and provide specific information with respect to 
those cases showing the amounts that remain unliquidated accompanied by 
an explanation of CBP's understanding of why the amounts have not been 
liquidated?
    Answer. The antidumping and/or countervailing duty (AD/CVD) modules 
within the Automated Commercial System (ACS) do not provide information 
by administrative review periods; therefore, CBP cannot track entries 
this way. Although one module exists to track liquidation instructions 
by review period--the Department of Commerce (DOC), who has sole 
responsibility for the AD/CVD modules, has not consistently provided 
this information.
    A liquidation clean-up project was initiated by CBP in response to 
the Office of Inspector General (OIG) audit on CBP's implementation and 
management of the Continued Dumping Subsidy Offset Act (CDSOA). The OIG 
report expressed concern over CBP's unliquidated inventory of 1 million 
entries and states ``clearing up the liquidation backlog should be a 
priority given the substantial dollars involved.'' At present, CBP is 
holding an ``official'' inventory of 2.2 million suspended AD/CVD 
entries covering 593 cases. According to the AD/CVD duty module within 
ACS only 327 of those cases are current, the rest are either revoked 
(once open, but subsequently closed), terminated (investigated, but 
never issued), or in some stage of investigation (prior to a decision 
on issuance). CBP believes that many of these entries can be closed 
out.
    CBP provided extensive data to DOC regarding entries that remain 
unliquidated despite the fact that their associated AD/CVD cases were 
either terminated revoked or did not have instructions issued for a 
specific review period. Feedback from DOC on this analysis allowed CBP 
field offices to finalize 11,000 old AD/CVD entries whose liquidation 
makes $12 million eligible for disbursement pursuant to the Continued 
Dumping Offset Act of 2000.
    The liquidation clean-up project also shed light on the cause of 
the backlog. Over two-thirds of old unliquidated entries (10 years old 
or more) resulted from a breakdown in the liquidation instructions from 
DOC to CBP. In most instances, import specialists are holding old AD/
CVD entries with import scenarios not covered by any published DOC 
instructions. This is particularly true where instructions are 
contingent on a complex mix of importer, exporter and/or producer. In 
fiscal year 2005, CBP is concentrating on the liquidation of all 
remaining AD/CVD entries entered prior to 1995 that remain suspended. 
Another reason that monies remain in the ``clearing accounts'' and are 
unavailable for distribution via CDSOA are the number of protests on 
bills issued by CBP. Payment of a protested bill is deferred until the 
protest decision is rendered. Currently many protests of AD/CVD 
liquidations are suspended pending the final decision by the Federal 
Appeals Court on International Trade.

                       TRAINING OF CBP INSPECTORS

    Question. With the creation of the CBP Officer position along with 
the ``One Face at the Border Initiative'', how does the CBP plan to 
make sure that one front-line employee can essentially perform job 
functions that were previously done by 3 different inspectors? Does DHS 
plan to create specialty experts for various legacy Customs and INS 
disciplines, or will every officer have to know every detail of both 
Customs and INS laws for both the primary and secondary inspections at 
the border?
    Answer. We are working towards creating an agency-wide law 
enforcement and national security culture, establishing unified primary 
inspections at all United States ports of entry and conducting 
secondary inspections focused primarily on combating terrorism and the 
traditional missions inherited by Customs and Border Protection. To do 
this efficiently and effectively, we have built a comprehensive 
training plan to guide our efforts.
    A very stringent 20-day pre-academy and 73-day basic academy 
training curriculum has been developed for the new CBP Officer. This 
training gives them the foundation needed to work in the primary 
setting upon their return to the port, while also giving them a basic 
understanding of what occurs in the secondary environments. The 
ultimate goal is to train the new CBP Officer to not only be equally 
competent in all of the former, individual areas of responsibility, but 
also to be better able to meet the expanded mission priority of anti-
terrorism. Their Academy training is then followed by a rigorous 2-year 
on the job training program with approximately 40-45 weeks (depending 
on environment--air, land or sea) of structured training courses. They 
are given training in stages in order to absorb it and be afforded time 
on the job to perform the duties and become proficient.
    A comprehensive 37 module cross-training program has been built for 
those officers who previously performed an Agriculture, Customs or 
Immigration function at the ports. Training is being given to those 
officers on a ``just in time'' basis to perform the job they are being 
asked to do. Instead, CBP has created a curriculum that builds off of 
each previous module.
    CBP does have several courses which are considered to be advanced 
training and they would include those that involve analytical 
capabilities and the counter-terrorism response units in our secondary 
areas. CBP is currently exploring the possibility of having additional 
areas and courses designated as specialized training classes.
    Question. Explain how Customs cargo inspection expertise will not 
be lost in the transition to the new CBP officer position? Will the new 
CBP officer be required to thoroughly understand the massive harmonized 
tariff schedule for goods being imported into the United States as well 
as being responsible for thousands of pages that comprise the 400 
sections of Immigration and Nationality Act, hundreds of pages of INS 
Title 8 Federal Regulations and the full INS operations inspection 
manual?
    Answer. Currently, CBP's Office of Field Operations is developing, 
in conjunction with the Office of Training and Development, three 
separate Cargo cross-training modules for the air, land and sea 
environments. The primary recipients of this training will be the new 
CBP Officers and those legacy Immigration Officers new to the cargo 
environment. The training consists of both classroom instruction on 
cargo processing, and on-the-job cargo training under the supervision 
of an experienced CBP Officer. The training consists of reviewing bills 
of lading, processing all types of entries and conducting cargo 
examinations. Officers will receive this training on a ``just in time'' 
basis as they are assigned to cargo primary.
    The expertise on classification using the harmonized schedule still 
resides with the Import Specialists. CBP Officers are introduced to the 
harmonized schedule in some of our Customs Secondary training as well 
as the cargo courses described above. We teach a basic understanding of 
the tariff, how to locate items, and how to do a basic classification/
duty calculation. Final classification and duty calculations are done 
by the Import Specialist.
    It is expected that our training effort for the CBP Officer and CBP 
Agriculture Specialist will be conducted over the course of many years. 
CBP policy is that no officer may perform a function or a part of an 
assignment without having completed the appropriate training module, 
systems training and on the job training that are associated with those 
duties.
    Question. The Department's ``One Face at the Border Initiative'' 
merged over 18,000 inspectors from the Customs Service, Immigration and 
Naturalization Service (INS), and the Animal Plant Health Inspection 
Service (APHIS), into one front line inspector position. As you know, 
current legacy Customs, legacy INS and the new CBP officers carry 
weapons and have arrest authority but are NOT considered Federal law 
enforcement officers. With the demands of the Federal law enforcement 
officer having evolved over the last decade, do you not believe that 
including Federal personnel such as Customs and Border Protection 
Officers, who not only protect our border from illegal drugs and 
facilitate lawful trade, but must now defend against weapons of mass 
destruction and terrorism and the risks that come with these added job 
responsibilities, deserve the recognition and benefits that go with 
Federal Law Enforcement Officer (LEO) status?
    Answer. Customs and Border Protection (CBP) Officers are, in many 
important respects, law enforcement officers, because they have the 
responsibility for enforcing laws, making arrests, and performing a 
critical enforcement and security mission. However, the position does 
not meet the current statutory definition for coverage under the 
special retirement provisions, which requires the primary duties to be 
either investigations of crimes or the apprehension and detention of 
criminals or individuals suspected of criminal activity.
    Question. The final personnel regulations greatly reduce the 
circumstances where collective bargaining will occur for CBP employees. 
Can you please tell the committee why the regulations prohibit 
collective bargaining over basic conditions of work, such as employees' 
rotation between different shifts or posts of duty, or scheduling of 
days off, including even post-implementation expedited bargaining? It 
appears the current procedures for bargaining over basic workplace 
matters such as scheduling have not hampered the agency's homeland 
security missions in any way.
    Answer. The successful assignment and deployment of the right 
employees and technology at precisely the right time is critical to the 
accomplishment of CBP's primary mission of preventing terrorists and 
implements of terror from entering the United States through and 
between our ports of entry. As a result, CBP must be able to assign and 
deploy employees, and to introduce the latest security technologies 
without delay. To assist in the facilitation of this requirement, the 
final DHS regulations provide CBP the flexibility to meet operational 
needs in these areas without subjecting such managerial decision to 
protracted negotiations and third party review by individuals or 
organizations who may not have a full understanding of the complexities 
of CBP's anti-terrorism mission and operational requirements.
    However, in order to balance these operational requirements with 
the interests of employees, the final regulations do provide an 
important mechanism for CBP to consult with employee representatives 
regarding the exercise of these flexibilities. Specifically, CBP will 
continue to inform labor organizations of its policies and procedures 
in these areas, to meet and discuss their views, concerns and 
recommendations with regard to the procedures by which these management 
flexibilities are exercised, and to attempt to reach agreement on such 
procedures where possible. Furthermore, where CBP institutes 
significant changes during the life of a collective bargaining 
agreement affecting the working conditions of employees, the final 
regulations provide for negotiations with labor organizations in those 
cases where the change is foreseeable, substantial and significant in 
terms of impact and duration on the whole or significant portion of the 
bargaining unit.
    This new framework for interacting with its labor organizations 
will better support and facilitate the accomplishment of CBP's critical 
national security mission, while providing a viable and streamlined 
avenue for the expression and consideration of employee interests and 
concerns.

                      BORDER PATROL--APPREHENSIONS

    Question. On average for the current fiscal year, how many illegal 
aliens is the Border Patrol apprehending each week? Of those, how many 
are considered to be criminal aliens or who require mandatory detention 
bedspace? Of the non-criminal/non-mandatory aliens, what is the average 
length of their stay in the United States in Border Patrol custody 
prior to be being removed/expelled?
    Answer. The Border Patrol has apprehended 457,900 illegal aliens to 
date in fiscal year 2005 thru March 11, 2005, approximately 19,908 per 
week.
    Of the total apprehensions to date in fiscal year 2005, 6,171 were 
determined to be criminal aliens (which equates to about 268 per week). 
The number of mandatory detention varies widely. Often the determining 
factor whether aliens are detained or released on their own 
recognizance depends on available bed space. The Border Patrol would 
like to detain all criminal aliens and non-Mexican apprehensions, but 
currently this is not feasible. The Border Patrol does not detain any 
aliens beyond 72 hours. Most detainees are turned over to Immigration 
and Customs Enforcement/Detention and Removal Office (ICE/DRO) before 
72 hours. ICE/DRO has advised us that aliens detained for Expedited 
Removal are routinely held for 30+ days. Criminal aliens and those 
required deportation hearings are held from 75-100 days.

                  BORDER PATROL--STATIONING OF AGENTS

    Question. On average, how long does it take to identify, hire, 
perform a background/suitability check and train a new Border Patrol 
agent prior to their being posted on the border?
    Answer. Advance recruitment for entry-level Border Patrol agents is 
done on a regular basis in order to have a nationwide standing 
inventory of eligible candidates who already have passed the written 
and oral exams, completed pre-appointment requirements (including 
background investigation, medical screenings, etc.), and are ready for 
final selection. It generally takes 6 to 8 months following tentative 
selection for a candidate to be added to the hiring queue for job 
placement. A candidate's position in the hiring queue is based on the 
written test score plus any applicable veterans preference points.
    When the Office of Border Patrol (OBP) identifies specific 
positions and locations to be filled, offers are extended to candidates 
in the hiring queue, their starting dates are established, and their 
training is scheduled. This process generally takes 2 to 4 weeks. 
Within a few days of their hire, the trainees are detailed to the 
Border Patrol Academy in Artesia, New Mexico for 19 weeks of basic 
training. Upon completion of basic training, the agents are returned to 
their home duty stations as certified, credentialed and armed agents. 
Formal post-Academy training continues on the job through the remainder 
of the first year.
    Question. How many Border patrol agents are currently stationed on 
the Southwest and Northern Borders? How many agents were stationed on 
each border on September 11, 2001? Prior to 9/11, what was the average 
placement of BP agents per mile on the Southwest and Northern Borders? 
What are those numbers today?
    Answer. There are currently 10,525 Border patrol agents stationed 
on the Southern and Northern borders with 9,501 on the Southern border 
and 1,024 on the Northern border. There were 9,459 Border patrol agents 
on the border on September 11, 2001, with 9,124 on the Southern border 
and 335 on the Northern border.
    The number of agents on duty per mile varies widely based on risk 
assessments, traffic patterns, deployed technology in an area and 
staffing and personnel changes. For example, the evening and night 
shifts typically have a higher staffing level than the day shift since 
most illegal intrusion attempts occur during the hours of darkness. As 
a result of these variables there is no standard average for agents on 
the border at any given moment.

                             BORDER PATROL

    Question. Please provide the cost assumptions CBP would use 
regarding hiring the first year (fiscal year 2006) authorized level in 
the Intelligence Reform Act (2,000) for Border Patrol agents as well as 
the fiscal year 2007 annualization of those positions.
    Answer. The Intelligence Reform Act presents an ambitious and 
aggressive goal of doubling the size of the Border Patrol Agent cadre 
over 5 years. For fiscal year 2006, the Act authorizes an increase of 
almost 20 percent to the number of Agents now on-board. There are 
practical limitations to the number of Agents that the Border Patrol 
can efficiently and effectively absorb in a year. These limitations are 
the result of the existing Border Patrol infrastructure (including 
training facilities, Border Patrol stations, support personnel, 
communication systems and vehicle and equipment repair and maintenance 
facilities) and the numbers of agents that can be brought on annually 
without undermining the organizational cohesiveness needed for a law 
enforcement organization like the Border Patrol. Significant 
investments in the Border Patrol infrastructure are required as a 
prerequisite to, or at least concomitant with, the increase in the 
Agent cadre authorized by the Act.
    Assuming that the Border Patrol infrastructure receives 
corresponding budgetary increases, a $697.33 million would be required 
for fiscal year 2006 and $447.41 million will be required in fiscal 
year 2007. This includes to costs to effectively hire, train, equip and 
train each new border patrol agent. In addition, it includes costs for 
support personnel, infrastructure, relocations, and the IT support 
necessary to support such an increase.

                        WAR ON DRUGS--HISTORICAL

    Question. During the 1980s, there was a major focus on the ``War on 
Drugs'' on the Southwest Border. Additional resources were provided to 
the Border Patrol and then-Customs Service to engage in this fight. 
Please provide the total number of Border Patrol agents and Customs 
Service personnel (per year 1980-1990) as well as the number of those 
personnel in each agency who were dedicated to the Southwest Border.
    Answer. Shown below is a chart reflecting the number of Border 
Patrol agents and the number of those agents assigned to the southwest 
border.

                          BORDER PATROL AGENTS
------------------------------------------------------------------------
                   Fiscal year ending                       Nationwide
------------------------------------------------------------------------
1980....................................................           2,329
1981....................................................           2,240
1982....................................................           2,227
1983....................................................           2,339
1984....................................................           2,333
1985....................................................           3,023
1986....................................................           3,238
1987....................................................           3,180
1988....................................................           4,074
1989....................................................           3,857
1990....................................................           3,778
------------------------------------------------------------------------

    CBP does not have access to personnel data for the 1980-1990 
timeframe because the former U.S. Customs Service converted to the 
United States Department of Agriculture's Personnel System in 1992.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

              IMMIGRATION OFFICERS IN LOCAL USCIS OFFICES

    Question. Being able to talk to knowledgeable immigration officers 
in local USCIS offices is an important customer service, especially for 
elderly or illiterate USCIS customers. Although InfoPass provides a 
free, easy and convenient alternative to waiting in line, InfoPass has 
caused confusion for a number of Hawaii customers who were turned away 
at the local USCIS office because they did not know how to use 
InfoPass. The InfoPass program assumes that all immigrants are 
literate, have access to a computer, and are able to type on a computer 
keyboard. How is USCIS addressing this problem to enable access for 
elderly or illiterate customers with limited computer access and 
limited ability to use the Internet?
    Answer. USCIS encourages customers who need information about 
citizenship and immigration benefits and services to begin with our 
website, or call the toll-free customer service number. That is because 
many times they can get the information or assistance they need without 
having to make a trip to one of our offices.
    InfoPass is designed to let customers who do need in-person service 
make an appointment to reduce the time they may otherwise have to wait 
to be served once they arrive. USCIS prioritizes customers with 
appointments to try to ensure that they do not have to wait for 
service.
    However, we recognize that not all customers have access to the 
Internet. We do continue to offer very basic services, such as forms 
and standard materials, to customers who do not have an appointment. If 
it is determined that a customer needs a service that we provide by 
appointment, we will look to see if one is available that day. If not, 
and the customer indicates they simply do not have the Internet access 
to be able to make an appointment, we will help them make their 
appointment for another day.

                                LIFE ACT

    Question. I am aware that the Legal Immigration Family Equity Act 
(LIFE Act) was enacted into law in 2001 to reduce the separation of 
immediate family members of U.S. citizens who are waiting abroad for an 
immigrant visa. The CIS Service Centers were taking approximately 8-12 
months to process immediate relative (form I-130) visa petitions. The 
LIFE Act created a new K nonimmigrant category that allows a spouse or 
child of a U.S. citizen to enter as a nonimmigrant on a K-3/K-4 visa to 
reunite with her family, and then apply for lawful permanent residency 
while in the United States.
    A U.S. citizen can file a K (form I-129F) visa petition for a 
spouse or child with the National Benefits Center once he files an 
immediate relative (form I-130) visa petition and receives a notice of 
receipt from a Service Center. In most cases, the U.S. citizen 
petitioner files both the I-130 and I-129F, assuming that the I-129F 
will be processed faster, due to the USCIS' announced policy to 
implement the LIFE Act. However, petitioners are finding that the 
National Benefits Center is slow to adjudicate K visa petitions and is 
taking approximately 7 months. Currently, three of the four Service 
Centers are processing immediate relative (form I-130) visa petitions 
faster than the National Benefits Center is taking to process the I-
129F visa petitions (California Service Center=60 days; Vermont Service 
Center=3 months; Texas Service Center=6 months).
    The slowness of K-3 processing suggests that the K-3 program is not 
working as it was intended, which is to expeditiously reunite U.S. 
citizens with their spouses and minor children. Furthermore, U.S. 
citizens submitting K visa petitions waste valuable time and money 
($165 for each petition) when the program fails to provide them with 
the service and benefits that were intended by Congress. What steps are 
being taken to effectively implement the K visa program?
    Answer. USCIS recently made a processing decision that caused the 
situation that we are now facing with Immediate Relative visa petitions 
and the processing of spousal nonimmigrant visa petitions.
    In reviewing our relative visa petition process, USCIS decided that 
the Service Centers should focus their efforts on relative visa 
petitions submitted by U.S. Citizens. As a result of these efforts, the 
Service Centers have done an outstanding job and have decreased 
processing times for this type of relative visa petitions dramatically.
    At the same time, the National Benefits Center (NBC), which 
processes the K-3 visa petitions, has continued to process K-3 
nonimmigrant spousal cases as quickly as resources will allow. The NBC 
is currently in the process of acquiring more adjudicative staff to 
focus on this workload. In the short term, NBC will realign existing 
staff, including utilization of overtime funds, to reduce the pending 
workload and achieve currency.
    Lastly, it has come to the attention of USCIS that if an applicant 
has both an approved I-130 petition and an approved K-3 petition at the 
same time, some local State Department Consulate offices make the 
decision to give the I-130 petition more weight than the K-3 petition. 
This decision has an impact on the Affidavit of Support and Medical 
requirements the petitioner must meet before State will issue an 
immediate relative visa associated with the I-130. USCIS will work with 
the Department of State to review this situation and identify a remedy 
to ensure that both types of visa categories are processed effectively.

                      F2B PREFERENCE VISA PETITION

    Question. When a petitioner, who originally filed an F2B preference 
visa petition, becomes a naturalized U.S. citizen, his petition is 
automatically given F1 status. For those who file petitions for 
relatives in the Philippines, they are penalized by becoming citizens 
because their beneficiaries' waiting period is extended by several 
years.
    Section 6 of the Child Status Protection Act allows a petitioner to 
opt out of converting to F1 status. The bill was enacted into law 
several years ago, but those individuals who applied to opt out are 
still waiting for the Attorney General to implement Section 6. The 
National Visa Center has informed petitioners that there is no 
timeframe for when this review will be completed. Can you please 
comment as to when can we expect this issue to be resolved?
    Answer. USCIS is in the process of writing a regulation to codify 
the Act. We hope it will be published by this summer. In the interim, 
USCIS has issued a policy memo to provide guidance on adjudicating 
requests tendered pursuant to Section 6 of the CSPA.

                     1-800 CUSTOMER SERVICE NUMBERS

    Question. I have heard from number of comments by USCIS customers 
that when they dialed the 1-800 customer service numbers, they received 
misinformation that led to sometimes fatal errors in their immigration 
application, because the customer service person is reading a script 
but is otherwise inexperienced in immigration procedures. Please 
comment on this customer service problem.
    Answer. All contract customer service representatives must take a 
USCIS approved course, and pass a USCIS approved exam, before they can 
answer phone calls. The course and exam are designed to ensure that 
representatives have an understanding of the terms and language of 
immigration, and can find the appropriate materials to convey 
information or offer services to a caller, before they assist 
customers.
    USCIS' commitment to the accuracy and quality of the assistance we 
offer is reflected in the fact that we require contractors to monitor 
each representative randomly twice a day to measure their performance 
against a set of customer service standards. We also have an 
independent company monitor calls against those standards. USCIS also 
uses a secret shopper program to test and evaluate performance against 
a set of future benchmarks for where we want to be in terms of service 
provision, and each month conduct a random phone survey of callers to 
get feedback about their experience.
    However, as with any verbal interchange we recognize that customers 
may not recall in its entirety a precise explanation or conversation, 
may misunderstand an explanation, or that, for all our controls, a 
representative may not convey the correct or complete answer. We also 
understand that customers searching for information about citizenship 
and immigration benefits, which can lead to life changing events, and 
work to improve our process to ensure that we are giving them all the 
options and information. One of USCIS' goals is to give each customer 
more control over the process, and to give them broader direct access 
to the scripts and other materials which we have available. Thus, we 
plan to put all of the scripts that we use to answer customer questions 
on our website so that customers can do their own research, and can 
print the information to be able to review it rather than just hearing 
it explained to them. In fiscal year 2005, USCIS plans to release 
additional standardized fact sheets and brochures, again to give 
customers direct access and something they can take with them. We plan 
to make this information available on our website, and in addition will 
make them available at our local offices, by phone, and through 
community partners.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                       PORTS OF ENTRY IN VERMONT

    Question. I understand there are a number of ports of entry in 
Vermont that will be overhauled in the next 5 years. What is the 
current schedule for construction at the each of the major ports in 
Vermont? What, if any, requests has DHS made to GSA for planning or 
construction projects in Vermont? Of all the border crossings 
nationwide, what is the typical length of highway before the actual 
border that is deemed part of the port? How far along the highway do 
the longest 5 extend into the United States?
    Answer. CBP has requested GSA to consider the Ports of Entry at 
Derby Line (I-91), Richford, and Norton, Vermont for construction in 
fiscal year 2007. In addition, CBP has requested GSA to begin design in 
fiscal year 2007 for Richford (Route 139) and Beebe Plain, Vermont with 
construction to follow in fiscal year 2009.
    In regards to the typical distance between the land ports of entry 
(LPOE) and the international boundary, there are several key factors 
carefully considered to ensure the safe passage of traffic and the 
trade while maintaining safety for CBP Officers and the public.
    Key factors used to determine the LPOE location relative to the 
international border are:
  --Line of Sight.--An adequate line of sight (direction, slope, 
        elevation, and obstacles) must be maintained between 
        operational functions at the LPOE. The distance between the 
        LPOE and the international border should be minimized to ensure 
        that activity in the area is effectively observable.
  --Alignment of Vehicles.--The alignment of passenger vehicles and 
        commercial trucks preparing to enter through Radiation Portal 
        Monitors (RPM) and License Plate Readers (LPR) on the way to 
        the primary inspection booth is critical. The distance required 
        for safe vehicular alignment leading up to the LPR/RPM is 40 
        feet for passenger vehicles and 90 feet for commercial trucks.
  --Obstacles.--There should be no obstacles (buildings, vegetation) 
        located between the LPOE and the international border that 
        would impede the operational effectiveness of the port or 
        degrade safety and security for the CBP Officers and traveling 
        public.
    The vast majority of our LPOEs boundaries begin within 100 feet or 
less of the international border. We do have several locations where 
the distance is greater as a result of environmental wetlands or other 
considerations that precluded construction closer to the border. At one 
location in Minnesota we are planning to be approximately one-half mile 
from the border but will address security requirements through the use 
of video monitoring systems. It is standard CBP policy to maintain a 
clear line of sight between the operations within the LPOE and the 
international border to ensure that our officers monitor all traffic 
entering and departing the United States.

                       BORDER PATROL CHECKPOINTS

    Question. I have received many complaints and concerns from my 
constituents about the checkpoint that has been established on 
Interstate 91 in Vermont. One of my constituents, a naturalized citizen 
who lives in Vermont and works in New Hampshire, has been stopped 
repeatedly and questioned about his legal status. Other constituents 
have expressed concern that racial profiling is occurring at the 
checkpoint. (A) Is there anything you would be willing to do to prevent 
naturalized citizens from being stopped repeatedly at this checkpoint, 
such as offering a frequent traveler card? (B) What measures do your 
officers take to avoid racial profiling?
    Answer. Border Patrol traffic checkpoints are operated in 
accordance with the Constitution of the United States; governing 
judicial rulings; and the Immigration and Nationality Act, Section 
287(a) (8 U.S.C. Section 1357). The principal court case that affirmed 
Border Patrol authority to conduct traffic checkpoints was U.S. v. 
Martinez-Fuerte, 428 U.S. 543, 556 (1976).\1\
---------------------------------------------------------------------------
    \1\ Additional case law references: U.S. v. Gordo-Marin, 497 
F.Supp. 432 (S.D Fla. 1980), and U.S. v. Maxwell, 565 F.2d 596 (9th 
Cir. 1977).
---------------------------------------------------------------------------
    Border Patrol traffic checkpoints, such as the proposed permanent 
facility on Interstate 91, are a critical component of CBP's 
multilayered border security strategy. The Border Patrol maintains over 
50 such traffic checkpoints nationwide. Traffic checkpoints have been 
established to restrict the criminal elements' ability to use our 
highway system to further their entry into the United States. In 
addition, enforcement operations around the checkpoints target those 
attempting to avoid inspection by circumventing the checkpoints 
themselves, further enhancing homeland security. CBP has had 
discussions regarding the integration frequent traveler technology like 
NEXUS and PALS into the design of the permanent Interstate 91 
checkpoint to ensure that regular highway users are impacted to the 
minimum extent possible.
    The Border Patrol does not condone racial profiling, in fact during 
basic training Agents are instructed on how to perform their duties 
without profiling certain classes of people. Any and all allegations of 
racial profiling are taken seriously and are reported to the Office of 
Inspector General for investigation.

                     LAW ENFORCEMENT SUPPORT CENTER

    Question. In your testimony, you mention that the Law Enforcement 
Support Center's workload increased by 12 percent last year. A number 
of the employees who are making this increase in productivity possible 
are temporary employees who have worked for the LESC for up to 4 years, 
with the expectation they would have the opportunity to become 
permanent employees. What are your plans to convert these temporary 
employees to permanent positions?
    Answer. Law Enforcement Technicians (LETs) serving under term 
appointments have contributed significantly to the overall success of 
the ICE Law Enforcement Support Center (LESC). ICE recognizes that the 
workload of the LESC is a permanent one and shares the view that the 
staff should be permanent as well. It has been the practice of the LESC 
to convert term appointments to career appointments as permanent 
vacancies become available. It has also been the practice of the LESC 
to regularly extend term appointments up to their maximum duration. 
However, LESC term LETs are serving under term appointments that have a 
maximum duration of 4 years under Federal personnel rules and cannot be 
further extended. The majority of LETs serving under term appointments 
will not reach their 4-year limit until the spring and summer of 
calendar year 2006. Only one will reach the 4-year limit in calendar 
year 2005. The remainder will not reach their 4-year limit until 
calendar year 2007. As term appointments approach their expiration 
dates, ICE will explore all available options consistent with Federal 
personnel rules, budgetary considerations and good management to retain 
these valuable employees.

                         DEBT MANAGEMENT CENTER

    Question. The ICE Debt Management Center is an integral part of the 
financial stability of the bureau. Responsible for collecting debts 
owed to the agency, the center is an important part of balancing the 
books at ICE. Has the bureau wide hiring freeze affected the ability of 
this debt management center and all other financial offices perform 
their duties? Have you considered providing some flexibility from the 
hiring freeze for offices with financial responsibilities? As these 
offices loose individuals from normal attrition, it seems ironic that 
the offices with responsibilities to correct the financial situation
    Answer. As with all of ICE Financial Management operations, the 
Debt Management Center is committed to fully addressing all of its 
financial management responsibilities in a timely manner. If approved 
by Congress, the ICE reprogramming proposal will provide additional 
support to the Debt Management Center (DMC), and the DMC, along with 
ICE's Office of Financial Management is closely monitoring ongoing 
operations to ensure that essential and critical financial management 
requirements are completed in a timely manner.
    The ICE OFM has gone through a re-engineering process, finalized in 
December 2004. The re-engineering format allows the OFM to address 
audit and financial statement activities (abnormal balances, suspense, 
cash reconciliation, trading partners, reconciliation of unliquidated 
obligations, and analysis) as well as specific financial transactional 
activities for our customer base (Debt Management Center, Dallas 
Finance Center, financial system support of FFMS and Travel services).

                       LEGAL ORIENTATION PROGRAMS

    Question. I have supported and helped to obtain funding for Legal 
Orientation Programs for immigration detainees, with the view that the 
immigration system works better for all parties when detained aliens 
are informed as to whether they have a legitimate legal case to stay in 
the United States. Congress appropriated $1 million for orientation 
proceedings in fiscal year 2003, but DHS has still not transferred that 
money to the Executive Office for Immigration Review so the proceedings 
can take place. Can you tell me when that money will be transferred, 
and why it has taken so long?
    Answer. ICE has provided $3 million to the Executive Office of 
Immigration Review (EOIR) for the Legal Orientation Program covering 
services in fiscal year 2003 through fiscal year 2005. The funding was 
provided in increments of $1million at the following times:
    $1 million to EOIR in late July 2002 (fiscal year 2002).
    $1 million to EOIR in February 2004 (fiscal year 2004).
    $1 million to EOIR in February 2005 (fiscal year 2005).
    As indicated above, the first $1 million was issued very late in 
fiscal year 2002. EOIR used this fiscal year 2002 funding to award a 
contract for legal orientation program services that were provided 
throughout fiscal year 2003. EOIR continued to provide legal 
orientation services based on funding provided in February 2004, and 
currently provides legal orientation program services with an 
additional $1 million provided in February 2005. There have been no 
gaps in providing legal orientation program services because of lack of 
funding.

              CITIZENSHIP AND IMMIGRATION SERVICES FUNDING

    Question. The President's budget proposes a 50 percent cut in the 
amount of directly appropriated funds for the Bureau of Citizenship and 
Immigration Services (CIS), from $160 million to $80 million. Congress 
has already substantially cut the direct appropriations you receive. At 
the same time, the President has proposed a guest worker program that 
would significantly increase the CIS workload. (A) Why is the President 
proposing a 50 percent cut in an agency whose workload he wants to 
increase dramatically? (B) Are you at all concerned that a system of 
immigration services that is supported almost entirely by user fees--
including the expansion of ``premium processing'' fees paid to ensure 
faster processing--will be unfair to immigrants of lesser means?
    Answer. The fiscal year 2006 Budget includes $1.854 billion for 
USCIS ($80 million appropriated; $1.774 billion fees), an overall 
increase of $79 million, or 4 percent over the fiscal year 2005 level. 
The fiscal year 2006 Budget is the final year of the President's 5-year 
plan to achieve a 6-month cycle time standard for all immigration 
benefit applications, including a total of $100 million to support 
backlog elimination efforts as well as improvements in application 
processing. This would bring the 5-year total for this aggressive 
initiative to $560 million. Backlog elimination funds are reduced by a 
total of $80 million. $60 million associated with a one-time increase 
in the fiscal year 2005 USCIS budget, and $20 million for Digitization 
efforts appropriated by the Congress, but not specifically requested in 
the President's budget. The fiscal year 2006 Budget will allow USCIS to 
eliminate the backlog by the end of fiscal year 2006.
    USCIS is committed to meeting the President's backlog elimination 
goals. The key to processing temporary worker petitions quickly and 
efficiently is simplicity in the design. Establishing a program that 
involves a high degree of employer/government partnership, thorough 
background checks, and electronic registration and information sharing 
among participating Departments is critical. Based upon the legislation 
that Congress passes, USCIS will use fees to support applicant 
registration, processing and documentation.
    While Federal guidelines require full cost recovery of services 
provided, USCIS does have the ability to waive fees on a case-by-case 
basis. Any applicant or petitioner who has an ``inability to pay'' the 
fees may request a fee waiver. In determining ``inability to pay,'' 
USCIS officers will consider all factors, circumstances, and evidence 
supplied by the applicant including age, disability, household income, 
and qualification within the past 180 days for a Federal means-tested 
benefit.

                          SUBCOMMITTEE RECESS

    Senator Cochran. We are going to continue to review the 
budget request for fiscal year 2006 for the Department of 
Homeland Security. Our next hearing will be on Wednesday, March 
9, in Room 124 of the Dirksen Senate Office Building. At that 
time the Under Secretary for Emergency Preparedness and 
Response, Mr. Michael Brown, and the Acting Director of the 
Office of State and Local Government Coordination and 
Preparedness, Mr. Matt Meyer, will be here to discuss the 
budget request for the programs under their jurisdictions.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 12:23 p.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 20, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Domenici, Craig, Allard, Byrd, 
Leahy, Kohl, Murray, and Feinstein.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF MICHAEL CHERTOFF, SECRETARY

                OPENING STATEMENT OF SENATOR JUDD GREGG

    Senator Gregg. I call the hearing to order.
    Senator Byrd is the ranking member on this committee, and 
obviously on the full committee, and he will be here a little 
later. And when he arrives we will accord him the opportunity 
of making an opening statement if he should so wish.
    We appreciate Secretary Chertoff coming here today. He's 
just assumed one of the priority responsibilities in our 
government relative to the safety of Americans. He's given up 
an extremely important position to take this position on, and 
it reflects well on him and I think on this administration as 
somebody who has caliber and is willing to do this type of a 
job, and we appreciate it.
    However, the agency he takes over has some very serious 
problems, and this morning before this hearing I was just 
writing down--and I didn't do this with any staff assistance--
just off the top of my head, the problems that I've seen and 
been reported to me over my brief tenure as chairman of this 
committee, they include things like the border patrol, the fact 
that our borders are not effectively protected anymore, that 
they are not--we have virtually no security along our borders, 
that people are pouring over the borders illegally.
    It's gotten so bad that in Arizona citizen groups are now 
seeking to enforce the borders, which obviously is not good, 
that the border patrol training capabilities are not up to what 
the Congress asked them to be. We asked for 200 agents a year 
to be trained. Maybe they can do 400, 500, if they are 
fortunate. They cannot find people. They cannot hire them.

                              IMMIGRATION

    In the area of immigration, this is an agency which has had 
a very long history of very significant management issues. Back 
when I chaired the Subcommittee on Commerce, State, and Justice 
before this Department was moved over to DHS; the Department 
had a lot of problems.
    Even under the prior administration, the problems were 
significant and they have continued in the area of management. 
I don't think any member of Congress receives complaints about 
any agency with more consistency than about the immigration 
issues that we get.

                               IT ISSUES

    We have got the issues of IT. The inability of the 
fingerprint capability at the borders to communicate 
effectively and in real-time with the database of the FBI. 
IDENT is not integrated into IAFIS.
    We have the US VISIT program, which I have serious 
reservations about whether it is going where it is supposed to 
be going as a technology capability.

                                  TSA

    We have the TSA. It has become almost a weekly event now 
that there is some report that comes out about the TSA's 
failures in a variety of areas, from waste and fraud in the 
most recent IG report relative to the construction of its 
facilities for its headquarters to an internal investigation 
which I guess concluded that weapons and contraband were still 
going through the airports with regularity, which was totally 
unacceptable, to what I consider to be an inexcusable situation 
of a large amount of theft being reported from passengers in 
this country.
    The fact that an agency of the Federal Government would 
have thousands upon thousands of reported thefts occurring by 
Federal employees against American citizens makes us look like 
a third-world country. And it still goes on.
    Workman Compensation claims are outrageous. And I think 
anybody who goes through airport security has to ask 
themselves, at least occasionally when going through airport 
security, is this really having an effect on security or is 
this simply mindless when you see some of the actions taken by 
the TSA.

                              INTELLIGENCE

    The intelligence issue, the agency has ceded intelligence 
over to other agencies when originally it was supposed to be 
the center of basically coordinating of intelligence. And now 
we see that the intelligence decisions are being made outside 
the agency by a conscious decision. And maybe it was the right 
decision, but essentially the IAIP has been raided the last 2 
years from its resources to do other things. And I view 
intelligence as probably the essence of whether or not we win 
this war.
    This is not a war about reacting to events. It is a war 
about getting to those events before they occur. And that 
involves intelligence.

                           PERSONNEL CONCERNS

    The personnel issues, the senior management turnover is 
extraordinary. The number of people in an acting position is 
unacceptable and the number of positions which are unfilled at 
senior management levels is unacceptable.

                ELECTRONIC SURVEILLANCE ALONG THE BORDER

    The electronic surveillance capability along the border is 
non-existent right now from all I can tell. There has been a 
total breakdown in the camera structures; and the unmanned 
vehicle program has basically been stopped, even though it was 
proving very successful.

                             OTHER CONCERNS

    Contingent to the agency's responsibility is the issue of 
protecting us against a biological or chemical attack. And 
granted, the HHS has priority here, but the Department has a 
very significant role in making sure that HHS is successful. 
And it is very obvious that in the area of vaccines, Bioshield 
has not produced the results it should have produced, and that 
we have not created a robust vaccine capability in this country 
against very significant disease issues, specifically anthrax, 
botulism, plague, and small pox.
    Container ships, we all know we are not getting anywhere 
near the scrutiny on the container ships. If we look at the 
agency objectively, just on that list you have to say that were 
this agency admitted to an emergency room, it would be 
considered to be in extreme distress.
    The fact is we have not been attacked. And credit on that 
goes to the Department, and I give them credit for that. But 
the fact also is there are very serious, serious problems, 
especially on what I consider to be the three core elements of 
the Homeland Security portfolio, which is protecting us from 
weapons of mass destruction attack, protecting our borders, and 
making sure that they are under control, and making sure that 
we have adequate intelligence capability.
    So the problems exist now. You did not create them, Mr. 
Secretary. They did not come on your watch. You have just 
arrived. I congratulate you for setting up a Department-wide 
review of what is going on and trying to figure out how to 
correct it. But they exist and we have to get our arms around 
them.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The budget that has been sent up by this Administration 
presumes that the Congress will pass a significant increase on 
the fees of people who are flying. I do not think you are going 
to see this Congress accomplish that. Certainly, the chairman 
of the Commerce Committee here in the Senate has been more than 
vociferous in opposition to that proposal, and that is his 
authorizing committee, although this appropriating committee 
will play a role.
    But if you take that number out, the budget that was sent 
up is well over a billion dollars less than last year's budget 
to operate this Department. If you put that number in, and 
giving you the benefit of the doubt that we are going to raise 
the fees on travelers in this country by dramatic amounts, even 
though the stated amount is that the budget is up by 7 percent, 
our estimate is that the budget is up by about a $100 million.
    Now it may not be that money solves this problem. In fact, 
I do not think it does. I think a lot of this is an issue of 
management and structure. But we know, for example, in the area 
of border patrol that getting more bodies on the border is 
critical, and that is going to cost money. And there are other 
areas where we know money may make a difference, for example, 
backlogs.
    So I am not sure the budget that has been sent up is 
reflective of the urgency of the problem that this Department 
has relative to different functions that in my opinion are in 
distress.
    So I hate to start this hearing off with a dark cloud, but 
I think honesty is required, and these are not reports which I 
have manufactured. They are restatements of public information.
    So with that, again, I want to emphasize that I feel that 
we are extremely fortunate that you have been willing to take 
this job on. But I think you have been dealt a hand that is 
difficult to play, and I am looking forward to working with you 
to try to improve that hand. And that is the purpose of this 
committee, to constructively work with you to give you the 
resources you need to accomplish the improvements so that a 
year from now we do not have this long list of concerns. With 
that, we will listen to your thoughts.

                     STATEMENT OF MICHAEL CHERTOFF

    Secretary Chertoff. Well, thank you, Mr. Chairman. And 
thank you for welcoming me to this first appearance for this 
subcommittee, which I am looking forward to working with as we 
go forward to improve our performance and make sure we are on 
the right track to, as you point out, protecting the American 
people, and protecting our infrastructure. And then if worse 
comes to worse, appropriately responding.
    If I may, I would like to ask that the subcommittee receive 
my full statement for the record.
    Senator Gregg. Of course.
    Secretary Chertoff. I am going to be very brief so that I 
can be available to answer questions. Let me try in just a 
couple of moments to give you at high altitude the approach 
that I think we are taking in this review we have got going, 
and also in terms of our moving forward with the Department.
    Quite obviously, in creating the Department, Congress 
wanted to do more than assemble 22 organizations in a tent. We 
wanted to create a single organization that could achieve 
outcomes that are important in terms of enhancing our national 
security. So one of the critical tasks I think I have as I 
begin my tenure at the Department is to see what we need to do 
in order to further the process of integration.
    I completely agree that means intelligence, which is the 
driving guide to what we do all across the board. And we need 
to make sure we are appropriately collecting and fusing the 
intelligence we have available within the Department, and then 
contributing that to the community at large and consuming what 
the community has, and operationalizing that.
    So we are looking to enhance our ability across the 
Department to combine our intelligence, combine our operations, 
and combine our policymaking. So we have a Department-wide 
approach to these things.
    Second, as part of the review we are undertaking, I really 
want to be focused on outcome, and to kind of boil the jargon 
away. The example I have given to people when I try to explain 
what I mean, if my car is not running and I take it into the 
shop, and the electrician and the guy who does the transmission 
and everybody else takes a whack at it, and I come in at the 
end of the day to pick the car up, and everybody says, wow, you 
know, we have each done our process exactly right, but the car 
does not run, I do not consider myself a satisfied customer.
    I am concerned about the outcome. I want a car that runs. 
And that is true here, too. We want a Department that produces 
the outcomes we care about, and we ought to focus on how we do 
that without regard to everybody's individual stove pipes. And 
then the alignment of the stove pipes and the alignment of the 
organizations and the operations has to be what fits with 
getting the outcomes.
    The third piece is, we do want to use this risk-management 
philosophy. I think you pointed out, Mr. Chairman, in your 
statement, there are a lot of important things, but there are 
some things that are the highest priority. WMD is one example. 
And we have to be disciplined, since we are talking about a 
long-term issue with terrorism and threat, about identifying 
the priorities and figuring out how we go about optimally 
taking what are obviously finite resources and getting them to 
where they have to be. And so that risk management approach is 
going to be our guiding philosophy.
    We are not interested in the Department of Homeland 
Security as simply an opportunity for people to, you know, raid 
the pots of money. We are interested in making sure that we get 
the money and everything we do over our deployment and our 
operations in a risk management, focused manner.

                           PREPARED STATEMENT

    So with these kind of general observations, again, I am 
delighted to work with the subcommittee. I know it is a very 
challenging position, but I know there is a tremendous amount 
of support with the American public to getting this job done 
right. And that is what I am going to do my level best to do, 
and I look forward to answering questions.
    Senator Gregg. Thank you. Thank you, Mr. Secretary.
    [The statement follows:]

                 Prepared Statement of Michael Chertoff

                              INTRODUCTION

    Mr. Chairman, Senator Byrd, and Members of the Subcommittee: Thank 
you for the opportunity to address you today, and for your ongoing 
support of the Department of Homeland Security's efforts to keep 
America secure and free. I am honored and pleased to appear before the 
Senate Appropriations Committee, Subcommittee on Homeland Security. 
This is my first appearance before this Subcommittee, and I look 
forward to a productive exchange as the Department begins to reassess 
and readjust priorities and policies in accordance with the changing 
threat of terrorism over three and a half years after the September 11, 
2001 attacks.
    For more than 2 years now, the Department of Homeland Security has 
led a national effort to protect our country and our citizens from all 
manner of threats. It has been an honor to join the dedicated men and 
women who carry out this task daily. Ours is a difficult mission--to 
prevent another deadly and catastrophic terrorist attack such as the 
one we experienced on September 11, and if an attack occurs, to respond 
quickly and prevent further damage.
    The 180,000-plus people of the Department carry out this mission 
with unflinching resolve and a driving determination that such an 
attack should never occur on American soil again. Realizing that we can 
make no guarantees, we pursue our mission with a sense of urgency and 
daily diligence, so that this Nation can respond and recover quickly, 
should an incident or attack occur.
    Since its establishment just over 2 years ago, DHS has made great 
strides in its efforts to unify the defense of our homeland. We have 
continued to integrate 22 distinct agencies and bureaus, each with its 
own employees, mission and culture.
    But our security requires even greater coordination and effort 
throughout the Department, across all levels of government, and 
throughout our Nation to create synergy and new capabilities. It 
requires an unwillingness to accept complacency as part of anything we 
do; rather, we know we must apply all effort to tear down stove-pipes 
and coordinate key intelligence, policy, and operational issues across 
DHS and the government.

                          SECOND STAGE REVIEW

    I have therefore initiated a comprehensive review of the 
organization, operations and policies of the Department as a whole. 
This comprehensive review will examine what we are doing and what we 
need to do without regard to component structures and programmatic 
categories.
    We want to understand better what's working and what isn't. We will 
be evaluating every element of our working mission and making sure that 
the Department is best organized to meet the threats--both current and 
future--that face our Nation.
    Old categories, old jurisdictions, old turf will not define our 
objectives or the measure of our achievements because bureaucratic 
structures and categories exist to serve our mission, not to drive it.
    Deputy Secretary Michael Jackson has been charged with overseeing 
this process. The goal of the review is to help me make informed 
decisions as I lead the Department. Deputy Secretary Jackson has 
selected a team of Department officials to look at a number of critical 
cross-cutting issues and determine how departmental resources and 
programs can be most effectively applied to achieve our security goals. 
I have asked them to get back to me by Memorial Day with the bulk of 
their recommendations. I intend to study and act on their 
recommendations.
    What will the review cover? Take an issue such as maritime cargo 
security, which cuts across several departmental components. Customs 
and Border Protection, Coast Guard, Science and Technology, and 
Information Analysis and Infrastructure Protection each address aspects 
of this overall mission. Each might perform its element well, but we 
must go further to ensure that each is performing seamlessly and in 
coordination with the others, that we eliminate any duplication of 
effort, and that we reap the full strength of our wide spectrum of 
capabilities.
    Of course, in executing the initial phase of putting the Department 
together and integrating the different components into a working 
structure, my predecessor and the men and women of Homeland Security 
did a tremendous job. They should be commended.
    Now, as we enter into the second phase of the Department's life, we 
must also take a fresh, creative look at the Department itself--
including its organization, its operations, and its policies. We are 
not yet fully integrated and our entities are still not always 
coordinated with each other. Now the challenge is to take the advantage 
of 2 years' experience and evaluate the Department to see if there are 
potential structural and operational changes that will improve and 
enhance our capabilities to protect and safeguard this Nation.

                CROSS-CUTTING FUNCTIONS AND INTEGRATION

    On the most basic level, we need to take a step back and focus on 
the fundamental question: Why was the Department of Homeland Security 
created? It was not created merely to bring together different agencies 
under a single tent. It was created to enable these agencies to secure 
the homeland through joint, coordinated action. Our challenge is to 
realize that goal to the greatest extent possible.
    Let me tell you about three areas where I plan to focus our efforts 
to achieve that goal. First, we need to operate under a common picture 
of the threats that we are facing. Second, we need to respond actively 
to these threats with the appropriate policies. Third, we need to 
execute our various component operations in a unified manner so that 
when we assess the intelligence and we have decided upon the proper 
policies, we can carry out our mission in a way that is coordinated 
across the board.
    My intent is to integrate each of these three areas--intelligence, 
policy, and operations--across the Department, so that each is directed 
from the most senior level of the Department.
    Let me turn to intelligence. Intelligence plays a pivotal role in 
mapping our mission. When the Department was created, 22 separate and 
distinct entities were woven together, a number of which had components 
focused on intelligence-gathering and analysis. One of my top 
priorities is to make sure that these various intelligence components 
function as a cohesive unit, and that our information and analysis is 
coordinated across the Department so that DHS, as a full member, can 
enhance its contribution to the Intelligence Community.
    First, we must organize and combine all intelligence within DHS. To 
do this effectively, we must ensure that our own intelligence 
components are interoperable. The Department has already made progress 
in this area. For example, the Homeland Security Operations Center was 
stood up to help the Department develop a common operating picture and 
facilitate information sharing.
    We must make sure that we are gathering all relevant information 
from the field, communicating with each other, and approaching analysis 
with a mission-oriented focus. We must ask, for example, whether those 
who evaluate the border from the Customs and Border Protection 
perspective are learning from analysts in the U.S. Coast Guard. They 
each look at border security, but from different vantage points. Only 
if they are working together can they fill in key gaps, paint a 
realistic picture, and evaluate all of the different pieces of 
information and intelligence that they are each gathering. We have to 
maximize the fact that all of these components now exist under the same 
umbrella.
    Second, we must make sure that information is being disseminated 
both up and down the ranks of the Department. Strong and effective 
coordination does not just mean that our analysts at DHS headquarters 
are working together. We need to fuse and exploit all the information 
that we learn across the country, so that when a Border Patrol agent in 
Texas learns of a new alien smuggling method, that information is fed 
up to our intelligence analysts, incorporated where appropriate into 
our strategy to combat smuggling, and disseminated across the 
Department to others focused on the same problem. We must build a 
culture in which the disparate pieces of information are being 
transmitted to our analysts so that they, who have the benefit of the 
fuller picture, can properly analyze all of our information and inform 
our decision-making.
    The converse must be true when our intelligence analysts learn of 
new vulnerabilities that terrorists are trying to exploit. That same 
agent in Texas needs to know, on a timely basis, of the threat and what 
he should be looking out for. We have a great many talented individuals 
at the Department. Some gather and analyze intelligence. Others learn 
critical information as they are in the field performing their jobs. 
The opportunities are endless. DHS needs to bring all of these nuggets 
of information together and disseminate them appropriately. We need to 
have the structure and the correct systems and technologies in place to 
take full advantage of them.
    Third, our focus must extend beyond the Department itself. We must 
review and make use of intelligence coming from the Intelligence 
Community and we must play an active role in providing intelligence 
information to the Intelligence Community. As the WMD Commission made 
clear in its report 2 weeks ago, sharing information across the Federal 
Government is critical if we are to succeed. To that end, I am 
committed to making sure that our law enforcement and intelligence 
partners across the Federal Government have appropriate access to the 
Department's information and analysis, to the maximum extent possible 
under the law, while protecting the privacy rights and civil liberties 
of Americans. By the same token, we must sit as full partners at the 
table with full access to others in the Intelligence Community. We must 
work in concert with the Intelligence Community. I will work closely 
with the Director of National Intelligence, whose job it will be to 
make sure that the Intelligence Community is well-coordinated and 
mission-focused.
    In addition, intelligence and information from other Federal 
agencies is critical to our efforts to secure the homeland. The 
development of the terrorism information sharing environment, as called 
for under the Intelligence Reform and Terrorism Prevention Act, will 
connect the resources (people, systems, databases, and information) of 
Federal, State, and local governments, and the private sector allowing 
users to share information and improve collaboration.
    Finally, we must inform and communicate with our State, local, 
tribal entities, and private sector partners. As I observed just last 
week during TOPOFF, when it comes to securing the Nation, we must 
ensure that these entities are well-equipped both to react to crisis 
and to prevent it. As part of this effort, we must improve our ability 
to operationalize intelligence. As information comes in, we need to 
make sure it is getting out to the right people and in a way that they 
can use to strengthen their efforts and contribute effectively to ours. 
Intelligence in a vacuum is meaningless. We need to explain how our 
outside partners can counter that threat and what we need them to do to 
watch out for it.
    Now, let me address policy development. Development and 
coordination of policy are major responsibilities of this Department. 
The Department has the central mission of securing the homeland, but 
there are many different aspects of that mission with numerous 
contributors. Large elements of DHS include traditional operational 
functions in which we deploy personnel, equipment, planes, ships and 
vehicles. But other elements principally involve planning and rule 
making, and networking with State, local, and tribal entities, and 
private parties. All of these must serve and promote our homeland 
security imperatives.
    Therefore, we need to further enhance our capability to think 
through broad and overarching issues like border security, emergency 
preparedness, transportation security, and cargo security, with a 
Department-wide perspective, rather than just through the lenses of one 
particular component. We need to develop our policies by first looking 
at our missions and asking the comprehensive, result-oriented 
questions, rather than by looking to one particular entity that has the 
lead in driving an issue to conclusion.
    Accordingly, I believe that we should pull together the vast 
expertise and the varying perspectives already at the Department as we 
work toward integrating our many crosscutting functions. For this 
reason, one of the areas that we are closely studying in the Second 
Stage Review is the advisability of creating a department-wide, 
substantial policy office. This office will also be a very important 
focal point for coordinating DHS's policy work with other Federal, 
State, local, and tribal entities.
    Finally, let me discuss operational coordination. Just as with 
intelligence and policy, we need to find new ways to increase our 
operational coordination. Diverse operational components were woven 
together when Congress stood up the Department, each with its own 
history and identity. As I have become acquainted with these various 
components, I have quickly learned that there is a great deal of talent 
within them. Each entity has its own unique focus, but often they 
address the same mission from differing perspectives. But we cannot 
function as a cohesive unit, unless each operational component works 
together in combination to promote common missions.
    This means that our operations must be driven by mission-oriented 
plans. It can no longer be the case that different components tackle 
different problems each in its own way and then later look to see if 
the pieces fit together. Whether it is preventing a potential act of 
terrorism, emergency preparedness, border protection, or countering a 
particular threat, we must first define the mission and second deploy 
all the tools within the Department to effectively execute each 
operation.
    The Department has already begun this process. To take but one 
example, on the Arizona border, we have a cross-cutting initiative to 
protect the border, integrating intelligence gathering, border 
enforcement, and monitoring. It encompasses the efforts of several of 
our agencies, including Customs and Border Protection, Immigration and 
Customs Enforcement, Science and Technology, the Coast Guard, and 
Information Analysis and Infrastructure Protection. Each plays an 
integral role. The operations themselves involve patrolling the border, 
generating information, and using it to take enforcement actions. The 
genius of the Department of Homeland Security is that we have the 
capability within one department to do all of these things. But we need 
to carry out joint operational activities and have a joint perspective 
on a routine basis, not only when we stand up a special project.
    Operations are also the mechanisms by which we respond to crisis. 
We cannot wait for a crisis, however, to learn, for example, whether 
TSA has the capability to communicate effectively and coordinate with 
FEMA. Nor can we learn in crisis that both are conducting the same 
operations or sending different messages to the private sector. The 
Department has made significant progress in this area. For example, it 
developed the National Response Plan to more effectively map out how to 
handle crisis situations. Now is the time to organize around missions 
rather than old bureaucracies, work through all of these potential 
disconnects in our systems, and operate as one unified Department. But 
integrating ourselves cohesively is not enough.

                          RISK-BASED APPROACH

    I have been saying, and you will continue to hear me say, that we 
need to adopt a riskbased approach in both our operations and our 
philosophy. America is dynamic. Our strength as Americans is the sum of 
every generation that has ever been born in or immigrated to this great 
land. Our wealth and livelihoods are advanced by the inspired ideas and 
innovation of our own people. We prosper through the vast opportunities 
that exist to interact with the global economic community.
    Risk management is fundamental to managing the threat, while 
retaining our quality of life and living in freedom. Risk management 
must guide our decision-making as we examine how we can best organize 
to prevent, respond and recover from an attack. We need to be realistic 
in our prioritization. We must assess the full spectrum of threats and 
vulnerabilities.
    We all live with a certain amount of risk. That means that we 
tolerate that something bad can happen; we adjust our lives based on 
probability; and we take reasonable precautions. So, too, we must 
manage risk at the homeland security level. That means developing plans 
and allocating resources in a way that balances security and freedom 
when calculating risks and implementing protections.
    The most effective way, I believe, to apply this risk-based 
approach is by using the trio of threat, vulnerability, and consequence 
as a general model for assessing risk and deciding on the protective 
measures we undertake.
    Here I inject a note of caution because the media and the public 
often focus principally on threats. Threats are important, but they 
should not be automatic instigators of action. A terrorist attack on 
the two-lane bridge down the street from my house is bad but has a 
relatively low consequence compared, to an attack on a major 
metropolitan multi-lane bridge. At the other end of the spectrum, even 
a remote threat to detonate a nuclear bomb is a high-level priority 
because of the catastrophic effect.
    Each threat must be weighed, therefore, along with consequence and 
vulnerabilities. As consequence increases, we respond according to the 
nature and credibility of the threat and any existing state of 
vulnerabilities. Our strategy is, in essence, to manage risk in terms 
of these three variables--threat, vulnerability, consequence. We seek 
to prioritize according to these variables . . . to fashion a series of 
preventive and protective steps that increase security at multiple 
levels. We must examine the mission and work of all elements of DHS 
through this template of consequence, vulnerability and threat. Have we 
fully defined our missions? How far have we gone in carrying them out? 
What more needs to be done?
    The Department is already working with State, local, and private 
sector partners to further refine the Interim National Preparedness 
Goal to aid the targeting of resources to where the risk is greatest. 
There is much that we are doing. DHS agencies, for example, have 
provided unprecedented level of funding and resources since 9/11 to 
State, local and private sector partners to protect and prepare 
America's communities and individual citizens. We continue to improve 
the ways for first responders across the Nation to be better equipped, 
better trained and more capable of communicating across the public 
safety community. But we must bring even greater focus and discipline 
to our preparedness mission. We need to take a very substantive look at 
how we align our preparedness activities and functions. We need to look 
at how best to configure our organizations, operations, programs and 
policies so that we can think strategically about preparedness.
    What should drive our intelligence, policies, operations, and 
preparedness plans and the way we are organized is the strategic matrix 
of threat, vulnerability and consequence. And so, we'll be looking at 
everything through that prism and adjusting structure, operations and 
policies to execute this strategy.

                    FISCAL YEAR 2005 ACCOMPLISHMENTS

    Before beginning to outline the major themes of the Department's 
fiscal year 2006 Budget request, I would like to highlight a few of the 
Department's accomplishments over the past year, including the 
following:
  --The Department established ``the One-Stop-Shop'' for first 
        responder grants which allows a single point of entry to the 
        Federal Government for homeland security preparedness 
        resources.
  --DHS has provided unprecedented levels of funding and resources to 
        State, local and private sector partners to protect and prepare 
        America's communities and individual citizens. We continue to 
        improve ways for first responders across the Nation to be 
        better equipped, better trained and more capable of 
        communicating across the public safety community.
  --U.S. Citizenship & Immigration Services (USCIS) is on track to 
        eliminate the backlog of immigration benefit applications by 
        the end of fiscal year 2006. In fiscal year 2004, the agency 
        increased productivity by 21 percent and successfully reduced 
        the backlog to 1.3 million cases--down from a high of 3.8 
        million cases in January 2004.
  --United States-Visitor and Immigrant Status Indicator Technology (US 
        VISIT) was successfully implemented at 115 U.S. international 
        airports and 14 seaports and immediately demonstrated results 
        by preventing individuals with criminal records and immigration 
        violations from entering the United States. In addition, US 
        VISIT successfully deployed initial capability to the 50 
        busiest land border ports of entry in December 2004 and was 
        also deployed at pre-clearance airports in Canada, Bermuda, the 
        Caribbean and Guam.
  --The U.S. Coast Guard (USCG) developed, reviewed, and approved 9,000 
        domestic vessel security plans; 3,200 domestic facility plans; 
        48 Area Maritime Security Plans and Committees; and verified 
        security plan implementation on 8,100 foreign vessels.
  --USCG interdicted nearly 11,000 undocumented migrants attempting to 
        enter the country illegally by sea, saved the lives of nearly 
        5,500 mariners in distress and responded to more than 32,000 
        calls for rescue assistance.
  --Counterdrug efforts remain a top priority for the Department. With 
        the passage of the December 2004 Intelligence and Reform Bill, 
        the Department's Office of Counternarcotics Enforcement is 
        heavily invested in ensuring counterdrug operations and policy 
        are synchronized across the Department, and that our components 
        are adequately resourced to perform their counterdrug mission. 
        In fiscal year 2004, the Coast Guard, Immigration and Customs 
        Enforcement, and Customs and Border Protection collectively 
        kept 489,870 pounds of cocaine from reaching the streets of our 
        Nation.
  --In support of Operation Iraqi Freedom the USCG protected, safely 
        secured, and escorted to sea over 200 military sealift 
        departures at ten different major U.S. seaports, carrying over 
        25 million square feet of indispensable cargo.
  --The Homeland Security Operations Center (HSOC) Homeland Security 
        Information Network (HSIN) infrastructure to facilitate 
        providing Secret level connectivity has been expanded to state 
        level Emergency Operations Centers in all 50 States, 
        territories, and the District of Columbia.
  --The Department's Information Sharing and Collaboration Office 
        (ISCO) is responsible for producing immediate, near-term and 
        long-term improved information sharing processes and systems. 
        ISCO successfully partnered with DOJ to establish a first ever 
        capability to share information between systems supporting law 
        enforcement users across the country. The Homeland Security 
        Information Network (HSIN), Regional Information Sharing System 
        (RISS), Law Enforcement On-line (LEO), and Criminal Information 
        Sharing Alliance Network (CISANet) now share information posted 
        on each system with the users of the other systems with the 
        result that over 7,000 documents are already posted and the 
        numbers are growing every day. Users are able to access 
        information on any of the four systems through a single sign-
        on, thus eliminating the need to access all four network 
        simultaneously.
  --Working closely with importers, carriers, brokers, freight 
        forwarders and others, Customs and Border Protection (CBP) has 
        developed the Customs-Trade Partnership Against Terrorism (C-
        TPAT) program, which has become the largest government/private 
        partnership to arise from September 11.
  --In carrying out its agricultural mission, Customs and Border 
        Protection (CBP) Agricultural Specialist conducted 3,559,403 
        cargo inspections, 111,416,656 passenger inspections and made 
        more than 400,000 interceptions of prohibited meat and animal 
        by-products. During the same time period, CBP agricultural 
        specialists intercepted more than 96,000 prohibited plant 
        materials and found more than 64,000 agricultural pests.
  --The Federal Emergency Management Agency (FEMA) provided $4.9 
        billion in aid, including hurricane relief efforts for victims 
        and communities affected by disasters. FEMA, with its DHS 
        counterparts, responded to 65 major disaster declarations and 
        seven emergencies in fiscal year 2004.
  --Passenger screening by the Transportation Security Administration 
        (TSA) kept 6,501,193 prohibited items from coming on board 
        aircraft during fiscal year 2004.
  --In 2004, TSA screened approximately 600 million checked bags using 
        advanced explosive detection technologies and over 31 million 
        mail parcels using explosive detection canine teams.
  --Since establishment of the Federal Flight Deck Officer (FFDO) 
        Program in February 2003, TSA has selected, trained, and armed 
        thousands of volunteer flight crewmembers to defend the flight 
        decks of commercial passenger and cargo aircraft against acts 
        of criminal violence or air piracy. To date, hundreds of 
        thousands of flights have been protected by one or more FFDOs 
        serving in mission status.
  --A total of 428 million people, including 262 million aliens, were 
        processed at land, air and sea ports of entry. Of that number 
        643,000 aliens were deemed inadmissible under U.S. law.
  --Immigration and Customs Enforcement (ICE) officers achieved a 112 
        percent increase over the prior year for fugitive apprehensions 
        resulting in more than 7,200 arrests. ICE removed more than 
        150,000 aliens in 2004.
  --Border Patrol agents apprehended almost 1.2 million illegal aliens 
        between our official ports of entry.
  --The Container Security Initiative (CSI), which involves pre-
        screening shipping containers to detect and interdict 
        terrorists' weapons and other illegal material, was expanded to 
        include 21 countries. CSI is now operational in 34 foreign 
        ports in Europe, Asia, and Africa.
  --Approximately 600 million checked bags were screened using advanced 
        explosive technologies in 2004.
  --More than 2,500 criminal investigations were conducted involving 
        the illegal export of U.S. arms and strategic technology, 
        including Weapons of Mass Destruction (WMD).
  --The Federal Law Enforcement Training Center (FLETC) provided basic 
        and advanced law enforcement training to more than 44,750 
        students, representing 81 Federal agencies, as well as State, 
        local and international law enforcement organizations.
  --Border and Transportation Security (BTS) assumed responsibility for 
        visa policy under the Homeland Security Act and implemented 
        improvements in visa review times and transparency.
  --The Department planned, designed, and implemented security for five 
        events designated as National Security Special Events (State of 
        Union Address, G-8 Economic Summit, Former President Ronald 
        Reagan Funeral, Democratic National Convention and Republican 
        National Convention) as well as the support, integration, and 
        coordination of hundreds of national special events not meeting 
        the National Security Special Events designation.
  --USSS arrested 30 individuals involved in global cyber organized 
        crime, domestically and internationally. Industry experts 
        estimate that $1 billion in total fraud loss was prevented.
  --The Science and Technology (S&T) Directorate has implemented 
        initiatives in chemical, biological, radiological, nuclear, and 
        explosive (CBRNE) countermeasures, cargo security, border and 
        transportation security, interoperability, standards for 
        emergency responders, and cyber security. These initiatives 
        have resulted in improved security of U.S. borders, 
        transportation systems and critical infrastructure, and 
        resulted in the greater preparedness of our Nation. To date, 
        Department officials have visited more than 200 chemical, 
        petrochemical, water, energy, (i.e. electricity, oil, liquefied 
        natural gas, pipelines, storage, etc.) agriculture, commercial 
        assets, national icons, soft targets, and mass transportation 
        centers.
  --The Department established the National Cyber Response Coordination 
        Group (NCRCG) in partnership with the Department of Justice and 
        the Department of Defense, as a forum of 13 principal agencies 
        that coordinate intra-governmental and public/private 
        preparedness operations to respond to and recover from 
        largescale cyber attacks.
  --The Department co-sponsored Blue Cascades II and Purple Crescent 
        II, two regional tabletop cyber exercises in Seattle, WA and 
        New Orleans, LA. Each exercise brought together more than 200 
        government and private sector officials to examine cyber 
        security readiness and response procedures, highlight the 
        importance of cyber security in critical infrastructure 
        protection, and discuss solutions for integrating physical 
        security and cyber security. Region-specific coordination and 
        communication plans between first responders, the Federal 
        Government, and critical infrastructure owners/operators were 
        exercised.
  --The Department established the US-CERT Control Systems Center to 
        bring together government, industry, and academia to reduce 
        vulnerabilities, respond to threats, and foster public/private 
        collaboration to improve the security of the data and process 
        control systems that operate our Nation's critical 
        infrastructures.
  --The Department established the Control Systems Security and Test 
        Center (CSSTC) in conjunction with Idaho National Environmental 
        and Engineering Laboratory, to provide an opportunity for 
        government and industry to collaborate on cyber vulnerability 
        enumeration and reduction activities for control systems 
        currently in use across critical infrastructure sectors. The 
        CSSTC models map the cause and effect relationships of cyber 
        attacks on control systems, assess the outcomes of actual 
        events in a simulated environment, and provide the US-CERT with 
        response and mitigation actions to share with partners in the 
        control systems community.
  --DHS and the Germany Ministry of the Interior jointly hosted a 
        Multilateral Cyber Security Conference in Berlin, Germany. The 
        conference brought together cyber security policymakers, 
        managers from computer security incident response teams with 
        national responsibility, and law enforcement representatives 
        responsible for cyber crime from 15 countries. The conference 
        program included a facilitated tabletop exercise and 
        interactive discussions on how to develop an international 
        framework--as well as near term actionable steps--for watch, 
        warning, and incident response.
  --The Information Analysis and Infrastructure Protection (IAIP) 
        Directorate has developed and disseminated warning products 
        (i.e. warning messages) to Federal, State, territorial, tribal, 
        local, private sector, and international partners to protect 
        citizens, governments, critical infrastructure, and key assets.
  --IAIP has produced more than 70 ``Common Vulnerability'' reports 
        executed over 250 Site Assistance Visits, nearly 600 Buffer 
        Zone Protection Plans, and is continuing to build the National 
        Asset Database. As of today, more than 80,000 ``assets'' have 
        been compiled.
  --Uninterrupted communications are critical for national security and 
        emergency preparedness personnel in responding to a crisis. The 
        National Communications System (NCS) issued an additional 
        17,000 calling cards, further enabling priority wire line phone 
        communications and an additional 8,000 cell phones for priority 
        wireless communications. In past disasters and crises, these 
        capabilities have proved crucial.
  --Pursuant to Homeland Security Presidential Directive-7, IAIP is 
        coordinating the overall national effort to enhance the 
        protection of the critical infrastructure and key resources of 
        the United States and has distributed the Interim National 
        Infrastructure Protection Plan (Interim NIPP) to other Federal 
        departments and agencies, the State Homeland Security Advisors, 
        and the private sector stakeholder groups (e.g., the Homeland 
        Security Advisory Council, Sector Coordinating Council, ISAC 
        Councils, National Infrastructure Advisory Council, the U.S. 
        Chamber of Commerce, etc.) The Interim NIPP provides a risk 
        management framework for integrating and coordinating the 
        Nation's infrastructure protection activities that takes into 
        account threats, vulnerabilities, and consequences to manage a 
        broad range of risks across the Nation's 17 critical 
        infrastructure sectors.
  --These important DHS activities were analyzed where appropriate for 
        their impacts on personal privacy and civil liberties.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The Department's fiscal year 2006 Budget request revolves around 
five major themes: Revolutionizing the Borders; Strengthening Law 
Enforcement; Improving National Preparedness and Response; Leveraging 
Technology; and Creating a 21st Century Department.

                      REVOLUTIONIZING THE BORDERS

    September 11, 2001 demonstrated the sobering reality that the 
United States is no longer immune from catastrophic attack. No longer 
do vast oceans and friendly neighbors provide the buffer against 
aggressive adversaries. In order to maximize the security of our Nation 
against persons determined to undermine the economy of the United 
States, our way of life and the freedoms we enjoy, the Department is 
determined to deter, thwart, and remove any threat to the Nation long 
before it reaches our borders. During fiscal year 2005, we will 
continue to strengthen our border security. For fiscal year 2006, the 
President's Budget includes several initiatives aimed at 
revolutionizing the Borders.
    Weapons of Mass Destruction (WMD) Detection Technology is an 
integral part of the Domestic Nuclear Detection Office (DNDO) that 
includes a comprehensive strategy to address the threat of nuclear and 
radiological terrorism. The Budget includes $125 million to purchase 
additional Radiation Portal Monitors (RPMs) and pilot advanced next 
generation RPMs to detect both gamma and neutron radiation at our 
borders. In addition, the Container Security Initiative (CSI), which 
focuses on pre-screening cargo before it reaches our shores, will have 
a preventative and deterrent effect on the use of global containerized 
shipping of WMD and other terrorist equipment. Egypt, Chile, India, the 
Philippines, Venezuela, the Bahamas and Honduras have been identified 
as expansion locations for this initiative in fiscal year 2006. An 
increase of $5.4 million over fiscal year 2005 is included in Customs 
and Border Protection (CBP) budget for CSI. The total amount in the 
President's Budget for CSI is $138.8 million.
    CBP's America's Shield Initiative (ASI) enhances electronic 
surveillance capabilities along the Northern and Southern land borders 
of the United States by improving the sensor and video surveillance 
equipment deployed to guard against the entry of illegal aliens, 
terrorists, WMDs and contraband into the United States. The Budget 
includes $51.1 million for ASI, an increase of $19.8 million. With 
additional technology investments, the President's Budget proposes to 
increase Border Patrol staffing over current levels to backfill staff 
vacated along the Southwest border, as well as increase staffing levels 
assigned to coastal areas. Since September 11, 2001, some Border Patrol 
agents were shifted to the Northern border in order to increase the 
number of agents assigned there. An increase of 210 positions and $36.9 
million is included in the Budget for the Border Patrol. This increases 
the number of Border Patrol Agents to 10,949.
    The Customs Trade Partnership Against Terrorism (C-TPAT), which 
began in November 2001, is another essential cargo security effort. C-
TPAT focuses on partnerships along the entire supply chain, from the 
factory floor to foreign vendors to land borders and seaports. The 
President's Budget includes an increase of $8.2 million for this 
effort, bringing total funding for C-TPAT to $54.3 million. These funds 
will be used to enhance our ability to conduct additional supply chain 
security validations.
    In addition to enhancing secure trade programs, the President's 
Budget also seeks to support additional investments in CBP's National 
Targeting System. CBP Targeting Systems aid in identifying high-risk 
cargo and passengers. The Budget includes a total of $28.3 million for 
these system initiatives, of which $5.4 million is an increase over the 
fiscal year 2005 level. Further, US VISIT, which will be consolidated 
within the Screening Coordination Office, will increase from $340 
million to $390 million in the Budget. The increase will provide for 
the accelerated deployment of US VISIT at the land border and enhanced 
access for border personnel to immigration, criminal and terrorist 
information.
    The President's 2006 Budget includes $966 million for the 
Integrated Deepwater System (IDS) to help address the Coast Guard's 
declining readiness trends and to transform the Coast Guard with 
enhanced capabilities to meet current and future mandates through 
system-wide recapitalization and modernization of Coast Guard cutters, 
aircraft, and associated sub-systems. Among other things, the IDS 
request funds production of the third Maritime Security Cutter-Large 
and continues HH-65 helicopter re-engineering to eliminate safety and 
reliability issues in the Coast Guard's operational fleet of short 
range helicopters.
    Finally, within CBP, Long Range Radar technology is used by the 
Office of Air and Marine Operations to detect and intercept aircraft 
attempting to avoid detection while entering the U.S. CBP and the 
Department of Defense will assume responsibility for operating and 
maintaining these systems from the Federal Aviation Administration 
(FAA) beginning in fiscal year 2006. CBP's share is $44.2 million in 
the Budget.

                     STRENGTHENING LAW ENFORCEMENT

    Law enforcement is a critical element in preventing terrorism 
across the Nation. Whether at the Federal, State, or local level, law 
enforcement agencies perform this vigilant task. As we know from 
unfortunate first hand experience, the known threats are creative, 
clever, and sophisticated. The Department's law enforcement agencies 
need to stay ahead of the threat. To achieve this, the Budget includes 
funding for numerous key initiatives to maintain and strengthen current 
law enforcement initiatives both within and beyond our borders.
    The United States Coast Guard (USCG) is the Nation's leading 
maritime law enforcement agency. The President's Budget seeks 
additional investment in USCG assets to enhance its ability to carry 
out its mission. The President's budget provides $11 million to 
increase port presence and Liquefied Petroleum Natural Gas (LNG) 
transport security, funding additional Response Boat-Smalls and 
associated crews to increase presence for patrolling critical 
infrastructure, enforce security zones, and perform high interest 
vessel escorts in strategic ports throughout the Nation. This 
initiative also provides additional boat crews and screening personnel 
at key LNG hubs such as Baltimore, MD and Providence, RI to enhance LNG 
tanker and waterside security.
    In addition, in the President's Budget, the Armed Helicopter for 
Homeland Security Project increases by $17.4 million. These funds will 
provide equipment and aircraft modifications to establish armed 
helicopter capability at five USCG Air Stations. This will provide the 
USCG and DHS with the tools needed to respond quickly and forcefully to 
emergency maritime threats. A total of $19.9 million is included in the 
Budget for this project. Finally, the Response Boat-Medium Project 
increases by $10 million the effort to replace the USCG's 41-foot 
utility boats and other large non-standard boats with assets more 
capable of meeting all of the USCG's multi-mission operational 
requirements. A total of $22 million is proposed in the Budget for this 
effort.
    U.S. Immigration and Customs Enforcement (ICE), the largest 
investigative arm of the Department of Homeland Security (DHS), is 
responsible for identifying and shutting down vulnerabilities in the 
Nation's border, economic, transportation and infrastructure security. 
The President's Budget seeks a 13.5 percent budget increase for ICE, 
including increasing the Detention and Removal program by $176 million. 
For the Temporary Worker program, the Budget seeks to more than double 
the resources available for worksite enforcement including employer 
audits, investigations of possible violations and criminal case 
presentations. An increase of $18 million is proposed in the Budget for 
this effort. The President's Budget seeks a total of $688.9 million for 
ICE's Federal Air Marshal Service. This funding will allow ICE to 
protect air security and promote public confidence in our Nation's 
civil aviation system.
    The Department's fiscal year 2006 Budget includes several other 
funding enhancements for law enforcement, including:
  --The Federal Law Enforcement Training Center's (FLETC) budget 
        increases by $2.7 million for Simulator Training Technology to 
        teach officers and agents how to avoid collisions and reduce 
        the dangers associated with pursuit driving.
  --Federal Flight Deck Officers (FFDO)/Crew Member Self-Defense (CMSD) 
        Training is increased by $11 million in fiscal year 2006. This 
        allows for the expansion of the semi-annual firearm re-
        qualification program for FFDO personnel and to fund the first 
        full year of the CMSD training program. A total of $36.3 
        million is included for FFDO/CMSD in the Budget.
  --Enhancing law enforcement training through co-location of the Coast 
        Guard's Maritime Law Enforcement Training program with the 
        Federal Law Enforcement Training Center, increasing maritime 
        law enforcement training throughput and promoting better 
        coordination among field activities with other Federal, State, 
        and local agencies.

              IMPROVING NATIONAL PREPAREDNESS AND RESPONSE

    Though the primary mission is to protect the Nation from terrorism, 
the Department's responsibilities are diverse. No DHS effort has a 
greater scope, reach and impact upon the citizens across the United 
States than our efforts to prepare the Nation to respond to major acts 
of terror or natural disaster. This Budget continues to support the 
President's homeland security directives that establish the methods and 
means by which our Nation prepares for and responds to critical 
incidents. Since its establishment, the Department has, and continues 
to provide, an unprecedented level of financial support to the State, 
local, and tribal governments and to certain private sector entities. 
The Budget builds on these efforts and proposes significant resources 
to provide direct financial assistance to our Nation's first 
responders, emergency managers, and citizen volunteers. There are 
several initiatives in the Budget geared towards improving national 
preparedness and response.
    The fiscal year 2006 budget continues to support the Nation's first 
responders and seeks a total of $3.6 billion to support first-responder 
terrorism preparedness grants, administered by the Office of State and 
Local Government Coordination and Preparedness, with better targeting 
to high-threat areas facing the greatest risk and vulnerability. This 
funding will support State and local agencies as they equip, train, 
exercise, and assess preparedness for major emergencies, especially 
acts of terrorism. While there may be gaps in State and local 
capabilities, we believe special emphasis must be given to 
communications interoperability, catastrophic planning, WMD awareness, 
critical infrastructure protection, and cross-jurisdictional/regional 
cooperation and interaction.
    For fiscal year 2006, the President's Budget proposes $20 million 
for the Federal Emergency Management Agency's (FEMA) enhanced 
catastrophic disaster planning. This funding will support catastrophic 
incident response and recovery planning and exercises. FEMA will work 
with States and localities, as well as other Federal agencies to 
develop and implement plans that will improve the ability of Federal, 
State, or local governments to respond to and to recover from 
catastrophic disasters quickly and effectively. FEMA will address the 
unique challenges a catastrophic disaster situation poses, including 
food and shelter, transportation, decontamination and long term housing 
needs.
    On October 1, 2004, the Department of Homeland Security launched 
the Office of Interoperability and Compatibility designed to help State 
and local public safety practitioners improve communications 
interoperability. The Office of Interoperability and Compatibility 
(OIC), part of the Science & Technology directorate, oversees the wide 
range of public safety interoperability programs and efforts currently 
spread across Homeland Security. These programs address critical 
interoperability issues relating to public safety and emergency 
response, including communications, equipment, training, and other 
areas as needs are identified. The OIC allows the Department to expand 
its leadership role in interoperable communications that could be used 
by every first responder agency in the country. The OIC has currently 
identified three program areas: Communications, Equipment, and 
Training. With $20.5 million in fiscal year 2006, the OIC will plan and 
begin to establish the training and equipment programs, as well as 
continue existing communication interoperability efforts through the 
SAFECOM Program.
    The President's fiscal year 2006 Budget for the Department proposes 
other enhancements to improve our national preparedness and response, 
including:
  --Replacement of the USCG's High Frequency (HF) Communications 
        System. Funded at $10 million in the Budget, this system will 
        replace unserviceable, shore-side, high power high frequency 
        transmitters, significantly improving longrange maritime safety 
        and security communications.
  --The Budget increases Cyber Security to enhance the U.S. Computer 
        Emergency Preparedness Team (US-CERT), a 24/7 cyber threat 
        watch, warning, and response capability that would identify 
        emerging threats and vulnerabilities and coordinate responses 
        to major cyber security incidents. An increase of $5 million is 
        proposed, bringing the program total to $73.3 million.
  --The Rescue 21 project is funded at $101 million in the Budget to 
        continue recapitalizing the Coast Guard's coastal zone 
        communications network. This funding will complete system 
        infrastructure and network installations in 11 regions and 
        begin development of regional designs for the remaining 14 
        regions.

                         LEVERAGING TECHNOLOGY

    Rapid advances in technological capability are allowing the 
Department personnel to protect the homeland more efficiently and 
effectively across many components. To prepare the Nation to counter 
any WMD threat--threats from CBRNE substances--this Budget includes an 
increase for new initiatives that support research and development to 
counter these weapons and their potentially devastating effects.
    First, the Domestic Nuclear Detection Office (DNDO) is being 
established as a joint national office to protect the Nation from 
radiological and nuclear threats. This office will consolidate 
functions within DHS and establish strong interagency linkages for the 
deployment of a national domestic nuclear detection architecture, the 
conduct of transformational research and development (R&D), and the 
establishment of protocols and training for the end users of equipment 
developed and deployed through the new office. The DNDO will integrate 
domestic nuclear detection efforts undertaken by individual Federal 
agencies, State and local governments, and the private sector and be 
closely linked with international nuclear detection efforts. A total of 
$227.3 million is requested for this effort in fiscal year 2006.
    Second, TSA's emerging checkpoint technology is enhanced by $43.7 
million in fiscal year 2006 to direct additional resources to improve 
checkpoint explosives screening. This request responds to the 9/11 
Commission Report's finding that investments in technology may be the 
most powerful way to improve screening effectiveness and priority 
should be given to explosive detection at airport checkpoints for 
higher risk passengers immediately. This new equipment assures that TSA 
is on the cutting edge, ahead of the development of increasingly well-
disguised prohibited items. This proposed increase will result in 
investing more than $100 million in fiscal year 2005 and fiscal year 
2006 for new technology to ensure improved screening of all higher risk 
passengers.
    In addition, to improve TSA's information technology network, the 
President's Budget includes $174 million to complete installation of 
High Speed Operational Connectivity (Hi-SOC) to passenger and baggage 
screening checkpoints to improve management of screening system 
performance. Within the Screening and Coordination Office, funding is 
sought for the Secure Flight and Crew Vetting programs--an increase of 
$49 million to field the system developed and tested in fiscal year 
2005. The funds will support testing information systems, connectivity 
to airlines and screen systems and daily operations. This also includes 
an increase of $3.3 million for crew vetting.
    Third, the President's Budget also proposes additional funding for 
two critical Department programs--the Homeland Secure Data Network 
(HSDN) and the Homeland Security Operations Center (HSOC). For fiscal 
year 2006, the Budget includes $37 million for HSDN. This funding will 
streamline and modernize the classified data capabilities in order to 
facilitate high quality and high value classified data communication 
and collaboration. Funding for the HSOC is increased by $26.3 million, 
bringing its fiscal year 2006 funded level to $61.1 million. This 
includes an increase of $13.4 million for the Homeland Security 
Information Network (HSIN) and an increase of $12.9 million to enhance 
HSOC systems and operations. The funding will provide the HSOC with 
critical tools for sharing both classified and unclassified information 
and situational awareness with Federal, State, local and tribal 
governments.
    Fourth, a key element of the Department's Maritime Security 
Strategy is to enhance Maritime Domain Awareness (MDA), leveraging 
technology to improve sharing of accurate information, intelligence, 
and knowledge of vessels, cargo, crews and passengers, mitigating 
threats to the security, safety, economy, or environment of the United 
States. The fiscal year 2006 budget funds several key MDA initiatives, 
including $29.1 million for the nationwide Automatic Identification 
System (AIS) and $16.5 million to provide additional maritime patrol 
aircraft flight hours in support of detection, surveillance and 
tracking activities.
    Finally, the Department is seeking additional technology 
investments in other critical areas, such as:
  --$20 million for developing a Low Volatility Agent Warning. This 
        system will serve as the basis for a warning and identification 
        capability against a set of chemical agents whose vapor 
        pressure is too low to be detected by conventional measures;
  --Increasing Counter-Man Portable Air Defense Systems funding by $49 
        million to a total of $110 million in the Budget. This program 
        will continue to promote the viability of technical 
        countermeasures for commercial aircraft against the threat of 
        shoulder-fired missiles by improving reliability and 
        affordability.

                   CREATING A 21ST CENTURY DEPARTMENT

    The Department has made significant progress in strengthening the 
management of its business processes from inception to implementation. 
The Office of the Under Secretary for Management focuses its efforts on 
the oversight, integration and optimization of the Department's human 
capital, information technology, financial management, procurement and 
administrative operations. Over the past year, this office has made 
strides in designing, planning, and supporting new standards for 
business processes and resource allocation in order to achieve a 
cohesive organization while ensuring maximum return on investment. This 
organization is focused on establishing the overall framework, 
developing management methods, and monitoring the progress of each 
management function.
    Examples of major enterprise initiatives included in the Budget 
that contribute to Creating A 21st Century Department include the 
following:
  --The program for electronically managing enterprise resources for 
        government effectiveness and efficiency--or eMerge2--to 
        continue implementation of a DHS-wide solution that delivers 
        accurate, relevant and timely resource management information 
        to decision makers. The Budget includes $30 million for this 
        program. By delivering access to critical information across 
        all components, the Department will be able to better support 
        its many front-line activities. It focuses on the areas of 
        accounting and reporting, acquisition and grants management, 
        cost and revenue performance management, asset management and 
        budget that will be integrated with MAX HR.
  --MAX HR funding of $53 million involves designing and deploying a 
        new human resources system. The $53 million is requested to 
        support the development and deployment of the new HR personnel 
        system as published in the Federal Register on February 1, 
        2005. These funds will be used to fund the detailed system 
        design for our labor relations and pay-for-performance 
        programs, provide appropriate training and communication for 
        our managers and employees and to provide proper program 
        evaluation and oversight. In this effort, our goal is to create 
        a 21st Century personnel system that is flexible and 
        contemporary while preserving basic civil service principles 
        and the merit system.
  --The Information Sharing and Collaboration (ISC) program will affect 
        the policy, procedures, technical, business processes, 
        cultural, and organizational aspects of information sharing and 
        collaboration, including coordinating ISC policy with other 
        Federal agencies, drafting technical and operational needs 
        statements, performing policy assessments, and analyzing new 
        requirements. The total funding for fiscal year 2006 will be 
        $16.482 million.
    These initiatives will help move the Department toward an efficient 
and effective shared services environment, avoiding duplication of 
effort across the program areas.

                               CONCLUSION

    Two years ago, Congress and the President took on the enormous 
undertaking of creating a new Department whose central mission would be 
to secure the homeland. Under Secretary Ridge's leadership, the 
entities that now comprise the Department of Homeland Security unified 
under this overarching goal. As I have become acquainted with the many 
talented people of the Department, I am impressed by all that they have 
accomplished thus far. But there is no time to pat ourselves on the 
back.
    As the Department initiates our second stage review, organizes 
around missions, eliminates duplications, and adopts a risk-based 
approach, we must identify our crosscutting functions and ensure that 
we are thinking innovatively how to best exploit our intelligence 
capabilities, develop policy functions, execute our operational tasks, 
and implement our long-range preparedness planning.
    I thank the Congress for its support, which has been critical in 
bringing us to this point. I am grateful to be here today to talk about 
the work we are doing to make America a safer home for us, for our 
children and generations to come. Thank you for inviting me to appear 
before you today. I look forward to answering your questions.

                 NUMBER OF BORDER PATROL AGENTS NEEDED

    Senator Gregg. It is hard to know exactly where to begin, 
because there are a lot of issues here. But let me begin with 
some of the higher priority items as I see them. And I 
congratulate you on the risk management approach. I think 
threat is the issue to finding threat and then responding to 
it.
    Clearly, one of the priority issues from the standpoint of 
threat is who is coming into the country and where they are 
when they get here, and who they are when they come across. 
There have been a whole lot of amendments floated this week on 
expanding the number of border patrol agents. I actually asked 
the folks down at border patrol if they had an assessment as to 
how many agents they needed and where they needed them, and I 
was told that, no, they did not.
    I found that to be a startling fact, in the sense that I 
would have presumed that there has been a study done within the 
last 2 years as to where the agents are needed and to what 
numbers are needed. Obviously, there has been a significant 
movement of agents to the northern border.
    I guess my question is: How many border patrol agents do we 
need and where do we need them----
    Secretary Chertoff. Well, again----
    Senator Gregg [continuing]. In comparison to where we are 
today? Congress has, as you know, required an increase of 
agents by 2,000 each year for a 5-year period.
    Secretary Chertoff. I know that in the Intelligence Reform 
Act authorizations were put in place for 2,000, going forward. 
The President's 2006 budget looks for an increase of slightly 
more than 200.
    I can tell you, because I have sat with Border Patrol, that 
we do have a comprehensive picture of where we need to deploy 
our resources. We had an Arizona Border Control Initiative last 
year, which was successful. This year, I guess about a month 
ago, we rolled out a follow-up to that initiative, and in 
talking with Commissioner Bonner and the other leaders of the 
Border Patrol about how to do that, they took a very unified 
approach to figuring out where the sectors of the border where 
we are now seeing the greatest penetration.
    How do we deploy not only Border Patrol at the front line, 
but technology, and also a capability to transport people that 
we apprehend and bring them back in a way that does not pull 
people off the line in order to drive them several hours back 
to Tucson.
    How do we use checkpoints? How do we use investigative 
resources to target organizations? And also, frankly, how do we 
work with the Mexicans on their side of the border to see that 
they are doing things to attack these human trafficking 
organizations.
    So I do think that we have a comprehensive plan about 
dealing with the issue of deploying resources in a unified----

                    TRAINING OF BORDER PATROL AGENTS

    Senator Gregg. But is 2,000 the right number, a year? And 
can you train--how many people can you train--let us say we 
actually funded 2,000, which clearly we are not going to do, 
but we are going to significantly increase the funding. In 
fact, Senator Byrd has a proposal to do that, which I presume 
he is going to offer within the next day or so, and increase 
border patrol agents.

     STATUS OF TECHNOLOGY IN USE ON THE BORDERS AND DETENTION SPACE

    How many agents can you train? And two, what's the status 
of the unmanned vehicle program and did it work? And if it did 
work, why is the line basically being shut down? And three, 
what's the status of the electronic surveillance in the 
cameras? And four, how many detention beds do we need? We hear 
about a lot of people being sent home who are criminals and who 
should probably be detained permanently here to make sure they 
do not come back to commit further criminal acts? How short are 
we on the detention bed area?
    Secretary Chertoff. I might forget all this, so if I do, I 
mean to come back. I'll give you the answer. With respect to 
training, obviously, the President's budget talks about 210. We 
can certainly train and assimilate that. I do not know that 
this is the limiting number in training, but I would also be 
inclined to agree, I doubt we could train 2,000 even if one had 
2,000.
    Certainly, we can train and deploy the 210 that we have 
asked for on top of whatever we are replacing in terms of 
attrition.
    The UAV program, as I understand, did work well. We are 
currently working now to begin the process of procuring UAVs. 
We would like to get that done in a matter of months and start 
to put UAVs up and have them flying over the border.
    Now I don't think we can rely exclusively on UAVs. I think 
that sometimes you need manned vehicles and you need 
helicopters. But I think it was generally viewed as a positive 
program, and we are in the process of getting the RFIs and RFPs 
out in order to make sure that that gets done.
    As far as detention beds are concerned, again, the budget 
contemplates adding some additional beds. I do want, I guess, 
to address an issue which seems to come up a lot when we talk 
about releasing people. The fact of the matter is, we do not 
detain every single illegal person that we apprehend. And 
frankly, I have to say, as a graduate of the criminal justice 
system, neither does the criminal justice system.
    Most people who are arrested in States all over the country 
get released on bond. What everybody does, whether they are 
criminal justice people or people in the immigration areas, is 
prioritize. And I do think we are working very hard to make 
sure that the people who are mandatory detainees are being 
detained and that we have adequate beds to do that.

                        ELECTRONIC SURVEILLANCE

    Senator Gregg. And the camera situation that allows 
electronic surveillance on the borders?
    Secretary Chertoff. I beg your pardon?
    Senator Gregg. The camera situation relative to electronic 
surveillance. I mean there was a contract let that appears did 
not work and now I guess they are trying again. What is the 
status on it?
    Secretary Chertoff. I gather, and I think this is under 
investigation, there was a contract let and there were some 
problems with the procurement process. This goes back a number 
of years. The procurement phase of that contract is over. 
Obviously, we are maintaining.
    My understanding is that as a general rule the surveillance 
stuff does work well. Obviously, we have maintenance issues. We 
are now going to begin the second stage of that, which is the 
America Shield Initiative, where we are sending out RFIs and 
RFPs to begin the process of acquiring technology.
    Obviously, we are going to learn something from the 
procurement problems in the last round that go back several 
years, but again, it is a very good technology. I mean the idea 
of using cameras and remote sensors does work. As long as we 
get, you know, the right contractor and the right equipment, 
and it is handled in a cost-effective manner, I think that is a 
very promising way to go about handling it.
    Senator Gregg. Well, maybe you could have your staff tell 
us whether or not--we know we had the wrong contract. We spent 
a lot of money.
    Secretary Chertoff. Right.
    Senator Gregg. We bought cameras that did not work. 
Supposedly, this has been corrected. We would like to get some 
specifics on that.
    Secretary Chertoff. We will get back to you on it.
    [The information follows:]

         Background on GSA Basic Purchasing Agreement With IMC

    The Remote Video Surveillance project was formed in 1998 to install 
camera systems mounted on poles or towers near the U.S. Border. These 
cameras would transmit video images back to a control room where a Law 
Enforcement Control Agent (LECA) could view the images and dispatch 
Border Patrol agents as necessary.
    The Immigration and Naturalization Service's Office of Information 
Resource Management (OIRM) managed the RVS program. From its beginning, 
the OIRM faced tremendous pressure to get RVS poles installed or face 
losing their funding. At first, the OIRM administered the RVS Project 
through a series of individual purchase orders with various 
contractors. OIRM would give bills of material (BOMB) to NTMI, a GSA 
FAST contractor, for the equipment needed for the installations. NTMI 
would procure the equipment and store it until needed for an 
installation. Chugash was the contractor used to install the poles, 
cameras and monitors. IMC was the contractor used to install the 
microwave transmission equipment.
    A competition was conducted in 1999 in order to increase 
accountability for the installations and to obtain volume discounts for 
the equipment involved. GSA considered four companies for this award: 
the three listed above and Hazmed, a contractor that has assisted OIRM 
in managing the purchase orders for the other three contractors and 
that had core competencies in the area of installing electronics 
systems. IMC was selected as the contractor in March 1999 and given an 
initial task valued at $2 Million.
    In November of 2000, in an effort to optimize procurement 
procedures, OIRM and GSA agreed to convert the GSA schedule award to a 
Blanket Purchasing Agreement (BPA). The rationale for the BPA was that 
it would ``further decrease costs, reduce paperwork, and save time by 
eliminating the need for repetitive individual purchases from the 
Schedule contract.'' \1\ The end result was to ``create a purchasing 
mechanism for the Government that works better and costs less.'' \2\ 
The hope was that the reduction of costs would allow for funds to 
accelerate deployment of additional RVS systems.
---------------------------------------------------------------------------
    \1\ The Immigration and Naturalization Service Integrated 
Surveillance Intelligence System (ISIS) Equipment and Services Blanket 
Purchase Agreement (BPA) between GSA Federal Technology Service (FTS/
FAST) Region 5 and the International Microwave Corporation Team, 
GS05KR01BMC0001, dated November 8, 2000, page 2 of 12.
    \2\ Ibid.
---------------------------------------------------------------------------
    Installation of RVS sites was completed in three phases. The first 
phase involved administrative preparation (i.e., environmental 
assessments, rights of entry (ROE), real estate issues, permits, and 
survey activities). Phase I activities generally required between 16 
and 18 months to complete. However, there were often issues with access 
to the land desired for the surveillance site, or environmental 
assessments, which caused greater delays.
    The second phase of the installation involved groundbreaking 
activities such as installing foundations and poles, assembling and 
populating platforms, installing power, aligning equipment and radios, 
and installing equipment shelters. This phase took between 3 and 6 
months.
    The third and final phase lasted approximately 1 month. It involved 
installation of the cameras, transmission lines, consoles, other 
related electronics and the build out of control rooms. Finally, after 
completing build out of the control room and successful integration 
testing, the Border Patrol agents would begin using the RVS system. The 
timeframe for an average RVS installation varied between 20 and 25 
months. $239 Million was allocated to GSA for the RVS BPA. 
Approximately $220 Million was expended by the contractor during its 
term, which ended on September 30, 2004. At that time there were 248 
completed RVS sites. Since that time, six more sites have become 
operational for a total of 254 sites. The Border Patrol is working with 
GSA and the contractor to finalize the credits due back to the 
government for incomplete installations.
    Currently the Headquarters Office of Border Patrol's Integrated 
Project Team is seeking contractor support to complete the installation 
of 21 Phase III RVS sites partially installed by L-3 Communications 
Corporation. Government furnished equipment bought under the terms of 
the BPA will be used to complete the 21 sites. The Headquarters Office 
of Border Patrol projects these 21 sites will be completed by the end 
of calendar year 2005.

    Senator Gregg. I think I have certainly used up my time, 
although this clock does not seem to be working correctly.
    But in any event, Senator Byrd, did you want to make an 
opening statement or pursue questions? It is--obviously, the 
floor is yours.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. Mr. Secretary, you and the 
179,000 employees in your Department are to be commended for 
your efforts to preserve our freedoms and secure our homeland. 
I applaud Chairman Judd Gregg for taking on the challenge of 
chairing this subcommittee.
    His predecessor, Senator Thad Cochran, did a superlative 
job as chairman. Under Chairman Cochran, this subcommittee 
worked on a bipartisan basis to provide the Department of 
Homeland Security with resources to fill critical gaps in our 
security. Of course, you should know, and I am sure you do 
know, Mr. Secretary, that Chairman Gregg brings excellent 
credentials to this task.
    As a former governor, he understands that simply setting a 
policy in Washington does not automatically make that policy a 
success. We have to work effectively with State and local 
governments and with the private sector to protect the 
homeland.
    Years before the tragic events of September 11, Chairman 
Gregg led the way by funding State and local antiterrorism 
programs. He authored provisions for training and equipping 
first responders for chemical and biological attacks.
    In fact, if you want to meet the father of the Office of 
Domestic Preparedness, the predecessor to your office of State 
and Local Government Coordination and Preparedness, I am 
sitting right next to him, on my left, today.
    Mr. Chairman, I look forward to our partnership on this 
subcommittee, and I thank you for taking on this assignment.
    I thank you, Mr. Secretary, also. As the Secretary of 
Homeland Security, you are responsible for a critical balancing 
act. We are a Nation that thrives on liberty, but 9/11 taught 
us that we also must invest in our security. I hope that you 
will work with the Congress to make sure as much as possible 
that your Department promotes our security without sacrificing 
our liberty.
    I wrote to you on March 2 to express my dismay that the 
President's budget fails to fund the border security 
investments authorized by the Intelligence Reform and Terrorism 
Prevention Act of 2004 which he signed into law on December 17 
of last year.
    That Act authorizes the hiring of 2,000 new border patrol 
agents per year for 5 years, the hiring of an additional 800 
immigration investigators per year for 5 years to enforce our 
immigration laws, and the funding of 8,000 new detention beds 
for the holding of illegal aliens.

                            BUDGET AMENDMENT

    I urged you to work with the White House to propose a 
budget amendment seeking resources to increase security on our 
borders and to enforce our immigration laws. Despite the 
statements by Secretary of State Rice and former Homeland 
Security Deputy Secretary Loy that al Qaeda is a threat on our 
porous borders, there is virtually nothing in the President's 
budget to provide these additional resources for border 
security.
    According to Former Deputy DHS Secretary James M. Loy, when 
testifying before the Senate Select Committee on Intelligence 
about threats to the United States, ``Current intelligence 
strongly suggest that al Qaeda has considered using the 
southwest border to infiltrate the United States.'' According 
to Secretary of State Condoleezza Rice, ``we are all concerned 
about terrorists and how they might use our very long and 
porous borders. The terrorists are going to keep trying. 
They're going to keep trying on our southern border. They're 
going to keep trying on our northern border.''
    So, I could not help but be disappointed to read your 
response to my letter yesterday that no budget amendment would 
be forthcoming.
    The threat to our security is clear. The holes in our 
borders are well known. I look forward to hearing from you on 
this and other issues today. I thank you, and I thank you, Mr. 
Chairman. I thank all the Senators.
    Senator Gregg. Thank you, Senator Byrd, and thank you for 
your generous comments. Did you wish to proceed with questions 
at this time?
    Senator Byrd. Would you please have someone else go and 
then call on me at your leisure.
    Senator Gregg. All right.
    Well, then I think I would turn to Senator Feinstein, I 
believe, was the first member of your party here.
    Senator Byrd. Very Well.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman.
    I want to say, Judge Chertoff, that at least for this 
Senator you are so far a breath of fresh air, and I am 
delighted to say that. I just want to publicly thank you for 
your response of April 6 in the use of fraudulent passports, 
stolen or lost passports, which is a big problem.
    I know that from the intelligence committee. And your 
letter was no-nonsense, and it set forward very directly what 
the Department is prepared to do. I, for one, will certainly 
hold you to it.
    And I am very pleased that you share my concerns about the 
visa waiver program, and indicated, you know, that you share 
the findings of the critical reports that have been done, and 
that you have established a visa waiver program oversight unit. 
So I look forward to--my understanding is that you are probably 
going to come in asking for another extension on the visa 
waiver program.
    My vote, as you know, is conditioned on getting the 
management act together in that unit, which critical reports 
have said has been in disrepair for some time. So I just wanted 
to say that.

                             BORDER PATROL

    I want to follow up on what the chairman said on the border 
patrol. The expansion of the border patrol is not really just 
the recommendation of the 9/11 committee. Those of us on the 
judiciary committee have recommended this for a long, long 
time, and specifically, the border reform and visa entry law 
recommended an enhanced border.
    As you know, 600 agents have retired this past year. So on 
a four-to-one basis, whether the 210 additional agents is 
actually going to provide you with a net gain or not, I think, 
is somewhat dubious, and I am really concerned about it. The 
position of the border patrol on 2,000 agents, going back 6 
years, has always been they do not need them, they do not have 
the room to train them. I mean this goes on year after year 
after year. The time has come to fish or cut bait. That is no 
longer, I think, a justifiable response.
    Bills have called for this. The President says he calls for 
it. Although, only 210 will not do it. I would like to get your 
real answer to this, because on the southwest border, other 
than Mexican intrusions have gone from 22,000 in 2002 to 88,000 
in 2004. This clearly indicates that the southwest border is 
being utilized as a point of major penetration into this 
country by other than Mexicans. If you look at the list of 
apprehensions made from countries that are terrorist States, 
there are numbers there as well.
    So I have a hard time, in view of the Minutemen coming on 
the Arizona border, the remonstratives made by this Congress 
over and over and over again as to why there cannot be a net 
large increase in border control. This is something I think we 
are willing to pay for. This is something that I think we would 
be willing to add. And yet, year after year it is the same kind 
of 200, which does not make even for retirements. Could you 
respond, please?

                              VISA WAIVER

    Secretary Chertoff. Well, first let me begin by just, if I 
can, for a moment go back to your visa waiver point. I mean as 
I think you indicated, Senator, I share your concern. We have 
to look at the border as a whole and make sure we are 
addressing every possible point of entry. And I certainly 
intend to hold the Department to what I have indicated to in 
the letter we need to do to make sure----
    Senator Feinstein. Thank you.
    Secretary Chertoff [continuing]. Our end is up. And I have 
spoken to our foreign partners and talked about the importance 
and I have spoken personally to them about the importance of 
making sure they have their house in order in terms of tracking 
and getting us information on this, and ultimately moving to a 
biometric passport that is resistant to the kind of alteration 
or counterfeiting, which is obviously a vulnerability.

                        SOUTHWEST BORDER CONTROL

    The southwest border, obviously, is a concern as well. As I 
understand it, what we are proposing to do in the budget is a 
net increase of 210 border patrol agents, which would fill 
those that are leaving and fund an additional 210.
    Senator Feinstein. So if I may, that means 810 new border 
agents?
    Secretary Chertoff. I do not----
    Senator Feinstein. Six hundred have retired.
    Secretary Chertoff. I think new. As I understand it, new 
means over and above what we currently have, the funding level 
we have. So that we will wind up at the end of the day with--
and I cannot do the math in my head, but I guess there is 
approximately 10,800 currently. We would be adding about 200. 
That should include backfilling for positions that are becoming 
vacant. I mean that is keeping the funding level steady and 
then adding 210.
    So that is what we contemplate, in addition to which we 
want to be able to bear the UAVs. As I told Chairman Gregg, we 
want to acquire those and start to put those up. I think that 
was a successful pilot program, no pun intended. And we do want 
to do more with sensors, which, again, notwithstanding the 
contracting issues, apparently, several years ago, we think the 
idea of the sensors and the usefulness of sensors is proven. So 
we have an America Shield initiative and we are in the process 
of setting out RFIs in order to start acquiring that technology 
and deploying it.
    This is obviously an issue that we have to constantly look 
at. I am going to go down to the border at some point in the 
next month or two. I want to see for myself how we are doing 
down there, and what additional things we can do. We have 
redeployed agents down to the Arizona border to deal with the 
issue of a surge of people coming across.
    I totally agree with the principle that this is a paramount 
responsibility of ours, and I am going to be spending a lot of 
personal time focused on it.
    Senator Feinstein. Thank you. My time is up. Thank you.
    Senator Gregg. Senator Craig.

                    STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Mr. Secretary, like all of us, let me 
welcome you to the committee, and let me also speak, as others 
have, about our belief that you are the person who can get the 
job done.
    At the same time, let me not sound like a broken record, 
but let me repeat what has been said here by both our chairman, 
our ranking member, and certainly the Senator from California. 
I am going to focus on our southwestern border again.
    Because I have been a bit outspoken about immigration 
policy and changes in it, and I actually led the Senate in 
debate for the last 2 days on it, I have also been given a lot 
of attention by those who might criticize any form of policy 
change, but most importantly, it has led to a lot of 
conversations about border. And it has allowed me to focus more 
intently on border. Because I will tell you, if we cannot 
control our border, we will never be able to write immigration 
policy that works. We will always be playing catch-up to an 
ever increasing number of illegals in our country.
    The Senator from California and I have discussed this at 
length. Probably every one on this committee today has a 
slightly different opinion about how we handle the problem, but 
I think we are all in concert about how we handle the border.
    So my folks in Idaho say build a fence high and build it 
strong, and spare no cost. Now there are a variety of ways to 
build the fence, and you're exploring all of them, but there 
are also not just the physicalnesses of it and all of the tools 
that we are going to acquire and should acquire to control that 
border.
    There are other issues as to who is there and how they 
handle process and movement. We have got this interesting 
situation. Yuma, Arizona. A lot of folks live on the other side 
of the border, but work across in Yuma. They harvest lettuce. 
Your folks were out there a few weeks ago rounding them all up 
early in the morning to come back across the border, because 
many of them were undocumented illegals. But by 2 o'clock in 
the afternoon they were back in the fields harvesting the 
lettuce.
    The crisis of the harvest was over, but the reality was 
that a great deal of border movement occurred during that day. 
And in that movement, there could have been someone that meant 
to do this country harm, not just to pluck lettuce from the 
fields of Yuma, Arizona. And that is something we have to get 
under control, both sides of that issue.
    So let me give you a dialogue that I had with a young man 
who sought me out because of my position on this committee last 
year, a very frustrated member of the intelligence community. 
He and his group were prevented from apprehending suspects at 
the border because of strict guidelines and the chain of 
command, even though it was his group's responsibility to 
collect the intelligence.
    His group had gathered immediate intelligence regarding 
certain aspects and actions needed to take immediate action. 
However, because of the chain of command and the hamstringing 
that resulted, certain intelligence agents, this intelligence 
officer had to sit and watch while suspects possibly crossed 
the border.
    These were not Hispanics. These, by all appearances, were 
people of Arabic descent. They were believed to be terrorists. 
And yet the outcome still today is who is on first and who is 
second and who is in control. And in that fight, people are 
crossing our borders at an unprecedented rate.
    And while we can talk about the money we have spent, and I 
did on the floor yesterday, billions of dollars, with a ``B,'' 
and we apprehended a 1,750,000 or 1.2 million last year, or 
something like that. Big numbers. It demonstrates one thing 
when we are apprehending them, that they got across.
    And I cannot imagine that when someone is illegal, by 
definition, and they are apprehended, that they are turned 
loose. At least take them to the border and shove them across. 
Do not say, ``Well, they will come back.'' They do not come 
back.
    All of us are going to be able to control this process, and 
I am going to keep pushing for changes in the law that are 
realistic and that work. But all of a sudden the Senator from 
California and I are engaged in conversation, and I say my 
proposal will affect 500,000 or 600,000 or 700,000, and she 
says, ``No, it will not. It is millions.''
    I do not know whether she is right or I am right. We may 
both be right in some ways. But we do know there is a huge 
problem. Enough said.
    I guess my question is: Go to the border. Look it over. Get 
to understand it. It is unique in a variety of ways. And 
lastly, I was in Houston, Texas, over the weekend. I was 
visiting with a former State judge, who said to me very 
directly, there is a clear understanding in Texas that the laws 
are not going to be enforced because they are unenforceable. 
And I am talking about border laws.

                            BORDER PROBLEMS

    Now if that is the name of the game along the border, we 
have got a huge problem that you must get your hands around and 
get it under control. I agree with the Senator from West 
Virginia. I am a co-sponsor of his amendment to pull money in 
this emergency supplemental to give you more. Either build the 
fence or we do something that causes that border crossing to 
stop. How do we do it?
    Secretary Chertoff. Well, first of all, Senator, there are 
a number of things you raise, and I hope I keep them in mind so 
I can address them all. I think it is important, as you say, to 
look at this as a comprehensive issue, not an issue you can 
deal with in terms of individual slices of policy.

                        TEMPORARY WORKER PROGRAM

    Clearly, one piece of this is the issue of what the 
President has advocated addressing through a temporary worker 
program, finding a way to bring some portion of the people who 
come across the border not to do us harm, but to work, to bring 
them within the system.
    Senator Craig. Very important.

                STEPPED UP ENFORCEMENT ALONG THE BORDER

    Secretary Chertoff [continuing]. So that we have some 
control over them, and also we then reduce the pressure and we 
reduce the demand which gives the trafficking organizations the 
kind of resources they need to bring bad people across the 
border. Now that is one piece of a comprehensive package. 
Another piece has to be stepped up, enforcement along the 
border, including better deployment and more efficient 
deployment of border patrol, use of technology to give us a 
better span of control over who is coming across the border.
    Absolutely, the idea that there are laws that are tacitly 
not going to be enforced is dead wrong, and something certainly 
I do not endorse.
    When you talk about chain of command issues interfering 
with somebody apprehending persons coming across illegally, I 
have to say, I mean if there are bureaucratic obstacles to 
enforce in the law, I want to get rid of those. I have spoken 
to Border Patrol and to Commissioner Bonner about, in fact, 
breaking down the stove pipes that I think used to be. We used 
to have very regionally controlled, border sector controlled 
deployment of resources so that you had seams between the 
regions. Everybody took the view that, hey, I am going to worry 
about my region and that is all I am going to worry about.
    We have now moved away from that. Commissioner Bonner has 
put together a much more nimble program for deploying 
resources, which I think, again, is trying to break down those 
stove pipes. When I hear about these kinds of bureaucratic 
things, I do want to go out and see what the problem is and try 
to fix it.
    This problem has been around for a long time. When I was 
U.S. attorney back in the early Nineties we were talking about 
this. So I know it is not a new problem. I know there is a new 
urgency. And I think although there is a lot to discuss in 
terms of detail, I think there is a general view we have to 
take a comprehensive approach. And I really look forward to 
working with you and with everybody who is interested in this 
in putting together a comprehensive policy.
    Senator Craig. Thank you.
    Senator Gregg. Thank you. Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Well, thank you very much, Mr. Chairman.
    And, Mr. Secretary, thank you for being here today. You 
have been handed a very, very difficult job, and I commend 
Senator Gregg for his opening statement and agree we need an 
honest assessment from you of what resources we need for all of 
these difficult challenges.

                             PORT SECURITY

    I think everybody here shares the same goal of doing 
everything we can to make sure our country is secure and it is 
always difficult when we feel like we are not getting what we 
really need. We have heard a lot about border security. I 
obviously am concerned about the northern border. I know all 
200 of those, plus, are going to the southern border. We know 
that the northern border is a problem, but let me set that 
aside, because I want to focus on port security and cargo 
security, which you and I have had some time to talk about.
    I am very concerned. The Coast Guard commandant testified 
before us that it would take more than $7 billion to implement 
the Maritime Transportation Security Act. So far, Congress has 
provided a little over $500 million of that. I do not think any 
of that was requested by the Administration. That was Congress 
adding those dollars in.
    Now for the past 2 years, about a billion dollars in port 
security grants have come in to your agency, and the American 
Association of Ports Authorities say they need at least $400 
million to help secure port facilities this year.
    From our discussions I know port security is an important 
issue for you. You understand it is not only human life. It is 
economic disaster if we do not secure our ports. But it is 
disconcerting to me that the Administration does not ask for 
the dollars for these port security grants.
    Does the Agency just discount all the intelligence reports 
that tell us our ports are a significant risk, or what can we 
expect on this?
    Secretary Chertoff. No. I mean I do think ports are a very 
significant part of the infrastructure we have to work to 
protect. One thing I want to emphasize: You know, as we go 
through this process of reviewing the entire operation of the 
Department over the next couple of months, I try to look at the 
issue, whether it be ports or rail or aviation, in terms of an 
outcome or an approach.
    In other words, I don't want to know what each agency is 
doing. I want to know what we are doing in combination to deal 
with the issue of ports or rail or aviation, because that gives 
us our total sense of how good we are doing or how well we are 
doing in protecting ourselves.
    There are a number of dimensions to this. First of all, 
there is container security. We have begun a container security 
initiative, which pushes our screening and inspection process 
overseas. That is a very positive----
    Senator Murray. Well, I want to ask you about that 
separately in just a minute. What I want to ask you about first 
of all, is the port security--under the Maritime Transportation 
Security Act, our ports have to harden the ports, and they are 
just not getting the resources to do that.
    Secretary Chertoff. We want to make sure they get adequate 
resources, bearing in mind, again, with the philosophy of risk 
management, that we have to prioritize.
    Senator Murray. But the Administration is not requesting 
any money to do that, despite the fact that the commandant of 
the Coast Guard told us we needed $7 billion to do that.
    Secretary Chertoff. Well, I do think we have money in 
various grant programs that are requested in the budget that 
are available to be used for purposes of strengthening ports. 
We have infrastructure, proposing an infrastructure protection 
program. We have State grants. We have urban assisted--UASI 
grants.
    We have a lot of different kinds of types of grants, but I 
also have to say I think that the issue of how we protect the 
ports has to be looked at comprehensively. Coast Guard plays a 
role in that. Private parties play a role in that, and have----
    Senator Murray. I understand that----
    Secretary Chertoff [continuing]. Private obligations.
    Senator Murray [continuing]. But under the Maritime 
Security Act we directed all of these ports to give us a plan 
of how they were going to protect their ports, which they did. 
And they now have to implement it. They are not getting any 
money to do it. And we need a direct targeted program, the Port 
Security Grant program, to do that.
    So I want to work with you on that. I am just disappointed 
every time when the budget comes over with no money for that, 
because as you and I both know, a disaster at one of our ports 
is going to dramatically hurt not only human life, but the 
economy of this country, whether you are in a port city or not.

                             CARGO SECURITY

    But the other part of that is cargo security. And as you 
know, I have been really pushing to get some kind of 
coordinated port security regime in place. Everyone out there 
is trying their best to move those ports out, to follow our 
cargo from where they are loaded, into our ports here, and 
there is no coordinated approach to that.
    In the committee report from last year, we directed the 
Undersecretary of Border and Transportation Security to help us 
develop a plan for that coordinated approach. It was due 
February 8. We still have not gotten that yet. And I just feel 
like--we need the Administration--I have talked with you about 
this. I have talked with Commissioner Bonner. I have talked 
with a number of folks about it. And all we get is, ``We're 
going to study this.'' I know that you and I agree this is an 
important issue.
    How can we help you come up with a coordinated approach to 
secure our ports, all the cargo that moves through them, and 
the people who work and live there?
    Secretary Chertoff. Of course, I am very sensitive to 
being--you know, not saying we are studying something. So let 
me be a little bit more concrete.
    Senator Murray. Thank you.
    Secretary Chertoff. We need to take the issue of cargo and 
container security to whatever is considered to be the next 
level of systems sophistication. There are people in the 
private world who are very, very good at tracking everything, 
from point of departure to point of arrival. And there are 
processes and technologies that allow us to do that. And that 
is the kind of system we ought to be looking to moving toward 
in our container security initiative.
    CSI is part way towards that. The principle of moving this 
overseas is a good step in that direction. We have been meeting 
with, for example, the private sector, and shipping companies, 
to talk about ways we might, with greater specificity, track 
cargo from the time that it departs the manufacturer to the 
time it gets to the point of arrival, working with the private 
sector to have them build a security envelope.
    And again, through the C-TPAT program, we have got that 
process as a precedent. We do use that kind of process, so that 
eventually what we can do is put as much of the cargo through a 
security envelope from point of departure to point of arrival 
as possible, track it, screen it, have private sector take a 
lot of responsibility within that envelope for maintaining 
security, use technology to make sure we are not getting 
penetrations, and then, again, you are always going to have 
some cargo that does not fit within that envelope.
    We are deploying technologies like VACAS radiation portal 
and our National Targeting Center to focus on that subset of 
cargo that really needs a much tougher regime of screening and 
inspection. So that, I think, this is the way forward. And I do 
think we are working with a lot of diligence and a lot of 
urgency to move into that next level.

                           PREPARED STATEMENT

    Senator Murray. Well, I appreciate that. Mr. Chairman, it 
is a very complex problem. There are a lot of players in it, 
and what I think is most disconcerting to me is that we do not 
have a coordinated approach. Mr. Secretary, I hope we can get 
that report from you that was due February 8 so that we can 
really start moving forward to get that accomplished.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    Thank you Mr. Chairman. I want to join you, Senator Byrd, and the 
rest of our colleagues in welcoming Secretary Chertoff to the 
Committee.
    Mr. Secretary, I want to thank you for taking the time to meet with 
me prior to your confirmation. We had a good discussion about many of 
the issues we are going to talk about today.
    I know that you are still new to the job and understand that this 
budget request was formulated before you were nominated.
    I also understand that you have been handed a tough task in a very 
difficult time. But from our private conversations, I know that you are 
committed to keeping our country safe--and I look forward to working 
with you.
    That being said, I fear this Administration--through this budget 
request--is failing in this most important responsibility.
    Mr. Secretary, as you are well aware, the Department you now lead 
faces enormous challenges.
    Concerns that DHS is not meeting the Nation's security challenges 
are growing--in the Congress, and among the American public.
    Don't get me wrong, in fact, I believe Secretary Ridge and Admiral 
Loy did the best they could with the hand they were dealt.
    Merging so many complex entities into one organization was a 
monumental challenge. We all knew success wouldn't come overnight.
    But many of DHS' problems were created by this Administration 
because it didn't request adequate funding.
    Mr. Secretary, the Administration has many priorities--we all do.
    The bottom line is that current White House fiscal policy isn't 
consistent with providing the resources DHS needs to provide the level 
of security the American people deserve.
    To compound this problem, DHS has spent what funding has been 
available in a scattershot way. There appears to be very little rhyme 
or reason to how funding is allocated compared with actual threats.
    And, we are hearing about it on a daily basis.
    Just this morning, we're reading newspaper reports about financial 
mismanagement at TSA. I don't want to get into that now because I know 
you'll have an opportunity to respond this morning.
    But please know that it just makes it harder for us in Congress to 
help DHS succeed.
    Mr. Secretary, I want to work with you to ensure our budget will 
actually deliver the security we both seek for our country.
    But if we are going to work together, we need to be honest about 
what resources are necessary to do your job and let the Congress worry 
about budget priorities.
    For example, adding to what I believe is already an insufficient 
budget request, the Administration assumes user fees that we all 
recognize are not going to be approved.
    In fact--$2 billion of the $2.5 billion increase in the 
Administration's request would come from a 60 percent increase in 
airline passenger fees.
    Fees placed on the back of an industry that we all know is having 
significant financial difficulty.
    Mr. Secretary, these ``proposals''--if not accepted by the 
Committee--only make the funding problem worse.
    As I'm sure you are aware, the Senate has included $276 million for 
Immigration and Customs Enforcement (ICE) in the Emergency Supplemental 
Appropriations bill.
    This is funding that we all agree your agency desperately needs. In 
fact, many of us have known about this issue for quite some time.
    Last year, I asked Commissioner Bonner and ICE Assistant Secretary 
Garcia about a news report highlighting a budget shortfall that would 
result in a hiring freeze at ICE.
    At that time, I was told the problem was an accounting error 
resulting from combining budgets from legacy agencies.
    Now it's clear that it was a real budget shortfall and the Senate 
was forced to include this as new money--designated as an emergency--to 
enable ICE to lift its hiring freeze.
    Curiously, this money was not part of the Administration's 
supplemental funding request.
    Mr. Secretary, the Senate's action speaks volumes about how much we 
want this agency to succeed, but we need the Administration's help.
    We need realistic annual budget proposals--not reprogramming 
requests and not emergency supplemental requests.
    Mr. Chairman, I don't say this to denigrate the performance of any 
of the hard working men and women who serve us so ably on the front 
line. Like Secretary Chertoff's predecessor, they are doing a 
tremendous job with the tools they are provided.
    But, this Committee--and the Congress--must do a better job of 
providing oversight to this agency because right now we are failing the 
American public.
    Mr. Secretary, I know that you, Chairman Gregg, Senator Byrd and 
the rest of our colleagues care about these issues as much as I do.
    And, I don't want to dwell on this too much--but I think it is 
important context for the other specific issues that I'd like to 
discuss here today.
    I'm quite concerned that good intentions are not going to help us:
  --Establish a rigorous port and cargo security regime,
  --Protect our borders, or
  --Train our personnel correctly
    Mr. Secretary, I look forward to your testimony, working with you 
to address these issues, and ensuring our budget will actually deliver 
the security we both seek for our country.
    Thank you Mr. Chairman.

    Senator Gregg. Thank you, Senator.
    Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman.
    And I also would like to join my colleagues and welcome 
Secretary Chertoff here this morning. I am also new to the 
committee here, Mr. Secretary, and I am looking forward to 
serving under the able chairmanship of Senator Gray.
    I wonder sometimes if maybe we are not looking too much to 
a Federal solution and perhaps should not think a little bit 
more about what the local law enforcement along the borders. 
That is the counties along the borders. It is the States along 
the borders.
    This is homeland security. Everybody is talking about more 
money for Customs and more agents and whatnot, but I happen to 
believe that those people down along the border that form the 
Minutemen organization have some real concerns. I think they 
are really concerned about their property. I think they are 
really concerned about the safety of their families.
    I do not know whether any thought has been in trying to do 
more to support our local law enforcement along the borders. 
They are local elected officials. They know about those things. 
They understand the problems of their community. I wonder if we 
should not do the same thing with the State. The governor is 
elected by that State.
    I wonder if we should not consider targeting those 
counties, share with them more of the technology that we have 
developed at the Federal level, and take citizen groups, 
incorporate them. Deputize them. Have the local sheriff 
deputize them or whatever, or have your National Guard or 
whatever, bringing some responsibility.
    I am not implying that they have not been responsible at 
this particular point in time, but at least bring them under 
some organized law enforcement thing that traditionally has 
relied on citizens. That is why we have deputization process. 
That is why we have the National Guard.
    I wonder how much thought you have given to that, because 
all I am hearing from this committee and all I am hearing so 
far in this discussion is a Federal solution. I think we will 
get a better bang for the buck. I mean they are worth a lower 
salary level. They have more of a commitment in that safety 
because they live there. I wonder if you would comment on that.
    Secretary Chertoff. Well, we do work, actually, in the 
Arizona border control initiative, we are working. We have had 
a great working relationship with State and local law 
enforcement officials now.
    I guess depending on what community you are in, some law 
enforcement officials want to be involved and engaged in the 
process of enforcing the laws against illegal immigration. Some 
do not. I do not think we can make them do it.
    Clearly, though, we want to work cooperatively, because 
they are a force multiplier. And when we get well trained and 
we share information, and we get well-trained State and local 
enforcement officials, they are a welcome addition to the 
process of extending our ability to deal with the issue of 
illegal migration across the border.
    Senator Allard. Well, obviously, you have been in 
conversation with local elected officials. I just think we can 
do more. And I think I will be a voice on this committee, at 
least, for pushing you towards more of a local solution than 
something run out of Washington. I do not think we have all the 
answers necessarily here in Washington.

                       VISIT TO ONE OF THE PORTS

    The other thing that I would like to say in a positive way 
is there has been a few million years since we have had a 
coastline in the State of Colorado. So I made a personal 
concerted effort to visit one of our ports. I visited the port 
of Miami. And I will have to tell you, I was pretty impressed.
    And this is the very thing that you talked about in your 
previous testimony, I saw happening there. I saw technology 
developed at the Sandia Laboratories in New Mexico being used 
at that port. And I have to tell you that I feel much better 
about our port security.
    And I think sometimes we are looking at a 100 percent 
solution. I do not think the citizens of this country can 
afford a 100 percent solution. But I think we have to come up 
with some reasonable solutions that work. And I think what I 
saw there at the port, it was efficient, where they could 
handle a fair amount. I saw a lot of dedication there, and I 
was really pleased. I just have to tell you that.

                            AIRPORT SECURITY

    I think sometimes what we see happening in our airports, I 
wonder if maybe we have not gotten off track a little bit and 
expecting too much on security in airports. I think the most 
important thing we did and probably the most cost-effective 
thing is we put a door that was secure between the pilot and 
the passengers. But I do think that we need to take a hard look 
at what is happening at our airports to see if we cannot come 
up with some more common-sense solutions to what I see 
happening. So I think there are some good things happening 
there.

                     RUDENESS OF CUSTOMS EMPLOYEES

    On the other hand, I have also seen, as I have walked 
through Customs, and particularly in the State of Colorado, and 
I have been appalled at the rudeness of the employees there. I 
come from a State where I want to welcome people to my State as 
tourists. And I have been sort of appalled at some of the 
rudeness that I saw at Customs.
    So hopefully we can kind of improve our bedside manner a 
little bit. Remember that we have visitors coming to our 
country. We have visitors coming to our States.
    Secretary Chertoff. And they are not all criminals.
    Senator Allard. And if that--yes. And they are not all 
criminals. If the Federal employee does not treat them 
respectfully and with a welcome attitude, it hurts our tourism 
in our State. So I just want to call that to your attention.
    Thank you, Mr. Chairman.
    Senator Gregg. Senator Byrd.

                       STATUS QUO BUDGET REQUEST

    Senator Byrd. In fiscal year 2004, Immigration and Customs 
Enforcement (ICE) removed a record 150,000 illegal aliens from 
this country. However, we know that more than 10 million 
illegal aliens reside in this country. Two and a half million 
illegal aliens have overstayed their tourist or work visas. 
There are over 370,000 illegal aliens who have knowingly 
disobeyed orders to leave the country.
    ICE teams, Immigration and Customs Enforcement teams, 
deported 11,000 of them in 2004, but more than 35,000 others 
were added to the list. The system is not working, and this 
budget request does almost nothing to fix it.
    I have a border security amendment pending to the Iraq war 
supplemental, which is currently being debated on the floor of 
the Senate. My amendment is offset, responds to known security 
shortfalls on our borders, and responds to the concerns of many 
Americans, including the self-styled Minutemen who are 
performing a major community watch effort on the Arizona 
border.
    While there are, indeed, slight increases proposed for next 
year, the fact remains that both the Border Patrol and 
Immigration and Customs Enforcement are experiencing 
significant attrition this year. According to your agencies, 
137 Border Patrol agents have left the service since the 
beginning of the fiscal year. By the end of January, ICE had 
experienced a net loss of 299 positions.
    On average, you are filling 2,000 fewer detention beds a 
week than the level for which the Congress provided funds. The 
proposed increases for next year merely backfill the losses you 
are experiencing this year. In short, this is a status quo 
budget request.
    The crisis we are experiencing today on our borders 
deserves more than a status quo budget. Why should we be 
satisfied with a status quo budget, Mr. Secretary?
    Secretary Chertoff. Well, Senator, first of all, my 
understanding, again, of what we are proposing to do is that we 
are going to--when we talk about increases, we are talking 
about net increases. In other words, we are going to fund over 
200 additional Border Patrol Agents, 140 additional ICE 
investigators, almost 2,000 additional beds over and above the 
current level.
    Obviously, when people leave, we always backfill those 
positions, so that I think you have to add those numbers 
together. And we are talking about funding that would get us a 
net up-kick in all those categories.
    In fact, in terms of 2005, we have submitted a 
reprogramming to get more money to ICE so that even this year 
we can begin the process of starting to do some hiring to move 
them to the level they need to be.
    There is no question there is a serious issue, this whole 
issue of managing illegal immigration. What we have to do is 
use a comprehensive approach. We have to be able to have more 
people at the border, better technology at the border, all of 
which we are now pushing forward. Better investigative 
capability. Better and more available use of detention beds. 
And we are doing some additional things as well to free up 
beds.

                   REPATRIATION PROGRAM WITH MEXICANS

    For example, we are working with the Mexicans to begin the 
internal repatriation program in the next couple of weeks, 
whereby we transport Mexicans who come in back to interior 
locations so that they do not simply go back across the border, 
connect up with the same trafficking organizations, and then 
come back a couple of days later.

                           EXPEDITED REMOVAL

    We are using other kinds of techniques in terms of 
expedited removal to try to expedite the process of getting 
people that we do apprehend, moving them, again, across the 
border back to Mexico.

      ABSCONDERS AND VIOLATORS OF RELEASE ORDERS AND RETURN ORDERS

    We are now targeting for the first time enforcement of 
people who are absconders or who are violating release orders 
and return orders to make sure we are apprehending them, and we 
are, again, getting them and sending them back across the 
border. And we have to also be vigorous in enforcing the laws 
against people who are removed and then in violation of the law 
come back across the border again. We have not always succeeded 
in getting the kinds of sentences we need from judges in 
keeping those people who are violators, repeat violators in 
prison.
    So we are very concerned about it. We are taking steps to 
move forward on this. I am going to look at this issue. As I 
said previously to Senator Feinstein, I am going to go down to 
the border, I think, within the next 2 months and talk myself 
personally to the local people and our Border Patrol folks down 
there to keep moving forward on this issue.

                  SATISFACTION WITH STATUS QUO BUDGET

    Senator Byrd. Well, are you satisfied with the status quo 
budget?
    Secretary Chertoff. I am not satisfied with the status quo. 
We need to move forward. We need to be better about keeping our 
borders policed. We need to be better about tracking 
absconders. We need to be better about getting people removed 
efficiently. And I think as we look at the whole issue 
comprehensively, there are a lot of things we can do to get a 
better outcome.
    Senator Byrd. Mr. Secretary, you did not answer my 
question.
    Secretary Chertoff. Well, I think what I----
    Senator Byrd. Are you satisfied with the status quo budget?
    Secretary Chertoff. I think what I am saying, Senator, is I 
think our budget is not a status quo budget. I think it looks 
to net increases, and, therefore, I will tell you, I would not 
be satisfied with a status quo budget or a status quo 
situation.
    Senator Byrd. Finally, Mr. Chairman, we would look forward 
to your comprehensive approach. My amendment will provide you 
with real resources to implement your comprehensive approach.
    Thank you, Mr. Chairman.
    Senator Gregg. Senator Domenici.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you, Mr. Chairman.
    Senator Byrd, I will follow up on your questions and give 
my own observation after first saying thank you for the job you 
are doing. I look forward to visiting the border with you and 
some of the facilities that we have in our State, such as the 
DOE laboratories, to make sure you understand the competence in 
other departments of the government to help you do your work.
    Senator Byrd, I would say I laud your concern about doing 
more than we are doing, which is an answer to a status quo. We 
cannot stand the status quo. I do not know about a status quo 
budget. But we also cannot stand a status quo with reference to 
our current laws on migration and immigration.
    I mean they are adding to the problem, because it is a mix-
up and a mumble-jumble of things and agents do not know what 
they are supposed to do. I mean when we catch illegal aliens on 
this side and send them home, what are agents supposed to do 
when they come right back? I mean we did then look at it and 
say they are not doing their job.
    Senator Byrd. I am with you.
    Senator Domenici. It is embarrassing to see that we do not 
have a bill yet on the floor of the Senate on immigration. This 
is not a way to deal with immigration on a supplemental 
appropriation bill. I think you would agree with me. We need to 
debate this issue thoroughly, and it makes them do their job 
better and adds to the propriety of the United States.
    Senator Byrd. I have been singing that song for many years 
now.
    Senator Domenici. It is time. I am telling you, many of us 
agree with you, finally.
    Senator Byrd. Thank you.

       OBSERVATIONS REGARDING THE DEPARTMENT OF HOMELAND SECURITY

    Senator Domenci. Now having said that, first, let me say to 
you, people wondered when you got this job what somebody with 
your background was doing. I was at your side all the way, 
because I know what you are capable of doing. I want to laud 
you so far with the job you are doing. I want to give you a 
couple of my observations.
    First of all, you inherited a Department that was put 
together hurriedly. It is consequently a very hodgepodge 
Department. The sooner you yourself find out what was done that 
is not done right, what was done that might even be wrong, you 
ought to be the one finding out about those problems and fixing 
them, because they are going to be determined sooner or later. 
There are many of them up and down the chain of command of your 
Department, and you know that. I do not know how soon you can 
fix them, but I urge that you do so.
    My second observation is: Since we put the Department 
together this way, there is a multiplicity of activities that 
are, even though we thought we are putting them all together, 
that they are not all together, because there are many other 
facilities that do work of the type you need.
    I really urge that even though you have set up in the 
statute a function and thus a piece of your Department, that 
you resist your Department creating a total group of experts in 
every one of those niches. Because many of those experts 
already exist in the government, and you ought to use them. You 
are using them. I think you should just make that a policy.
    Somebody said, this distinguished Senator from Colorado, 
who shames me, he has been to see Miami, and I have not been to 
the border in 6 months, which is my own State. He has been way 
over there in the port of Miami. I ought to go see what is 
happening on my border.
    The problem is that in enforcing our laws, there exists 
terrific capacity in our national laboratories, in our Defense 
Department, and those who are studying unmanned aerial 
vehicles. You do not have to begin every program within your 
Department. Do I make sense?
    Secretary Chertoff. Yes. Absolutely, Senator. I mean I 
really do not want to rediscover the wheel, particularly if we 
have the wheel discovered elsewhere in the Federal Government 
or the State government, and the private sector. I mean we do 
not have the time to do everything ourselves.
    One of the observations I had when I came into the 
Department, two observations. One is completely consistent with 
your advice, that we really need to comprehensively review what 
we are doing. I give a lot of credit to Governor Ridge, and 
Admiral Loy and everybody who stood up in the Department, which 
was an enormous challenge. They did a lot in 2 years. It took 
the Defense Department decades to get to where it is now. And 
we do not have that time. So we should be willing to examine 
where we can adjust and make those adjustments.
    With your second point, Senator, a lot of what we bring to 
the table is a network. Nowadays in business, people talk about 
networking. We do not have to own or employ everybody in 
Homeland Security. We do not and we cannot. What we have to do 
is network with what is out there in our other Federal 
agencies, State and local partners, and figure out a way to 
make everybody work together and to coordinate those things.
    So even in my brief 2 months at the Department I have been 
very clear about saying that we ought to pay as much attention, 
if not more, to that networking function as we do to the actual 
physical assets that we own and the people that we have in our 
Department.

                          IMPACT OF NETWORKING

    Senator Domenici. Well, my time is running out. I am going 
to make one last observation. I will put it two in one.
    First, it seems to me, without question, that what you are 
doing out there in terms of networking is already having a big 
impact. I am not one who continues to carp on the fact that we 
do not have good homeland security, because I contend that 
nothing has happened since 9/11. And that is not an accident.
    I think we are doing a much better job at making it hard 
for terrorists than we give ourselves credit for. Now I do not 
need you to answer that, but if you can, you should. I mean 
everybody is just saying we are not doing anything, but why are 
the terrorists doing nothing? They keep saying they want to get 
America. They have not done anything yet. Thank God. Maybe 
tomorrow they will do it, and Domenici will be crazy. But that 
is one observation.
    And the second one is that it seems to be obvious that even 
though we want to address risks, we nonetheless want money to 
go to the States. And the new bill will do what you suggest, 
and put more money in risks and less in pork projects, 
allegedly. But I submit that this does not mean that all the 
heavily populated States are the harbors of all the risks.
    I mean in my State you have two national laboratories 
filled with nuclear activity, the center of nuclear weaponry. 
That is all I will say. You know what that means. Now you 
cannot expect New Mexico with .005 tenths of a percent of the 
money to assume the risk of the extraordinary activities.
    I would hope that if we give you a law that does what I 
have just said, that you have somebody looking at West Virginia 
and New Hampshire and New Mexico to say what else is there that 
is essential to our country and dangerous. I do not mean a 
football field. That is what people are saying. Every gym and 
football field, because people will assemble, ought to be 
protected. I do not know about that. You decide that.
    But I do know the place where nuclear weapons of the United 
States are in abundance shall not say, ``Well, that's old New 
Mexico. It's a rural State.'' Do you understand what I am 
saying?
    Secretary Chertoff. I absolutely do. As you have said, I 
think risk management is not about size of State or population 
or things of that. It is about individual pieces of 
infrastructure, individual networks of transportation. I mean 
population clearly is an element to be considered, but we have 
to have a much more sophisticated approach. And I think that is 
exactly what we want to drive to, is our risk management 
philosophy.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Gregg. Thank you. Senator Kohl, I appreciate your 
patience. Please take as much time as you think you need.

                     STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Thank you, Senator Gregg and Secretary 
Chertoff.
    I would like to talk about airport screening. For those of 
us, and it includes I assume most of the people here in this 
room, we are going through, as you know, a lot more intensive 
airport screening today than we were prior to 9/11. And yet a 
report came out this week which indicates that investigators 
have determined that things like knives, guns, and even fake 
bombs are still being processed through the screeners without 
detection.
    It is almost incomprehensible. I am trying to figure how 
that can be after all of the money and the effort that we have 
put in to trying to improve airport security for travelers. 
They talk about the need for new technology, additional 
technology, which we apparently do not have or have not yet 
been able to spend the money on.
    Can you tell us whether or not it is true that airport 
screening today is about at the level that it was before 9/11, 
and how soon it is that we are going to be able to improve it.
    Secretary Chertoff. I read the IG's report and I just spoke 
with the IG about it, because obviously I was very concerned 
about that. I do not have an independent way of verifying it, 
but I am not going to dispute it either.
    I was very concerned about the question of how do we move 
to the next level. Clearly, there are issues involving training 
and things of that sort, which are important, but I agree with 
the IG that technology is really ultimately what we have to use 
in order to get to the next level.
    We do have some good pilot projects and we do have some 
good technology. We are continuing to fund that, and I think 
that is a very promising development. I have to be completely 
forthright in saying we also have to make some difficult 
decisions about policy in order to decide if we are going to 
capitalize on that technology.

                         BACKSCATTER TECHNOLOGY

    For example, one form of technology that makes it easier to 
detect these kinds of threats is backscatter technology. That 
has certain implications for privacy, because it does 
essentially, in some form, allow you to look to see what 
someone is carrying on them that they may be concealing. And so 
there is sometimes resistance to that.
    I think we have to be prepared to say that we need to start 
to deploy these kinds of technologies and make appropriate 
adjustments for privacy if we are going to get to that next 
level. The technology is out there and it is being used. It is 
a question of the decision to deploy it and to try to balance 
that with legitimate privacy concerns, but not get so caught up 
in an endless debate about it that in 5 years we are still 
sitting there with the technology available and useful and 
helpful, but we have not put it out yet because people are 
still hand wringing about it.
    So I very much want to start to take the step of moving 
that technology out and continuing to press forward on the 
research and development side, but also not letting the perfect 
be the enemy of the good. If we can make things better, let us 
get them better rather than wait for the magic bullet that is 
going to solve everything.

                       IMPROVING AIRPORT SECURITY

    Senator Kohl. Yes, it is very surprising to me and I think 
to every traveler to think that in spite of all the money that 
we spent and the delays that we now go through at airports that 
we did not go through prior to 9/11, some people in the 
position to know are saying that airport security is about at 
the same point that it was then. This, I am sure, is a matter 
of great concern to you, and I hope that we can effect some 
improvements.
    Secretary Chertoff. Well, I intend to do so. It is 
troubling. I think we do have good capabilities in technology, 
and I think we have to now start to move the process forward. 
And I am very interested in seeing that we do that.

                         FOREIGN STUDENT VISAS

    Senator Kohl. Okay. I would like to talk about foreign 
student visas for a minute. As you probably know, there has 
been a significant increase in the time that it takes for 
foreign students to get their visas to enter this country to 
attend school. And as a result, the number of applications has 
gone down, the number of foreign students who are enrolling 
post-graduate has gone down. And universities all across the 
country are quite concerned about this.
    In 2003, it was indicated that 40 leading research 
universities reported that 621 students missed the start of 
classes because of visa delays. Now certainly we need to do the 
job of checking out, keep out those students who should not be 
here for security reasons, but is there not something we can do 
to increase our level of ability to move people through the 
process and allow them to get enrolled in universities?
    Secretary Chertoff. Well, we should. I have talked to 
Secretary Rice about this. We have already taken some steps in 
terms of lengthening the period of time a visa is applicable so 
that at least once we have passed someone through the screen 
they have an ability to spend more time without rechanneling 
themselves through the process. That is a positive development.
    Obviously, we need to do more in terms of our ability to 
vet people in advance, to do it more quickly. And we need to 
also, frankly, send the message out that we want to be 
hospitable in doing those things. So I think we are all 
committed in moving that forward.
    Again, I want to be fair and like I said be blunt in saying 
the schools also have to help, too, because we do encounter 
situations where people come in for schools and they do not 
show up or they leave the program. And, of course, we should 
know about that. The school should report that to us. And 
certain schools get a reputation as being easy marks for people 
who want to come and maybe not to study, but to do something 
else.
    If the schools do not cooperate with us, they make it very 
hard to run the program in a way that helps the entire spectrum 
of universities. So part of what we need to do is make it more 
efficient for people to get their visas, give them longer 
visas, but also make sure the schools live up to their 
obligation to let us know if people are abusing the system. And 
that is part of the tradeoff in order to make this work for the 
best interest of everybody.
    Senator Kohl. I thank you very much and I thank you, Mr. 
Chairman.
    Senator Gregg. Thank you, Senator.
    Senator Cochran was not able to join us today, but has 
submitted a statement for the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, thank you for accepting the job of chairing this 
important Subcommittee. You have some big shoes to fill, but I know you 
can do it.
    Mr. Secretary, you are off to a great start. We appreciate your 
visit to my State and the way you have moved quickly to identify the 
challenges facing the Department of Homeland Security.
    We need strong leadership in this important job and I know you are 
well-qualified to provide it. The main challenge is to coordinate the 
Nation's resources in this effort. Our greatest strength is the 
ingenuity of our public servants and citizens. With the proper 
leadership, we will meet these challenges.
    Our role on this Subcommittee is to provide you and your Department 
with the resources needed to carry out your responsibilities and we 
will work with you to identify the priorities.

                                  TSA

    Senator Gregg. Let me pick up on your question, because the 
TSA is an issue that I think just every American is a little 
frustrated with sometimes. And I guess my question is this, and 
it is a philosophical one.
    Once we hardened the doors and took away the capacity to 
use airplanes as missiles, private passenger airplanes as 
missiles, we changed the dynamic of the threat fundamentally. 
And yet we have created an agency which has what, 45,000 
people? And here we are on a border where we have 10,000 
agents, and we probably need 20,000 agents to do it right, have 
to be well trained, obviously, and there has to be an 
infrastructure to support them, and all that.
    Are we basically reacting to yesterday's threat? We have 
port security issues. We have border crossing issues. And yet 
we put a huge amount of resources into airport security 
without, it appears, any significant improvement in security 
relative to the ability to get weapons through security, and 
having addressed the fundamental threat, which is an airplane 
used as a missile.
    Secretary Chertoff. I asked myself that question coming 
into this job as well, and if I can just take a minute to break 
it into several different issues.

                           AVIATION SECURITY

    First of all, there is the issue of aviation security in 
itself. Are we optimally focused on what the real threat is? 
And I think you have put your finger on it, Mr. Chairman, when 
you indicated the first thing we have to be really pretty tough 
about is recognizing that there are degrees of consequence that 
we are worried about.
    The aircraft as a missile is the worst consequence. It is 
bad to have an aircraft blown up in midair, too, that may be a 
somewhat less significant consequence. It would certainly have 
tremendous ramifications across the airline system, and then 
there are yet other possible actions. So we have to frame the 
issue that way.
    We do have hardening of cockpit doors. There are other 
steps we can and should take to prevent the aircraft used as a 
missile. That might very well counsel to change or moderate or 
adjust our current levels for screening with respect to certain 
types of items, and increase our screening for other types of 
items.
    Maybe to use the proverbial example of nail clippers, which 
I do not think are being screened for now anyway, but maybe we 
need to be a little less worried about metal cutlery and a 
little more worried about explosives. So that is within the 
issue of aviation, and that is something we are actively 
looking at now.

                            EMERGING ISSUES

    The second issue is making sure our attention is not 
distracted away from emerging issues. We are looking heavily at 
the issue of rail security. We are looking at the issue of 
cargo. We have deployed non-intrusive inspection technologies. 
Those are very good. I have seen them work myself. You may very 
well have it as well. That is a positive step we are paying 
attention to.
    And as I said to Senator Murray, we are looking at this 
whole issue of cargo movement to see how we can use the modern 
supply chain, techniques, and technology to really make sure we 
are doing what we need to do to protect against bad cargo. So I 
am completely on board with the idea of making sure we are not 
distracted by the thing we have already done, spending a lot of 
time on that because we know how to do it and it is 
comfortable, rather than looking at the stuff we have not done 
as well that we need to elevate up.

                         MOVEMENT OF RESOURCES

    Senator Gregg. Yes. I agree. And I am glad you are looking 
at it that way. But I am asking, are we taking it to the next 
step, which is, you know, we are spending, I think, I have 
forgotten the numbers, $3.5 billion, some outrageous number, on 
TSA. But should we be moving that number to border patrol? 
Should we be taking a large percentage of that employee base 
and moving them over, if not as a direct personnel shift, as at 
least a resource shift, reducing the number of personnel at TSA 
and moving people to border patrol where we know we have a 
bigger risk right now relative to the potential threat.
    Secretary Chertoff. Well, I do not know, Senator, that I 
would do that, because I do not know that I would say that 
there is a bigger risk. I mean I do not want to go to the other 
end and minimize the aviation risk too much. I mean the reality 
is, even putting aside the aircraft as a weapon, if we were to 
have a series of explosions on airlines, or something 
comparable, that would have a humongous effect on the national 
economy and a humongous effect on our ability to move around.
    We want to have a smarter deployment of resources in the 
aviation security area, but we want to have the outcome be 
very, very good security in terms of things we are worried 
about. I do not know that, for a whole host of reasons, 
including training and skill sets, that we could simply move 
TSA people into----
    Senator Gregg. I do not think you could----
    Secretary Chertoff. Yes.
    Senator Gregg [continuing]. Move people, but I am talking 
about the dollars to support those people. I mean the threat to 
the aircraft now is, as you mentioned, an explosive probably 
more than a weapon, because you cannot take control of an 
aircraft with a weapon, theoretically. I mean maybe it is 
possible if you have a big enough weapon on board. But if an 
explosive is the threat, is it not really a technology response 
to that rather than a people response?
    Secretary Chertoff. I think that is right. I think 
ultimately the way to move to the level we need to get is 
technology, because I think there is an inherent limitation. 
People are limited by the technology. I mean you can be the 
best trained and the most well-intentioned person in the world. 
If your detection device does not let you get sufficient 
granularity or make distinctions between types of things, 
between the dangerous and not dangerous, that is limitation. So 
we need to get the technology to where it needs to do.
    That might ultimately allow us to reduce workforce, 
although I do not want to make a prediction that it is going to 
happen in the short term, because I still think there is an 
element of human judgment that you bring to bear that is still 
very important. But there is no question that we have to both 
invest in the technology, but also, as I said, roll out the 
technology we have and start to use it, rather than continuing 
to fuss around, you know, everybody having--I do not want to 
minimize privacy concerns. I have them as well. But we need to 
come to grips with them, we need to adjust for them, we need to 
reach a decision about how to accommodate them, and then we 
need to start to move forward.

                    THEFTS OF LUGGAGE OF PASSENGERS

    Senator Gregg. The problem I see coming here--well, this is 
just one element of the issue, but relative to TSA--is that 
with a report of literally thousands of thefts occurring in 
luggage of travelers, and it appears that a high percentage of 
those thefts are the responsibility or the actions of Federal 
employees of TSA, that we are probably going to have to 
institute a major camera program or something to monitor the 
search of luggage by employees. And so we are going to end up 
spending significant resources to protect ourselves from the 
employees who are supposed to be protecting us from damage on 
the planes. As a taxpayer I find that uniquely frustrating. And 
as a policymaker, I find it to be a terrible waste of 
resources.
    Secretary Chertoff. I agree. I mean, obviously, pilferage 
is completely unacceptable. And it is a bad State of affairs if 
we have to spend money protecting ourselves from people who are 
protecting us.
    I am convinced, of course, the majority of screeners are 
terrific and ethical and----
    Senator Gregg. I am sure that is true.
    Secretary Chertoff [continuing]. Things like that. But you 
are right.
    Senator Gregg. The track record, unfortunately, is that 
there is a large amount of--there is a big problem here.
    Secretary Chertoff. And that is why--I agree with you. The 
technology is really the way forward in terms of getting 
ourselves to where we need to go.

                         DHS INTELLIGENCE ROLE

    Senator Gregg. In the area of intelligence, I am not sure I 
understand, and I am new to this. Since the issue was moved out 
of CJS, and I am new to this committee, I am not sure I 
understand what the Department sees as its role in intelligence 
right now. It is clear that there was a conscious decision to 
give up the actual collection and analytical effort to other 
Federal agencies. You got IAIP, which I guess is stood up, but 
it seems to continually to be raided for its revenues.
    What do you see as the intelligence function of Homeland 
Security, of the Agency, in relationship to these other 
agencies and internally?
    Secretary Chertoff. Well, first of all, I think we are 
definitely in the business of collection. Let me explain what I 
mean by collection. We have thousands of interactions every day 
at the border and investigations with ICE agents at the 
airport. And many of those yield information which I would 
consider to be of intelligence value.
    We are in the process now of increasing our use of that 
intelligence and our collection of that intelligence, doing a 
number of different things. For the first time, we are putting 
reports officers into the operational units, meaning people who 
will look at the operational flow of information and say, wait 
a second, this is not just a trivial interaction. This is a 
piece of information that is useful from an intelligence 
standpoint. Let us make sure we capture it and send it up to 
our information analysis section so it can be fused and 
collected and then ultimately transmitted to the community.
    We have started to do that. I have seen the results. The 
Federal Air Marshals actually use modern technology to in real-
time report things they see on airplanes that could have 
intelligence value in terms of suspicious behavior, so we get 
identification of people that we need to be on the lookout for 
and we can then put that into a system that all of law 
enforcement can have access to. So we have a tremendous 
potential to be collectors, which I want to make sure we are 
fully exercising.
    The second piece of that is, once we get ourselves to where 
we need to be in collection and we continue this process, we 
can contribute to the whole community by putting that into the 
NCTC, which is the counter-terrorism center. And that was set 
up by Congress in the Intel Reform bill as the kind of fusion 
point for counter-terrorism intelligence.
    By putting that information in there, we are sharing with 
the community. We are also contributing. And my experience is 
that when you contribute as a partner, you then get full 
partnership. So I view that as a very critical piece of what we 
need to do to make sure we are sitting at the table with 
respect to everything else that comes in from the other parts 
of the intel community--overseas stuff, signals intelligence, 
human intelligence in other countries.
    The third piece is, as partners at the table, we need to be 
able to look at all that stuff and operationalize it. And right 
now in the Department we are talking about how we want to 
enhance the ability of IA, of information analysis, to collect 
all this from the central pool that we have at the NCTC, to 
translate into operational mandates to make sure we make 
adjustments at the border and other adjustments so that we 
actually make use of this intelligence.
    So that is my vision of where we are going. I have met with 
the acting head of NCTC. I have met with other main players in 
the community, and I have expressed my very strong personal 
interest in seeing that we get this done.

                    USE OF IDENT, IAFIS AND US VISIT

    Senator Gregg. Where do you see the technology situation 
relative to IDENT, IAFIS, and also relevant to US VISIT.
    Secretary Chertoff. As you know, Senator, IDENT was, I 
guess, the system that was stood up under the old INS, pre-9/
11. IAFIS is a system the FBI set up. Right now, as I 
understand it, we have the ability at ports of entry, at 
Customs and border-patrolled posts, to access both of those 
databases at the same time. They are separate databases, but we 
can run prints against both of those databases.
    Now IAFIS is a ten-print database. So ultimately there is a 
decision which we need to reach about implementing a way to get 
to making effective use of a ten-print database. And I think 
there is a technological challenge there and there are some 
policy decisions that we are in the process of making.
    I think we made a lot of progress in making both databases 
accessible at a single point at the border and at our border 
and customs stations. We have not fully exploited the 
technology. We need to continue the process of building an 
architecture that lets us get the maximum use out of our 
biometric data that we capture and run it against the maximum 
number of databases.
    Senator Gregg. US VISIT.
    Secretary Chertoff. We have deployed it at our airports. We 
have deployed it at seaports. We have deployed it at our 50 
most significant land border entry points. We are starting to 
pilot it at the exit points.
    It has been very successful. I have seen it operate. It is 
fast. We have captured people on it that we should not be 
letting in the country and we have been able to turn them away.
    You know, it can be improved, and we can make better use of 
it. But it is, I think, the key to the next generation of 
keeping our borders secure.

                   PREPARATION FOR BIOLOGICAL ATTACK

    Senator Gregg. What do you see your success relative to 
preparation for an attack that might be biological?
    Secretary Chertoff. As you know, Mr. Chairman, we just 
finished TOPOFF III, which was a massive exercise done 
internationally and in two States, which had a hypothetical 
biological attack. I have met with Secretary Levitt. We have 
talked about some preliminary lessons learned. We are doing a 
very comprehensive review of that to make sure that we have the 
following things in place.
    First of all, we have an adequate stockpile of the kinds of 
antidote where we have them or vaccinations where we can have 
them against the likely agents; that we have very particular 
plans in place for distributing that type of vaccine or that 
type of antidote, if we should have an attack; and that we are 
fully integrated across the board in terms of our standards for 
reporting biological incidents.
    You know, we had that anthrax false scare about a month 
ago. We did a very vigorous review of that. We have made some 
changes now with the Defense Department as well as with our 
Department in making sure we are operating with the same set of 
standards. And we are now working across the Federal Government 
to test to make sure everybody has got the same template for 
what we are sensing, what constitutes a positive finding, when 
do we get to the point that we need to take steps to get people 
inoculation or antidote.
    Again, we have got progress to make. I think we have 
learned a lot of lessons, both recently and going back, and I 
think we have a program in place to start to move ourselves to 
a position of readiness for what, I agree with you, is one of 
the two or three worst-case scenarios that we have to be 
prepared for.

                            TOPOFF EXERCISE

    Senator Gregg. It is interesting. When I was on the 
Commerce and Justice Committee, when I was chairman of that, we 
began the TOPOFF exercise program over the strong resistance, 
ironically, of almost every Federal agency. We simply insisted 
we do it. It has now turned into a very successful program.
    But I was interested when I was at the TOPOFF exercise this 
year that neither New York City nor Los Angeles were--I guess 
Washington, marginally, participated in the major TOPOFF 
exercises there. I guess that is because they have not been 
asked to do it, or agreed to do it.
    It would seem since they are priority areas, that we would 
want in our TOPOFF exercises to go to places where the actions 
may actually most likely occur.
    Secretary Chertoff. I was not involved in, I guess, the 
selection for 2003 and I guess the selection for the next one 
was made before I came on. I know people do apply and then a 
decision is made.
    I know Chicago did the last one, I think, TOPOFF II. 
Northern New Jersey and Connecticut are part of the New York 
metropolitan area, so we did exercise some pieces of this.
    I agree, at the end of the day--by the way, we should be 
doing tabletop exercises, meaning not maybe the full TOPOFF, 
but something all across the board. I wondered myself how 
valuable it was, and I have to say I was convinced that it was 
of tremendous value.
    I learned a lot and I think a lot of people learned a lot 
by testing the system. So I am in favor of doing at least some 
kind of exercise as an important part of our preparedness.
    Senator Gregg. Well, I would hope that the Department would 
take a look at whether or not we should not do them to some 
degree based on the threat criteria versus just the willingness 
of a governor to participate or a State to participate.
    Well, I appreciate your time. I have two last questions.

                   STABILIZATION OF SENIOR MANAGEMENT

    There is a large amount of open slots and acting slots. 
What do you see relative to senior management getting it up and 
stable?
    Secretary Chertoff. I am concerned, obviously, as a 
secretary who does not want to have to do every job himself, to 
make sure we have very good people. I am pleased to say we have 
filled some of those spots. We have got others where we have 
nominations pending before the Senate. Obviously, the more 
quickly we can fill those spots the better.
    We want to get the right people. We want to get people who 
have the energy and the creativity to make the Department what 
I think it can be, going to the next level. And part of what we 
are trying to do, frankly, is to recruit and bring people in to 
top slots that bring a variety of different perspectives.
    I think it is good to have people with military 
backgrounds, people with law enforcement backgrounds, people 
with business backgrounds, people with first responder 
backgrounds, because ultimately our success involves merging 
functions, and that means merging skills.
    So we are actively out there finding the right people. The 
President has got some nominations in and has made some 
appointments already. And I am, for personal as well as 
professional reasons, very eager to get this process done as 
quickly as possible.

          NEED FOR ADDITIONAL ASSISTANCE FROM THE SUBCOMMITTEE

    Senator Gregg. And lastly, beyond approving your budget, 
which I suspect we will do and actually probably do more than 
your request, is there anything this committee can do to be 
helpful in the legislative or other areas?
    Secretary Chertoff. There may well be as we complete this 
process of second-stage review that we will have some 
recommendations to make for some legislative action that would 
align us better in terms of what we need to be able to generate 
for outcomes. And I will look forward to when we get to a point 
that we can, I think, have some recommendations sitting down 
with you and the other members of the subcommittee and talking 
about those, and trying to adjust as much as possible.
    One thing I do want to thank you for is the subcommittee's 
commitment to make sure that we get real discretion in terms of 
using risk management as a way of handling issues like funding 
and all of our functions, as opposed to--I know from what I 
read in the paper that the lobbyists continue to view DHS as a 
wonderful--I think one used in a newspaper article the term 
``pots of money'' for the clients.
    I do not view us as pots of money. I view us as having an 
obligation, both as stewards of the public money and as 
stewards of the public safety to make sure that what we do with 
our money that Congress appropriates for us is based on sound 
judgment and risk management, not based on lobbyists trying to 
get their clients into the pots of money.
    Senator Gregg. Well, I agree with you. In this issue, first 
off, funds should be distributed on the basis of threat; and, 
secondly, earmarks should be used only in the extreme situation 
where Congress has a very legitimate policy reason that feels 
that the Administration is not pursuing. So I presume that will 
continue to be this committee's approach.
    Secretary Chertoff. Right. Thank you very much, Mr. 
Chairman.
    Senator Gregg. Thank you, Mr. Secretary, for all your time. 
I appreciate your courtesy.
    Secretary Chertoff. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Gregg. There may be members who wish to submit 
questions to the Department. As is typical, we presume they 
will be answered in a prompt way.
    Secretary Chertoff. Absolutely.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Judd Gregg

                 COMPREHENSIVE REVIEW OF THE DEPARTMENT

    Question. Secretary Chertoff, in your first speech after being 
confirmed Secretary of Homeland Security; you announced that you had 
initiated a 60 to 90 day comprehensive review of the organization, 
operations and policies of the Department as a whole. You discuss that 
review more fully in the prepared statement which you have submitted to 
the Committee.
    You are now some 30 days into that review. Can you share any of 
your preliminary findings with us at this point, including any 
preliminary conclusions you may reach on what's working and what is 
not?
    Answer. The comprehensive review of the Department is complete. I 
gave a speech on this topic on July 13 where I outlined our preliminary 
conclusions, the text of which can be found at the following website: 
http://www.dhs.gov/dhspublic/display?content=4597.
    Question. You indicate that the Deputy Secretary Michael Jackson is 
overseeing this review and has selected a team of Department officials 
to look at cross-cutting issues and determine how departmental 
resources and programs can be effectively used to achieve our security 
goals. Do you intend to involve others outside of the Department in 
this review?
    Answer. Other Federal agencies were included in this effort where 
appropriate. Moreover, while the committee was comprised exclusively of 
DHS employees, we considered recommendations from our state, local, 
tribal, and private sector partners, among others.
    Question. What cross-cutting issues are you looking at? How were 
those determined?
    Answer. We looked at all areas to examine the mission and work of 
all DHS elements to ensure that we have the best organization, 
operations, and policies possible to most effectively protect and 
safeguard this Nation. Notable examples of areas in need of greater 
cross-cutting included maritime cargo security, information sharing, 
and immigration policy. As a matter of process, the senior leadership 
of the Department was asked to identify the key issues that should be 
evaluated as part of the comprehensive review. The issues were then 
reviewed by me and the Deputy Secretary to identify further and refine 
cross-cutting topics that encompassed the key issues identified by the 
senior leadership.
    Question. As you are aware, we are fast-approaching the time when 
the Committee will make decisions on the Department's appropriations 
for fiscal year 2006. The budget request now before us is based on the 
Department's current structure and operations. Therefore, we are very 
interested in staying abreast of what changes are being contemplated 
and recommended.
    What is your time frame for concluding the review and for making 
any changes you determine are necessary, including those that might be 
done through your reorganization authority or require the submission of 
a legislative proposal or fiscal year 2006 budget amendment to the 
Congress for consideration?
    Answer. The comprehensive review of the Department is complete. I 
gave a speech on this topic on July 13 where I outlined our preliminary 
conclusions, the text of which can be found at the following website: 
http://www.dhs.gov/dhspublic/display?content=4597.
    We have also outlined our reorganization plan in detail in our 
Homeland Security Act Section 872 report, which was submitted to 
Congress after we completed the Second Stage Review (2SR). Further, a 
few of our recommendations will require congressional action. We have 
submitted legislation accompanying the 2SR Report that, once passed, 
will effectuate the reorganization changes we believe are necessary for 
the Department's success. It is important that our draft legislation be 
passed in its current form.

                       INTERNATIONAL PARTNERSHIPS

    Question. How will the Security and Prosperity Partnership of North 
America announced last month promote and foster a mutually beneficial, 
common security system along our borders?
    Answer. On June 27, in Ottawa, Canada, U.S. Department of Homeland 
Security (DHS) Secretary Michael Chertoff and Department of Commerce 
Secretary Carlos Gutierrez and their government counterparts in Mexico 
and Canada released the first report of the Security and Prosperity 
Partnership (SPP) of North America that identifies initial results, key 
themes and initiatives, and work plans that further promote the 
security and prosperity of North America. The SPP countries agreed to 
these, and other, North American security goals:
  --North American Trusted Traveler Program.--All three countries have 
        agreed to create a single, integrated program for North 
        American trusted travelers by 2008. Individuals applying for 
        trusted traveler status would be able to apply for the program 
        and pay relevant fees in one transaction. Enrolled participants 
        would have access to all established trusted travel lanes at 
        land crossings, airports and marine programs. A single North 
        American Trusted Traveler Program embodies the intent of the 
        SPP to establish optimum security goals while accelerating 
        legitimate cross-border trade and travel. The United States 
        will also be working cooperatively to identify Western 
        Hemisphere travel document standards required under the 
        Intelligence Reform and Terrorism Prevention Act of 2004 
        (IRTPA).
  --Preparedness and Incident Management Systems Integration.--The 
        United States, Canada and Mexico have agreed to transform North 
        American preparedness for response to large-scale incidents by 
        establishing protocols for incident management that impact 
        border operations within 12 months. Protocols will also address 
        maritime incidents, cross-border public health emergencies and 
        cross-border law enforcement response. The SPP countries have 
        also committed to ensure interoperable communications systems 
        and to participate in preparedness exercises that will 
        strenuously test these protocols. In addition, the three 
        countries will participate in a preparedness exercise in 
        anticipation of the 2010 Vancouver/Whistler Winter Olympics.
  --Border Enforcement.--The United States and Mexico will form joint 
        intelligence-sharing task forces along the U.S.-Mexico border 
        to target criminal gang and trafficking organizations and 
        reduce violence along the border. The United States and Canada 
        will coordinate maritime enforcement programs to address the 
        huge volume of boat traffic in our shared waterways.
  --Facilitated Flow of Legitimate Cargo and Travel Across Land 
        Borders.--The United States, Canada and Mexico have agreed to 
        review our transportation and border facility needs, in 
        partnership with stakeholders, and develop a plan to prioritize 
        future port-of-entry-related infrastructure investments. All 
        three countries are considering programs to reduce transit 
        times and border congestion by expanding trusted traveler 
        programs to additional ports of entry and partnering with 
        public and private sector stakeholders to establish ``low-
        risk'' ports of entry for the exclusive use of those enrolled 
        in our trusted trade and traveler programs. The United States 
        and Canada, along with local stakeholders, are working to 
        reduce the transit times by 25 percent at the Detroit-Windsor 
        gateway within 6 months, and all three countries are exploring 
        ways to expand this innovative 25 Percent Challenge to other 
        North American land border crossings within the next 18 months. 
        By December of this year, the United States and Canada 
        governments expect to complete an agreement on a pre-clearance 
        pilot program at the Peace Bridge in Buffalo, NY, contingent on 
        Canadian legislative amendments. Within 6 months, both 
        countries will also develop a plan to expand the Vancouver 
        NEXUS-Air pilot program to other United States air pre-
        clearance sites in Canada and examine the feasibility of 
        expanding the eligibility for NEXUS-Air to include Mexican 
        nationals.
  --Shared Watchlists and Integrated Traveler Screening Procedures.--
        The United States, Canada and Mexico have agreed to strengthen 
        information sharing related to terrorists and criminals. 
        Effective information exchange among North American countries 
        is essential to strengthening our capability to prevent acts of 
        terror within and outside North America. The United States, 
        Canada and Mexico have also agreed to establish compatible 
        screening standards for land, sea and air travel to identify 
        and prevent high risk travelers and cargo before they depart 
        for North America. Additionally, recommendations will be made 
        on the enhanced use of biometrics in screening travelers 
        destined to North America. On an ongoing basis, the SPP will 
        enable all three countries to address and resolve gaps in 
        cross-border information sharing. Ultimately, all travelers 
        arriving in North America will experience a comparable level of 
        screening.
  --Maritime and Aviation Security.--The SPP countries will also be 
        working toward comparable standards for hold baggage and 
        passenger screening, implementing no-fly programs throughout 
        North America, and developing new protocols for air cargo 
        inspection. Likewise, we will also be working to develop 
        compatible maritime regulatory regimes and to strengthen 
        information sharing and coordinated operations in the maritime 
        domain.
    Question. What role will the Department have in this initiative?
    Answer. The Department is taking a lead role in implementing the 
SPP's Security Agenda, in cooperation with other Federal agencies. The 
Department has been tasked with convening working groups with Canada 
and Mexico to develop and implement concrete work plans and specific 
timetables to meet the broader goals associated with the SPP's Security 
Agenda. Additionally, the Department is continuing to work with the 
Department of Commerce, which is taking a lead role in the development 
and negotiation of a complementary Prosperity Agenda, and the State 
Department, who is taking a coordinating role to best align efforts.
    Question. Under the Western Hemisphere Travel Initiative recently 
proposed, how will the Department ensure that NEXUS is universally 
available on the Northern Border by the time the new document 
requirements are imposed at land ports of entry?
    Answer. To keep pace with the potential impact of the WHTI, DHS 
plans to expand the enrollment process as well as potentially opening 
additional ports of entry with regards to NEXUS program along the 
Northern Border. Concurrently, we are also examining potential resource 
needs to accommodate additional demands of these programs as a result 
of the WHTI. As part of the Western Hemisphere Travel Initiative 
(WHTI), DHS will be issuing an Advance Notice of Proposed Rulemaking 
(ANPRM) to solicit comments from the public and affected entities 
regarding the requirements and alternative documents that may be 
designated by the Secretary to demonstrate citizenship and identity for 
entry. As required by the President, we are and will continue to 
examine, in response to comments on the ANPRM, other potential 
documents that may be designated for the land border environment in 
advance of the January 1, 2008, deadline.
    Question. How is the Western Hemisphere Travel Initiative going to 
work with US VISIT, since US VISIT is implementing the tracking of 
entries and exits across our borders?
    Answer. The Department will coordinate the implementation of the 
Western Hemisphere Travel Initiative with US VISIT enrollment to 
facilitate travel and to ensure security at our Nation's borders.
    Question. Will US VISIT manage this initiative?
    Answer. US VISIT is playing an active role in this initiative.

                        MANAGEMENT AND STAFFING

    Question. Executive agencies need to rely on a stable bureaucracy 
to keep things running during leadership transitions. The Department 
has significant vacancies in top leadership positions and significant 
turnover in senior- and mid-level managers.
    Mr. Secretary, what is your time frame for putting your management 
team together?
    Answer. I agree that we do not want any unnecessary delays in 
filling these vacancies. At the same time, however, we want to make 
sure we get the right people to fill these positions. We want to bring 
people on board who have the energy, creativity, and a variety of 
perspectives to further the Department's mission and enable us to move 
to a next level of achievement. The President has forwarded several 
nominations to the Senate for consideration, and we will move as 
quickly as possible to fill remaining vacancies.
    Question. What disruptions are the current vacancies in confirmed 
leadership positions having on the Department?
    Answer. For every vacancy in a leadership position, an employee has 
been identified to serve in an Acting capacity until a person is 
confirmed to fill the position. While we are striving to fill vacancies 
as quickly as possible, these dedicated employees have risen to the 
challenge of fulfilling the requirements and obligations of these 
leadership positions and have maintained the Department's activities 
and efforts.
    Question. What is your assessment of the difficulties the 
Department has experienced attracting, hiring or keeping qualified 
personnel and what is being done to correct this situation?
    Answer. DHS faces many of the same problems with recruitment and 
retention that plague most Federal agencies--cumbersome recruitment and 
hiring processes, lack of competitive salaries, and poor performance 
management and recognition programs. Fortunately, our mission is 
inspiring to many, and we usually are able to attract well-qualified 
candidates in spite of these impediments. However, we need to continue 
to improve to stay competitive for the very best candidates.
    DHS has a Human Capital Strategic Plan that aggressively addresses 
effective recruitment, development, compensation, succession 
management, and leadership issues. A major priority in this Plan has 
been streamlining the DHS hiring processes to meet the Federal standard 
of 45 days. A common DHS recruitment brand with state-of-the-art 
recruitment materials has been established to ensure effective and 
consistent external representation of DHS in the hiring process. These 
initiatives will enable DHS to maintain viable recruitment networks, 
particularly in mission critical occupations.
    A consolidated DHS Workforce Plan was completed in March 2005 that 
establishes a baseline for workforce trend analysis for mission 
critical occupations. This Plan also enables component organizations to 
plan well in advance for upcoming recruitment needs. Where potential 
occupational gaps exist, human capital strategies will be identified 
and implemented.
    MAX, the new human resource system for DHS, will have both market-
sensitive pay and a robust performance management process, which will 
enable DHS to be more competitive in its recruitment process and more 
effective in retaining and motivating employees.

                      DEPARTMENTAL REORGANIZATION

    Question. Reorganizing seems to be a sport within the Department 
these days. At what point does continued reorganization impede the 
ability of the Department to get its job done?
    Answer. The Department's reorganization plan will significantly 
enhance, not impede, our ability to meet our current and future 
objectives. The Department recently passed its 2 year anniversary mark. 
In that short time, 22 separate agencies were brought together, and the 
work of integrating those agencies into a working structure began. We 
are now taking advantage of 2 years of experience, an opportunity 
unavailable to our predecessors, to implement a reorganization plan 
that takes the Department to the next level, best positions us to 
manage our current and future responsibilities, and helps us better 
adapt to current and future threats and disasters.
    Question. On the other side of this issue is the continued 
viability of the current organization of the border management 
agencies. DHS has moved organizations into ICE; it has moved 
organizations out of ICE. We have poured almost $800 million in 
additional resources into ICE over the last 2 years, including $276 
million in the Senate-reported fiscal year 2005 emergency supplemental. 
Is ICE a viable stand-alone organization or should it be broken up and 
have its responsibilities merged into other parts of the Department of 
Homeland of Security such as CBP?
    Answer. As you know, the Department looked at a variety of 
organizational issues as part of the second-stage review process, which 
helped clarify where the Department needs to be organizationally to 
ensure effective implementation of our critical missions. We considered 
whether ICE should remain a stand-alone entity, and decided that it 
should. We believe it's in the Department's best near and long-term 
interest that ICE not be merged with another component, CBP in 
particular. To reach this decision, we focused on the operational 
mission needs of both CBP and ICE, not on the near-term management 
challenges. I take seriously the challenges the Department has faced 
concerning ICE and appreciate the difficult but necessary choices 
Congress has made in providing new funding to address its needs. I am 
confident, however, that ICE has made substantial improvements in 
financial management this year. Not only have substantial new resources 
been provided, but a new management team is taking shape.

                      HOMELAND SECURE DATA NETWORK

    Question. The fiscal year 2006 President's budget contains the 
first request to the Appropriations Committees regarding the Homeland 
Secure Data Network (HSDN). Why should funds be appropriated for HSDN 
now when the Department has seen fit to absorb $79 million in the past 
2 years and not seek proper appropriated dollars for this purpose?
    Answer. Anticipating the need to share intelligence and other 
information securely to fulfill its homeland security mission and to 
ensure efficient and effective use of scarce funds, the DHS CIO 
streamlined and merged disparate classified SECRET network initiatives 
within the Department into a single secure network called the Homeland 
Secure Data Network (HSDN). Existing agency funds for these initiatives 
were used to stand up this critical infrastructure. However, the fiscal 
year 2006 funding request is needed to use the additional funds to 
expand HSDN into a major, secure information thoroughfare joining 
together intelligence agencies, law enforcement, disaster management, 
and front-line disaster response organizations in the common goal of 
protecting our Nation and its citizens. An expanded HSDN will provide 
Secret connectivity and the required efficient information sharing 
capability to the non-DOD government community.
    Question. Does DHS have the ability to share classified information 
today? If yes, why does a stand-alone system need to be built for DHS?
    Answer. Today only a few Homeland Security components have the 
ability to share classified information over the DOD's SIPRNet. The 
present HSDN capabilities currently support over 30 DHS sites and will 
expand classified connectivity to 60 DHS sites in the next 2 months. 
DHS, and the non-DOD, government sector (including other Federal, 
State, local and tribal government) require the infrastructure and the 
processes and procedures to share classified information wholly 
effectively. The HSDN is an essential step that will allow the 
efficient sharing of classified information required for the mission of 
protecting the homeland. DOD policy in the wake of September 11, 2001, 
has been to migrate non-Defense, homeland security classified 
communications off SIPRNet and onto the HSDN. The DOD policy is based 
on the desire to ensure the SIPRNet can effectively support the war-
fighting mission. DOD and DHS have established a joint, controlled 
interface between SIPRNet and DHS to provide for several levels on 
connection between HSDN and SIPRNet based on policy.
    Question. Why isn't the budget for this project consolidated? Why 
is it being funded by specific organizations of the Department?
    Answer. HSDN has rapidly evolved from an initially conceived agency 
specific network to a presently deploying DHS-wide network based on 
mission needs. HSDN is funded by charging each agency based upon the 
HSDN usage by that agency during a yearly time period. The working 
capital fund has served as a method to consolidate organizational 
element funding to support a single HSDN capability. The specific 
organization funding level will be adjusted as the usage requirements 
of each agency change over time.
    Question. What is the rationale for how much each agency is being 
charged for HSDN?
    Answer. The HSDN rationale for charging each agency is based upon 
the HSDN usage by each agency during a yearly time period. Presently, a 
formula has been developed that charges an agency based on its HSDN 
participation. Basically, this formula develops a percentage by agency 
based on the number of locations (sites) and the number of terminals 
(workstations) installed. The number of sites (large, medium and small) 
and seats is a usage-based cost model. Site size is an industry 
standard such applied by an internet service provider who charges are 
based on the size of your site (bandwidth of the connection). The usage 
is also determined by the number of seats. While some sites will allow 
multiple users for a single workstation, the number of seats sets the 
usage level at the site.
    Question. The Information Analysis and Infrastructure Protection 
Directorate has in its budget the Information Sharing and Collaboration 
program. One of its responsibilities is ``fostering collaboration among 
various levels of government and the private sector through the 
creation of a secure information sharing environment capitalizing on 
existing opportunities''. How does this project relate to HSDN? Are 
these duplicative or complementary efforts?
    Answer. These are complementary efforts. In May 2004, my 
predecessor, Secretary Ridge, created the Information Sharing and 
Collaboration (ISC) initiative to coordinate and facilitate efforts 
throughout the Department and with our customers and partners, 
particularly the Federal, State, tribal and local governments, and the 
private and international sectors, to affect change and improve 
information sharing and collaboration to secure the homeland. Since 
then, the importance of information sharing has been made more evident 
through the publication of numerous reports (such as the 9/11 
Commission Report, the Commission on the Intelligence Capabilities of 
the United States Regarding Weapons of Mass Destruction, and GAO 
studies), the issuance of new Executive Orders (for example, E.O. 
13356), and a new public law, Public Law 108-458, the Intelligence 
Reform and Terrorism Prevention Act of 2004. Section 1016 calls for the 
creation of an Information Sharing Environment, which will require the 
sharing of information at levels including unclassified, sensitive but 
unclassified, SECRET, and perhaps higher.
    Anticipating this need to share intelligence and other information 
securely to fulfill its homeland security mission, DHS is streamlining 
and merging disparate classified SECRET networks into a single, 
integrated network called HSDN. We envision that HSDN will become a 
major, secure information thoroughfare joining together intelligence 
agencies, law enforcement, disaster management, and front-line disaster 
response organizations in the common goal of protecting our Nation and 
its citizens. The ISC does not build systems or operate networks, such 
as the HSDN. The ISC initiative ensures system and network investments 
support DHS' information sharing mission.

            OFFICE OF SCREENING COORDINATION AND OPERATIONS

    Question. The President's budget proposes to create the Office of 
Screening Coordination and Operations, or SCO, within the Border and 
Transportation Security Directorate. How do you see this new office 
contributing to the Department's ability to implement the 9/11 
Commission recommendation regarding a comprehensive screening system 
with system-wide goals?
    Answer. I support the concept of a Screening Coordination and 
Operations (SCO) Office, and developed plans through the 2SR process to 
meet the goals of the office. Consistent with the 9/11 Commission 
recommendations, HSPD-11 and HSPD-12, the SCO office will develop a 
more unified, comprehensive and efficient system for the screening, 
credentialing, and redress for passengers and leverage current 
investments in screening systems and tools. The SCO will harmonize IT 
architecture, uniform redress policies, and provide coordinated or 
shared services such as card production, biometric/biographic 
databases, as well as set DHS standards for information technology 
enterprise architecture and global enrollment systems/processes. The 
SCO office will develop a consistent approach for outreach in the areas 
of privacy, civil rights, and will coordinate R&D efforts. DHS will set 
up the SCO office in fiscal year 2006, as reflected in the Department's 
revised fiscal year 2006 request.
    Question. Should the SCO have actual operational authority for 
various screening programs as proposed, or should it focus on the 
integration and coordination function, for example the development of 
the Department-wide credentialing standards necessary across so many 
programs involved in this activity?
    Answer. I support the concept of a SCO Office, and developed plans, 
through the 2SR process, to meet the goals of the office. Consistent 
with the 9/11 Commission recommendations, HSPD-11 and HSPD-12, the SCO 
office will develop a more unified, comprehensive and efficient system 
for the screening, credentialing, and redress for passengers, while 
leveraging investments in screening systems and tools. The SCO will 
harmonize IT architecture, establish uniform redress procedures, and 
provide coordinated or shared services such as card production, 
biometric/biographic databases, common DHS standards for information 
technology architecture, and global enrollment systems/processes. The 
SCO office will develop a consistent approach for outreach in the areas 
of privacy, civil rights, and helping to ensure coordinated R&D 
efforts. DHS plans to set up the SCO office in fiscal year 2006.
    Question. At the same time that significant programs are being 
proposed to be moved from Customs and Border Protection and the 
Transportation Security Administration, the President's budget does not 
propose moving the operational responsibility for any of the programs 
that incorporate screening of applicants out of U.S. Citizenship and 
Immigration Services (CIS). In order to ensure that there is the 
closest possible coordination across screening programs, should CIS 
screening programs also be moved to the SCO? Why wasn't CIS included?
    Answer. I support the concept of a SCO Office, and developed plans 
through the 2SR process to meet the goals of the office. Consistent 
with the 9/11 Commission recommendations, HSPD-11 and HSPD-12, the SCO 
office will develop a more unified, comprehensive and efficient system 
for the screening, credentialing, and redress for passengers and 
leverage current investments in screening systems and tools. The SCO 
will harmonize IT architecture, uniform redress policies, and provide 
coordinated or shared services such as card production, biometric/
biographic databases, as well as set DHS standards for information 
technology enterprise architecture and global enrollment systems/
processes. The SCO office will develop a consistent approach for 
outreach in the areas of privacy, civil rights, and will coordinate R&D 
efforts. DHS will set up the SCO office in fiscal year 2006, as 
reflected in the Department's revised fiscal year 2006 request.

                                US VISIT

    Question. How do you plan on addressing the issue of integration of 
the two fingerprint systems--IDENT at the Department of Homeland 
Security and IAFIS at the Federal Bureau of Investigation?
    Answer. The US VISIT Program, working closely with CBP and ICE, and 
the Departments of Justice and State, leads the IDENT/IAFIS integration 
efforts. DHS' systems receive daily updates from the FBI with 
information from a variety of criminal and threat-related databases. 
There are several different ongoing efforts to bring about 
interoperability between the IDENT and IAFIS.
  --DHS (US VISIT) established an integrated project team (IPT) with 
        the FBI (Criminal Justice Information Services or CJIS) to 
        address the policy, business requirements, and technical 
        aspects of integrating IDENT and IAFIS. This IPT has made 
        significant progress in resolving many of the long-standing 
        issues in the DOJ Office of the Inspector General's report. A 
        report, describing plans for interoperability, was submitted to 
        Congress on August 18, 2005.
  --Integrated IDENT/IAFIS workstations will be deployed to sites that 
        will have US VISIT--115 airports, 15 seaports, and 165 land 
        border ports of entry--as well as to specific ICE field office 
        locations, by the end of calendar year 2005.
  --DHS and DOJ have completed a Memorandum of Understanding (MOU) to 
        resolve data access and privacy issues concerning FBI usage of 
        US VISIT data.
    Question. Are there any DHS/FBI jurisdiction issues hampering the 
integration effort?
    Answer. DHS and DOJ/FBI have achieved an effective working 
relationship on integration. As noted above, DHS (US VISIT) and FBI 
(Criminal Justice Information Services or CJIS) have established an 
integrated project team (IPT) to address the policy, business 
requirements, and technical aspects of integrating IDENT and IAFIS. 
This IPT has made significant progress in resolving many of the long-
standing issues originally referenced by the DOJ Office of the 
Inspector General. A report, describing plans for interoperability, was 
submitted to Congress on August 18, 2005.

                      GLOBAL SUPPLY CHAIN SECURITY

    Question. Mr. Secretary, in your written testimony you used cargo 
container security as an example of an area where the Department could 
do a better job coordinating across all departmental efforts. What 
impact have the various programs the Department is running had on cargo 
container security so far? What can be done better?
    Answer. Since September 11, 2001, the various cargo security 
programs now operated by the Department have made great strides in 
moving us towards a system of security that prevents the use of the 
supply chain in a terrorist attack while enhancing supply chain 
efficiency and reliability. Before September 11, most cargo security 
efforts were centered at the port and based on local perceptions of 
risk. Today we have improved data reporting through the 24 Hour Rule 
supported by centralized targeting at National Targeting Center. This 
capability coupled with the Container Security Initiative has allowed 
us to revolutionize the customs function by allowing us to interdict 
threats before they leave for the United States.
    Our current programs and capabilities have laid the foundation for 
a truly 21st century international trade system, one that will support 
growth in international trade and our security interests. Other 
efforts, such as Operation Safe Commerce, the Advanced Container 
Security Device program and the Advance Trade Data Initiative, will 
provide us with the knowledge and tools to help us get there. To that 
end, I am reviewing the status of DHS's cargo security efforts, how 
they can be further strengthened and how we can further transform the 
system to ensure the United States security and economic needs are met.
    Question. What is the status of the final report on Operation Safe 
Commerce, and when will it be submitted to this Committee?
    Answer. The report on Operation Safe Commerce (OSC) requires 
submission of program information from OSC's three participating load 
centers. One participant's input was behind schedule but has recently 
been received. This information will be integrated into a report and 
distributed for review by relevant experts. We expect the report to be 
issued by the end of December 2005.
    Question. What more should be done in this area?
    Answer. I am reviewing the status of DHS's cargo security efforts, 
how they can be further strengthened and how we can further transform 
the system to ensure the United States security and economic needs are 
met.

                        AGRICULTURAL INSPECTIONS

    Question. The April 14, 2005, U.S. Department of Agriculture, 
Office of Inspector General Report regarding coordination between the 
Department of Homeland Security and the Department of Agriculture 
indicates that coordination has been less than adequate for the last 2 
years. Specifically, the report mentions APHIS personnel being denied 
entry to ports-of-entry to conduct its required regulatory reviews. 
What are you doing to change this situation?
    Answer. CBP and the U.S. Department of Agriculture (USDA) Animal 
and Plant Health Inspection Service (APHIS) signed in February 2005 
Appendix 8 to Article 8 of the Memorandum of Agreement (MOA) between 
DHS and the USDA. The MOA establishes and enhances coordinated actions 
and operations between the two agencies and responds to many of the 
issues raised in the Office of Inspector General (OIG) report.
    CBP and USDA APHIS have forged a new working relationship and 
resolved many of the earlier port access issues. CBP, in conjunction 
with APHIS, has entered into several programs, such as the targeted 
program for imported cut flowers to apply inspection resources on a 
risk managed basis (i.e., focus on commodities that pose a higher risk 
to American Agriculture). Also, CBP and APHIS have worked together in 
numerous ways to synchronize and verify information and data collected 
about inspections such as the Joint Quality Assurance Program, which 
provides a quality assurance team to conduct port reviews. CBP and USDA 
employees are working together cooperatively and sharing information. 
CBP has worked with USDA to achieve the appropriate level of access to 
the ports of entry for APHIS personnel. As Congress has provided, the 
inspectional functions were transferred from USDA to CBP. CBP has set 
forth procedures that have facilitated USDA access to the ports to 
perform their functions.
    Question. The OIG report includes information of the lengthy time 
that was required to negotiate and sign official agreements between 
APHIS and Customs and Border Protection (CBP). Several of these have 
taken more than 12 months. Additionally, APHIS reported that attempting 
to elevate issues within the Department of Homeland Security was not 
productive due to high turnover in the policy-making levels of DHS. The 
Homeland Security Act of 2002 split the agriculture responsibilities 
between these two agencies. If this is not working, should this 
situation be reevaluated?
    Answer. Section 421 of the Homeland Security Act of 2002 (the Act) 
transferred to DHS the inspectional functions of APHIS relating to 
agricultural import and entry inspection. By the provisions of the Act, 
the Secretary of USDA and the Secretary of DHS were required to execute 
a memorandum of understanding (MOU) to cover this transfer in more 
detail. The MOU was signed on February 28, 2003.
    Under the provisions of the MOU, the two agencies would work out 
further details of this relationship by the means of appendices to 
particular articles in order to allow for the development of procedures 
that would work for both agencies. To date CBP and APHIS have signed 
appendices to all the articles except for Article 4 that involves 
training in order to allow for the development of procedures that would 
work for both agencies. The time spent in developing the correct 
procedures has been well worth the delay as the training functions 
between the two agencies are working effectively. A completed Appendix 
for Article 4 is expected to be signed in early summer 2005.
    We have also developed procedures and mechanisms to work through 
issues as they arise in the future. The time taken to draft, negotiate 
and finalize these appendices has been a necessary part of a growing 
partnership between these two agencies. The organizational and 
functional task allocations are working. The agricultural program is 
being strengthened through training and cross training.

                       NATIONAL PREPAREDNESS GOAL

    Question. The Administration released the Interim National 
Preparedness Goal (the Goal) on March 31, 2005. States are required to 
update their State Homeland Security Strategies, by October 1, 2005, 
with an assessment of what gaps remain in each state's ability to meet 
the tasks and capabilities laid out in the Goal. The proposal put forth 
by the fiscal year 2006 President's budget would prioritize Federal 
funding received by State and local governments for first responders 
not just by threat and vulnerability, but also by ``essential 
capabilities'' as defined in the Goal. Each State is required to file 
an addendum by October 1, 2005, to its State Homeland Security Strategy 
to reflect how it will address the seven national priorities. Is this 
enough time for the States to do a thorough evaluation of what 
capabilities each has now?
    Answer. Yes, DHS believes that there is enough time for the States 
to complete a thorough evaluation of their current capabilities. 
Specifically, in fiscal year 2005, during year 1 of the implementation 
of Homeland Security Presidential Directive (HSPD) 8, States and urban 
areas are required to update their existing homeland security 
strategies. To meet this requirement, the Department is asking States 
and urban areas to review their existing strategic goals and objectives 
and bring them into alignment with the seven National Priorities 
outlined in the National Preparedness Goal by September 30, 2005. (The 
seven National Priorities are: (1) Implement the National Incident 
Management System and National Response Plan; (2) Expand Regional 
Collaboration; (3) Implement the Interim National Infrastructure 
Protection Plan; (4) Strengthen Information Sharing and Collaboration 
Capabilities; (5) Strengthen Interoperable Communications Capabilities; 
(6) Strengthen CBRNE Detection, Response, and Decontamination 
Capabilities; and (7) Strengthen Medical Surge and Mass Prophylaxis 
Capabilities.) This first step in HSPD-8 implementation will not 
require States or urban areas to conduct a wholesale rewrite of their 
strategies, nor will they have to complete another risk and 
capabilities assessment as they did in fiscal year 2003. DHS completed 
guidance on completing this strategy in June 2005. More detailed 
information on this requirement was presented to State and urban area 
representatives at three National Preparedness Goal rollout conferences 
throughout April and May 2005. Additional details are also available to 
State and urban area representatives through their designated 
Preparedness Officers within the Office for Domestic Preparedness (ODP) 
in the DHS Office of State and Local Government Coordination and 
Preparedness (OSLGCP).
    Question. An important aspect of the National Preparedness Goal has 
not been defined, the levels of capabilities for differently sized 
jurisdictions. How are Manchester, NH, and New York, NY, supposed to 
know what different types of capabilities that each should have for a 
chemical incident?
    Answer. The Interim National Preparedness Goal establishes the 
national vision and priorities that will guide DHS' efforts, in 
conjunction with appropriate stakeholders, to set measurable readiness 
benchmarks and targets to strengthen the Nation's preparedness. The 
Target Capabilities List is a set of 36 essential capabilities that 
should be developed and maintained, in whole or in part, by various 
levels of government to prevent, protect against, respond to, and 
recover from terrorist attacks and major disasters. DHS, working with 
stakeholders, is currently developing national target levels for the 
capabilities and the role of Federal agencies, states, local 
jurisdictions, the private sector and non-governmental organizations in 
building and maintaining the network of capabilities across the country 
required for large-scale incidents. Local jurisdictions will be 
expected to build and maintain levels of capability appropriate to 
their risk. DHS has invited Federal agencies, State representatives, 
and national associations to participate in a series of workshops to 
set the target levels.
    Question. How will you encourage States to be thorough in their 
assessment of their capabilities?
    Answer. In out-year implementation of HSPD-8, States will be 
required to assess their current capabilities against target levels of 
capability that will be defined in the Target Capabilities List. 
However, in fiscal year 2005, the capability assessment will be 
conducted through a representative sampling of States and/or sub-state 
regions to test and validate the assessment process prior to nationwide 
implementation. As part of this representative sampling of 
capabilities, DHS will develop user-friendly tools based on the Target 
Capabilities List to ensure that both States and multi-disciplinary 
subject-matter expert teams conducting the assessments are thorough in 
their evaluation of capabilities. In addition, DHS will provide 
customized reports to States that link their existing capabilities and 
grant expenditure data to the National Priorities outlined in the 
National Preparedness Goal in order to assist States as they begin to 
implement HSPD-8.
    Question. What is the incentive for a State to close a gap if doing 
so results in less funding for that State?
    Answer. The Department believes there are sufficient incentives for 
States to build both regional and statewide capabilities and close 
identified gaps in overall preparedness. Enhanced preparedness to 
protect against, respond to, and recover from incidents of a national 
emergency, including terrorism, will ultimately result in minimizing 
the adverse impact on lives, property, and the economy that are 
inherent to a catastrophic event. The protection of citizens, critical 
infrastructure, businesses, and communities is a shared goal, requiring 
Federal, State, local, international, and private sector partnerships. 
Throughout the Nation, States are embracing this goal as the ultimate 
incentive, as they work to implement the National Preparedness Goal. 
Finally, the extent of ``unmet gaps'' will not be the sole determinant 
of DHS grant allocations.
    Question. How exactly does the Administration envision this 
working?
    Answer. The Interim National Preparedness Goal includes a vision, 
which is ``to engage Federal, State, local, and tribal entities, their 
private and non-governmental partners, and the general public to 
achieve and sustain risk-based target levels of capability to prevent, 
protect against, respond to, and recover from major events in order to 
minimize the impact on lives, property, and the economy.''
    The Interim National Preparedness Goal and companion National 
Preparedness Guidance outline how the Nation will achieve this vision. 
The Guidance outlines a 10-step national process for Capabilities-Based 
Planning that will be used to identify target levels of capability, 
achieve them, and assess preparedness from the local to the national 
level. The Goal and Guidance establish seven National Priorities 
focused on developing some of the more critical capabilities from the 
Target Capabilities List for which the Nation is currently the least 
prepared (Information Sharing and Collaboration; Interoperable 
Communications; Chemical, Biological, Radiological, Nuclear, and 
Explosive (CBRNE) Detection, Response, and Decontamination; and Medical 
Surge and Mass Prophylaxis) and overarching initiatives (to implement 
the National Incident Management System, National Response Plan, 
Interim National Infrastructure Protection Plan, and expand regional 
collaboration) that will facilitate those efforts. The Guidance 
highlights existing Federal program efforts that support the seven 
National Priorities and describes a schedule of activities for States 
and urban areas to update assessments and strategies with Federal 
assistance.
    The process is collaborative, iterative, and risk-based. Homeland 
security is a shared responsibility and depends upon shared efforts. 
This approach will be implemented through multi-agency and multi-
discipline working groups at the national and regional (or multi-
jurisdiction) level. Federal preparedness assistance will explore ways 
to offer incentives and rewards for collaboration. This approach 
involves a continuous cycle of activity to refine our assumptions and 
planning tools and share best practices and lessons learned. This 
approach recognizes that while all jurisdictions are subject to some 
degree of risk, the capabilities and levels of capability that are 
needed to manage risk vary considerably across the Nation. Annual 
status reports will provide a more meaningful assessment of national 
preparedness. Data collection will simplify over time as tools are 
refined and consolidated. This approach will provide a sound basis for 
decisions at all levels of government to allocate resources based upon 
risk and need.
    Question. Will ``essential capabilities'' as defined by the 
National Preparedness Goal be considered equal to threat information, 
population density, or other factors?
    Answer. The development of the target capabilities, or ``essential 
capabilities,'' by Federal, State, local, and tribal entities and the 
private sector will be driven by relevant threat information, 
population size and density, critical infrastructure, and other 
factors. DHS is working with Federal, State, local, tribal, private 
sector, and non-governmental stakeholders to refine the Target 
Capabilities List (TCL) for re-issuance on October 1, 2005. This new 
version of the TCL will assign the capabilities by level of government 
and tiers (groupings of local jurisdictions). The primary purpose of 
the tiers is to account for reasonable differences in target levels of 
capability (or system-specific elements of capability) among groups of 
jurisdictions based on differences in risk factors such as total 
population, population density, and critical infrastructure.
    Question. Once a State obtains certain capabilities, how do we 
sustain that effort? Should the States be responsible for sustainment 
costs?
    Answer. As we have barely begun to assess current capabilities, it 
is premature to speculate about future funding requirements once the 
most significant gaps are closed. While maintenance of effort will 
largely be State and local responsibility, DHS will continue to assist 
States in building and sustaining the target capabilities. 
Additionally, every State and locality will have a role in achieving 
and sustaining the 36 capability target levels. However, the target 
capabilities are a planning tool, not a funding formula. Implementing 
Capabilities-Based Planning is a long-term effort that will help the 
Nation to achieve the capacity to perform all 36 target capabilities at 
the levels needed to effectively prevent, protect against, respond to, 
and recover from major events, especially terrorism. Not until States 
and urban areas have assessed and realigned their homeland security 
strategies and plans will DHS be able to fully determine which of the 
36 target capabilities will require additional funding.

                      FUNDING FOR FIRST RESPONDERS

    Question. Just in the last few weeks national news reports have 
questioned the use of first responder grants in relation to homeland 
security. In January of 2005, the Department of Homeland Security 
Office of Inspector General issued a report questioning how the 
Department prioritized port security grants.
    Given all of this, how confident are you that every dollar that has 
been allocated for homeland security grants has been well spent?
    Answer. In general, homeland security port security grants have 
been well spent. Recognizing that issues emerged with some projects, 
the Department disagreed and non-concurred with the IG's finding that 
projects received funding despite ranking ``average to worse'' during 
the evaluation process. Following TSA's second round of grant awards in 
2003, ODP made $75 million available for port security grants under the 
Urban Areas Security Initiative (UASI). ODP, in consultation with TSA 
and SLGCP, utilized a risk-based approach, which differed from the 
program's original competitive process to select 14 eligible port areas 
and the corresponding funding amounts for each area. TSA then provided 
unfunded applications from its second round to ODP, which in turn, 
funded 86 projects. TSA provided what they considered to be the next 
projects that had been evaluated from the previous round that deserved 
funding. All of the 86 projects were funded based on TSA's 
recommendations.
    The Department has made significant efforts to improve the Port 
Security Grant Program in light of the Inspector General's (IG) report. 
The report recommended that the Department accelerate the acquisition 
of more information from applicants about the scope of their projects 
in an effort to expedite the spending of grant awards. We concur with 
this recommendation and will ensure that appropriate guidance on the 
submission of relevant information within specified timeframes is 
included in the application kit for the forthcoming fiscal year 2005 
Port Security Grant Program. Additionally, the IG report recommended 
that the Department ensure that the program has sufficient operational 
expertise to administer the program after the award is made. We concur 
with this recommendation as well, and have established a Transportation 
Infrastructure Security Division (TISD) within SLGCP to administer the 
fiscal year 2005 Port Security Grant Program. Given the reforms in 
response to the IG report, DHS port security grants will be managed 
even more effectively under the fiscal year 2005 Port Security Grant 
Program. Additionally, SLGCP has developed mechanisms intended to 
increase accountability of all grant programs, an effort recognized in 
a recent GAO Report entitled, ``Management of First Responder Grants 
Has Improved, but Challenges Remain'' (#05-121).
    Question. The Senate and the House Appropriations Committees asked 
for a report on homeland security grant spending. This report is to 
include information on what has been purchased with all of the grant 
dollars from fiscal years 2002 through 2004, whether these purchases 
complied with the State Homeland Security Strategies, and an 
explanation as to how this spending has enhanced the Nation's security. 
That report was due March 31, 2005, but it has not yet been submitted. 
When can we expect it?
    Answer. The congressional report on ``State and Local Government 
Preparedness and Funding for Fiscal Year 2002-Fiscal Year 2004'' was 
delivered to the House and Senate Appropriations Committees on May 6, 
2005.
    Question. If the Department goes to a completely threat-based 
formula, are you comfortable with how threats are determined now? I 
know we can't talk in detail in an open forum--but what, if anything, 
would you change?
    Answer. The President's fiscal year 2006 Budget proposes a risk-
based homeland security funding process, of which threat is one 
component along with consequence and vulnerabilities. DHS will consider 
risk factors such as threat, presence of critical infrastructure, 
vulnerability, population and population density, international 
borders, and ports of entry in making final award determinations. This 
process will be modeled on the fiscal year 2005 UASI program, which 
combined five variables designed to objectively prioritize funding for 
high-threat, high density urban areas. A threat estimate index 
developed from an estimate of credible threats and incidents as well as 
an index that considered law enforcement investigative activity and 
enforcement will be used. The difficulty of determining which States 
and urban areas most are at risk is subjective to some degree because 
of the nature of most intelligence information and the scarcity of data 
specifically identifying targeted states, cities and infrastructure. 
Therefore, the current allocation methodologies that consider threat 
information represent the best available combination of data, current 
understanding of threats, and expert judgment.
    Question. What restrictions are placed on the use of these grant 
funds?
    Answer. DHS released detailed guidance for the use of grant funds 
contained in the fiscal year 2005 Homeland Security Grant Program 
(HSGP). Specific guidelines on intended purpose and the allowance of 
certain types of expenditures vary between the six different programs 
contained in the HSGP. HSGP allowable costs are divided into planning, 
organization, equipment, training, and exercise categories. Management 
and administrative and certain operational costs are also allowed under 
certain programs. Allowable equipment categories for the fiscal year 
2005 HSGP are listed on a web-based Authorized Equipment List on the 
Responder Knowledge Base, which is sponsored by ODP and the Oklahoma 
City National Memorial Institute for the Prevention of Terrorism at 
http://www.rkb.mipt.org.
    The fiscal year 2005 HSGP guidance also details certain 
restrictions placed on the use of grant funds, which vary by program. 
For example, funding in the UASI and Law Enforcement Terrorism 
Prevention Program programs may not be used for overtime to supplant 
ongoing, routine public safety activities of State and local emergency 
responders, and may not be used to hire staff for operational 
activities or backfill. However, these programs do allow up to 25 
percent of the awards to be used for operational expenses and overtime 
for periods of heightened alert, for personnel to participate in 
information, investigative and intelligence sharing activities related 
to homeland security, and finally, in the hiring of contractors/
consultants for participation in information/intelligence sharing 
groups. Another example of restriction on funds involves construction 
and renovation. Use of HSGP funds for construction is generally 
prohibited and is allowable only when it is a necessary component of 
(1) a security system at critical infrastructure facilities or (2) an 
emergency operations center (EOC). Details on other restrictions for 
certain types of equipment, training, and exercises are provided in the 
fiscal year 2005 HSGP guidance.
    Question. What audits have been done, or are underway, to ensure 
that these grant funds are used appropriately? What other controls does 
the Department have at its disposal to oversee the use of grant funds?
    Answer. During calendar year 2004, SLGCP was a part of over 14 
governmental audits, ranging from the Government Accountability Office 
(GAO) to the DHS Inspector General to the House Appropriations Survey & 
Investigations Staff (S&I). Many of these audits looked at the 
expenditure of grant funds by the States and territories. Some of these 
audits have provided final reports, and most of those reports reflect 
SLGCP's ability to efficiently process the grant, as well as provide 
programmatic assistance and oversight to the states. A recent GAO 
Report entitled, ``Management of First Responder Grants Has Improved, 
but Challenges Remain'' (#05-121) credits SLGCP with developing 
requirements intended to hold States and localities accountable for how 
grant expenditures were planned, justified, expended, and tracked.
    In order to assure fiscal and programmatic oversight, ODP 
Preparedness Officers have robust monitoring and reporting tools 
through which they can monitor expenditures by grantees. The Initial 
Strategy Implementation Plan and the Biannual Strategy Implementation 
Report provide detailed expenditure information by discipline, solution 
area (such as equipment or training) and project area. These reports 
require grantees to tie any expenditure of homeland security funds to 
goals and objectives outlined in their State or Urban Area Homeland 
Security Strategy. They also provide important data on what projects 
are being accomplished by States and localities. In addition to the 
almost daily contact with grantees, Preparedness Officers also perform 
a formal on-site monitoring visit to their States at least once a year, 
in accordance with program office protocols. This visit allows for both 
programmatic and financial compliance monitoring. The Department of 
Justice's Office of the Comptroller (OC) also performs random, risk-
based financial audits of SLGCP grantees. Each State Administrative 
Agency (SAA) also is subject to its own State audits. The combination 
of these external and internal inspections provides the required 
oversight over the use of SLGCP grant funds.

                      INTEROPERABLE COMMUNICATIONS

    Question. The Federal Government has been working for many years to 
crack the nut of moving more quickly towards true interoperability. Do 
you see the creation of the Office of Interoperability and 
Compatibility as helping move towards that goal? Is this just another 
Office that will put forth a lot of effort and get very little 
advancement?
    Answer. The Science and Technology (S&T) Directorate's Office for 
Interoperability and Compatibility (OIC) has made significant 
achievements in helping the Federal Government move more quickly 
towards interoperability. The OIC was created to address critical 
interoperability issues relating to public safety and emergency 
response, including communications (the SAFECOM Program), equipment, 
training and other areas as needs are identified.
    Since its inception OIC has:
  --Released Version 1.0 of the first ever comprehensive Public Safety 
        Statement of Requirements (SoR) for Communications and 
        Interoperability (SoR), which defines the functional 
        requirements for public safety practitioners to communicate and 
        share information when needed, where needed, and when 
        authorized.
  --Developed the Interoperability Continuum, a tool designed to help 
        the public safety community and local, tribal, State, and 
        Federal policy makers address critical elements for success as 
        they plan and implement interoperability solutions. The 
        critical elements include governance, standard operating 
        procedures, technology, training/exercises, and usage of 
        interoperable communications.
  --Created the Statewide Communications Interoperability Planning 
        (SCIP) Methodology, based on lessons learned from assisting the 
        Commonwealth of Virginia in developing a strategic plan for 
        improving statewide communications interoperability. The SCIP 
        Methodology serves as a guide for States to consider as they 
        initiate statewide communications planning efforts.
  --Developed coordinated grant guidance which provides the public 
        safety community with consistent guidance, coordinated 
        application processes, similar requirements across grant 
        programs, and general guidelines for implementing a successful 
        wireless communications system. This guidance was incorporated 
        in the fiscal year 2003 FEMA and fiscal year 2003/fiscal year 
        2004 Community Oriented Policing Services (COPS) grant awards, 
        as well as ODP grant packages in fiscal year 2004.
  --Drafted a report as required by the Intelligence Reform and 
        Terrorism Prevention Act that discusses DHS plans for 
        accelerating voluntary consensus standards for interoperable 
        communications.
  --Managed the RapidCom initiative, in which the Office worked with 
        ten urban areas to provide requested assistance to help improve 
        incident level interoperability capabilities and developed a 
        methodology for a communications table top exercise that is 
        replicable across urban areas.
  --Awarded a contract to develop and execute the nationwide 
        interoperability baseline study in January 2005. The purpose of 
        the study is to quantify the extent to which the Nation's 
        public safety first responders are interoperable technically 
        and operationally.
    With respect to other critical interoperability issues, the OIC has 
done the following:
  --Created the Risk Assessment Policy Group (RAP) from representatives 
        within DHS to address and resolve discrepancies in risk 
        assessment criteria and methodologies. RAP hosted a workshop 
        with stakeholders from the Department to clearly define the 
        scope of the risk assessment problem and to develop a strategy 
        for addressing the problem.
  --Created the Joint Evaluation and Testing Program (JET) to 
        coordinate Federal programs that conduct testing and evaluation 
        of public safety technologies. JET hosted a planning meeting 
        with representatives from DHS, the National Institute of 
        Standards and Technology, and the Department of Justice to 
        define the scope of the JET program.
    Question. The Office of State and Local Government Coordination and 
Preparedness reports that in fiscal year 2004 more than $890 million of 
the grants given to States and locals were used in some way for 
interoperable communications, equipment, studies, etc. What is being 
done to help States and locals today to make better decision about 
investments in interoperable communications?
    Answer. SLGCP has leveraged the S&T Directorate's SAFECOM program's 
development of standards and grant guidance to help create the 
Interoperable Communication Technical Assistance Program (ICTAP). ICTAP 
is a technical assistance program designed to enhance interoperable 
communications between local, State, and Federal emergency responders 
and public safety officials. The goal of the ICTAP program is to enable 
local public safety agencies to communicate as they prevent or respond 
to a WMD attack. The ICTAP program provides free, on-site support using 
a systems engineering approach. The ICTAP technical assistance team 
works closely with the UASI site's Urban Area Working Group to assess 
the current communications infrastructure for gaps and to translate 
operational requirements into technical requirements that can be used 
to design an interoperable communications system.

                           AIR CARGO SECURITY

    Question. Does the Transportation Security Administration (TSA) 
have any cost estimates for screening 100 percent of the baggage and 
cargo on passenger planes?
    Answer. The total amount of cargo transported on passenger aircraft 
represents less than 25 percent of the total air cargo volume 
transported in the United States. TSA completed a study in 2002, ``The 
Air Cargo Security Scenario Analysis Report,'' that indicated that the 
cost of screening 100 percent of the cargo transported on passenger 
aircraft at the top 42 airports, which handle 95 percent of the total 
volume of air cargo transported in the United States, would cost $500 
million in the first year and $3.8 billion over 10 years.
    Question. Though you cannot deter every threat, do you believe 100 
percent screening of high-threat of bags and cargo is the best use of 
our Federal resources?
    Answer. TSA has taken a threat-based, risk-managed approach to air 
cargo screening. This approach helps the agency appropriately target 
screening efforts with the resources available. TSA believes that all 
cargo should be pre-screened for risk through the Known Shipper Program 
or the Indirect Air Carrier Program, and that 100 percent of cargo that 
is identified as elevated-risk should be screened using appropriate 
technology and methods. Random inspections play an important, 
complementary role in the layered systems approach by managing risk 
without unduly impeding the flow of commerce.
    Currently all cargo that will be transported on passenger aircraft 
is pre-screened for risk through the Known Shipper Program. Passenger 
air carriers, Indirect Air Carriers (IACs, or freight forwarders), and 
all-cargo carriers who transfer cargo to passenger planes all use the 
Known Shipper Program. TSA's Known Shipper Database has centralized the 
collection of data on about 450,000 known shippers and enabled vetting 
against government databases. To supplement the Known Shipper pre-
screening, air carriers are also required to conduct random screening 
of a certain percentage of air cargo.
    In 2005, TSA has developed an Air Cargo Security Roadmap that 
integrates many policy, operations, system, and regulatory enhancements 
to air cargo security. The cornerstone of this effort is the Freight 
Assessment System (FAS), which would enable TSA to better and more 
efficiently identify elevated-risk cargo for inspection. FAS will 
employ a sophisticated risk assessment engine to identify elevated-risk 
air cargo for inspection.
    Additionally, TSA has published a robust Notice of Proposed 
Rulemaking (NPRM) for air cargo security. This NPRM is currently being 
developed into a final rule, which implements major security 
enhancements for indirect air carriers (IACs), all cargo carriers, 
passenger carriers, and airports.
    Finally, TSA oversees compliance with security requirements through 
a robust regulatory compliance program, which includes more than 900 
aviation security inspectors located throughout the United States.
    Question. How can we better tackle the issue of cargo security?
    Answer. TSA continues to make incremental and measured progress in 
the air cargo arena, among other things by prohibiting cargo from 
unknown shippers, significantly increasing the number of physical 
inspections of air cargo on passenger and all cargo aircraft, 
increasing its air cargo inspections workforce, strengthening the 
criteria for consideration as a known shipper, automating the 
validation of known shippers and indirect air carriers, and expediting 
research and development efforts to identify potential new 
technological solutions for the inspection of air cargo on passenger 
aircraft. TSA is also working closely with CBP to develop a targeting 
tool which will permit effective identification of elevated risk cargo 
with the ultimate goal of requiring the inspection of all such elevated 
risk cargo.
    Question. What is the right mix of screeners and technology when 
dealing with air cargo and how does the Department determine which 
resources to apply?
    Answer. TSA has taken a threat-based, risk-managed approach to air 
cargo screening. This approach helps the agency appropriately target 
screening efforts with the resources available. TSA believes that all 
cargo should be pre-screened for risk through the Known Shipper Program 
or the Indirect Air Carrier Program, and that 100 percent of cargo that 
is identified as elevated-risk should be screened using appropriate 
technology and methods. Random inspections play an important, 
complementary role in the layered systems approach by managing risk 
without unduly impeding the flow of commerce.
    TSA employees do not conduct the screening of air cargo. Rather, 
the screening is performed by air carriers and overseen by TSA. TSA 
issues regulatory requirements to air carriers in this area, and TSA's 
inspectors provide oversight and work to ensure that carriers are 
meeting their regulatory requirements.
    Question. What other means is TSA using to achieve more secure 
cargo-holds in passenger carriers?
    Answer. TSA is continuing efforts to design blast resistant cabin 
and cargo liners, as well as overhead bin mitigation technological 
solutions. The agency has completed initial feasibility studies for 
both passenger cabin and cargo hold liners. The results of the studies 
are promising. The agency is working on preliminary designs, and a 
prototype is expected by the end of calendar year 2005. TSA is also 
partnering with the FAA and aircraft manufacturers to determine which 
solutions are best suited for retrofitting existing aircraft with this 
new technology.
    Additionally, TSA is conducting a pilot program to evaluate the use 
of blast-resistant containers for cargo and baggage on passenger 
aircraft to fulfill the requirements of Section 4051 of Public Law 108-
458, the Intelligence Reform and Terrorism Prevention Act. The 
objective of the hardened unit load device (HULD) pilot program is to 
determine the feasibility, including operational impact, durability, 
cost, maintenance, training, blast containment, and logistics, of an 
HULD solution. The pilot program began in June 2005, and the data 
collection will last approximately 18 months from the start date.
    Question. How difficult is it for TSA to secure the air cargo 
processing ``footprint'' at the airports from the time of entry into 
the system maintaining a chain of custody until the moment of its 
loading onto a plane?
    Answer. Regulated airports already secure their air cargo 
processing ``footprint'' through security measures specified within 
their airport security program which identifies a portion of the 
airport as Secured Area, Security Identification Display Area, and 
Sterile Area. These security procedures are designed to prevent 
unauthorized entry, presence, and movement of individuals and ground 
vehicles within the air operations area. Current procedures require a 
personnel identification system which allows different levels of 
access, subjects individuals to employment history verification checks, 
and provides individual training.
    Question. What are other countries doing to address this issue?
    Answer. The United Nations' International Civil Aviation 
Organization (ICAO) establishes International Standards, Recommended 
Practices and Procedures covering the technical fields of aviation, 
including air cargo security.
    Countries or States, as commonly referred to by ICAO, are afforded 
a great deal of discretion to establish and implement measures to 
comply with standards directly related to air cargo security. The 
substance of ICAO's air cargo standards are as follows:
  --States shall ensure the implementation of measures at airports 
        serving international civil aviation to protect cargo and 
        baggage moved within an airport and intended for carriage on an 
        aircraft to safeguard such aircraft against an act of unlawful 
        interference.
  --States shall establish measures to ensure that cargo intended for 
        carriage on passenger flights are subjected to appropriate 
        security controls.
  --States shall establish measures to ensure that operators do not 
        accept consignment of cargo for carriage on passenger flights 
        unless the security of such consignments is accounted for by a 
        regulated agent or such consignments are subjected to other 
        security controls.
    The ICAO Security Manual provides guidance on how an ICAO Member 
State might comply with the standards. The methods of compliance 
provided in the guidance material are based on generally recognized 
practices and procedures common within the international civil aviation 
industry, but they are not the only means of compliance. ICAO 
recognizes that other methods of compliance may be equally appropriate.

                           TSA PASSENGER FEES

    Question. The President's budget request proposes increasing the 
passenger security fee by $3.00 from $2.50 to $5.50 for the first leg 
of an airline trip. Has TSA or the Department conducted any studies to 
determine what the flying public would pay in exchange for better 
aviation security?
    Answer. Yes. The Aviation and Transportation Security Act (ATSA), 
enacted in November 2001, anticipated that the aviation industry, not 
the general taxpayer, would pay for airline security costs. To estimate 
the passengers' willingness to pay the additional cost of air 
transportation, TSA conducted an analysis that included comparing year-
to-year revenue collections, reviewing Department of Transportation 
data reported by the airlines themselves to estimate industry growth, 
utilizing the Federal Aviation Administration's (FAA) aviation industry 
forecast, and accessing major research studies that outline issues from 
airline fare structure to passenger demand and willingness to pay.
    TSA also conducted a review of current research on air passengers' 
willingness to pay for aviation security. Of particular interest to TSA 
was a survey conducted by the National Opinion Research Corporation in 
August 2002 of airline passengers for the American Automobile 
Association (AAA). In that survey, approximately nine out of ten 
respondents indicated that they were willing to pay something more than 
the current passenger security fees. AAA's conclusion is as follows: 
``Americans remain committed to aviation security. It's one thing to 
demand increased security and to be unwilling to pay for it. No one 
likes to pay more for the goods or services we buy. But what this 
survey seems to say is that Americans not only want to feel secure when 
they fly, they are willing to pick up some of the cost, if necessary.''
    Question. What is the impact to the industry?
    Answer. TSA believes that the modest fee increases of this proposed 
budget should not undermine passenger traffic nor worsen the industry's 
health. U.S. air traffic reported for 2004 by the Department of 
Transportation (DOT) is near or above the year 2000 levels. Despite the 
re-imposition of fees after a 4 month suspension under the Emergency 
Wartime Supplemental Appropriations Act, 2003 (Public Law 108-11), the 
DOT domestic passenger traffic statistics showed an increase from a 
total of 588 million in 2003 to 630 million in 2004--a 7.2 percent 
increase.
    TSA researched the impact the fee increase might have on airline 
profitability. TSA was unable to locate any study that conclusively 
linked a passenger fee increase, applicable to all airlines, with a 
measurable decline in airline profitability. The September 11 Security 
Fee is a uniform fee imposed on the passengers of all similar air 
carrier operations and flights. Consequently, the fee should not put 
individual airlines in a competitive disadvantage with one another. In 
fact, the security and other aviation fees comprise a larger percentage 
of the ticket price for low cost carriers, yet the low cost carriers 
are currently the most profitable among the domestic airlines.
    TSA regularly monitors the state of the aviation industry, 
including the level of operations and the financial status of the 
airlines. Here are two examples of informational sources TSA uses in 
order to accomplish this goal:
  --Various publications of the DOT Airline Fares Consumer Report were 
        analyzed, and it was found that the answer depends upon various 
        factors such as market size, number of carriers, and market 
        structure. The data shows that competition within the aviation 
        industry has a stronger influence on base fares than security 
        fees.
  --Canada has extensively researched the economic impact of its 
        passenger security fee called Air Travelers Security Charge. 
        Using both Canadian and U.S. data, the researchers concluded 
        that markets with traffic levels over 100,000 passengers are 
        relatively price inelastic (an increase in price results in 
        either no or virtually no reduction in demand.). The research 
        results did not find that the September 11 Security Fee impacts 
        airline profitability.
    Question. Does the passenger fee proposal require legislation or 
are there other options?
    Answer. The passenger security service fees were authorized by the 
Aviation and Transportation Security Act and codified at 49 U.S.C. 
44940. Currently, 49 U.S.C. 44940(c) limits the passenger fee to $2.50 
per enplanement, not to exceed $5 per one-way trip. The proposal to 
increase the passenger fee would require 49 U.S.C. 44940(c) to be 
modified to set the new fee level at $5.50 per enplanement, not to 
exceed $8 per one-way trip.
    Question. The budget requests that this fee change be legislated on 
an appropriations bill. However, this should properly be submitted to 
the authorizing committees of jurisdiction. Has the President 
transmitted the proposed legislation to Congress for consideration and 
if not, why?
    Answer. The President provided a legislative proposal to modify 
this fee authority in the fiscal year 2006 budget. In Title V--General 
Provisions of the Appendix (page 526), the proposal states: ``SEC. 517. 
In Chapter 449 of title 49, United States Code, section 44940(c) is 
amended by striking `$2.50' and replacing it with `$5.50', and striking 
`$5.00' and replacing it with `$8.00'.'' This modification to the fee 
authority would allow TSA to implement the fee increases sought in the 
President's fiscal year 2006 Budget.
    Question. What will be the impact on DHS' programs and activities 
if this legislative proposal is not enacted as a general provision of 
the Appropriations Act or by the appropriate authorizing committee?
    Answer. The sharing of aviation screening costs between industry, 
passengers, and Government is essential to ensure that there is 
sufficient funding for existing and emerging threats to the integrity 
of the aviation security infrastructure. The proposed increase is 
intended to shift the burden of paying aviation screening services from 
the general taxpayer to the airline passenger. The Department will work 
with Congress to ensure that security priorities are met.
    Question. When would such a fee request have to be enacted to fund 
fiscal year 2006 activities?
    Answer. TSA estimates that if the fee were to be enacted in time to 
be effective at the beginning of fiscal year 2006, the agency will be 
able to raise as much as $1.879 billion in additional fees. If the 
proposal is enacted after October 1, the delay involved in providing 
the necessary updates in fees and guidance to the industry could result 
in reduced collections.
    Question. What new aviation security measures would you put in 
place utilizing the increased revenues or will these resources be used 
throughout the Department?
    Answer. The purpose of the fee increase is not to fund new 
activities. Rather, it is to offset funding from the general fund with 
fee revenue. Compared to the past and current level of 50 percent or 
less, the fee would contribute to offsetting nearly the full amount of 
TSA screening costs.
    These costs represent the vast majority of TSA's aviation security 
screening costs. TSA does not have the authority to offset any other 
costs with the aviation security fee collections. The increased fees on 
passengers, the users of the security screening, will ensure fee levels 
approaching near full recovery of the Federal cost to operate the 
system.

                     TSA AIR CARRIER SECURITY FEES

    Question. At the direction of the Committee, GAO has completed a 
review in order to validate the air carrier's estimates of their 
security costs in 2000. GAO found that the estimates, currently the 
foundation for the fees paid to the Department by the airlines, are 
$127 million too low. Due to these findings, Mr. Secretary, will you 
take action to collect the additional fees from the airlines?
    Answer. In the Homeland Security Appropriations Act, 2005, (Public 
Law 108-334) Congress directed the GAO to determine how much air 
carriers spent on security screening in 2000--the basis for the fee 
imposed on airlines. GAO completed its review and issued a report on 
April 18, 2005. The report concludes that the amount of the industry-
wide passenger and property screening costs was between $425 million 
and $471 million, with a midpoint estimate of $448 million. The 
midpoint difference between what is collected now and what GAO 
indicates should be collected is $129 million. However, GAO's estimate 
did not include certain cost categories (e.g.; real estate, CAPPS, and 
positive bag match) due to the unavailability of information within the 
timeframe provided. The cost of these items could be significant. TSA 
is currently reviewing all the findings of the. Once TSA completes its 
review, the agency will proceed as quickly as practicable to address 
the issue.
    Question. Will TSA require legislation to change the air carriers' 
charges or can this be done through regulation?
    Answer. No legislation is required. The fiscal year 2005 Homeland 
Security Appropriations Act and the Aviation and Transportation 
Security Act, as codified at 49 U.S.C. 44940, provide sufficient 
authority for TSA to collect additional amounts from the air carriers. 
However, changes to the air carriers' fees would require changes to 
regulations currently in effect at 49 CFR Part 1511.
    Question. When must the regulation be in place in order to generate 
enough revenues to cover your costs in fiscal year 2006?
    Answer. To collect the air carrier fee at the current level of 
approximately $315 million in fiscal year 2006, no new or changes in 
the regulation would be required. The $350 million estimated in the 
President's budget captures costs that are currently disputed or not 
reported altogether by air carriers due to bankruptcies. TSA is in the 
process of pursuing the amounts under dispute. The unreported and 
disputed costs will be determined and charged when TSA implements the 
new structure for the air carrier fee, for which rulemaking is 
currently in progress. Additionally, TSA is currently reviewing GAO's 
findings that the aviation security costs self-reported by the air 
carriers should be $448 million, $129 million more than originally 
reported by the industry.
    Question. Will your regulatory proposal focus on changing the basic 
structure of how airlines are charged for security costs or is it 
intended to focus on the difference between the actual revenue 
generated, $350 million, and TSA's target last year of $750 million?
    Answer. TSA is evaluating the current regulatory approach to 
determining if change is needed.
    Question. For fiscal year 2005, there are some that estimate the 
air carrier fee will generate only $315 million, not $350 million. What 
are you planning to do to address any shortfall?
    Answer. The $315 million represents a total rounded year 2000 cost 
figure reported by all carriers to TSA. The $350 million estimate 
captures costs that are currently disputed or not reported altogether 
by air carriers due to bankruptcies. TSA is in the process of pursuing 
the amounts under dispute. The unreported and disputed costs will be 
determined and charged when TSA implements the structure for the air 
carrier fee, for which rulemaking is currently in progress.
    Question. What activities will go unfunded or deferred as a result 
of the funding gap?
    Answer. The sharing of aviation screening costs between industry, 
passengers, and Government is essential to ensure that there is 
sufficient funding for existing and emerging threats to the integrity 
of the aviation security infrastructure. The proposed increase is 
intended to shift the burden of paying aviation screening services from 
the general taxpayer to the airline passenger. The Department will work 
with Congress to ensure that security priorities are met.

                         TSA CONTRACT SCREENERS

    Question. What analysis has the Department done to determine 
whether contracting for private screeners is cost-effective and equally 
or more effective in terms of security than a federalized force?
    Answer. TSA commissioned an independent evaluation of the five 
pilot airport passenger screening programs that was completed in April 
2004. The evaluation utilized a methodology that included the 
following:
    Evaluation Categories:
  --Security effectiveness: covert test results, Threat Image 
        Protection (TIP), and re-certification scores;
  --Customer/stakeholder satisfaction: customer surveys, stakeholder 
        surveys, and customer complaints; and
  --Cost: total cost the contractor charged for screening services 
        (including only contract payments and costs borne by TSA) 
        compared to estimates on how much would have been spent by TSA 
        had the agency conducted the screening operations at those 
        airports.
    The evaluation concluded that there was no statistical difference 
in any of the three evaluation categories between private and Federal 
screeners. In addition, as more airports transition to the Screener 
Partnership Program (SPP), TSA plans to continue to measure costs of 
Federal screening operations compared to private screening companies.
    TSA also commissioned an activity-based cost (ABC) study to provide 
improved visibility into the costs of specific business processes and 
activities, and the associated resources (e.g., people, technology) 
consumed by those processes and activities (i.e., cost per bag or 
person screened). The ABC study included ten randomly selected airports 
that utilize TSA screeners and the five pilot airports. The study will 
better enable TSA to identify and collect the cost and performance 
metrics needed to establish a successful, ongoing cost and performance 
management framework at TSA. The results of the ABC study will provide 
another means for TSA management to assess screening operations by 
airport.
    Question. Is TSA establishing a cost benchmark and collecting the 
right kind of information in order to evaluate the costs of providing 
Federal screeners vs. the costs of having contract screeners?
    Answer. TSA plans to develop a cost baseline for each airport that 
applies to participate in the SPP. This cost baseline will be used to 
evaluate cost proposals from private screening companies. The results 
of the TSA activity-based cost study will also support development of 
these baselines.
    Question. In what ways is it more effective for the government to 
use contract screeners?
    Answer. An independent evaluation concluded that there was no 
statistical difference between private and Federal screeners. TSA 
believes that the independent evaluation, along with the activity-based 
cost study, confirms that TSA has been successful in administering an 
effective private screening program that is capable of providing 
security screening services at levels required by the ATSA.
    Question. What incentives do you have in place and what are you 
doing to address the private sector's concerns about security liability 
related to the private screener workforce?
    Answer. In directing TSA to establish a contract screening pilot 
program (PP5), the ATSA required that the level of screening services 
and protection provided at the PP5 airports be equal to or greater than 
the level provided at an airport with Federal screeners. Consequently, 
as airports consider whether to continue with Federal screening or to 
apply to the SPP, their decisions can be based on their own preferences 
and criteria rather than considerations of security, resources, or 
level of service.
    ATSA states that TSA shall allow an airport operator to submit an 
application to have screening carried out by the screening personnel of 
a qualified private screening company. TSA is committed to developing a 
fair, balanced program that does the following:
  --Meets ATSA standards
  --Ensures security
  --Seeks to establish a strong public/private partnership
  --Provides significant opportunity for innovation, efficiency, and 
        cost savings to the taxpayer
  --Provides decentralized management
  --Incorporates best practices and lessons learned from recent studies 
        of the Pilot program, and continues to evaluate and learn on an 
        on-going basis
  --Is performance-based
  --Does not restrict airport participation
  --Respects Federal and private sector workforces
    Under ATSA, the decision to apply for private screening services 
lies with individual airport operators. However, should TSA approve the 
application, TSA will continue to oversee airport security, whether an 
airport has private contract screeners or Federal screeners.
    TSA does not provide specific liability limitations for private 
passenger and baggage screening services. However, vendors can apply 
for protections under the Support Anti-terrorism by Fostering Effective 
Technologies Act of 2002 (SAFETY Act). Enacted as part of the Homeland 
Security Act of 2002, the SAFETY Act provides incentives for the 
development and deployment of anti-terrorism technologies by creating a 
system of risk and liability management. The purpose of the Act is to 
ensure that the threat of liability does not deter potential 
manufacturers/sellers from making anti-terrorism technologies 
available. The Act provides two types of benefits: (1) Designation as a 
Qualified Anti-Terrorism Technology (``QATT''), which among other 
benefits limits the seller's liability to the amount of available 
insurance, and (2) Certification as an Approved Product for Homeland 
Security, which allows the seller to assert the Government Contractor 
Defense. Sellers must apply for SAFETY Act protections and are 
evaluated in accordance with the statutory criteria. Protections under 
the SAFETY Act only apply when a QATT has been deployed in defense 
against, response to, or recovery from an act of terrorism. The Act 
contains a very broad definition of technology, which includes both 
tangible products and services as long as they designed, developed, 
modified, or procured for the specific purpose of preventing, 
detecting, identifying, or deterring act of terrorism.
    TSA is working with the S&T Directorate, which is charged with 
making determinations regarding the SAFETY Act. TSA understands that 
two of the private contract screening companies under the PP5 program 
have been granted designation under the SAFETY Act. TSA will also 
continue to work closely with DHS and the S&T Directorate regarding any 
decision DHS makes concerning the potential legal exposure of all 
entities participating in the Screening Partnership Program.
    Question. How well have the privatized screeners at the 5 pilot 
airports worked?
    Answer. TSA believes that private screeners and Federal screeners 
perform equally as well in screening passengers.
    Question. A recent article in Government Security News reports that 
the traveling public is more satisfied with the private screeners than 
the Federal screeners. Is this an accurate statement?
    Answer. This is not an accurate statement. TSA's annual customer 
service survey showed that for the second year in a row there was very 
little difference in the high degree of confidence and satisfaction air 
travelers have in TSA-trained screeners--Federal or private. For the 
second year in a row, air travelers gave consistently high marks to 
TSA's security screeners. Between 80 and 95 percent of passengers gave 
positive responses when asked about seven aspects of the Federal 
security screening process, which included thoroughness and courtesy of 
screeners as well as confidence in TSA's ability to keep air travel 
secure. In addition, TSA is meeting or exceeding passenger expectations 
for security line wait times.
    Question. This past November TSA opened the Program Management 
Office to assist airports in privatizing their screener workforce. How 
many applications for private screeners has this office received?
    Answer. As of May 2005, TSA has received seven applications from 
airport operators seeking to participate in the SPP. All five of the 
airports that participated in the private screening pilot program (PP5) 
have applied (San Francisco, Kansas City, Rochester, Jackson Hole, and 
Tupelo), along with two new airports (Elko, Nevada and Sioux Falls, 
South Dakota).
    Question. How many applications for private screeners at airports 
do you anticipate receiving?
    Answer. The decision on whether to apply to the SPP rests solely 
with the airport. Therefore, although several airports have expressed 
interest in participating in the program, TSA cannot speculate on how 
many will actually apply.
    Question. How did you determine the level of screening service to 
be provided at these 5 airports?
    Answer. The ATSA requires that the level of screening services and 
protection provided at the PP5 airports be equal to or greater than the 
level provided at an airport with Federal screeners. TSA will continue 
to set one standard for security for the entire commercial aviation 
system, whether an airport has Federal screeners or private screeners. 
TSA will ensure that standards are met through TSA security protocols, 
extensive contract oversight, conducting covert testing, and continuous 
oversight by Federal Security Directors and their staff in both Federal 
and SPP airports.
    Per ATSA, TSA is also required to supervise private screening 
services at each SPP airport. Private screeners must perform at the 
same or better level as Federal screeners and comply with Federal 
passenger and baggage screening standard operating procedures.
    ATSA also gives TSA the ability to terminate a contract with a 
private screening firm for repeatedly failing to perform. TSA will not 
hesitate to take action against airports using contract screeners if 
they fall below Federal security standards, and TSA will vigorously 
enforce the contract requirements.
    Question. Are the screening standards for the privatized airports 
negotiated or does TSA establish them?
    Answer. TSA applies the same rigorous security standards, referred 
to officially as Standard Operating Procedures, to private screeners as 
it does to the Federal screeners. Passenger and baggage security 
screening standards are non-negotiable.
    Question. Does the contract include paying for the annual 
recertification of screeners by the contractor as well as compensation 
and benefits?
    Answer. Yes. Screener annual re-certification training is conducted 
by and paid for by TSA. Private screener compensation and benefits are 
also funded by TSA up to the point required by the ATSA which mandates 
that private screeners receive compensation and benefits are not less 
than the compensation and benefits for Federal screeners.
    Question. Does the private screener workforce have access to 
Federal benefits or is this just strictly a contract for services 
provided?
    Answer. No, private screener workforce employees do not have access 
to Federal benefits. While the ATSA mandates that private screeners 
receive compensation and benefits that are not less than the 
compensation and benefits for Federal screeners, those benefits are not 
provided by the Federal Government. Screeners employed by private 
screening companies do receive benefits, and TSA monitors the overall 
pay and benefits package provided by private screening companies to 
ensure that the ATSA-mandated minimum is attained.
    Question. What changes would you recommend to the contract screener 
program?
    Answer. At the present time, TSA is not seeking changes to the ATSA 
regarding provisions to this program. TSA is open to and welcomes 
dialogue with airports and Congress on any improvements that could be 
made to the SPP. Some of the changes airports have indicated that they 
would like to see include the following:
  --Change ATSA's requirement that private screening compensation and 
        benefits be equal to or greater than Federal compensation and 
        benefits
  --Allow airports to share in any savings realized. For example, cost 
        savings realized at an airport with private screeners would be 
        used to enhance security screening at that airport
  --Investigate pooling worker's compensation insurance to reduce costs 
        through economies of scale
  --Investigate broadening the private screening contractor's scope of 
        responsibility to include other non-screening functions that 
        impact security screening (e.g., document checkers, baggage 
        handlers, bin runners, equipment maintenance, etc.)

                         TSA SCREENER TRAINING

    Question. How many hours of training does the average screener 
receive?
    Answer. The ATSA requires that all screeners complete a minimum of 
40 hours of classroom training and 60 hours of On-the-Job (OJT) 
training. In addition to this basic training requirement, TSA Federal 
Security Directors (FSD) also use a standard of 3 hours per week 
(measured on average over a calendar quarter) of scheduled duty time, 
per screener, to accomplish recurrent, administrative, and professional 
development training. The FSD must create a training schedule that 
meets the goal of the 3 hours per week standard as well as the specific 
performance and developmental needs of each individual screener. In 
addition, TSA provides screeners with additional skills directly 
related to specific screener duties. An example is the On-screen Alarm 
Resolution Protocol (OSARP) Training. OSARP allows screeners to 
evaluate items causing an alarm and to potentially clear those items 
without subjecting the bag to a secondary search. The training for 
OSARP totals 19.5 hours and includes classroom training, small group 
simulator training, hands-on individual simulator training, and OJT 
training.
    Question. Who conducts the training?
    Answer. Basic screener training is overseen by TSA's Office of 
Workforce Performance and Training (WPT). The training is provided by 
instructors under contract with TSA or by local TSA Approved 
Instructors (TAIs) when possible. On-the-Job, cross-over, recurrent, 
and specialized training is conducted by local TSA personnel (i.e., 
TAIs, Training Coordinators, Screener Supervisors) and via the Online 
Learning Center. Advanced training is initially provided by WPT 
contractors and then sustained by TAIs.
    Question. Does this training include anything regarding ethics and 
baggage theft?
    Answer. During the initial 100 hours of basic training, TSA 
requires all screeners to review and sign a Code of Conduct. This Code 
of Conduct emphasizes such issues as public trust and honesty. Once 
initially trained, screeners continually receive recurrent professional 
ethics training including the ``Customer Service Web-Based Training,'' 
which reinforces TSA's customer service principles and gives the 
screener training in various scenarios requiring effective customer 
service responses. Screeners are also provided the ``TSA Pledge to 
Travelers,'' which emphasizes TSA's dual mission of providing World 
Class Security and World Class Customer Service, assures the traveling 
public that they are entitled to a security screening experience that 
is professional and courteous, and that any experience to the contrary 
should be reported back to TSA. In addition, TSA has sent several 
communications to all employees (not just screeners) of their 
responsibilities on ethical conduct, including the restrictions under 
the Hatch Act related to the acceptance of gifts by Federal employees. 
All employees also receive a copy of and are required to sign TSA HRM 
Letter No. 735-1, Interim Policy on Employee Responsibilities and 
Conduct, which contains many of the Standards of Conduct provisions. 
Finally, to remind screeners of the consequences of unethical behavior, 
TSA has disseminated Management Directive 1100.75-3 informing screeners 
of the policies and procedures for disciplinary actions that could be 
taken against them.
    TSA is committed to providing comprehensive ethics training and is 
currently developing a general ethics course that is expected to be 
available via the Online Learning Center by the end of the third 
quarter of fiscal year 2005. This course will cover topics such as 
principles, misuse of position, gifts, and outside activities.
    Question. What is your response to the OIG's report regarding 
baggage theft by screeners?
    Answer. TSA's responses to the specific recommendations in the 
Inspector General's report are as follows:
    Recommendation 1.--Evaluate the adequacy of supervision, the 
physical layout of inspection stations, and the feasibility of 
installing electronic surveillance techniques near inspection stations.
    TSA continuously reviews procedures related to the screening of 
baggage including supervision of personnel, physical layout, and 
electronic surveillance techniques. The agency will continue to do so 
by implementing the congressional requirements of the Intelligence 
Reform and Terrorism Prevention Act concerning checked baggage 
screening area monitoring, which requires the Under Secretary for 
Border and Transportation Security to provide assistance, subject to 
the availability of funds, to public airports that have baggage 
handling areas that are not open to public view in the acquisition and 
installment of security monitoring cameras for surveillance of such 
areas in order to detect theft from checked baggage and to aid in the 
speedy resolution of liability claims against TSA.
    TSA's Office of Aviation Security Programs is working closely with 
the Office of the Chief Information Officer to plan and execute a 
program for the installation of electronic surveillance systems (ESS) 
to deter and detect incidents of baggage pilferage and claims arising 
from such incidents. $14 million has been made available for ESS 
systems in fiscal year 2005 and plans are being developed to either 
install ESS where none existed before or make use of or supplement 
existing airport systems to leverage available resources. TSA is 
working in partnership with airports to find the most cost effective 
means to install and maintain current and future ESS systems.
    Searching checked baggage in view of the passenger obviously 
mitigates incidents of pilferage, but as inspection stations move away 
from lobbies and into airport baggage handling areas, ESS will rise in 
importance as will emphasis on proper supervision of such areas.
    Recommendation 2.--Include a module on professional ethics in its 
screening training curriculum.
    A general ethics course is under development and should be 
available on the Online Learning Center in the next 4-6 weeks. This 
course will be mandatory for all TSA employees, with a second component 
required for all supervisors available during the same timeframe. New 
employees will have 90 days to complete this course. For existing 
employees, the training will be required within 6 months.
    On pages six and seven of the draft report, there is discussion of 
previous cases of prosecution against TSA screeners based on ``sting'' 
or surveillance evidence. The Office of Workforce Performance and 
Training will incorporate the occurrence of such incidents into an 
existing lesson that is currently taught in all three of the basic 
screener training courses (Dual Function Screener, Passenger, and 
Baggage).
    Currently, TSA screeners do receive some ethics training though 
they are not required to receive annual ethics training because they do 
not file financial disclosure reports. The field attorneys at the 
Office of Chief Counsel often make annual ethics training sessions for 
financial disclosure filers at their airports available to the screener 
workforce as well. TSA screeners received the TSA Guide to Major Ethics 
Rules as new employees. Also, all employees must sign the TSA HRM 
Letter No. 735-1, Interim Policy on Employee Responsibilities and 
Conduct, which contains many of the Standards of Ethical Conduct 
provisions. Field attorneys have also displayed ethics posters in TSA 
offices and breakrooms.
    Additionally, in 2003 and 2004, several articles in The Sentinel 
were published on ethics issues, including the 14 Principles of Ethical 
Conduct, gifts, buddy passes, and the Hatch Act. The Sentinel is a 
newsletter distributed to the entire TSA workforce.
    Recommendation 3.--Resume negotiating an agreement with the airline 
industry on shared liability for lost or stolen baggage claims.
    TSA recently resumed discussions with the airline industry based on 
the following set of objectives: (1) improve customer service, 
including communication to the passengers about where to file claims; 
(2) enhance detection of fraud, including duplicative claims; (3) 
facilitate cooperation in resolving exceptional claims when necessary; 
and (4) develop open channels of communication between the Claims 
Management Office and airline claims offices.
    At a meeting on January 11, 2005, the airlines were receptive to 
these proposed goals, and TSA provided a white paper to the airline 
community describing our proposed goals in June 2005. The airline 
associations will then share this paper with their members and provide 
feedback to TSA. The goal is to have a memorandum of cooperation that 
all domestic airlines are able to sign by late summer 2005.
    General Comment to the Report.--The topic of property inadvertently 
left out of bags is discussed on page 7 of the OIG report. TSA 
recognizes that this is a problem and has advised that this property be 
handled as lost and unclaimed property. Under lost and unclaimed 
procedures, property recovered after checked baggage has been screened 
will be inventoried and held for at least 30 days to provide the owner 
an opportunity to reclaim the property. Should it be unfeasible or 
impractical for the owner to reclaim the property in a timely fashion, 
and he or she has evidence that TSA opened his or her baggage through 
such means as a Notice of Inspection, the passenger may submit a claim 
for the missing property.
    Question. How do you track a screener's progress in terms of 
consistently utilizing the skills and delivering the appropriate and 
acceptable service and security they've been trained to deliver?
    Answer. As mandated in a February 2004 TSA Management Directive, 
all training accomplishments must be documented in TSA's centralized 
Online Learning Center (OLC). TSA management routinely monitors 
compliance with mandatory training requirements and recurrent training 
guidelines. Federal Security Directors (FSD) are responsible for 
ensuring compliance locally on an individual basis.
    The aforementioned management directive has been updated as part of 
the routine annual review cycle and was circulated for comment within 
TSA in May 2005. This update includes clear language on the 
responsibility of the training administrator to document all required 
training within 30 days (7 days for screener basic training), the 
supervisor's responsibility to ensure their employees have completed 
all required training, and the role of the course sponsor to monitor 
national compliance with program requirements. TSA intends to ensure 
that all employees complete the required amount of training by 
incorporating this requirement into the fiscal year 2006 Performance 
Agreements of all TSA supervisors.
    In May 2005, the OLC was enhanced to include a much more robust 
reporting engine that will provide Training Administrators and Course 
Sponsors with detailed accountability reports.
    Additionally, screeners must undergo re-certification each year. 
The re-certification program for 2004-2005 includes three separate 
paths: passenger, dual function, and baggage. Passenger screeners must 
pass three modules. Module 1 is a job knowledge, Standard Operating 
Procedures (SOP)-specific test. Module 2 is an image test. Module 3 
contains practical skills demonstrations. Dual function screeners take 
both job knowledge tests for passenger and baggage screeners, an image 
test, and practical skills demonstrations. Baggage screeners must pass 
two modules, a job knowledge, SOP-specific test and practical skills 
demonstrations.
    To be re-certified, screeners have to pass all applicable modules 
of the Knowledge and Skills Assessment Program and achieve a rating of 
meets or exceeds' standards on their annual Personal Performance 
Assessment. Screeners are afforded one opportunity for remediation and 
retest. Following a retest, those screeners who fail to re-certify are 
terminated.
    Question. How do you hold the screeners accountable for 
inappropriate behavior?
    Answer. The responsibility and accountability for employee conduct 
issues rests with the Federal Security Directors at airports. TSA has 
implemented a leadership model that requires managers to address 
behaviors that fail to support the TSA mission and to work with 
employees to engage in appropriate behaviors or face consequences for 
continued patterns of misconduct. TSA has also implemented policies to 
implement single step termination procedures for high-risk offenses 
such as illegal drug use, alcohol on duty, and theft. TSA regards the 
commission of such offenses as posing a potential security risk. TSA is 
always mindful of ensuring that due process protections for employees 
are maintained and has appropriate appeal mechanisms for conduct 
matters to include the Disciplinary Review Board, the Agency Grievance 
process and appeals to the Office of Civil Rights. In addition, TSA has 
a Professional Review Board at headquarters to review and take 
appropriate action for misconduct involving senior level employees.
    Question. What are the penalties for poor performance?
    Answer. The penalties for poor performance range from counseling to 
removal depending upon the nature, cause, and severity of the 
performance deficiency. Additionally, screeners must undergo re-
certification each year. Failure to re-certify may result in 
termination or, in special cases, retraining.
    Question. In the worst case what is the threshold for removal from 
work?
    Answer. TSA has established mandatory termination procedures for 
offenses such as illegal drug use, alcohol on duty, and theft. TSA 
regards the commission of such offenses as posing a potential security 
risk. In addition, TSA has established policies for first offense 
terminations for matters affecting integrity and security at the 
airport such as sleeping on duty, violations of Standard Operating 
Procedures, security breaches, and criminal conduct.
    Question. With such a high workmen's compensation number--one of 
the highest of the Federal workforce--is there specialized training in 
place to address this?
    Answer. In early fiscal year 2003, TSA met Congressional deadlines 
to hire Federal airport passenger screeners and achieve checked baggage 
screening using Explosive Detection Systems. As the TSA screening 
workforce was deployed, it became apparent that injuries caused by 
lifting and quickly moving baggage were a serious problem. TSA 
initiated a safety program in the second quarter of fiscal year 2003 to 
address the high rate of injuries.
    Fiscal year 2004's rate increase from fiscal year 2003 is 
attributed, in part, to the processing of backlogged claims from 
incidents that actually occurred in fiscal year 2003. In fiscal year 
2004, TSA began implementation of an Occupational Safety and Health 
program aimed at lowering TSA's injury and illness rate. By the 
midpoint of fiscal year 2004, a decrease in the number of claims could 
be seen, and the decrease appears to be continuing into fiscal year 
2005. Training, guidance, a nurse intervention program, and the 
availability of field safety support have contributed significantly to 
the decrease. For example, in the first 15 weeks of operation, the 
nurse intervention program at 21 pilot airports yielded savings of over 
$2.2 million.
    It is important to emphasize that airline baggage handling is among 
the most injury prone occupations in the private sector. TSA is 
committed to the well-being of its employees and is taking the steps 
necessary to reduce screener injuries by improving working conditions 
and appropriately managing the claims process.
    TSA has also distributed a safety awareness Web-Based Training 
(WBT) course both as a CD and via the Online Learning Center. This 
safety awareness WBT course covers such topics as proper lifting 
techniques, heat injury prevention, and checkpoint and checked baggage 
safety. In addition, training on radiation safety awareness is being 
developed.

                   TSA ``NO FLY'' LISTS/SECURE FLIGHT

    Question. How does one get on the ``no fly list'', and more 
importantly, how does someone get off the list?
    Answer. U.S. Government intelligence and law enforcement agencies 
collect, analyze, and evaluate data used to nominate subjects to the 
No-Fly List. Intelligence analysts and law enforcement officers within 
these organizations carefully review nominations based on the No-Fly 
List criteria and thoroughly evaluate the information during each step 
of the process. Watch List nominations often contain classified and/or 
sensitive law enforcement investigative information. Nominations that 
meet the established criteria are forwarded to the National 
Counterterrorism Center (NCTC) and the Terrorist Screening Center for 
inclusion in the TSC Data Base (TSDB) and for addition to the No-Fly 
List. Time sensitive nominations may be routed directly to the TSC if 
required.
    If it is determined that a person on the No-Fly List should no 
longer be identified as a No-Fly subject, they will be removed from the 
list. If additional intelligence data is developed or a subject has 
been interviewed by U.S. Government officials and deemed no longer a 
threat, an official request for removal must be submitted to the agency 
that placed the individual on the list. The original nominating agency 
will evaluate the data and determine whether the person stays on or is 
removed from the No-Fly List. The nominating agency will then make a 
formal request through the nomination chain requesting that the person 
be removed from the No-Fly List. In some cases, a review of the 
derogatory information associated with a No-Fly nomination may result 
in the subject being downgraded to the TSA Selectee List.
    The TSA Office of Transportation Security Redress is currently 
developing a redress process for addressing any situation where 
passengers believe they have been unfairly or incorrectly singled out 
for additional screening under the future Secure Flight program. This 
process will also allow passengers who feel they have been erroneously 
placed on the watch lists to undergo a case review. TSA will work with 
the nominating agency to review the derogatory information. The redress 
process will be coordinated with other DHS redress processes as 
appropriate.
    TSA has developed and implemented a clearance protocol for persons 
who are flagged for additional screening due to the similarity of their 
names to those of individuals who are appropriately on the watch lists. 
A passenger may initiate the clearance protocol by submitting a 
completed Passenger Identity Verification Form to TSA headquarters. TSA 
will review the submission and reach a determination of whether these 
procedures may aid in expediting a passenger's check-in process for a 
boarding pass. The Passenger Identify Verification Form, as well as 
other information, has been posted on TSA's public website at the 
following web address: http://www.tsa.gov/public/
display?theme=157&content=09000519800fb8af
    However, this clearance process will not remove a name from the 
watch lists. Instead, this process distinguishes legitimate passengers 
from persons who are on the watch lists by placing their names and 
identifying information in a cleared portion of the lists. This 
information is transmitted to the airlines. Following TSA-required 
identity verification procedures, airline personnel can then quickly 
determine that these passengers are not the person of interest whose 
name is actually on the watch lists.
    In addition, an individual may seek to challenge his or her 
inclusion on a watch list in a court of competent jurisdiction after 
the redress and appeals process within TSA has been exhausted.
    Question. What is TSA doing to address the fact that people are 
erroneously placed on the list or have mistaken identities?
    Answer. TSA has developed and implemented a clearance protocol for 
persons who are flagged for additional screening due to the similarity 
of their names to those of individuals who are appropriately on the 
watch lists. A passenger may initiate the clearance protocol by 
submitting a completed Passenger Identity Verification Form to TSA 
headquarters. TSA will review the submission and reach a determination 
of whether these procedures may aid in expediting a passenger's check-
in process for a boarding pass. The Passenger Identify Verification 
Form, as well as other information, has been posted on TSA's public 
website at the following web address: http://www.tsa.gov/public/
display?theme=157&content=09000519800fb8af
    However, this clearance process will not remove a name from the 
watch lists. Instead, this process distinguishes legitimate passengers 
from persons who are on the watch lists by placing their names and 
identifying information in a cleared portion of the lists. This 
information is transmitted to the airlines. Following TSA-required 
identity verification procedures, airline personnel can then quickly 
determine that these passengers are not the person of interest whose 
name is actually on the watch lists.
    In addition, an individual may seek to challenge his or her 
inclusion on a watch list in a court of competent jurisdiction after 
the redress and appeals process within TSA has been exhausted.
    The TSA Office of Transportation Security Redress is currently 
developing a redress process for addressing any situation where 
passengers believe they have been unfairly or incorrectly singled out 
for additional screening under the future Secure Flight program. This 
process will also allow passengers who feel they have erroneously been 
placed on the watch lists to undergo a case review. TSA will work with 
the nominating agency to review the derogatory information.
    Question. What's the appeal process for these people? Is it within 
or outside TSA?
    Answer. TSA has developed and implemented a clearance protocol for 
persons who are flagged for additional screening due to the similarity 
of their names to those of individuals who are appropriately on the 
watch lists. A passenger may initiate the clearance protocol by 
submitting a completed Passenger Identity Verification Form to TSA 
headquarters. TSA will review the submission and reach a determination 
of whether these procedures may aid in expediting a passenger's check-
in process for a boarding pass. The Passenger Identify Verification 
Form, as well as other information, has been posted on TSA's public 
website at the following web address: http://www.tsa.gov/public/
display?theme=157&content=09000519800fb8af
    However, this clearance process will not remove a name from the 
watch lists. Instead, this process distinguishes legitimate passengers 
from persons who are on the watch lists by placing their names and 
identifying information in a cleared portion of the lists. This 
information is transmitted to the airlines. Following TSA-required 
identity verification procedures, airline personnel can then quickly 
determine that these passengers are not the person of interest whose 
name is actually on the watch lists.
    In addition, an individual may seek to challenge his or her 
inclusion on a watch list in a court of competent jurisdiction after 
the redress and appeals process within TSA has been exhausted.
    Question. Is there legal recourse for those mistakenly put on the 
list?
    Answer. The TSA Office of Transportation Security Redress is 
currently developing a redress process for addressing any situation 
where passengers believe they have been unfairly or incorrectly singled 
out for additional screening under the future Secure Flight program. 
This process will also allow passengers who feel they have erroneously 
been placed on the watch lists to undergo a case review. TSA will work 
with the nominating agency to review the derogatory information.
    Question. What is the Department doing to address the serious 
concerns about privacy and the use of personal passenger information?
    Answer. To protect passengers' personal information and civil 
liberties, TSA and the Secure Flight program will:
  --Limit the collection of personal information to only what conforms 
        to the relevant and necessary standard according to The Privacy 
        Act of 1974 (5 U.S.C. 552 (a));
  --Limit access to the information to only those TSA employees and 
        contractors who have a ``need to know'' clearance in order to 
        perform their duties associated with Secure Flight operations;
  --Ensure that each employee and contractor associated with the Secure 
        Flight program has completed the TSA mandatory privacy training 
        prior to beginning work on the program;
  --Limit sharing of personal information to the Federal Bureau of 
        Investigation (FBI) and intelligence agencies that need the 
        information for investigatory purposes related to aviation 
        security, in accordance with TSA's Privacy Act System of 
        Records Notice published for the program;
  --Include a built-in auditing mechanism to detect unauthorized access 
        to the personal information stored for the program;
  --Limit the retention of the data. TSA has requested that the 
        National Archives and Records Administration approve a 72-hour 
        retention period for the information collected and used for the 
        Secure Flight program unless a longer retention period is 
        requested by the passenger for redress; and
  --Include robust redress mechanisms to enable passengers to work with 
        TSA to resolve instances in which they think they are being 
        inappropriately selected for secondary screening or they are 
        having a difficult time obtaining boarding passes.
    Question. TSA has a program under development, called Secure Flight 
which takes personal passenger information and compares it to the ``no 
fly list'' in an effort to identify suspected terrorists traveling by 
air. How do you respond to concerns raised by both the DHS OIG and the 
GAO about the Department's handling and use of the personal passenger 
information related to Secure Flight? What are you doing to remedy the 
situation?
    Answer. To protect passengers' personal information and civil 
liberties, TSA and the Secure Flight program will:
  --Limit the collection of personal information to only what conforms 
        to the relevant and necessary standard according to The Privacy 
        Act of 1974 (5 U.S.C. 552 (a));
  --Limit access to the information to only those TSA employees and 
        contractors who have a ``need to know'' clearance in order to 
        perform their duties associated with Secure Flight operations;
  --Ensure that each employee and contractor associated with the Secure 
        Flight program has completed the TSA mandatory privacy training 
        prior to beginning work on the program;
  --Limit sharing of personal information to the FBI and intelligence 
        agencies that need the information for investigatory purposes 
        related to aviation security, in accordance with TSA's Privacy 
        Act System of Records Notice published for the program;
  --Include a built-in auditing mechanism to detect unauthorized access 
        to the personal information stored for the program;
  --Limit the retention of the data. TSA has requested that the 
        National Archives and Records Administration approve a 72-hour 
        retention period for the information collected and used for the 
        Secure Flight program unless a longer retention period is 
        requested by the passenger for redress; and
  --Include robust redress mechanisms to enable passengers to work with 
        TSA to resolve instances in which they think they are being 
        inappropriately selected for secondary screening or they are 
        having a difficult time obtaining boarding passes.
    Question. Why did you discontinue development of Secure Flight's 
predecessor CAPPS II?
    Answer. On September 24, 2004, DHS announced its intent to 
implement a next generation aviation passenger pre-screening program 
called Secure Flight. Unlike CAPPS II, Secure Flight will focus only on 
identifying potential terrorist threats (those people on watch lists) 
and, if a decision is made to use commercial data, it will be utilized 
in a focused and limited manner. Under Secure Flight, TSA will take 
over from the air carriers responsibility for the comparison of 
domestic airline Passenger Name Record (PNR) information against 
terrorist watch lists. Secure Flight will meet DHS' goals of improving 
the security and safety of travelers on domestic flights, reducing 
passenger airport screening time, and protecting privacy and civil 
liberties. Consistent with the Intelligence Reform and Terrorism 
Prevention Act of 2004 (IRTPA), TSA will begin implementing Secure 
Flight in August 2005.
    TSA recently concluded initial system effectiveness testing for 
Secure Flight. The commercial data testing began on March 18, 2005, and 
preliminary test results for the commercial data testing are expected 
later in 2005.
    Secure Flight is designed to improve the efficiency of the 
prescreening process and reduce the number of people selected for 
secondary screening. TSA will compare domestic flight PNR information 
against records contained in the consolidated watch lists contained in 
the Terrorist Screening Data Base (TSDB), including the expanded No Fly 
and Selectee lists. Consolidating these checks within the Federal 
Government will allow TSA to automate most watch list comparisons and 
apply more consistent, internal analytical procedures when automated 
resolution of initial ``hits'' is not possible. Secure Flight will help 
eliminate false positive watch list matches, improve passengers' 
experience under the existing system by helping move passengers through 
airport screening more quickly, reduce the number of individuals 
selected for secondary screening, and allow for more consistent 
response procedures at airports for those passengers identified as 
potential matches. Consequently, TSA will be able to concentrate its 
screening resources more efficiently.
    Finally, Secure Flight will only pre-screen travelers on domestic 
flights, while CBP will continue to vet passengers on international 
flights.

                       AIR TRAVELER SATISFACTION

    Question. TSA is one of DHS' most visible agencies since they 
interact with the air traveling public on a daily basis. What is the 
most common complaint TSA receives?
    Answer. TSA captures complaints reported at airports using TSA's 
web-based Performance Measurement Information System (PMIS). In April 
2005, the most common complaint recorded by TSA's PMIS was the addition 
of butane lighters to TSA's Prohibited Items List, which was required 
by IRTPA (Public Law 108-458), Section 4025.
    The most common complaint currently received by the TSA Contact 
Center (TCC) and recorded in the Inquiry Management System (IMS) 
involves the delays passengers experience during the airport check-in 
process as a result of having a name similar to, or the same as, 
individuals who are on a Federal watch list.
    Question. Recently, TSA completed a customer satisfaction survey, 
what did it find?
    Answer. The TSA developed the Customer Satisfaction Index for 
Aviation (CSI-A), which is a performance measure of our aviation 
screening program. The CSI-A score represents the customer satisfaction 
response based on a scale of zero to 100 percent where zero represents 
``very dissatisfied'' and 100 percent represents ``very satisfied''. 
The CSI-A provides customer service and maintains public confidence 
while maintaining a high level of security. There are three components 
of the CSI-A: passenger surveys conducted at airports, national poll 
results conducted by the Bureau of Transportation Statistics (BTS), and 
complaints and compliments received by TSA.
    The CSI-A score for fiscal year 2005 is 79 percent. The following 
scores reflect the breakout of each component:
  --Passenger surveys conducted at airports=79 percent
  --National poll results=75 percent
  --Trend of complaints and compliments received by TSA=no significant 
        change in trends
  --The change in trends indicate the changes in feedback (complaint 
        and compliments) received by TSA via the Performance 
        Measurement Information System and the TSA Call Center. The 
        aforementioned trend indicated the changes in feedback against 
        time for fiscal year 2004.
    Highlights of the 2005 passenger satisfaction survey are as 
follows:
  --91 percent of passengers were satisfied with their overall 
        experience at the passenger checkpoint;
  --89 percent of passengers thought security was adequate, as opposed 
        to excessive; and
  --82 percent of passengers have confidence in TSA's ability to keep 
        air travel secure.
    Question. What other means are you using to validate the customer 
feedback findings of the survey?
    Answer. TSA collects customer feedback on a daily basis. Customers 
have two means through which to provide feedback on their experience--
providing the feedback while at the airport or contacting the TCC. 
Feedback received at airports is recorded using the web-based system 
known as the PMIS. PMIS enables TSA personnel at airports to record the 
feedback received from customers on a daily basis. In addition, PMIS 
offers airports the ability to record the number of compliments and 
complaints received according to a variety of categories. The 
categories are the same as those used by the TCC. Examples of 
categories include, but are not limited to: discourteous treatment, 
slow processing, and improper handling of property. This data in 
addition to the data from the TCC contributes to one of the three 
components of the Customer Satisfaction Index for Aviation.
    Question. What role does the TSA Contact Center play regarding 
customer service?
    Answer. The TCC serves as TSA's central customer service point of 
contact for all non-media public inquiries. These inquiries can be made 
to the TCC via telephone, facsimile, correspondence, and e-mail. The 
inquiries usually take the form of compliments, complaints, or requests 
for information on a particular issue or problem. For example, an 
individual may have a question regarding whether a particular item is 
prohibited in either checked or carry-on luggage and the Customer 
Service Representative (CSR) or agent will respond accordingly. If an 
individual has a complaint, the CSR will either attempt to resolve the 
matter or, if appropriate, refer the matter to a Customer Support and 
Quality Improvement Manager at the airport for appropriate action and 
follow-up with that individual. In addition, given the nature of the 
contact, a matter may need to be elevated to TCC management and/or 
referred to a program office within TSA for assistance. Furthermore, 
based on investigation or analysis of complaints and inquiries made to 
the TCC, recommendations are made to improve agency policies, 
procedures and practices.
    The TCC also performs a security role in protecting the Nation's 
transportation systems. For example, the TCC forwards to TSA's 
Transportation Security Operations Center (TSOC) any communications or 
contacts mentioning, referencing, or alleging threats or security 
vulnerabilities. The TSOC will then take appropriate action to resolve 
the issue.
    Question. What progress and improvements has TSA made using both 
the survey and the Center's feedback?
    Answer. All feedback received by the passengers is used to make 
management decisions. Trend analyses, such as review of the top three 
complaints, are provided and reviewed by senior leadership on a monthly 
basis. Specific issues that are the result of recent policy changes are 
also addressed, such as recent complaints on pat-down searches and the 
amended Prohibited Items List. TSA headquarters is also rolling out a 
pilot program at ten airports to test a standardized customer comment 
card. The card is designed to provide a means for convenient and quick 
feedback at the airport level.
    Question. How do you respond to the recent Government Security News 
article that passengers prefer private screeners' treatment of the 
passengers being screened?
    Answer. The TSA annual customer service survey showed that for the 
second year in a row there was very little difference in the high 
degree of confidence and satisfaction air travelers have in TSA-trained 
screeners--Federal or private. For the second year in a row, air 
travelers gave consistently high marks to TSA's security screeners. 
Between 80 and 95 percent of passengers gave positive responses when 
asked about seven aspects of the Federal security screening process, 
which included thoroughness and courtesy of screeners as well as 
confidence in TSA's ability to keep air travel secure. In addition, on 
average TSA is meeting or exceeding passenger expectations for security 
line wait times.
    Question. How are your wait times and your wait time web page 
working for TSA?
    Answer. TSA continually seeks to evaluate and understand factors 
that increase wait times and how our service and staffing models can 
decrease wait times and improve the screening process for passengers. 
All airports collect and report wait time data each hour of each day 
and on the half hour during peak hours of the day. This allows TSA to 
monitor the customer experience in order to ensure the traveling public 
is not overburdened with lengthy wait times while not compromising 
security. The wait time data is used to make improvements to checkpoint 
configurations and appropriate staffing levels.
    Since collection of wait time data, the national average wait time 
has decreased to less than three minutes. Similarly, the average wait 
time during peak periods has decreased by almost four minutes since 
January 2004.

------------------------------------------------------------------------
                                            Nationwide      Nationwide
                  Month                    average wait    average peak
                                               time          wait time
------------------------------------------------------------------------
January 2004............................    3.35 minutes    14.0 minutes
April 2005..............................    2.95 minutes    10.1 minutes
------------------------------------------------------------------------

    In addition to using wait time internally to assist in identifying 
areas for improvement, TSA posts the wait time data on a public 
internet site available to travelers and the media. The URL can be 
found at http://waittime.tsa.dhs.gov/index.html. The web site provides 
the traveling public rolling average wait time by hour, by airport 
checkpoint, and by day of the week.
    Question. What recourse do complainants have?
    Answer. The recourse for complainants varies depending on the 
nature of the complaint. In the majority of cases, the matter is 
resolved by the Customer Service Representative (CSR) or agent who 
initially handles the inquiry by providing the individual with 
information as to why a particular action was taken or about processes 
currently in place. For example, in some cases, a TSA representative 
explains the redress process, usually used with claims or watch list 
issues, and provides the necessary forms. Unusual or less common 
complaints may need to be elevated to management and/or referred to the 
appropriate program office. This process ensures that TSA responds in a 
timely manner to inquiries received, while at the same time giving 
proper attention to any new trends or issues concerning TSA services. 
When an issue involves a particular airport, TSA refers the issue to a 
Customer Support and Quality Improvement Manager at the airport for 
appropriate action and follow-up with the complainant. The TSA Contact 
Center (TCC) is another vital tool and serves as TSA's central customer 
service point of contact for all non-media public inquiries. TSA 
headquarters is rolling out a pilot program at ten airports to test a 
standardized customer comment card. The card is designed to provide a 
means for convenient and quick feedback at the airport level. 
Additionally, TSA leadership contact information is on the website for 
program-related issues.
    Question. How many complaints does TSA receive and what's the 
average time for complaints to be resolved?
    Answer. At present, there is no single mechanism that captures all 
customer complaints, compliments, and inquiries. Currently, the system 
is not structured in a manner that separately breaks out numbers of 
compliments, complaints, and requests for information within any given 
subject matter category.
    The TCC handles approximately 40,000 non-media inquiries or 
contacts from the traveling public, including complaints, on a monthly 
basis. In addition, TSA receives complaints, as well as other types of 
contacts, through other channels. For example, the Claims Management 
Office (CMO) receives approximately 2,400 claims on a monthly basis. 
Customer comments also come into TSA through Customer Support and 
Quality Improvement Managers at airports. At this time, there is no 
system that centrally tracks the complaints received by TSA through its 
various channels.
    The time it takes to resolve any particular complaint varies 
depending on the nature of the complaint. In the majority of cases, the 
matter is resolved by the CSR or agent who initially handles the 
inquiry by providing the individual with information as to why a 
particular action was taken or about processes currently in place and 
the average talk time for these calls is approximately four minutes. 
The TCC does not currently track how long it takes to resolve a matter 
when an agent needs to elevate a call to a particular program office or 
the field for resolution.
    Question. Is there a customer service function in TSA to take 
complaints at each airport and if so what types of training do these 
employees receive?
    Answer. Many airports have a staff person assigned to manage the 
customer service function. The staff position is called Customer 
Support and Quality Improvement Manager (CSQIM). The CSQIM works 
closely with TCC to receive and respond to complaints and inquiries at 
the airport level.
    Some airports have forms available for customer comments at the 
checkpoints. TSA headquarters is rolling out a pilot program at ten 
airports to test a standardized customer comment card. The card is 
designed to provide a means for convenient and quick feedback at the 
airport level.
    Customer service courses are offered to CSQIM employees via the TSA 
online training center. Five customer service courses are now available 
(see descriptions below). An in-service training program, designed 
specifically for CSQIM employees, is being researched for future 
implementation.
    Excellence in Service.--Fundamentals for Managers will help you 
develop the skills needed to effectively relate to customers, fulfill 
their basic needs, and exceed their expectations. You will be provided 
with opportunities to differentiate between internal and external 
customers, take ownership for customers' needs, and make sure your 
customers are completely satisfied.
    In ``Excellence in Service.--Working with Upset Customers,'' you 
will learn how to successfully serve upset customers, calm upset 
customers, and deal with abusive customers. In addition, you will learn 
how to control your own emotions and reduce your level of stress.
    In ``Excellence in Service.--Communicating with Your Customers,'' 
you will learn how to build rapport with your customers, and discover 
how non-verbal communication is interpreted by customers. In addition, 
you will learn telephone skills, including how to project 
professionalism and how to provide quality customer service over the 
telephone. Finally, you will learn how to communicate effectively with 
your customers through e-mail.
    In ``Excellence in Service.--Providing Superior Customer Service,'' 
you will learn how to develop and maintain a positive attitude, show 
extra attentiveness to your customers, and use customer-friendly 
language. In addition, you will learn how to effectively solve 
customers' problems and benefit from their complaints.
    In ``Excellence in Service.--Establishing Service Standards,'' you 
will learn what customers really want from your organization and how 
they evaluate your service, as well as how to create and implement 
effective service standards. In addition, you will learn how to monitor 
your service standards and how to correct problems that cause service 
to fall below the standards.
    Question. Do you find that the complaints are related to TSA's 
security measures and the navigation through the airports or is it 
related to interactions with the airlines?
    Answer. The TCC is responsible for handling all non-media inquiries 
from the traveling public. Each contact is assigned a subject category 
based upon the nature of the call. Among the available subject 
categories, one captures ``Airline Issues'' and another captures 
``Airport Issues.'' Airline issues generally involve matters related to 
proper identification, gate and boarding passes, baggage match and 
weight/size allowance, airline employee/service complaints, and refunds 
(airline tickets, lodging). Airport issues generally involve matters 
related to airport grounds, parking, checkpoint, configuration and 
limitations. Other categories capture a variety of TSA-related topics. 
In March 2005, the TCC handled 2,245 contacts involving airline issues, 
which represents approximately 5 percent of the total contacts handled. 
With respect to airport issues, 179 contacts were handled in March 
2005, less than 1 percent of the total contacts. In addition to airline 
issues and airport issues, the TCC handled 9,106 contacts involving the 
No Fly list during March 2005.

                           R&D CONSOLIDATION

    Question. The fiscal year 2006 budget proposes to consolidate all 
research and development of the Department of Homeland Security into 
Science and Technology, with the exception of the Domestic Nuclear 
Detection Office (DNDO). Mr. Secretary, can you tell us what the 
driving force is behind this consolidation?
    Answer. Through the Homeland Security Act of 2002 and subsequent 
legislation, the Under Secretary for Science and Technology has been 
tasked with coordinating and integrating all research, development, 
demonstration, testing, and evaluation (RDT&E) activities of DHS and 
also to consolidate all Departmental research and development funding 
within the science and technology programs. The coordination and 
integration of RDT&E will: maximize the efficiency and effectiveness of 
the Department's RDT&E capacity; develop and expand synergistic RDT&E 
programs that cut across the Department's activities; create a world-
class RDT&E capability; allow the other Directorates and organizational 
elements to eliminate within them the specialized management 
infrastructure required to manage organic RDT&E; and allow the other 
Directorates and organizational elements within DHS to focus on their 
operational missions.
    Question. What savings do you hope to realize as a result of the 
consolidation?
    Answer. This consolidation will bring under a single accountable 
authority the scientific and engineering personnel and other RDT&E 
resources of the Department. Coordination and integration of RDT&E will 
contribute to a synergistic environment wherein knowledge, 
capabilities, and initiatives can be leveraged and effectiveness and 
efficiencies can be enhanced.
    Question. How will the consolidation change the way in which 
research and development is carried out within the Department today?
    Answer. Consolidation will contribute to: maximize the efficiency 
and effectiveness of the Department's RDT&E capacity; develop and 
expand synergistic RDT&E programs that cut across the Department's 
activities; create a world-class RDT&E capability; allow the other 
Directorates and organizational elements to eliminate within them the 
specialized management infrastructure required to manage organic RDT&E; 
and allow the other Directorates and organizational elements within DHS 
to focus on their operational missions.
    Question. What assurances can the Department provide to the 
Committee that the traditional mission of the Coast Guard will continue 
to flourish in the new consolidated research and development structure?
    Answer. Authorities for the U.S. Coast Guard (USCG) RDT&E will rest 
within USCG, but the USCG RDT&E program will be coordinated with the 
overall departmental RDT&E program to maximize efficiency and minimize 
duplication of effort. There are significant efficiencies to be gained 
with an integrated RATE effort for the Department under a single 
accountable authority. The S&T Directorate is committed to and 
responsible for supporting the research, development, testing, and 
evaluation requirements to ehnance the USCG homeland and non-homeland 
security mission performance.
    Question. Why isn't the DNDO research and development included in 
this consolidation, would it not benefit as well?
    Answer. The Domestic Nuclear Detection Office (DNDO) serves as a 
unique entity within the Department to consolidate all nuclear-
detection related activities, allowing for the development of an 
integrated office that will be responsible not only for research and 
development, but also for developing a global nuclear detection 
architecture and developing and implementing a domestic detection 
system, to include acquisition programs for detection assets and 
operational support functions. This integration, as well as 
coordination with nuclear detection programs in other departments, will 
allow for the development of a single, global nuclear detection 
architecture to protect the Nation from attempts to import or transport 
a nuclear device or fissile or radiological material intended for 
illicit use.
    DNDO will continue to closely interface with the S&T Directorate on 
joint projects, as appropriate, for the development of technologies 
that may provide countermeasures against multiple threat types. The 
separation of the DNDO nuclear detection RDT&E from the RDT&E conducted 
within the S&T Directorate will be conducted so as to not have any 
detrimental effect on potential collaborative efforts that would be 
gained through the S&T consolidation effort. The goal is to make sure 
that this Nation maintains a preeminent research and development 
program to address the technical challenges in radiation detection 
science and technology, while at the same time capitalizing on the 
benefits of integrating this program with larger acquisition and 
operational support efforts.

                   DOMESTIC NUCLEAR DETECTION OFFICE

    Question. Mr. Secretary, I understand from recent news reports that 
you established the Domestic Nuclear Detection Office 2 days after your 
arrival at the Department. Further, I understand this office was 
operational prior to your reorganization notification pursuant to the 
Homeland Security Act establishing this office directly under the 
Office of the Secretary. The Committee has also just received a 
reprogramming request to provide fiscal year 2005 resources to support 
this office. Where did you get the initial resources and staff to stand 
up this office?
    Answer. The DNDO is a part of a natural evolution of the DHS S&T 
Radiological and Nuclear Countermeasures portfolio, which was 
appropriated $122.6 million in fiscal year 2005. Of this appropriation, 
$92.5 million was to be used to manage programs that directly fall 
within the mission space of the DNDO, as currently envisioned. The 
programs that currently are managed through this appropriation, along 
with the associated staff, will ultimately fall under the management of 
DNDO. Additionally, a number of other departments and DHS components 
have provided staff, on a non-reimbursable basis, to the DNDO 
transition team, which will eventually form the initial staff for the 
office.
    The defense of this Nation against a terrorist nuclear attack is 
one of the top priorities of the Department, and the attention that I 
gave this matter immediately upon my arrival should be indicative of 
that. I sent out a memo to the Department on March 16, outlining my 
intention to establish the DNDO, and directing senior members of the 
Department to support the transition and establishment of the office. 
This is a process that is still underway, rather than one that has been 
concluded. As part of this process, the Committee was notified, on 
April 13, of a single funding reprogramming to use existing DHS S&T 
funds, as appropriated, to cover operating costs of the new office for 
the remainder of fiscal year 2005. Simultaneously, I submitted, in 
accord with Sec. 872 of the Homeland Security Act of 2002 (Public Law 
107-296), notification to Congress of the intent to establish the DNDO 
within the Department. On April 15, the President issued National 
Security Presidential Directive-43/Homeland Security Presidential 
Directive-14, ``Domestic Nuclear Detection,'' directing the 
establishment of DNDO within the Department.
    Question. The Department is required to come before the Committee 
and receive advance approval for new initiatives, why wasn't the 
Committee notified in advance of the Office's establishment?
    Answer. On April 13, DHS submitted both an 872 notice and an fiscal 
year 2005 Reprogramming Report to appropriate Authorization and 
Appropriations Committee members. In anticipation of the notification 
to Congress, I previously announced to the Department my intent to 
create the office and established an acting director with authority to 
begin staffing the office from DHS and the other agencies involved, and 
to take necessary steps to be functional as soon as possible.
    Question. Can you tell the Subcommittee what has changed in the 
last year to warrant the creation of this office immediately; is it new 
intelligence, new authorities granted to Homeland, or new 
vulnerabilities uncovered?
    Answer. While there is currently no specific intelligence 
indicating when or where a nuclear attack might occur, it is expected 
to take several years to continue to develop and test effective, 
sustainable countermeasures and deploy and operate systems to interdict 
an attempted attack by our adversaries. With this in mind, it is 
important to take steps proactively to strengthen and consolidate 
efforts to be prepared if and when an attempt should come.
    Accordingly, acting now provides the Department with an opportunity 
to consolidate all nuclear-detection related activities and proceed 
with a fully integrated approach that will include not only research 
and development, but also the development of a global nuclear detection 
architecture and development and implementation of a domestic detection 
system, including acquisition programs for detection assets and 
operational support functions. This integration, as well as 
coordination with nuclear detection programs in other departments, will 
allow for the development of a single, global nuclear detection 
architecture to protect the Nation from attempts to import or transport 
a nuclear device or fissile or radiological material intended for 
illicit use.
    Question. The Department is taking great pains to consolidate the 
research and development of the Department under the Science and 
Technology Directorate. Would you explain the rationale behind why 
DNDO's research and development should remain separate?
    Answer. The DNDO serves as a unique entity within the Department to 
consolidate all nuclear-detection related activities, allowing for the 
development of an integrated office that will be responsible not only 
for research and development, but also for developing a global nuclear 
detection architecture and developing and implementing a domestic 
detection system, to include acquisition programs for detection assets 
and operational support functions. This integration, as well as 
coordination with nuclear detection programs in other departments, will 
allow for the development of a single, global nuclear detection 
architecture to protect the Nation from attempts to import or transport 
a nuclear device or fissile or radiological material intended for 
illicit use.
    DNDO will continue to closely interface with the S&T Directorate on 
joint projects, as appropriate, for the development of technologies 
that may provide countermeasures against multiple threat types. The 
separation of the DNDO RDT&E from the RDT&E conducted within the S&T 
Directorate will be conducted so as to not have any detrimental effect 
on potential collaborative efforts that would be gained through the S&T 
consolidation effort. The goal is to make sure that this Nation 
maintains a preeminent research and development program to address the 
technical challenges in radiation detection science and technology, 
while at the same time capitalizing on the benefits of integrating this 
program with larger acquisition and operational support efforts.

               ROLE OF SCIENCE AND TECHNOLOGY DIRECTORATE

    Question. As you step into the role of Secretary, Mr. Chertoff, how 
well do you think S&T is carrying out its strategic mission?
    Answer. Over these last few months I have closely reviewed the work 
of the S&T Directorate and believe it is doing very well in carrying 
out its mission. The most important mission for the S&T Directorate is 
to develop and deploy cutting-edge technologies and new capabilities so 
that the dedicated men and women who serve to protect and secure our 
homeland can perform their jobs more effectively and efficiently. The 
S&T Directorate uses a risk-based approach to prioritizing and 
planning, and identifies critical capability gaps before attempting to 
identify or develop technology solutions. The S&T Directorate then 
addresses the highest priorities that address the broad threat spectrum 
as well as supporting the needs of the Department's organizational 
elements.
    Question. During your short tenure, what are the areas of greatest 
concern to you?
    Answer. As I emphasized in my recent 2SR speech, the Department's 
success in meeting its strategic objectives requires a coordinated 
risk-based approach to planning and prioritizing its activities, and 
this approach is being implemented across the Department. Thus, the 
development and implementation of effective and efficient counter-
measures to biological, chemical and explosive threats continues to be 
an area of emphasis for the Department. Within the Department, the S&T 
Directorate has the lead in developing effective countermeasures for 
biological, chemical, radiological/nuclear, and explosives threat 
agents as well as providing support to the Department's organizational 
elements. The DNDO has the lead role in radiological/nuclear detection 
capabilities. Both the S&T Directorate and DNDO are committed to 
ensuring that the Nation is safer from these threat areas. 
Additionally, the S&T Directorate remains committed to providing the 
nation's emergency responders, Border Patrol, Coast Guard, and other 
members of the responder community with innovative, affordable 
technologies.
    Question. How do we have any confidence that the Department, and 
S&T specifically, is heading in the right direction? Recent reports 
indicate that S&T has made little if any progress in actually 
increasing our security through research and strategic management of 
our limited research dollars.
    Answer. Clearly, the S&T Directorate works to ensure that the 
nation's Federal, State and local operational end-users have the 
necessary technological tools to protect and secure our homeland. The 
S&T Directorate acknowledges and accepts that technology research and 
development is not a 6 month process but rather a long-term investment 
of 18 months to 4 years for the technology to mature. The Directorate 
tends to aim further down the road to ensure that the research and 
development being conducted today is capable of dealing with emerging 
threats in the future. All of the S&T Directorate's programs began at 
the same time, March 2003 or soon thereafter, therefore the S&T 
Directorate has not yet reached full maturity in many of its critical 
ongoing efforts.
    The S&T Directorate also recognizes the need for technology 
solutions in the near term. The S&T Directorate's efforts to date have 
resulted in numerous products that are increasing our security. 
Included in these are:
  --BioWatch, a biological agent detection system, which protects the 
        nation's major population centers from the threat and 
        ramifications of a bioterrorist attack. BioWatch also provided 
        support during the G8, Democratic National Convention and 
        Republican National Convention;
  --Developed and transitioned PROTECT, a chemical detection system, to 
        the Washington Metropolitan Area Transit Authority for use in 
        the Washington subway system. PROTECT was also deployed to 
        Boston and New York for the Democratic and Republican National 
        Conventions and remains in the New York subway system;
  --Delivered the Threat Vulnerability Integration System (TVIS) and 
        the Threat-Vulnerability Mapper (TVM), to the Information 
        Analysis and Infrastructure Protection (IAIP) Directorate;
  --Developed the BTS Technology Vision which include Border Watch, 
        Transportation Watch and Border Net which significantly 
        improves our ability to provide the information necessary to 
        secure our borders;
  --Selected four urban areas for the pilot of the Regional Technology 
        Integration (RTI) Initiative;
  --Developed a joint port and coastal surveillance prototype 
        designated HAWKEYE with the United States Coast Guard; and
  --Developed a Critical Infrastructure Protection (CIP) Decision 
        Support System (DSS) focused on prioritizing investment, 
        protection, mitigation, response, and recovery strategies 
        related to Critical Infrastructure Protection.
    Question. How is S&T assisting in the protection of our critical 
infrastructure and what relation does that have to the Department's 
efforts of the Information Analysis and Infrastructure Protection 
office?
    Answer. The S&T Directorate supports the Information Analysis and 
Infrastructure Protection (IAIP) Directorate in the technical aspects 
of assessing threats to the nation's critical infrastructure. Through 
RDT&E, the S&T Directorate is providing specialized technical tools for 
intelligence analysis and knowledge synthesis. Analytical tools include 
software algorithms for data extraction, pattern discovery, semantic 
graph representation, visualization, and modeling and simulation. To 
support these tools, the S&T Directorate also provides tools to the 
IAIP Directorate, such as the Threat Vulnerability Integration System.
    Terrorist capability assessments, which are being performed by the 
national laboratories, also provide expert scientific data and 
background information analyses to the IAIP Directorate. The specially 
developed tools greatly extend the capabilities of the commercially 
available analytical products that are used by the IAIP Directorate. 
They are designed to work on massive, multimodal, and distributed data 
sets and to provide real-time, higher accuracy visualization and 
modeling capabilities.
    The S&T Directorate is also developing scientifically based, 
rational approaches for prioritizing critical infrastructure protection 
strategies, protection requirements, and resource allocations using 
modeling, simulation, and analyses to assess vulnerabilities, 
consequences, and risks; developing and evaluating protection, 
mitigation, response, and recovery strategies and technologies; and 
providing real-time support to decision makers during crises and 
emergencies.
    There are several significant examples of this partnership.
    For example, the S&T Directorate provides assistance to IAIP in 
evaluating the scientific and technical capabilities of terrorist 
groups and organizations to develop and deploy all WMD agents. This is 
an excellent example of a reciprocal supporting relationship, in that 
the IAIP Directorate needs S&T Directorate insight into technical 
issues, while the S&T Directorate needs IAIP Directorate insight into 
emerging threats. This ``swap'' of insight allows the S&T Directorate 
to meet its responsibility for the coordination of RDT&E needed to 
address those emergent threats.
    In addition, countermeasures for WMD (such as chemical, biological, 
radiological and nuclear threats) are addressed within the S&T 
Directorate--however this work supports and is developed in 
coordination with all of the operational elements of DHS including the 
IAIP Directorate.
    Furthermore, the S&T Directorate is developing the Critical 
Infrastructure Protection Decision Support System (CIP-DSS) in 
collaboration with several units of the IAIP Directorate and working 
with the IAIP Directorate's National Infrastructure Simulation and 
Analysis Center (NISAC) to validate and mature the model.
    The S&T Directorate has also developed the annual National Critical 
Infrastructure Protection (NCIP) R&D Plan in close coordination with 
the IAIP Directorate. The National Infrastructure Protection Plan 
(NIPP), developed by the IAIP Directorate, and the NCIP R&D Plan are 
complementary documents, mutually supportive and coordinated.
    Finally, the S&T Directorate, in coordination the IAIP Directorate, 
is leading RDT&E efforts that will improve the security of the existing 
cyber infrastructure and provide a foundation for a more secure 
infrastructure. To protect these infrastructures, we must improve the 
security of the protocols that underlie Internet communications. 
Technological advances are necessary to protect against, detect, and 
respond to attacks on the nation's information infrastructure.
    The S&T Directorate has a number of cooperative programs with the 
IAIP Directorate linking cyber security research to critical 
infrastructure protection:
  --Process Control System Forum (PCSF).--This forum was established to 
        accelerate the development of technology that will enhance the 
        security, safety and reliability of process control system 
        (PCS) and supervisory control and data acquisition (SCADA) 
        systems.
  --Control System Security Test Center (CSSTC).--In collaboration with 
        the Department of Energy and its resources and testing 
        facilities, this program focuses on developing procedures for 
        enumerating the vulnerability of process control systems to 
        cyber attack and finding solutions to correct these weaknesses.
  --Small Business Innovative Research (SBIR) Awards.--In fiscal year 
        2004, 13 Phase I SBIR projects were awarded in the area of 
        process control system security. In fiscal year 2005, Phase II 
        SBIRs were awarded to a subset of the Phase I performers, on 
        the following topics: Advanced Security for SCADA Systems, 
        Protection of SCADA Systems Using Physics Based Authentication 
        and Location Awareness, Improved Security Information 
        Management for SCADA Systems, A Robust Secure Management System 
        for SCADA/EMS Operations, and A Toolkit for Next Generation 
        Electric Power SCADA Security Protection and Research.
    The Science and Technology Requirements Council is one process by 
which the IAIP Directorate and the other component units in DHS convey 
their RDT&E requirements to the S&T Directorate. Representatives from 
the IAIP Directorate also are members of the S&T Directorate's 
Integrated Product Teams, a key mechanism for coordination and planning 
of DHS RDT&E efforts.
    Question. What is on the horizon in terms of the newest threats and 
related countermeasures under development?
    Answer. The Department is working in close collaboration with the 
DOD, the FBI, members of the Intelligence Community and others to 
identify potential new threats, assess the nations vulnerabilities to 
these potential new threats, and the consequences if these potential 
new threats were successfully used against us. The S&T has the 
responsibility within the Department to incorporate the risk of these 
potential new threats into our overall RDT&E process and the 
development of appropriate countermeasures. Although details can not be 
provided herein, the S&T Directorate is addressing, for example, 
potential threats from genetically modified biological organisms and 
certain types of non-traditional chemical warfare agents to develop 
appropriate countermeasures.
    Question. Can you tell us how S&T has had a direct role in 
improving the security of the country?
    Answer. The nation's advantage in science and technology is a key 
element in securing the homeland. The most important mission for the 
S&T Directorate is to develop and deploy cutting-edge technologies and 
new capabilities so that the dedicated men and women who serve to 
protect and secure our homeland can perform their jobs more effectively 
and efficiently. However, the threats to our homeland remain diverse 
and daunting. The S&T Directorate constantly monitors current and 
emerging threats and assesses our vulnerabilities to them, develops new 
and improved capabilities to counter them and mitigate the effects of 
terrorist attacks should they occur. The S&T Directorate also enhances 
the conventional missions of the Department to protect and provide 
assistance to civilians in response to natural disasters, law 
enforcement needs, and other activities such as maritime search and 
rescue. Basically the S&T Directorate assists in making DHS operations 
science-based, intelligence-informed and technology-enabled.
    Question. Mr. Secretary, in the President's fiscal year 2006 
request is $110 million for the counter man-portable air defense 
systems, or Counter MANPADS. Can you give us an update on the status of 
this program?
    Answer. DHS is still on schedule to complete Phase II of the 
Counter MANPADS program and to provide its report to Congress and the 
Administration at the end of January 2006. This report will include a 
Concept of Operations, a maintenance approach, data on system 
effectiveness and reliability, options on how the system may be 
deployed, restrictions or regulatory changes required to comply with 
International Traffic in Arms Regulation (ITAR), and Life Cycle and 
Total Ownership cost estimates. BAE Systems and Northrop Grumman are 
scheduled to complete their system designs, including Critical Design 
Reviews in early summer of 2005. Following the review, the contractors 
will fabricate, install, and test their prototypes on commercial 
aircraft (late summer and fall of 2005).
    By the end of January 2006, each contractor will have delivered two 
complete units and demonstrated system performance, including the 
results of studies emphasizing the operational suitability and cost of 
its systems. They also will have integrated their equipment onto 
aircraft, and obtained FAA Supplemental Type Certifications for 
aircraft airworthiness with the countermeasure system installed.
    In addition, the requested $110 million provides for a Phase III 
program to improve operational, affordability, and maintainability 
issues. Based on interaction with airline stakeholders, an objective 
was established for system reliability that fits within the commercial 
airline heavy maintenance or major overhaul schedule of approximately 
3,000 flight hours (depending on commercial airplane types).
    A primary objective of the Phase III effort is to increase the 
reliability of the current countermeasure equipment by fielding a 
number of operational units and conducting laboratory reliability 
growth testing. DHS S&T estimates that the Phase III efforts will 
double current countermeasure equipment reliability to achieve the 
3,000 hour threshold across airplane types. Additionally, operational 
and maintenance concepts have been developed, including reducing the 
requirements of Minimal Equipment List (MEL) and commercial supply 
chain management practices, that will be evaluated during Phase III. 
Based on the results of Phase III operational fielding, reliability 
testing, and evaluation of operational and maintenance procedures, 
system design alterations will be developed with ITAR considerations in 
mind that will make fleet-wide fielding much more affordable and 
commercially viable.
    Question. Are there areas within S&T where the strategic placement 
of dollars would be most efficiently used?
    Answer. The S&T Directorate uses a risked-based approach to 
prioritizing and planning and identifies critical capability gaps 
before attempting to identify or develop technology solutions. The S&T 
Directorate then addresses the highest priorities across the broad 
threat spectrum as well as supporting the needs of the Department's 
organizational elements. The Directorate's R&D activities reflect the 
prioritization of efforts among the many possible threat agents and 
targets as well as technology development for supporting the 
organizational elements of the Department and the emergency responder 
community.

                   S&T UNIVERSITY PARTNERSHIP PROGRAM

    Question. How does the University partnership effort improve DHS' 
ability to carry out its mission?
    Answer. The Homeland Security Act of 2002, as amended, looks to the 
university community to stimulate, coordinate, leverage and utilize its 
unique intellectual capital to address current and future homeland 
security challenges. To maximize the benefits of engaging the multi-
disciplinary research capacity of universities and to access current 
and future generations of researchers and practitioners, a number of 
focused activities have been established. These include multi-
institutional Centers of Excellence built around mission-critical 
homeland security areas; cooperative research activities with other 
Federal agencies with homeland security responsibilities; support of 
undergraduate, graduate and postdoctoral students to develop a cadre of 
talent committed to homeland security programs; and outreach to the 
broader education community. These activities will help ensure that DHS 
will have the scientific knowledge and talent to successfully address 
homeland security challenges.
    Question. Mr. Secretary, what unique role does S&T play with regard 
to university research and why is it important?
    Answer. The S&T Directorate continues to identify knowledge and 
capability gap areas that need to be addressed to deal with current and 
future homeland security threats and the development of countermeasures 
to those threats. Many of these areas are well suited to university 
research, development and educational capabilities. Universities 
provide state-of-the-art research experts experienced and successful in 
cross- disciplinary programs, access to national and local talent pools 
and a neutral setting to consider important policy issues. These 
capabilities and ensuing cross fertilization directly benefit the 
operational responsibilities of the S&T Directorate.
    Question. Are these projects that receive funding chosen by peer 
review and what does the Department gain by having funded a specific 
project?
    Answer. All projects funded within University Programs are the 
result of a rigorous and competitive peer and relevancy review process. 
This includes all research and educational programs. With regard to the 
Centers of Excellence, in selecting research areas, the S&T Directorate 
seeks input from a variety of sources. These sources include the 
Homeland Security Act of 2002, as amended; the National Research 
Council (NRC); the Homeland Security Presidential Directives (HSPDs); 
other DHS directorates; and subject matter experts. DHS personnel 
interact extensively with the funded Centers of Excellence by serving 
on their review committees, attending workshops and exploring joint 
research initiatives. In this manner, DHS stays aware of their mission-
critical research.
    Question. Mr. Secretary, contained in the President's fiscal year 
2006 budget request is $22.9 million for the National Bio and 
Agrodefense Facility. What is the mission of this facility and why 
isn't it in the Center for Disease Control's or U.S. Department of 
Agriculture's budget request?
    Answer. HSPD-9 (``Defense of United States Agriculture and Food'', 
paragraph 24) states: ``The Secretaries of Agriculture and Homeland 
Security will develop a plan to provide safe, secure, and state-of-the-
art agriculture bio-containment laboratories that research and develop 
diagnostic capabilities for foreign animal and zoonotic diseases.'' The 
S&T Directorate currently has responsibility for one such facility, as 
the Homeland Security Act of 2002 transferred the ``assets and 
liabilities'' of the Plum Island Animal Disease Center (PIADC) from 
USDA to DHS as of March 1, 2003. PIADC is currently the nation's only 
Bio-Safety Level 3 facility (BSL-3Ag) for research and diagnostic 
programs on foreign animal diseases such as foot-and-mouth disease 
(FMD). The bio-containment laboratories and animal facilities at PIADC 
are aged well beyond their originally designed life expectancy, and are 
in immediate need of re-capitalization or replacement. There is no BSL-
4 livestock capable laboratory at PIADC or elsewhere in the United 
States to work on high consequence zoonotic diseases in host livestock 
species. Therefore, planning for the National Biological and 
Agriculture Facility is the top S&T Directorate priority for bio-
containment facilities, and impacts ongoing and planned programs for 
biological countermeasures for foreign animal diseases (including 
assays and diagnostics, vaccines and therapeutics, and forensics).
    Recognizing the needs described above, the President requested $23 
million in fiscal year 2006 for the design and initiation of a National 
Bio and Agro-defense Facility (NBAF). In preparation for this, we have 
undertaken a conceptual design study to better characterize the key 
programmatic requirements driving the NBAF design and to explore the 
cost benefit tradeoffs associated with each of these drivers. This 
conceptual design will explore three major NBAF options of increasing 
capability:
  --Keeps the scope the same as the current PIADC mission but builds 
        the facilities required to meet the needs of the first half of 
        the 21st century;
  --Expands the scope to include additional agriculture biocontainment 
        laboratories for foreign animal and zoonotic diseases as called 
        for in HSPD-9 above; and
  --Adds expanded test and evaluation facilities to support clinical 
        testing of medical countermeasures by the Department of Health 
        and Human Services (HHS).
  --DHS is committed to working with Congress, stakeholders, and 
        partner Federal Departments and agencies (e.g. USDA and HHS) in 
        the development of this new facility.

                        DHS INTELLIGENCE MISSION

    Question. Mr. Secretary, your written testimony states that you 
will work closely with the intelligence community and the Director for 
National Intelligence. Given that, what is Information Analysis and 
Infrastructure Protection (IAIP) Directorate's role in the intelligence 
world since the enactment of the Intelligence Reform Act?
    Answer. This role is evolving. The Department makes many 
contributions to the Intelligence Community and we will continue to 
enhance those contributions. Systematic intelligence lies at the heart 
of everything that the Department does. Understanding the enemy's 
intent and capabilities affects how we operate at our borders, how we 
assess risk in protecting infrastructure, how we discern the kind of 
threats for which we must be prepared to respond. We are enhancing our 
ability to fuse that information and combine it with information from 
other members of the Intelligence Community, as well as information 
from our State and local and international partners.
    As I announced on July 13, 2005, I have proposed that the Assistant 
Secretary of Information Analysis become the Chief Intelligence Officer 
for the Department. My proposal is for the Chief Intelligence Officer 
to head a strengthened Intelligence and Analysis division that will 
report directly to me. This office will ensure that intelligence is 
effectively coordinated, fused and analyzed within the Department so 
that we have a common operational picture. It will also provide a 
primary connection between DHS and the Intelligence Community as a 
whole, and a primary source of information for state, local and private 
sector partners. The Department's unique access to information from our 
components, as well as our robust relationship with State, local, and 
tribal governments, as well as with the private sector, makes our 
enhanced contribution to the IC critical as we move forward.
    In addition, since the creation of the Director of National 
Intelligence, IAIP, through the Office of Information Analysis, has 
collaborated with the Office of the Director of National Intelligence 
(ODNI) on a number of initiatives. IA works closely with the National 
Counterterrorism Center (NCTC). Among other things, we have provided IA 
intelligence analyst detailees to the NCTC, who are in a unique 
position to understand both intelligence information derived from our 
components and its impact on State and local governments, as well as 
the private sector. We also work closely with the NCTC to provide data 
and fuse critical information. We also participate in the WMD Working 
Group, (an outgrowth of the WMD Commission), the National Framework for 
Analytical Production working group, which is responsible for 
developing a national production framework for the IC, and on work 
dealing with human resource issues. IA will continue to develop a close 
working relationship with the ODNI as it strives to improve existing 
programs and put in place new initiatives that will further strengthen 
and protect our homeland.
    Question. Is it the opinion of the Department that IAIP's functions 
are enhanced or minimized by the Act?
    Answer. Greater integration of the Intelligence Community and a 
heightened emphasis on information sharing as a result of Public Law 
108-458, the Intelligence Reform and Terrorism Prevention Act of 2004 
(IRTPA), will strengthen the ability of DHS's Office of Information 
Analysis to carry out its mission. We are optimistic that these reforms 
will lead to greater collaboration in analysis and greater ease of 
exchanging information across all levels. The continued emphasis on 
information sharing directed by IRTPA, for example, will improve DHS 
IA's ability to carry out its mission to fuse and lead the Department's 
intelligence activities and to share and receive critical threat 
information with and from state, local, territorial, and tribal 
governments and the private sector.
    Question. Can you tell the Subcommittee how the Homeland Security 
Operations Center's (HSOC) daily activities are changed by the 
Intelligence Reform Act?
    Answer. The daily activities of the HSOC are not changed by the 
Intelligence Reform Act. The HSOC will continue to provide general 
domestic situational awareness, a common operational picture, and 
support to the Interagency Incident Management Group (IIMG) and DHS 
Leadership, as well as act as the primary conduit for the White House 
Situation Room and IIMG for domestic situational awareness. HSOC 
collects domestic related suspicious activity reports throughout the 
United States and shares that information with DHS stakeholders.
    Question. How will the HSOC perform its mission in light of this 
new Act?
    Answer. HSOC will continue to perform its core missions as it has 
in the past.
    Question. How has the Homeland Security Operations Center 
interfaced with the Terrorist Tracking Information Center which has 
been absorbed into the National Counterterroism Intelligence Center?
    Answer. The HSOC provides general domestic situational awareness, a 
common operational picture, and support to the IIMG and DHS Leadership, 
as well as acting as the primary conduit for the White House Situation 
Room and IIMG for domestic situational awareness. The HSOC will 
continue to collect domestic related suspicious activity reports, look 
at domestic terror threats and natural disasters, focusing efforts 
domestically. HSOC is the lead conduit to State and local agencies. 
HSOC anticipates being the primary conduit to NCTC for domestic 
situational awareness.
    Question. How will the Homeland Security Operations Center fit into 
the new intelligence community structure?
    Answer. The advent of the new intelligence community structure does 
not significantly change the daily activities of the HSOC. The HSOC 
acts as the ``ingest'' point for threat traffic and suspicious activity 
reporting to DHS, so it is integral that the information captured and 
exploited by the Office of Information Analysis (IA) staff in the HSOC 
is shared with the Federal Intelligence Community. This occurs on a 
constant basis through video teleconference (0100 Production Meeting 
hosted by NCTC, the 0800 and 1500 SVTC), telephone, JWICS email and 
fax. The IA staff in the HSOC works closely with the NCTC Operations 
Center/FBI Counterterrorism Watch to develop emergent traffic 
containing a domestic nexus. Additionally, the IA staff in the HSOC is 
prepared to provide situational awareness to the DNI Operations Center 
when it is operational.
    Question. Do you think the Department should have an Under 
Secretary of Intelligence to elevate its role within the intelligence 
community?
    Answer. As I announced on July 12, 2005, after conducting 2SR, I 
believe that the current Assistant Secretary for Information Analysis 
should become the Chief Intelligence Officer for the Department, and 
that this component should report directly to me. I am confident that 
these changes will ensure an enhanced role for the Department's 
intelligence functions within the Intelligence Community.

                   CRITICAL INFRASTRUCTURE PROTECTION

    Question. The Department recently released an interim report on the 
Nation's critical infrastructure, the purpose of which is to provide an 
outline for integrating critical infrastructure protection at the 
national level. How does this interim report lead to better protection 
of the Nation's critical infrastructure?
    Answer. DHS is coordinating, for the first time, the overall 
national effort to protect critical infrastructure. The Interim 
National Infrastructure Protection Plan (NIPP) describes a risk 
management framework that takes into account threats, vulnerabilities, 
and consequences to prioritize the nation's critical infrastructure and 
key resources (CI/KR). The NIPP delineates roles and responsibilities 
among Federal agencies; state, local, and tribal entities; as well as 
private sector stakeholders in carrying out infrastructure protection 
activities within and across the 17 CI/KR sectors established by HSPD-
7. The Interim NIPP is intended to foster sector-specific protective 
strategies and provides a mechanism for coordinating protective actions 
across sectors. It builds on the nation's existing critical 
infrastructure protection knowledge base while acknowledging the need 
to expand dialogue and partnerships with key public and private sector 
stakeholders to create an integrated, national critical infrastructure 
protection program.
    Question. My concern is that although the exercise is useful in 
developing a framework, when it gets down to the details, the momentum 
is lost and there never seems to be any achievements. How do you intend 
to use the interim report to translate into actual outcomes?
    Answer. The interim NIPP outlines the foundation, processes, and 
methodologies of the risk management framework. The interim NIPP will 
be replaced by the final version of the NIPP, which will include 
sector-specific plans with performance measures.
    Question. Did you seek the advice of States, locals and the private 
sector in the writing of this report?
    Answer. Yes, as part of the comment period during July and August 
of 2004, the preliminary draft NIPP was shared with State and 
Territorial Homeland Security Advisors and individual members of the 
private sector for review and comment. The comments from the review 
were taken into consideration during the development of the Interim 
NIPP. The period of time dedicated to reviewing the Interim Plan will 
include additional private sector and stakeholder engagement.
    Question. How does this report enable the Department to better 
identify which infrastructure is critical and what are the criteria for 
that determination?
    Answer. The NIPP risk management framework sets over arching 
security goals. Once security goals are set, the next step in the 
framework is to develop and maintain an inventory of the nation's 
assets. After an asset is identified and basic information on it is 
collected, DHS employs an initial screening methodology to determine 
whether or not it is of national consequence. Priority is given to 
those assets that, if attacked, could have a nationally significant 
effect.
    Question. How do you plan to get this report out to the public? Are 
you planning on doing town hall meetings, news articles or another 
forum?
    Answer. The success of the national infrastructure protection 
program, as framed and articulated in the Interim NIPP, is highly 
dependent on obtaining buy-in and participation from all audiences. DHS 
is responsible for leading and coordinating the national infrastructure 
protection program, while the responsibility for carrying out the 
protective activities is shared among Sector-Specific Agencies, asset 
owners/operators, and state, local, and tribal governments.
    State, local, and tribal entities and private sector stakeholders 
have an important role to play in protecting the nation's CI/KR. To 
ensure that assets within these areas are covered within the engagement 
and outreach process, these stakeholders must be aware of, and 
participate in, the implementation and the refinement of the Interim 
NIPP. The initial approach to engage state, local, and tribal entities 
and private sector stakeholders will be carried out by DHS, in 
coordination with the Sector Specific Agencies.
    Stakeholder outreach and engagement tactics differ greatly by 
audience and focus on each stakeholder's interests and role in the 
implementation of a national infrastructure protection program. 
Accordingly, the Interim NIPP engagement process is organized by 
audience group, specifically: intra-Federal stakeholders; state, local, 
and tribal stakeholders; private sector stakeholders; and the media and 
public.

                       IAIP HIRING DIFFICULITIES

    Question. Of concern to me is the amount of time it takes IAIP to 
hire and put in place new personnel. These are people who are charged 
with the intelligence and infrastructure protection functions of the 
Department. Why is it taking so long, and what can the Subcommittee do 
to help improve this situation?
    Answer. As a result of the competitive market for the cleared 
community and the unique skills and abilities needed in IAIP, an 
aggressive recruitment of these talented candidates has been necessary 
to drive toward our hiring goals. As noted, these candidates are 
filling important intelligence and infrastructure protection functions. 
The process of recruiting, selecting, and hiring candidates to meet the 
Directorate's needs is lengthy because of the multiple steps involved 
in this process to ensure a complete and thorough evaluation of 
candidates. However, over the past year IAIP has been successful in 
implementing improvements to shorten this process.
    Working closely with the Office of Personnel Management (OPM), 
improvements include the development of position descriptions and 
vacancy announcements that define the minimum requirements for each 
position. Once the position is posted and an applicant pool is created, 
a list of qualified candidates is then forwarded by OPM to hiring 
managers for comprehensive interviews and assessments. Once a selection 
has been made, a tentative offer is extended to the candidate 
contingent upon the successful completion of a security investigation.
    IAIP hiring managers take the time necessary in the selection 
process in order to ensure the specialized needs of the Directorate are 
met, particularly since many of the vacancies are highly sensitive 
positions.
    Even faced with the competitive market for qualified candidates and 
the time it takes to on-board candidates, IAIP has been successful in 
hiring 517 of the 803 FTE allotments to date and will continue to 
aggressively recruit to meet its hiring target.
    The Subcommittee has been very supportive in working with IAIP to 
understand the implications and expectations required to staff a highly 
qualified team. The approval to allow direct hiring authority has been 
instrumental in allowing us to aggressively identify, assess, and hire 
key staff. The continued active support of the Subcommittee is 
appreciated as IAIP works to achieve this target hiring goal.
    Question. Is the hiring time dependent on another agency to process 
background checks and clearances?
    Answer. Historically, DHS contracted collateral (SECRET and TOP 
SECRET) as well as TS/SCI security investigations through traditional 
venues such as Office of Personnel Management and Defense Security 
Systems (DSS). These venues also provide support to Federal, military 
and intelligence agencies. Due to high demand, they have continuously 
experienced severe backlogs, adversely impacting the timely processing 
of DHS requests.
    However, DHS has recently acquired a new venue for security 
investigations through CBP. CBP now processes TS/SCI clearances for DHS 
and, due to a smaller workload, has cut down the average time for a 
security background investigation (with no previous clearance) from 12-
18 months to as little as 6-8 weeks. This timeframe is competitive or, 
in many cases, faster than industry averages within the cleared 
community.
    Under the current projected timeline of the hiring process, the 
security clearance process accounts for 25 percent of the total hiring 
process cycle time on average. This is a significant reduction from 
previous projections (50-60 percent), and is attributed to recent 
changes in the sourcing of investigations to a new contractor agency.
    Question. Is the Department doing anything to help IAIP recruit 
qualified candidates for such a crucial role?
    Answer. DHS has been fully supportive of IAIP recruitment efforts 
and has included the Directorate in a variety of Department-wide 
recruitment events to attract qualified candidates. For example, the 
Department was successful in obtaining direct-hire authority for IAIP's 
hard to fill positions and the Equal Opportunity Office has partnered 
with IAIP to attend a Disability Career Fair and Asian Pacific American 
Federal Career Advancement Summit. IAIP also participated in a DHS-wide 
career fair at Walter Reed Army Medical Center to recruit disabled 
veterans in conjunction with the Department of Defense, as well as a 
DHS-wide Presidential Management Fellows job fair at the Washington 
Convention Center during the last week in March of this year.
    Question. Can you please submit your strategy to the Subcommittee 
on how you intend to address this problem?
    Answer. IAIP is working to implement new ways to improve the 
candidate selection process to support surge hiring efforts. These 
include:
  --Posting All Remaining Vacancies.--Work with hiring managers to 
        expedite the posting of all vacancies on the USAJOBS website;
  --Making Multiple Selections.--Encourage the practice of making 
        multiple selections from Cert Lists whenever possible;
  --Sharing Cert Lists.--Facilitate the sharing of Cert Lists are 
        shared among managers with similar hiring needs;
  --Supporting the Recruitment Campaign.--Encourage managers to attend 
        recruitment events; and
  --Conducting Panel Interviewing.--Identify Subject Matter Experts to 
        screen qualified candidates for hiring manager review and 
        selection.
    Through these efforts, IAIP will institute a systematic process for 
identifying volume hiring needs, matching those needs with available 
candidates, and mobilizing hiring managers to make multiple selections 
in a timely manner. In support of this strategy, IAIP is continuing 
efforts to broaden the candidate pool through an active recruiting 
campaign targeting specific hiring needs and an aggressive advertising 
campaign to publicize opportunities at IAIP.
    Question. Is the housing of IAIP personnel still an issue today?
    Answer. Yes, housing remains an issue for IAIP, but we are working 
to overcome them. Among the challenges faced by IAIP is the lack of 
permanent space. On any given day, there are more than 90 IA employees 
without a dedicated seat. Staff have been doubling, tripling, and 
quadrupling up in seats, working shifts and staggered hours to 
compensate for the deficit of Sensitive Compartmented Information 
Facility (SCIF) seating.
    To address its facilities situation, IAIP has developed a plan 
through fiscal year 2006 to place staff in swing and permanent seats on 
the NAC, and five floors of leased space at an office building in 
Arlington, VA. The Arlington location is currently partially occupied 
as swing space while floors are permanently constructed in a planned 
series. Two floors are nearing completion of permanent construction, 
with furniture and IT installation to follow. The entire project is 
scheduled for completion at the end of 2005. The location will 
eventually have 440 seats, and will house primarily the Office of 
Infrastructure Protection (IP).
    On the NAC, IAIP will occupy part of Building, all of Building 19, 
and the first and second floors of Building 17. Ultimately, all of 
Building 19 will be SCIF and will house IA (to include seating for the 
positions requested in 2006) and the Office of the Under Secretary. 
Floors one and two of Building 19 are under demolition/power upgrade 
prior to renovation, which is currently scheduled to be completed in 
Winter of 2005, with the renovation beginning in the Summer of 2005 and 
continuing into the Spring of 2006.
    IAIP's total SCIF requirement will be met once the Building 19 
renovation is completed.

                    IAIP COORDINATION OF PROTECTION

    Question. How does the Department plan to get the necessary support 
of State and local governments and private sector to protect our 
critical infrastructure when dollars are tight?
    Answer. DHS relies on strong and cooperative relationships with 
State and local governments and private sector partners to advance 
overall National protective strategies. The Department understands that 
local law enforcement, first responders, and the overall readiness and 
response community have the day-to-day responsibility to protect our 
citizens and infrastructures. The Federal Government must continue to 
partner with State and local officials and key leaders in the private 
sector to ensure available funding is appropriately allocated and 
correct policies and procedures are in place.
    The Department will continue to cultivate and expand its outreach 
and information sharing components to enhance its relationships with 
state/local and private sector partners. By continuing to build upon 
these vital relationships, the Department plans to continually provide 
the information, policy guidance and risk assessment methodologies 
necessary to help owners and operators bolster physical and cyber 
security plans.
    Question. How does the Department coordinate with all other efforts 
by the Federal Government and State and locals, including 
municipalities to ensure that each entity is putting in place the most 
effective security measures for a specific piece of infrastructure?
    Answer. As part of an ongoing, government-wide effort to protect 
national infrastructure, DHS is working on several initiatives with 
other Federal departments, state, local, and tribal governments, and 
the private sector. These initiatives are designed to protect against 
known and potential threats; reduce critical infrastructure 
vulnerabilities in a comprehensive and integrated manner; maximize 
efficient use of resources for infrastructure protection; build 
partnerships among Federal, state, local, tribal, private sector, and 
international stakeholders; and continuously track and improve national 
infrastructure protection.
    In the first of these initiatives, the Department is providing the 
private sector, law enforcement entities, and State homeland security 
personnel with technical and material assistance to develop and 
implement Buffer Zone Protection Plans (BZPPs) around critical 
infrastructure and key assets. To formulate these plans, owners and 
operators and local law enforcement work together to identify asset 
vulnerabilities, gaps in protection, and means of mitigating these 
vulnerabilities.
    The Department is also in the process of deploying all 68 
Protective Security Advisors (PSAs) to 60 metropolitan areas throughout 
the United States. These security specialists serve as DHS 
representatives permanently assigned in the field. The mission of the 
PSA is to represent the Office of Infrastructure Protection (IP) in 
local communities throughout the United States, serving as a liaison 
between DHS, the private sector, and Federal, state, local, and tribal 
entities; acting as IP's on-site critical infrastructure and 
vulnerability assessment specialist; providing expertise and support to 
the Principal Federal Official(s) responsible for National Special 
Security Events; and providing real-time information on facility 
significance and protective measures. PSAs continue to assist local 
entities in putting in place the most effective security measures for 
specific pieces of infrastructure.
    DHS is also providing terrorism prevention training to private 
sector, law enforcement entities, and State homeland security 
personnel. To date, over 5,600 security personnel have participated in 
the training courses. Courses relate terrorist threats and tactics to 
one of several different topics including buffer zone protection plans, 
soft targets, bombs, underwater hazardous devices, police S.W.A.T. team 
response, and counter surveillance and emerging threats. This training 
program provides baseline knowledge for a law enforcement protecting 
critical infrastructure.
    Finally, Government Coordinating Councils (GCCs) are groups being 
established for each sector that consist of Federal representation 
involved in the security of all 17 sectors defined by the National 
Infrastructure Protection Plan (NIPP). The GCCs will serve as a 
counterpart to industry-sponsored Sector Coordinating Councils (SCC). 
GCCs, which include a number of agencies with sector infrastructure 
protection responsibilities, will coordinate with the SCC and work to 
ensure the implementation of effective sector strategies and 
initiatives to support the nation's homeland security mission.
    Question. What are IAIP and the Department doing about 
cybersecurity, particularly when it is not governed by any one actor 
but affects everyone?
    Answer. The National Cyber Security Division (NCSD) of IAIP's 
Office of Infrastructure Protection was created to address cyber 
security issues and the priorities laid out in the National Strategy to 
Secure Cyberspace. In addition, HSPD-7 called upon the Department to 
establish a national focal point for cyber security, which is the 
mission of NCSD. Both the National Strategy to Secure Cyberspace and 
HSPD-7 recognize that cyber security is not just one entity's concern 
or jurisdiction, and both call upon DHS to be a focal point and work 
with partners in other Federal agencies, academic institutions, the law 
enforcement and intelligence communities, the private sector, and the 
general public to improve our cyber security posture.
    NCSD's mission, in cooperation with public, private, and 
international entities, is to secure cyberspace and America's cyber 
assets. In order to fulfill that mission, NCSD has laid out goals that 
reflect and guide its priorities and programs, as follow:
  --Goal 1.--Establish a National Cyber Security Response System to 
        prevent, predict, detect, respond to, and reconstitute rapidly 
        after cyber incidents.
  --Goal 2.--Work with public and private sectors to reduce 
        vulnerabilities and minimize the severity of cyber attacks.
  --Goal 3.--Promote a comprehensive national awareness program 
        empowering all Americans to secure cyberspace.
  --Goal 4.--Foster adequate training and education programs to support 
        the nation's cyber security needs.
  --Goal 5.--Coordinate with the intelligence and law enforcement 
        communities to identify and reduce threats to cyberspace.
    In addition to the National Strategy to Secure Cyberspace, Homeland 
Security Presidential Directives, National Security Presidential 
Directives, the Federal Information Security Management Act (FISMA) 
provides a comprehensive framework for ensuring the effectiveness of 
information security controls over information resources that support 
Federal operations and assets; recognizes the highly networked nature 
of the current Federal computing environment and provides effective 
government wide management and oversight of the related information 
security risks, including coordination of information security efforts 
throughout the civilian, national security, and law enforcement 
communities; provides for development and maintenance of minimum 
controls required to protect Federal information and information 
systems; provides a mechanism for improved oversight of Federal agency 
information security programs; acknowledges that commercially developed 
information security products offer advanced, dynamic, robust, and 
effective information security solutions, reflecting market solutions 
for the protection of critical information infrastructures important to 
the national defense and economic security of the Nation that are 
designed, built, and operated by the private sector; and recognizes 
that the selection of specific technical hardware and software 
information security solutions should be left to individual agencies 
from among commercially developed products. Each agency operating or 
exercising control of a national security system shall share 
information about information security incidents, threats, and 
vulnerabilities with the Federal information security incident center 
US-CERT to the extent consistent with standards and guidelines for 
national security systems, issued in accordance with law and as 
directed by the President.
    FISMA, Section 3546 states that the Federal information security 
incident center, US-CERT, will perform the following functions:
  --Provide timely technical assistance to operators of agency 
        information systems regarding security incidents, including 
        guidance on detecting and handling information security 
        incidents;
  --Compile and analyze information about incidents that threaten 
        information security;
  --Inform operators of agency information systems about current and 
        potential information security threats and vulnerabilities; and
  --Consult with the National Institute of Standards and Technology, 
        agencies or offices operating or exercising control of national 
        security systems (including the National Security Agency), and 
        such other agencies or offices in accordance with law and as 
        directed by the President regarding information security 
        incidents and related matters. In accordance with DOD Directive 
        O-8530-1, all DOD services and agencies are to report incidents 
        to the Joint Task Force Global Network Operations (JTF-GNO), 
        which will, in turn, coordinate directly with the US-CERT.
    The DHS approach to cybersecurity is one of coordination and 
collaboration. Therefore, in each of its cybersecurity efforts, DHS 
works with key stakeholders and subject matter experts, both within the 
Department and with external constituencies on a Federal, State, local, 
and international level.

                           OFFICE OF SECURITY

    Question. What is the Department doing to streamline the process of 
security clearances to prevent a backlog?
    Answer. The Department grants access to classified information in a 
timely manner. There is no adjudicative backlog in the granting of 
security clearances at the present time.
    The Department is continually working to improve the process of 
conducting and adjudicating background investigations and granting 
security clearances. DHS is coordinating with other departments and 
agencies in the personnel security community to accomplish this goal.
    Reciprocity.--DHS, like other Executive Branch Departments and 
agencies, complies with the requirements of Executive Order 12968, 
which establishes a uniform Federal personnel security program for 
employees who require access to classified information. The 
Intelligence Reform and Terrorism Prevention Act and Executive Order 
12968 require that background investigations and eligibility 
determinations should be mutually and reciprocally accepted by Federal 
agencies. Since its inception, DHS has conformed to this reciprocity 
requirement.
    Interim Secret Security Clearances.--The Department grants interim 
access to certain classified information following favorable completion 
of a preliminary investigation. This interim Secret clearance permits 
DHS employees to begin their service expeditiously. In addition, the 
Department is working diligently with the Office of Personnel 
Management to accelerate the investigative process for Top Secret 
security clearances by obtaining delegations of authority and 
prioritizing cases.
    Certain Investigative Authority.--DHS has obtained certain 
investigative authority that expedites background investigations and 
re-investigations for Top Secret and Sensitive Compartmented 
Information (SCI) security clearances. The Department has utilized the 
personnel security services of CBP in the Border and Transportation 
Security Directorate to conduct these background investigations for DHS 
Headquarters applicants. In this way, DHS has been able to avail itself 
of process improvements, technological advances, and other management 
efficiencies.
    Additional Adjudicators.--The DHS Office of Security (OS) is hiring 
additional Federal employees as security clearance adjudicators to meet 
the Department's growing needs.
    Streamlining the Process.--In addition, DHS has taken the following 
steps to streamline and improve the quality of the security clearance 
process:
  --The Department is focusing its background investigations on the 
        areas most relevant to the current threats facing the country 
        and the Department;
  --The Department is applying resources in the early phases of the 
        investigation to maximize limited investigative resources and 
        minimize wasteful expenditure on candidates unlikely to be 
        favorably adjudicated;
  --The Department is strategically placing employees to assist other 
        Federal agencies at key points of the investigative process;
  --The Department is automating many aspects of the personnel security 
        process, including the deployment of Electronic Questionnaires 
        for Investigations Processing (EQIP), an automated tool that 
        allows applicants to complete the form online, thus reducing 
        the processing time and minimizing the error rate; and
  --A team of human capital and personnel security experts are working 
        to increase efficiency by educating managers and prospective 
        employees about the requirements of the security clearance 
        process.
    Question. A pending fiscal year 2005 reprogramming request proposes 
to transfer $6.6 million from the Information Analysis and 
Infrastructure Protection Directorate to the Office of Security. Will 
the fiscal year 2006 request of $39.4 million for the Office of 
Security fully fund the Office of Security so that it does not require 
transfers from other DHS components to carryout its important 
operations?
    Answer. It is projected that the increase of $39.445 million for 
fiscal year 2006 will be sufficient for the currently-anticipated 
requirements of the Office of Security. It should be noted, however, 
that the proposed House version of the fiscal year 2006 Homeland 
Security Appropriations Bill cut of $10 million would have a drastic 
effect on important operations. If this occurs, the Office of Security 
will again require a transfer of funds from other components or be 
forced to cut services.
    Question. How will the Office of Security assist with the 
Department's efforts to improve information sharing with State and 
local governments and private industry?
    Answer. The Office of Security (OS) aims to facilitate the sharing 
process, while ensuring that the dissemination of information is 
conducted through secure processes and channels to trustworthy 
individuals. OS continues to play an integral role in the Department's 
efforts to improve information sharing at all levels through a number 
of initiatives.
    OS has assisted in the following ways:
  --Security Clearances.--OS has established and implemented processes 
        to facilitate the issuance of security clearances to state, 
        local and private sector personnel, in coordination with the 
        SLGCP and the Infrastructure Coordination Division of the IAIP 
        Directorate.
  --Communications Security.--OS has developed standards and a process 
        for the deployment of secure communications equipment, in 
        coordination with SLGCP and the DHS Chief Information Officer;
  --Computer Security Standards.--OS has developed and implemented 
        standards that support the deployment of computer equipment for 
        classified information disseminated to selected State and local 
        government locations;
  --Security Policy Guidance.--OS has issued policy and procedural 
        guidance to support the sharing of information and encourage 
        secure dissemination to the intended audience; and
  --Security Training.--OS has prepared and distributed educational and 
        awareness products to designated State and local government 
        personnel and private-sector officials.
    OS has played a significant role in the creation of proposed 
national standards for the sharing and safeguarding of homeland 
security information.
    Question. What coordination will take place between the Office of 
Security, the Chief Information Officer, and the Information Analysis 
and Infrastructure Protection Directorate to ensure that sensitive 
security materials do not fall into the wrong hands?
    Answer. The Office of Security (OS) continues to coordinate with 
the DHS Chief Information Officer (CIO) and the IAIP Directorate to 
ensure that information shared with state, local and private sector 
partners is afforded the appropriate protections commensurate with the 
level of sensitivity.
    In addition to the five areas listed in the previous response, OS 
has: (1) contributed to the development of policies and procedures for 
the deployment of the HSDN and is an active participant in the Homeland 
Security Accreditation Working Group, developing guidelines regarding 
appropriate physical security standards, security clearance 
verifications, and security training for the HSDN program; (2) provided 
guidance regarding the ``Need to Know'' requirements for the network. 
In addition, OS has contributed to the creation of a Homeland Security 
Information Network-Secret (HSIN-S) Users Manual to ensure proper 
security standards for information disseminated through the system; (3) 
involved in a comprehensive review of information sharing laws, 
Executive Orders, regulations and guidance, and it has participated in 
the creation of national standards for the protection of sensitive and 
classified homeland security information; and (4) participated in 
weekly meetings with the IAIP Information Sharing and Collaboration 
Office, a program established to coordinate and facilitate information 
sharing throughout DHS and with its partners.

                           REGIONS INITIATIVE

    Question. Why has the report required by section 706 of the 
Homeland Security Act of 2002 not been submitted to Congress?
    Answer. The report required by section 706 of the Homeland Security 
Act of 2002 was submitted in February 2004 as requested.
    Question. The fiscal year 2006 budget justification proposes a 
traveling cadre from the Office of Security that will provide security-
related support to regional offices. However, there is no funding 
identified for this activity. How will the Office of Security provide 
assistance to these offices without funding?
    Answer. The Office of Security is requesting a total of $168,131 
for travel in the line item fiscal year 2006 budget. This money will be 
used by Office of Security personnel to support all travel requirements 
within the office.

                                I-STAFF

    Question. The Operational Integration Staff and the proposed Office 
of Policy, Planning, and International Affairs appear to be working 
toward the same goal of developing cohesiveness among DHS components. 
How are the roles of the integration staff distinguished from those of 
the proposed Office of Policy, Planning, and International Affairs?
    Answer. The new Office of Policy will lead the Department in both 
strategic policy development and oversight of all program policy 
efforts, while consolidating programs with significant policy 
responsibilities into one cohesive office. The new Office of Operations 
will provide the Department with a coordinated cross-cutting operation 
function. The Operation Integration Staff, consequently, will no longer 
be needed, and most of its current employees will be merged into the 
Offices of Policy or Operations
    Question. The Department has placed the Operational Integration 
Staff in charge of coordinating the security plans for homeland 
security events that are not designated National Special Security 
Events (NSSEs). Please provide an overview of the plan for operational 
command and control for such events?
    Answer. Special Event security is the responsibility of law 
enforcement agencies with jurisdiction at the event location. The lead 
agency will normally be the local law enforcement agency. However, a 
Federal agency may assume the lead role, as with an event at a national 
park. Generally, because multiple agencies and jurisdictions are 
involved, a coordinated and integrated approach to event security is 
involved. As directed by both the Homeland Security Act of 2002 and 
HSPD-5--``Management of Domestic Incidents,'' the Department of 
Homeland Security promulgated the National Incident Management System 
(NIMS). The NIMS provides a command and control framework within which 
government and private entities at all levels can work together across 
each phase of incident management: prevention, preparedness, response, 
recovery, and mitigation. Specifically, the NIMS requires the formation 
of a Unified Command to facilitate coordination for incidents and 
potential incidents involving multiple agencies with independent 
jurisdictional authority. The Unified Command allows agencies with 
different legal and functional authorities and responsibilities to work 
together in an integrated fashion without affecting individual agency 
authority, responsibility, or accountability. For Special Events below 
the NSSE threshold, the responsibility for security planning resides 
entirely within this Unified Command.
    The NIMS also recognizes the need for support and coordination for 
an event and establishes a multi-agency coordination system comprised 
of local and State Emergency Operations Centers and coordination 
entities. Under normal circumstances, there is no similar standing 
Federal coordination entity at the local level, but certain special 
events below the NSSE threshold create a significant need for Federal 
interagency coordination. In such cases, the Secretary of Homeland 
Security appoints a Federal Coordinator to serve as the principal 
Federal point of coordination. As requests for Federal assistance are 
answered and as Federal agencies adapt their independent authorities, 
the Federal Coordinator captures this integrated strategy in the form 
of a Special Event Integrated Federal Support Plan. The Federal 
Coordinator then coordinates support and information sharing at the 
special event and responds to unforeseen support needs and events.
    The NIMS protocol does not change the existing command and control 
architecture at the Unified Command level for agencies supporting the 
Unified Command, or for agencies forced to adapt their independent 
operations as a result of an event.
    Question. What role (if any) will the Secret Service have in non-
NSSE events?
    Answer. For non-NSSE events, i.e., DHS-established levels of 
Special Events Homeland Security (SEHS), the role of the Secret Service 
will vary dependent upon the circumstances surrounding the particular 
event. For events that receive a designation of Level I or Level II and 
have a traditional protectee of the Secret Service in attendance, the 
Secret Service will implement appropriate protective protocols and may 
serve as the Federal Coordinator. For events that receive a designation 
of Level I or II that do not have a traditional Secret Service 
protectee in attendance, the Secret Service may offer available 
protective assets, as appropriate.
    When the event receives a lower designation and a protectee will 
attend, the Secret Service will implement appropriate protective 
protocols; in those instances when no protectee will attend, the Secret 
Service may offer protective event management training, as appropriate.
    Question. What is the budget for the Operational Integration Staff 
for fiscal year 2005? Where are those funds coming from?
    Answer. As directed by the language in the Emergency Supplemental 
Appropriations Act for Defense, the Global War on Terror, and Tsunami 
Relief Act, 2005, further funding is not available for the Operational 
Integration Staff in fiscal year 2005 unless funds are reprogrammed. 
Travel and incidental costs were borne by the components of those on 
detail to these efforts.

                            HUMAN RESOURCES

    Question. In developing a human resources system that is mission-
centered and performance-focused, how will the creation of open pay 
ranges and performance pay pools assist the Department in meeting its 
operational needs?
    Answer. A major objective of open pay ranges is to provide DHS 
management with the flexibility to compete with other employers 
(private, Federal, State and local), and to attract, hire, and retain 
the best candidates for positions within the Department. DHS management 
will have increased flexibility in negotiating employee salaries. Under 
a pay-for-performance system, the objective is to truly compensate 
those employees who have made significant contributions to 
accomplishing the agency's mission. Employees will play a major role in 
determining their eligibility for performance adjustments based upon 
their work performance. The intent is to motivate employees to perform 
their very best; as a result, this incentive should assist 
significantly in enhancing agency effectiveness and employee retention.
    Question. A total of $53 million is included for Max HR in the 
fiscal year 2006 budget request. What is the total projected cost of 
the Max HR system?
    Answer. The total anticipated cost for the period fiscal year 2005-
2008 is $250 million. This amount is broken down as follows:
    The total funding includes $43 million for training 100,000 
employees, which is essential to ensure that the new HR flexibilities 
achieve the desired results. This funding will train all Department 
executives, managers, supervisors, and employees on all aspects of the 
new system and their responsibilities as leaders in the DHS 
environment, and to provide the framework for all of the components to 
work together as one Department of Homeland Security. Comprehensive 
training also will be provided for HR professionals throughout DHS 
whose roles and responsibilities are impacted by implementation of the 
new HR provisions.
    Additionally, $56 million in funding will be used for detailed 
systems design and implementation support and to provide access to 
experts who are assisting in designing the new DHS performance 
management system, job evaluation system (including the creation of job 
clusters), compensation system (including new pay ranges and market pay 
processes), and linkages for pay and performance. This in-depth 
expertise is required to ensure DHS creates a program that 
appropriately links pay, competencies, performance, and labor market, 
and through this linkage, improves DHS' mission performance and 
accountability.
    $100 million will be required to fund the initial conversion of 
over 90,000 employees from the General Schedule pay system to newly 
created market-based pay ranges. This amount will cover one-time 
conversion costs for employees included in three implementation phases. 
Phase 1 of the DHS pay conversion, which is scheduled for January 2006, 
covers employees in DHS HQTRS, S&T, IAIP, OS, U/S MGMT, U/S BTS, FLETC, 
and EP&R, and is estimated to cost $10 million. Phase 2, which will 
occur in January 2007, will include U.S. Secret Service and U.S. Coast 
Guard (civilians). Phase 3, the largest phase covering CIS, CBP, and 
ICE, will occur in fiscal year 2008.
    A total of $9 million is required to fund the new Homeland Security 
Labor Relations Board (HSLRB) in fiscal year 2005 and 2006. The Board 
has been established in fiscal year 2005 as an independent entity that 
will report to the Office of the Secretary. The HSLRB resolves labor-
management disputes and is integral to the deployment of the labor 
relations section of the regulations. $42 million for program 
management funding is required for program evaluation and to manage 
appropriate cost, schedule, and control activities at the Departmental 
level, ensuring that the system investment is managed appropriately and 
at a good value. Program management funding will provide for earned 
value management assessments and risk management. This funding will 
also ensure the development of a robust metrics and program management 
evaluation framework that will be used to gauge overall program 
success. In addition, department-wide communications about MAXHR will 
be funded from the program management account.
    Question. The budget request for fiscal year 2006 includes $10 
million to fund the initial conversion of some Homeland Security 
employees from the General Schedule to newly created market-based pay 
ranges. Does the Department expect any delays in this conversion to the 
new system?
    Answer. We expect to be on schedule in converting to the new 
system. DHS employees will be converted to the new pay system in three 
phases. Phase 1 occurs in January 2006; Phase 2 occurs in January 2007 
and Phase 3 occurs in January 2008.

                                  NAC

    Question. The budget request provides $26.1 million to continue 
expansion of the Department's presence at the Nebraska Avenue Complex. 
What is the Department's estimated timeline for standing up a fully 
operational Nebraska Avenue Complex?
    Answer. We expect to be 70 percent to 80 percent occupied at the 
NAC within 6 to 9 months of the U.S. Navy vacating the site based on 
minor renovations to the site as planned and barring any significant 
infrastructure changes as found during earlier moves within the NAC. 
The U.S. Navy is expected to vacate the site by December 31, 2005, so 
we would expect to be 70 percent to 80 percent occupied between May 
2006 and August 2006.
    We expect to be 100 percent occupied at the NAC within 18 to 24 
months (May 2007-October 2007) of the U.S. Navy vacating the site based 
on the planned major renovations of several buildings at the NAC.
    Question. Is there a timeline for the United States Navy to be 
completely relocated to another facility?
    Answer. Yes, December 31, 2005.
    Question. Are there projected cost estimates on what the Department 
will be required to pay for relocation of Navy activities?
    Answer. Yes, the original U.S. Navy relocation cost estimates were 
established between GSA, U.S. Navy, and DHS with OMB review. DHS' share 
to relocate the U.S. Navy was estimated to be approximately 
$30,800,000. Of this amount, $12,500,000 was obligated for this purpose 
in fiscal year 2003 and fiscal year 2004. DHS obligated $12,000,000 
year to date in fiscal year 2005 and expects to obligate the remaining 
$6,300,000 in fiscal year 2005 for a total obligation of 18,300,000 in 
fiscal year 2005.

                   FINANCIAL AND PROCUREMENT CONTROLS

    Question. What is included in the fiscal year 2006 budget request 
to improve the CFO's oversight and controls of the Department's 
bureaus?
    Answer. The Office of the Chief Financial Officer (OCFO) fiscal 
year 2006 budget request includes substantial increases that will 
enable OCFO to increase its level of oversight and control of the DHS 
components. OCFO has requested two additional FTEs and $305,000 to 
increase budget execution oversight of the components. Whereas OCFO 
conducted mid-year budget execution reviews of the components in fiscal 
year 2005, the additional staff will allow us to conduct quarterly 
reviews in fiscal year 2006 and beyond. More staff in the OCFO budget 
division will allow a redistribution of desk officer portfolios; 
reduced portfolio sizes will allow all OCFO budget desk officers to 
work more closely with component budget personnel and to intensify 
oversight of the components' budget execution. This will allow for more 
timely identification and resolution of problems in components that 
require additional oversight. One additional FTE and $152,000 will 
augment the OCFO's appropriations liaison staff and ensure timelier 
fulfillment of the appropriations committees' requests.
    The request for OCFO also includes five additional FTE and 
$763,000, and $4,000,000 for technical assistance to implement the DHS 
Financial Accountability Act. In order to implement the Act, the DHS 
OCFO will design and implement DHS-wide policy, procedures, and 
internal controls. The goals of the Act imply that DHS must accelerate 
consolidation of financial operations. Additional FTE and funding will 
enable the OCFO to increase financial policy guidance and for OCFO 
financial analysts and contractors to work closely with the components' 
financial operations on internal control and standardization projects. 
Increased interaction will lead to more consistent and better financial 
performance at DHS.
    Question. The budget request proposes funding of $9 million, an 
increase of $1 million, for the Chief Procurement Officer. As the 
majority of the funds for this office have been proposed through the 
Working Capital Fund, are there sufficient funds for the Procurement 
Office in the fiscal year 2006 budget request?
    Answer. Yes, the fiscal year 2006 increase of $1 million for the 
Office of the Chief Procurement Officer (OCPO) is sufficient. The OCPO 
provides acquisition policy, oversight, strategic sourcing, competitive 
sourcing, integrated systems, and grants policy support for the entire 
Department. The Office of Procurement Operations, a direct report to 
the OCPO, is funded separately through the working capital fund and 
provides operational contracting support to 35 major organizational 
components including S&T, IAIP, the Offices of the Secretary and Deputy 
Secretary, and the Under Secretary for Management.
    Question. The Department's organizational structure places the 
Chief Procurement Officer under the Office of the Under Secretary for 
Management, while other offices like the Chief Financial Officer are 
funded separately. Would altering this structure to make the Chief 
Procurement Officer a direct report to the Secretary of Homeland 
Security help to improve this office's ability to provide oversight to 
all Department procurements?
    Answer. To ensure the administrative functions of the Department 
are properly integrated, the OCPO should continue to report directly to 
the Under Secretary of Management and the OCPO's budget should remain a 
part of the USM budget. Changing the OCPO's reporting structure and/or 
segregating the OCPO's budget would have no material impact on the 
Department's ability to provide oversight of the procurement program.

                               DEEPWATER

    Question. Mr. Secretary, the Coast Guard has submitted to Congress 
a revised baseline of its Deepwater acquisition plan. How confident are 
you that the Coast Guard has accurately reestimated the use of its 
assets in this post 9/11 environment?
    Answer. The original Deepwater System contracted in 2002 was based 
on the Coast Guard's 1998 mission demand. I am confident that the 
revised Deepwater implementation plan reflects the changed requirements 
of the Deepwater system needed in the post-September 11 environment.
    We revised the Deepwater implementation plan based on a 
comprehensive performance gap analysis that identified new capabilities 
that the Coast Guard needed to carry out its responsibilities under the 
DHS Strategic Plan. The original, pre-September 11 Deepwater Program 
was then modified to incorporate these improved post-September 11 
capabilities. The revised plan includes retaining, upgrading, and 
converting aviation legacy assets as part of the final asset mix and 
adjusting the program's overall asset delivery schedule to align with 
operational priorities. The revised plan also includes those 
capabilities necessary to provide maritime domain awareness and operate 
successfully in the post-September 11 threat environment. To help 
ensure the new plan meets broader national and departmental maritime 
homeland security and interoperability requirements, my staff carefully 
reviewed and analyzed the revised baseline prior to its approval by the 
DHS Investment Review Board (IRB). The Department's Joint Requirements 
Council and IRB also reviewed and approved the plan. The level of 
analysis and critical thinking that is reflected in the revised 
Deepwater plan exceeds that of any project that the Department has ever 
undertaken. For these reasons, I am confident that it will deliver the 
post-September 11 capabilities needed.
    Question. Do you believe there will be further revisions to this 
plan? If so, why?
    Answer. The revised implementation plan provides us with the right 
mix of assets to ensure its readiness to address current threats. 
However, the implementation schedule and the planned acquisitions will 
necessarily adapt to changes in annual appropriation levels and changes 
in other variables, such as technology upgrades and legacy asset 
conditions. The revised capabilities and capacities presented within 
the revised implementation plan are the result of nearly 2 years of 
analysis, gap assessment, and third party validation after September 
11, 2001.
    Question. A review of the fiscal year 2003 through fiscal year 2006 
budgets indicates that the percent of Deepwater funds spent to sustain 
legacy ships, aircraft and communications systems climbed each year 
from 7 percent in the fiscal year 2003 budget to 25 percent in the 
fiscal year 2006 budget. This is very troubling given that the 
objective of the program is to reduce the cost of maintaining legacy 
assets within the Deepwater system. What can be done to reverse this 
trend and bring new ships and aircraft into the fleet sooner?
    Answer. Full support of the President's fiscal year 2006 Deepwater 
budget request is critical to ensuring urgent legacy asset projects, 
such as HH-65 re-engining, are funded to immediately correct existing 
deficiencies while providing significant recapitalization funding for 
procurement of assets to replace those that are rapidly declining.
    The Department is taking steps to mitigate legacy asset costs 
through advancing recapitalization of certain asset classes within the 
Deepwater program. For example, the fiscal year 2006 Deepwater request 
includes $108 million to advance acquisition of the Offshore Patrol 
Cutter by completing the design and purchase of long lead materials for 
the first cutter. The revised Deepwater plan also advances the 
acquisition of the Fast Response Cutter.
    In addressing legacy asset maintenance issues, the Department has 
to balance four factors: operational needs, legacy fleet status, 
current Deepwater acquisition priorities, and available funds. Through 
sound resource planning and performance assessments we will invest the 
necessary resources to sustain operational assets until they can be 
replaced/recapitalized through the Deepwater project.
    Question. Is it true that the Coast Guard's major cutters and much 
of your aircraft fleet are simply beyond their reasonable service life?
    Answer. Many Coast Guard legacy assets are aging, technologically 
obsolete, and require replacement and modernization. The majority of 
these assets will reach the end of their planned service life by 2010. 
Coast Guard cutters and aircraft are failing at an alarming rate. 
However, with proper maintenance and sustainment support, the Coast 
Guard plans to sustain legacy assets at a level that will allow them to 
capably perform their missions until they are replaced by their 
Deepwater counterparts.
    The President's fiscal year 2006 Budget requests $966 million for 
the Deepwater program, which includes critical funding necessary to 
address immediate legacy asset sustainment issues that threaten the 
performance of Coast Guard missions, including HH-65 re-engining and 
the Medium Endurance Cutter Mission Effectiveness Project (MEP). Full 
support of the President's Budget is critical to sustaining Coast Guard 
operational performance.
    Question. Two years ago, at Congress' request, the Department 
provided an assessment of the feasibility of accelerating the Deepwater 
program. At the proposed fiscal year 2006 funding level of $966 million 
can we expect to accelerate the program?
    Answer. The President's fiscal year 2006 Deepwater budget request 
of $966 million represents a 33 percent increase over the fiscal year 
2005 enacted funding level of $724 million. It advances the delivery of 
the Fast Response Cutter by 10 years and the Offshore Patrol Cutter by 
5 years, while beginning the conversion of legacy assets to meet post-
September 11 mission requirements. Because of the additional 
capabilities and revised asset mix included in the revised Deepwater 
implementation plan, the total program is planned for completion 
completed in 25 years.
    Question. What funding level would be required in fiscal year 2006 
and future years to complete the plan within 10 years?
    Answer. The President's Budget and the Department support the 
revised Deepwater implementation plan and the funding stream that 
acquires it in 25 years at $24 billion. To complete the plan within the 
next 10 years would require an annual funding stream between $1.7 
billion to $2.2 billion per year.
    Question. What, if any, improvements in operational effectiveness 
do you expect once Deepwater is fully implemented?
    Answer. The post-September 11 Deepwater system will significantly 
enhance the Coast Guard's operational effectiveness. The initial 
Deepwater implementation plan was designed to meet the Coast Guard's 
missions in 1998. The post-September 11 asset capabilities included in 
the revised Deepwater implementation plan not only ensure the Coast 
Guard can meet its new maritime homeland security missions, but also 
enhance the Coast Guard's ability to meet its traditional mission 
requirements. Specific operational enhancements contained in the 
revised Deepwater plan include:
  --Improved maritime security capabilities on selected Deepwater 
        cutters, including greater speed, larger flight deck, and 
        automated weapons systems to reduce maritime risk and enhance 
        response to terrorist threats;
  --Network-centric command, control, computer, intelligence, 
        surveillance, and reconnaissance (C4ISR) systems to improve 
        maritime domain awareness and interoperability;
  --Helicopter airborne use of force and vertical insertion 
        capabilities to provide warning and or disabling fire at sea 
        and in ports, waterways, and coastal regions and to enable the 
        delivery of boarding teams to board and take control of non-
        compliant vessels;
  --Improved long-range surveillance capability to support maritime 
        domain awareness and reduce the maritime patrol aircraft flight 
        hour gap;
  --Enhanced all-weather self-defense capabilities on select assets; 
        and
  --Improved Chemical, Biological, Radiological, and Nuclear/Explosive 
        threat response on select Deepwater assets.

                      HH-65 HELICOPTER RE-ENGINING

    Question. What is the status of the HH-65 re-engining project? Be 
specific in terms of how many engines have been replaced.
    Answer. In August 2004, the first re-engined HH-65 was delivered to 
the Coast Guard at Aviation Training Center Mobile, AL, for operational 
testing and evaluation. As of the September 1, 2005, 10 re-engined HH-
65Cs had been delivered for full operational status to Air Station 
Atlantic City, NJ, (5), Aviation Training Center Mobile, AL, (1), and 
Air Station Savannah, GA, (4). To accelerate the HH-65 re-engining 
project the Coast Guard and its contractor, Integrated Coast Guard 
Systems (ICGS), have examined the quality and suitability of a second 
re-engining facility located in Columbus, MS. In August 2005, this 
facility delivered its first re-engined aircraft to the Coast Guard. 
This aircraft was determined to meet needed quality and suitability 
parameters and the Coast Guard contracted with ICGS to re-engine an 
additional 11 aircraft at the Columbus facility. The Coast Guard plans 
to have all 84 operational aircraft re-engined in early 2007.
    Question. Can all the engines be recapitalized within the specified 
timeframe given the current capacity at Elizabeth City, NC?
    Answer. Given the current capacity at Elizabeth City, NC, the re-
engining project cannot be completed within the specified timeframe. In 
order to complete re-engining the operational fleet of 84 helicopters 
by February 2007, the Coast Guard's Deepwater contractor, Integrated 
Coast Guard Systems, will rely upon a second re-engining facility at 
Columbus, MS.
    Question. What will have to be done by the Coast Guard to meet the 
Congressional direction to re-engine the entire fleet within that 
required 24 month time period?
    Answer. Provided the President's request of $133.1 million for HH-
65 re-engining in the fiscal year 2006 budget is fully funded, the 
Coast Guard plans to complete re-engining of the operational fleet of 
84 aircraft by February 2007. This is the fastest possible timeline 
based on the availability of engine kits and parts, increased 
production at the Coast Guard's Aviation Repair and Supply Center, and 
additional production capacity at a second facility. ICGS is assessing 
the quality and suitability of a second facility in Columbus, MS. That 
facility is now re-engining a single aircraft that is scheduled to be 
completed in September 2005.
    Question. Will a second line be required?
    Answer. In order to finish re-engining as quickly as possible and 
to meet the February 2007 timeline, a second line will be required.
    Question. What lessons have been learned from the test helicopter 
currently being re-engined at the second line which the subcontractor 
has established at its site?
    Answer. It is too early in the process to assess lessons learned. 
To accelerate the HH-65 re-engining project, the Coast Guard and its 
contractor, ICGS, are examining the quality and suitability of a second 
re-engining facility located in Columbus, MS. This facility is expected 
to deliver its first re-engined aircraft to the Coast Guard in 
September, 2005. Before making a final determination on the suitability 
of the facility the Coast Guard is evaluating the second facility's 
capabilities to control cost, meet schedule requirements, and employ 
standardized industrial processes.
    Question. What value do you see in having a second line outside the 
Coast Guard's depot-level maintenance facility?
    Answer. Using a second production facility will allow completion of 
the re-engining of all 84 operational HH-65s by February 2007.
    Question. What are the challenges of a second line?
    Answer. The second facility has not yet been certified as providing 
a quality product at a reasonable price. Also, as in any lead asset 
production, there is a substantial learning curve. Other challenges 
include:
  --Validation of capability;
  --Cost control;
  --Avoidance of schedule delays;
  --Parts availability; and
  --Standardized industrial process.

                           COAST GUARD/C-130

    Question. In the past, the Defense Appropriations Subcommittee 
funded the acquisition of 6 new C130Js, which are the next generation 
beyond the C-130Hs, and began funding to missionize these planes in 
fiscal year 2005. The President's budget proposes missionization costs 
to be borne by the Coast Guard in fiscal year 2006. The cost of these 
planes has been outside the original Deepwater plan, but now the 
associated missionization costs are included in the revised Deepwater 
plan.
    What legacy sustainment issues are you experiencing with the C-130H 
fleet?
    Answer. On April 20, 2005, the Coast Guard submitted a legacy asset 
report to Congress, as directed in the Conference Report accompanying 
the fiscal year 2005 DHS Appropriations Bill. This report includes the 
HC-130H AC&I projects that the Coast Guard has included in the fiscal 
year 2006 budget request and anticipates requesting in future budget 
submissions. The primary HC-130H sustainment issues are as follows:
    APS 137 Surface Search Radar ($75M, cost reflects conversion on 27 
aircraft). The Coast Guard's fiscal year 2005 Deepwater budget includes 
$9 million to start the replacement effort for the HC-130H's APS 137 
search radar
    Avionics Modernization and Rewiring ($144M, cost reflects 16 
aircraft). The HC-130H requires a modernized and supportable cockpit. 
This cockpit modernization will prepare the aircraft for the inevitable 
U.S. Airspace restrictions due to increased traffic and the Open Skies 
policy of route traffic control. Logistically, the aircraft's current 
cockpit instrumentation will become unsupportable within this decade. 
With plans for the HC-130H to operate until 2033, this will be a 
necessary upgrade. Over 500 other DOD aircraft are conducting the same 
modification. DOD modernization plans will significantly reduce the 
availability and or support of older parts, resulting in increased 
repair costs of the existing system.
    Center Wing Box Structural Issues. In March 2005, the C-130 
manufacturer, Lockheed Martin Aero (LMA), changed the inspection 
guidelines for C-130 wing boxes based on cracking found in Air Force C-
130s of about the same age as some of the Coast Guard HC-130Hs. The 
wing box problem is not unique to the Coast Guard, but applies to all 
C-130's world wide. As a result of flight hour limitations and or 
restrictions identified in LMA Service Bulletin (SB1), the five Coast 
Guard 1500 series airframes are limited to restricted operations until 
they are properly inspected over the next 6 months. A second service 
bulletin is due this month from LMA that will provide the inspection 
criteria. The estimated cost of completing the 1500 series inspections 
is $2 million total. The remaining 22 aircraft are newer and will be 
due for inspections over the next 2 years.
    Question. Now that the missionization of the Coast Guard's C-130 
fleet is included in the Deepwater plan, what are the future costs to 
complete this undertaking?
    Answer. The Coast Guard plans to have all six C-130J aircraft 
missionized and available for maritime patrol aircraft work by the end 
of 2008 at a cost not to exceed $120 million. Funds to complete this 
missionization were previously provided outside of Deepwater. 
Additional missionization costs within Deepwater are not currently 
anticipated. The President's fiscal year 2006 Budget request also 
includes $5 million to fund the Aircraft Project Office, which manages 
the C-130J pilot and air crew training, logistics use, and 
missionization oversight while the aircraft are transitioning to full 
operational use. As indicated in the fiscal year 2006-2010 Capital 
Investment Plan (page 116 of the Coast Guard's fiscal year 2006 
Congressional Justifications), this cost will recur at $5 million per 
year through project completion in fiscal year 2008.
    Question. Why were these costs omitted in the original Deepwater 
plan?
    Answer. The Congressional Conference Report (H. Rept. 106-710) of 
June 2000 stated ``That the procurement of maritime patrol aircraft (C-
130J funded under this heading) shall not, in any way, influence the 
procurement strategy, program requirements, or down-select decision 
pertaining to the Coast Guard's Deepwater Capability Replacement 
Project.'' Based on this direction the Coast Guard did not include the 
C-130J in the original Deepwater plan.
    Question. Since the acquisition and initial missionization costs of 
the C-130Js were incurred by the Department of Defense, do you believe 
that any future costs should also be borne by that Department?
    Answer. Department of Defense funding already received in past 
years is sufficient to complete missionization of the C-130J aircraft. 
The President's 2006 budget includes a request for $5 million for the 
Coast Guard to fund the Coast Guard Aircraft Project Office, which will 
manage the C-130J pilot and crew training, logistics use, and 
missionization oversight while the aircraft are transitioning to full 
operational use.
    Question. Why shouldn't the Department of Defense continue to 
complete this effort?
    Answer. Funding to acquire and fully missionize the Coast Guard's 
six C-130J aircraft has already been provided through Department of 
Defense appropriations. The remaining funds required to complete the 
project, as outlined on page 116 of the Coast Guard's fiscal year 2006 
Congressional Justifications, should be borne by DHS appropriations 
since they will be used to train Coast Guard C-130J pilots and crews, 
fund Coast Guard logistics support, and transition the aircraft to 
operational use for Coast Guard missions.

                        RESEARCH AND DEVELOPMENT

    Question. Has the Coast Guard R&D program been able to successfully 
support the Coast Guard's traditional mission areas since the Coast 
Guard is now an entity under the Department of Homeland Security?
    Answer. Yes, the Coast Guard Research and Development program has 
been able to continue research in non-homeland security (traditional) 
mission areas. Presently, the Coast Guard is concentrating much of the 
traditional mission R&D effort on aquatic nuisance species remediation. 
The Coast Guard is also continuing research and development in other 
non-homeland security mission areas such as Aids to Navigation, Search 
and Rescue, Maritime Safety, and Marine Environmental Protection.
    Question. How successful has the Coast Guard R&D program been in 
competing for DHS Science and Technology funding in addition to its own 
R&D budget?
    Answer. The Coast Guard has been successful in competing for DHS 
S&T funding for homeland security-related projects. In accordance with 
established S&T protocols, the Coast Guard Portfolio Manager at S&T 
submits the Coast Guard Maritime Security requirements to the DHS S&T 
Executive Review Team for evaluation and funding. To date, the Coast 
Guard has received over $6.5 million of funding from the S&T 
Directorate in fiscal year 2005.
    Question. Do you have any concerns about having this program 
transferred to the Science and Technology Directorate?
    Answer. No, a collaborative relationship between the Coast Guard 
and the S&T Directorate is both viable and valuable. Integration of 
funding and research requirements will maximize the effectiveness of 
both homeland and non-homeland security research.
    Question. How can you ensure those Members with concerns about 
traditional mission research that the Science and Technology 
Directorate (S&T) will place the same level of consideration on those 
areas of research as the Coast Guard does?
    Answer. Retaining the Coast Guard's capabilities in both homeland 
and non-homeland security mission areas is of critical importance to 
DHS. Equally important is the retention of the Coast Guard's research 
and development capability in both homeland and non-homeland security 
(traditional) missions. The S&T Directorate is committed to and 
responsible for supporting the research, development, testing, and 
evaluation requirements for the entire Department, which includes 
enhancing the Coast Guard's homeland and non-homeland security mission 
performance. For example, to date the S&T Directorate has provided 
$7.56 million toward Project Hawkeye, an initiative that will enhance 
performance across the entire spectrum of Coast Guard missions by 
improving Maritime Domain Awareness.
    Question. If Coast Guard R&D is transferred into S&T, what role 
does the Department plan for the Coast Guard Research and Development 
Center in Connecticut to continue to play in the future?
    Answer. The Coast Guard R&D Center is the sole Government entity 
performing research and development in the area of Aids to Navigation, 
Search and Rescue, Maritime Safety, and Marine Environmental 
Protection. The Coast Guard R&D Center will continue to be the critical 
link to ensure the Coast Guard has the essential research, development, 
testing, and evaluation requirements to succeed in both its homeland 
and non-homeland security mission areas.
    Question. What follow-on actions is the Coast Guard taking in 
response to the Congressionally-mandated study of Coast Guard R&D?
    Answer. The Coast Guard is taking several of the study's 
recommendations for action. Key items include: the development and 
implementation of an overarching Research and Development strategy; 
continued outreach to other government agencies, industry and academia 
to establish partnerships; and improved alignment with the Coast Guard 
Acquisition Program.

                 COMMUNICATIONS AND TECHNOLOGY SYSTEMS

    Question. Why has Rescue 21 been delayed so significantly? The GAO 
has been very critical of the Coast Guard's acquisition management team 
known as Deepwater. Isn't this just another example of the Coast Guard 
not being able to manage large acquisitions?
    Answer. Rescue 21's delay in achieving initial operating capability 
(IOC) is due to problems experienced by General Dynamics C4 System 
(GDC4S). Those problems have been twofold in: (a) completing software 
development needed to integrate the multiple commercial items into a 
consolidated control interface and (b) resolving performance issues 
stemming from System Integration Testing (SIT). Software integration 
and SIT issues have been resolved and the project is ready to enter 
full rate production upon approval.
    The Coast Guard does not consider this delay a result of 
mismanagement as it has closely followed Coast Guard and DHS 
acquisition processes, as highlighted by the GAO Report 03-1111 Coast 
Guard's Rescue 21 Faces Challenges. GAO noted that the Coast Guard has 
developed key documentation used for managing system requirements and 
that the Coast Guard has a system in place for identifying, 
prioritizing, and minimizing risks.
    The Coast Guard has successfully managed and executed several 
comparable acquisitions in the past. Recent projects such as Seagoing 
Buoy Tenders ($618 million), Coastal Patrol Boats ($327 million), and 
the Great Lakes Icebreaker ($140 million) were each remarkably 
successful. The Coast Guard will continue to seek out process 
improvements and apply past lessons learned to manage the Rescue 21 
acquisition.
    Question. Please provide an update on achieving full operating 
capability. What capabilities will Rescue 21 have at the end of fiscal 
year 2006?
    Answer. Provided Rescue 21 is funded consistent with the Coast 
Guard's Capital Investment Plan outlined on page 116 of the Coast 
Guard's fiscal year 2006 Congressional Budget Justification, the Coast 
Guard expects Rescue 21 to reach full operating capability in fiscal 
year 2007. At the end of fiscal year 2006, deployment of Rescue 21 to 
all continental U.S. coastal regions will be complete.
    Question. When will Rescue 21 transition to replace the National 
Response Distress System (NRDS), which is being supplanted by Rescue 
21?
    Answer. The Rescue 21 system will be deployed incrementally in all 
Coast Guard Sector/Group Regions. Following deployment and testing 
within each Coast Guard Sector/Group Region, the legacy NDRS in the 
affected region, will be removed and the Rescue 21 system will become 
operational. Nationwide deployment is expected to be complete in fiscal 
year 2007.
    Question. When is NRDS expected to come offline?
    Answer. The Rescue 21 system will be deployed incrementally in all 
Coast Guard Sector/Group Regions. Following deployment and testing 
within each Coast Guard Sector/Group Region, the legacy NDRS, in the 
affected region, will be removed and the Rescue 21 system will become 
operational. Nationwide deployment is expected to be complete in fiscal 
year 2007.
    Question. Please provide an update of your planned Vessel Tracking 
System installation recapitalization schedule. When will the project be 
completed?
    Answer. The Ports and Waterways Safety System (PAWSS) installation/
recapitalization has been completed in five ports with two additional 
ports to be completed in the fourth quarter of fiscal year 2005, 
pending completion of remote site leases. Project closeout and 
transition of all systems to long-term operations and support will 
occur by the end of fiscal year 2006. Automatic Identification System 
(AIS) capability, which is an integral part of PAWSS, has been 
installed in all nine scheduled Vessel Traffic Service (VTS) ports.
    Question. How will funding interruptions affect the project 
schedule, for instance, if funding is not provided in fiscal year 2006 
what will not get done?
    Answer. VTS systems in Puget Sound and San Francisco will not be 
recapitalized with funding provided to date. The Coast Guard's fiscal 
year 2006 Unfunded Priorities List includes $17 million for the PAWSS, 
the funding required to complete VTS recapitalization in these ports.
    Question. Please provide an update on the progress/status of 
implementation of the nationwide Automated Identification System (AIS), 
especially as it relates to the maintenance of the Coast Guard's common 
operating picture.
    Answer. The Nationwide AIS project has been approved and chartered 
by the DHS. The project is in the requirements and planning phase of 
the acquisition process.
    Concurrently, numerous initiatives are underway to provide 
prototype and interim AIS capability to provide AIS data to the 
National Maritime Common Operational Picture (COP). The progress to 
date includes:
  --Installation of AIS capability at all Vessel Traffic Services (9 
        sites).
  --Deployment of receive-only AIS sites in key locations in Alaska (8 
        of 11 AIS sites).
  --Deployment of 4 prototype AIS receivers on National Oceanic 
        Atmospheric Administration weather buoys to provide AIS 
        tracking of vessels offshore of the United States.
  --AIS receiver installations for research & development purposes:
  --On Oahu that provides extensive coverage of the major Hawaiian 
            Islands;
  --In San Francisco Bay, CA;
  --In Miami, Port Everglades and Key West, FL; and
  --In Long Island Sound, Cape May NJ, and the Cape Cod Canal.
  --Installation of AIS sites on offshore platforms in the Gulf of 
        Mexico to monitor traffic inbound to Gulf ports (3 of 4 planned 
        AIS sites installed).
  --Deployment of AIS receiver as part of a concept validation on a low 
        earth orbit satellite for long-range AIS vessel tracking to be 
        launched in the second and third quarter fiscal year 2006.
    Question. How does AIS implementation fit with Ports and Waterways 
Safety System (PAWSS) and Rescue 21?
    Answer. The Coast Guard, thru the PAWSS project, has deployed AIS 
capability in all nine VTS areas. Rescue 21 replaces the Coast Guard's 
antiquated short range command and control communications systems and 
it does not include AIS. The Nationwide AIS project will share 
infrastructure with Rescue 21 wherever site and technical compatibility 
will allow, e.g., towers.
    Question. How is it different from PAWSS?
    Answer. The AIS is a cooperative vessel tracking system whereby 
vessels transmit their position, identification, speed, course, cargo, 
and other information to vessels in their area and shoreside receivers 
within range of the system. The Maritime Transportation Security Act of 
2002 specifies AIS carriage requirements for certain vessels navigating 
U.S. waters. The Nationwide AIS project will implement necessary 
infrastructure to receive AIS transmissions from shipboard systems and 
distribute this data to the Coast Guard's Common Operational Picture to 
enhance maritime domain awareness.
    The PAWSS project was established to build new Coast Guard Vessel 
Traffic Service (VTS) systems and to modernize and recapitalize 
existing ones. The Coast Guard operates VTS in nine U.S. ports to 
provide traffic information, traffic organization, and navigation 
assistance services necessary to fulfill the Coast Guard's statutory 
maritime safety and environmental protection responsibilities under the 
Ports and Waterways Safety Act of 1972. PAWSS/VTS employ AIS, among 
other surveillance systems to monitor and access information on vessel 
movements within a VTS area.
    A table highlighting the basic tenants of each project is provided 
below:

------------------------------------------------------------------------
        Compare/Contrast            Nationwide AIS           PAWSS
------------------------------------------------------------------------
ACRONYM.........................  Automatic           Ports and
                                   Identification      Waterways Safety
                                   System.             System
Primary User....................  U.S. Coast Guard,   U.S. Coast Guard,
                                   Commercial          Commercial
                                   vessels.            vessels
Focus...........................  Pre-9/11--Safety:   Pre-9/11--Safety
                                   for ship to ship   Post-9/11--Safety
                                   to communicate      and Security
                                   rules of the road.  (Maritime Domain
                                  Post-9/11--Safety    Awareness)
                                   and Security--
                                   Maritime Domain
                                   Awareness (MDA).
Purpose.........................  Track vessels       Manage vessel
                                   approaching,        traffic in nine
                                   entering, and       U.S. ports
                                   transiting U.S.
                                   navigable waters.
Project.........................  Enhance the         Provide Vessel
                                   nation's maritime   Traffic Service
                                   domain awareness,
                                   safety, and
                                   security.
Line of Sight Transmissions.....  Send and receive:   Send and Receive
                                   Data, ship-to-      (& share): Voice
                                   ship, ship-to-      & Data, AIS-
                                   shore, shore-to-    based; radar &
                                   ship.               cameras
Location........................  Ports, waterways    9 U.S. ports: one
                                   and coastal areas   each in AK, NY,
                                   out to 2000         MI, CA, WA; two
                                   nautical miles      each in LA and TX
                                   via towers,
                                   buoys, off-shore
                                   platforms, e.g.,
                                   oil rigs, &
                                   satellite(s).
------------------------------------------------------------------------

    Question. Is PAWSS still needed or is it being phased out?
    Answer. The PAWSS, as an acquisition project, is being phased out. 
The Coast Guard established PAWSS as an acquisition project to build 
new Coast Guard VTS and modernize existing systems. The PAWSS project 
resulted in two new VTS's, recapitalized five of the existing VTS's 
completely, and partially modernized two others (Puget Sound, WA and 
San Francisco, CA).
    While there will be no more acquisitions completed through the 
PAWSS project, the Coast Guard VTS will still operate, providing 
navigation services and ensuring safety and environmental protection of 
U.S. waters as required by the Ports and Waterways Safety Act of 1972.
    Question. How is AIS different from Rescue 21?
    Answer. The AIS is a cooperative vessel tracking system whereby 
vessels transmit their position, identification, speed, course, cargo, 
and other information to vessels in their area and shoreside receivers 
within range of the system. The Maritime Transportation Security Act of 
2002 specifies AIS carriage requirements for certain vessels navigating 
U.S. waters. The Nationwide AIS project will implement necessary 
infrastructure to receive AIS transmissions from shipboard systems and 
distribute this data to the Coast Guard's Common Operational Picture to 
enhance maritime domain awareness.
    The Rescue 21 project will replace the existing and obsolete 
National Distress and Response System (the system used by the boating 
public to hail the Coast Guard when in distress) and provide the Coast 
Guard with a modern coastal command, control, and communications 
system. Rescue 21 will be capable of monitoring the international VHF-
FM distress frequency to improve search and rescue response operations 
and communications with Coast Guard and other Federal, state, and local 
first responders and commercial recreational boats.
    A table highlighting the basic tenants of each project is provided 
below:

------------------------------------------------------------------------
        Compare/Contrast            Nationwide AIS         Rescue 21
------------------------------------------------------------------------
ACRONYM.........................  Automatic           Formerly: National
                                   Identification      Distress and
                                   System.             Response System
                                                       (NDRS)
Primary User....................  U.S. Coast Guard,   U.S. Coast Guard,
                                   Commercial          commercial,
                                   vessels.            boating public
Focus...........................  Pre-9/11--Safety:   Pre-9/11--Primary--
                                   for ship to ship    Safety
                                   to communicate     Secondary--support
                                   rules of the road.  all other CG/DHS
                                  Post-9/11--Safety    missions
                                   and Security--     post-9/11--same
                                   Maritime Domain
                                   Awareness (MDA).
Purpose.........................  Track vessels       Command, control,
                                   approaching,        and communication
                                   entering, and       system to allow
                                   transiting U.S.     USCG to hear and
                                   navigable waters.   locate mariners
                                                       in distress
Project.........................  Enhance the         Modernize the
                                   nation's maritime   USCG's legacy
                                   domain awareness,   NDRS
                                   safety, and
                                   security.
Line of Sight Transmissions.....  Send & receive:     Send and receive:
                                   Data, ship-to-      Voice and Data
                                   ship, ship-to-
                                   shore, shore-to-
                                   ship.
Location........................  Ports, waterways    Towers and vessels
                                   and coastal areas   in 46 regions
                                   out to 2000         throughout the
                                   nautical miles      United States,
                                   via towers,         including Guam
                                   buoys, off-shore    and Puerto Rico
                                   platforms, e.g.,
                                   oil rigs, &
                                   satellite(s).
------------------------------------------------------------------------

            FEDERAL LAW ENFORCEMENT TRAINING CENTER (FLETC)

    Question. Mr. Secretary, as you complete your top to bottom review 
of the Department, what emphasis will you place on the need to provide 
basic and advanced training to law enforcement personnel at the Federal 
Law Enforcement Training Center?
    Answer. Standardized, high quality training is an exceptionally 
critical component in the success of the DHS responsibilities. The 
Federal Law Enforcement Training Center (FLETC) is the government's 
principal provider of interagency law enforcement training and is DHS's 
primary source for intradepartmental law enforcement training. FLETC 
already has accelerated the number and types of training programs being 
offered in concert with its Partner Organizations since the September 
11, 2001, terrorist attacks. While basic training continues to be the 
first scheduling priority for FLETC, there has been a greater emphasis 
placed upon relevant advanced training to meet the post-September 11 
focus on security of the homeland. FLETC has undertaken an initiative 
for Counterterrorism and Practical Applications Training, which 
provides hands-on experience for trainees at all levels to handle first 
responder situations, prevention and appropriate follow-up 
investigative measures. Further, FLETC has a major role in 
international, State and local training with an emphasis on 
strengthening coordination with Federal law enforcement entities, to 
include intelligence sharing training. Under DHS's auspices, the 
Department anticipates relying heavily upon the enhanced and innovative 
training and increased physical plant capacities now available at the 
four FLETC sites in Charleston, SC; Cheltenham, MD; Artesia, NM and 
Glynco, GA.
    Question. Do you anticipate opportunities for cross-training of law 
enforcement personnel?
    Answer. One of the principal reasons for the creation of DHS is to 
continuously improve the overall cooperation, coordination information 
sharing and interoperability of law enforcement components at all 
levels related to security for the United States. To help bring about 
this improvement, DHS is encouraging greater measures that are intended 
to breakdown traditional organizational and cultural barriers. Cross-
training and shared training experiences of multiple agencies is 
becoming more the norm. FLETC's approach to consolidated training, 
which emphasizes common understanding and cooperation through mixed 
class association, affords agencies the opportunity to benefit from 
mutual experiences. Many of FLETC's basic and virtually all of its 
advanced programs are scheduled to accommodate multiple training 
organizations. In the area of counterterrorism training, subjects such 
as weapons of mass destruction, critical infrastructure, crisis 
management and land and seaport security are open to all agencies with 
those needs. These include DHS, Department of Justice, Department of 
Defense and many others across the spectrum of law enforcement. DHS 
expects to expand and enhance training that is relevant and 
contemporary to the evolving needs of all agencies that are involved 
with the homeland security.
    Question. Mr. Secretary, will your assessment examine the various 
training facilities owned or used by Departmental entities to ensure 
that they are being fully utilized and not duplicative of each other?
    Answer. Training facilities, per se, were not themselves a specific 
focus of the review. Training has several different elements in DHS, 
from the general training of our employees, to our law enforcement 
academy, and to our training centers for first responders. Our plan 
brings together DHS' key preparedness programs, including first 
responder training programs. The U.S. Fire Administration and the Noble 
Training Center are moved into a new Preparedness Directorate, along 
with the training programs such as those at Ft. McClellan. The purpose 
for creating this Directorate, and for pulling these programs together, 
is to give our existing preparedness efforts--including training and 
exercises--a focused direction. With these programs in one Directorate, 
DHS will be in a better position to ensure that they are being fully 
utilized without being duplicative.
    Question. Mr. Secretary, the war on terror requires a new approach 
to training law enforcement personnel. Do you foresee the need to 
provide new types of training infrastructure or counterterrorism 
training facilities that mirror our existing vulnerabilities?
    Answer. Yes, the future operating environment of DHS will include 
continuing and increasingly sophisticated terrorist threats to our 
nation. Post-September 11, the FLETC, the primary law enforcement 
training organization for the DHS, began vigorously reviewing its 
training programs and developing and/or revising programs and 
facilities as appropriate to better prepare agents and officers in 
executing their duties in the Global War on Terrorism. The FLETC 
developed a plan and is currently in the planning design and execution 
construction phase for this type of infrastructure. The practical 
application counterterrorism training facility design is based on the 
FLETC and its Partner Organizations expertise on anti/counterterrorism 
operations and related training requirements to defeat terrorism. The 
FLETC offers the most current law enforcement training curricula 
available anywhere and has the instructional experience and expertise 
to meet the challenges set forth by our adversaries. However, to 
accentuate our training and meet these challenges, we continually 
upgrade our tactical facilities and construct training facilities that 
are responsive to the stated needs of the agencies engaged in the war 
on terrorism. The FLETC trains officers and agents from 81 Partner 
Organizations. It is imperative that we attempt to replicate the types 
of environments that our officers will surely encounter, to enhance 
their probability of survival and the success of guarding our homeland.
    Consolidated training, the concept on which the FLETC was 
established, allows agencies with divergent missions to train together, 
in a consistent manner. This proposed training facility will meet the 
Department's primary goals to prevent terrorist attacks, reduce 
America's vulnerability to terrorism, and minimize the damage and 
recover from attacks that do occur. This initiative represents the 
proactive ``imagination,'' cited in the 9/11 Commission's report, 
needed to combat terrorism effectively.
    The FLETC and DHS have been called upon by the Military to provide 
up-to-date Counterterrorism training. As the Military's mission 
changes, they have been expected to perform more like a Law Enforcement 
Officer rather than a soldier. The urban environments and circumstances 
that our soldiers face replicate the Use of Force decisions that our 
police officers face everyday. This mission change has forced the 
necessity for greater interaction between Law Enforcement and the 
Military. The FLETC has and continues to be a willing partner in 
meeting these challenges.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran

                           AVIATION SECURITY

    Question. The Department's inspector general released a report 
yesterday stating that there has been a lack of improvement over the 
last year in detecting dangerous items--including guns, knives, 
explosives--at airport security checkpoints. What role will next 
generation detection systems play in improving airport security?
    Answer. TSA has designed its passenger checkpoint technology 
portfolio to incorporate solutions that will help improve explosives 
and weapons detection at its checkpoints. The next generation of 
checkpoint technology will automate the detection of explosives that 
might be concealed on an individual's body, as well as within the 
carry-on baggage/items they are carrying. Additionally, TSA is 
exploring body imaging technologies that will allow screeners to detect 
weapons (metallic and non-metallic) and explosives that an individual 
might attempt to hide on their person.
    Question. Pilot programs at our airports play a critical role in 
moving technology from the research stage to practical deployment. What 
is the status of pilot programs for aviation security checkpoint 
detection technology, and when will these pilot programs begin?
    Answer. TSA has initiated a number of operational testing and 
evaluation pilot projects involving the next generation of checkpoint 
technologies to expand TSA's explosives detection capabilities. 
Highlights from ongoing pilot programs are as follows:
    Explosive Trace Portals (ETP).--TSA has deployed 15 ETPs to 14 
airports nationwide to evaluate their operational efficiency and 
effectiveness for screening passengers for explosives. These pilots 
have been initiated at the following airports and are scheduled to 
continue through summer 2005: Rochester, NY; JFK, NY; Gulfport, MS; 
Baltimore, MD; Jacksonville, FL; Phoenix, AZ ; Miami, FL; Providence, 
RI; Las Vegas, NV (2 units); Los Angeles, CA; San Francisco, CA; 
Boston, MA; Tampa, FL; and San Diego, CA. TSA has allocated $28.3 
million for the purchase and installation of additional trace portals 
in fiscal year 2005.
    Explosive Trace Detection Document Scanners.--TSA is operationally 
testing and evaluating an explosives detection document scanner at 4 
airports: Ronald Reagan Washington National (DCA), Los Angeles 
International (LAX), John F. Kennedy International (JFK), and Chicago 
O'Hare International (ORD). The current technology requires that the 
screener manually handle the travel document to obtain the sample 
needed for analysis to determine if traces of explosives are present. 
Based on the preliminary results of the pilot at the four airports, TSA 
has determined that an automated solution better suits operational and 
security needs. Consequently, the project has been refocused to develop 
a technology solution that will meet those needs. A pilot project for 
the automated prototype will be scheduled as soon as that product is 
determined ready for an operational test and evaluation.
    Question. There is a critical need to identify new and emerging 
technology, in addition to explosive detection systems, to provide 
enhanced security protections at our nation's airports. Could you tell 
us what other progress the Transportation Security Administration (TSA) 
has made in identifying appropriate technology to improve the security 
and efficiency of the current airport passenger screening process?
    Answer. In addition to the operational test and evaluation pilots 
underway using explosives detection trace portals and explosives 
detection document scanners, TSA has a number of R&D projects underway 
to expand both weapons and explosives detection capabilities. These 
projects include, but are not limited to:
  --Whole Body Imaging Technology.--TSA continues to examine the 
        feasibility of using a whole body imaging technology to improve 
        the detection of explosives and prohibited items on persons. 
        Ongoing efforts with two vendors has led to the development of 
        a device that is capable of producing a generic body image that 
        effectively highlights security threats on persons while not 
        unduly infringing on their privacy. TSA is currently working on 
        the details for the pilot phase, including vendor capabilities 
        to support a timetable, selection of the pilot locations, and 
        the operating policy for screening with this technology.
  --Explosives Detection System (EDS) for carry-on baggage.--TSA has 
        conducted preliminary evaluations of an automated EDS for 
        carry-on baggage and is currently collecting engineering data 
        with the unit to promote further development. This technology 
        will automate the detection of explosives in carry-on baggage, 
        similar to the capabilities TSA has achieved for checked 
        baggage screening. Simultaneously, we have a robust ongoing R&D 
        project to develop a technology that will automate the search 
        not only for explosives in carry-on baggage, but for weapons as 
        well.
  --Cast and Prosthetic Device Scanner.--TSA is working to develop a 
        technology solution to more effectively screen cast and 
        prosthetic devices for weapons and prohibited items. TSA 
        expects to pilot the technology in the first quarter of fiscal 
        year 2006.
  --Explosives Detection Bottle Scanners.--TSA is working with industry 
        to evaluate the effectiveness of bottle scanners to screen for 
        liquid explosives. TSA has issued a solicitation to industry to 
        submit products for lab evaluation.

    NATIONAL CENTER FOR CRITICAL INFORMATION PROCESSING AND STORAGE

    Question. The National Center for Critical Information Processing 
and Storage at Stennis Space Center performs the important function of 
providing a secure and reliable system to process, manage, and secure 
data for the Federal Government. Could you update us on the status of 
that project?
    Answer. Construction of the DHS data center at Stennis Space Center 
has been delayed. The Naval Oceanographic Office had been experiencing 
difficulties issuing a construction contract prior to Hurricane 
Katrina. The Naval Oceanographic Office now reports that, due to 
Hurricane Katrina, work crews are not available for the limited 
construction effort that is under contract (demolition and roofing). 
The delay to the project is not yet fully quantifiable. The DHS 
construction effort must now compete for resources with regional 
reconstruction efforts.
    Question. Specifically, when will the additional $30 million of 
fiscal year 2005 be available for build-out and construction at 
Stennis?
    Answer. The Stennis Procurement Package was released by DHS on May 
13, 2005.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

     TRANSPORTATION OF BUTANT STOVES (WITHOUT BUTANE) ON AIRPLANES

    Question. Constituents have contacted me to complain about TSA. 
Alaskans have attempted to carry on butane stoves onto airplanes within 
their luggage. The stoves, although no butane was present, were 
confiscated by TSA. These stoves are used for camping and general use 
in rural Alaska; the stoves do not pose a threat to anyone on a plane.
    Why is TSA disallowing passengers from carrying butane stoves, 
without butane, in their luggage?
    Answer. Under regulations issued by the Federal Aviation 
Administration (FAA), there are restrictions in place on the transport 
of hazardous materials on board any aircraft. With regard to the 
transportation of butane stoves as checked baggage, in accordance with 
the baggage screening standard operating procedure (SOP), if a TSA 
screener finds a stove that potentially has fuel inside, an airline 
employee is notified so that a determination may be made regarding the 
contents of the stove. Typically, the airline employee removes the fuel 
bottle(s) from the stove, after which the stove can be transported in 
checked baggage. If the fuel bottle cannot be removed, in general, it 
will not be allowed to be transported. In some small locations in 
Alaska where the transport of camp stoves is prevalent and it is 
relatively easy to contact the passenger, the airline employee will 
contact the passenger and give that person the option to empty and 
clean the bottle before accepting the stove for transport. However, an 
unused camp stove still in the box with no fuel or emanating fumes 
should not be refused transport.

                         FISHERIES ENFORCEMENT

    Question. I'm informed the Coast Guard plans to deploy C-130s to 
Shemya or Galena to increase surveillance and enforcement of fisheries 
laws inside the Maritime Boundary Line. A report issued in 2004 
indicated the Coast Guard could not render its deployment throughout 
the high threat season because of the lack of facilities in the 
Aleutians. Last year, I included language in the Homeland bill to 
direct the Coast Guard to include in its budget submission the funds 
necessary to provide support facilities for Shemya, Galena, Cold Bay 
and other western Aleutian Islands. The Coast Guard was not able to 
follow Congressional direction and the costs were not included in the 
budget submission.
    What are the costs estimates associated with this problem?
    Answer. Increased regulation and management on the Russian side of 
the Maritime Boundary Line (MBL) have significantly decreased the need 
to forward deploy C-130 aircraft for MBL patrols. MBL enforcement 
flights originating from Air Station Kodiak are proving effective. At 
the same time, the need for forward-deployed HH-60's appears to be 
increasing to meet search and rescue and fisheries enforcement mission 
needs in Western Alaska waters.
    HH-60 forward deployments often occur from locations such as Dutch 
Harbor, Cold Bay and St. Paul Island. Although highly effective, these 
forward deployments often present our crews with challenging conditions 
because of sub-standard facilities--and inadequate commercial 
infrastructure to properly support these deployments. Addressing these 
deficiencies is a Coast Guard priority.
    The Coast Guard recently initiated a formal planning effort to 
develop alternatives and identify resources needed to respond to these 
changing mission needs. Most of these facilities are not Coast Guard-
owned, so innovative public-private partnerships may be necessary to 
allow infrastructure improvements. The Coast Guard will keep the 
Committee advised of progress on this planning effort. The Coast Guard 
can not accurately predict costs at this early stage in the planning 
process.

                                  UAVS

    Question. What are the Coast Guard's plans for using Predator 
medium endurance unmanned aerial vehicles for fisheries enforcement and 
search and rescue activities in Alaska?
    Answer. The Coast Guard has no immediate plans to use Predator 
unmanned aerial vehicles (UAVs) for operational service in Alaska. The 
recent proof of concept exercise demonstrated promise for a maritime-
configured UAV, but identified shortcomings must be addressed to make 
this a Coast Guard mission capable asset. Among the technical 
challenges that still must be resolved are reliable communications and 
aircraft control at high latitudes, integration of on-board sensors, 
limited all-weather operations (including icing and crosswind limits), 
and compliance with Federal Aviation Administration air control 
requirements.
    UAVs remain a critical future element of the Coast Guard's 
Deepwater program. The Coast Guard is partnering with other DHS and DOD 
agencies to carry out further evaluation programs and take advantage of 
technology improvements that will ultimate make UAVs suitable for use 
in the maritime environment.
    Question. Does the Department plan to utilize the two previous 
Alaskan UAV demonstrations for further testing in Alaska or Hawaii?
    Answer. DHS is working with the DOD to plan additional UAV testing 
in all operational environments to demonstrate the UAV concept to 
support a variety of missions. A cooperative effort between the 
National Oceanic and Atmospheric Administration (NOAA) and the Coast 
Guard to test UAV use in Hawaii, combining scientific research with 
maritime sensor validation, was recently cancelled due to lack of NOAA 
funding. The Coast Guard will continue to establish partnerships that 
may yield opportunities for future Hawaii-based testing.
    Further demonstrations in Alaska can be planned when UAV technology 
matures to resolve the key issues of reliable communications and 
aircraft control at high latitudes and all-weather operations 
(including icing and crosswind limits). Prior Coast Guard UAV testing 
in Alaska has demonstrated that these limitations restrict UAV 
operations in Alaska.
    Question. Does the Department have any plans to use UAV's to help 
TSA provide surveillance to non-aviation modes of transportation such 
as the Trans Alaska Pipeline System?
    Answer. UAVs offer a range of capabilities that are suitable 
throughout DHS. The UAV capability for 24-hour, all weather 
surveillance is particularly useful in border security applications, 
critical infrastructure protection, transportation security, or in 
support of U.S. Coast Guard (USCG) maritime domain awareness missions. 
In April 2004, the DHS/UAV working group submitted a report to Congress 
addressing the applicability of UAVs in various homeland security 
applications.
    As part of a USCG Predator 2 UAV demonstration in July 2004, TSA 
coordinated with the USCG to fly over designated sites on the Trans 
Alaska Pipeline (TAPS). The purpose of the TAPS demonstration was to 
evaluate the effectiveness and practicality of the UAV and associated 
sensors for pipeline surveillance. This effort provided additional 
evidence of the utility of UAVs as part of a layered surveillance 
effort. TSA will continue to evaluate the use of UAVs with regard to 
pipeline surveillance and looks forward to working with Congress on the 
issue.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

               BORDER NEEDS--SECURITY UPDGRADES AT PORTS

    Question. America has 197 land ports of entry, and it has been 
almost 20 years since we launched a major effort to upgrade 
infrastructure at those ports. That last effort occurred in 1986, when 
former Senator DeConcini and I developed the Southwest Border 
Improvement Program to improve border infrastructure so that States 
could better take advantage of commerce and trade opportunities with 
Mexico. That was almost 15 years prior September 11, 2001.
    Since September 11, we have placed increasing emphasis on upgrading 
security for our airports, seaports, and critical infrastructure. It is 
imperative that we also improve land port security. To that end, I will 
introduce a bill authorizing additional funds for investment in our 
nation's border crossings.
    Have you considered what kinds of improvements are necessary at our 
land ports of entry and how much these upgrades might cost?
    Answer. DHS is in the midst of a systems-level review of its border 
control architecture to identify the right mix of personnel, technology 
and infrastructure to help achieve effective control of the border. DHS 
will identify a program manager to oversee the development of a 
specific set of border security plans. The Department will be in a 
better position to comment on this question following the conclusion of 
this review.
    Question. Specific improvements are needed at the Columbus port of 
entry in New Mexico, and the General Services Administration (GSA) has 
proposed construction on the Columbus project to begin in 2007 or 2008. 
Do you support GSA's recommendation and will you make every effort to 
keep the project on track for construction?
    Answer. As noted above, DHS is in the midst of a systems-level 
review of its border control architecture. This review is intended to 
help the Department identify the right mix of personnel, technology and 
infrastructure to help achieve effective control of the border. The 
Department will be in a better position to comment on this question 
following the conclusion of this review.

                      BORDER NEEDS--UAV TECHNOLOGY

    Question. In last year's intelligence reform bill, I called for the 
Department of Homeland Security to develop a plan for using Unmanned 
Aerial Vehicles (``UAVs'') on America's southwest border.
    In New Mexico, we have some experience with UAVs because our 
university near the southwestern U.S. border operates a UAV validation 
and test facility sponsored by the Department of Defense. Because of 
the established presence of UAVs at New Mexico State University, and 
because of our location as a border state, I believe New Mexico would 
be an asset in the use of UAVs for surveillance.
    What are your views concerning the use of UAVs for securing remote 
areas of our borders?
    Answer. As noted above, DHS is in the midst of a systems-level 
review of its border control architecture. DHS is also currently 
working to begin the process of procuring UAVs. The Department's 
objective is to get that done in a matter of months and start to deploy 
UAVs and have them flying over the border. That said, DHS cannot rely 
exclusively on UAVs, and manned vehicles and helicopters will also play 
a role.
    Question. How many UAVs does DHS currently own?
    Answer. As of August 20, DHS currently does not own any UAVs.
    Question. Where are these UAVs stationed?
    Answer. As of August 20, DHS currently does not own any UAVs.
    Question. Will your staff evaluate evaluate the existing UAV 
facility at New Mexico State University and the Las Cruces 
International Airport as a potential home for the Department's UAV 
program?
    Answer. As noted above, DHS is in the midst of a systems-level 
review of its border control architecture. The Department will be in a 
better position to comment on this question following the conclusion of 
this review.

                       BORDER PERSONNEL--MANPOWER

    Question. As you know, adequate staffing at our nation's land ports 
of entry is essential for the safety of parties involved in the flow of 
traffic across the border and for efficient commerce.
    Last year's legislation that reorganized our intelligence community 
called for an increase in border patrol agents, and President Bush's 
fiscal year 2006 budget requests funds to hire an additional 210 
agents.
    Have you studied where placing these agents would be most 
beneficial?
    Answer. Emergency Supplemental Legislation and President Bush's 
fiscal year 2006 Budget call for the hiring of an additional 710 agents 
by the end of fiscal year 2006, and CBP is taking aggressive steps to 
recruit, hire and train candidates to fill these spots. The hiring of 
these new agents comes in addition to the standard attrition hires that 
supplement the several hundred agents who retire, transfer, or leave 
for medical reasons over the course of a year. New agent positions will 
be allocated based on risk-based priorities.
    Question. When might these new agents be hired and put in place?
    Answer. There is currently an open recruiting announcement to 
obtain additional potential new employees.
    Question. How can we better retain existing border patrol officers 
so that as we place these new agents along our borders, we are not 
losing agents with experience?
    Answer. CBP is currently examining methods that can be used to 
retain seasoned agents. The current attrition rate for experienced 
agents (GS-9 and higher) is less than 5 percent.

                  BORDER PERSONNEL--TRAINING AT FLETC

    Question. One of the Federal Government's premier training sites 
for law enforcement officers is located in New Mexico. Many Federal law 
enforcement officers have trained at the Federal Law Enforcement 
Training Center in Artesia (FLETC-Artesia), including Air Marshals and 
Federal Flight Deck Officers.
    Additionally, both basic and advanced training for Border Patrol 
Agents is now conducted at FLETC-Artesia. I lauded the Department's 
decision to consolidate border patrol training in Artesia because it 
makes sense to have all training at one facility. Additionally, 
training border patrol officers in a border State gives trainees a 
first-hand look at the area they are charged with protecting.
    What, if anything, does the Department need from FLETC-Artesia?
    Answer. FLETC is proceeding to put into place the temporary 
structures and staffing directed in the recently enacted fiscal year 
2005 Supplemental. As more information and details are developed on 
additional training needs we will keep the Congress apprised.
    Question. Has DHS considered taking border patrol trainees to the 
Mexico border as part of their overall training?
    Answer. FLETC uses scenario base training utilizing Spanish 
speaking role players in a controlled environment identical to that 
seen on the southwest border. This scenario based training affords 
trainees the opportunity to correct mistakes and become comfortable 
with assigned duties prior to assignment in a U.S. Border Patrol 
sector. This system of training is more flexible and less costly than 
providing visits during basic training to border sites. The Border 
Patrol also employs a system of supervision and on-the-job experience 
for newly graduated agents.
    Question. If new facilities were constructed at FLETC-Artesia, 
would you support legislative language to streamline the design, 
engineering and construction of those facilities?
    Answer. The Department is always open to considering legislative 
methods that streamline and improve our processes while promoting full 
and open competition.

              NEW MEXICO CAPABILITIES--TRAINING AT PLAYAS

    Question. Secretary Chertoff, last fall New Mexico Tech opened the 
Playas Training Center. DHS played an integral part in this center by 
providing the funding for New Mexico Tech to purchase Playas, a small 
town in Southwest New Mexico that was virtually abandoned when the 
copper smelting operation in the area was shut down in 1999.
    Playas' remote location and open space makes it an ideal place for 
New Mexico Tech to develop a wide range of research and training 
activities to support homeland security efforts nationwide.
    What new training activities could DHS use at Playas?
    Answer. It is my understanding that Playas will be jointly 
developed by the New Mexico Institute of Mining and Technology and the 
New Mexico State University. As you are aware, ODP has funded the New 
Mexico Institute of Mining and Technology since fiscal year 1998 as 
part of the National Domestic Preparedness Consortium. As part of the 
Consortium, the New Mexico Institute for Mining and Technology supports 
ODP's mission of assisting State and local governments plan and prepare 
for incidents of domestic terrorism by providing critical training to 
the Nation's first responders. The State of New Mexico used State funds 
rather than Federal homeland security funds to purchase the Playas 
Training Center. Nevertheless, ODP does have a use agreement in place 
with New Mexico Tech to use the Playas Training Center over a 5-year 
period. As the Playas Training Center is further developed, the 
Department's ODP will coordinate with New Mexico Tech officials to 
determine the types of training initiatives that could be supported by 
the Playas Training Center.
    Question. How much is included in the President's fiscal year 2006 
budget for training first responders?
    Answer. The fiscal year 2006 President's Budget request for SLGCP 
includes over $83 million for the State and Local Training Program. 
Through this funding, SLGCP will continue to develop and deliver state-
of-the-art training programs through its coalition of ``Training 
Partners.'' This coalition, comprised of government facilities, 
academic institutions and private organizations provide a variety of 
specialized training for emergency responders across the country. The 
fiscal year 2006 funding request will support SLGCP's Continued and 
Emerging Training Program, the Center for Domestic Preparedness, and 
the National Domestic Preparedness Consortium. In addition, a portion 
of SLGCP grants to States and urban areas are also devoted to training.
    FEMA also conducts an extensive array of training for emergency 
personnel through the National Fire Academy, the Emergency Management 
Institute, and the Noble Training Center with a budget that totals 
approximately $15 million. Other DHS components, such as the Federal 
Law Enforcement Training Center, also provide training for selected 
State and local personnel.
    Question. What are your thoughts on providing standardized training 
for all first responders, at both the Federal and local level, in a 
facility like the one at Playas?
    Answer. The New Mexico Institute of Mining and Technology, 
including its training facility at Playas, already supports ODP's 
training efforts through the National Domestic Preparedness Consortium. 
As such, these facilities will comply with all training standards 
required for ODP training.
    Standards for training encompass the instructional design of the 
training, the quality of training content, the effectiveness of the 
instructors, as well as successful knowledge transfer measured through 
student evaluation. With respect to development of training programs, 
the ODP Training Division has adopted the industry standard 
instructional systems design approach of analysis, design, development, 
implementation, and evaluation (ADDIE) as detailed in the ODP Strategy 
for Blended Learning. The ADDIE approach for instructional design 
ensures a valid training need is identified, the most effective 
methodology for instruction is identified, and training content is 
monitored for accuracy and effectiveness throughout the process.
    The development of training content based on effective needs 
analysis is also based upon performance standards. DHS efforts in this 
area related to training for emergency responders began with the ODP 
Training Strategy developed in 2002, which provided guidance on who 
should be trained to perform what tasks, using what methodologies to 
maximize training efficiencies. The strategy further addressed 
effective methods for evaluating competency and performance after 
training was completed and what gaps needed to be remedied. This work 
led to the ODP-developed Emergency Responder Guidelines, which were 
promulgated in August 2002. These are currently undergoing revision to 
reflect a broader range of response disciplines and the private sector.
    Additionally, as the executive agent for the development and 
implementation of HSPD-8, ``National Preparedness,'' SLGCP has 
developed and promulgated an Interim National Preparedness Goal (NPG). 
The Interim NPG, which was released on March 31, 2005, was developed 
using capabilities-based planning. Capabilities are combinations of 
resources that provide the means to achieve a measurable outcome 
resulting from performance of one or more critical tasks, under 
specified conditions and performance standards. The Target Capabilities 
List identifies 36 Target Capabilities and is currently available.
    ODP's Training Division, along with our training partners, is in 
the process of examining the capabilities associated with the national 
priorities included in the Interim National Preparedness Goal to align 
training curricula to these national priorities and the related 
capabilities. It is the Department's goal and expectation to have its 
training courses aligned with the national priorities in fiscal year 
2006.
    Further, with respect to professional standards, ODP requires its 
training partners, State Administering Agencies, and Federal partners 
to adhere to and incorporate the following professional standards in 
training curricula to which they are applicable:
  --29 Code of Federal Regulation (CFR)1910.120, Hazardous Waste 
        Operations and Emergency Response;
  --29 CFR 1910.134, Respiratory Protection;
  --National Fire Protection Association (NFPA) 471, Recommended 
        Practice for Responding to Hazardous Materials Incidents;
  --NFPA 472, Professional Competence of Responders to Hazardous 
        Materials Incidents;
  --NFPA 473, Standard for Competencies for EMS Personnel Responding to 
        Hazardous Materials Incidents;
  --NFPA 1006, Standard for Rescue Technician Professional 
        Qualifications;
  --NFPA 1600, Standard on Disaster/Emergency Management and Business 
        Continuity Programs 2004, specifically Chapter 5, section 5.12; 
        and
  --NFPA 1670, Standard on Operations and Training for Technical Rescue 
        and Search Incidents.
    Question. Will the Department work to make State homeland security 
directors aware of the Playas Training Facility in an effort to help 
local first responders receive adequate training?
    Answer. ODP is undertaking a web-based information portal 
initiative, the First Responder Training portal, that will be the 
primary location for information and resources serving the first 
responder community in support of the DHS strategic goal of improving 
the nation's ability to prevent, prepare, mitigate, respond to, and 
recover from emergency situations and events. The portal will create a 
functional tool to support the development and delivery of efficient, 
effective and consistent first responder training. Registered under the 
domain name of firstrespondertraining.gov, the website will provide a 
single, authoritative link for the first responder community and will 
include collaboration tools and information on training, grants, 
equipment, and standards.
    This portal will complement FEMA/U.S. Fire Administration's (USFA) 
existing on-line training portals, the Emergency Management Institute's 
Independent Study website, and the USFA National Emergency Training 
Center (NETC) Virtual Campus, which together offer more than 60 courses 
for emergency personnel and has registered more than 350,000 course 
completions already this fiscal year. The NETC Virtual Campus courses 
are intended for Federal, state, and local officials including 
emergency management personnel, fire service personnel, police, public 
works, health officials and first responders, and also DHS personnel, 
and the general public.
    The ODP First Responder Training portal and FEMA's on-line training 
facilities will provide consistent delivery of training to large 
audiences and will be used as a delivery mechanism by our partners to 
continue to enhance the capacity of the emergency responder community. 
Additionally, this web-based training will: accommodate students with 
disabilities by use of assistive technologies; be designed to support 
small group work and collaboration; provide multi-purposed training and 
resources; have the capability to restrict access to only authorized 
users; offer students the opportunity to remediate materials until 
proficient or ``opt out'' of content they have already mastered; and be 
linked through other initiatives currently underway to track user 
activity and accurately provide student transcripts.
    The framework and inter-workings of the overall system are nearing 
completion. A pilot test, testing functionality and usability for 
internal users/developers (training partners) and external users 
(students from the first responder communities), will begin in June 
2005. Results from the pilot test will be used to make improvements to 
the system and to determine the effectiveness of the technology in 
support of ODP's National Training Program.
    Prior to the development of the First Responder Training portal, 
ODP developed a Training Course Catalog, as well as comprehensive 
guidelines associated with attending ODP-sponsored training courses. 
This information is available to the Nation's first responder community 
through a number of different means, including ODP's publicly-available 
website (http://www.ojp.usdoj.gov/odp) as well as through routine 
interaction with ODP's State Preparedness Officers and the nation's 
first responder community. As New Mexico Tech develops training courses 
at Playas Training Center, ODP will make this information available 
through its various outreach mechanisms, including the First Responder 
Training portal.
    New Mexico Capabilities--Dirty Bomb Training
    Question. New Mexico Tech has also joined with New Mexico State 
University (``NMSU'') to propose an expansion of the anti-terrorism 
training program for first responders. This expansion would include a 
course about radiological dispersal devices (also known as dirty 
bombs).
    I believe this proposal has merit because the aftermath of a dirty 
bomb attack is one of our gravest anticipated terrorist attacks, and 
our first responders need appropriate training to respond to such a 
threat. New Mexico Tech and NMSU's Carlsbad Environmental Monitoring 
and Research Center have the scientific expertise, radiological 
handling capabilities, radioactive material license, and trained staff 
to address both the scientific and training aspects of dirty bombs, and 
collaboration between these universities and New Mexico's national 
nuclear weapons labs could provide ideal training first responders to 
counter dirty bomb risks.
    What dirty bomb training do Federal first responders currently 
receive?
    Answer. FEMA/USFA's Emergency Management Institute (EMI), as well 
as the National Fire Academy, offers a full range of courses that 
prepare state, local, and tribal emergency personnel to deal with the 
aftermath of all types of events involving radiological materials. EMI 
courses such as ``Radiological Emergency Response Operations'' and 
``Advanced Radiological Incident Operations'' and the NFA's Command and 
Control of Emergency Incidents provide specific instruction in how to 
prepare for such events.
    Although there is no specific course dedicated to radiological 
dispersal devices, several courses delivered by members of the National 
Domestic Preparedness Consortium (NDPC) cover radiological dispersal 
devices in their course curriculum. The extent to which radiological 
dispersal devices are covered in the various courses ranges from a five 
minute overview to a detailed 2.5 hour block of instruction. States, 
territories, and urban areas may use SLGCP-certified training to 
enhance the capabilities of State and local emergency preparedness and 
response personnel as it adheres to the State's Homeland Security 
Strategy. The target audience for SLGCP-certified training courses 
includes State and local emergency preparedness, prevention and 
response personnel; emergency managers; and public/elected officials 
within the following disciplines: fire service, law enforcement, 
emergency management, emergency medical services, hazardous materials, 
public works, public health, health care, public safety communications, 
governmental administrative, cyber security, and private security 
providers.
    Question. Could New Mexico Tech's training facility in Playas, New 
Mexico be the ideal place to base such training?
    Answer. As you are aware, ODP has funded the New Mexico Institute 
of Mining and Technology since fiscal year 1998 as part of the National 
Domestic Preparedness Consortium. As part of the Consortium, the New 
Mexico Institute for Mining and Technology supports ODP's mission of 
assisting State and local governments plan and prepare for incidents of 
domestic terrorism by providing critical training to the nation's first 
responders. ODP periodically reviews its training requirements and 
builds on the strengths of its training partners. Currently, nuclear 
and radiological training primarily falls under the Department of 
Energy's Nevada Test Site (NTS). However, ODP will review any unique 
capabilities the Playas Training Center may offer.

                   RESEARCH AND TECHNOLOGY--GENERALLY

    Question. The Department of Homeland Security has used many 
different resources to implement innovative protective measures across 
the country. We have improved security nationwide through the 
Department's Science and Technology Directorate, the Advanced Research 
Projects Agency, Centers of Excellency, and similar divisions and 
initiatives.
    The Department's leadership in developing innovative tools and 
technologies to protect our Nation is one of the most important roles 
the Department plays. However, with so many groups working on 
developing new technologies, it may prove difficult to select the best 
technology available.
    How does DHS intend to most effectively integrate and leverage 
existing efforts and capabilities to ensure that the best technologies 
available are utilized?
    Answer. Last year, the S&T Directorate developed and documented a 
robust RDT&E process. The goal of the RDT&E process is to provide a 
clearly defined, repeatable method for assessing needs and risk, 
planning, allocating resources and executing programs to produce high-
impact, cost-effective and critically needed homeland security 
technology solutions.
    The S&T Directorate's RDT&E process uses a risked-based approach to 
planning and identifies critical capability gaps before attempting to 
identify or develop technology solutions. In developing solutions, the 
process engages the end-user throughout requirements definition, 
development, testing and transition. The process considers the product 
life cycle from the outset, including planning and budgeting for 
production, deployment, operations and support. It is this process 
which allows us to prioritize both within and across fields.
    Integration of existing efforts and capabilities occurs in several 
key areas. For example, the S&T Directorate collaborates with academia 
through the Centers of Excellence program and its associated Integrated 
Network of Centers, which is establishing a national network of 
affiliated universities. Additionally, the S&T Directorate has a 
sizeable number of interactions and programs with individual 
universities on specific research topics and needs.
    The S&T Directorate also maximizes and leverages the existing 
capability base of the national laboratory complex. The Directorate 
engages all the national laboratories on a case-by-case basis, to tap 
into unique technical expertise that is critical to accomplishing 
portfolio objectives and goals. The Directorate also relies on national 
laboratory technical experts as needed throughout the RDT&E processes 
based on their years of experience applying technologies and processes 
to field applications. This technical and practical expertise is used 
to accelerate spiral development of technologies for transitioning 
capabilities to operational end-users.
    The S&T Directorate solicits proposal from industry and uses a full 
range of contracting vehicles and its authority under the Homeland 
Security Act to engage businesses (large and small), Federally funded 
research and development centers, universities, and other entities in 
development of advanced technologies for homeland security. The 
contracted research and development work now underway is the S&T 
Directorate's main form of collaboration with industry and academia.
    Question. Under your leadership, how will the Science and 
Technology Directorate collaborate with academia, industry and our 
national labs?
    Answer. The S&T Directorate collaborates with academia through the 
Centers of Excellence program and its associated Integrated Network of 
Centers, which is establishing a national network of affiliated 
universities. Additionally, the S&T Directorate has a sizeable number 
of interactions and programs with individual universities on specific 
research topics and needs.
    The S&T Directorate solicits proposals from industry and uses a 
full range of contracting vehicles and its authority under the Homeland 
Security Act to engage businesses (large and small), Federally funded 
research and development centers, universities, and other entities in 
development of advanced technologies for homeland security. The 
contracted research and development work now underway is the S&T 
Directorate's main form of collaboration with industry and academia.
    The S&T Directorate maximizes and leverages the existing capability 
base of the national laboratory complex. The Directorate engages all 
the national laboratories on a case-by-case basis, to tap into unique 
technical expertise that is critical to accomplishing portfolio 
objectives and goals. The Directorate also relies on national 
laboratory technical experts as needed throughout the RDT&E processes 
based on their years of experience applying technologies and processes 
to field applications. This technical and practical expertise is used 
to accelerate spiral development of technologies for transitioning 
capabilities to operational end-users.
    The S&T Directorate engages all the national laboratories on a 
case-by-case basis, to tap into unique technical expertise that is 
critical to accomplishing portfolio objectives and goals. The 
Directorate also relies on national laboratory technical experts as 
needed throughout the RDT&E processes based on their years of 
experience applying technologies and processes to field applications. 
This technical and practical expertise is used to accelerate spiral 
development of technologies for transitioning capabilities to 
operational end-users.
    For example, the Countermeasures Test Beds (CMTB) program operates 
in close partnership with a number of Federal and national laboratories 
to execute its mission of testing and evaluating all threat 
countermeasures and systems. The following national labs participate in 
all CMTB Operational Testing and Evaluation (OT&E) efforts and enable 
deployments in response to heightened alert conditions as necessary. 
Multi-lab teams are encouraged to ensure objectivity and a healthy 
interchange of ideas.
    As another example, the Office of Interoperability and 
Compatibility (OIC) is currently leveraging the resources of Eastern 
Kentucky University in developing effective test methodologies for 
equipment and to provide technical assistance to States and localities 
under the SAFECOM Program. At the same time, OIC has enlisted a 
consortium of well over one hundred universities and colleges to 
support the annual conference on Technologies for Public Safety in 
Critical Incident Response, jointly sponsored by DHS and the DOJ. 
Industry associations participate in SAFECOM Program activities, 
especially in standards development efforts. OIC has established a 
monthly vendor process which allows for constant communication and 
collaboration with our industry partners. Additionally, OIC/SAFECOM 
will be conducting an industry summit in late fall to allow for ever 
greater collaboration.
    Additionally, the BioSecurity program currently works closely with 
academia, industry and the national labs to fulfill its national 
mission.
    Question. How will you allocate funding to national laboratories, 
universities, and industry in a competitive and transparent manner?
    Answer. The S&T Directorate supports seeking the best sources to 
accomplish DHS RDT&E goals through full and open competition.
    Individual national laboratories have recognized expertise in 
specific technical fields built up from years of experience in national 
defense technology development. Recognizing those areas of expertise, 
integrated technical programs have been formed from multiple 
laboratories to solve problem sets related to their expertise. The 
laboratories assist in leading the formation of the technical teams 
addressing specific problem sets. The S&T Directorate uses a 
performance based approach to ensuring quality programs. As such, 
annual external reviews are conducted with subject-matter experts and 
end-user reviewers to evaluate the performance and outcomes of 
individual programs. Results from these reviews are documented and used 
to inform decisions on the next fiscal year's program execution plans.
    All funds allocated by University Programs to universities and 
individuals at universities are the product of a highly competitive 
merit-based selection process. A large number of subject matter experts 
from government, industry and academia use well-established and 
documented peer review selection procedures in making funding 
recommendations.
    All S&T Directorate Broad Agency Announcements and Small Business 
Innovation Research solicitations are public and competitive. All are 
published on the official Federal Government procurement website (and 
simultaneously on the S&T Directorate's HSARPA websites) and each 
contains explicit instructions on how to submit white papers and 
proposals. The criteria by which these submissions will be evaluated 
for technical merit are published in each solicitation. The source 
selection plan which guides the panel of experts who evaluate the 
submissions is approved at the same time the solicitation is published 
and records of their final decisions are retained. Selections for 
funding are typically made on technical merit, relevance to DHS 
mission, available funding, and programmatic considerations by a source 
selection authority.
    Also, the S&T Directorate works to ensure all of its program 
offices allocate funding to national and Federal laboratories, 
universities, and industry where appropriate, following the competitive 
guidelines outlined in the Federal Acquisition Requirements. The S&T 
Directorate continually monitors all program aspects to determine best 
value and cost effectiveness. As the S&T Directorate works to mature 
and transition mature technologies to the user community, a competitive 
process is used.

                     RESEARCH AND TECHNOLOGY--NISAC

    Question. The National Infrastructure Simulation and Analysis 
Center, or NISAC, is funded by DHS to evaluate the effects of 
disruptions to America's infrastructure, and much of NISAC's work is 
done by New Mexico's two National Laboratories: Sandia and Los Alamos.
    I strongly believe in NISAC's efforts and capabilities, but I do 
not believe the program is being used by the entire Department of 
Homeland Security to its full extent.
    What are your plans to coordinate the Department's Directorates so 
NISAC is utilized by the entire Department?
    Answer. The Department's National Infrastructure Simulation and 
Analysis Center (NISAC) is a program in the DHS IAIP Directorate. Since 
its inception, NISAC has had the mission to provide comprehensive 
modeling and simulation capabilities for the analysis of critical 
infrastructures, their interdependencies and complexities, and the 
consequences of disturbances. This mission and NISAC's expertise 
directly support the modeling, simulation, and analysis initiatives of 
DHS. For fiscal year 2005, IAIP will continue to expand NISAC's 
operational development of a suite of infrastructure modeling, 
simulation and analytic capabilities with an emphasis on 
interdependencies and consequences of infrastructure disruptions for 
the Nation as a whole.
    At present, IAIP is coordinating ongoing NISAC work with the S&T 
Directorate, the Coast Guard, FEMA, BTS, and TSA, as well as with the 
Departments of Transportation and Energy, on multiple projects that 
concern the nation's infrastructure. The NISAC program office will 
continue its efforts to broaden the awareness of the NISAC program 
throughout DHS to ensure this national resource is properly tasked with 
the most urgent and complex problems concerning infrastructure 
dependencies and interdependencies. IAIP will continue to fully 
utilize, and if warranted expand, the existing capabilities of NISAC 
with IAIP acting as the central coordinator for NISAC efforts in 
keeping with IAIP's national charter of coordinating and leading 
efforts for the understanding and protection of the nation's 
infrastructure. Moreover, as the Department's ability to execute risk 
assessment continues to mature, NISAC will become more and more 
integrated into the full range of Federal risk management programs.
    Question. How will you work with the Director of National 
Intelligence to make NISAC's capabilities available to the intelligence 
community through a formal relationship, as required by last year's 
intelligence reform bill?
    Answer. IAIP is continually improving the integration between the 
organizations that develop the three components of our Strategic Risk 
Analysis; which are consequence, vulnerability and threat or 
attractiveness. A prime example of this effort is ensuring that the 
intelligence component of DHS, the Office of Information Analysis, 
currently in IAIP, is aware of NISAC's capabilities and, as a 
byproduct, the resident expertise at the national laboratories. As the 
NISAC products are more fully developed and matured, this integration 
will increase.
    As a continuation of this integration, we will engage with the 
Director of National Intelligence to make him aware of a variety of 
efforts the Department has underway that will benefit from his efforts, 
NISAC included. We will seek a formal relationship for information and 
capability sharing as warranted, between non-DHS elements of the 
intelligence community and the Department, including the NISAC.
    Question. What do you need from Congress to fully implement NISAC's 
capabilities?
    Answer. Congress's continued support for all of the Department's 
programs that seek to reduce the risk of terrorism to the Nation are 
greatly appreciated. All of these programs are essential, including the 
Department's National Infrastructure Simulation and Analysis Center.
   research and technology--domestic nuclear detection office (dndo)
    Question. The Department has a new office tasked with deploying 
radiation detection technologies and systems designed to detect 
attempts to smuggle nuclear materials or weapons into the United 
States. As such, the Domestic Nuclear Detention Office, is likely to 
play a critical role in testing and evaluating current and next 
generation technologies to assure that DHS agencies have the most 
effective and accurate tools.
    How does DNDO intend to balance the needs between rapidly deploying 
detection systems and developing technologies that can best fulfill its 
mission?
    Answer. The DNDO will include, as part of its staff, an Office of 
Systems Engineering, which will be dedicated to development of the 
global systems architecture, as well as a comprehensive systems 
engineering capability. This office will be tasked with providing 
quantifiable analysis of issues such as this and providing cost-benefit 
analysis, when appropriate, to determine the relative advantages gained 
by deploying current technologies or developing additional 
capabilities.
    Additionally, beyond the DNDO office structure, the DNDO will also 
utilize the Department's robust, two-tiered validation process for 
large-scale programs, consisting of a Joint Requirements Council and an 
Investment Review Board, which have final approval to authorize 
deployment or development programs.
    Question. How do you plan to develop and support the nuclear 
facilities and infrastructure needed to test and evaluate evolving 
technologies, missions, and operational concepts?
    Answer. The DNDO will continue to proceed with the design and 
construction of the Radiological and Nuclear Countermeasures Test and 
Evaluation Complex (RadNucCTEC) at the Nevada Test Site. The 
construction of this facility, begun within the DHS S&T Radiological 
and Nuclear Countermeasures portfolio, will bridge the gap between 
``bench-top testing'' performed by developers and operational field 
testing conducted during pilot deployments, providing the unique 
capability to test systems in a near real-world environment against 
actual special nuclear materials in authentic configurations. 
Construction is expected to begin in June 2005 and be completed by the 
end of fiscal year 2006.
    Additionally, DNDO will continue to utilize the DHS S&T 
Countermeasures Test Bed (CMTB) for operational testing and evaluation. 
CMTB will provide a critical, objective testing environment to evaluate 
technologies and concepts of operation for nuclear and radiological 
detection in key operational venues.
    Question. With the creation of DNDO, will the efforts to prevent 
and respond to radiological dispersion devices be retained in the 
Science and Technology Directorate, moved into DNDO, or shared between 
these two DHS divisions?
    Answer. Many experts consider a nuclear attack to be less likely 
than the release of a radiological dispersion device (RDD). However, a 
nuclear attack would be many times more devastating than one employing 
an RDD, both in terms of economic impact and casualties. While the 
primary focus of DNDO is, therefore, to develop and acquire systems and 
capabilities for the detection of special nuclear materials (SNM) and 
nuclear devices, most nuclear threat detection systems will also detect 
radiological threats, because of the similarity in nature of 
radioactive signatures of special nuclear materials nuclear devices and 
radiological materials usable in an RDD.
    As such, the division of responsibilities for prevention and 
response for RDDs between DNDO and the S&T Directorate is the same as 
that for nuclear devices or materials. DNDO will be responsible for the 
development of the detection architecture, as well as the systems to be 
deployed, for the prevention of an attack. Additionally, DNDO will be 
responsible for the development of training and response protocols in 
the event of an alarm. However, DNDO will not be responsible for the 
development of incident management or decontamination technologies; 
these programs will remain in the S&T Directorate.
    Question. What role will national weapons labs play in DNDO?
    Answer. DNDO will continue to work with the Office of National 
Laboratories in the S&T Directorate to make sure that work is properly 
coordinated and that all of the national laboratories, including the 
weapons labs, receive clear guidance and direction on efforts they 
conduct with DNDO or the S&T Directorate.
    DNDO recognizes that the national weapons laboratories have long 
been one of this nation's preeminent sources of critical nuclear 
expertise. That expertise, along with the expertise found in academia 
and industry, will be vital to responding to the threat posed by 
nuclear and radiological weapons or materials and in developing 
transformational capabilities to significantly enhance the U.S. 
capability to protect against this threat.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                            drug trafficking

    Question. The President has said, ``trafficking in drugs finances 
the work of terrorists, sustaining terrorists and that terrorists use 
drug profits.'' Given the President's view, I am surprised that he has 
included almost no initiatives in your budget to disrupt the drug 
trade. Why?
    Answer. The fiscal year 2006 President's Budget includes $3.455 
billion that affects or may affect the counternarcotics activities of 
the Department or any of its subdivisions, or that affects the ability 
of the Department or any subdivision of the Department to meet its 
responsibility to stop the entry of illegal drugs into the United 
States.
    Within that $3.455 billion total, approximately $2.937 billion has 
been identified as National Drug Control Budget Funds--funds for those 
Department programs and initiatives that directly support Priority III 
of the President's National Drug Control Strategy (Disrupting the 
Market: Attacking the Economic Basis of the Drug Trade). This funding 
will provide the Department with resources to strengthen and focus its 
illegal drug market disruption efforts while, at the same time, 
dedicating new resources for emerging threats. In addition to these 
funds, approximately $480.5 million has been identified as other 
potential expenditures that also may affect the counternarcotics 
activities of the Department.
    These funds support counternarcotics programs and counternarcotics-
related activities that can build on the Department's many 
accomplishments towards stopping the entry of illegal drugs into the 
United States.

                             lobbying rules

    Question. On November 23, the Office of Government Ethics, in 
response to a Department of Homeland Security (DHS) request, relaxed 
lobbying prohibitions for former ``senior employees'' of the 
Department. Up until November 23 of this year, any former ``senior 
employee'' of DHS was barred from lobbying any individual or office in 
DHS for 1 year. A senior employee is any individual whose rate of basic 
pay is equal or greater than 86.5 percent of the rate for level II of 
the Executive Schedule. The 2004 salary for an Executive Level II 
employee is $158,100, 86.5 percent of which is $136,756.
    The revised rule by the Office of Government Ethics designates 
seven distinct and separate components in DHS for purposes of 18 U.S.C. 
207(c), which covers conflict of interest restrictions for senior 
Federal officials in post-employment. The components designated are: 
Transportation Security Administration (TSA); Coast Guard; Secret 
Service; Federal Law Enforcement Training Center (FLETC); Science & 
Technology (S&T) Directorate; Information, Analysis & Infrastructure 
Protection (IAIP) Directorate; and Emergency Preparedness & Response 
(EP&R).
    By designating seven distinct and separate components in DHS, any 
former official who worked in one of those seven components is now 
permitted to immediately lobby anywhere in DHS except for the component 
for which they were employed. It also allows senior officials who 
worked for DHS, but not in one of the seven designated components, to 
immediately lobby anyone in those components designated as distinct and 
separate. For instance, a senior employee who worked in the Office of 
the Secretary for Tom Ridge can immediately lobby any of the DHS 
organizations cited above. Those seven components alone comprise over 
$19 billion and nearly 60 percent of the Department's funding.
    Why did DHS request this change to the lobbying rules?
    Answer. The recommendations were made to appropriately tailor the 
application of the 1-year cooling-off restriction to the circumstances 
existing within the newly created Department of Homeland Security. 
Section 207 of title 18 of the United States Code is not intended as a 
blanket bar to former employees from dealing with the Government after 
separation. Rather, it represents a carefully crafted balance between 
preventing improper peddling of influence in the government by former 
government officials on the one hand, and permitting the continued 
availability to the government of the experience and training of former 
government officials. In a dynamic, forwarding leaning agency such as 
DHS, with a mission to protect the homeland, it is essential that the 
agency attract top notch people who are facile and knowledgeable about 
innovative technology. The DHS mission requires that these leaders in 
the fields populate the whole of DHS Headquarters and its components.
    The statute is composite of a series of very fact specific 
prohibitions based on conclusions of improper over-reaching as 
determined though the lens of that balancing. Congress recognized the 
potential subsection 207(c) has to unduly restrict appropriate post-
Government-service interaction by former employees with the government 
by carving out exceptions to it, i.e., subsection 207(c)(2)(B)(in the 
cases of special government employees), subsection 207(c)(2)(C)(in 
cases of difficult-to-fill positions), subsection 207(h)(in cases of 
elements of an agency where there exists ``no potential for use of 
undue influence or unfair advantage based on past Government 
service''), and subsection 207(j)(Exceptions).
    The recommendations that DHS made to the Director, Office of 
Government Ethics, in December 2003, were based on the following:
  --OGE criteria for making such recommendations;
  --how the Department was structured and operating;
  --how the legacy agencies had treated the organizational elements 
        previously; and
  --how subsection 207(c) is applied generally through the Executive 
        Branch.
    Several features of the Department were clear for the purposes of 
these recommendations. United States Secret Service, the United State 
Coast Guard, the Transportation Security Agency, and the Federal Law 
Enforcement Training Center were focused on discrete independent 
missions of the Department, most statutorily so, and had extensive 
independent administrative structures. The three directorates, Science 
and Technology, Information Analysis and Infrastructure Protection, and 
Emergency Preparedness and Response, posed a more nuanced picture, but 
presented the same distinct, self-contained mission focuses.
    Equally clear in the opposite direction was that the significance 
of the missions entrusted to the Border and Transportation Security 
Directorate and its subordinate elements and the extensive vertical and 
horizontal interaction between them made them so inter-related and 
inter-dependent as to foreclose designating them as separate.
    Given those conclusions and comparing how other agencies treated 
their components, we recommended the designation of those seven 
components as separate for the purposes of the 1-year cooling-off 
period.
    Question. How is this change beneficial to the Department, the U.S. 
taxpayers, and our national security?
    Answer. The Department's exercise of this statute greatly enhances 
national security, benefits the taxpayers of the United States, and is 
invaluable in the accomplishment of the Department's mission. Detection 
of threats by passage of people and cargo into the United States by 
air, sea, or land is dependent upon innovative human and technological 
systems that are used by components throughout the Department. These 
systems were developed by career and non-career Federal employees 
working as a team. The career employees contribute their expertise and 
experience in government operations and the non-careerist often 
contribute their expertise and experience in technology developed in 
the private sector. It is a proven successful synergy, not quite 
perfect, but the best in the world.
    Our nation's security and the taxpayer will be the ultimate losers 
if the country's professionals and leaders are kept from joining 
Federal agencies initially or, upon return to the private sector, are 
precluded from bringing their skills and experience to bear on these 
important issues because of a failure to appropriately tailor the post-
Government-service restriction. The departing leaders take with them an 
understanding of the threat, what is needed to combat the threat, and 
how the Department is working to counter the threat. The threat is not 
stagnant, and it is counterproductive to overly restrict the work of 
those who are among the most able to ensure close cooperation and 
understanding between the Federal and non Federal entities to make our 
country safe.
    We believe that the combination of the relaxation of the 
restriction imposed by section 207(c) granted by the designation of 
separate components and the existence of the additional restriction 
applicable to very senior personnel, the inapplicability of separate 
component designation to our former employees who were paid pursuant to 
the Executive Schedule, and the application of subsection 207(d), we 
have achieved the balance that was desired by the drafters of section 
207. Of course, we must certify annually to the Director, United States 
Office of Government Ethics, that our designations remain appropriate.

                            dhs headquarters

    Question. In addition to the $25 million GSA is requesting to 
locate CG headquarters at St. Elizabeth's campus in Anacostia, there is 
a $13 million request for ``St. Elizabeths West Campus 
Infrastructure''. The West Campus alone has 182 acres and includes 61 
buildings. The justification says ``the site is aptly suited to provide 
a high security campus for Federal agencies.''
    What are the Department's plans for the St. Elizabeth site?
    Answer. The Department's plans for the St. Elizabeth site are to 
ensure that the Coast Guard headquarters is properly planned and 
executed to provide additional expansion capability should the need 
arise for additional occupancy.
    Question. How are these plans related to the current efforts to 
outfit the Nebraska Avenue complex?
    Answer. The requirements for adjacency and mission needs being 
established at the NAC would be utilized should the opportunity for 
expansion be available at the St. Elizabeth site.

                      avoiding future fund lapses

    Question. Why did the Department Management account allow $9.3 
million to lapse at the end of fiscal year 2004 and what specific 
systems have been put in place to make sure that this does not happen 
again?
    Answer. The Department did not intentionally allow funding to lapse 
in fiscal year 2004. The fiscal year 2004 unobligated balance for the 
Departmental Management account was due primarily to slower than 
anticipated hiring, resulting in personnel lapse. In fiscal year 2004, 
the infrastructure and organization to manage budget execution for 
Departmental Management was not fully developed. The transition to a 
new accounting system and financial services provider in fiscal year 
2004 created additional challenges and complexities, along with a 
learning curve, which made it difficult for financial managers to track 
spending during the year. In fiscal year 2005, we now have more staff 
and contractors onboard to perform budget execution activities for the 
Departmental Management account and can provide more useful data to 
managers to manage their budgets more efficiently and effectively.
    Question. Do you plan to seek authority to reprogram the lapsed 
funds?
    Answer. The Department submitted a request as part of the ICE 
reprogramming package to use the lapse authority under Section 504 to 
transfer $2.8 million from fiscal year 2004 lapsed funding from the 
Departmental Management account to ICE for its funding shortfall. This 
reprogramming request was overtaken by the fiscal year 2005 Emergency 
Supplemental Appropriations Act for Defense, the Global War on 
Terrorism and Tsunami Relief, H.R. 1268 recent Supplemental that was 
passed that rescinded a total of $3.8 million from Departmental 
Management that was proposed in the ICE programming, including the $2.8 
million from the fiscal year 2004 lapsed monies.

                  classified vs. sensitive information

    Question. Late last year there were articles in various papers, 
including The Washington Post, regarding how the Department handles 
information it determines to be ``sensitive'' versus actually 
``classified'' material. It has required Federal Government employees, 
including congressional staff with ``Top Secret'' clearances, to sign 
confidentiality documents demanding that these previously cleared 
personnel not reveal information that, technically, is not 
``classified''. Most recently, on December 13, 2004, the Heritage 
Foundation released a report entitled, ``DHS 2.0: Rethinking the 
Department of Homeland Security''. One of its conclusions calls for the 
Department to develop a ``consistent policy and legislation that 
encourages the sharing of unclassified but security-relevant 
information between the private sector and the government.'' This might 
also include the dropping or reconsideration of the documents security 
classification known as ``Sensitive Security Information.''
    What public law created the classification known as ``Sensitive 
Security Information''?
    Answer. Following the terrorist attacks on the United States on 
September 11, 2001, Congress passed the Aviation and Transportation 
Security Act (ATSA), Public Law 107-71 (November 19, 2001), which 
established the Transportation Security Administration (TSA). ATSA 
transferred the responsibility for civil aviation security from the 
Federal Aviation Administration (FAA) to TSA. Among the statutory 
authorities previously administered by FAA that ATSA transferred to 
TSA's purview was the authority in 49 U.S.C.  40119, governing the 
protection of certain information related to transportation security.
    On February 22, 2002, TSA published a final rule transferring the 
bulk of FAA's aviation security regulations to TSA, including FAA's SSI 
regulation, which now is codified at 49 CFR Part 1520.
    In addition, on November 25, 2002, the President signed into law 
the Homeland Security Act of 2002 (HSA), Public Law 107-296, which 
transferred TSA to the newly established DHS. In connection with this 
transfer, the HSA transferred TSA's SSI authority under 49 U.S.C.  
40119 to 49 U.S.C.  114(s), and amended section 40119 to vest similar 
SSI authority in the Secretary of DOT. [See Section 1601 of the HSA.]
    It should also be noted that Sensitive Security Information (SSI) 
is not a classification, and information designated as SSI is not 
considered as classified national security information.
    Question. Is the Department, as part of your overall review of its 
operations, actively considering the Heritage Foundation 
recommendations on protecting sensitive information? If not, why not?
    Answer. Yes. The Department has carefully reviewed a number of 
recommendations and proposals regarding information sharing, and it is 
working to develop and establish a consistent prudent strategy on the 
subject. The guiding principle must balance the need to share 
information with appropriate individuals, while still protecting the 
sensitive nature of the underlying information.

                         contracting out report

    Question. The fiscal year 2004 Appropriation Omnibus (H.R. 2673) 
Division F--Departments of Transportation and Treasury, and Independent 
Agencies, Title VI Section 647(b), contained the following reporting 
requirement: ``Not later than 120 days following the enactment of this 
Act and not later than December 31 of each year thereafter, the head of 
each executive agency shall submit to Congress a report on the 
competitive sourcing activities on the list required under the Federal 
Activities Inventory Reform Act of 1998 (Public Law 105-270; 31 U.S.C. 
501 note) that were performed for such executive agency during the 
previous fiscal year by Federal Government sources.
    The Committee received this report on February 3, 2005. The report 
states that two public-private competitions, which were started in 
September of 2004, are scheduled for completion in fiscal year 2005. In 
addition, the report states that additional competitions are scheduled 
to be held in fiscal year 2005 which will involve up to 1,397 FTE.
    Please provide the Committee an updated report containing the most 
recent fiscal year 2005 information as well as any plans for public-
private competitions in fiscal year 2006.
    Answer. In fiscal year 2005, DHS is currently completing the 
competitions involving 357 FTE. This includes competitions being 
conducted at the U.S. Coast Guard (USCG), CBP, and the FLETC. DHS is 
currently reviewing proposals for the completion of competitions in 
fiscal year 2006.
    The DHS's annual Reports to Congress, as required by Section 647(b) 
of Division F of the Consolidated Appropriations Act, fiscal year 2004 
(Public Law 108-199) are available on our web-site at: http://
www.dhs.gov/dhspublic/display?theme=37&content=3933
    Question. For fiscal year 2004 (actual), fiscal year 2005 
(estimate), and fiscal year 2006 (request), how many positions in the 
Department (broken down by agency) were competed and how much did the 
competitions cost.
    Answer. In fiscal year 2004, DHS completed three public-private 
competitions, in accordance with the OMB Circular A-76, involving 144 
FTE at the USCG. Two DHS competitions that were scheduled for 
completion in fiscal year 2004 were cancelled in fiscal year 2004:
  --The USCG's competition of its military travel support function (36 
        FTE) was cancelled due to the development of E-Travel 
        technologies that will obviate the current approach to this 
        service requirement;
  --The Citizenship and Immigration Service (CIS) competition of its 
        Immigration Information Officer (IIO) function (1,350 FTE) was 
        cancelled to give more time and resources to the elimination of 
        immigration service backlogs and, as a matter of law. DHS 
        announced two ICE competitions for completion in fiscal year 
        2005. These competitions involved 97 FTE, but were also 
        cancelled due to funding shortages.
    Savings generated by the three completed fiscal year 2004 USCG 
competitions are estimated at $12.3 million over a 5 year period. All 
three competitions were retained in-house. The incremental cost of 
conducting these USCG studies is estimated at $1.3 million and reflects 
the costs incurred in gearing up the competition program in the USCG. 
In addition, four FTE are associated with DHS' fiscal year 2004 fixed 
costs--spread across the agency--and are estimated at $450,000 per 
year. The DHS fixed program cost estimate includes dedicated resources 
to provide central policy, planning, and implementation oversight, yet 
excludes annual FAIR Act inventory costs. The estimated one-time DHS 
cost of conducting the fiscal year 2005 competitions involving 356 FTE 
is $1.9 million, with expected annual savings in excess of $5 million. 
The estimated one-time cost of conducting the fiscal year 2006 
competitions is not known, as we have not yet finalized those plans.
    Question. How many positions were subsequently contracted out as a 
result of the competition?
    Answer. While there have been significant efficiency and quality of 
service gains on the part of the government as a result of engaging in 
the fiscal year 2004 and fiscal year 2005 competitions, to date no 
positions have been converted to contract performance.

                      detailees to the white house

    Question. How many DHS employees (including the component agencies) 
are currently detailed to the White House (including all Executive 
Office of the President agencies)? Provide the committee a list 
containing the originating agency; the office they are detailed to; 
salary grade/step; length of detail (including beginning and end 
dates); purpose of the detail; and indicate if the agency is 
reimbursed.
    Answer.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           Detail     Detail End                            Reimbursable
             Detailed To                 Originating Agency      Grade/Step or Salary    Start Date      Date         Purpose of Detail          Y/N
--------------------------------------------------------------------------------------------------------------------------------------------------------
NSC.................................  DHS/IAIP...............  GS 12-01 ($62,886).....    3/20/2004   12/30/2005  Communications and Media           N
                                                                                                                   Relations. Was part of
                                                                                                                   GSA technology office
                                                                                                                   that was absorbed by
                                                                                                                   DHS in early 2003.
NSC.................................  DHS/USCG...............  MILITARY...............    6/14/2004    6/13/2006  White House Situation              N
                                                                                                                   Room Duty Officer.
NSC.................................  DHS/USCG...............  MILITARY...............    6/21/2004    6/20/2005  Counternarcotics........           N
NSC.................................  DHS/USCG...............  MILITARY...............    10/6/2003    6/10/2005  White House Situation              N
                                                                                                                   Room Duty Officer.
NSC.................................  USSS...................  GS 14-02 ($91,315).....    4/18/2005    4/17/2006  Combating Terrorism.....           N
ONDCP...............................  U.S. Coast Guard.......  MILITARY...............    7/15/2004    7/15/2005  Office of Supply                   N
                                                                                                                   Reduction.
WHO.................................  DHS/TSA................  K-00 ($111,038)........    5/21/2004    9/30/2005  Support the WHO mission.           N
WHO.................................  DHS....................  .......................    7/24/2004    1/19/2006  Support the WHO mission.           N
WHO.................................  DHS/USSS...............  GS 14-04 ($97,206).....    6/22/2004    9/30/2005  Support the WHO mission.           N
WHO.................................  U.S. Coast Guard.......  MILITARY...............    9/22/2004    1/19/2006  Support the WHO mission.           N
OVP.................................  U.S. Coast Guard.......  MILITARY...............    5/17/2005    7/15/2007  Military Aide to the               N
                                                                                                                   Vice President.
OVP.................................  U.S. Coast Guard.......  MILITARY...............    6/16/2003     7/1/2005  Special Advisor,                   N
                                                                                                                   Homeland Security.
OVP.................................  U.S. Coast Guard.......  MILITARY...............    4/22/2003    6/29/2005  Military Aide to the               N
                                                                                                                   Vice President.
--------------------------------------------------------------------------------------------------------------------------------------------------------

                      detailees to the department

    Question. How many employees of DHS component agencies are 
currently detailed to the Department? Provide the committee a list 
containing the originating agency; the office they are detailed to; 
salary grade/step; length of detail (including beginning and end 
dates); purpose of the detail; and indicate if this agency is 
reimbursed.
    Answer. The table below provides the requested data, which is a 
snapshot of detailees on-board as of March 31, 2005. This data 
submission was done in April 2005 and projected end dates that could 
have ended by the time this report was submitted.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  Grade/Step     Detail     Detail End                                                                              Reimbursable
             Detailed To                  Originating Agency      or Salary    Start Date      Date                                  Purpose of Detail                                   Y/N
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
USM/CIO..............................  BTS.....................     $117,809     6/1/2004     6/1/2005  DHS Infrastructure trans support..........................................           N
BTS..................................  CBP.....................     $149,200    7/27/2004    7/27/2005  BTS.......................................................................           N
BTS..................................  CBP.....................     $121,274     9/2/2003     9/2/2005  Cargo/Trade Policy........................................................           N
BTS..................................  CBP.....................     $117,809     9/7/2004     9/6/2005  Border Patrol Liaison.....................................................           N
BTS..................................  CBP.....................     $117,809    2/23/2003      ( \1\ )  Counternarcotics Projects.................................................           N
BTS..................................  CBP.....................     $100,152    7/27/2004    7/27/2005  CIO Assistant.............................................................           N
BTS..................................  CBP.....................      $94,260    12/6/2004    12/7/2005  Agency Liaison Officer....................................................           N
FLETC................................  CBP.....................      $81,638    10/7/2002      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    5/15/1995      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638     9/2/2003     9/2/2006  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651     5/1/2004     5/1/2007  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    2/18/1998  ...........  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651    10/1/2002      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    2/16/1993  ...........  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651    5/16/2004    5/16/2007  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638   11/19/2001      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    8/13/1998  ...........  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651   10/27/2003   10/27/2008  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651      ( \2\ )      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    11/6/1990  ...........  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638      ( \2\ )      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    9/25/2000  ...........  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    3/22/2004    3/22/2007  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638   12/23/2000  ...........  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638     6/1/1998      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    9/29/1997  ...........  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    1/25/1993      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651    2/24/2004      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    7/30/1997      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    8/27/2001    8/27/2006  Instructor................................................................           N
FLETC................................  CBP.....................      $57,280    4/15/2002    4/15/2007  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651    7/14/2003      ( \1\ )  Instructor................................................................           N
IAIP.................................  CBP.....................     $131,671    10/1/2004      ( \1\ )  HSOC......................................................................           N
IAIP.................................  CBP.....................      $91,315    1/10/2005    7/10/2005  Terrorist Screening Ctr...................................................           N
IAIP.................................  CBP.....................      $69,173   11/28/2004    5/17/2005  HSOC......................................................................           N
IAIP.................................  CBP.....................      $73,364   11/29/2004    5/17/2005  HSOC......................................................................           N
IAIP.................................  CBP.....................      $75,460   11/29/2004    5/17/2005  HSOC......................................................................           N
IAIP.................................  CBP.....................      $62,886   11/17/2003    5/31/2005  Support to IAIP Terrorist Screening Center................................           N
IAIP.................................  CBP.....................      $77,274    9/12/2003      ( \1\ )  HSOC......................................................................           N
IAIP.................................  CBP.....................      $69,173   12/12/2004    6/14/2005  HSOC......................................................................           N
IAIP.................................  CBP.....................      $77,274    3/20/2005    3/20/2006  COMSEC....................................................................           N
ICE..................................  CBP.....................      $52,468    3/21/2005    3/21/2006  Visa Security Program.....................................................           N
ICE..................................  CBP.....................     $124,274     5/5/2004     5/5/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $43,724    11/1/2004     5/5/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $61,213   10/23/2004    3/31/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $91,315     5/5/2004     5/5/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $97,213     5/5/2004     5/5/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $91,315    9/20/2004     6/1/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $68,209   11/17/2004    4/29/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................     $117,809    12/7/2004          TBA  Assist ICE HR Officer.....................................................           N
OIA..................................  CBP.....................      $62,886    1/15/2005    4/30/2005  Border Security Training Team (Jordan)....................................           N
OIA..................................  CBP.....................      $57,715    1/15/2005    4/30/2005  Border Security Training Team (Jordan)....................................           N
OIA..................................  CBP.....................      $64,981    1/15/2005    4/30/2005  Border Security Training Team (Jordan)....................................           N
OPA..................................  CBP.....................     $128,205    1/26/2004      ( \1\ )  Public Affairs............................................................           N
USCG.................................  CBP.....................      $77,274     8/4/2003      ( \1\ )  Support to USCG...........................................................           N
USM/CFO..............................  CBP.....................     $114,344     1/1/2004      ( \1\ )  OCFO......................................................................           N
USM/CFO..............................  CBP.....................     $103,947   10/20/2003   10/19/2005  Support eMerge project....................................................           N
USM/CFO..............................  CBP.....................     $106,044    10/1/2003    10/1/2005  Support eMerge project....................................................           N
USM/CHCO.............................  CBP.....................     $100,152    4/28/2004      ( \1\ )  New HR system: communications team........................................           N
USM/CIO..............................  CBP.....................     $100,152     5/1/2004     5/1/2005  Infrastructure Transformation Office......................................           N
USM/CIO..............................  CBP.....................     $117,344   11/10/2003    6/30/2005  Program manager--HSDN.....................................................           N
USM/CIO..............................  CBP.....................     $149,200    10/6/2004    7/31/2005  CIO.......................................................................           N
USM/CIO..............................  CBP.....................      $43,365    11/9/2004    9/15/2005  CIO support...............................................................           N
S&T..................................  CG......................      $84,751    6/30/2004    6/30/2007  Providing technical expertise to S&T......................................           Y
USM/CIO..............................  CIS.....................      $89,736     3/1/2003      ( \1\ )  Support DHS' Infrastructure Transformation Office.........................           N
USM/CIO..............................  CIS.....................  ...........  ...........  ...........  ..........................................................................           N
S&T..................................  DHS.....................     $100,152    2/22/2005    6/21/2005  Providing admin support to HHS............................................           Y
S&T..................................  DHS.....................      $59,464    11/1/2004    6/30/2005  Providing admin support to HHS............................................           Y
S&T..................................  DHS.....................     $117,809    1/14/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/NAC.................     $100,152    1/31/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
NCR..................................  DHS/ODP.................     $135,136      Unknown      ( \1\ )  Nat Cap Reg mission support...............................................           N
OSLGC................................  DHS/ODP.................      $84,751     2/7/2005     8/6/2005  Support to OSLGCP.........................................................           N
OSLGC................................  DHS/ODP.................     $100,152     2/7/2005     8/6/2005  Support to OSLGCP.........................................................           N
S&T..................................  DHS/ODP.................     $117,809     2/7/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/TSA.................     $117,809    1/10/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/TSA.................     $100,152    1/10/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/TSA.................     $100,600    1/10/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/TSA.................     $100,600     3/1/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
FLETC................................  Federal Air Marshal           $96,474     2/7/2005     2/7/2006  On the job Training.......................................................           N
                                        Service.
FLETC................................  Federal Protective            $68,651    10/1/2003    10/1/2006  Instructor................................................................           N
                                        Service.
FLETC................................  Federal Protective            $68,651   10/20/2003   10/20/2006  Instructor................................................................           N
                                        Service.
FLETC................................  Federal Protective            $68,651    11/1/2003    11/1/2006  Instructor................................................................           N
                                        Service.
IAIP.................................  FEMA....................     $114,882  ...........  ...........  Support to IAIP mission...................................................           N
IAIP.................................  FEMA....................     $135,136  ...........  ...........  Support to IAIP mission...................................................           N
OSLGC................................  FEMA....................         13/3    1/27/2003          TBD  Support to State and Local Coordination and Outreach......................           N
USM/CFO..............................  FEMA....................     $100,152     8/1/2004     5/1/2005  Support GAO/IG Liaison Office.............................................           N
USM/CHCO.............................  FEMA....................      $84,751     5/3/2004    1/31/2005  Design of new DHS Personnel HR management system..........................           N
ODP..................................  FEMA/Region III.........      $82,259    7/11/2004      ( \1\ )  Implementation of ODP Program into DHS--move from FEMA Citizen Corp         ............
                                                                                                         Assistance.
BTS..................................  FLETC...................     $100,152     8/1/2003     8/1/2005  FLETC Liaison.............................................................           N
USM/CFO..............................  FLETC...................     $100,152     2/1/2005     2/1/2006  Support eMerge project....................................................           N
BTS..................................  ICE.....................     $100,152    4/12/2004    4/12/2006  Immigration Policy Advisor................................................           N
BTS..................................  ICE.....................     $117,809    3/10/2003      ( \1\ )  Immigration Policy Advisor................................................           N
BTS..................................  ICE.....................      $49,145   11/30/2004      ( \1\ )  Protective detail.........................................................           N
BTS..................................  ICE.....................      $44,495   10/22/2003      ( \1\ )  Scheduling Support for Under Secretary....................................           N
BTS..................................  ICE.....................      $69,000    3/14/2005    9/15/2005  FAMS Liaison..............................................................           N
BTS..................................  ICE.....................      $84,751     9/2/2003      ( \1\ )  ICE Liaison...............................................................           N
BTS..................................  ICE.....................      $71,269    6/29/2003      ( \1\ )  Advance Work for Under Secretary..........................................           Y
BTS..................................  ICE.....................      $49,145    2/27/2005    6/25/2005  Protective detail.........................................................           N
BTS..................................  ICE.....................     $100,152     8/3/2004     8/3/2005  ICE Liaison...............................................................           N
BTS..................................  ICE.....................      $71,269    6/29/2003      ( \1\ )  Advance Work for Under Secretary..........................................           Y
BTS..................................  ICE.....................     $100,152     7/1/2004     7/1/2005  Setting up office w/detailees from bureaus (Office of Screening and         ............
                                                                                                         Coordination).
CBP..................................  ICE.....................     $100,152     1/1/2005      ( \1\ )  Liaison to NTC............................................................           N
CBP..................................  ICE.....................      $84,751   12/15/2003      ( \1\ )  ICE Liaison...............................................................           N
CIS..................................  ICE.....................      $59,464     4/1/2004      ( \1\ )  Long-term detail to provide paralegal services............................           N
DHS..................................  ICE.....................     $100,152     7/1/2004     7/1/2005  DHS/CFO...................................................................           N
DHS..................................  ICE.....................     $117,809     9/1/2003     9/1/2006  Rep to Interpol as Dep Dir for OIA........................................  ............
FEMA.................................  ICE.....................      $49,145     8/1/2004      ( \1\ )  Protective detail.........................................................           N
FLETC................................  ICE.....................      $81,638    9/19/2004    9/19/2009  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    1/15/2003      ( \1\ )  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    5/20/1996      ( \1\ )  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     3/1/1988      ( \1\ )  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     3/1/2001      ( \1\ )  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     9/1/2004     9/1/2007  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     9/1/2003     9/1/2006  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    3/10/2002     3/1/2007  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    1/23/2003    12/6/2006  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    11/4/2001    11/4/2006  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     9/8/2003     9/7/2006  Instructor................................................................           N
FTTTF................................  ICE.....................     $100,152     1/1/2003      ( \1\ )  Liaison; NSEERS Tracking..................................................           N
IAIP.................................  ICE.....................     $100,152     7/1/2003      ( \1\ )  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................     $100,152     1/1/2004      ( \1\ )  Interpol Liaison..........................................................           N
IAIP.................................  ICE.....................     $100,152    1/12/2004      ( \1\ )  Serve as ICE rep and subject matter expert................................  ............
IAIP.................................  ICE.....................     $100,152    11/1/2003      ( \1\ )  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................      $71,269    8/24/2003      ( \1\ )  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................      $71,269    8/24/2003      ( \1\ )  ICE/BTS Liaison...........................................................           N
IAIP.................................  ICE.....................     $100,152     1/1/2004      ( \1\ )  Interpol Liaison..........................................................           N
IAIP.................................  ICE.....................     $100,152    1/11/2004      ( \1\ )  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................      $84,751     1/1/2004      ( \1\ )  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................     $100,152     6/1/2004     6/1/2006  ICE Liaison...............................................................           Y
IAIP.................................  ICE.....................     $100,152    Jan. 2000      ( \1\ )  Support to IAIP mission--DOS Liaison......................................           N
IAIP.................................  ICE.....................      $69,000     7/4/2005      ( \1\ )  Intelligence Sharing HSOC.................................................           N
IAIP.................................  ICE.....................     $100,152     3/1/2003     3/1/2006  Support to IAIP mission--DHS Liaison to FBI...............................           N
IAIP.................................  ICE.....................     $117,809    2/19/2002      ( \1\ )  Support to IAIP mission--HSOC.............................................           Y
IAIP.................................  ICE.....................     $100,152    11/1/2003      ( \1\ )  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................      $84,751     1/1/2003      ( \1\ )  Support to IAIP mission--HSOC desk officer................................           N
IAIP.................................  ICE.....................     $100,152     3/1/2003      ( \1\ )  Support to IAIP mission...................................................           N
ICE..................................  ICE.....................      $84,751     3/1/2002      ( \1\ )  ICE Liaison...............................................................           N
OLA..................................  ICE.....................      $84,751     1/1/2004      ( \1\ )  Leg Affairs liaison to Immigration........................................           N
OPA..................................  ICE.....................     $100,152     1/1/2003      ( \1\ )  Support to Public Affairs.................................................           N
USCG.................................  ICE.....................     $100,152     8/1/2004      ( \1\ )  Coast Guard Liaison.......................................................           N
USM/CIO..............................  ICE.....................  ...........      7/12/04       7/8/05  Provide on-site geospatial technical support..............................           N
USM/CIO..............................  ICE.....................     $100,152    12/1/2003      ( \1\ )  Program management and acquisition support................................           N
USM/CIO..............................  ICE.....................     $117,809    10/1/2003      ( \1\ )  Director, Infrastructure Transformation Office............................           N
BTS..................................  TSA.....................      $56,600     6/7/2004     6/7/2005  Provides admin support services to the AA at BTS..........................           N
BTS..................................  TSA.....................        SW-02     2/1/2004      ( \1\ )  BTS Deputy Chief of Staff.................................................           N
BTS..................................  TSA.....................      $69,000    2/17/2004      ( \1\ )  Transportation Security Policy Advisor....................................           N
BTS..................................  TSA.....................      $84,150   12/13/2004   12/13/2005  TSA Liaison...............................................................           N
BTS..................................  TSA.....................      $84,150   12/31/2004   12/13/2005  Serves as TSA liaison to BTS..............................................           N
BTS..................................  TSA.....................      $69,000    7/26/2004     4/2/2005  Provides legislative policy assistance to AA..............................           N
BTS..................................  TSA.....................      $38,900    2/28/2005    10/4/2005  Correspondence Analyst....................................................           N
BTS..................................  TSA.....................     $100,600    8/11/2003    8/11/2006  International Affairs.....................................................           N
BTS..................................  TSA.....................     $100,600    3/23/2003      ( \1\ )  National Counter Terrorist Center on SpecialProject.......................           N
BTS..................................  TSA.....................      $46,400     2/2/2004      ( \1\ )  Speech Writer.............................................................           N
BTS..................................  TSA.....................      $84,150     3/7/2005      ( \1\ )  Special Asst to Under Secretary...........................................           N
BTS..................................  TSA.....................     $100,600    9/26/2004    9/26/2005  Establishing the Office of Screening Coordination for DHS/BTS.............           N
DHS-OPL..............................  TSA.....................      $84,150    2/13/2005    6/13/2005  Serves as a special assistant for senior level officials TOPOFF3 Program..           N
IAIP.................................  TSA.....................      $84,150     3/1/2003      ( \1\ )  Support to IAIP mission...................................................           N
IAIP.................................  TSA.....................      $69,000    10/1/2003      ( \1\ )  Support to IAIP mission...................................................           N
ICE..................................  TSA.....................     $100,600    5/30/2004    5/30/2005  Provide legal support to FAMS at ICE......................................           N
ICE..................................  TSA.....................     $100,600    1/10/2005     4/9/2005  Task force to review ICE budget...........................................           N
ICE..................................  TSA.....................     $100,600    5/30/2004    5/30/2005  Provide legal support to FAMS at ICE......................................           N
ICE..................................  TSA.....................      $84,150    5/30/2004    5/30/2005  Provide legal support to FAMS at ICE......................................           N
ICE..................................  TSA.....................     $100,600    1/10/2005     4/9/2005  Assisting with ICE budget audit...........................................           N
OGC..................................  TSA.....................      $84,150     8/8/2005     8/8/2007  Provide legal advice concerning border and transportation security issues            N
                                                                                                         especially as they involve TSA.
OPA..................................  TSA.....................      $84,150     3/3/2003      ( \1\ )  Public Affairs assisting on special project (requested by Dennis Murphy)..           N
Security.............................  TSA.....................     $100,600   12/12/2004     4/2/2005  Requested for special project on security initiatives at the Chief                   N
                                                                                                         Security Office.
USM..................................  TSA.....................     $120,250   12/26/2004      ( \1\ )  Acting Deputy Director Business Transformation office--Selected for DHS              N
                                                                                                         position, awaiting clearance through security process.
USM..................................  TSA.....................     $158,568    8/30/2004    9/30/2005  Acting Dir, Business Transformation Off...................................  ............
USM/CFO..............................  TSA.....................     $100,152    10/1/2003    10/1/2005  Support eMerge project....................................................           N
USM/CIO..............................  TSA.....................     $149,200     4/3/2005      ( \1\ )  Support Solutions Engineering COE.........................................           Y
USM/CIO..............................  TSA.....................     $152,824    7/13/2003     4/1/2005  Acting Deputy CIO.........................................................           Y
USM/CIO..............................  TSA.....................     $141,844    7/13/2003      ( \1\ )  DHS/BTS Integration.......................................................           N
USM/CIO..............................  TSA.....................     $110,278     4/3/2005    9/30/2005  Information Technology....................................................           Y
USM/CIO..............................  TSA.....................     $145,482   10/27/2004      ( \1\ )  TSA representative to the Information Technology Officer..................           N
USM/CIO..............................  TSA.....................     $138,093     4/3/2005    9/30/2005  Information Technology....................................................           Y
USM/CIO..............................  TSA.....................     $141,454    7/13/2003      ( \1\ )  INFRASTRUCTURE program support............................................           Y
IAIP.................................  USCG....................     $136,490    9/19/2003    9/19/2005  HSC Watch Augmentation....................................................           N
OGC..................................  USCG....................      $82,937     3/1/2005     3/1/2007  Assist with international issues and with Team Telecom/CFIUS legal issues.           N
Security.............................  USCG....................      $56,128    12/1/2004      Ongoing  State and Local Investigations............................................           Y
Security.............................  USCG....................      $82,937    12/1/2004      ( \3\ )  State and Local Investigations............................................           Y
Security.............................  USCG....................      $71,269    12/1/2004      ( \3\ )  State and Local Investigations............................................           Y
Security.............................  USCG....................      $74,560    12/1/2004      ( \3\ )  State and Local Investigations............................................           Y
USM/CFO..............................  USCG....................     $101,613     8/1/2004     8/1/2005  Support Budget Office.....................................................           N
USM/CFO..............................  USCG....................      $82,937     1/5/2005     4/1/2005  ICE Tiger Team............................................................           N
USM/CIO..............................  USCG....................     $156,886  ...........      ( \1\ )  Support DHS' Infrastructure Transformation Office.........................           Y
IAIP.................................  USCIS...................      $74,782    3/21/2005    5/21/2005  To assist in setting up DHS' Operations Center............................           N
IAIP.................................  USCIS...................      $74,782    3/21/2005    5/21/2005  To assist in setting up DHS' Information Analysis Section.................           N
ICE..................................  USCIS...................      $87,244     1/3/2005      ( \1\ )  To assist ICE in prosecuting Operation Jakarta Asylum Applications--detail           N
                                                                                                         lasts until this case goes to trial.
ICE..................................  USCIS...................      $75,460     3/7/2005     5/6/2005  To assist ICE in prosecuting Operation Jakarta Asylum Applications (a 2              N
                                                                                                         year asylum fraudinvestigation).
ICE..................................  USCIS...................      $41,361     3/7/2005     5/6/2005  To assist ICE in prosecuting Operation Jakarta Asylum Applications (a 2              N
                                                                                                         year asylum fraud investigation).
ICE..................................  USCIS...................      $64,981    3/14/2005     5/6/2005  To assist ICE in prosecuting Operation Jakarta Asylum Applications (a 2              N
                                                                                                         year asylum fraud investigation).
BTS..................................  USSS....................      $97,206    2/21/2004    8/21/2005  Border & Transp. Security.................................................           N
DHS/IAIP.............................  USSS....................      $91,315     6/1/2004    12/1/2005  Investigations............................................................           N
FEMA.................................  USSS....................      $91,315   10/17/2004    4/17/2005  DEST Program..............................................................           N
FLETC................................  USSS....................      $68,651     8/1/2003    8/10/2008  Instructor................................................................           N
FLETC................................  USSS....................      $81,638    3/20/2005    3/20/2008  Instructor................................................................           N
FLETC................................  USSS....................      $68,651     1/1/2003     1/1/2006  Instructor................................................................           N
FLETC................................  USSS....................      $58,564     6/1/2000     6/1/2005  Instructor................................................................           N
FLETC................................  USSS....................      $81,638     2/1/2003     2/1/2006  Instructor................................................................           N
FLETC................................  USSS....................      $63,040    1/12/2004    1/12/2007  Instructor................................................................           N
FLETC................................  USSS....................      $81,638     2/9/2004     2/9/2009  Instructor................................................................           N
FLETC................................  USSS....................      $81,638    10/6/2002    12/6/2005  Instructor................................................................           N
FLETC................................  USSS....................      $81,638     9/1/2003     9/1/2006  Instructor................................................................           N
FLETC................................  USSS....................      $81,638     9/1/2003     9/1/2005  Instructor................................................................           N
IAIP.................................  USSS....................      $84,751   10/19/2003    5/29/2005  Nat. CounterTerrorism Ctr.................................................           N
IAIP.................................  USSS....................      UND--LT     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $117,809    12/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $77,274    3/13/2005    6/11/2005  HS Operations Center......................................................           N
IAIP.................................  USSS....................     $100,152     1/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $84,751    12/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $114,344     5/7/2004    7/10/2005  Protective Research (IAIP)................................................           N
IAIP.................................  USSS....................      $40,179     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     UND--Off     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $117,809    11/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $84,751     5/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $84,751    12/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $97,206     2/8/2004     8/8/2005  Protective Research (IAIP)................................................           N
IAIP.................................  USSS....................     $103,947     9/1/2004     9/1/2005  Investigations............................................................           N
IAIP.................................  USSS....................      $87,244    2/27/2005    5/28/2005  HS Operations Center......................................................           N
IAIP.................................  USSS....................      $84,751    12/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $110,878     6/1/2003      ( \3\ )  Support to IAIP mission--Investigations...................................           Y
IAIP.................................  USSS....................      $36,157     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $117,809    12/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $74,782     3/6/2005     6/4/2005  HS Operations Center......................................................           N
IAIP.................................  USSS....................      $79,766     5/1/2004     5/1/2005  Investigations............................................................           N
IAIP.................................  USSS....................     $100,152    10/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $84,751     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $117,809     1/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
OSLGC................................  USSS....................      $88,000    10/3/2004     4/3/2005  Law Enforcement Liaison...................................................           N
S&T..................................  USSS....................     $100,152     2/1/2003      ( \1\ )  Providing technical expertise to S&T......................................           N
S&T..................................  USSS....................      $97,206     1/1/2003      ( \1\ )  Providing technical expertise to S&T--Protective Research (INT)...........           N
Security.............................  USSS....................      $97,206    7/21/2003    7/21/2005  Counter Intelligence......................................................           N
Security.............................  USSS....................      $88,000     2/1/2003      ( \1\ )  Provides physical security to DHS facilities..............................           N
Security.............................  USSS....................      $94,000    2/23/2003    8/23/2005  Phy. Sec & Access Ctrl....................................................           N
USM/CHCO.............................  USSS....................      $91,315    3/10/2004     4/1/2005  New HR system: pay and performance team...................................           N
USM/CHCO.............................  USSS....................      $82,259     2/1/2005    5/16/2005  Hiring and transition response team.......................................           N
USM/CIO..............................  BTS.....................     $117,809     6/1/2004     6/1/2005  DHS Infrastructure trans support..........................................           N
BTS..................................  CBP.....................     $149,200    7/27/2004    7/27/2005  BTS.......................................................................           N
BTS..................................  CBP.....................     $121,274     9/2/2003     9/2/2005  Cargo/Trade Policy........................................................           N
BTS..................................  CBP.....................     $117,809     9/7/2004     9/6/2005  Border Patrol Liaison.....................................................           N
BTS..................................  CBP.....................     $117,809    2/23/2003      ( \1\ )  Counternarcotics Projects.................................................           N
BTS..................................  CBP.....................     $100,152    7/27/2004    7/27/2005  CIO Assistant.............................................................           N
BTS..................................  CBP.....................      $94,260    12/6/2004    12/7/2005  Agency Liaison Officer....................................................           N
FLETC................................  CBP.....................      $81,638    10/7/2002      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    5/15/1995      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638     9/2/2003     9/2/2006  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651     5/1/2004     5/1/2007  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    2/18/1998      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651    10/1/2002      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    2/16/1993      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651    5/16/2004    5/16/2007  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638   11/19/2001      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    8/13/1998      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651   10/27/2003   10/27/2008  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651      ( \2\ )      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    11/6/1990      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638      ( \2\ )      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    9/25/2000      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    3/22/2004    3/22/2007  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638   12/23/2000      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638     6/1/1998      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    9/29/1997      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    1/25/1993      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651    2/24/2004      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    7/30/1997      ( \1\ )  Instructor................................................................           N
FLETC................................  CBP.....................      $81,638    8/27/2001    8/27/2006  Instructor................................................................           N
FLETC................................  CBP.....................      $57,280    4/15/2002    4/15/2007  Instructor................................................................           N
FLETC................................  CBP.....................      $68,651    7/14/2003      ( \1\ )  Instructor................................................................           N
IAIP.................................  CBP.....................     $131,671    10/1/2004      ( \1\ )  HSOC......................................................................           N
IAIP.................................  CBP.....................      $91,315    1/10/2005    7/10/2005  Terrorist Screening Ctr...................................................           N
IAIP.................................  CBP.....................      $69,173   11/28/2004    5/17/2005  HSOC......................................................................           N
IAIP.................................  CBP.....................      $73,364   11/29/2004    5/17/2005  HSOC......................................................................           N
IAIP.................................  CBP.....................      $75,460   11/29/2004    5/17/2005  HSOC......................................................................           N
IAIP.................................  CBP.....................      $62,886   11/17/2003    5/31/2005  Support to IAIP Terrorist Screening Center................................           N
IAIP.................................  CBP.....................      $77,274    9/12/2003      ( \1\ )  HSOC......................................................................           N
IAIP.................................  CBP.....................      $69,173   12/12/2004    6/14/2005  HSOC......................................................................           N
IAIP.................................  CBP.....................      $77,274    3/20/2005    3/20/2006  COMSEC....................................................................           N
ICE..................................  CBP.....................      $52,468    3/21/2005    3/21/2006  Visa Security Program.....................................................           N
ICE..................................  CBP.....................     $124,274     5/5/2004     5/5/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $43,724    11/1/2004     5/5/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $91,315     5/5/2004     5/5/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $97,213     5/5/2004     5/5/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $91,315    9/20/2004     6/1/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................      $68,209   11/17/2004    4/29/2005  Visa Security Unit........................................................           N
ICE..................................  CBP.....................     $117,809    12/7/2004          TBD  Assist ICE HR Officer.....................................................           N
OIA..................................  CBP.....................      $62,886    1/15/2005    4/30/2005  Border Security Training Team (Jordan)....................................           N
OIA..................................  CBP.....................      $57,715    1/15/2005    4/30/2005  Border Security Training Team (Jordan)....................................           N
OIA..................................  CBP.....................      $64,981    1/15/2005    4/30/2005  Border Security Training Team (Jordan)....................................           N
OPA..................................  CBP.....................     $128,205    1/26/2004      ( \1\ )  Public Affairs............................................................           N
USCG.................................  CBP.....................      $77,274     8/4/2003      ( \1\ )  Support to USCG...........................................................           N
USM/CFO..............................  CBP.....................     $114,344     1/1/2004      ( \1\ )  OCFO......................................................................           N
USM/CFO..............................  CBP.....................     $103,947   10/20/2003   10/19/2005  Support eMerge project....................................................           N
USM/CFO..............................  CBP.....................     $106,044    10/1/2003    10/1/2005  Support eMerge project....................................................           N
USM/CHCO.............................  CBP.....................     $100,152    4/28/2004      ( \1\ )  New HR system: communications team........................................           N
USM/CIO..............................  CBP.....................     $100,152     5/1/2004     5/1/2005  Infrastructure Transformation Office......................................           N
USM/CIO..............................  CBP.....................     $117,344   11/10/2003    6/30/2005  Program manager--HSDN.....................................................           N
USM/CIO..............................  CBP.....................     $149,200    10/6/2004    7/31/2005  CIO.......................................................................           N
USM/CIO..............................  CBP.....................      $43,365    11/9/2004    9/15/2005  CIO support...............................................................           N
S&T..................................  CG......................      $84,751    6/30/2004    6/30/2007  Providing technical expertise to S&T......................................           Y
OGC..................................  CIS.....................     $110,878     9/1/2003     9/1/2006  Provide substantive immigration expertise to DHS OGC, focusing on issues             N
                                                                                                         relating to immigration benefits and related USCIS issues.
USM/CIO..............................  CIS.....................      $89,736     3/1/2003      ( \1\ )  Support DHS' Infrastructure Transformation Office.........................           N
USM/CIO..............................  CIS.....................  ...........  ...........  ...........  ..........................................................................           N
S&T..................................  DHS.....................     $100,152    2/22/2005    6/21/2005  Providing admin support to HHS............................................           Y
S&T..................................  DHS.....................      $59,464    11/1/2004    6/30/2005  Providing admin support to HHS............................................           Y
S&T..................................  DHS.....................     $117,809    1/14/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/NAC.................     $100,152    1/31/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
OSLGC................................  DHS/ODP.................      $84,751     2/7/2005     8/6/2005  Support to OSLGCP.........................................................           N
OSLGC................................  DHS/ODP.................     $100,152     2/7/2005     8/6/2005  Support to OSLGCP.........................................................           N
S&T..................................  DHS/ODP.................     $117,809     2/7/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/TSA.................     $117,809    1/10/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/TSA.................     $100,152    1/10/2005      ( \1\ )  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/TSA.................     $100,600    1/10/2005   Indefinite  Support DNDO Transition Team for Stand-up.................................           N
S&T..................................  DHS/TSA.................     $100,600     3/1/2005   Indefinite  Support DNDO Transition Team for Stand-up.................................           N
FLETC................................  Federal Air Marshal           $96,474     2/7/2005     2/7/2006  On the job Training.......................................................           N
                                        Service.
FLETC................................  Federal Protective            $68,651    10/1/2003    10/1/2006  Instructor................................................................           N
                                        Service.
FLETC................................  Federal Protective            $68,651   10/20/2003   10/20/2006  Instructor................................................................           N
                                        Service.
FLETC................................  Federal Protective            $68,651    11/1/2003    11/1/2006  Instructor................................................................           N
                                        Service.
OSLGC................................  FEMA....................         13/3    1/27/2003          TBD  Support to State and Local Coordination and Outreach......................           N
USM/CFO..............................  FEMA....................     $100,152     8/1/2004     5/1/2005  Support GAO/IG Liaison Office.............................................           N
ODP..................................  FEMA/Region III.........      $82,259    7/11/2004   Indefinite  Implementation of ODP Program into DHS--move from FEMA Citizen Corp                  N
                                                                                                         Assistance.
BTS..................................  FLETC...................     $100,152     8/1/2003     8/1/2005  FLETC Liaison.............................................................           N
USM/CFO..............................  FLETC...................     $100,152     2/1/2005     2/1/2006  Support eMerge project....................................................           N
BTS..................................  ICE.....................     $100,152    4/12/2004    4/12/2006  Immigration Policy Advisor................................................           N
BTS..................................  ICE.....................     $117,809    3/10/2003   Indefinite  Immigration Policy Advisor................................................           N
BTS..................................  ICE.....................      $49,145   11/30/2004   Indefinite  Protective detail.........................................................           N
BTS..................................  ICE.....................      $44,495   10/22/2003   Indefinite  Scheduling Support for Under Secretary....................................           N
BTS..................................  ICE.....................      $69,000    3/14/2005    9/15/2005  FAMS Liaison..............................................................           N
BTS..................................  ICE.....................      $84,751     9/2/2003   Indefinite  ICE Liaison...............................................................           N
BTS..................................  ICE.....................      $71,269    6/29/2003   Indefinite  Advance Work for Under Secretary..........................................           Y
BTS..................................  ICE.....................      $49,145    2/27/2005    6/25/2005  Protective detail.........................................................           N
BTS..................................  ICE.....................     $100,152     8/3/2004     8/3/2005  ICE Liaison...............................................................           N
BTS..................................  ICE.....................      $71,269    6/29/2003   Indefinite  Advance Work for Under Secretary..........................................           Y
BTS..................................  ICE.....................     $100,152     7/1/2004     7/1/2005  Setting up office w/ detailees from bureaus (Office of Screening and                 N
                                                                                                         Coordination).
CBP..................................  ICE.....................     $100,152     1/1/2005   Indefinite  Liaison to NTC............................................................           N
CBP..................................  ICE.....................      $84,751   12/15/2003   Indefinite  ICE Liaison...............................................................           N
CIS..................................  ICE.....................      $59,464     4/1/2004   Indefinite  Long-term detail to provide paralegal services............................           N
DHS..................................  ICE.....................     $100,152     7/1/2004     7/1/2005  DHS/CFO...................................................................           N
DHS..................................  ICE.....................     $117,809     9/1/2003     9/1/2006  Rep to Interpol as Dep Dir for OIA........................................           N
FEMA.................................  ICE.....................      $49,145     8/1/2004   Indefinite  Protective detail.........................................................           N
FLETC................................  ICE.....................      $81,638    9/19/2004    9/19/2009  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    1/15/2003   Indefinite  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    5/20/1996   Indefinite  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     3/1/1988   Indefinite  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     3/1/2001   Indefinite  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     9/1/2004     9/1/2007  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     9/1/2003     9/1/2006  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    3/10/2002     3/1/2007  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    1/23/2003    12/6/2006  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638    11/4/2001    11/4/2006  Instructor................................................................           N
FLETC................................  ICE.....................      $81,638     9/8/2003     9/7/2006  Instructor................................................................           N
IAIP.................................  ICE.....................     $100,152     7/1/2003   Indefinite  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................     $100,152     1/1/2004   Indefinite  Interpol Liaison..........................................................           N
IAIP.................................  ICE.....................     $100,152    1/12/2004   Indefinite  Serve as ICE rep and subject matter expert................................           N
IAIP.................................  ICE.....................     $100,152    11/1/2003   Indefinite  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................      $71,269    8/24/2003   Indefinite  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................      $71,269    8/24/2003   Indefinite  ICE/BTS Liaison...........................................................           N
IAIP.................................  ICE.....................     $100,152     1/1/2004   Indefinite  Interpol Liaison..........................................................           N
IAIP.................................  ICE.....................     $100,152    1/11/2004   Indefinite  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................      $84,751     1/1/2004   Indefinite  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................     $100,152     6/1/2004     6/1/2006  ICE Liaison...............................................................           Y
IAIP.................................  ICE.....................     $100,152    Jan. 2000   Indefinite  Support to IAIP mission--DOS Liaison......................................           N
IAIP.................................  ICE.....................      $69,000     7/4/2005   Indefinite  Intelligence Sharing HSOC.................................................           N
IAIP.................................  ICE.....................     $100,152     3/1/2003     3/1/2006  Support to IAIP mission--DHS Liaison to FBI...............................           N
IAIP.................................  ICE.....................     $117,809    2/19/2002   Indefinite  Support to IAIP mission--HSOC.............................................           Y
IAIP.................................  ICE.....................     $100,152    11/1/2003   Indefinite  Support to IAIP mission...................................................           N
IAIP.................................  ICE.....................      $84,751     1/1/2003   Indefinite  Support to IAIP mission--HSOC desk officer................................           N
IAIP.................................  ICE.....................     $100,152     3/1/2003   Indefinite  Support to IAIP mission...................................................           N
ICE..................................  ICE.....................      $84,751     3/1/2002   Indefinite  ICE Liaison...............................................................           N
OLA..................................  ICE.....................      $84,751     1/1/2004   Indefinite  Leg Affairs liaison to Immigration........................................           N
OPA..................................  ICE.....................     $100,152     1/1/2003   Indefinite  Support to Public Affairs.................................................           N
USCG.................................  ICE.....................     $100,152     8/1/2004   Indefinite  Coast Guard Liaison.......................................................           N
USM/CIO..............................  ICE.....................  ...........      7/12/04       7/8/05  Provide on-site geospatial technical support..............................           N
USM/CIO..............................  ICE.....................     $100,152    12/1/2003   Indefinite  Program management and acquisition support................................           N
USM/CIO..............................  ICE.....................     $117,809    10/1/2003   Indefinite  Director, Infrastructure Transformation Office............................           N
BTS..................................  TSA.....................      $56,600     6/7/2004     6/7/2005  Provides admin support services to the AA at BTS..........................           N
BTS..................................  TSA.....................        SW-02     2/1/2004   Indefinite  BTS Deputy Chief of Staff.................................................           N
BTS..................................  TSA.....................      $69,000    2/17/2004   Indefinite  Transportation Security Policy Advisor....................................           N
BTS..................................  TSA.....................      $84,150   12/13/2004   12/13/2005  TSA Liaison...............................................................           N
BTS..................................  TSA.....................      $84,150   12/31/2004   12/13/2005  Serves as TSA liaison to BTS..............................................           N
BTS..................................  TSA.....................     $100,600    7/13/2003    1/22/2005  Operations Executive Assistant............................................           N
BTS..................................  TSA.....................      $69,000    7/26/2004     4/2/2005  Provides legislative policy assistance to AA..............................           N
BTS..................................  TSA.....................      $38,900    2/28/2005    10/4/2005  Correspondence Analyst....................................................           N
BTS..................................  TSA.....................     $100,600    8/11/2003    8/11/2006  International Affairs.....................................................           N
BTS..................................  TSA.....................     $100,600    3/23/2003   Indefinite  National Counter Terrorist Center on special project......................           N
BTS..................................  TSA.....................      $46,400     2/2/2004   Indefinite  Speech Writer.............................................................           N
BTS..................................  TSA.....................      $84,150     3/7/2005   Indefinite  Special Asst to Under Secretary...........................................           N
BTS..................................  TSA.....................     $100,600    9/26/2004    9/26/2005  Establishing the Office of Screening Coordination for DHS/BTS.............           N
DHS-OPL..............................  TSA.....................      $84,150    2/13/2005    6/13/2005  Serves as a special assistant for senior level officials TOPOFF3 Program..           N
IAIP.................................  TSA.....................      $84,150     3/1/2003   Indefinite  Support to IAIP mission...................................................           N
IAIP.................................  TSA.....................      $69,000    10/1/2003   Indefinite  Support to IAIP mission...................................................           N
ICE..................................  TSA.....................     $100,600    5/30/2004    5/30/2005  Provide legal support to FAMS at ICE......................................           N
ICE..................................  TSA.....................     $100,600    1/10/2005     4/9/2005  Task force to review ICE budget...........................................           N
ICE..................................  TSA.....................     $100,600    5/30/2004    5/30/2005  Provide legal support to FAMS at ICE......................................           N
ICE..................................  TSA.....................      $84,150    5/30/2004    5/30/2005  Provide legal support to FAMS at ICE......................................           N
ICE..................................  TSA.....................     $100,600    1/10/2005     4/9/2005  Assisting with ICE budget audit...........................................           N
OGC..................................  TSA.....................      $84,150     8/8/2005     8/8/2007  Provide legal advice concerning border and transportation security issues            N
                                                                                                         especially as they involve TSA.
OPA..................................  TSA.....................      $84,150     3/3/2003   Indefinite  Public Affairs assisting on special project(requested by Dennis Murphy)...           N
Security.............................  TSA.....................     $100,600   12/12/2004     4/2/2005  Requested for special project on security initiatives at the Chief                   N
                                                                                                         Security Office.
USM..................................  TSA.....................     $120,250   12/26/2004   Indefinite  Acting Deputy Director Business Transformation office--Selected for DHS              N
                                                                                                         position, awaiting clearance through security process.
USM..................................  TSA.....................     $158,568    8/30/2004    9/30/2005  Acting Dir, Business Transformation Off...................................           N
USM/CFO..............................  TSA.....................     $100,152    10/1/2003    10/1/2005  Support eMerge project....................................................           N
USM/CIO..............................  TSA.....................     $149,200     4/3/2005   Indefinite  Support Solutions Engineering COE.........................................           Y
USM/CIO..............................  TSA.....................     $152,824    7/13/2003     4/1/2005  Acting Deputy CIO.........................................................           Y
USM/CIO..............................  TSA.....................     $141,844    7/13/2003   Indefinite  DHS/BTS Integration.......................................................           N
USM/CIO..............................  TSA.....................     $110,278     4/3/2005    9/30/2005  Information Technology....................................................           Y
USM/CIO..............................  TSA.....................     $145,482   10/27/2004   Indefinite  TSA representative to the Information Technology Officer..................           N
USM/CIO..............................  TSA.....................     $138,093     4/3/2005    9/30/2005  Information Technology....................................................           Y
USM/CIO..............................  TSA.....................     $141,454    7/13/2003   Indefinite  INFRASTRUCTURE program support............................................           Y
IAIP.................................  USCG....................     $136,490    9/19/2003    9/19/2005  HSC Watch Augmentation....................................................           N
OGC..................................  USCG....................      $82,937     3/1/2005     3/1/2007  Assist with international issues and with Team Telecom/CFIUS legal issues.           N
USM/CFO..............................  USCG....................     $101,613     8/1/2004     8/1/2005  Support Budget Office.....................................................           N
USM/CFO..............................  USCG....................      $82,937     1/5/2005     4/1/2005  ICE Tiger Team............................................................           N
USM/CIO..............................  USCG....................     $156,886  ...........   Indefinite  Support DHS' Infrastructure Transformation Office.........................           Y
IAIP.................................  USCIS...................      $74,782    3/21/2005    5/21/2005  To assist in setting up DHS' Operations Center............................           N
IAIP.................................  USCIS...................      $74,782    3/21/2005    5/21/2005  To assist in setting up DHS' Information Analysis Section.................           N
ICE..................................  USCIS...................      $87,244     1/3/2005   Indefinite  To assist ICE in prosecuting Operation Jakarta Asylum Applications--detail           N
                                                                                                         lasts until this case goes to trial.
ICE..................................  USCIS...................      $75,460     3/7/2005     5/6/2005  To assist ICE in prosecuting Operation Jakarta Asylum Applications (a 2              N
                                                                                                         year asylum fraud investigation).
ICE..................................  USCIS...................      $81,747    2/28/2005     3/4/2005  To assist ICE in prosecuting Operation Jakarta Asylum Applications (a 2              N
                                                                                                         year asylum fraud investigation).
ICE..................................  USCIS...................      $41,361     3/7/2005     5/6/2005  To assist ICE in prosecuting Operation Jakarta Asylum Applications (a 2              N
                                                                                                         year asylum fraud investigation).
ICE..................................  USCIS...................      $64,981    3/14/2005     5/6/2005  To assist ICE in prosecuting Operation Jakarta Asylum Applications (a 2              N
                                                                                                         year asylum fraud investigation).
BTS..................................  USSS....................      $97,206    2/21/2004    8/21/2005  Border & Transp. Security.................................................           N
DHS/IAIP.............................  USSS....................      $91,315     6/1/2004    12/1/2005  Investigations............................................................           N
FEMA.................................  USSS....................      $91,315   10/17/2004    4/17/2005  DEST Program..............................................................           N
FLETC................................  USSS....................      $68,651     8/1/2003    8/10/2008  Instructor................................................................           N
FLETC................................  USSS....................      $81,638    3/20/2005    3/20/2008  Instructor................................................................           N
FLETC................................  USSS....................      $68,651     1/1/2003     1/1/2006  Instructor................................................................           N
FLETC................................  USSS....................      $58,564     6/1/2000     6/1/2005  Instructor................................................................           N
FLETC................................  USSS....................      $81,638     2/1/2003     2/1/2006  Instructor................................................................           N
FLETC................................  USSS....................      $63,040    1/12/2004    1/12/2007  Instructor................................................................           N
FLETC................................  USSS....................      $81,638     2/9/2004     2/9/2009  Instructor................................................................           N
FLETC................................  USSS....................      $81,638    10/6/2002    12/6/2005  Instructor................................................................           N
FLETC................................  USSS....................      $81,638     9/1/2003     9/1/2006  Instructor................................................................           N
FLETC................................  USSS....................      $81,638     9/1/2003     9/1/2005  Instructor................................................................           N
IAIP.................................  USSS....................      $84,751   10/19/2003    5/29/2005  Nat. CounterTerrorism Ctr.................................................           N
IAIP.................................  USSS....................      UND--LT     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $117,809    12/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $77,274    3/13/2005    6/11/2005  HS Operations Center......................................................           N
IAIP.................................  USSS....................     $100,152     1/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $84,751    12/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $114,344     5/7/2004    7/10/2005  Protective Research (IAIP)................................................           N
IAIP.................................  USSS....................      $40,179     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     UND--Off     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $117,809    11/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $84,751     5/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $84,751    12/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $97,206     2/8/2004     8/8/2005  Protective Research (IAIP)................................................           N
IAIP.................................  USSS....................     $103,947     9/1/2004     9/1/2005  Investigations............................................................           N
IAIP.................................  USSS....................      $87,244    2/27/2005    5/28/2005  HS Operations Center......................................................           N
IAIP.................................  USSS....................      $84,751    12/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $110,878     6/1/2003      ( \3\ )  Support to IAIP mission--Investigations...................................           Y
IAIP.................................  USSS....................      $36,157     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $117,809    12/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $74,782     3/6/2005     6/4/2005  HS Operations Center......................................................           N
IAIP.................................  USSS....................      $79,766     5/1/2004     5/1/2005  Investigations............................................................           N
IAIP.................................  USSS....................     $100,152    10/1/2002      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................      $84,751     1/1/2004      ( \3\ )  Support to IAIP mission...................................................           N
IAIP.................................  USSS....................     $117,809     1/1/2003      ( \3\ )  Support to IAIP mission...................................................           N
OSLGC................................  USSS....................      $88,000    10/3/2004     4/3/2005  Law Enforcement Liaison...................................................           N
S&T..................................  USSS....................     $100,152     2/1/2003   Indefinite  Providing technical expertise to S&T......................................           N
S&T..................................  USSS....................      $97,206     1/1/2003   Indefinite  Providing technical expertise to S&T--Protective Research (INT)...........           N
Security.............................  USSS....................      $97,206    7/21/2003    7/21/2005  Counter Intelligence......................................................           N
Security.............................  USSS....................      $88,000     2/1/2003   Indefinite  Provides physical security to DHS facilities..............................           N
Security.............................  USSS....................      $94,000    2/23/2003    8/23/2005  Phy. Sec & Access Ctrl....................................................           N
USM/CHCO.............................  USSS....................      $91,315    3/10/2004     4/1/2005  New HR system: pay and performance team...................................           N
USM/CHCO.............................  USSS....................      $82,259     2/1/2005    5/16/2005  Hiring and transition response team.......................................           N
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Indefinite.
\2\ N/A.
\3\ Ongoing.

                           hiring journalists
    Question. In January 2005, President Bush ordered his Cabinet 
secretaries not to hire columnists to promote their agendas. At a news 
conference President Bush said, ``All our Cabinet secretaries must 
realize that we will not be paying commentators to advance our agenda. 
Our agenda ought to be able to stand on its own two feet.''
    Are all DHS agencies in compliance with the Administration's policy 
and the legal prohibitions on using appropriations for contracting with 
journalists to promote legislation or policy?
    Answer. Yes, all DHS Agencies are in compliance.
                intelligence reform bill authorizations
    Question. The Intelligence Reform and Terrorism Prevention Act 
authorized substantial enhancements to a variety of DHS programs, 
including immigration enforcement, aviation security, and other 
provisions. Identify the funding requested in the President's fiscal 
year 2006 budget for each of the following authorizations contained in 
the Act. In your response, include a chart which compares the funding 
authorized, by section of the bill, to the funding included in the 
President's fiscal year 2006 budget.
Immigration Enforcement
  --Section 5202 & 5203.--Authorizes, from fiscal year 2006 to fiscal 
        year 2010 subject to the availability of appropriations, an 
        increase of 10,000 additional Border Patrol Agents (2,000 per 
        year) and an increase of 4,000 Immigration and Customs 
        Enforcement (ICE) investigators (800 per year).
  --Section 5204.--Authorizes, from fiscal year 2006 to fiscal year 
        2010 subject to the availability of appropriations, an increase 
        of 40,000 beds (8,000 per year) available for immigration 
        detention and removal.
  --Section 5101 through 5104.--The Secretary of Homeland Security may 
        carry out a pilot program to improve border security between 
        ports of entry along the northern border. Required features of 
        this pilot project include the use of advanced technologies to 
        improve border security.
  --Section 5201.--Within 6 months of enactment of this Act, the 
        Secretary of Homeland Security shall submit a comprehensive 
        plan for the systematic surveillance of the southwest border of 
        the United States by remotely piloted aircraft.
  --Section 7210 & 7206.--The bill amends the Immigration and 
        Nationality Act by mandating by January 1, 2008 pre-inspection 
        stations are established in at least 25 additional foreign 
        airports and by December 31, 2006 at least 50 airports shall be 
        selected for assignment of immigration officers to assist air 
        carriers detect fraudulent documents at foreign airports. $25 
        million is authorized in fiscal year 2005 and $40 million in 
        fiscal years 2006 and 2007 respectively for this purpose.
Aviation Security
  --Section 4013.--$250 million for research, development, and 
        installation of detection systems and other devices for the 
        detection of biological, chemical, radiological, and explosive 
        material.
  --Section 4024.--$100 million for research and development of 
        improved explosive detection systems.
  --Section 4052.--$200 million for each of fiscal years 2005-2007 for 
        improving aviation security related to the transportation of 
        cargo on passenger and cargo aircraft.
  --Section 4052.--$100 million for each of fiscal years 2005-2007 for 
        research and development in advancing cargo security 
        technology. Within these funds, the Secretary shall also 
        establish a competitive grant program to encourage the 
        development of advanced air cargo security technology.
  --Section 4014.--Up to $150 million for each of fiscal years 2005 and 
        2006 to set up a pilot program (minimum 5 airports) to deploy 
        and test advanced airport checkpoint screening devices and 
        technology as an integrated system.
  --Section 4019.--Increases the statutory allocation for expiring and 
        new Letters of Intent (LOIs) from $250 million to $400 million.
  --Section 4011.--$20 million for research and development of advanced 
        biometric technology applications to aviation security, 
        including mass identification technology.
  --Section 4011.--$1 million for the establishment of a competitive 
        center of excellence to expedite the use of biometric 
        identifiers.
  --Section 4011.--Directs that a law enforcement officer travel 
        credential be created that incorporates biometric identifier 
        technology that is uniform for all law enforcement officials 
        seeking to carry a weapon on board an aircraft. The bill 
        authorizes such sums as may be necessary to carry out this 
        directive.
  --Section 4020.--Directs DHS to provide, subject to the availability 
        of funds, monitoring cameras for surveillance at airports that 
        have checked baggage screening areas that are not open to 
        public view in order to deter theft from checked baggage and to 
        aid in the speedy resolution of liability claims against the 
        Transportation Security Administration.
  --Section 4051.--$2 million for TSA to carry out a pilot program to 
        evaluate the use of blast-resistant containers for cargo and 
        baggage on passenger aircraft to minimize the potential effects 
        of detonation of an explosive device.
  --Section 4016.--$83 million for the 3 fiscal-year period beginning 
        with fiscal year 2005 to increase the number of Federal air 
        marshals.
  --Section 4012.--Directs TSA to begin to assume the function (not 
        later than 180 days after testing the system is completed) of 
        comparing passenger information to no fly lists, utilizing all 
        appropriate records in the consolidated and integrated 
        terrorist watchlist, including international flights.
Other Provisions
  --Section 7303.--Authorizes the Secretary of DHS to provide $22.1 
        million in fiscal year 2005, $22.8 million in fiscal year 2006, 
        $23.5 million in fiscal year 2007, $24.2 million in fiscal year 
        2008, and $24.9 million in fiscal year 2009 to enhance public 
        safety interoperable communications at all levels of 
        government. The Secretary may establish an Office for 
        Interoperability and Compatibility within the Science and 
        Technology Directorate to carry out these duties.
  --Section 7304.--Directs DHS to establish a minimum of 2 pilot 
        projects in high threat urban areas or regions for the purpose 
        of developing a regional strategic plan to foster interagency 
        communication and to coordinate the gathering of all Federal, 
        State, and local first responders in that area.
  --Section 7407.--Amends the Homeland Security Act requirement related 
        to counternarcotics enforcement. Instead of having one senior 
        official in the Department coordinating counternarcotics 
        policy, an ``Office Counternarcotics Enforcement'' is created 
        with an authorization of $6 million.
  --Section 7215.--Directs the Secretary to establish a terrorist 
        travel program to oversee the analysis, coordination, and 
        dissemination or terrorist travel intelligence and operation 
        information.
  --Section 4071.--Directs the Secretary to implement a system for 
        screening the names of cruise ship passengers and crew against 
        Federal terrorist watch lists.
    Answer.

  INTELLIGENCE REFORM AND TERRORISM PREVENTION ACT OF 2004 IMPLICATIONS
                 FOR THE DEPARTMENT OF HOMELAND SECURITY
------------------------------------------------------------------------
                               Authorized Funding    2006 Budget Funding
        Subject area                  Level                 Level
------------------------------------------------------------------------
AVIATION:
    Law enforcement officer   Directs that a law    The fiscal year 2006
     uniform biometric         enforcement officer   Budget does not
     travel credential         travel credential     request any
     (Section 4011(a)).        be created that       dedicated funding
                               incorporates          for this specific
                               biometric             purpose. Necessary
                               identifier            resources would be
                               technology that is    provided with
                               uniform for all law   existing funds or
                               enforcement           through fees.
                               officials seeking    This activity is a
                               to carry a weapon     sub-set of the
                               on board an           Registered Traveler
                               aircraft. The bill    pilot and funds
                               authorizes such       were identified
                               sums as may be        within the
                               necessary to carry    Registered Traveler
                               out this directive.   program in fiscal
                                                     year 2005 to begin
                                                     the Registered
                                                     Armed LEO pilot.
                                                     The fiscal year
                                                     2005 enacted
                                                     appropriations
                                                     funded Registered
                                                     Armed LEO
                                                     activities, and TSA
                                                     anticipates using
                                                     the results of the
                                                     pilot as a platform
                                                     for the final LEO
                                                     biometric travel
                                                     card. Results of
                                                     the pilot will be
                                                     considered to
                                                     evaluate resources,
                                                     needs, and funding
                                                     options as the
                                                     program moves
                                                     forward.
    Biometric technologies    $20 million for       The fiscal year 2006
     for aviation--R&D         research and          Budget does not
     (Section 4011(b)).        development of        request any
                               advanced biometric    dedicated funding
                               technology            for this specific
                               applications to       purpose within
                               aviation security,    broader R&D request
                               including mass        levels.
                               identification
                               technology.
    Biometric Center of       $1 million for the    The fiscal year 2006
     Excellence (Section       establishment of a    Budget does not
     4011(d)).                 competitive center    request any
                               of excellence to      dedicated funding
                               expedite the use of   for a Biometric
                               biometric             Center of
                               identifiers.          Excellence.
    Airline Passenger         Directs TSA to begin  The fiscal year 2006
     Screening (Section        to assume the         Budget requests $81
     4012).                    function (not later   million for the
                               than 180 days after   development of the
                               testing the system    Secure Flight
                               is completed) of      prescreening
                               comparing passenger   system.
                               information to no
                               fly lists,
                               utilizing all
                               appropriate records
                               in the consolidated
                               and integrated
                               terrorist
                               watchlist,
                               including
                               international
                               flights.
    Checkpoint portal         $250 million for      The fiscal year 2006
     detection systems--R&D    research,             Budget for
     and deployment (Section   development, and      explosives
     4013).                    installation of       detection as a
                               detection systems     countermeasure
                               and other devices     against aviation,
                               for the detection     suicide and vehicle
                               of biological,        bombs: $88 million
                               chemical,             of the $124 million
                               radiological, and     (Research and
                               explosive material.   Development (R&D)
                                                     consolidation
                                                     budget + Science
                                                     and Technology
                                                     (S&T) Explosives
                                                     Countermeasures
                                                     portfolio budget),
                                                     but nothing
                                                     specific for
                                                     ``checkpoint portal
                                                     detection
                                                     systems''.
    Integrated checkpoint     Up to $150 million    The President's
     screening system pilots   for each of fiscal    fiscal year 2005
     (Section 4014).           years 2005 and 2006   Budget included
                               to set up a pilot     $28.3 million for
                               program (minimum 5    fielding emerging
                               airports) to deploy   technology
                               and test advanced     equipment at
                               airport checkpoint    checkpoints. As a
                               screening devices     result of this
                               and technology as     funding, 147 static
                               an integrated         trace portals
                               system.               (which are
                                                     passenger screening
                                                     sub-systems using a
                                                     whole body portal
                                                     to inspect
                                                     passengers for
                                                     concealed
                                                     explosives using an
                                                     automated, non-
                                                     contact trace
                                                     sampling and
                                                     processing system)
                                                     will be deployed in
                                                     fiscal year 2006 at
                                                     approximately 40
                                                     airports. The
                                                     fiscal year 2006
                                                     request includes
                                                     $43.7 million in
                                                     additional funds to
                                                     complete the
                                                     fielding of this
                                                     capability, which
                                                     will total $100
                                                     million to address
                                                     this activity over
                                                     the 2-year period.
    In-line checked baggage   Increases the         The fiscal year 2006
     screening (Section        statutory             Budget includes
     4019).                    allocation for        $260.5 million to
                               expiring and new      support the eight
                               Letters of Intent     existing Letters of
                               (LOIs) from $250      Intent (LOI)
                               million to $400       airports. Of this
                               million.              amount, $240.5
                                                     million is for
                                                     direct
                                                     reimbursements and
                                                     $20 million is for
                                                     equipment and
                                                     installation. The
                                                     fiscal year 2006
                                                     request proposes to
                                                     continue sourcing
                                                     LOIs from the $250
                                                     million
                                                     appropriated from
                                                     the Aviation
                                                     Security Capital
                                                     Fund at a 75
                                                     percent Federal
                                                     cost share rate.
                                                     Additionally, the
                                                     request includes
                                                     $134 million to
                                                     purchase and
                                                     install Explosive
                                                     Detection Systems
                                                     and Electronic
                                                     Trace Detection
                                                     equipment at non-
                                                     LOI airports, for a
                                                     total expenditure
                                                     of $394 million.
    Checked Baggage           Directs DHS to        The fiscal year 2006
     Monitoring Area           provide, subject to   Budget includes
     (Section 4020).           the availability of   $10.1 million to
                               funds, monitoring     provide assistance
                               cameras for           to airports to
                               surveillance at       install security
                               airports that have    monitoring cameras
                               checked baggage       for surveillance of
                               screening areas       checked baggage
                               that are not open     screening areas
                               to public view in     that are not open
                               order to deter        to public view. The
                               theft from checked    Transportation
                               baggage and to aid    Security
                               in the speedy         Administration
                               resolution of         (TSA), in
                               liability claims      partnership with
                               against the           airports, generally
                               Transportation        provides for
                               Security              purchase and
                               Administration. The   installation of a
                               bill and current      camera system, with
                               policy provides       the partnering
                               ``such sums''.        airport agreeing to
                                                     maintain the
                                                     installed system.
    Aviation explosives       $100 million for      The S&T Directorate
     detection equipment R&D   research and          has an fiscal year
     (Section 4024(b)).        development of        2006 budget request
                               improved explosive    of $45.9 million
                               detection systems.    for the TSA budget
                                                     line for next
                                                     generation
                                                     explosives
                                                     detection systems.
                                                     The S&T Directorate
                                                     will coordinate
                                                     with TSA regarding
                                                     the development of
                                                     the next generation
                                                     of explosives
                                                     detection systems.
    Blast Resistant Cargo     $2 million for TSA    The fiscal year 2006
     Containers (Section       to carry out a        Budget requests
     4051).                    pilot program to      $4.4 million.
                               evaluate the use of
                               blast-resistant
                               containers for
                               cargo and baggage
                               on passenger
                               aircraft to
                               minimize the
                               potential effects
                               of detonation of an
                               explosive device.
    Air cargo security        $200 million for      The fiscal year 2006
     activities (Section       each of fiscal        Budget includes $40
     4052).                    years 2005-2007 for   million for air
                               improving aviation    cargo security,
                               security related to   which will allow
                               the transportation    the Transportation
                               of cargo on           Security
                               passenger and cargo   Administration
                               aircraft.             (TSA) to continue
                              $100 million for       making incremental
                               each of fiscal        and measured
                               years 2005-2007 for   progress toward our
                               research and          air cargo security
                               development in        goals.
                               advancing cargo      The S&T Directorate
                               security              has an fiscal year
                               technology. Within    2006 budget request
                               these funds, the      of $29.578 million.
                               Secretary shall       The budget request,
                               also establish a      although not
                               competitive grant     developed by the
                               program to            S&T Directorate,
                               encourage the         was agreed upon by
                               development of        the S&T Directorate
                               advanced air cargo    as the amount
                               security technology.  moving forward for
                                                     air cargo RDT&E.
                                                     The S&T Directorate
                                                     will continue to
                                                     award grants under
                                                     a competitive
                                                     process to further
                                                     aviation
                                                     consolidated cargo
                                                     screening RDT&E.
    Federal Air Marshals      $83 million for the   The President has
     (FAMS) staffing           3 fiscal-year         requested $9.86
     (Section 4016).           period beginning      million in new
                               with fiscal year      funding in fiscal
                               2005 to increase      year 2006 to enable
                               the number of         the hiring of
                               Federal air           additional Federal
                               marshals. Subject     Air Marshals to
                               to the availability   provide even
                               of appropriations.    greater coverage of
                                                     targeted critical
                                                     flights and to
                                                     otherwise increase
                                                     mission
                                                     capabilities. The
                                                     total budget for
                                                     FAMS is $689
                                                     million.
    Pre-clearance Stations    The bill amends the   There are currently
     and Immigration           Immigration and       14 pre-clearance
     Security Initiative       Nationality Act by    stations funded in
     (Section 7210 & 7206).    mandating by          the fiscal year
                               January 1, 2008 pre-  2006 Budget. The
                               inspection stations   fiscal year 2006
                               are established in    Budget request is
                               at least 25           $2 million
                               additional foreign
                               airports and by
                               December 31, 2006
                               at least 50
                               airports shall be
                               selected for
                               assignment of
                               immigration
                               officers to assist
                               air carriers detect
                               fraudulent
                               documents at
                               foreign airports.
                               $25 million is
                               authorized in
                               fiscal year 2005
                               and $40 million in
                               fiscal years 2006
                               and 2007
                               respectively for
                               this purpose.
MARITIME:
    Vetting of cruise ship    Directs the           The fiscal year 2006
     passengers (Section       Secretary to          Budget does not
     4071).                    implement a system    request any
                               for screening the     dedicated funding
                               names of cruise       for this specific
                               ship passengers and   purpose. Necessary
                               crew against          resources are
                               Federal terrorist     provided with
                               watch lists. No       existing funds.
                               specific funding     On April 7, 2005,
                               authorization is      CBP published the
                               provided.             Advance Passenger
                                                     Information System
                                                     (APIS) Final Rule
                                                     within the Federal
                                                     Register (70 FR
                                                     17820). The CBP
                                                     Final Rule
                                                     incorporates
                                                     passenger and crew
                                                     manifest
                                                     requirements from
                                                     CBP with the Notice
                                                     of Arrival
                                                     requirements of the
                                                     United States Coast
                                                     Guard (USCG). The
                                                     CBP Final Rule
                                                     requires that sea
                                                     carriers
                                                     electronically
                                                     submit certain data
                                                     on all passengers
                                                     and crew members
                                                     prior to entry to
                                                     or departure from
                                                     the United States.
                                                     The data that must
                                                     be provided
                                                     includes
                                                     biographical data
                                                     and vessel
                                                     information for
                                                     each passenger or
                                                     crewmember. Working
                                                     with the USCG, CBP
                                                     developed the
                                                     Electronic Notice
                                                     of Arrival/
                                                     Departure System
                                                     (eNOA/D), an
                                                     Internet portal
                                                     available on the
                                                     National Vessel
                                                     Movement Center
                                                     (NVMC) web site.
                                                     Using this portal,
                                                     commercial vessel
                                                     owners, operators
                                                     or agents can
                                                     transmit one
                                                     electronic message
                                                     and comply with the
                                                     CBP APIS
                                                     requirement for
                                                     passengers and crew
                                                     and the USCG Notice
                                                     of Arrival
                                                     requirements for
                                                     vessels. eNOA/D
                                                     became operational
                                                     and available to
                                                     the industry during
                                                     February 2005.
                                                     CBP's efforts on
                                                     the eNOA/D system
                                                     have been
                                                     accomplished with
                                                     existing funds.
BORDER PROTECTION:
    Advanced Technology       The Secretary of      The fiscal year 2006
     Northern Border           Homeland Security     Budget does not
     Security Program          may carry out a       request any
     (Section 5101-5104).      pilot program to      dedicated funding
                               improve border        for a specific
                               security between      pilot. Necessary
                               ports of entry        resources will be
                               along the northern    provided with
                               border. Required      existing funds. The
                               features of this      fiscal year 2006
                               pilot project         Budget requested
                               include the use of    funding for $19.8
                               advanced              million added to
                               technologies to       the base funding of
                               improve border        $31.3 million to
                               security. There is    improve border
                               authorized to be      security using
                               appropriated ``such   advanced
                               sums as may be        technologies on
                               necessary to carry    both the northern
                               out the pilot         and southern land
                               program''.            borders. Also
                                                     included in the
                                                     fiscal year 2006
                                                     CBP budget are $20
                                                     million for
                                                     aircraft
                                                     recapitalization,
                                                     $10 million in base
                                                     funding for UAVs,
                                                     and funding for
                                                     technical
                                                     infrastructure. The
                                                     America's Shield
                                                     Initiative (ASI)
                                                     program will
                                                     evaluate and
                                                     determine the
                                                     optimal mix of
                                                     technology for
                                                     meeting security
                                                     requirements of
                                                     both land borders.
    Border surveillance       Within 6 months of    The fiscal year 2006
     (Section 5201).           enactment of this     Budget requests $10
                               Act, the Secretary    million for
                               of Homeland           unmanned aerial
                               Security shall        vehicles.
                               submit a
                               comprehensive plan
                               for the systematic
                               surveillance of the
                               southwest border of
                               the United States
                               by remotely piloted
                               aircraft. The
                               Secretary of
                               Homeland Security
                               shall implement the
                               plan as a pilot
                               program as soon as
                               sufficient funds
                               are appropriated
                               and available for
                               this purpose.
    Border Patrol agents      Authorizes, from      The fiscal year 2006
     (Section 5202).           fiscal year 2006 to   Budget requests 210
                               fiscal year 2010      new agents and
                               subject to the        $36.9 million.
                               availability of
                               appropriations, an
                               increase of 10,000
                               additional Border
                               Patrol Agents
                               (2,000 per year).
ENFORCEMENT:
    Immigration and Customs   Authorizes, from      The fiscal year 2006
     Enforcement               fiscal year 2006 to   Budget requests 150
     investigators (Section    fiscal year 2010      agents and $18
     5203).                    subject to the        million.
                               availability of
                               appropriations, an
                               increase of 4,000
                               Immigration and
                               Customs Enforcement
                               (ICE) investigators
                               (800 per year).
                               Subject to the
                               availability of
                               appropriations.
    Detention bed space       Authorizes, from      The fiscal year 2006
     (Section 5204).           fiscal year 2006 to   Budget includes an
                               fiscal year 2010      increase of $90
                               subject to the        million for
                               availability of       detention beds and
                               appropriations, an    detention and
                               increase of 40,000    removal officers.
                               beds (8,000 per       This increase will
                               year) available for   fund 1,920 beds.
                               immigration           Overall, the fiscal
                               detention and         year 2006 Budget
                               removal. Subject to   provides $1.5
                               the availability of   billion for
                               appropriations.       detention and
                                                     removal activities.
                                                     The budget also
                                                     includes an
                                                     enhancement of $39
                                                     million for the
                                                     detention and
                                                     repatriation costs
                                                     of the Arizona
                                                     Border Control
                                                     Initiative.
OTHER:
    Public Safety             Authorizes the        The fiscal year 2006
     Interoperable             Secretary of DHS to   Budget requests
     Communications (Section   provide $22.1         $20.5 million for
     7303).                    million in fiscal     the S&T
                               year 2005, $22.8      Directorate's
                               million in fiscal     Office of
                               year 2006, $23.5      Interoperability
                               million in fiscal     and Compatibility
                               year 2007, $24.2      (OIC) to enhance
                               million in fiscal     public safety
                               year 2008, and        interoperable
                               $24.9 million in      communications.
                               fiscal year 2009 to
                               enhance public
                               safety
                               interoperable
                               communications at
                               all levels of
                               government. The
                               Secretary may
                               establish an Office
                               for
                               Interoperability
                               and Compatibility
                               within the Science
                               and Technology
                               Directorate to
                               carry out these
                               duties.
    Regional Strategic Plan   Directs DHS to        The fiscal year 2006
     (Section 7304).           establish a minimum   Budget requests
                               of 2 pilot projects   $20.5 million for
                               in high threat        the Department of
                               urban areas or        Homeland Security's
                               regions for the       S&T Directorate's
                               purpose of            OIC to enhance
                               developing a          public safety
                               regional strategic    interoperable
                               plan to foster        communications
                               interagency           through SAFECOM, a
                               communication and     program of OIC.
                               to coordinate the
                               gathering of all
                               Federal, State, and
                               local first
                               responders in that
                               area.
    Counternarcotics          Amends the Homeland   The fiscal year 2006
     Enforcement (Section      Security Act          request for the
     7407).                    requirement related   Office of
                               to counternarcotics   Counternarcotics
                               enforcement.          Enforcement is
                               Instead of having     $1.86 million.
                               one senior official
                               in the Department
                               coordinating
                               counternarcotics
                               policy, an ``Office
                               Counternarcotics
                               Enforcement'' is
                               created with an
                               authorization of $6
                               million.
    Terrorist Travel Program  Directs the           The fiscal year 2006
     (Section 7215).           Secretary to          Budget does not
                               establish a           request any
                               terrorist travel      dedicated funding
                               program to oversee    for this specific
                               the analysis,         purpose. Necessary
                               coordination, and     resources would be
                               dissemination or      provided with
                               terrorist travel      existing funds.
                               intelligence and
                               operation
                               information.
------------------------------------------------------------------------


                  MERIT SYSTEM PROTECTION BOARD (MSPB)

    Question. The final regulation restricts the ability of the MSPB to 
mitigate penalties selected by DHS. The final rule says, ``Our intent 
is to explicitly restrict the authority of MSPB to modify those 
penalties to situations where there is simply no justification for the 
penalty. MSPB may not modify the penalty imposed by the Department 
unless such penalty is so disproportionate to the basis for action as 
to be wholly without justification.'' This standard is exceptionally 
high. Why was such a departure from the current authorities of the MSPB 
necessary?
    Answer. Under current MSPB case law, penalties can be mitigated 
down if they are ``unreasonable.'' Problems with this include that it 
is subjective and it may result in many employees returning to the 
workplace after the MSPB ``suspension'' instead of being removed as 
recommended by management.
    DHS believes that management decisions should be given great 
deference with regard to discipline, especially with removals, because 
an undesirable employee returning to the workforce creates morale 
problems at the least; at the worst, a returning employee interferes 
with the agency's mission to protect the homeland.
    MSPB's ability to mitigate a penalty only if the punishment is ``so 
disproportionate as to be wholly without justification'' is a 
compromise because it gives greater deference to DHS, still protects 
employee due process, and ensures that disciplinary actions are not 
initiated irresponsibly.
    Question. Is the Department concerned that these extreme measures 
will adversely affect employee morale and reduce employee confidence 
that they will be treated fairly?
    Answer. DHS understands that many employees are wary of the unknown 
and is currently in the process of rolling out significant training 
efforts aimed at communicating with employees, training managers, and 
executives on the new human resource system and the expectations for 
those managers regarding the system. Fair treatment is critical to the 
success of the new system and is a key component of our implementation 
and ongoing evaluation processes.
    Question. What evidence is there that the existing MSPB authorities 
have adversely affected agency missions?
    Answer. The Department's priority homeland security mission 
requires that it maintain an exceptionally high degree of order and 
discipline in the workplace. This order and discipline is undermined 
when disciplinary decisions are mitigated by MSPB judges on the 
existing ``reasonableness'' standard. Indeed, the mere threat of such a 
low standard for mitigation causes agency managers to second guess 
themselves and hesitate to discipline employees even when such 
discipline is clearly warranted. The Department has therefore 
instituted a higher standard for mitigation of penalties aimed at 
providing managers with the confidence to institute disciplinary 
actions where required in support of the agency's homeland security 
mission. To allow very poor performers to continue in the workplace is 
unacceptable and can negatively affect all agency operations.

                         CONCERNS OF EMPLOYEES

    Question. A number of DHS employees have strong concerns about the 
final DHS personnel regulations, which were published in the Federal 
Register on February 1, because the regulations diminish employees due 
process rights and restrict collective bargaining. What is the 
Department's opinion on the objections raised by the front line DHS 
employees, and what will the Department do to address the concerns 
expressed by these Federal employees?
    Answer. The new HR system does maintain due process and is 
consistent with the Homeland Security Act's promise to preserve 
collective bargaining rights. It also is responsive to DHS' unique 
mission needs. DHS understands that employees have concerns about the 
new human resources systems and has embarked on robust efforts to 
inform employees and train managers about the new system, including 
through continuing collaboration with DHS labor unions. Through focus 
groups, the ``Ask MAX'' question response system and employee surveys, 
DHS is keeping a close watch on employee opinions and through the 
formal program evaluation process will be measuring the results and 
outcomes of the new system. If necessary, the system can be fine-tuned 
to make mid-course corrections.

          INDEPENDENT REVIEW OF COLLECTIVE BARGAINING DISPUTES

    Question. As part of the new personnel regulations, the 
responsibility for deciding collective bargaining disputes will lie 
with a three-member internal DHS Labor Relations Board appointed by the 
Secretary. Currently, throughout the Federal Government, collective 
bargaining disputes are decided by the Federal Labor Relations 
Authority (FLRA), an independent body appointed by the President and 
confirmed by the Senate. How does DHS/OPM believe that the internal 
labor relations board meets the statutory mandate of the Homeland 
Security Act that DHS employees may, ``organize, bargain collectively, 
and participate through labor organizations of their own choosing in 
decisions which affect them'' ?
    Answer. The Homeland Security Labor Relations Board (HSLRB) is an 
independent Board similar to the FLRA, but appointed by the Secretary 
with nominees recommended by the DHS labor organizations. All nominees 
must be independent citizens who are known for their integrity and 
impartiality in addition to having expertise in labor relations, law 
enforcement, or national/homeland or other related security matters. 
The HSLRB hears cases involving the duty to bargain and the DHS 
homeland security mission, with the FLRA hearing all other cases (for 
example, appropriate unit determinations and unfair labor practice 
charges involving exercise of employee rights) and reviewing the 
HSLRB's substantive decisions. The FLRA review is then subject to 
judicial review. These substantive and procedural attributes of the 
HSLRB ensure that DHS, DHS employees and DHS labor organizations obtain 
an impartial adjudication of labor relations cases while recognizing 
the Department's priority homeland security mission.

              MANDATORY TERMINATION WITH NO OUTSIDE REVIEW

    Question. The final regulations provide the Secretary with 
discretion to create a list of Mandatory Removal Offenses (MRO) that 
will only be appealable on the merits to an internal DHS Mandatory 
Removal Panel (MRP) appointed by the Secretary. In addition, the 
regulations provide the Secretary with the sole discretion to mitigate 
a removal penalty. How can the agency expect front line employees to 
have any confidence in a personnel system where the most serious 
matters are charged and adjudicated by the Secretary and his appointed 
``Removal Panel''?
    Answer. Currently DHS is taking no action to implement MROs. On 
August 15, 2005, Judge Collyer of the District Court for the District 
of Columbia requested that DHS and OPM delay implementation. On August 
12, 2005, Judge Collyer issued an order enjoining one provision within 
the appeals subpart of the regulations but permitting DHS to move 
forward with the rest of the adverse actions and appeals provisions. 
The Department and OPM are currently working to set a revised timeline 
for making the adverse actions and appeals subparts operative in light 
of the ruling.

                       TASKING THE FLRA AND MSPB

    Question. What particular statutory authority enabled the final 
regulations to give the FLRA and the MSPB new duties and rules of 
operation? The FLRA and the MSPB are independent agencies.
    Answer. The Homeland Security Act provided an amendment to Title 5, 
United States Code, that authorized the Secretary of DHS and the 
Director of OPM to establish a human resources management system for 
DHS that waives or modifies certain provisions of Title 5. Included 
among the provisions that can be waived or modified are chapters 71 and 
77, which prescribe the operations of the FLRA and MSPB respectively. 
After consulting with FLRA and MSPB, the Secretary and the Director 
relied upon this grant of authority, found in 5 U.S.C. 9701, to 
promulgate regulations that modify chapters 71 and 77 and alter the way 
the FLRA and MSPB handle DHS cases.

                        TRAINING OF SUPERVISORS

    Question. One of the continuing concerns surrounding the final DHS 
personnel regulations is the fact that many personnel decisions, 
especially pay, will now be based on factors under the control of local 
supervisors and directors. How does DHS plan to address the concerns of 
front line officers that supervisors, who will be granted a tremendous 
amount of pay and performance evaluation discretion under the new 
personnel regulations, will be properly trained to ensure transparency 
and fairness for all front-line personnel?
    Answer. Performance ratings will continue to be determined by local 
supervisors, just as it occurs in today's performance management 
process. The concept of a second level reviewing official has been 
retained as an inherent check and balance. A comprehensive training 
program will be undertaken to train supervisors and managers to make 
meaningful distinctions in performance and, just as important, to 
articulate clear performance expectations, which will be used to track 
performance. An automated performance management system will make the 
administration of the system more transparent to employees and will 
facilitate self-assessment and peer review capabilities that can serve 
as important information sources for the supervisor's consideration. 
Additionally, we envision that performance pay pools will be centrally 
established and managed at higher organizational levels, thus 
mitigating the influence of a single supervisor on the pay side of the 
process. A Department-level Compensation Committee, including DHS union 
representation, also will have considerable influence on the pay for 
performance program and its administration.
    Question. In addition, this system will take more training and 
administrative time. How will those increased administrative costs be 
paid for?
    Answer. The vast majority of administrative costs associated with 
training will be funded through requested appropriations specified for 
implementation of the new HR system and managed by the DHS Chief Human 
Capital Office for the Department-wide training initiative. As part of 
the new system, DHS will provide automated tools, e.g., a new 
electronic performance management system, to assist management 
officials in program administration.
    Question. Won't resources be taken from frontline Homeland Security 
positions?
    Answer. The expectation is that resources will be provided in 
requests for appropriations specifically identified to support 
implementation of the new HR system. Individual Department components' 
mission budgets are not expected to be impacted. We believe time spent 
in training on effective performance management and in coaching and 
providing feedback to employees is time well spent that generates 
positive returns in overall agency effectiveness.

                          PAY FOR PERFORMANCE

    Question. As you know, DHS employees' pay will be shifting from the 
current GS-scale pay system to a pay-for-performance system under the 
new DHS personnel regulations. How can a credible pay-for-performance 
pay system work in an agency, such as DHS, that requires a tremendous 
amount of teamwork to successfully accomplish agency missions?
    Answer. Performance work plans will contain measurable performance 
elements that specifically address teamwork or similar concepts for 
those occupations requiring such attributes. Employees in those 
occupations will know that performance that demonstrates teamwork will 
be rewarded.
    Question. Is the Department aware of any large scale pay-for-
performance system that has been successfully implemented in a law-
enforcement environment?
    Answer. While we are unaware of a large scale pay-for-performance 
system in a law enforcement environment, that certainly does not 
prevent us from developing one. Pay-for-Performance is the concept of 
providing a pay increase based on ``performance'' (e.g. achievement of 
a performance goal or positive performance appraisal rating). 
Organizations tie pay to performance in various ways. They may base pay 
on measures of individual, team, or organizational performance. We feel 
this concept can work well in a law enforcement environment. Research 
involved in designing the system entails review and evaluation of 
private, other Federal, State and local systems that have such 
programs. Our design work includes program evaluation aspects in order 
to periodically monitor, evaluate, and revise the system, as warranted 
to ensure that objectives are being attained.
          security and prosperity partnership of north america
    Question. On March 23, President Bush held a press event in Waco, 
Texas with Mexican Pres Foxx and Canadian Prime Minister Martin where 
he announced a grant program for the Security and Prosperity 
Partnership of North America.
    The parties to the partnership were tasked to set specific, 
measurable, and achievable goals and implementation dates to develop a 
common security strategy to further secure North America, including 
preventing and responding to threats within North America and 
streamlining the secure and efficient movement of legitimate and low-
risk traffic across our shared borders.
    Will we be receiving a budget amendment to provide the resources 
for Customs and Border Patrol, the Coast Guard, and Immigration and 
Customs Enforcement to implement this partnership or was this 
announcement an exercise in public relations?
    Answer. On March 23, 2005, in Waco, Texas, President Bush, along 
with Canadian Prime Minister Martin and Mexican President Fox, unveiled 
the Security and Prosperity Partnership for North America (SPP), a 
blueprint for a safer and more prosperous continent. The three leaders 
instructed each nation to establish ministerial-level SPP working 
groups. I chair the security component, and the prosperity component is 
chaired by Department of Commerce Secretary Gutierrez. Department of 
State Secretary Rice is working to ensure the two components are 
integrated and that the SPP advances U.S. foreign policy goals and 
enhances our strong relationships with Canada and Mexico.
    The SPP will complement, rather than replace, existing bilateral 
and trilateral fora and working groups that are performing well. The 
issues of immigration and trade disputes will be dealt with outside the 
SPP through existing treaties and congressional action.
    Following the March 23 announcement, DHS and Commerce conducted a 
series of Congressional briefings and other stakeholder outreach 
sessions.
    On June 27, I and Gutierrez and our government counterparts in 
Mexico and Canada released the first report of the SPP that identifies 
initial results, key themes and initiatives, and work plans that 
further promote the security and prosperity of the continent.
    At this time, DHS anticipates accomplishing the fiscal year 2006 
initiatives contained in the SPP within available resources. We would 
like to reserve the opportunity to address some longer term priorities 
as part of the normal budgeting process in the future. We continue to 
be interested in input from the Congress, industry and other 
stakeholders as we implement the SPP.

                            DHS REPORTS DUE

    Question. In the fiscal year 2005 Homeland Security Appropriations 
Act and associated reports, Congress directed the Department to report 
to the Committee on a number of important issues. To date, 70 percent 
of the reports currently due to the House & Senate Committees on 
Appropriations have not yet been received. What is the Department's 
plan for increasing the rate of timely submission of Congressionally 
required reports?
    Answer. The Department continues to place a significant priority on 
providing timely information and reports to Congress. Of the reports 
mentioned above, approximately 40 percent of those outstanding reports 
are past due, and the Department has been working diligently to 
expedite transmittal of those reports. Since the hearing on April 20th 
through July 13th, the Department has reduced the overall number of 
outstanding reports by approximately 30 percent. As of July 13, the 
Department has submitted 143 reports for fiscal year 2005 to the 
Congressional Appropriation Committees.
    The status of reports is constantly monitored and regular progress 
is tracked and evaluated. Furthermore, Congressional reports are 
discussed regularly at several high-level management meetings, 
including the DHS Management Council, Chief Financial Officers Council, 
and Budget Officer meetings. In addition, the Department has reviewed 
and implemented strategies to streamline and improve the clearance 
process.

                       CHIEF INFORMATION OFFICER

    Question. From the fiscal year 2004 enacted budget to the fiscal 
year 2006 President's request, the CIO's budget has increased 
substantially. The President's budget for fiscal year 2006 requests 
$303.7M for this office. What safeguards has the Department put in 
place to ensure that this funding has the proper government management 
and oversight?
    Answer. The Department is using two parallel processes to ensure 
proper governance and management of its funding, the Planning, 
Programming, Budgeting, and Execution (PPBE) process, mandated by 
Management Directive (MD) 1330, and the Investment Review Process 
(IRP), mandated by MD 1400.
    The PPBE process has four steps:
  --Planning.--The Office of the CIO (OCIO) develops information 
        technology (IT) strategic plans and these plans are reviewed to 
        ensure alignment with the Department's overall strategic plan.
  --Programming.--The OCIO enters its budget year plus 4 years funding 
        requirements into the Future Years Homeland Security Program 
        (FYHSP) system for review, program evaluation, and analysis by 
        Departmental management.
  --Budgeting.--The OCIO budget is reviewed and the OCIO enters budget 
        justification information for all of its IT investments into 
        the Investment Management System (IMS) for scoring and 
        portfolio review by Departmental management.
  --Execution.--All spending plans are reviewed before and during the 
        execution year by Departmental management. Also, each 
        individual expenditure is reviewed at multiple Levels within 
        the OCIO and by Departmental management before execution, and 
        is tracked through the Federal Financial Management System 
        (FFMS) and the Procurement Request Information Management 
        System (PRISM).
    The Investment Review Process (IRP) consists of a layered review 
process, depending on the Level and life cycle phase of the investment. 
Specifically, the IRP consists of the following:
  --Investment Review Board (IRB).--The IRB provides decision authority 
        for Level 1 investments that have an acquisition cost of over 
        $100 million and IT investments with a life cycle cost of over 
        $200 million.
  --Joint Requirements Council (JRC).--The JRC provides decision 
        authority for Level 2 investments that have an acquisition cost 
        between $50 million and $100 million, and IT investments with a 
        life cycle cost between $100 million and $200 million.
  --Enterprise Architecture Board (EAB).--The EAB conducts a full 
        review of Level 3 IT investments with an acquisition cost 
        between $5 million and $50 million, and a life cycle cost 
        between $20 million and $100 million and conducts a limited 
        review of Level 4 IT investments (investments with an 
        acquisition cost below $5 million and a life cycle cost below 
        $20 million). The EAB operates within the OCIO and ensures the 
        existence of an effective IT governance process in accordance 
        with DHS architecture principles. As part of its overall 
        governance strategy, the EAB conducts milestone reviews of 
        investment initiatives to help manage architectural alignment 
        within DHS and serve as the conduit for receiving, analyzing, 
        and disseminating information. This process also supports the 
        DHS CPIC (Capital Planning and Investment Control), 
        acquisition, and budget processes, and serves to identify, 
        evaluate, select, align, and approve investments, technologies, 
        and policies for use in DHS.

                          MEETING WITH UNIONS

    Question. During your confirmation hearing on February 2, 2005, you 
testified that you would meet with the representatives of the various 
union members working in the Department. Have you met with the unions?
    Answer. Yes. In April, I met with the President of the National 
Treasury Employees Union (NTEU) and the President of the American 
Federation of Government Employees (AFGE). These are the two largest 
unions represented in DHS, and the only two with national consultation 
rights at the Department.

                      HEARINGS ON THE PATRIOT ACT

    Question. The PATRIOT Act was enacted in haste, with minimal 
debate, in a time of crisis.
    Legislation called the SAFE Act has been introduced by Senators 
Feingold, Craig, Durbin and others to modify certain provisions of the 
PATRIOT Act. While I support review of the provisions referenced in the 
SAFE Act, I would prefer that all provisions of the law be subject to 
examination in hearings held by all relevant committees of jurisdiction 
in the House and Senate. This law was never subject to substantial 
debate. In prior meetings with you, you have assured me that you would 
support hearings on the Patriot Act.
    Do you continue to support broad ranging hearings to examine, in 
depth, the provisions of the PATRIOT Act?
    Answer. The USA PATRIOT Act provides invaluable tools for 
protecting Americans from terrorist attacks while safeguarding civil 
liberties and preserving the important role of congressional and 
judicial oversight. The USA PATRIOT Act has been the subject of 
numerous hearings in the Congress. I am committed to working with 
Congress on all issues that relate to the Department, including 
matters, like the USA PATRIOT Act, that are crucial to terrorism 
prevention.

                 INFORMATION CONCERNING THE PATRIOT ACT

    Question. As you know, when the PATRIOT Act was enacted, the 
Congress included sunsets on certain surveillance powers so the 
Congress could evaluate how those powers had been used before deciding 
wether to extend them or make them permanent. Some of those provisions 
scheduled to expire at the end of this year are not controversial. 
Other provisions are controversial, and some that are not even subject 
to sunset have been criticized for infringing on the privacy rights and 
civil liberties of law-abiding American citizens.
    Are you committed to working with the Congress to ensure that we 
have the information we need from the Administration and the Department 
of Homeland Security in particular, so the Congress may make an 
informed decision about whether to renew those provisions that will 
expire at the end of this year or make other changes to the PATRIOT 
Act?
    Answer. I am committed to ensuring that the Department continues to 
provide Congress with the appropriate information it needs.

                        CONSULTING WITH CONGRESS

    Question. Attorney General Ashcroft engaged in minimal consultation 
with the Congress and members on both sides of the aisle on the PATRIOT 
Act and other key pieces of legislation considered in the wake of 9/11. 
A full draft bill, known as PATRIOT II, became public before any 
discussions with interested Members of Congress had taken place, and 
while the proposed bill was later disavowed as merely a draft, many of 
the proposals contained in it were subsequently included in other 
Administration proposals.
    Now that you have been confirmed, will you continue to consult 
closely with Congress and Members on both sides of the aisle before 
rolling out new legislative proposals to expand Federal law 
enforcement, surveillance, and other powers that might curtail 
constitutional rights and protections?
    Answer. I will continue to engage actively in the consultation 
process as we seek to offer new programs and legislative proposals.
    Question. What actions are you taking in your role as head of the 
Department of Homeland Security to ensure that such consultation 
occurs?
    Answer. I have conveyed to the DHS Senior Leadership and the 
appropriate offices within the Department of the importance of 
consulting with Congress and keeping Members informed of programs, 
policy, and operational activities within the Department. My 
expectation is that they will do so in a timely fashion.

                             SECURE FLIGHT

    Question. On March 28, 2005, the Government Accountability Office 
(GAO) released a report entitled, ``Secure Flight Development and 
Testing Under Way, but Risks Should be Managed as System Is Further 
Developed''. The GAO was mandated to do this report by the fiscal year 
2005 Homeland Security Appropriations Act. In essence, the report found 
that Secure Flight is not ready for primetime. Only one of the ten 
specific aspects of the development and implementation of Secure Flight 
has been met.
    Mr. Secretary, I want to make the skies safer for all passengers 
who fly on commercial aircraft. But I also want to ensure that those 
individuals who fly have their legitimate privacy rights and civil 
liberties protected. And I want to ensure that whatever pre-screening 
system is developed is safe from abuse by outside or unauthorized 
entities. My main concern with Secure Flight--and its predecessors--is 
that I have not yet been convinced that these protections are in place. 
Indeed, the GAO has not yet been convinced either. Four of the ten 
areas the Congress mandated the GAO review are specifically focused on 
privacy, safety and redress. The best that the GAO can say about the 
status of these items is that they are ``under way''.
    It is not yet clear that the new Secure Flight program will create 
a redress process for passengers to correct erroneous information, nor 
is it clear that it will include security measures to protect the 
system from unauthorized access.
    Over $130 million and more than 3 years have been spent to date on 
Secure Flight and its predecessors. I understand your plan is to begin 
initial testing of this program late this summer using passenger data 
from two airlines. If in April 2005 the best that can be said of the 
program is that it is ``under way'', what will be the likelihood that 
Secure Flight will truly be ``under way'' in August 2005?
    Answer. As we have stated, TSA intends to have Secure Flight 
underway later in 2005. At the request of the air carriers, TSA shifted 
its planned August launch date to September to account for the busy 
Labor Day holiday travel weekend. In addition, TSA made further 
adjustments to the implementation plan for Secure Flight to ensure that 
all regulatory and privacy documents comply with all applicable 
statutes and guidelines, as well as airline requests regarding 
technical guidance. In addition, the decision not to include commercial 
data in the initial rollout of Secure Flight caused further adjustments 
in the schedule, as did the ongoing uncertainty regarding the program's 
budget for fiscal year 2006. Under the revised implementation schedule, 
TSA expects to be in compliance with the requirement of the 
Intelligence Reform and Terrorism Prevention Act of 2004 (IRTPA) to 
implement passenger prescreening within 180 days of completion of 
testing.
    Question. Mr. Secretary, can you commit to us that Secure Flight 
will not be deployed until all ten of these areas of concern are 
addressed?
    Answer. TSA is working to meet the deadline in the IRTPA to begin 
to assume the watch list screening function from air carriers. As we 
move forward, TSA is continuing to cooperate with GAO to address the 
outstanding policy and operational items the agency is required to 
resolve under the Homeland Security Appropriations Act, 2005 (Public 
Law 108-334), prior to implementation. TSA will show that it has 
addressed those items, as well as each of the additional GAO 
recommendations in its March 2005 report, prior to deployment of the 
program.
    Question. In recent weeks, data storage systems for major companies 
which track and store commercial data on individual citizens have been 
compromised. Both ChoicePoint and LexisNexis have admitted that their 
databases have been accessed by unauthorized, outside entities--
potentially exposing hundreds of thousands of Americans to identity 
theft. I have long been concerned about the privacy implications for 
citizens by the possible use of commercial databases for passenger 
screening activities. These unauthorized intrusions by outside hackers 
and other unscrupulous individuals only serve to enhance my concerns. 
The GAO has noted that Secure Flight's system safeguards and other 
protections from unauthorized access have not yet been developed nor 
tested. However, I understand that the use of commercial databases, 
such as these, remain under consideration for the purpose of verifying 
a potential traveler's identity.
    Given these recent incidents, are you reconsidering the use of 
commercial databases?
    Answer. TSA conducted a very limited test to determine whether the 
use of commercial data could improve the effectiveness of the watch 
list comparisons undertaken in the Secure Flight program as well as to 
assist with the identification of passenger information that is 
incorrect or inaccurate.
    In the Homeland Security Appropriations Act, 2005 (Public Law 108-
334, Section 522(d)), Congress mandated that prior to commercial data 
testing, TSA would be required to develop measures to assess the impact 
of using commercial data on aviation security, and that the GAO is to 
review those measures. TSA is complying with all Congressional requests 
on this issue and the GAO will continue to evaluate TSA's development 
of performance measures throughout the test phases.
    TSA's testing of the use of commercial data is governed by privacy 
and data security protections, including strict prohibitions on the use 
of any passenger information provided by commercial data sources. TSA 
will not incorporate the use of commercial data into Secure Flight 
unless testing confirms that:
  --it enhances security;
  --it does not result in inappropriate differences in treatment of any 
        category of persons; and
  --robust data security safeguards and privacy protections can be put 
        in place to ensure that commercial entities do not gain 
        wrongful access to or use passenger personal information 
        inappropriately.
    TSA will not incorporate the use of commercial data into the Secure 
Flight program prior to the completion of testing, assessment of 
results, final approval by the Administration, and publication of a new 
System of Records Notice and Privacy Impact Assessment announcing the 
use of commercial data.
    Results of the testing, the comparisons of Passenger Name Record 
(PNR) information against names in the Terrorist Screening Database and 
the use of commercial data, will be as publicly transparent as possible 
without compromising national security. Testing and eventual 
implementation will be governed by strict privacy protections including 
passenger redress procedures, data security mechanisms, and limitations 
on use.
    Question. What can be done to ensure the security of these 
databases and the integrity of the system?
    Answer. TSA conducted a very limited test to determine whether the 
use of commercial data could improve the effectiveness of the watch 
list comparisons undertaken in the Secure Flight program as well as to 
assist with the identification of passenger information that is 
incorrect or inaccurate.
    TSA's testing of the use of commercial data is governed by privacy 
and data security protections, including strict prohibitions on the use 
of any passenger information provided by commercial data sources. TSA 
will not incorporate the use of commercial data into Secure Flight 
unless testing confirms that:
  --it enhances security;
  --it does not result in inappropriate differences in treatment of any 
        category of persons; and
  --robust data security safeguards and privacy protections can be put 
        in place to ensure that commercial entities do not gain 
        wrongful access to or use passenger personal information 
        inappropriately.
    TSA will not incorporate the use of commercial data into the Secure 
Flight program prior to the completion of testing, assessment of 
results, final approval by the Administration, and publication of a new 
System of Records Notice and Privacy Impact Assessment announcing the 
use of commercial data.
    Results of the testing, the comparisons of PNR information against 
names in the Terrorist Screening Database and the use of commercial 
data, will be as publicly transparent as possible without compromising 
national security. Testing has been governed by strict privacy 
protections including data security mechanisms, and limitations on use. 
Secure Flight has a written data control policy for this very purpose. 
All personnel who handle passenger data are required to sign a Non 
Disclosure Agreement (NDA) specific to the Secure Flight program and 
must successfully complete a privacy training course. Accountability 
for data is accomplished by assigning a control number to each disk, 
tape, or document on which the data is stored. In addition, a Chain of 
Custody process is in place to record and track data transfers by hand 
receipt. Finally, stand alone Government Furnished Equipment (GFE) has 
been identified to be used on this project. Authorization to load/
install/read any PNR data is restricted to GFE designated and 
documented to process PNR data, and none of those machines is capable 
of transmitting data outside of the facility.
    The Commercial Data Test also required the contractor to comply 
with the security requirements, regulations, and privacy protections 
for all records used, accessed, or contacted, as well as the data 
handling procedures in the Security Standard Operating Procedures and 
the Data Security and Control Policy. The contractor is required to 
comply with security requirements to maintain their Secure Facility 
Clearance.
    Finally, the Secure Flight system will be subject to certification 
and accreditation prior to achieving Authority to Operate (ATO) in 
early fall 2005. TSA and DHS Chief Information Security Officers 
require all information and system security is in working order prior 
to ATO of the initial operating capability with initial air carriers.

                     SECURE FLIGHT--MOVEMENT TO SCO

    Question. What impact will moving the operation of Secure Flight to 
the proposed Screening and Credentialing Operations office have on its 
implementation?
    Answer. We support the concept of a Screening Coordination and 
Operations (SCO) Office, and requested, through the 2SR process, 
recommendations to best meet the goals of the office. Consistent with 
the 9-11 commission recommendations, HSPD-11 and HSPD-12, the SCO 
office would support the development of a more unified, comprehensive 
and efficient system for the screening, credentialing, and redress for 
passengers, while leveraging and optimizing investments in screening 
systems and tools. The SCO would be supported by a management approach 
that would lead to harmonized IT architecture, uniform redress, and 
provision of coordinated or shared services such as card production, 
biometric/biographic databases, and global enrollment systems/processes 
that adhere to standards set by DHS with close linkage to policy 
decisions and overall information technology enterprise architectures. 
The SCO office would also ensure a consistent approach also for 
outreach in the areas of privacy, civil rights, and helping to ensure 
coordinated R&D efforts. DHS plans to set up the SCO office in fiscal 
year 2006.
    Question. Do you have concerns that further rearranging the 
organizational chart will further slow the development and operation of 
Secure Flight?
    Answer. The exact roles, responsibilities, and composition of the 
SCO are currently under review and further definition and refinement of 
the SCO concept will be developed based on that review. An 
implementation and transition plan for the SCO will also be developed 
based on that review.
    Question. If it is moved, who will actually maintain and operate 
the system--the SCO or TSA?
    Answer. The exact roles, responsibilities, and composition of the 
SCO are currently under review and further definition and refinement of 
the SCO concept will be developed based on that review.
    Question. Have you experienced any delays in receiving timely 
security information from the Terrorist Screening Center (which is run 
by the FBI) for Secure Flight or your other screening programs?
    Answer. No, TSA has not.

                       SECURE FLIGHT AND PRIVACY

    Question. Mr. Secretary, I'm concerned about reports from February 
and the end of March in which TSA officials, including a TSA 
spokesperson, declared that Secure Flight will be implemented in August 
with two airlines nationwide. That implementation would appear to 
violate the law as mandated by  522 of the fiscal year 2005 Department 
of Homeland Security Appropriations Act that prohibits the spending of 
any sums appropriated on other than a test basis for Secure Flight 
unless and until the GAO certifies to Congress that 10 criteria are 
met. Is that implementation with two airlines scheduled to end at a 
certain time so that it can be evaluated?
    Answer. TSA is proceeding with demonstrating initial operating 
capability for Secure Flight later this year. This timeframe is 
consistent with the requirements laid out in IRTPA. In addition, TSA 
intends to provide proof that each of the ten identified areas of 
concern and the six GAO recommendations have been addressed before the 
planned initial operating capability is implemented. Evaluations of the 
performance of the program with the launch carriers will be conducted 
prior to the program integrating additional airlines. A specific 
timeline is still under development to ensure that all appropriate 
evaluation takes place.
    Question. Will the passengers flying those two airlines come late 
August be able to distinguish between a test run of Secure Flight and 
the real thing?
    Answer. The passengers flying on the initial airlines will not be 
able to distinguish between the test run of Secure Flight and the 
``real thing.'' During the first phase of implementation, the carriers 
will continue their normal vetting activities and a parallel operations 
activity will be running in conjunction with TSA to confirm the 
effective processing of related data without disruption to ongoing 
business operations. Once the systems have performed in parallel for a 
period of time, and the acceptable stabilization has occurred, TSA will 
work with the carriers to ensure a smooth transition in taking over 
from them the full watch list vetting function.
    Question. Do you anticipate that the Secure Flight program will, 
when finally implemented, use private companies to aggregate data on 
passengers and perform verification checks?
    Answer. This is undetermined. TSA conducted a very limited test to 
determine whether the use of commercial data could improve the 
effectiveness of the watch list comparisons undertaken in the Secure 
Flight program as well as to assist with the identification of 
passenger information that is incorrect or inaccurate.
    In the Homeland Security Appropriations Act, 2005 (Public Law 108-
334, Section 522(d)), Congress mandated that prior to commercial data 
testing, TSA would be required to develop measures to assess the impact 
of using commercial data on aviation security, and that GAO is to 
review those measures. TSA is complying with all Congressional requests 
on this issue; GAO will continue to evaluate TSA's development of 
performance measures throughout the test phases. The limited commercial 
data testing concluded in July 2005.
    TSA's testing of the use of commercial data is governed by strict 
privacy and data security protections, including strict prohibitions on 
the use of any passenger-provided information by commercial data 
providers. TSA will not incorporate the use of commercial data into 
Secure Flight unless testing confirms that:
  --it enhances security;
  --it does not result in inappropriate differences in treatment of any 
        category of persons; and
  --robust data security safeguards and privacy protections can be put 
        in place to ensure that commercial entities do not gain 
        inappropriate access to or use passenger personal information 
        inappropriately.
    TSA will not incorporate the use of commercial data into the Secure 
Flight program prior to the completion of testing, assessment of 
results, final approval by the Administration, and publication of a new 
System of Records Notice and Privacy Impact Assessment announcing the 
use of commercial data.
    Results of the testing, both of the comparisons of PNR information 
against names in the Terrorist Screening Database and the use of 
commercial data, will be as publicly transparent as possible without 
compromising national security. Testing and eventual implementation 
will be governed by strict privacy protections including passenger 
redress procedures, data security mechanisms, and limitations on use.
    Question. How many companies could provide the data broker and data 
aggregation function to accomplish Secure Flight passenger 
verification?
    Answer. This is undetermined at this point. TSA will not 
incorporate the use of commercial data into the Secure Flight program 
prior to the completion of testing, assessment of results, final 
approval by the Administration, and publication of a new System of 
Records Notice and Privacy Impact Assessment announcing the use of 
commercial data.
    Question. Will you examine whether the private companies bidding 
for this work have had data spills, or data breaches caused by identity 
thieves?
    Answer. This is undetermined at this point. However, as with all 
contracts, TSA would set standards, establish program priorities and 
direction, establish policies, make program decisions, and monitor 
contractor performance. TSA will not incorporate the use of commercial 
data into the Secure Flight program prior to the completion of testing, 
assessment of results, final approval by the Administration, and 
publication of a new System of Records Notice and Privacy Impact 
Assessment announcing the use of commercial data.
    Question. What penalties will the Secretary impose on the company 
DHS and TSA eventually contracts with to perform passenger verification 
for Secure Flight if that company fails to properly safeguard data 
transferred as part of Secure Flight?
    Answer. This is undetermined at this point. However, as with all 
contracts, TSA would set standards, establish program priorities and 
direction, establish policies, make program decisions, and monitor 
contractor performance. TSA will not incorporate the use of commercial 
data into the Secure Flight program prior to the completion of testing, 
assessment of results, final approval by the Administration, and 
publication of a new System of Records Notice and Privacy Impact 
Assessment announcing the use of commercial data.
    Question. I am concerned about recent GAO reports that show a lack 
of progress regarding establishing a transparent, concrete and workable 
system of due process and redress for passengers wrongly selected for 
extra scrutiny who might miss a flight and those who are wrongly put on 
a no fly list.
    Mr. Secretary, please share with us what efforts you will take to 
ensure that the government's own watch lists and databases used for 
Secure Flight contain accurate information about would-be passengers.
    Answer. U.S. Government intelligence and law enforcement agencies 
collect, analyze, and evaluate data used to nominate subjects to the 
No-Fly List. Intelligence analysts and law enforcement officers within 
these organizations carefully review nominations based on the No-Fly 
List criteria and thoroughly evaluate the information during each step 
of the process. Watch List nominations often contain classified and/or 
sensitive law enforcement investigative information. Nominations that 
meet the established criteria are forwarded to the National 
Counterterrorism Center (NCTC) and the Terrorist Screening Center (TSC) 
for inclusion in the TSC Data Base (TSDB) and for addition to the No-
Fly List. Time sensitive nominations may be routed directly to the TSC 
if required.
    If it is determined that a person on the No-Fly List should no 
longer be identified as a No-Fly subject, they will be removed from the 
list. If additional intelligence data is developed or a subject has 
been interviewed by U.S. Government officials and deemed no longer a 
threat, an official request for removal must be submitted to the agency 
that placed the individual on the list. The original nominating agency 
will evaluate the data and determine whether the person stays on or is 
removed from the No-Fly List. The nominating agency will then make a 
formal request through the nomination chain requesting that the person 
be removed from the No-Fly List. In some cases, a review of the 
derogatory information associated with a No-Fly nomination may result 
in the subject being downgraded to the TSA Selectee List.
    The TSA Office of Transportation Security Redress is developing a 
redress process that will address any situation where passengers 
believe they have been unfairly or incorrectly singled out for 
additional screening under the future Secure Flight program. This 
process will also allow passengers who feel they have been erroneously 
placed on the watch lists to undergo a case review. The Office of 
Transportation Security Redress will work to ensure that passengers 
erroneously placed on the watch lists are in fact provided relief. The 
redress process will be coordinated with other DHS redress processes as 
appropriate.
    TSA has developed and implemented a clearance protocol for persons 
who are flagged for additional screening due to the similarity of their 
names to those of individuals who are appropriately on the watch lists. 
A passenger may initiate the clearance protocol by submitting a 
completed Passenger Identity Verification Form to TSA headquarters. TSA 
will review the submission and reach a determination of whether these 
procedures may aid in expediting a passenger's check-in process for a 
boarding pass. The Passenger Identify Verification Form, as well as 
other information, has been posted on TSA's public website at the 
following web address: http://www.tsa.gov/public/
display?theme=157&content=09000519800fb8af
    However, this clearance process will not remove a name from the 
watch lists. Instead, this process distinguishes legitimate passengers 
from persons who are on the watch lists by placing their names and 
identifying information in a cleared portion of the lists. This 
information is transmitted to the airlines. Following TSA-required 
identity verification procedures, airline personnel can then quickly 
determine that these passengers are not the person of interest whose 
name is actually on the watch lists.
    In addition, an individual may seek to challenge his or her 
inclusion on a watch list in a court of competent jurisdiction after 
the redress and appeals process within TSA has been exhausted.
    Question. And tell us what concrete redress policies you envision 
for passengers wrongly detained for additional screening who might miss 
a flight or those wrongly placed on a no-fly list.
    Answer. The TSA Office of Transportation Security Redress is 
developing a redress process that will address any situation where 
passengers believe they have been unfairly or incorrectly singled out 
for additional screening under the future Secure Flight program. This 
process will also allow passengers who feel they have been erroneously 
placed on the watch lists to undergo a case review. TSA will work with 
the nominating agency to review the derogatory information. The redress 
process will be coordinated with other DHS redress processes as 
appropriate.
    TSA has developed and implemented a clearance protocol for persons 
who are flagged for additional screening due the similarity of their 
names to those of individuals who are appropriately on the watch lists. 
A passenger may initiate the clearance protocol by submitting a 
completed Passenger Identity Verification Form to TSA headquarters. TSA 
will review the submission and reach a determination of whether these 
procedures may aid in expediting a passenger's check-in process for a 
boarding pass. The Passenger Identify Verification Form, as well as 
other information, has been posted on TSA's public website at the 
following web address: http://www.tsa.gov/public/
display?theme=157&content=09000519800fb8af
    It is important to keep in mind that this clearance process will 
not remove a name from the watch lists. Instead, this process 
distinguishes passengers from persons who are in fact on the watch 
lists by placing their names and identifying information in a cleared 
portion of the lists. This information is transmitted to the airlines. 
Airline personnel can then more quickly determine when implementing 
TSA-required identity verification procedures that these passengers are 
not the person of interest whose name is actually on the watch lists.
    In addition, an individual may seek to challenge his or her 
inclusion on a watch list in a court of competent jurisdiction, after 
the redress and appeals process within TSA has been exhausted.

         US VISIT: WHEN WILL WE HAVE A REAL ``EXIT'' COMPONENT?

    Question. The former DHS Under Secretary, Asa Hutchison, announced 
with great fanfare meeting the December 31, 2004 deadline to have the 
foreign visitor visa entry-exit system, known as US VISIT, up and 
running at the 50 largest land-border ports of entry. This is a 
positive accomplishment and I am pleased that the Department has taken 
seriously our mutual interest in knowing who is entering this country 
and in keeping out those who should not be allowed entrance.
    However, I remain concerned that very few taxpayers know that while 
we may know who is entering the United States at our airports, 
seaports, and some land border ports, we continue NOT to know who is 
exiting the United States. That's right--there is almost no ``exit' 
component to the US VISIT system--a system which used to be called 
``entry-exit''. We have spent hundreds of millions of dollars on this 
system--and another $390 million is requested for US VISIT in the 
President's fiscal year 2006 budget, and yet we still are not able to 
capture data on which visitors are exiting the country.
    How can we know if someone has overstayed their permitted time in 
this country if we do not know that they have left?
    Answer. US VISIT is exploring different departure confirmation 
alternatives where biometrics are collected on exit, in addition to the 
biographic information, at 12 air and 2 sea port pilot locations. After 
evaluating these exit procedures, DHS will select the most effective 
process(es) and technologies to implement at airports and seaports 
nation-wide.
    Currently the US VISIT system collects both biographic and 
biometric data on eligible (nonimmigrant) alien arrivals and departures 
and stores the data in the Arrival Departure Information System (ADIS).
  --Biographic data is primarily collected through the submission of 
        passenger manifests by the transportation carriers, with 
        additional arrival and departure information collected by 
        officers at U.S. ports-of-entry.
  --Biometric data (digital fingerscans and photographs) are collected 
        at consular posts during visa interviews, at U.S. air and sea 
        ports-of-entry during admission, and at a limited number of 
        pilot locations at air and sea ports during departure.
  --US VISIT analyzes the data in ADIS to prepare the Annual Report on 
        Integrated Entry and Exit Data System, as required by the Data 
        Management Improvement Act of 2000 (Public Law 106-215) and the 
        Visa Waiver Permanent Program Act (Public Law 106-396). The 
        report is due on December 31 each year. The report for 2004 was 
        transmitted to the Hill on August 19, 2005.
  --During the last 3 months of the reporting period ending in 
        September 2004, the system consistently matched 90 percent of 
        exit records to entry records using biometrics due to the 
        increased number of visitors enrolled in US VISIT at the time 
        of admission. The system successfully matched approximately 10 
        percent more exit records than when using biographic data 
        alone.
  --US VISIT then analyzes those remaining records to determine if 
        stays were legally extended, there were approved changes in 
        status, or information existing in other systems that would 
        indicate that the individual did not overstay.
  --Once US VISIT reviews all the information, those who are 
        ``confirmed overstays'' are referred to ICE's Compliance 
        Enforcement Unit for further vetting. Based on the outcome of 
        its analysis, ICE may refer unresolved cases to the field for 
        investigation. From January 2004 through August 2005, ICE has 
        arrested almost 70 individuals based on overstay information 
        provided by US VISIT.
  --DHS also will leverage new technology in the land environment to 
        capture information about and departures. Our first proof of 
        concept using this new technology, radio frequency 
        identification (RFID), began August 4, 2005, at three land 
        border ports of entry along the Northern and two along the 
        Southern borders. This technology can detect a visitor at a 
        distance and provide primary inspection officers with entry 
        information as well as provide a mechanism for an accurate and 
        timely record of exits. The proof of concept testing at the 
        ports of Nogales East and Nogales West in Arizona, Alexandria 
        Bay in New York, and the Pacific Highway and Peace Arch in 
        Washington will continue through 2006.
    Question. What are the threats from not knowing who left?
    Answer. These threats are difficult to measure. Where we develop a 
lead that someone is associated with a terrorist group after that 
person has entered the country ICE coordinates its investigative 
activity with necessary entities to take appropriate action. In 
addition, one of the purposes of the Immigration and Nationality Act 
(INA) is to exclude and remove criminals, terrorists, drug traffickers, 
and those who would work and live in United States illegally, from the 
United States. Individuals who overstay their visas contribute to the 
denigration of the integrity of our immigration system--that is why US 
VISIT works with ICE to locate and apprehend these immigration 
violators.
    Question. When will we have a robust ``exit'' capability at our 
airports and at our land borders?
    Answer. US VISIT is exploring different biometric departure 
confirmation alternatives at 12 airports and two seaports. The exit 
pilots require foreign visitors to check out at an exit station or with 
a US VISIT exit attendant at the departure gate at the port. After 
evaluating these exit procedures, DHS will select the most effective 
process(es) and technologies to implement at airports and seaports 
nationwide.
    Question. How much more will this cost and when will this system be 
completed?
    Answer. The fiscal year 2005 investment includes resources to 
modernize our immigration and border management systems and provide 
greater interoperability for immigration and border management data. In 
fiscal year 2005, we will increase interoperability technology and 
introduce basic common service-oriented architecture functionality to 
enable delivery of expanded person-centric view capabilities. We are 
currently developing the business requirements for the first phase of 
this strategy.
    The fiscal year 2006 request includes resources to improve our 
immigration and border managements systems, as well as the continued 
deployment of US VISIT at our land borders. The fiscal year 2006 
request includes operation and maintenance of current and 2005 
investments, including: initial implementation of the entry and exit 
solution at air, sea and land ports of entry (POEs); implementation and 
integration of border technology to the busiest land POEs; and 
deployment of biometric travel document readers at air, sea, and land 
POEs.

                                US VISIT

    Question. In the Immigration and Customs Enforcement (ICE) 
reprogramming request submitted to Congress on March 11, 2005, the 
Department offered up as a ``bill payer'' a portion of the US VISIT 
``management reserve.'' The US VISIT program office had vociferously 
advocated for this reserve. The Department suggested that this reserve 
could be reduced by $17 million to meet the ICE funding shortfalls 
which had been known by the Department for sometime.
    Does this mean that the US VISIT management reserve is a lower 
priority to the Department? Will we see this reflected in the next US 
VISIT spend plan we expect to see regarding the fiscal year 2006 funds?
    Answer. All components within DHS were asked to review their 
budgets to determine if they could help address ICE funding needs. 
Management reserve within US VISIT exists to address unforeseen funding 
issues as they arise. This helps reduce program risk. Because of the 
nature of the purpose of management reserve, it is difficult to 
determine with certainty how much is needed in any given year. To 
reduce programmatic risk on ICE programs, it was appropriate to propose 
to accept temporary higher risk for US VISIT. However, a normal level 
of management reserve must be an integral part of the program into the 
future.
    The recently enacted fiscal year 2005 supplemental for ICE 
eliminated the need to reprogram funding from US VISIT for this 
purpose.

                      TWIC PROGRAM--WHY THE DELAY?

    Question. During his confirmation hearing before the Senate 
Homeland Security and Governmental Affairs Committee on March 8, 2005, 
then Deputy Secretary-nominee, Michael Jackson, said he did not 
understand why it was taking so long to get the Transportation Worker 
Identification Credential (TWIC) program up and running. He said, 
``It's not rocket science.'' A number of states, notably Florida, have 
already moved forward with their own credentialing programs for their 
State workers. Mr. Secretary, if this program is not ``rocket 
science'', what is causing the delay? Congress has provided upwards of 
$65 million towards the program, pilot projects are underway, and 
thousands of workers are waiting. Why the delay? Is this delay the 
result of resource-constraints, policy decisions, privacy protections 
(or lack of clarification of privacy protections) decisions, some 
combination all of these, or something else?
    Answer. TSA acknowledges that the TWIC prototype has proceeded 
slower than expected. Technical and contractual issues have delayed 
rollout of the final TWIC card model and installation of final version 
biometric access control readers. Those issues are now solved. 
Enrollments and card production are ramping up at East and West Coast 
sites. The Florida rollout has been slowed as the State of Florida's 
team worked to resolve issues unique to Florida due to the need to 
comply fully with the Florida Uniform Port Access Credential (FUPAC) 
Act. Working with both State personnel and the prototype contractor the 
program has been successful in addressing and solving these problems. 
The ability to discover and resolve problems during the prototype phase 
rather than during implementation has been a welcome and valuable 
result and will benefit the program as it moves forward.
    The TWIC Program achieved initial operating capability (IOC) for 
each region on November 17, 2004. IOC was defined as having functional 
enrollment capability and at least one operational TWIC reader at one 
or more sites within the region. Presently, TWIC is in Phase III-
Prototype whereby TSA is evaluating a full range of business processes, 
policies and requirements for an end-to-end solution that includes 
sponsorship, claimed identity verification, criminal history records 
checks (in the State of FL only) and card production, personalization, 
and issuance as well as revocation. Once Phase III-Prototype is 
complete, TSA will conduct further analysis and make recommendations 
regarding the nature and scope of Phase IV-Implementation.

                 EXPEDITED TRAVELER EXPANDING OVERSEAS

    Question. The Department announced the creation of pilot expedited 
traveler program at Schipol Airport in Amsterdam, yet there has been no 
decision made on expanding or making permanent the limited pilot tests 
of the Registered Traveler program here in the United States. Why is 
there a delay with expanding the domestic Registered Traveler program?
    Answer. While both programs enhance the security of civilian 
aviation, the two programs serve different purposes. The International 
Register Traveler Program is intended to enhance the already-existing 
requirement that CBP inspect and interview travelers seeking to enter 
the United States, and the program enhances CBP's ability to make 
admissibility decisions by separating out low-risk travelers. It builds 
on legacy trusted traveler programs--e.g., SENTRI, NEXUS, FAST, INS 
PASS. The domestic registered traveler program, by contrast, is a pilot 
program to improve the aviation security screening process by helping 
TSA align screeners and resources with potential risks.
    Through a series of concurrent stand-alone pilots, TSA has been 
aggressively testing the Registered Traveler (RT) concept of running 
threat assessment and identity verification checks on eligible 
volunteers in order to provide them with an expedited clearance through 
security checkpoints. TSA is currently running pilot programs at five 
Federally managed sites (Minneapolis, Los Angeles, Houston, Boston, and 
Washington, D.C.), which are scheduled to be completed in September 
2005. TSA has also worked with the Greater Orlando Aviation Authority 
(GOAA) to launch a pilot at Orlando International Airport that is 
assessing the feasibility of incorporating a private sector component 
into the RT concept.
    Results of these pilots will be analyzed to determine the program's 
effect on security and service, enabling the Department to make 
decisions about full scale implementation of RT. Any timeline and 
deployment schedule for implementing RT beyond the pilot stage will be 
linked to the Department's decision.
    Question. If we're not sure the domestic program is going to work--
or how exactly it should be structured--why are you starting an 
international version at this time?
    Answer. While both programs enhance the security of civilian 
aviation, the two programs serve different purposes. The International 
Register Traveler Program is intended to enhance the already-existing 
requirement that CBP inspect and interview travelers seeking to enter 
the United States, and the program enhances CBP's ability to make 
admissibility decisions by separating out low-risk travelers. It builds 
on legacy trusted traveler programs--e.g., SENTRI, NEXUS, FAST, INS 
PASS. The domestic registered traveler program, by contrast, is a pilot 
program to improve the aviation security screening process by helping 
TSA align screeners and resources with potential risks.
    Through a series of concurrent stand-alone pilots, TSA has been 
aggressively testing the Registered Traveler (RT) concept of running 
threat assessment and identity verification checks on eligible 
volunteers in order to provide them with an expedited clearance through 
security checkpoints. TSA has run pilot programs at five Federally 
managed sites (Minneapolis, Los Angeles, Houston, Boston, and 
Washington, D.C.), which are scheduled to be completed in September 
2005. TSA has also worked with the Greater Orlando Aviation Authority 
(GOAA) to launch a pilot at Orlando International Airport that is 
assessing the feasibility of incorporating a private sector component 
into the RT concept.
    Results of these pilots are being analyzed to determine the 
program's effect on security and service, enabling the Department to 
make decisions about full scale implementation of RT. Any timeline and 
deployment schedule for implementing RT beyond the pilot stage will be 
linked to the Department's decision.

                  LACK OF FUNDING FOR BORDER SECURITY

    Question. During the hearing, you stated that the President's 
budget for fiscal year 2006 both hires 210 new Border Patrol agents, 
hires more immigration investigators and provides 1,920 new detention 
bed spaces and, at the same time, provides sufficient funds to backfill 
and hire the positions that were lost during the current fiscal year.
    Are you guaranteeing that the budget request hires both all fiscal 
year 2005 attrited Border Patrol positions and 210 new Border Patrol 
agents?
    Answer. The fiscal year 2005 Emergency Supplemental provides 
funding for 500 additional Border Patrol agents. CBP has until the end 
of fiscal year 2006 to fill these positions. However, CBP plans to hire 
these positions aggressively. For fiscal year 2005, CBP will backfill 
its fiscal year 2005 attrited positions and hire approximately 400 (of 
the 500) additional agents.
    For fiscal year 2006, the President's Budget requests 210 
additional Border Patrol agents. Both House and Senate Appropriations 
bills add 790 Border Patrol agents on top of this (for a total of 
1,000). If enacted, CBP would hire these positions and backfill 
estimated attrition (approximately 600 positions).
    With that said, the total impact of the fiscal year 2005 
Supplemental and the anticipated fiscal year 2006 budget will result in 
1,500 new Border Patrol agents by the end of fiscal year 2006. CBP will 
also hire for the backfill of attrition. CBP has the capacity to hire 
and train this level.
    With respect to ICE, the fiscal year 2006 President's Budget, when 
combined with projected carryover balances from the fiscal year 2005 
Emergency Supplemental, contains sufficient funding to support 376 
fiscal year 2005 attrition hires. In addition, the fiscal year 2006 
President's Budget includes an increase of $90 million to support 1,920 
beds.
    Question. And at what point in fiscal year 2006 will the Border 
Patrol have hired and trained the same staffing level at the start of 
fiscal year 2005 positions, plus the 210 new agents?
    Answer. CBP ended fiscal year 2004 with 10,817 Border Patrol (BP) 
agents. For fiscal year 2005, CBP plans to maintain that staffing level 
as well as beginning to add the 500 new agent positions provided in the 
fiscal year 2005 supplemental. For fiscal year 2006, CBP plans to add 
the 210 new agents in the President's Budget and replace all attrition 
positions. Hiring for the additional BP agents is a high priority.

                            BORDER SECURITY

    Question. The Heritage Foundation's December 13, 2004 report 
recommends that the Department ``conduct a national assessment of the 
resources required for effective border security.'' Is this 
recommendation a part of your comprehensive review of the Department 
and its priorities?
    Answer. The Department has been working aggressively outside of the 
Second Stage Review process to assess our long-term border needs, 
including the resources needed to secure substantial improvement in 
control of our borders. Complimentary Second Stage Review efforts 
examined needs in such areas as cargo security and passenger screening. 
The Department also is developing a plan for an independent, outside 
entity to examine border resource needs. All of our efforts will 
coalesce into the development of a long-term border security and 
immigration reform plan.

            IMPACT OF REAL ID ON BACKLOG REDUCTION/WORKLOAD

    Question. The House attached Rep. Sensenbrenner's REAL ID 
immigration bill (H.R. 418) to the Emergency Iraqi War Supplemental. 
This bill includes many of the provisions in the original House draft 
of the Intelligence Reform and Terrorism Prevention Act.
    Unlike some rhetorical Bush Administration amnesty, the specifics 
of this legislation are known. The Administration supports the REAL ID 
legislation.
    If the conferees decide to include the provisions of this bill in 
the Supplemental, what impact would it have on Citizenship and 
Immigration Service's abilities to meet its backlog reduction goals and 
what resources would be required to implement the Act?
    Answer. Based upon our review, the Real ID legislation should have 
no impact on the backlog elimination plan. The additional fee revenues 
as a result of this legislation ensure the timely processing of these 
cases.
    The verification and adjudications functions of USCIS are 
organizationally separate. The verification workload is handled by 
Immigration Status Verifiers (ISVs) in the USCIS Records program, who 
are dedicated and specially trained for that function. USCIS does not 
intend to divert adjudications resources to implement the REAL ID Act. 
Therefore, backlog elimination goals will not be impacted.

                            PASSPORT PRIVACY

    Question. As the State Department is looking into the issue of 
possibly embedding personal data in the next generation of U.S. 
passports, what if any discussion has the Department's Privacy Officer 
had with State Department officials about the protection of the privacy 
of U.S. citizens?
    Answer. The Chief Privacy Officer for DHS has a very good working 
relationship with officials from the Department of State on matters of 
mutual concern, including lost and stolen passports and appropriate 
privacy notices for international travelers. While the Privacy Officer 
has made her views known to the State Department on numerous privacy 
matters, the precise question of how to protect personal information in 
the next generation of U.S. passports is one that is being worked on 
primarily by the Department of State, which has the lead authority for 
matters pertaining to passports. Of course, the DHS Chief Privacy 
Officer will work collaboratively with the State Department to ensure 
that implementation of any decisions protect the privacy of U.S. 
citizen's information.

                        CARGO CONTAINER SECURITY

    Question. The conference report accompanying the fiscal year 2005 
Appropriations Act notes that over $200 million has been spent over the 
past 3 years on various projects designed to secure cargo containers 
entering this country. It also calls on the Under Secretary for Border 
and Transportation Security to report to the Congress no later than 
February 8, 2005 on which DHS entity will have primary responsibility 
for cargo container security and the setting of shipping industry 
standards. To date we have not yet received that report. When can we 
expect to see it?
    Answer. This report was submitted to Congress on May 31, 2005.
    Question. Are funds included in the President's budget request to 
achieve this goal?
    Answer. The President's fiscal year 2006 Budget includes $138 
million for the Container Security Program.

                  SUPPLY CHAIN AND CONTAINER SECURITY

    Question. We received part one of the Supply Chain and Container 
Security report required by House Report 108-541. It states that the 
Container Security Initiative Division in headquarters ``is staffed 
with a majority of CBP employees and a small number of ICE Special 
Agents.
    Please provide the total number of the CSI Division headquarters 
staff and the number of those who are ICE Special Agents. Also, at 
which--if any--of the overseas CSI ports do we have both an ICE and a 
CBP attache?
    Answer. The Container Security Initiative (CSI) Division 
headquarters staff consists of 52 full time employees, four of which 
are ICE Special Agents. At this time, there are no CSI ports with both 
an ICE and a CBP Attache.

                          MERGING CBP AND ICE

    Question. You currently are conducting a ``top to bottom'' review 
of the Department, its structure, and its operations. Recent reports, 
including a December 13, 2004 Heritage Foundation report, bemoan the 
artificial division of Customs and immigration inspectors from Customs 
and immigration agents and recommend that CBP and ICE be merged. What 
is the status of the Department's discussion on these recommendations? 
When will the Congress learn of your intentions, if any, in this 
regard?
    Answer. We are not merging ICE and CBP; however, we do see the need 
to ensure that these organizations coordinate better. We will continue 
to work closely with the leaders of ICE and CBP to improve cooperation 
and coordination between these agencies. In deciding to not merge the 
two agencies, we considered view points from a variety of sources, 
including think tanks, as well as the Department's Inspector General, 
Members of Congress, and other valuable stakeholders.
    As you know, the Department looked at a variety of organizational 
issues as part of the Second-Stage Review process, which helped clarify 
where the Department needs to be organizationally to ensure effective 
implementation of our critical missions. We considered whether ICE 
should remain a stand-alone entity, and decided that it should. We 
believe it's in the Department's best near and long-term interest that 
ICE not be merged with another component, CBP in particular. To reach 
this decision, we focused on the operational mission needs of both CBP 
and ICE, not on the near-term management challenges. I take seriously 
the challenges the Department has faced concerning ICE and appreciate 
the difficult but necessary choices Congress has made in providing new 
funding to address its needs. I am confident, however, that ICE has 
made substantial improvements in financial management this year. Not 
only have substantial new resources been provided, but a new management 
team is taking shape.

                              IDENT/IAFIS

    Question. The integration of the fingerprint databases created, 
maintained, and used by the Department of Homeland Security and the 
FBI--among other Federal agencies--continues to be a priority concern 
for the Congress and the members of this Subcommittee. Border Patrol 
agents daily compare the fingerprints of illegal aliens apprehended at 
our borders against these databases. And Customs and Border Protection 
inspectors--at a growing number of ports of entry--compare the 
fingerprints of visa holders and others wishing to enter this country 
against these same databases via the US VISIT system.
    That is why I was concerned about the latest Department of Justice 
Inspector General report on this subject. It stated that of the 118,000 
visitors daily entering this country who are subject to US VISIT, an 
average of about 22,350 individuals are referred for secondary 
inspection.
    According to DHS, by the end of this fiscal year, it expects to 
directly check only about 800 individuals each day against the full FBI 
fingerprint database known as the IAFIS Criminal Master File. This is 
just 0.7 percent of the 118,000 daily visitors. The vast majority of 
the visitors, 99.3 percent, will be checked only against the US VISIT 
watch list. These persons will not be checked directly against the full 
IAFIS Criminal Master File. Why is that the case? Why are so few people 
being run against these valuable investigative tools?
    Answer. The Department continues to work closely with the 
Department of Justice to improve the integration and interoperability 
of our fingerprint databases and we have established an integrated 
project team. Currently, the FBI updates DHS' records with information 
from a variety of criminal and threat-related databases. Based on 
updates to the US VISIT system during the time period between January 
2004 and the end of August 2005, officers have taken adverse action 
against more than 800 individuals during US VISIT processing on entry. 
In addition, integrated DHS Automated Biometric Identification System 
(IDENT) and FBI Integrated Automated Fingerprint Identification System 
(IAFIS) workstations will be deployed to all POEs with significant 
passenger volume, as well as to ICE locations by the end of calendar 
year 2005. A report, describing plans for interoperability, was 
submitted to Congress on August 18, 2005.
    On July 13, 2005, I announced a decision that first-time visitors 
to the United States will be enrolled in the program by submitting ten 
fingerscans--a key step to achieving interoperability between IDENT/
IAFIS. We have worked with the Departments of State and Justice to 
develop an implementation plan for the Initial Transition to 10 Print 
Plan which addresses interoperability as well as migration to 10 
fingerscans. In addition, the capability to capture 10 fingerscans will 
allow us to increase accuracy for matching individuals against watch 
lists and previous enrollment records; improve DHS's ability to match 
enrollees against latent prints; and allow DHS to focus more time and 
attention on individuals who might be potential risks to the country.
    Question. The Conference Report accompanying the fiscal year 2005 
Homeland Security Appropriations Act directs the Department to fund the 
full cost associated to achieve real time interoperability with the US 
VISIT system. Yet there does not appear to be any funding in the budget 
to either establish real time interoperability of the DHS and Justice 
fingerprint databases, or an expansion of the current DHS system of 
capturing 2-fingerprints versus movement towards a 10-print system.
    Why is there no specific funding in the budget to improve the 
interoperability of IDENT/IAFIS and US VISIT?
    Answer. On July 13, 2005, I announced a decision that visitors to 
the United States will be enrolled in the US VISIT program by 
submitting 10 fingerscans. DHS is working with the Departments of State 
and Justice to develop an implementation plan that will address 
interoperability as well as migration to 10 fingerscans and cost 
estimates.
    There are several different ongoing efforts to bring about 
interoperability between the IDENT/IAFIS systems. Integrated IDENT/
IAFIS capabilities were deployed to all Border Patrol stations ahead of 
schedule in fiscal year 2004 and additional deployment to all POEs with 
significant passenger volume and ICE offices will be completed by the 
end of calendar year 2005. The US VISIT program will use $9.3 million 
of fiscal year 2005 resources to complete the deployment of IDENT/IAFIS 
access configuration at 115 airports, 15 seaports, and 165 land border 
POEs, as well as to specific ICE locations.
    The fiscal year 2006 budget request includes resources for improved 
interoperability and the integrated project team will develop cost 
estimates for primary integration and development associated with 
IDENT/IAFIS interoperability as it develops its plan.

                        IDENT/IAFIS INTEGRATION

    Question. In the Department's ``2004 Year End Review'', it is noted 
that the Integrated Automated Fingerprint System (IAFIS) was 
operational at all Border Patrol stations 3 months ahead of schedule. 
This is a positive first step. However, nowhere in the report does the 
Department discuss the progress at fully integrating the IAFIS and 
IDENT fingerprint databases. The statement of managers accompanying the 
conference report on the fiscal year 2005 Appropriations Act discusses 
at length the strong congressional interest having these databases 
fully integrated. In fact, this was a topic that generated much 
bipartisan discussion during one of our hearings last year. Chairman 
Gregg again stressed its importance during our hearing with you this 
year.
    Integration has also been the subject of at least three Department 
of Justice inspector general reports.
    Who in the Department has the lead on this subject?
    Answer. The US VISIT Program, working closely with DHS components 
such as CBP and ICE, and the Departments of Justice and State, leads 
the efforts for full IDENT/IAFIS interoperability within the 
Department.
    Question. What is the timeline for accomplishing this integration 
and how much will it cost?
    Answer. DHS (US VISIT) and FBI/CJIS have established an IPT to 
address the policy, business requirements, and technical aspects of 
integrating IDENT and IAFIS. This IPT has made significant progress in 
resolving many of the long-standing issues originally referenced by the 
DOJ Office of the Inspector General. A report, describing plans for 
interoperability, was submitted to Congress on August 18, 2005.
    Question. Are sufficient/any funds included in the President's 
budget request for this activity?
    Answer. The Departments of Homeland Security and Justice will 
develop future budgets to support any necessary level of funding for 
IDENT/IAFIS interoperability.

                    VEHICLE FLEET MANAGEMENT REPORT

    Question. Senate Report 108-280 required the submission by February 
8, 2005 of a vehicle fleet management report. That report has yet to be 
submitted. It is difficult for the Congress to provide funds for new 
and replacement vehicles when we have little confidence that decisions 
to purchase these vehicles are being made in a methodical and reasoned 
manner. When can we expect to receive this overdue report? Also, please 
break out by type/category of vehicle the funds requested in the budget 
for new and replacement vehicles for the various CBP entities.
    Answer. The requested report is now being reviewed and will be 
submitted to Congress as soon as possible. The type and number of 
vehicles to be purchased will be based on the operational priorities of 
the Border Patrol in fiscal year 2006.

                      AMO FLEET MODERNIZATION PLAN

    Question. House Report 108-541 required submission of a report on 
the costs and benefits associated with a service life extension program 
of the P-3 Orion aircraft 30 days after enactment of the act. To date 
we have not received this report. Please provide us with this report as 
well as the status of Air and Marine Operations long-term procurement 
plan for new and replacement air and marine assets, including P-3.
    Answer. A technical and operational review of responses received in 
reply to the CBP Request for Information (RFI) issued on February 28, 
2005, has been completed. This review concluded that while there are 
viable alternatives to either replace or remanufacture the CBP/AMO P-3 
fleet, this effort should be part of a formal acquisition process 
associated with CBP/AMO's overall modernization initiative. CBP's long-
term modernization plan will be developed as a component of the CBP air 
asset integration study to be completed in the summer of fiscal year 
2005.

                     APHIS--FOOD SAFETY INSPECTORS

    Question. Since the announcement of the creation of the Department, 
I have been concerned that ``core'' missions of the various legacy 
agencies would get lost because of the new Department's primary focus 
on homeland security. One area of concern is agriculture inspection 
operations at our borders.
    Border inspection responsibilities, including 2,500 frontline 
inspectors, were transferred from the Animal and Plant Health 
Inspection Service (APHIS) to DHS in March of 2003.
    According to a recent U.S. Department of Agriculture Inspector 
General report, APHIS could not assure that the DHS process for 
agriculture inspection operations contains adequate controls to 
safeguard U.S. Agriculture against entry of foreign pests and disease. 
It also noted that there was a reported 32 percent drop in the number 
of pest inspections following the transfer to DHS. What is the 
Department doing to correct this?
    Answer. The effort to bring up the number of CBP agricultural 
specialists to the level transferred from APHIS is a priority and CBP 
has made significant progress. According to the Determination Order 
that actually transferred personnel from APHIS, 1,872 agricultural 
specialists including canine were sent to DHS CBP. Of these positions, 
316 were vacancies. In fiscal year 2005, the hiring of additional 
Agriculture Specialists is a priority. The USDA Professional 
Development Center (PDC), the APHIS entity responsible for training new 
CBP agricultural specialists, has scheduled 20 classes from May 2004 
through February 2006. Seven classes have graduated as of April 22, 
2005, with 203 graduates deployed to 62 POEs. It is projected that CBP 
will have 500 graduates by February 2006.
    In addition to training more agricultural specialists, under CBP's 
``One Face at the Border'' initiative, all CBP Officers at the POEs are 
used to perform the vast number of functions that CBP is charged with 
carrying out. In terms of agricultural inspections, CBP officers are 
being cross-trained, learning basic agriculture procedures for the land 
border, mail, cargo, maritime, and air passenger pathways to increase 
the value of referrals and supplement the work of the Agriculture 
specialists.
    CBP has noticed that several positive developments have resulted in 
a greater level of compliance in agricultural importations. Offshore 
mitigation strategies by APHIS to minimize the number of pests even 
reaching the United States are working. CBP, in conjunction with APHIS, 
has entered into several programs, such as a targeted program for 
imported cut flowers that decreased the number of inspections because 
the scientific data indicates that such commodities pose a much lower 
risk to American agriculture. During the same period, interceptions of 
prohibited animal by-products went up by 26 percent and prohibited meat 
and poultry by 6 percent.
    In summary, as the vacancies are filled with newly trained 
specialists, CBP will create a sufficient workforce of agricultural 
specialists to target and intercept prohibited material, and report all 
insects found in CBP seizures. When this occurs, the interception rate 
will more precisely reflect the true level of CBP efforts. CBP has 
asked USDA to supply additional insect pest detection training at POEs 
based on the specific pest pathways of concern.
    Question. Is the Department working with APHIS to establish a 
method to coordinate information regarding inspections?
    Answer. DHS-CBP has been working with and coordinating with USDA-
APHIS in numerous ways to synchronize and verify information and data 
collected about inspections. The following are some of the ways CBP and 
APHIS have worked together.
Joint Quality Assurance (QA) Program
  --CBP and APHIS have formed a joint QA team and began conducting port 
        reviews together.
  --QA reviews will assist the Directors, Field Operations and improve 
        our credibility among agricultural stakeholders.
  --CBP's Agricultural Inspections Policy and Programs (AIPP) conducted 
        successful Joint APHIS QA reviews at the Port of Philadelphia, 
        December 7 and 8, 2004, and the Port of Miami, April 18-22, 
        2005.
  --Plans and dates are being developed to conduct Joint QA reviews 
        once a month for the remainder of fiscal year 2005.
  --The QA team produces recommendations that are conveyed to CBP 
        management for consideration and action.
Creation of selectivity criteria and rule sets for agricultural 
        targeting
  --CBP AIPP and APHIS are working together to develop rule sets for 
        targeting and prevention of Agro/Bio Terrorism.
  --Plans are in place to hire two CBP Agriculture Specialists to be 
        assigned to the National Targeting Center (NTC).
  --CBP assisted APHIS in the placement of one employee at the NTC to 
        target and help prevent Agro/Bio Terrorism.
  --CBP has engaged and included APHIS in discussions about developing 
        selectivity criteria for agricultural products.
USDA access to CBP databases
  --CBP has been instrumental in negotiating an agreement with USDA to 
        share data and databases between the agencies.
  --CBP has granted access for certain USDA offices to relevant CBP 
        databases.
  --The combination of USDA databases and CBP databases and electronic 
        systems will add to our capability to measure agricultural risk 
        worldwide, target, develop new rule sets, and build CBP's 
        expertise and capacity for early threat detection.
Communications within CBP
  --CBP is making efforts to redesign and improve the Agriculture 
        Inspection section of the cbp.gov website to be an effective 
        means of communication within CBP.
  --The intranet site, cbp.net, is being redesigned to highlight joint 
        actions and important efforts with USDA/APHIS.
  --CBP uses a system of alerts and musters as well as other CBP 
        systems to notify the ports of issues of immediate concern.
Joint Operations with USDA--Measurement Driven Special Operations 
        (MDSO)
  --Fifty joint MDSO's are proposed for the remainder of fiscal year 
        2005.
Management Inspection Division (MID)
  --CBP used the MID to establish audit protocols that target mission 
        critical agriculture functions.
  --Planning inspections at JFK, Miami, Los Angles and Newark 
        International Airports: International Mail, Pest Interceptions 
        (Cargo), Pest Interceptions (PAX), Cargo Control (Agriculture), 
        Agriculture Quarantine Inspection Monitoring (AQIM).
  --Proposed MID Inspections at Port Elizabeth, Baltimore, and Buffalo: 
        AQIM.
  --Proposed MID Inspections Nogales, El Paso, Blaine, and Puerto Rico: 
        AQIM.
Self-Inspection Reporting System (SIRS)
  --CBP AIPP also uses the SIRS to monitor the agricultural program and 
        to identify areas for improvement.
  --CBP AIPP has developed self-inspection worksheets based on Office 
        of Field Operations (AIPP) policies based on USDA regulations, 
        rules, policies, and needs.
  --For example, worksheets target Data Management, Cargo Control, Pest 
        Exclusion, International Mail, and Clearance of Conveyances.
    Question. The report claims that the Department has denied APHIS 
access to port locations when access was requested, even to perform 
duties for which APHIS still has regulatory responsibility. Is this 
true and, if so, why was this access denied?
    Answer. CBP and USDA-APHIS have forged a new working relationship 
and resolved many of the earlier port access issues. CBP and USDA 
employees are working together cooperatively and sharing resources. CBP 
has worked with USDA to achieve the appropriate level of access to the 
POEs for their personnel. As Congress has provided, the inspectional 
functions were transferred from USDA to CBP. CBP has set forth 
procedures that have facilitated USDA gaining access to the ports to 
perform their functions.
    CBP and USDA-APHIS signed in February 2005 Appendix 8 to Article 8 
of the Memorandum of Agreement (MOA) between DHS and the USDA. The MOA 
establishes and enhances coordinated actions and operations between the 
two agencies and responds to many of the issues raised in the OIG 
report.
    Question. The report also states that APHIS and the Food Safety and 
Inspection Service (FSIS) do not require DHS to notify FSIS of all 
incoming shipments, which could allow the shipments to bypass FSIS re-
inspection. Is this correct and, if so, why?
    Answer. DHS and USDA are currently developing a MOA to address the 
data needs of the Food Safety and Inspection Service (FSIS) as well as 
other USDA agencies.
    In conjunction with FSIS, CBP has developed rule sets within our 
targeting systems to assist with the notification process. CBP and FSIS 
meet once a week to discuss food safety issues and FSIS has assigned an 
employee to work at CBP 2 days a week as a liaison. CBP is working very 
closely with FSIS to make sure that they are properly notified about 
arriving meat shipments. USDA and FSIS are also working together to 
update USDA manuals that would require notification of such shipments 
to FSIS.
    Question. Has the Department provided adequate data on staffing 
levels and deployment of agriculture inspectors to APHIS for 
evaluation?
    Answer. We are unaware of any formal APHIS request for such 
information nor what type of evaluation is contemplated by the 
question. However, CBP shares data concerning staffing levels and 
deployment of CBP agriculture inspection personnel with APHIS regarding 
training needs for newly hired CBP agriculture specialists in 
cooperation with CBP and is thus aware of the numbers of new hires.
    CBP and APHIS also conduct joint QA port reviews that explore 
staffing as a standard element. APHIS has identifiers and other 
personnel at the ports that can verify the staffing levels.

                      PULSED FAST NEUTRON ANALYSIS

    Question. On April 13, 2005, my staff received a report regarding 
the PFNA program called for by House Report 108-280. This overdue, four 
paragraph report stated that the contractor testing of this program, 
which was supposed to have begun in June 2004, been completed by 
October 2004, with a report issued by December 2004, has ``set a firm 
date of April 18, 2005, for the test to begin.'' That date has now 
passed. Did the test start on April 18, 2005? If not, when did or will 
the test begin? Can you confirm that ``the testing will be completed by 
August 19, 2005, and (that) the test report should reach Congress by 
November 2005''?
    Answer. The operational evaluation of the Pulsed Fast Neutron 
technology commenced on May 2, 2005, and is scheduled to run for 4 
months. An evaluation of the test is expected to be issued in November 
2005.

                    USE OF UNMANNED AERIAL VEHICLES

    Question. I understand that the Department has issued a Request for 
Information to private industry to determine the capability and 
availability of Unmanned Aerial Vehicle (UAV) systems for use in border 
control and enforcement. What is the deadline for industry response?
    Answer. The RFI for the UAVs was issued on April 13, 2005, and 
responses were due on April 29, 2005. CBP received 14 responses.
    Question. Have you engaged in a dialogue with the private sector 
about your needs and requirements in this area?
    Answer. As noted above, CBP initiated dialogue with the private 
sector on UAV capabilities and CBP performance requirements through the 
RFI.
    Question. Do you plan to engage in down select and fly-off between 
competing systems?
    Answer. We do not plan to engage in fly-offs between competing 
systems during down select for the following reasons: the time 
constraint to establish an Initial Operating Capability (IOC) in fiscal 
year 2005 does not allow for this, market research resulted in a 
decision to procure mature commercial off the shelf technology, the 
development of a refined CBP UAV Performance Specification clearly 
outlines system requirements, and the RFI included the CBP Performance 
Specification.
    Question. When do you expect a Request for Proposal to come forward 
and what is the target date to begin acquisition of a system?
    Answer. CBP released a Pre-solicitation notice on May 10, 2005, 
that was followed by an RFP on June 21, 2005, which closed on July 20, 
2005. CBP is in the process of evaluating proposals and anticipates a 
contract award on or about August 29, 2005.
    Question. During the period June through September, 2004, there was 
a pilot program that successfully demonstrated the value of UAVs under 
the Arizona Border Control Initiative. What were the results of that 
demonstration and will the lessons learned be incorporated into the 
Department's long-term acquisition strategy?
    Answer. The pilot program demonstrated that the UAVs had some 
operational effectiveness, but will require further evaluation to 
determine its optimal deployment. Some of the evaluation criteria were 
incorporated into the Request for Proposals issued for the purchase of 
UAVs for CBP. Lessons learned have been incorporated into both the 
present and long-term DHS acquisition strategies.
    Question. I understand that one of the lessons learned from last 
summer's pilot program was that the initial speed to ``get something 
flying'' resulted in some inefficiencies in operation of the system 
(such as the location of where it was operated and the limited hours it 
was able to fly) which might have been avoided with proper planning. 
Are things like this being taken into consideration as you move forward 
with the program?
    Answer. Yes, the lessons learned from the pilot program are being 
considered as we move forward with the present acquisition. Much 
attention is being focused on system acquisition, operational 
procedures and UAV basing to afford DHS the best solution to 
effectively meet our requirements.
    Question. In view of the continuing flood of illegal aliens across 
the Southwestern Border and the reported success demonstrated with the 
2004 UAV program, why hasn't the Department used the $10 million 
Congress appropriated for UAVs in fiscal year 2005 to restart the 
demonstration program as an effective enforcement and learning tool 
while the long term UAV program is developed?
    Answer. The Department has evaluated the lessons learned from the 
two prior UAV deployments and has established UAV requirements that, 
although mindful of other DHS users, meet CBP's specific needs. A 
request for proposals was issued in June 2005, and follows the request 
for information that closed on April 29th. The $10 million in fiscal 
year 2005 is to be used for a UAV acquisition and subsequent deployment 
of a UAV system that will serve as the DHS UAV initial operating 
capability along the Southern border this fiscal year. In the interim, 
CBP has deployed a Cessna 206 and two Piper Cheyenne airplanes (all 
equipped with electro optical and infrared sensors) to the Arizona 
desert to adequately provide aerial surveillance until CBP can acquire 
and field its own UAVs.
    As noted above, DHS is in the midst of a systems-level review of 
its border control architecture to identify the right mix of personnel, 
technology and infrastructure to help achieve effective control of the 
border.
    Question. If it chose to do so, how soon could the Department 
restart that demonstration?
    Answer. Since all necessary support requests have since expired, 
CBP would have to re-negotiate Letters of Procedure with all other 
airspace managers, a Request for Assistance from the Department of 
Defense (DOD) to allow us the use of Ft. Huachuca's facilities and 
logistics, and a Certificate of Authorization issued by the Federal 
Aviation Administration (FAA) to allow UAVs to operate in the National 
Airspace System. The earliest the demonstration could be restarted is 
60 days from deciding to do so.

                     DHS ``BRANDING'' NOT COMPLETED

    Question. The Department claims great success with some of its 
systems integration, including that of its legacy e-mail systems. 
However, my staff was surprised to learn that one legacy agency--the 
Federal Protective Service (which transferred over in its entirety from 
the General Services Administration)--still uses ``gsa.gov'' for its e-
mails as opposed to the DHS ``branded'' ``dhs.gov''. What is most 
troubling is that the FPS must continue to pay GSA for its e-mail 
services while also being billed by DHS (or ICE) for these same 
services--which it is not receiving. Why is there a delay in fully 
integrating FPS into the Department's operations?
    Answer. Fiscal year 2005 resources were committed early in the year 
to expedite the conversion, which was over 80 percent complete as of 
March 31, 2005. The remaining Federal Protective Service (FPS) 
locations were converted by August 19, 2005.
    Question. How much has FPS had to pay to GSA for this service this 
fiscal year to date?
    Answer. Fiscal year 2005 GSA charges for FPS information technology 
support through August 1, 2005, totaled $5,837,498. All FPS offices 
with the exception of FPS HQ have been converted to the DHS Network. 
FPS Headquarters is scheduled to relocate from GSA (18th/F) to ICE 
Headquarters as of August 22, 2005. FPS will reimburse ICE OCIO for 
services provided.
    Question. Since the Department has made claims that all agencies 
are on the same e-mail system, will the FPS be ``made whole'' or 
otherwise reimbursed as a result of these double payments?
    Answer. The FPS will fund conversion costs to the DHS email system. 
FPS has not made, nor will it make, double payments.

                                 C-TPAT

    Question. In your statement for the record you say that C-TPAT is 
due for an increase of $8.2 million and that these funds ``will be used 
to enhance our ability to conduct additional supply chain security 
validations.'' Is that the sole purpose for the increase, or will the 
program also be expanded with these funds?
    Answer. CBP intends to use these funds to support the validation 
process.
    Staffing for this program was significantly increased in fiscal 
year 2005 (120 new positions provided for conducting validations), 
which will allow CBP to conduct validations of all high-risk supply 
chains. An aggressive hiring drive to recruit permanent Supply Chain 
Specialists (SCSs) is underway, and CBP anticipates having 100 
permanent SCSs on board at the end of fiscal year 2005. Additionally, 
CBP has trained 38 field officers to help with the initiation of 
validations.
    As of August 15, 2005, the C-TPAT program has completed validations 
of 16 percent of certified members, and has validations underway on 
another 36 percent of certified members.
    As of August 15, 2005, the C-TPAT program has over 9,700 
applicants, of which 5,174 have been accepted and are certified. With 
an average of 2,000 to 3,000 new applicants each year, C-TPAT 
anticipates continued program growth and expansion through fiscal year 
2006 and beyond.
    Question. Please describe the ``security validations'' that will be 
conducted with the proposed increase.
    Answer. Validations begin with a domestic corporate meeting. 
Foreign site visits typically include a corporate meeting with foreign 
manufacturer corporate personnel, and a tour of appropriate 
manufacturing, shipping/consolidation and port facilities. Validations 
conclude with a close out meeting between CBP SCSs and the certified 
member's Point(s) of Contact(s). The Validation Report issued by the 
CBP SCS contains sections on Findings, Recommendations and Best 
Practices.
    CBP initiates validations based on risk, using a quantitative risk 
assessment tool to identify certified members with high-risk supply 
chains. CBP uses a validation selection methodology that relies upon 
quantifiable data coupled with an objective assessment of the submitted 
security profile to determine the top priorities for validations. 
Validation resources are then directed accordingly.
    CBP uses a risk-based approach to validate the security 
enhancements that have been committed to by C-TPAT members, to evaluate 
the status and effectiveness of key security measures in the 
participant's profile, and make recommendations where appropriate. In 
particular, CBP is placing emphasis on the importer and carrier 
sectors, and has modified its validation approach to maximize resources 
and increase efficiencies, such as validating multiple foreign 
suppliers within a geographic proximity.
    Moreover, CBP has enhanced its ability to record and measure 
validation results by developing the Automated Validation Assessment 
Tool, which is an electronic questionnaire that automatically scores 
and weighs the findings of the Supply Chain Specialist to produce an 
overall assessment of the supply chain security measures in place. Any 
identified weaknesses must be corrected in order to retain program 
benefits.
    Once the Validation is completed, the C-TPAT partner's role in the 
process continues as follows:
  --Communication on supply chain security issues continues with CBP 
        and the assigned SCS;
  --Continual self-assessments of supply chain and security processes 
        and procedures are performed;
  --A pro-active approach is maintained with regard to supply chain 
        security and membership in C-TPAT.

                          ILLEGAL IMMIGRATION

    Question. I am concerned that illegal immigrants continue to find 
new ways into this country. I understand that since the Navy stopped 
training and steaming in Vieques, Puerto Rico that there has been a 
surge of illegal immigrants coming to the United States through the 
Eastern Caribbean into Puerto Rico. What are you doing to close this 
gap?
    Answer. CBP arrest statistics do not substantiate a surge of 
illegal immigrants through the Eastern Caribbean.
    The Office of Border Patrol has one Station and Sector located in 
Ramey, Puerto Rico. This Sector and Station are located on the Western 
side of Puerto Rico and respond to their primary threat, which is 
illegal smuggling through the Mona Passage from the Dominican Republic. 
Ramey Sector has integrated its Intelligence Unit with other DHS 
partners to monitor traffic in its area of operation. The Ramey Border 
Patrol Sector enjoys a cooperative relationship with the U.S. Coast 
Guard and local Puerto Rican Maritime Police Forces (FURAS). The Coast 
Guard, Puerto Rican Police, CBP's Air and Marine Office all cooperate 
on interdictions and landings and share intelligence in a timely 
manner.
    Question. Has there been an increase in the number of illegal alien 
interdictions or other evidence of an increased flow of illegal aliens 
to Puerto Rico or Florida from the Eastern Caribbean?
    Answer. As noted above, CBP arrest statistics do not indicate that 
there is an increase in alien apprehensions from countries located in 
the Eastern Caribbean area or an increase in the flow of illegal aliens 
from the Eastern Caribbean to Puerto Rico and Florida.
    Question. What is the status of discussions to open a Border Patrol 
Substation in the U.S. Virgin Islands?
    Answer. CBP's priority mission is to prevent the entry of 
terrorists and terrorist weapons into the United States, and agency 
resources are allocated on the basis of risk assessment. The Northern 
Border represents a significant terrorist risk due to the presence of 
terrorist groups within Canada. In addition, aliens from special 
interest countries have been apprehended crossing the Southern Border 
using traditional alien smuggling routes. These indicators have to date 
not been manifested in the Caribbean. Therefore, although CBP continues 
to work closely with the U.S. Coast Guard to detect and interdict alien 
and drug smuggling activity in the Caribbean, CBP has not deployed 
additional resources in the area. CBP's Office of Intelligence is 
currently conducting a comprehensive risk analysis of the Caribbean, 
which will form the basis for making a future decision regarding the 
location of Border Patrol stations in the region.

          COLLECTION OF ANTIDUMPING AND COUNTERVAILING DUTIES

    Question. Senate Report 108-280 included specific language that 
directed Customs and Border Protection (CBP) to submit a report to the 
House and Senate Appropriations Committees by February 8, 2005. The 
report was to provide a coordinated plan, including legislative or 
regulatory changes proposed by CBP, if necessary, to increase CBP's 
collection of antidumping and countervailing duties owed to the United 
States. The Senate Appropriations Committee has not yet received that 
report. Will the report be delivered prior to the Subcommittee marking 
up the fiscal year 2006 bill in June?
    Answer. The report was sent to the Committee on July 7, 2005.
    Question. On December 17, 2004, Customs and Border Protection 
issued its regular Annual Report on the Combined Dumping and Subsidy 
Offset Act (CDSOA). The Annual Report described how hundreds of 
millions of dollars in duties are not being collected by Customs, and 
the agency has been unable to explain why it cannot collect these 
funds. In fiscal year 2003, the agency failed to collect $130 million 
in duties owed the United States under the U.S. antidumping and 
countervailing duty laws, and CBP failed to collect an additional $260 
million in fiscal year 2004. The majority of that $390 million is the 
result of uncollected duties on goods imported from China.
    What is CBP doing to solve this problem?
    Answer. CBP disburse annually all antidumping duties available from 
entries that have been finally liquidated to domestic petitioners. The 
disbursements are made within 60 days of the end of the fiscal year.
    CBP recognizes that imports of antidumping merchandise pose a 
financial risk to domestic industry. We share the concern regarding the 
lack of funds available for disbursement to domestic petitioners of 
antidumping duties. Therefore, CBP has instituted several aggressive 
actions to mitigate the collection risks going forward. We have a high 
degree of confidence that for entries received after the initiation of 
these new measures, the collection rate will improve.
  --Amendment to the Continuous Bond Guidelines.--As of July 9, 2004, 
        CBP has increased the continuous bond amount for importers of 
        agriculture/aquaculture products subject to antidumping cases. 
        The bonds will be set at a much higher rate, providing 
        additional coverage in the event that an importer defaults. The 
        new and proactive approach by CBP will provide the highest 
        level of protection against default and directly addresses 
        instances where the final liquidation rate is much higher than 
        the initial deposit rate made at time of entry.
  --Integration With Other Agencies.--CBP has recently begun working 
        with the Department of Treasury to address the financial risks 
        associated with sureties. Treasury conducts quarterly solvency 
        evaluations of sureties and provides approval of the sureties 
        to write customs bonds. By working together, we have developed 
        a mechanism by which CBP can provide Treasury with data about 
        sureties that are heavily weighted in ``high-risk'' 
        transactions, such as antidumping. Treasury will incorporate 
        this information in their solvency evaluation to mitigate the 
        risk of surety bankruptcy. In addition, CBP is closely working 
        with the Department of Commerce to find workable solutions to 
        the challenges we face in collecting antidumping duty.
  --Increased Monitoring of Imports.--CBP has taken measures to 
        increase the monitoring of entries of agriculture/aquaculture 
        products subject to antidumping duties. This monitoring 
        provides a means to ensure compliance with bonding 
        requirements, aids in the identity of surety risks, and helps 
        thwart circumvention attempts. The closer scrutiny allows CBP 
        to quickly identify new importers, particularly sham or shell 
        companies. The monitoring provides CBP with the opportunity to 
        raise bonds on these entities at once. By stepping up the 
        monitoring of agriculture/aquaculture imports, CBP is also in a 
        position to recognize shifts in patterns that may indicate 
        circumvention attempts.
    We believe that the new bonding methodology, working with other 
agencies, and closely monitoring imports will have a positive impact on 
the collections of antidumping duty, making more funds available for 
disbursement to the domestic industry.
    CBP has taken a number of steps to ensure that the appropriate 
antidumping and/or countervailing duty (AD/CVD) revenue is collected. 
CBP has initiated centralization of all AD/CVD continuous bond activity 
for the bond program under the Revenue Division, Office of Finance, 
U.S. Customs and Border Protection in Indianapolis, Indiana. This 
establishes more uniform, consistent and effective management of 
continuous bonds involving AD/CVD. Also, AD/CVD bond formulas have been 
amended with an objective to minimize AD/CVD revenue losses as a result 
of bond insufficiency. The first commodity subject to this new bonding 
formula is shrimp.
    Question. Why is this problem of non-collection growing, and what 
is CBP doing to address it?
    Answer. Final liquidation for AD/CVD occurs several months, 
sometimes years after actual entry of the merchandise. The significant 
increase in uncollected antidumping duties seen in fiscal year 2003 
reflected the first series of liquidation instructions for cases 
covering the types of merchandise we now understand to be problematic 
for collection; agriculture/aquaculture merchandise. These liquidation 
instructions covered entries going back as far as 1997 and 1998. The 
increase in uncollected antidumping duties in fiscal year 2004 reflects 
the growth in imports that was seen in years after the initiation of 
the cases, particularly the crawfish case. CBP is confident that 
collection rates will increase for entries received after the 
implementation of the measures highlighted in above.
    CBP has taken several measures to maximize collection of AD/CVD 
revenue. Continuous bonds covering new AD/CVD merchandise are being 
managed as a part of the overall centralization of continuous bonds at 
the Revenue Division, Office of Finance, U.S. Customs and Border 
Protection in Indianapolis, Indiana. Also, AD/CVD bond formulas have 
been amended with an objective to minimize AD/CVD revenue losses from 
bond insufficiency. However, uncollected revenue will occur as a result 
of entry activity during years prior to affecting these new measures. 
As an example, although the Revenue Division has processed over 25,000 
continuous bonds from the beginning of the centralization effort that 
began August 12, 2003, not one bond has been subject to a collection 
action. Collection action is dependent on liquidation of the formal 
entry summaries covered by the bond. Liquidations may occur up to 
several years following the initial entry date. In addition, the 
amended AD/CVD bonding formula currently covers only shrimp.
    Question. In past correspondence with my office, Commissioner 
Bonner indicated that CBP supported legislation that Senator Cochran 
and I introduced in the last Congress--and that we have reintroduced in 
the 109th Congress--to solve this problem of non-collection. That 
legislation, which passed the Senate unanimously last year, would 
require cash deposits instead of bonds in certain antidumping reviews. 
Would you be willing to express your support for this legislation 
directly to House Ways & Means Chairman Bill Thomas and other Members 
of the Congress, including the House leadership?
    Answer. The Department and CBP are taking steps necessary to 
collect appropriate duties and provide appropriate funds to U.S. 
companies and workers through the Continued Dumping Subsidy Offset Act 
(CDSOA) disbursements. We agree that cash deposits in lieu of single-
entry bonds may provide greater coverage and are less of an 
administrative burden. We are taking steps to provide greater security 
for the collection of AD/CVD within the framework of existing 
legislation, and are working with the Department of Commerce to apply 
more innovated methods to address these and other risks from imports 
subject to antidumping and countervailing orders. We look forward to 
continuing to work with Congress on ways to improve our performance in 
this area.
    Question. As mentioned previously, in the past, U.S. industries 
like the U.S. crawfish industry have discovered only very late in the 
year that millions of dollars of antidumping duties for some reason 
have not been collected in their cases against Chinese imports as 
required by law. And, because CBP's failure to collect these duties has 
been discovered late in the year, the non-collection problem in these 
cases could not be addressed in time to enable the industries to obtain 
their yearly distribution of funds under the CDSOA. As a consequence, 
the U.S. crawfish industry, for example, last year failed to receive at 
least $54.4 million it otherwise would have received in duties paid the 
U.S. Government by Chinese importers. It is my understanding that CBP's 
Office of Information Technology (OIT) is fully capable of running an 
already existing program much earlier in each calendar year, (meaning 
by the end of March at the latest), which would enable both CBP and 
U.S. industries to learn, much earlier, if millions of dollars in 
duties are not being collected by CBP from U.S. importers of foreign, 
dumped products.
    Why can't CBP's OIT determine by the end of this month if there are 
cases in which CBP is not collecting duties owed the U.S. Government 
and make that information publicly available as early as possible?
    Answer. CBP has responded to the revenue risk posed by the 
inability to collect certain AD/CVD duties through several means, one 
of which is the monitoring the AD/CVD bills and collections on a more 
regular basis. For the distribution of these funds to take place 
timely, it is necessary not only to monitor the timely collection of 
AD/CVD duties but also to ensure our revenue collection system is 
protected from possible circumvention and corporate solvency schemes 
designed to enter AD/CVD goods into the U.S. market with the intention 
of never paying the proper duties at time of liquidation.
    On a monthly basis, CBP is performing a risk-based review of 
outstanding bills for AD/CVD duties. The information has proven 
effective in identifying high-risk companies for AD/CVD evasion as well 
as improves the timeliness of our reviews. CBP is also focused on the 
long-term issue of the company's financial solvency and their ability 
to pay outstanding AD/CVD bills. The continuous bond guidelines for 
imports of certain agriculture/aquaculture imports were amended in July 
2004 to address just such an issue. Working with the Department of 
Commerce, we are addressing the AD/CVD issues that pose the greatest 
risk.
    Question. Again, two of the problems that CBP has exhibited with 
respect to its administration of the CDSOA are (1) CBP failure to 
collect duties rightfully owed; and (2) its failure to pay duties 
already collected in a timely fashion to eligible U.S. companies and 
their workers. With respect to the second problem, CBP sometimes holds, 
in what are called ``clearing accounts,'' duties that are collected 
over many years--but for which the agency is awaiting final 
``liquidation instructions'' from the Commerce Department prior to 
distribution. Often, the Commerce Department claims that such 
instructions have been sent, but CBP does not know they have been sent 
or never receives them. It has been proposed that one solution to this 
problem would be for CBP to publish the amount of funds held in CBP's 
clearing accounts, by administrative review period, so that CBP and 
Commerce can work together to determine which funds should have been 
liquidated and be available for distribution to eligible U.S. 
producers. CBP, in certain circumstances, has provided such information 
to Members of Congress upon request, but has refused to provide such 
information generally.
    Will you commit to identifying (i.e., publishing) the amount of 
funds held in clearing accounts by administrative review period?
    Answer. The AD/CVD modules within the Automated Commercial System 
(ACS) do not provide information by administrative review periods; 
therefore, CBP cannot currently track entries in this manner. CBP has 
provided information of this type in certain circumstances through a 
manual review process. CBP is working towards including functionality 
in the Automated Commercial Environment (ACE) to identify and track AD/
CVD data to ensure timely and accurate liquidation.
    The OIG expressed concern about approximately one million entries 
suspended by CBP. As a result of this finding, CBP developed a plan to 
isolate those suspended entries that were beyond the normal timeframes 
of an AD/CVD case. Once identified, CBP worked with the Department of 
Commerce (DOC) to obtain liquidation instructions for these entries. To 
date, CBP has reduced the national inventory by 80,000 entries. CBP 
plans to continue to work with DOC to reduce the inventory 
substantially.
    In fiscal year 2005, CBP is concentrating on the liquidation of 
remaining AD/CVD entries entered prior to 1995 that remain suspended. 
This action will remove approximately 50,000 entries representing over 
$46 million in deposits on 222 cases from the ``official'' inventory. 
By the middle of fiscal year 2006, CBP plans to liquidate the remaining 
50,000 or so entries.
    Another reason that monies remain in the ``clearing accounts'' and 
are unavailable for distribution via CDSOA is the number of protests on 
bills issued by CBP. Payment of a protested bill is deferred until the 
protest decision is rendered. Currently, many protests of AD/CVD 
liquidations are suspended pending the final decision by the Federal 
Appeal Court on International Trading.
    Question. Will you commit similarly to identifying the reasons for 
the lack of liquidation in cases where liquidation has not occurred for 
more than 4 years, and provide specific information with respect to 
those cases showing the amounts that remain unliquidated accompanied by 
an explanation of CBP's understanding of why the amounts have not been 
liquidated?
    Answer. Again, the AD/CVD modules within the ACS do not provide 
information by administrative review periods; therefore, CBP cannot 
track entries this way. This functionality will be programmed into the 
ACE and should be available by the end of fiscal year 2007.

                                STAFFING

    Question. What was the CBP on-board strength (including AMO) on 
September 30, 2004? What was it on March 31, 2005? Provide the same 
data for the Border Patrol.
    Answer. Air and Marine Operations employees were not transferred to 
CBP until October 31, 2004. The attached chart therefore provides on-
board strength at two snapshots in time to reflect this transfer.

------------------------------------------------------------------------
                                            October 2,
                                               2004        April 2, 2005
------------------------------------------------------------------------
           Total CBP staffing
 
CBP total...............................          40,934          41,717
 
      Border patrol agent staffing
 
Border patrol Agents total \1\..........          10,817          10,859
------------------------------------------------------------------------
\1\ These amount are also included in the CBP totals above.

                          DETENTION FACILITIES

    Question. One of the primary functions of the Bureau of Immigration 
and Customs Enforcement (ICE) is to serve as this country's interior 
line of defense by apprehending illegal entrants and detaining them 
pending the outcome of an administrative determination of their status. 
However I understand that ICE is considering closing the only secure, 
non-criminal detention center in New York City--the very site of the 
2001 terrorist attacks--because of an apparent decision to focus the 
bulk of the agencies efforts on only identified criminal aliens and 
other high-risk illegal immigrants. This concerns me greatly because I 
understand that the vast majority of the individuals detained at this 
New York City detention facility would be released on their own 
recognizance into the New York City area.
    Why is DHS proposing to close this detention facility in New York 
City? Is this because of a lack of funds? Are there not enough aliens 
needing to be detained which necessitates the closure of this facility?
    Answer. In a continuing effort to consolidate detention capacity 
where possible in order to increase operational efficiency, ICE has 
decided not to exercise the next available option to extend contract 
performance at the Queens CDF.
    The current contract was awarded to GEO on March 27, 2002. The 
Queens CDF provides detention housing and transportation of non-
criminal detainees in the custody of ICE. A significant population 
designated to the Queens CDF is comprised of asylum seekers apprehended 
at POEs in the New York area.
    The indefinite delivery/indefinite quantity contract includes a 
guaranteed minimum detainee population of 150 ($219.02 per manday) and 
a maximum capacity of 200 ($9.17 per manday exceeding 150 beds). The 
contract consists of a base year and 4-1 year options, exercised at the 
unilateral discretion of the government. The contract is currently 
performing within Option Year 2.
    A recent assessment determined that a substantial number of the 
population routinely designated to the Queens CDF could be adequately 
managed through a combination of bonds, orders of own recognizance, 
and/or the increased use of alternatives to detention (e.g., electronic 
monitoring; telephonic reporting, etc.). All non-detention options will 
be applied based on established ICE standards. The remaining population 
requiring detention can be consolidated into substantially lower cost 
detention capacity available to ICE via commercial contracts and 
agreements with local government service providers. Other efficiencies 
will accrue from the consolidation of detainees, staff, the 
administrative hearing process, support programs, etc. These increased 
efficiencies will permit ICE to apply funds toward detaining higher 
priority cases.
    It should also be noted that various non-governmental organizations 
have previously expressed concern regarding conditions of confinement 
at the Queens facility (See February 8, 2005 CIRF report, ``Report on 
Asylum Seekers in Expedited Removal).
    Utilizing all available options to manage the non-criminal alien 
population apprehended in the New York area and consolidating the 
population requiring detention into lower cost facilities, will result 
in improved efficiency in the ICE detention program.
    Question. I understand that ICE makes an initial determination as 
to the level of risk of the illegal alien and that such a determination 
often is conducted at the point of entry which, in the case of this 
facility, is JFK International Airport.
    How often does ICE make an initial determination that an individual 
is a ``low-risk'' illegal immigrant and then, after further 
investigation, determine that the individual should have been 
classified as ``high-risk?''
    Answer. The law enforcement databases used to track alien detention 
do not allow for us to determine the number of aliens who were 
initially considered ``low risk'' and are then later considered ``high 
risk''. These categories are used as guidelines in making the detention 
decision, but are not recorded as such in these databases.
    Question. I believe these non-criminal detention facilities serve 
several purposes, one of the most important of which is holding those 
potentially high-risk individuals who fall through the cracks during 
the initial screening and who initially are misclassified as low-risk. 
Furthermore, I believe that facilities such as the one in New York City 
serve a very important deterrent effect. I understand that JFK Airport 
was a popular entry point for illegal immigrants prior to the opening 
of this New York City detention facility.
    Does DHS believe that these types of facilities serve a deterrent 
effect and, more importantly, serve to catch high-risk individuals who 
might slip through the initial screening process?
    Answer. Detention and removal are deterrents to illegal 
immigration. However, detention resources must be effectively managed 
to ensure that secure capacity is available to accommodate cases 
according to our detention priority continuum. It has been determined 
that a substantial number of the population routinely designated to the 
Queens CDF could be adequately managed through a combination of bonds, 
orders of own recognizance, and/or the increased use of alternatives to 
detention (e.g., electronic monitoring; telephonic reporting, etc.). 
All non-detention options will be applied based on established ICE 
standards. The remaining population requiring detention will be 
consolidated into substantially lower cost detention capacity available 
to ICE via commercial contracts and agreements with local government 
service providers. Other efficiencies will accrue from the 
consolidation of detainees, staff, the administrative hearing process, 
and support programs. These increased efficiencies will result in 
savings that can be applied to other immigration enforcement 
activities.
    Question. Given the importance of these types of facilities, how 
can DHS justify their closure in New York City, especially when the 
only other facility in the general vicinity is designed to hold 
criminal aliens and which I understand operates at or near capacity?
    Answer. A recent assessment determined that a substantial number of 
the population routinely designated to the Queens CDF can be adequately 
managed through a combination of bonds, orders of own recognizance, 
and/or the increased use of alternatives to detention (e.g., electronic 
monitoring; telephonic reporting, etc.). All non-detention options will 
be applied based on established ICE national standards. The remaining 
population requiring detention can be consolidated into substantially 
lower cost detention capacity available to ICE via commercial contracts 
and agreements with local government service providers. All cases 
requiring detention will be designated to appropriate conditions of 
confinement. Efficiencies will accrue from the consolidation of 
detainees, staff, the administrative hearing process, and support 
programs. ICE can use the savings from these increased efficiencies to 
detain higher priority cases.

                    MEASURES FOR DETERMINING BUDGETS

    Question. What is the ratio or other measurement by which ICE 
determines how many detention beds are required in a given year? For 
instance, is there a ratio or determination made such that if one 
assumes that one Border Patrol agent is responsible for x apprehensions 
of illegal aliens then there is a need for y detention beds? And is 
there a similar ratio or measurement between the amount of bed space 
required because of the investigation success rate of ICE immigration 
investigators?
    Answer. The Department is working aggressively to develop a 
comprehensive border control strategy that responds more effectively to 
alien apprehensions and the overall flow of illegal crossings. As 
fundamental improvements to the system are implemented through this 
strategy, we will implement systematic modeling that can more 
accurately link resources with apprehensions and other measures of 
demand.

                          WORKSITE ENFORCEMENT

    Question. For Worksite Enforcement, how does ICE determine how it 
will focus its resources? For example, which areas or industries will 
be targeted?
    Answer. Since September 11, 2001, ICE Worksite Enforcement 
activities have focused primarily on removing unauthorized workers from 
critical infrastructure facilities to reduce the risk of terrorist 
attack from insiders. ICE Critical Infrastructure Protection (CIP) 
operations are generally initiated at the local level and are based 
upon factors such as the type and number of infrastructure facilities 
present in each Special Agent-in-Charge jurisdiction (seaports, 
airports, military bases, defense contractors, nuclear plants, etc.) 
and upon specific or general threat information received from various 
intelligence sources, the general public, and from other law 
enforcement agencies.
    ICE Worksite Enforcement activities also target criminal employers 
whose violations have a nexus to human smuggling, immigration document 
or benefit fraud, and worker exploitation. The authorities being 
enforced generally include one or more of the civil and/or criminal 
provisions of INA 274A (Unlawful Employment of Aliens). Many criminal 
employer investigations also result in the charging of violations 
relating to harboring, smuggling, and document fraud. The fiscal year 
2006 Budget includes an increase of $18 million and an additional 140 
agents to support the Temporary Worker Program.

                              CYBER CRIMES

    Question. For fiscal year 2005, Congress provided $4.2 million for 
additional cyber crime forensic infrastructure and expansion of the 
Cyber Crime Center to ICE field offices. What is the status of this 
effort?
    Answer. This funding provides for the creation of a wide area 
storage network for the ICE Computer Forensic Program. Upon award, disk 
storage arrays will be installed in four or five (final numbers are 
contingent upon final pricing) ICE field offices to provide storage for 
digital evidence under examination.
    The ICE Cyber Crime Center has conducted a thorough market and 
technical analysis and is in the final stages of making a vendor 
selection.
    An inter-agency agreement has been established with the U.S. Bureau 
of Public Debt (BPD) to utilize their existing IT procurement vehicle 
to make the contract award. The statement of work and performance work 
standard documents have been forwarded to BPD on August 18, 2005. It is 
anticipated that the contract will be awarded to TKC Communications of 
Fairfax, VA, an Alaskan native corporation, shortly. Once awarded, site 
surveys, selection, and installations will begin in earnest.
    Question. Have any of these funds been obligated?
    Answer. None of the $4.2 million has been obligated.
    Question. Have any additional personnel been hired?
    Answer. No additional personnel will be hired with the $4.2 
million.
    Question. To which field offices, if any, will the Center expand?
    Answer. This answer contains infomrmation considered Law 
Enforcement Sensitive and has been provided to the Committee under 
separate cover.

                           PASSENGER AIR FEES

    Question. The Administration's budget for DHS proposes a 
significant increase to the security fee passengers pay by more than 
doubling the cost for the first leg of a flight from $2.50 to $5.50. 
These fee collections, if approved, would be used to pay for 
approximately 83 percent of the fiscal year 2006 budget request for the 
Transportation Security Administration. According to the Congressional 
Budget Office (CBO), this proposal would generate $1.680 billion in 
additional funding for fiscal year 2006.
    Will a legislative proposal be sent to the authorizing committees 
with jurisdiction over this issue, and if so, when?
    Answer. The fiscal year 2006 President's Budget provided a 
legislative proposal to modify this fee authority. In Title V--General 
Provisions, the proposal states, ``SEC. 517. In Chapter 449 of title 
49, United States Code, section 44940(c) is amended by striking `$2.50' 
and replacing it with `$5.50', and striking `$5.00' and replacing it 
with `$8.00'.'' This modification to the fee authority would allow TSA 
to implement the fee increases sought in the President's fiscal year 
2006 Budget. TSA will work with the Appropriations Committees of the 
House and the Senate, as well as the appropriate authorizing committees 
in both bodies, to ensure enactment of the proposed security service 
fee increase.
    Question. Second, if the proposed fee is not approved, will the 
Secretary urge the President to submit a budget amendment to fill the 
$1.7 billion funding gap?
    Answer. The sharing of aviation screening costs between industry, 
passengers, and Government is essential to ensure that there is 
sufficient funding for existing and emerging threats to the integrity 
of the aviation security infrastructure. The proposed increase is 
intended to shift the burden of paying aviation screening services from 
the general taxpayer to the airline passenger. The Department will work 
with Congress to ensure that security priorities are met.
    Question. Finally, what programs and activities does the Department 
propose be cut if the fee increase is not authorized by Congress?
    Answer. The sharing of aviation screening costs between industry, 
passengers, and Government is essential to ensure that there is 
sufficient funding for existing and emerging threats to the integrity 
of the aviation security infrastructure. The proposed increase is 
intended to shift the burden of paying aviation screening services from 
the general taxpayer to the airline passenger. The Department will work 
with Congress to ensure that security priorities are met.

                               AIR CARGO

    Question. Public Law 108-458, which was signed into law by the 
President on December 17, 2004, included an authorization for $100 
million in fiscal year 2006 to accelerate the development of 
technologies to screen air cargo. The Administration's budget proposes 
that air cargo screening technology development be funded through the 
Science and Technology directorate, but funding is cut by $45 million 
from last year and funding is $70 million below the amount authorized 
in the Intelligence Reform Act. How is a cut of this magnitude 
justified? Has there been a break through in the development of 
detection technology for air cargo that justifies the proposed cut?
    Answer. The fiscal year 2006 President's Budget transfers $109 
million in R&D funds from TSA to the S&T Directorate. Of this amount, 
$29.578 million is dedicated to projects that will address air cargo 
screening capabilities. TSA retains $23 million in its fiscal year 2006 
request to continue analyzing EDS products emerging from the Phoenix 
Phase II R&D program, piloting passenger screening projects, including 
next generation trace portal and automated checkpoint EDS, continuing 
EDS cargo break bulk evaluation, and conducting cargo technology field 
evaluations for field experiments.
    The S&T Directorate does not plan to fund consolidated air cargo 
technology development outside those efforts captured by our broad R&D 
program, or captured in other efforts within the directorate, such as 
RFID technology, unless air cargo pilots demonstrate the need and 
utility in specific cases, and focus instead on break-bulk inspection. 
Given a break-bulk inspection paradigm, the same technologies being 
explored for package or luggage inspection apply to cargo screening--
and thus it is straightforward to include consideration of any specific 
requirements, e.g., size and throughput, into our broad R&D program.
    With the fiscal year 2006 R&D funds, the S&T Directorate plans to 
conduct broad R&D that is applicable across the spectrum of baggage, 
package, and cargo screening. The S&T Directorate estimates that the 
funding required in fiscal year 2006 to complete the assessment of the 
efficacy of specific existing methodologies for particular cargo 
commodities, and to test screening procedures in the laboratory would 
be approximately $5 million. The Phoenix project is aimed at reducing 
false alarm probabilities in EDS systems, which is clearly beneficial 
to both baggage and package inspection. Other relevant RDT&E efforts 
within the aviation explosives detection efforts include 
nanotechnology-based sensors, CT array-based imaging (as opposed to 
rotating scans), and improved trace systems. Some of the TSA R&D 
projects funded in fiscal year 2005 will continue into fiscal year 2006 
through completion of prototypes. These projects may continue to be 
funded by the S&T Directorate if they meet certain criteria, 
particularly in the area of break-bulk inspections.
    Question. Public Law 108-458 authorizes $200 million per year for 
TSA to improve aviation security related to the transportation of cargo 
on both passenger aircraft and all-cargo aircraft. Why doesn't the 
fiscal year 2006 request include additional funding for air cargo 
security?
    Answer. TSA's request for air cargo resources is at an appropriate 
level to ensure air cargo security and recognizes non-recurring system 
development costs while at the same time meeting all of the necessary 
transportation security priorities.
    Question. Are there plans to increase the number of inspectors?
    Answer. TSA currently employs 196 cargo inspectors. Three others 
have been selected and are in the final stages of the hiring process.
    Question. Is TSA satisfied with 200 air cargo inspectors?
    Answer. The President's fiscal year 2006 Budget request is a 
reflection of the resources required to ensure air cargo security and 
recognizes non-recurring system development costs while at the same 
time meeting all of the necessary transportation security priorities. 
Going forward, TSA will evaluate the needs and resources available to 
determine whether additional inspectors would be appropriate.

                           PRE-PACKAGED NEWS

    Question. On March 16, the Washington Post printed an editorial 
entitled Viewer Beware. The editorial questioned the use of government-
packaged and government funded news reports to look and sound like 
regular television reports. The editorial stated ``Although this 
Administration apparently isn't the first to use video news releases, 
it seems more enamored of them than its predecessors. For example: A 
spot commissioned by the Transportation Security Administration lauds 
``another success'' in the Bush Administration's drive to strengthen 
aviation security,'' which the reporter describes as ``one of the most 
remarkable campaigns in aviation history.'' Unbeknownst to the viewer, 
the so called reporter was no reporter at all. She was a contractor 
hired by TSA. This type of pre-packaged reporting has occurred in other 
agencies as well, such as the Office of National Drug Control Policy 
(ONDCP) and the Department of Health and Human Services.
    In every year since 1951, Congress has included a provision in the 
general government appropriations act which states the following: ``No 
part of any appropriation contained in this or any other Act shall be 
used for publicity or propaganda purposes within the United States not 
heretofore authorized by Congress.''
    In recent cases involving prepackaged news stories by ONDCP and the 
Department of Health and Human Services, GAO concluded that those 
prepackaged news stories violated the publicity or propaganda 
prohibition. GAO did not receive a request to review the TSA story, but 
it was developed in a similar manner.
    The Senate recently approved by a vote of 98-0 an amendment to the 
emergency supplemental to prohibit Federal funding of pre-packaged news 
stories unless the story includes a notification that it was created 
and funded by a Federal agency.
    Do you agree that pre-packaged news segments produced by any DHS 
office should include a clear notification to the audience that the 
story was prepared or funded by that Federal agency?
    Answer. DHS has a unique responsibility to provide Americans with 
important information they can use to be prepared for disasters, 
terrorist attacks or even to better navigate security procedures at our 
airports and ports-of-entry. Video news releases can serve as one tool 
for accomplishing this objective. We agree with the Administration's 
previously articulated position that Federal agencies should be open 
about their activities and that DHS-produced Video News Releases (VNRs) 
should be clearly marked.

                    SCREENING WORKFORCE PERFORMANCE

    Question. The DHS Inspector General recently released results of an 
audit on Transportation Security Administration screener performance.
    The IG's audit indicated that the problems will most likely persist 
without greater use of new technology. The IG recommended that the TSA 
administrator aggressively pursue the development and deployment of 
innovations and improvements such as the backscatter x-ray and 
explosive trace detection portals to help the screener workforce better 
detect weapons and explosives. However, the Department's fiscal year 
2006 budget actually reduces the amount of money included for Next-
Generation explosive detection systems from $54 million to $49 million 
and significantly below the $100 million authorized in the Intelligence 
Reform Act.
    In light if the sobering results of the IG audit, how can you 
justify reducing the amount of funding for the development and 
deployment of innovative detection technologies?
    Answer. The TSA recognizes that additional resources must be 
devoted to address this critical vulnerability and improve the 
effectiveness of checkpoint screening. As it relates to deployment, TSA 
will have the ability to screen elevated risk passengers for explosives 
at all passenger checkpoints by January 2006. TSA will devote a total 
of $100 million to this initiative in fiscal years 2005 and 2006. In 
fiscal year 2005 TSA received $28.3 million to field emerging 
technology equipment at checkpoints. For fiscal year 2006, TSA is 
requesting a total of $72 million (an increase of $43.7 million over 
the fiscal year 2005 base amount) for emerging checkpoint explosives 
technology. In fiscal year 2005, TSA devoted $54 million for research 
and development (R&D) on Next Generation Explosives Detection Systems 
(EDS). The fiscal year 2006 Budget proposes to transfer TSA's R&D 
function to the S&T Directorate.

                          TSA SPENDING ABUSES

    Question. The DHS Inspector General recently released a report that 
highlighted a laundry list of disturbing financial purchases relating 
to the creation of the Transportation Security Operations Center. For 
instance, $252,000 was spent on artwork, $30,000 was spent on expensive 
silk plants, money was used to buy leather brief cases and coffee pots, 
and over $83,000 in overpayments remains unaccounted for. There are 
even seven kitchens in the building for just 79 Federal employees 
located there. This report follows on the heels of the IG's findings 
last year that TSA provided excessive bonuses to its executives.
    In response to these findings, A TSA spokesman said that ``a new 
management structure'' has been put in place ``to strengthen its 
acquisition program to ensure responsible stewardship of taxpayer 
dollars.'' Please explain in detail what steps have been taken to 
change TSA's management structure to prevent such abuses from 
continuing.
    Answer. Since its inception, TSA has worked to develop and 
implement a more responsive and robust acquisition program based on 
sound business management practices. The elevation of the Office of 
Acquisition within the agency is a key indicator of our commitment. 
Since the Transportation Security Operations Center (TSOC) lease 
process was initiated, the Office of Acquisition has been elevated to 
the Assistant Administrator level, equivalent to the Chief Financial 
Officer (CFO) rather than as a sub-program within the CFO's office. In 
late 2003, the Office of Acquisition stood up an Acquisition and 
Program Management Support division to focus on certifying, training, 
and providing day-to-day assistance to and for TSA's program managers. 
Well over 1,200 TSA employees have been trained to date in key 
acquisition topics and the Program Management certification program is 
robust.
    At the beginning of fiscal year 2005, TSA took the following steps 
to help strengthen and mature its acquisition program in four key 
areas.
  --Continue to support the TSA mission with efficient, expeditious, 
        and accurate contracts. TSA recognizes that the agency's 
        ability to attract, recruit, and retain qualified acquisition 
        personnel to support contracts is critical to fulfilling its 
        mission. Initial staffing in the Office of Acquisition was 
        barely adequate to award contracts in time to meet 
        Congressional deadlines, much less commence good business 
        processes. Over the past year, TSA has raised the Office of 
        Acquisition's staff ceiling by nearly 30 percent. Additionally, 
        a percentage of TSA's budget has been earmarked for contract 
        oversight, which includes support from the Defense Contract 
        Audit Agency and Defense Contract Management Command, and 
        independent contractor support.
  --Significantly improve acquisition and program planning. The Office 
        of Acquisition is focused on strengthening the program planning 
        function. The office developed and now coordinates an 
        Investment Review Board process that drives successful program 
        decisions by providing direct subject matter expert support to 
        program managers. Additionally, the office provides direct 
        support to program offices to assist them in developing sound 
        acquisition and program strategies.
  --Significantly improve program management and administration. Well-
        trained, certified program managers are fundamental to robust 
        acquisition programs. These managers were, initially, in short 
        supply at TSA. To address immediate knowledge gaps in key 
        areas, the Office of Acquisition rolled out a set of workshops 
        in October 2003. In early 2004, TSA worked with DHS to 
        implement a Program Management certification program and the 
        first TSA applications were received in June of 2004. Moreover, 
        the Office of Acquisition developed a Management Directive 
        regarding acquisition planning, review, and reporting that 
        significantly tightens up the overall process.
  --Build and mature the TSA acquisition infrastructure. TSA is focused 
        on these two infrastructure areas: human resources and systems.
    Human Resources.--In addition to increased staff, the Office of 
Acquisition is developing a longer-term strategic human capital plan to 
manage recruitment and retention issues, provide for career 
development, and succession planning. The plan will provide a roadmap 
for strengthening the current workforce (training, communication, 
professional development), as well as outline strategies to recruit 
highly qualified individuals and manage attrition. Simply put, the 
strategy will outline a plan to develop the right people with the right 
knowledge and skills for each of TSA's acquisition programs.
    Systems.--On the systems level, TSA is implementing PRISM, an 
integrated finance and procurement system which will streamline and 
strengthen our processes and integrate acquisition with finance and 
asset management.

                            AIR CARRIER FEES

    Question. The Government Accountability Office recently estimated 
that 2000 passenger and property screening costs incurred by air 
carriers was $448 million, $129 million less than what the air carriers 
paid to TSA. What plan of action will be taken by TSA as a result of 
GAO's estimates?
    Answer. In the Homeland Security Appropriations Act, 2005, (Public 
Law 108-334) Congress directed the Government Accountability Office 
(GAO) to determine how much air carriers spent on security screening in 
2000--the basis for the fee imposed on airlines. GAO completed its 
review and issued a report on April 18, 2005. The report concludes that 
the amount of the industry-wide passenger and property screening costs 
was between $425 million and $471 million, with a midpoint estimate of 
$448 million. The midpoint difference between what is collected now and 
what GAO indicates should be collected is $129 million. However, GAO's 
estimate did not include certain cost categories (e.g.; real estate, 
CAPPS, and positive bag match) due to the unavailability of information 
within the timeframe provided. The cost of these items could be 
significant. The TSA is currently reviewing all the findings of the 
report and developing a suitable overall implementation strategy for 
the air carrier fee.

                       SECTION 605 OF VISION 100

    Question. The TSA budget proposes to defer use of allocation 
formulas required by Section 605 of Vision 100. Please provide a list, 
by airport, of all requests for assistance under the allocation formula 
program versus funding provided via Section 605. This list should 
distinguish between large hub airports, medium hub airports, and small 
hub airports.
    Answer. TSA has received a number of requests from airports for 
funding to support construction of, or reimbursement for, in-line 
checked baggage screening solutions. Below is a list of the airports 
that have made these requests:

----------------------------------------------------------------------------------------------------------------
                                           Airports that have requested
                                           funding for an Inline System   Category              Notes
----------------------------------------------------------------------------------------------------------------
BWI......................................  Baltimore-Washington                  L   ...........................
                                            International Airport.
DCA......................................  Ronald Reagan Washington              L   ...........................
                                            National Airport.
DTW......................................  Detroit International                 L   ...........................
                                            Airport.
EWR......................................  Newark International Airport          L   ...........................
FLL......................................  Ft. Lauderdale-Hollywood              L   ...........................
                                            International Airport.
HNL......................................  Honolulu International                L   ...........................
                                            Airport.
IAD......................................  Washington-Dulles                     L   ...........................
                                            International Airport.
IAH......................................  George Bush Houston                   L   ...........................
                                            Intercontinental Airport.
JFK......................................  John F. Kennedy                       L   ...........................
                                            International Airport.
LGA......................................  LaGuardia Airport...........          L   ...........................
MCO......................................  Orlando International                 L   ...........................
                                            Airport.
MDW......................................  Chicago Midway International          L   ...........................
                                            Airport.
MIA......................................  Miami International Airport.          L   ...........................
MSP......................................  Minneapolis-St. Paul                  L   ...........................
                                            International Airport.
OAK......................................  Metropolitan Oakland                  L   ...........................
                                            International Airport.
ORD......................................  Chicago O'Hare International          L   ...........................
                                            Airport.
PHL......................................  Philadelphia International            L   ...........................
                                            Airport.
SAN......................................  San Diego International               L   ...........................
                                            Airport.
SFO......................................  San Francisco International           L   ...........................
                                            Airport (reimbursement).
SLC......................................  Salt Lake City International          L   ...........................
                                            Airport.
TPA......................................  Tampa International Airport.          L   Current in-line system
ANC......................................  Anchorage International               M   ...........................
                                            Airport.
BDL......................................  Bradley International                 M   ...........................
                                            Airport.
BNA......................................  Nashville International               M   ...........................
                                            Airport.
CLE......................................  Cleveland-Hopkins                     M   ...........................
                                            International Airport.
MCI......................................  Kansas City International             M   ...........................
                                            Airport.
MKE......................................  General Mitchell Milwaukee            M   ...........................
                                            International Airport.
OGG......................................  Kahului Airport Maui........          M   ...........................
PDX......................................  Portland International                M   ...........................
                                            Airport.
PVD......................................  Providence T F Green State            M   ...........................
                                            Airport.
RSW......................................  Southwest Florida Fort Myers          M   ...........................
                                            International Airport.
SAT......................................  San Antonio International             M   ...........................
                                            Airport.
SJC......................................  San Jose International                M   ...........................
                                            Airport.
SMF......................................  Sacramento International              M   ...........................
                                            Airport.
SNA......................................  Orange County John Wayne              M   Current in-line system
                                            Airport.
BIS......................................  Bismark Municipal Airport...          N   ...........................
LNK......................................  Lincoln Municipal Airport...          N   ...........................
ACY......................................  Atlantic City International           S   ...........................
                                            Airport.
GEG......................................  Spokane International                 S   ...........................
                                            Airport.
GPT......................................  Gulfport-Biloxi                       S   ...........................
                                            International Airport.
MDT......................................  Harrisburg International              S   Current in-line system
                                            Airport.
PSP......................................  Palm Springs International            S
                                            Airport.
TLH......................................  Tallahassee Regional Airport          S   ...........................
VPS......................................  Okaloosa Regional Airport...          S   ...........................
----------------------------------------------------------------------------------------------------------------
Category: small (s), medium (m), large (l) or non-hub (n).

                             BASE DECREASES

    Question. On page 38 of the TSA budget request, there is a 
reduction of $15.9 million for ``management and technology 
efficiencies'' and a reduction of $53.9 million for a ``base 
realignment adjustment.'' There is no additional justification or 
information relating to those reductions. Provide a detailed 
justification for those decreases including a list of all management 
and technology efficiencies and how realigning the base saves $53.9 
million.
    Answer. The attached spreadsheet provides a detailed explanation of 
program reductions and base adjustments that resulted in $53.9 million 
in savings.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               EMERGING CHECKPOINT EXPLOSIVES TECHNOLOGY

    Question. For fiscal years 2005 and 2006, provide a deployment 
schedule, including the identification and cost of the technology 
acquired, the manufacturer of the technology, and the airports at which 
the technology has been or will be deployed.
    Answer. The following list of airports (Fig. 1) will have 
checkpoint Explosives Detection Trace Portals deployed by January 2006. 
TSA is deploying the systems concurrently, therefore the list does not 
reflect any sort of priority. The timing for deployment between now 
through January 2006 will depend on the results of site surveys that 
are currently underway and the production capabilities of the vendor.
    TSA will be purchasing two different portals, the GE Ion Track 
Entry Scan and the Smiths Sentinel, and the results of the site surveys 
will help TSA determine which of the two technologies is best suited 
for each of the airports listed. TSA is planning to purchase equal 
numbers of each of the two products.
    In fiscal year 2005, TSA received $28.3 million to field emerging 
technology equipment at checkpoints. For fiscal year 2006, TSA is 
requesting a total of $72 million (an increase of $43.7 million over 
the fiscal year 2005 base amount) for emerging checkpoint explosives 
technology.
    In support of checked baggage screening, the following list of 
airports (Fig. 2) will have the Reveal Technologies CT-80 deployed by 
January 2006. Like the checkpoint Explosives Trace Detection Portal, 
TSA's intent is to deploy the CT-80s concurrently, therefore this list 
does not reflect any sort of priority. The timing for deployment 
between now through January 2006 will depend on the results of site 
surveys that are currently underway and the production capabilities of 
the vendor. Consistent with the direction provided in the Homeland 
Security Appropriations Act, 2005, $30 million will be spent for 
purchase and installation of this capability.

                FIG.1--EXPLOSIVES DETECTION TRACE PORTALS
------------------------------------------------------------------------
                                                       Airport
------------------------------------------------------------------------
ATL.......................................  Hartsfield-Jackson Atlanta
                                             International
BOS.......................................  Boston Logan International
BWI.......................................  Baltimore/Washington
                                             International
CLE.......................................  Cleveland-Hopkins
                                             International
CLT.......................................  Charlotte/Douglas
                                             International
CMH.......................................  Port Columbus International
CVG.......................................  Cincinnati/Northern Kentucky
                                             International
DCA.......................................  Ronald Reagan Washington
                                             National
DEN.......................................  Denver International
DFW.......................................  Dallas/Ft. Worth
                                             International
DTW.......................................  Detroit Metropolitan Wayne
                                             County
EWR.......................................  Newark Liberty International
FLL.......................................  Fort Lauderdale/Hollywood
                                             International
HNL.......................................  Honolulu International
IAD.......................................  Washington Dulles
                                             International
IAH.......................................  Houston Intercontinental
IND.......................................  Indianapolis International
JFK.......................................  John F. Kennedy
                                             International
LAS.......................................  McCarran International
LAX.......................................  Los Angeles International
LGA.......................................  LaGuardia International
MCI.......................................  Kansas City International
MCO.......................................  Orlando International
MDW.......................................  Chicago Midway International
MIA.......................................  Miami International
MSP.......................................  Minneapolis-St. Paul
                                             International
OAK.......................................  Metropolitan Oakland
                                             International
ORD.......................................  Chicago O'Hare International
PBI.......................................  Palm Beach International
PDX.......................................  Portland International
PHL.......................................  Philadelphia International
PHX.......................................  Phoenix/Sky Harbor
                                             International
PIT.......................................  Pittsburgh International
RDU.......................................  Raleigh-Durham International
SEA.......................................  Seattle-Tacoma International
SFO.......................................  San Francisco International
SJU.......................................  Luis Munoz Marin
                                             International
SMF.......................................  Sacramento International
SNA.......................................  John Wayne Airport-Orange
                                             County
STL.......................................  Lambert-St. Louis
                                             International
TPA.......................................  Tampa International
------------------------------------------------------------------------


                  FIGURE 2.--REVEAL TECHNOLOGIES CT-80
------------------------------------------------------------------------
                                                       Airport
------------------------------------------------------------------------
ABE.......................................  Lehigh Valley International
ACY.......................................  Atlantic City International
ALB.......................................  Albany International
BGR.......................................  Bangor International
BIL.......................................  Billings Logan International
BTV.......................................  Burlington International
CHS.......................................  Charleston AFB/International
ELP.......................................  El Paso International
EYW.......................................  Key West International
FAI.......................................  Fairbanks International
GPT.......................................  Gulfport-Biloxi
                                             International
GSP.......................................  Greenville-Spartanburg
                                             International
HGR.......................................  Hagerstown Regional-Richard
                                             A Henson Field
HPN.......................................  Westchester County
HSV.......................................  Huntsville International-
                                             Carl T Jones Field
ISP.......................................  Long Island MacArthur
LGB.......................................  Long Beach/Daugherty Field
MRY.......................................  Monterey Peninsula
OMA.......................................  Eppley Airfield
ORF.......................................  Norfolk International
PIE.......................................  St. Petersburg-Clearwater
                                             International
RNO.......................................  Reno/Tahoe International
ROC.......................................  Greater Rochester
                                             International
SWF.......................................  Stewart International
SYR.......................................  Syracuse Hancock
                                             International
TYS.......................................  McGhee Tyson
------------------------------------------------------------------------

    Question. Has the checkpoint technology that has been deployed been 
verified by the Science & Technology Directorate?
    Answer. TSA works closely with the S&T Directorate and discusses 
its ongoing R&D efforts to ensure the S&T Directorate is not only aware 
of but supports TSA's efforts related to technology development.
    hazardous materials endorsement for commerical driver's license
    Question. On January 13, 2005 a final rule was published in the 
Federal Register which established a fee for individuals who apply for 
or renew a hazardous materials endorsement for a commercial driver's 
license. According to the final rule, TSA intends to use fees collected 
under this rule to pay for the costs of the security threat assessments 
and the costs of collection and transmission of finger prints and 
biographical information.
    Please provide the committee with an estimate of the amount of 
money these new fees are expected to bring in.
    Answer. By law, the fees for individuals who apply for or renew a 
hazardous materials endorsement for a commercial driver's license 
cannot be collected in excess of the expenses to run the program. 
Accordingly, the program is expected to cost about $9 million in fiscal 
year 2005 and approximately $28 million in fiscal year 2006. The 
original fiscal year 2006 estimate of $44 million was adjusted mainly 
due to the change in the estimated HAZMAT applicant population.

                           PRIVATE SCREENERS

    Question. The budget proposes an increase of $15 million to 
continue the privatized screening contracts at the current service 
levels. Explain why an additional $15 million is necessary when, 
currently, only one airport has applied for a private screening 
workforce. Does TSA still anticipate the current number of airports 
participating in privatized screening contracts to remain the same?
    Answer. As of May 2005, the Screening Partnership Program (SPP) had 
received a total of seven applications, which includes the original 
contract screening pilot program (PP5) airports (San Francisco, Kansas 
City, Rochester, Jackson Hole and Tupelo), and two new airports (Elko, 
Nevada and Sioux Falls, South Dakota).
    In directing TSA to establish PP5, ATSA required that the level of 
screening services and protection provided at the PP5 airports be equal 
to or greater than the level provided at an airport with Federal 
screeners. Similarly, contract screeners must receive compensation and 
other benefits that are not less than the compensation and other 
benefits provided to Federal personnel. In accordance with these 
requirements, TSA strives for a level playing field between airports 
with private contract screeners under PP5 and the SPP and airports with 
Federal screeners. Consequently, as each airport considers whether to 
continue with Federal screening or to apply for the SPP, it can base 
its decision on its own preferences and criteria rather than 
considerations of security, resources, or level or service.
    The additional $15 million requested is reflective of the increased 
cost of providing screening services at the levels required under ATSA. 
TSA is not funding services in addition to those provided in previous 
years except where consistent with changes in the Standard Operating 
Procedure made effective throughout the Nation's commercial aviation 
system.
    In fiscal year 2005, a reprogramming increase of $23 million was 
made to support the cost of providing PP5 airports with the level of 
screening required for all commercial airports under ATSA. This 
reprogramming supported increased insurance premium costs for worker's 
compensation, terrorism and health insurance premiums, ATSA-guaranteed 
screener pay parity, and operational requirements relating to 
flexibilities granted to contractors in the areas of recruitment, 
hiring, and training.
    Question. Are any of the airports currently participating planning 
or considering opting out of the private screening program?
    Answer. TSA has received applications from all five private 
screening pilot airports to participate in the SPP.
    Question. Are other airports not currently participating in the 
program planning to opt in?
    Answer. While several airports have expressed interest to TSA about 
participating in the SPP, to date, only Elko Regional Airport and Sioux 
Falls Regional Airport have formally applied.

            FOREIGN AND DOMESTIC REPAIR STATION INSPECTIONS

    Question. The budget request includes $6 million for Foreign and 
Domestic Repair Station Inspection Operations. Does TSA have a schedule 
to inspect the 664 Foreign and Domestic Repair Stations? If so, provide 
the schedule to the Committee.
    Answer. TSA has developed a Notice of Proposed Rulemaking (NPRM) 
that will increase security at both foreign and domestic repair 
stations. The NPRM is currently under Departmental review and is 
expected to be released for public comment in late summer of 2005. The 
agency has not yet developed a firm schedule for auditing all foreign 
repair stations. TSA is currently developing a survey document that 
will be sent to repair stations to assess their operations. This effort 
will assist in determining which repair stations pose the greatest 
potential risk and should be given priority for audits. TSA is also 
developing the necessary assessment tools for use by the inspectors 
during their visits to repair stations.
    TSA fully expects to have developed the assessment tools necessary 
for the auditing effort by the time the final rule for repair station 
security is released, which TSA expects to occur by spring 2006. The 
actual schedule of audits will be dependent upon the initial survey of 
repair stations, which will begin as soon as the final rule is 
released.
    Question. Is $6 million and 31 FTE the full amount necessary to 
inspect all Foreign and Domestic Repair Stations and the domestic 
maintenance, repair and overhaul facilities in the United States? If 
not, how much is needed to comply with ``Vision 100?''
    Answer. TSA would like to note that the $6 million and 31 FTE are 
earmarked solely for audits of foreign repair stations, of which there 
are approximately 650. There are approximately 4,500 repair stations in 
the United States, and current plans are to cover domestic audits with 
the existing force of Aviation Security Inspectors (ASI). Approximately 
950 ASIs are presently assigned to geographical areas across the United 
States and inspect all facets of regulated aviation assets, not just 
repair stations.
    The hiring projection with the $6 million requested in the fiscal 
year 2006 Budget is 12 inspectors, one program manager, and one program 
analyst. It is anticipated that additional foreign repair station 
inspectors, plus a manager and analyst, will be hired over a three-year 
time period. The hiring and operating projection costs of the program 
for its second and third years will be more accurately approximated 
after TSA assesses the costs of the initial year of the program.

                                TSA R&D

    Question. The budget proposes to consolidate TSA R&D activities 
within the Science and Technology (S&T) Directorate. However, only $109 
million is proposed for fiscal year 2006 within the S&T budget. TSA's 
budget maintains $23 million for operation R&D activities, such as 
pilot projects. Please explain why the program is proposed to be cut by 
$46 million and what impact that would have on ongoing R&D activities 
and those planned prior to the transfer proposal.
    Answer. The $46 million consists of the following reductions: $25 
million from Air Cargo R&D and $21 million from Explosives Detection 
Equipment (EDS) R&D. The reductions are appropriate given maturing 
technology in both areas, which, for example, will result in the 
deployment of Explosive Detection Trace Portals to 41 airports by the 
end of January 2006.
    Overall, the reductions will have minimal effect on the R&D 
activities that would have been undertaken by TSA because those 
activities were budgeted by TSA and included in the proposed amount of 
$109 million.

                          REGISTERED TRAVELER

    Question. Last year, TSA indicated that, assuming there was 
sufficient national interest in the program, the $15 million provided 
in fiscal year 2005 would be used for start-up operational costs and 
future funding would be generated by fees incurred by participants. 
What is the amount anticipated in fiscal year 2006 from offsetting 
collections?
    Answer. TSA envisions a fully operational RT Pilot Program to be 
fee funded. The President's fiscal year 2006 Budget proposal includes 
$22.5 million from potential offsetting collections for RT, which was 
consolidated into the proposed SCO. However, TSA will need to implement 
a fee rule to accept fees for RT.
    Question. What is the timeline and deployment schedule for 
implementing this program beyond the pilot stage?
    Answer. Through a series of concurrent stand-alone pilots, TSA has 
been aggressively testing the RT concept of running threat assessment 
and identity verification checks on eligible volunteers in order to 
provide them with an expedited clearance through security checkpoints. 
TSA is currently running successful programs at five Federally managed 
pilot sites (Minneapolis, Los Angeles, Houston, Boston, and Washington, 
D.C.), which are scheduled to be completed in September 2005. TSA is 
concurrently working with the GOAA to launch a sub-pilot at Orlando 
International Airport in summer 2005 that will assess the feasibility 
of incorporating a private sector component into the RT concept.
    Results of these pilots will be analyzed to determine the program's 
effect on security and service, enabling the Department to make 
decisions about full scale implementation of RT. Any timeline and 
deployment schedule for implementing RT beyond the pilot stage will be 
linked to the Department's decision.

                            DEEPWATER BUDGET

    Question. Virtually the entire increase requested for Deepwater in 
fiscal year 2006 is just to sustain legacy assets. The revised 
Deepwater plan indicates that the lifecycle costs to sustain legacy 
assets could cost anywhere between $828 million and $1.8 billion. Why 
is there such a large difference between these two amounts?
    Answer. The difference the two amounts is a function of time and 
money. The lower number reflects a lower total acquisition cost ($19 
billion) over a shorter implementation period (20 years). The higher 
legacy asset funding amount reflects a higher total acquisition cost 
($24 billion) over a longer implementation period (25 years). The 
shorter plan invests less funding in legacy sustainment, decommissions 
legacy assets sooner, but commissions fewer new assets. The longer plan 
invests more in legacy sustainment to keep the assets in commission 
longer, invests more in technology refresh/obsolescence prevention 
(i.e. life cycle costs), and delivers more new assets. Earlier 
decommissioning of legacy assets translates into lower legacy 
sustainment costs, but equates to a lower number of assets to perform 
Coast Guard missions both during build out and upon completion.
    Question. What is the Coast Guard doing to better plan and prepare 
for legacy asset sustainment?
    Answer. The Coast Guard has a detailed plan for maintaining its 
legacy cutters and aircraft. Coast Guard men and women are well trained 
to maintain and continually upgrade Coast Guard aviation, surface, and 
shore infrastructure assets. A mature project planning and execution 
program exists within the Coast Guard to provide routine unit-level and 
depot-level maintenance. Where expertise or infrastructure doesn't 
exist organically within the service, the Coast Guard uses contracted 
resources to provide the requisite maintenance support. Maintaining a 
high proficiency level amongst the Coast Guard's ``maintainers'' is 
critical to the long-term health of the service. One of the service's 
guiding principles is to maintain a core competency of maintenance 
expertise amongst Coast Guard (military and civilian) members to ensure 
service readiness, especially during periods of national emergency.
    The Coast Guard maintains its legacy aircraft and vessels using 
organic maintenance and repair infrastructure in conjunction with 
contracted depot-level maintenance activities. These operating expense 
(OE) funded maintenance efforts are complemented by periodic 
Acquisition, Construction and Improvement (AC&I) projects which either 
enhance/sustain asset capabilities and extend asset service lives, or 
replace assets.
    On April 20, 2005, the Coast Guard submitted a legacy asset report 
to Congress, detailing the Coast Guard's legacy asset issues. This 
report reflects legacy cutter and aviation AC&I projects that the Coast 
Guard has included in the fiscal year 2006 Budget request and 
anticipates requesting in future budget submissions.
    Question. The Coast Guard's capital investment plan indicates that 
the Deepwater budget will be decreased by $214 million in fiscal year 
2007. How can you propose such a cut in light of increasing mission 
demands and the ``declining readiness'' of existing assets?
    Answer. The President's fiscal year 2006 Budget requests $966 
million for Deepwater, $242 million above the fiscal year 2005 enacted 
levels, to fund critical modernization initiatives such as production 
of the third National Security Cutter and design and long lead material 
purchase for the Offshore Patrol Cutter while addressing immediate 
legacy asset issues such as HH-65 re-engining and Medium Endurance 
Cutter mission effectiveness programs. The Coast Guard's fiscal year 
2006-2010 Capital Investment Plan contains $752 million for Deepwater 
in 2007 to highlight the one-time nature of several of these 
investments in legacy asset conversions and sustainment projects.
    Question. The GAO recently testified that the Coast Guard has 
acknowledged that it needs to develop condition measures that more 
clearly demonstrate the extent to which asset conditions affect mission 
capabilities, but such measures have not been finalized or implemented. 
What is the Coast Guard's schedule for putting such measures in place?
    Answer. To track the condition of the its cutters, the Coast Guard 
currently measures a Percent of Time Free (POTF) of major casualties 
measure that shows the general decline in condition of Deepwater legacy 
assets between 2000 and 2004. To track the condition of the its 
aircraft, the Coast Guard currently measures aircraft availability 
rates. However, as GAO has pointed out, ``the Coast Guard's available 
condition measures are inadequate to capture the full extent of the 
decline in the condition of deepwater assets with any degree of 
precision.'' and Justice Issues, testified to the House Committee on 
Transportation and Infrastructure that, ``Other evidence we gathered, 
such as information from discussions with maintenance personnel, point 
to conditions that may be more severe than the available measures 
indicate.''
    The Coast Guard acknowledges that it needs better condition 
measures to more accurately depict the condition of its assets. To 
address this issue, the Coast Guard is developing condition measures 
that more clearly link cutter condition to mission capability. This 
effort is scheduled for completion by the end of fiscal year 2005.
    In fiscal year 2004, a team of personnel was assembled from 
engineering support activities in both Atlantic and Pacific Areas to 
work with Coast Guard Headquarters to construct an asset condition 
matrix that incorporates engineering casualty reporting (CASREP) data 
and performance data maintained in the Coast Guard's Readiness 
Management System (RMS). To do so, the team is identifying/linking 
thousands of shipboard engineering subsystems across every cutter class 
and their direct impact/contribution to each Coast Guard mission.
    By establishing a clear relationship between engineering subsystems 
and mission performance, the Coast Guard will be better able to 
identify return on its maintenance investments and determine the best 
use of limited maintenance resources.
    The Coast Guard is currently working to develop a comparable 
measure for its aviation assets; however, it has not established a 
timeline for implementation.
    Question. The GAO report also noted that certain legacy costs, such 
as maintaining the 378-foot class through 2016 instead of 2013 as 
originally planned, is not addressed in the revised Deepwater budget 
baseline. How much funding will this require and are there other legacy 
assets that need further maintenance but are not included in the 
revised Deepwater plan?
    Answer. Legacy asset sustainment is a Coast Guard stewardship 
priority that requires judicious balancing of current and future 
demands on limited AC&I investment resources. One of the primary 
determining factors is how long the asset class will remain in service. 
The 378-foot High Endurance Cutters (WHEC) are the first legacy cutters 
expected to be removed from service as the National Security Cutters 
(NSCs) are deployed. Therefore, the Department and the Coast Guard have 
invested AC&I funds toward acquisition of NSCs vice sustaining WHECs. 
Until they are decommissioned, WHECs will be sustained through routine 
depot level maintenance funded within the Coast Guard's Operating 
Expense Appropriation. The 210-foot and 270-foot medium endurance 
cutters are projected to remain in service longer, therefore 
substantial AC&I investments are being made in these classes in the 
form of Mission Effectiveness Program funds sought in fiscal year 2006 
and in the out-years. Similar legacy sustaining initiatives are funded 
in the Deepwater implementation plan for aircraft that will remain in 
the Coast Guard's final Deepwater inventory. Additional details on the 
Coast Guard's plan to sustain its legacy assets are provided in a 
report that was submitted to Congress on April 20, 2005.
    Question. What measures have the Coast Guard put in place to ensure 
that competition is built into Deepwater acquisition decisions?
    Answer. From the beginning of the acquisition process, the Coast 
Guard has ensured competition has been built into the Deepwater 
program. The GAO recently reported that all assets originally planned 
for the first five years of the contract were properly competed through 
the initial contract award process that resulted in selection of 
Integrated Coast Guard Systems (ICGS) as the Deepwater contractor. 
Beyond the initial contract award process, the Coast Guard has taken 
several steps, including implementing GAO recommendations to ensure 
acquisitions decisions are adequately competed. There are many examples 
of competition in subcontracts that can be provided, if desired. For 
example, where changes to the original proposal have been introduced 
into the acquisition, the Coast Guard ensures that a competitive price 
determination is made. The price of this change order must be 
determined to be fair and reasonable before the Coast Guard will 
approve ICGS action. The Coast Guard monitors ICGS' use of the open 
business model as required by their internal procedures for second-tier 
subcontractors. ICGS also requires the first-tier subcontractors to 
encourage 2nd and 3rd tier suppliers to promote competition.
    Question. What is the cost comparison of re-engining the existing 
fleet of HH-65 aircraft versus the procurement of a new aircraft 
outfitted to perform the same mission?
    Answer. Re-enginging an HH-65 helicopter costs approximately $3 
million. It would cost approximately $19 million to buy a new, 
commercial aircraft capable of performing the missions of a re-engined 
HH-65. Under the revised Deepwater implementation plan, HH-65 
helicopters will receive additional upgrades to become multi-mission, 
cutter helicopters. The total cost of the re-engining and the upgrade 
to Multi-Mission Cutter Helicopter (MCH) is slightly less than $7 
million per unit. To replace the entire HH-65 fleet would cost $1.8 
billion vice $636 million for upgraded HH-65s, three times as much. It 
should also be noted that when the Coast Guard made the decision to re-
engine the HH-65s it was in the face of a crisis in engine safety and 
reliability. Timely resolution of that crisis did not allow for 
acquisition of a replacement fleet. Further, HH-65 re-engining was 
already planned as part of the Deepwater solution. Re-engining was the 
most timely, cost-effective short and long-term solution.
    Question. What is the status of the HH-65 re-engining process?
    Answer. In August 2004, the first re-engined HH-65 was delivered to 
the Coast Guard at Aviation Training Center Mobile, AL, for operational 
testing and evaluation. As of the first of September 2005, 10 re-
engined HH-65Cs had been delivered for full operational status to Air 
Station Atlantic City, NJ, (5), Aviation Training Center Mobile, AL, 
(1), and Air Station Savannah, GA, (4). To accelerate the HH-65 re-
engining project the Coast Guard and its contractor, Integrated Coast 
Guard Systems (ICGS), have examined the quality and suitability of a 
second re-engining facility located in Columbus, MS. In August 2005, 
this facility delivered its first re-engined aircraft to the Coast 
Guard. This aircraft was determined to meet needed quality and 
suitability parameters and the Coast Guard contracted with ICGS to re-
engine an additional 11 aircraft at the Columbus facility. The Coast 
Guard plans to have all 84 operational aircraft re-engined in early 
2007.
    Question. Will the 24 month schedule be met?
    Answer. Provided the President's fiscal year 2006 request of $133.1 
million for HH-65 re-engining is fully funded, the Coast Guard's plan 
is to complete re-engining the operational fleet of 84 helicopters by 
February 2007. This is the fastest possible production schedule based 
on the availability of engine kits and parts, maximum production at 
Coast Guard Aviation Repair and Supply Center, additional production 
capacity that may become available at a second facility, and number of 
aircraft that can be removed from operational service at any given 
time.
    Question. What is the current timetable?
    Answer. The first re-engined HH-65 was delivered for operational 
test and evaluation in August 2004. Regular production delivery of 
operational HH-65 began in April 2005, when the second HH-65 was 
returned to operational status at Air Station Atlantic City, NJ. Four 
others are scheduled for delivery in May 2005. In fiscal year 2005, a 
total of 29 conversion starts are planned. In fiscal year 2006, 51 
conversion starts are planned. All 84 operational aircraft are 
scheduled for completion early in fiscal year 2007. Re-engining of all 
95 HH-65s is scheduled to be completed in 2007.
    Question. What barriers exist that could the Coast Guard from 
meeting this schedule?
    Answer. The current timetable, resulting in completing the re-
engining of the Coast Guard's operational fleet of 84 HH-65 
helicopters, is based on the best outcome of a number of variables. To 
achieve this schedule there must be:
  --Full support of the President's Budget request for $133.1 million 
        in fiscal year 2006 funding for re-engining;
  --Maximum availability of engine kits and parts;
  --Effective mitigation of operational needs to maximize the number of 
        aircraft that can be removed from operational service at any 
        given time;
  --The highest possible production at Coast Guard Aviation Repair and 
        Supply Center; and
  --Additional production capacity at a second facility.
    If any of these variables are not optimal, then the schedule will 
not be met.

                      DEEPWATER PROGRAM MANAGEMENT

    Question. For fiscal years 2005 and 2006, provide a detailed spend 
plan for program costs for ICGS Management and Government program 
management/ICGS.
    Answer.

                SYSTEMS ENGINEERING & INTEGRATION BUDGET
                          [Dollars in millions]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                Activity                       2005            2006
------------------------------------------------------------------------
Systems Engineering:
    Performance Engineering (Measurement               6               6
     & Modeling) \1\....................
    Engineering and Process Management                15              16
     \2\................................
Integration Management:
    Systems Operations Management \3\...              17              17
    Data Management \4\.................               2               2
Award Fee Pool..........................               3
                                         -------------------------------
      Total.............................              43              45
------------------------------------------------------------------------
\1\ Performance Engineering.--In accordance with Deepwater's performance-
  based acquisition, Performance Engineering includes the efforts
  required to measure the degree to which the Integrated Deepwater
  System achieves the overarching goals of maintaining and improving
  operational performance while managing total ownership costs within an
  aggressive baseline. Risk reduction is achieved through modeling,
  simulation, and analysis coupled with test & evaluation to assess the
  appropriate mix and capabilities of Deepwater assets to achieve the
  desired operational performance.
\2\ Engineering and Process Management.--Engineering Management consists
  of the overarching technical management team responsible for
  translating Coast Guard operational and performance requirements into
  a cohesive Implementation Plan and managing all the technical efforts
  required to develop, deliver, deploy, and maintain the Deepwater
  assets critical to achieving the Implementation Plan. Correspondingly,
  Process Management is responsible for leading the identification,
  evaluation, implementation and improvement of Deepwater technical
  engineering processes deemed critical to the successful execution of
  the Implementation Plan.
\3\ Systems Operations Management.--The Systems Operations Management
  effort includes the industry program management tasks required to
  direct and control all organizational functions including engineering,
  business management, contract management, quality management,
  configuration management, and data management. An Integrated Deepwater
  System Program Management Team (including C4ISR, Surface, Aviation,
  and Integrated Logistic Systems management teams) ensures effective
  cost control, schedule, and technical performance required to maintain
  the System-Of-Systems approach necessary for the Coast Guard to
  perform its specified missions.
\4\ Data Management.--The Data Management effort includes tasks required
  to provide configuration control infrastructure for all data across
  the program. A program-wide Integrated Product Data Environment is
  utilized to integrate the efforts of geographically-separated
  engineering teams using a common toolset to enable rapid collaboration
  and sharing of consistent information.
Deepwater Program management funds are used for technical support from
  private sector and other government agencies not available within the
  Coast Guard.


                  GOVERNMENT PROGRAM MANAGEMENT BUDGET
                          [Dollars in millions]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                Activity                       2005            2006
------------------------------------------------------------------------
Technical Performance Support:
    Technical Engineering Support \1\...            19.1            20.1
    Operational Tests and Evaluation \2\             3.8             4.0
 
Program Management Support:
    Financial Management \3\............             3.0             3.1
    Transition Support \4\..............             4.6             4.9
    Management Support \5\..............             2.6             2.7
    Performance Metrics/Measurement                  2.2             2.3
     Support \6\........................
    Information Technology \7\..........             2.7             2.9
                                         -------------------------------
      TOTAL.............................            38.0            40.0
------------------------------------------------------------------------
\1\ Technical Engineering Support.--Aeronautical, electronics and naval
  engineering; logistic systems, Command and Control, weapons system
  certification, and other expertise not available from Coast Guard
  resources.
\2\ Operational Tests and Evaluation.--Navy's Commander Operational Test
  and Evaluation Forces is the technical advisor to the Coast Guard
  responsible for management of independent tests for the early review
  and assessment of Integrated Deepwater System asset operational
  performance.
\3\ Financial Management.--Includes independent analysis and support of
  the Defense Contract Auditing Agency, other Defense Contract support,
  performance/risk management, financial systems management provided to
  asset level Program Management Representative Offices for independent
  cost analysis and pricing.
\4\ Transition Support.--Augments Coast Guard teams for delivery of new
  assets, existing infrastructure changes, developing document
  configuration and management, graphics support, and support for
  training infrastructure analysis, manpower analysis, operations
  doctrine development, architecture analysis.
\5\ Management Support.--Provides for program specific training, project
  management and outreach initiatives as recommended by Government
  Accountability Office.
\6\ Performance Metrics/Measurement Support.--Modeling, simulation, and
  analysis of various inputs to include Total Ownership Cost,
  Operational Performance, and Earned Value Management Processes.
\7\Information Technology.--Specialized information technology to
  support Deepwater Program management.

          MARITIME TRANSPORTATION SECURITY ACT IMPLEMENTATION

    Question. On July 1, 2004, port facilities and vessels were 
required to submit security plans to the Coast Guard and to be in 
compliance with those plans. The Coast Guard has now inspected 
approximately 2,900 regulated facilities. The Government Accountability 
Office (GAO) recently concluded that it is unclear if the Coast Guard's 
inspection process has been effective or not. Can you describe what the 
Coast Guard is doing to ensure that these facilities are following 
through on their security plans?
    Answer. The Coast Guard ensures that facilities operate in 
accordance with their approved security plans through annual exams and 
spot checks. The Coast Guard continues to work constructively with GAO 
to insure Coast Guard requirements and procedures are sustainable and 
that they make a positive impact on the security of the maritime 
transportation system. The requirement for an evaluation of vessel and 
facility security plans is one tool to reduce vulnerabilities in this 
critical system--the vast majority of which is owned and operated by 
the private sector. To ensure that regulatory and inspection frameworks 
continue to serve the intended objectives, regular evaluations and 
performance metrics are being developed to assess their effectiveness. 
For example, the Coast Guard plans to begin an evaluation of its 
facility inspection efforts in June 2005, complete the field portion of 
the evaluation in September 2005, and produce a final evaluation in 
December 2005.
    Question. Last year, GAO reported that many facility and vessel 
owners said it would be difficult to obtain the financial resources to 
fully mitigate their known vulnerabilities. GAO reported that one 
official at a major port indicated that some security vulnerabilities 
were not included in its facility plan because funding was not 
available to address them. What is the Coast Guard doing to ensure that 
the inspection process is just not a ``paper exercise'' and one that 
addresses vulnerabilities?
    Answer. The Coast Guard has several policies in place that provide 
for a meaningful inspection process and ensure facilities fully address 
vulnerabilities.
    Prior to final Facility Security Plan (FSP) approval, Coast Guard 
Captains of the Port review and evaluate each submitted Facility 
Security Assessment (FSA), ensuring the FSPs identify and addressed all 
vulnerabilities. This evaluation includes an on-site survey by the 
Coast Guard.
    After approving the FSP, the Coast Guard annually inspects each 
facility for MTSA compliance. The Coast Guard developed specific 
inspection policies to ensure that:
  --The facility complies with its FSP;
  --The approved FSP adequately addresses the performance-based 
        criteria outlined in the regulations;
  --The adequacy of the FSA and the Facility Vulnerability and Security 
        Measures Summary (CG-6025); and
  --Measures in place adequately address the vulnerabilities.
    To carry out the inspections, qualified Coast Guard facility 
inspectors use a published, comprehensive inspection guide to identify 
deficiencies and any vulnerability not previously disclosed.
    Question. With no port security grant program, how can ports know 
that resources are available to implement the MTSA?
    Answer. DHS has administered a total of four port security grant 
rounds since fiscal year 2002. The Coast Guard has played a significant 
role in all four grant rounds, participating at every step of the 
process, from field recommendations to the grant awards--which have 
totaled over $560 million since September 11, 2001.
    In 2004, Secretary Ridge designated the Office of State and Local 
Government Coordination and Preparedness (SLGCP) as the Department's 
``one-stop shop'' to centralize State and local terrorism preparedness 
and grant administration with other emergency preparedness grant 
programs, including the Port Security Grant Program previously 
administered by the TSA. The centralization will provide better service 
to key stakeholders and provide a more effective overall homeland 
security grant program. The Coast Guard will maintain an important and 
active role in the port security grant process. $150 million was 
appropriated for fiscal year 2005 (Round 5) port security grants. A 
fact sheet regarding round 5 is available upon request. Additional 
information on the port security grant program can be found at the 
following internet address:

    https://www.portsecuritygrants.dottsa.net/tsadotnet/default.aspx
                            requirements gap

    Question. The Coast Guard's budget references a July 2004 ``Call to 
Action'' from the U.S. Interdiction Coordinator. That report noted that 
actionable intelligence has never been better but the United States is 
frequently unable to pursue identified interdiction opportunities. An 
example of this is the amount of operational hours that are available 
for the Coast Guard's Maritime Patrol Aircraft.
    To meet the operational requirements cited in the Coast Guard's MPA 
requirements study, the Coast Guard would have to double the amount of 
maritime patrols from the current capability of 32,000 hours. Your 
budget includes an increase of only 1,500 maritime patrol hours for 
homeland security, counter-drug, and other mission areas. Why does such 
a large gap in requirements exist and what will it take to close it?
    Answer. The Coast Guard fixed wing requirements were determined by 
calculating the post-September 11 mission needs above the 1998 Coast 
Guard multi-mission baseline. The 1998 baseline was 44,400 hours. The 
additions are: 5,139 hours for counter-drug (CD) hours based on Joint 
Inter-Agency Task Force South analysis of the Department of Defense and 
multi-national drawdown in CD forces; 18,195 hours for maritime 
security long range surveillance under moderate, high and imminent 
threat periods; and 285 hours for Coast Guard Strike Force and Maritime 
Safety and Security Team transport. Given that 32,400 flight hours are 
available from Coast Guard fixed wing aircraft in fiscal year 2005, 
this leaves a gap of 34,454 hours.
    The Coast Guard's fiscal year 2006 budget includes several 
initiatives to help mitigate the current Maritime Patrol Aircraft (MPA) 
shortfall:
  --$16.5 million is requested for C-130H augments, providing an 
        additional 1,500 annual C-130H MPA flight hours. Funding will 
        also provide for dedicated aviation sensor personnel and 
        enhanced sensors to improve effectiveness in high-threat zones, 
        and permanently establish forward operating and logistics 
        support for MPA operating in the Central/South American region 
        to maximize time ``on station'' and reduce aircraft downtime 
        due to unscheduled maintenance.
  --$12.6 million is requested for 1200 additional annual operations 
        flight hours for C-130Js to conduct proficiency training and 
        logistics flights--freeing up missionized C-130Hs to conduct 
        MPA missions.
  --$5 million is requested to continue the missionization of the 6 C-
        130Js, through operation of the Aircraft Project Office, which 
        are estimated to be completely missionized by 2008.
  --$8.7 million is requested to staff and support the first two CASA 
        aircraft in advance of delivery and full operating capability 
        anticipated in 2007.
    The MPA gap will likely persist until the Deepwater system 
(including the CASAs, C-130s, and unmanned aerial vehicles) is fully 
built out.
    Question. What other major Coast Guard assets have a gap between 
capabilities and mission requirements?
    Answer. The significant capability gaps faced by the Coast Guard's 
major assets in the post-September 11 environment were the catalyst for 
the Deepwater Performance Gap Analysis and subsequent Mission Need 
Statement and the revised Deepwater Implementation Plan. These gaps are 
quantified both under capability--the attributes of individual assets, 
and capacity--force structure/fleet size. The following table depicts 
the capabilities and capacity for the Deepwater fleet to begin to close 
these gaps.
    In addition to the MPA gap, a capacity gap exists with the patrol 
boat fleet. Considering available 110-foot and 123-foot patrol boats 
and 179-foot patrol coastals on loan from the U.S. Navy, total patrol 
boat available hours reached it lowest point of approximately 75,000 in 
2004. This is considerably lower than the 1998 baseline of 
approximately 100,000 hours, and is a result of having cutters deployed 
to Operation Iraqi Freedom, and cutters out of service for the 110-123 
foot conversion program. With the advancement of the fast response 
cutter design and construction, the Coast Guard should reach the 1998 
baseline again between 2013 and 2015.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      Original Mission Needs                                     Revised Mission Needs
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                      Fleet                                                      Fleet
               Asset                   Size                     Capabilities                      Size                     Capabilities
--------------------------------------------------------------------------------------------------------------------------------------------------------
National Security Cutter (NSC)/             8  Deepwater Interoperability....................          8  DHS/DOD/Rescue 21 (R21) Interoperability
 Maritime Security Cutter, Large               Basic CG Command and Control (C2) Feed........             Remote/Integrated Anti-Terrorism/Force
 (WMSL).                                       Forward Looking Infrared......................              Protection (AT/FP) Weapons
                                                                                                          Redundant/Hardened/Improved C2
                                                                                                          Underwater Detection
Offshore Patrol Cutter (OPC)/              25  Deepwater Interoperability....................         25  DHS/DOD/R21 Interoperability
 Maritime Security Cutter, Medium              22 kt Speed...................................             CG COP Connectivity
 (WMSM).                                       Standard Flight Deck..........................             ..............................................
                                                                                                          Integrated Electo-Optical/Infrared System
                                    .........  Threat Receiver...............................  .........  Chemical, Biological, Radiological, Nuclear &
                                               30mm Gun......................................              Explosive (CBRNE) Detection
                                               Manual Small Arms.............................             Enhanced Maritime Patrol Surveillance
                                                                                                           Capability
                                                                                                          Nation-wide DHS Strategic Lift
Fast Response Cutter (OPC)/                58  Deepwater Interoperability....................         58  DHS/DOD/R21 interoperability
 Maritime Patrol, Coastal (WPC).               30mm Gun......................................             Remote Weapons & AT/FP Suite
                                               Baseline C4 Suite.............................             Redundant, Hardened C4
                                               Threat Receiver...............................             Defense Survivability
                                               20-yr Steel Hull..............................             40-yr Composite Hull
                                                                                                          CBRNE Detection & Defense
                                                                                                          Underwater Detection
Short Range Prosecutor (SRP)......         42  Deepwater Interoperability....................         33  DHS/DOD/R21 Interoperability
Long Range Interceptor (LRI)......         82  Deepwater Interoperability....................         91  DHS/DOD/R21 Interoperability
Long Range Surveillance Aircraft            6  Deepwater Interoperability....................         22  DHS/DOD/R21 Interoperability
 (LRS)/ HC-130H/J.                             Basic CG C2 Feed..............................             CG COP Connectivity
                                               Forward Looking Infrared......................             Integrated Electo-Optical/Infrared System
                                                                                                          CBRNE Detection
                                                                                                          Enhanced Maritime Patrol Surveillance
                                                                                                           Capability
                                                                                                          Nation-wide DHS Strategic Lift
Multi-Mission Cutter Helicopter            93  Deepwater Interoperability....................         95  DHS/DOD/R21 Interoperability
 (MCH)/HH-65C.                                                                                            CG COP Connectivity
                                                                                                          CBRNE Detection
                                                                                                          Airborne Use of Force
                                                                                                          Vertical Insertion/Delivery
Medium Range Surveillance Aircraft         35  Deepwater Interoperability....................         36  DHS/DOD/R21 Interoperability
 (MRS)/CASA CN-235.                                                                                       CG COP Connectivity
                                                                                                          Integrated Electo-Optical/Infrared System
                                                                                                          CBRNE Detection
Medium-Range Recovery Helicopter           42  Deepwater Interoperability....................         42  DHS/DOD/R21 Interoperability
 (MRR)/MH-60T.                                                                                            CG COP Connectivity
                                                                                                          Integrated Electo-Optical/Infrared System
                                                                                                          CBRNE Detection
                                                                                                          Airborne Use of Force
                                                                                                          Vertical Insertion/Delivery
Vertical Take-off & Landing UAV            69  ..............................................         45  CBRNE Detection
 (VUAV).
High Altitude & Endurance UAV               7  ..............................................          4  ..............................................
 (HAEUAV).
--------------------------------------------------------------------------------------------------------------------------------------------------------

                       PORT SECURITY ASSESSMENTS

    Question. In the fiscal year 2003 Supplemental, Public Law 108-11, 
Congress appropriated $38 million to conduct vulnerability assessments 
at all tier I strategic seaports. Of that amount, $16.8 million remains 
unobligated. Why hasn't this funding been spent?
    Answer. Prior to enactment of Public Law 108-11, the Coast Guard 
received supplemental funding and was able to conduct Port Security 
Assessments (PSAs) at 13 of the 55 strategic ports. The average cost of 
these assessments was $900,000 per port. The $38 million appropriation 
was to complete remaining port assessments based on this per-port 
average.
    In response to various maritime security initiatives, such as the 
Maritime Transportation Security Act of 2002, the Coast Guard revised 
the PSA methodology to ensure that the PSAs provided the greatest value 
to the port without being redundant to the other initiatives and 
programs. This updated methodology resulted in a reduction of costs 
from $900,000 to approximately $300,000 per port.
    As of September 14, 2005, the Coast Guard has expended $22.9 
million for the completion of PSAs of the Coast Guard's 55 militarily 
and economically strategic ports, as well as for important port 
security initiatives such as special technical assessments, development 
of a Geographic Information System (GIS) viewer, Coast Guard 
participation in the Comprehensive Review of nuclear power plants, and 
PSA Program operational costs. The remaining $16.6 million will be 
expended during the remainder of fiscal year 2005 and 2006 to continue 
refining port security assessments and our knowledge of port-specific 
vulnerabilities through specific technical or infrastructure 
assessments (bridges, tunnels, dangerous cargo, etc.). This additional 
work is critical to address needs that were identified in the course of 
the initial port assessments. It will provide important amplifying 
information to Coast Guard Captains of the Port and the Area Maritime 
Security Committees allowing them to address effectively port-specific 
vulnerabilities that have been identified.
    Question. How many assessments of tier I ports have been completed 
to date and what is the schedule to complete all Tier I ports?
    Answer. All Tier I PSAs are complete. The Coast Guard has completed 
PSAs at each of the previously identified 55 militarily and 
economically strategic U.S. ports, of which ``Tier I'' ports are a 
subset.

                        PORT SECURITY ESTIMATES

    Question. Last year, in response to a question for the record on 
port security, the Committee was told that Department of Homeland 
Security spending on port security increased by $224 million (13 
percent) in the President's Budget, from $1,661 million in 2004 to 
$1,885 million in 2005. Within the 2005 total is $1,675 million for 
Coast Guard port, waterway, and coastal security activities, including 
over $100 million for expenses related to the Maritime Transportation 
Security Act (MTSA). How was that funding level determined?
    Answer. The $1,675 million for Coast Guard Ports, Waterways, and 
Coastal Security (PWCS) activities in fiscal year 2005 was incorrectly 
stated in last year's question. The 2005 operating expense budget 
estimate for PWCS activities estimated in the Coast Guard's 2005 Budget 
congressional justifications as $1,501 million. The Coast Guard 
develops estimates of mission-specific spending using an activity based 
Mission Cost Model. The $101 million increase to implement MTSA 
attributable to PWCS was included in the $1,501 million estimate.

                      PORT SECURITY GRANT PROGRAM

    Question. The Coast Guard authorization Act for 2005, which was 
signed into law by the President on August 9, 2004, authorized $35 
million for the Secretary to fund pilot programs and award grants to 
investigate new methods and technologies to better secure our ports. 
The law specifically cites the need to examine new technologies such as 
those that can accurately detect explosives, chemical or biological 
agents, and nuclear materials. The law calls for the examination of new 
methods for securing our ports such as the use of satellite tracking 
systems and tools to mitigate the consequences of a transportation 
security incident. The fiscal year 2006 request does not include 
funding for this program. What intelligence led the Coast Guard to 
believe that such a program was unnecessary?
    Answer. The Coast Guard is aggressively moving to implement new 
technologies in order to better secure our ports. Rather than pilot 
programs or grants, the Coast Guard believes it more prudent in the 
near term to expend limited resources on the deployment of important 
proven technologies while other DHS components responsible for 
development of cross-cutting technologies and private sector grant and 
research programs administer pilot and grant programs, notably the S&T 
Directorate and SLGCP. S&T, in particular, has a wealth of research and 
development expertise as well as an active university research program 
to pursue technology enhancements across all homeland security 
requirements. Concurrently, SLGCP is overseeing the administration of a 
port security grant program that has awarded over $560 million in port 
security grants already, and will award another $150 million in fiscal 
year 2005.
    In the near term, the Coast Guard is focused on enhancing Maritime 
Domain Awareness (MDA). MDA is defined as ``the effective understanding 
of anything associated with the global maritime environment that could 
impact the security, safety, economy or environment of the United 
States.'' Effective MDA is a critical enabler to national maritime 
security strategies and supports the full range of Coast Guard 
missions.

                      COVERT SURVEILLANCE AIRCRAFT

    Question. What is the Coast Guard's definition of a ``covert 
surveillance aircraft''?
    Answer. The 2005 DHS Appropriations Act conference report defines 
the manned covert surveillance aircraft as a ``medium to short range, 
fixed wing surveillance aircraft.'' In the context of the Coast Guard's 
Manned Covert Surveillance Aircraft (MCSA) acquisition project, 
``covert'' is defined as ``the capability to operate quietly and 
surreptitiously enough to enable the surveillance, detection, 
classification and identification of a maritime target without the 
target's inhabitants becoming aware of the aircraft's presence.''
    Question. How will a covert surveillance aircraft serve the Coast 
Guard's mission?
    Answer. The Coast Guard is developing the operational requirements 
documents that will define the missions and operating parameters for a 
manned covert surveillance aircraft. The Coast Guard is also examining 
how this aircraft will fit into the Deepwater system, given that the 
Deepwater implementation plan accounts for the service-standard fixed, 
rotary wing and unmanned aircraft necessary to meet projected Coast 
Guard mission needs documented in the revised Mission Needs Statement.
    Question. How much does the Coast Guard estimate the cost of a 
covert surveillance aircraft to be?
    Answer. The rough order of magnitude acquisition cost of a fully 
missionized, FAA-certified manned covert surveillance aircraft is 
estimated to be $8 million.
    Question. What is the timeline for acquiring a covert surveillance 
aircraft or aircrafts for operational use?
    Answer. The procurement timeline is currently being constructed 
with the Manned Covert Surveillance Aircraft acquisition team. The 
following table provides the best estimate of initial operating 
capability (IOC).

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Operational Requirements Document Written   July 2005
 & Approved.
Release of Request for Proposal...........  September 2005
Aircraft Award............................  January 2006
Airworthiness Certification Test/           January 2007
 Evaluation Commencement.
Initial Operating Capability..............  January 2006
------------------------------------------------------------------------

    Question. Are there existing platforms available on the commercial 
market that would meet the Coast Guard's specifications for a covert 
surveillance aircraft? If so, please describe them.
    Answer. Currently, the Coast Guard is developing the operational 
requirements and specifications for the Manned Covert Surveillance 
Aircraft. Once these are defined and approved, the Coast Guard will 
conduct a formal market survey and or request for proposal to determine 
the availability of any suitable aircraft in the commercial market that 
meets its requirements.

                    AUTOMATIC IDENTIFICATION SYSTEM

    Question. The Coast Guard has obligated $7.5 million to a contract 
with a commercial low earth orbit satellite communications provider for 
the installation of AIS capability on a concept validation satellite 
and design for installation on future satellites. What type of coverage 
does this provide to the Coast Guard?
    Answer. The deployment of a concept validation payload aboard a 
commercial low earth orbit satellite is a prototype for the receipt of 
AIS signals via satellites from vessels within 2000 nautical miles of 
the U.S. coast.
    Question. The AIS budget provides for approximately $30 million per 
year over the next five fiscal years (including fiscal year 2006). 
Could this acquisition program be accelerated if additional funding 
became available?
    Answer. The Coast Guard's fiscal year 2006-2010 Capital Investment 
Plan calls for project completion in 2011; however, the project could 
be completed sooner if additional funding is provided.
  coast guard support of nsf research operations in the polar regions
    Question. The budget request for the National Science Foundation 
includes $48 million in budget authority to operate and maintain the 
399 foot Polar Icebreakers. This amount does not include funding such 
as extraordinary maintenance costs. In fiscal year 2005, these 
extraordinary maintenance costs are estimated to be $18 million. The 
budget indicates that a Memorandum of Understanding (MOU) is being 
discussed to address these additional costs. What is the status of the 
MOU between the National Science Foundation (NSF) and the U.S. Coast 
Guard?
    Answer. The Coast Guard and NSF are currently negotiating to 
conclude an MOU for fiscal year 2006.
    The $48 million NSF budget authority represents the base funding to 
operate and maintain the 399 foot POLAR STAR and POLAR SEA and the 420 
foot HEALY. The MOU will reflect an agreement between NSF and Coast 
Guard for NSF to pay for all personnel, maintenance and operational 
funds necessary to manage the polar icebreaking program.
    The Administration plans to maintain current polar icebreaker fleet 
capabilities at least until a new national polar icebreaker 
requirements policy decision is made.
    Question. Please provide a historical breakdown, by fiscal year, of 
the costs to support the NSF's scientific and operational programs in 
the Polar Regions, including maintenance costs, and how much the NSF 
reimbursed for those costs in each fiscal year.
    Answer. In recent years, the Coast Guard icebreaker fleet has 
devoted, on average, 82 percent of its operational time in support of 
the NSF. The chart below attributes NSF's percentage of operational 
time to the total annual funding for the icebreakers (including 
maintenance costs).
    The following table provides a historical breakout of Coast Guard 
polar icebreaking support costs, those costs attributable to NSF 
activities, and the amounts reimbursed by NSF to the Coast Guard per 
the MOA between the two agencies.

----------------------------------------------------------------------------------------------------------------
                                                                    Total Costs       Percent
                                                   Reimbursement    required to     Operational       Cost to
                   Fiscal year                      Amount from       support      time devoted     support NSF
                                                        NSF         cutters \1\       to NSF         programs
----------------------------------------------------------------------------------------------------------------
1999............................................      $2,711,732     $31,397,056              76     $24,004,075
2000 \2\........................................       2,145,242      40,971,438              80      32,777,150
2001............................................       4,966,672      41,899,046              64      26,839,661
2002............................................       5,961,684      49,195,000              93      45,643,381
2003............................................       8,165,647      50,501,309              91       45,925531
2004............................................      12,422,190      57,585,544              89      51,189,137
----------------------------------------------------------------------------------------------------------------
\1\ Note: Costs include actual unit level operating and maintenance costs, fuel costs, depot level maintenance
  costs, and personnel costs for the salaries and benefits attributable to the people assigned to the cutters.
  These costs have grown to exceed budgeted amounts due to extraordinary maintenance costs required to sustain
  the polar icebreaking fleet. The President's fiscal year 2006 budget proposes transfer of the Coast Guard's
  base funding (using budgeted amounts) to support operation and maintenance of these cutters.
\2\ Reflects the addition of the HEALY as the third Coast Guard icebreaker.

    Question. If a Memorandum of Understanding is not reached and the 
NSF decides to contract out for their icebreaking needs in the polar 
region, would the Coast Guard need to maintain the Polar Sea and the 
Polar Star icebreakers?
    Answer. On August 8, 2005, the Coast Guard signed an MOU with NSF 
to ensure that the polar icebreaking fleet will be operated and 
maintained in fiscal year 2006.
    Question. If so, what functions would they serve and what would be 
the costs in fiscal year 2006?
    Answer. The polar class icebreakers (POLAR SEA and POLAR STAR) have 
been and will continue to primarily support the U.S. Antarctic Program 
re-supply effort (Operation Deep Freeze) each year. Due to Antarctic 
ice conditions, the age of the vessels and the breakers' increasing 
maintenance needs since 2001, these two vessels are no longer able to 
support simultaneously the U.S. Antarctic Program. Pending additional 
funding from the NSF in fiscal year 2006, POLAR SEA will continue the 
second year of a 2-year maintenance availability to ensure readiness 
for the Operation Deep Freeze 2007 deployment to Antarctica. POLAR STAR 
is currently scheduled to support the 2006 Operation Deep Freeze 
mission. HEALY is scheduled to support Arctic research, typically 
lasting from May to November of each year. The fiscal year 2006 base 
funding and overall costs are outlined below:

                           FISCAL YEAR 2006 COAST GUARD POLAR ICEBREAKER BASE FUNDING
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
               Projected costs AFC                  Cost center      POLAR SEA      2006 POLAR         Total
                                                       HEALY                           STAR
----------------------------------------------------------------------------------------------------------------
Training & Recruiting...........................        $210,512        $355,244        $355,244        $921,000
Military Personnel..............................       5,936,630       9,547,685       9,547,685      25,032,000
Depot Level Maintenance.........................       4,498,926       4,493,037       4,493,037      13,485,000
Operating and Maintenance.......................       3,586,000       2,000,000       2,000,000       7,586,000
Central Accounts................................         109,000         183,500         183,500         476,000
                                                 ---------------------------------------------------------------
      Grand Total...............................      14,341,068      16,579,466      16,579,466      47,500,000
----------------------------------------------------------------------------------------------------------------


    FISCAL YEAR 2006 PROJECTED COSTS REQUIRED TO SUSTAIN POLAR ICEBREAKER FLEET ABOVE THE BASE FUNDING LEVEL
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
               Projected costs AFC                  Cost center      POLAR SEA      2006 POLAR         Total
                                                       HEALY                           STAR
----------------------------------------------------------------------------------------------------------------
Depot Level Maintenance.........................      $7,100,000      $9,700,000        $500,000     $17,300,000
----------------------------------------------------------------------------------------------------------------

    Question. If not, what would be the cost for the Coast Guard to 
mothball or dispose of the two icebreakers?
    Answer. The Coast Guard estimates that the cost to mothball or 
dispose of each Polar Class Icebreaker is $750,000 per hull, for a 
total of $1.5 million.
    The estimated personnel transfer cost if the two icebreakers are 
decommissioned is $700,000.
    Question. What are the long-term costs to maintain the Coast 
Guard's Polar Icebreakers?
    Answer. The two heavy polar icebreakers are nearing the end of 
their service lives and require major systems overhauls to continue to 
operate in a cost-effective manner. The Coast Guard has not developed 
detailed analyses of the costs associated with the long-term costs of 
recapitalizing the heavy polar icebreaking fleet. As the national needs 
for heavy polar icebreaking are more thoroughly studied by the National 
Academies of Sciences (NAS), the Coast Guard will inevitably be 
involved in developing long-term cost estimates for heavy polar 
icebreaking.
    Since the Healy medium-duty polar icebreaker is a relatively new 
vessel, there are no significant long-term maintenance costs above the 
budgeted base amounts for that ship.
    Question. What efforts are underway to fund a replacement vessel or 
overhaul one or more of the existing vessels to support the long-term 
needs of the scientific community?
    Answer. There are no plans to replace or overhaul CGC HEALY, which 
was commissioned in 2000.
    In accordance with the fiscal year 2005 Homeland Security 
Appropriations Bill Conference Report, the NAS will be conducting a 
polar icebreaker study, with an interim report expected during November 
2005 and completion of the final report anticipated during July 2006. 
The NAS study report could be used as the basis for an update of the 
1990 Presidential Decision Determination on national polar icebreaker 
requirements policy.
    Question. What would the cost be and the amount of time necessary 
to acquire a new polar icebreaker?
    Answer. Initial rough estimates indicate that one new polar 
icebreaker, with the equivalent heavy icebreaking capabilities as the 
Polar Class icebreakers, would cost approximately $600 million and 
would require 6 years to construct.
    Question. The Coast Guard is absorbing roughly $9 million in fiscal 
year 2005 to meet key milestones in the maintenance of the Polar Sea. 
Is critical maintenance in other areas being delayed or canceled to 
meet the needs of the Polar Sea?
    Answer. Yes, the $9.2 million for extraordinary maintenance of the 
POLAR SEA will be absorbed within the Coast Guard's fiscal year 2005 
maintenance funds, requiring deferral of critical maintenance in other 
areas, such as replacement of aging and obsolete subsystems onboard 
Coast Guard legacy cutters.
    Question. If so, please describe those delays and the impact they 
will have on the Coast Guard fleet.
    Answer. As the end of fiscal year 2005 approaches, and the level of 
fleet-wide unscheduled maintenance activity becomes clearer, specific 
maintenance activities will be identified for deferral by Coast Guard 
maintenance managers as they shift resources to deal with their most 
immediate fleet maintenance challenges.
    Question. Section 888 of Public Law 107-296 ensures that Coast 
Guard ``functions and capabilities be maintained intact and without 
significant reduction.'' Under what authority does the proposal to 
transfer funding for icebreaking operations to the NSF fall under?
    Answer. Subsection 888(c) of the Homeland Security Act of 2002 
provided that: ``the authorities, functions, and capabilities of the 
Coast Guard to perform its missions shall be maintained intact and 
without significant reduction after the transfer of the Coast Guard to 
the Department, except as specified in subsequent Acts.''
    The proposed shift of appropriations for polar icebreaking, if 
enacted, does not remove any of the authorities, functions, or 
capabilities of the Coast Guard. Since NSF and the Coast Guard have a 
signed MOU ensuring funding for the icebreaking program in fiscal year 
2006, the Coast Guard will continue to perform its polar icebreaking 
mission. Furthermore, the proposed shift of appropriations, if enacted, 
would be the result of a ``subsequent act'' of Congress, in the terms 
of Subsection 888(c).

                               RECRUITING

    Question. What is the Coast Guard's goal for recruiting active duty 
personnel in fiscal year 2006? Provide a chart showing the total number 
of recruits in each of the past 10 years for active duty personnel and 
reserves and compare them against the Coast Guard's targets for those 
years.
    Answer. The following tables show the total number of Coast Guard 
active duty and reserve recruits in each of the past 10 years compared 
with the Coast Guard's targets for those years.

                   COAST GUARD ACTIVE DUTY RECRUITING
------------------------------------------------------------------------
                  Year                        Targets        Accessed
------------------------------------------------------------------------
1996....................................           3,300           3,299
1997....................................           3,900           3,697
1998....................................           4,464           3,962
1999....................................           4,150           4,159
2000....................................           4,700           4,721
2001....................................           4,300           4,332
2002....................................           4,800           5,169
2003....................................           4,475           4,488
2004....................................           3,800           3,809
2005....................................           4,110       \1\ 4,110
2006....................................       \1\ 4,200       \1\ 4,200
------------------------------------------------------------------------
\1\ Projected.


                     COAST GUARD RESERVE RECRUITING
------------------------------------------------------------------------
                  Year                        Targets        Accessed
------------------------------------------------------------------------
1996....................................             350             229
1997....................................             430             303
1998....................................           1,313             554
1999....................................             900             801
2000....................................             900             692
2001....................................             700             424
2002....................................             718             585
2003....................................           1,150             880
2004....................................             940             911
2005....................................             950         \1\ 800
2006....................................         \1\ 900         \1\ 900
------------------------------------------------------------------------
\1\ Projected.

                                C-130JS

    Question. In March, the Coast Guard placed interim limitations on 
the HC-130H 1500 series aircraft. What is the status of these 
restrictions?
    Answer. The HC-130H 1500 series aircraft are operationally 
restricted/limited based on potential cracking in the center wing box 
based on effective wing age. The restrictions on the five Coast Guard 
1500 series aircraft are similar to restrictions imposed on United 
States Air Force aircraft of similar vintage and use rate. The 
restrictions are designed to limit wing loading by limiting fuel, cargo 
and airspeed under certain conditions. These restrictions will remain 
in place until Lockheed Martin Aero (LMA) Service Bulletin (SB2) is 
developed and the required inspections are completed. SB2 is expected 
on May 30. Each aircraft inspection will take approximately 1 month to 
complete. If serious structural cracking is found during inspections, 
the Coast Guard will determine whether to refurbish the affected 
aircraft to keep them in service well into the future or if there are 
other alternatives.
    Question. What impact have these restrictions had on the Coast 
Guard?
    Answer. The restrictions currently impact only the five 1500-series 
C-130s at Coast Guard Air Station Elizabeth City and have resulted in 
some degradation of the unit's ability to perform long-range search and 
rescue, maritime patrol, logistics and International Ice Patrol 
missions. These operational restrictions are based on reduced fuel and 
cargo loads similar to those imposed on United States Air Force 
aircraft of similar vintage and use rate. The restrictions reduce the 
maximum endurance of the aircraft from 12 to 7.5 hours, reduce the 
maximum cargo capacity from 45,000 to 10,000 lbs, require slower 
airspeed when in the vicinity of turbulence and require greater fuel 
reserves. These restrictions have been mitigated by incorporating more 
refueling stops and or using newer 1700-model C-130s without 
restrictions.
    Question. What are the Coast Guard's plans to remedy the structural 
problems, including necessary funding?
    Answer. There are no known structural problems to be remedied. The 
1500 series aircraft are operationally restricted/limited based on the 
potential of cracks in the center wing box based on effective wing age. 
LMA is currently developing the procedures to inspect the wings to 
determine if cracks exist. If inspections find no evidence of 
structural cracking, the operational restrictions will be adjusted or 
removed. If serious structural cracking is found during inspections, 
the Coast Guard will determine whether to refurbish the affected 
aircraft to keep them in service or if there are other alternatives. 
Cost estimates to effect necessary repairs will be based on the results 
of the inspections.

                                SIPRINET

    Question. The Coast Guard is in the process of increasing its 
SIPRNET presence to include all of its major shore side operational 
units (Areas, Districts, Sectors, & Air Stations). Approximately half 
of the planned shore side Coast Guard units (80 out of 156) currently 
have SIPRNET connectivity. What is the funding level for this activity 
in fiscal year 2006?
    Answer. The Coast Guard SIPRNET Program is fiscal year 2006 base of 
funds is $9.5 million. This includes funding for recurring circuit 
costs, contract labor costs, new installations, and equipment 
recapitalization.
    Question. What is the current schedule to provide connectivity to 
the remaining units?
    Answer. The Coast Guard is currently planning to fund the 
installation of 23 new sites during fiscal year 2006. The Coast Guard 
anticipates completing SIPRNET installations at all 152 sites by fiscal 
year 2009.
    Question. Could the schedule be accelerated if additional funding 
became available in fiscal year 2006?
    Answer. Additional funding in fiscal year 2006 would not accelerate 
the installation schedule. The installations are currently scheduled at 
maximum install rate due to the time required to build the facilities 
and installation contractor resource capabilities.

           MARITIME SECURITY CUTTER--LARGE OPERATIONAL COSTS

    Question. The Coast Guard is expecting the first WMSL to be 
delivered in May 2007. Please provide a spend plan and timeline related 
to the funding necessary for pre-commissioning familiarization and 
training for core personnel.
    Answer. The timeline for pre-commissioning training and 
familiarization is as follows:
  --Phase I: Winter/Spring 2005.--Five crewmembers reported to 
        Pascagoula for pre-arrival training, ship engineering 
        familiarization, and doctrine development. Cost: $151,352
  --Phase II: Summer/Fall 2006.--96 crewmembers report to Alameda (the 
        ship's homeport) to conduct pre-arrival training, which is 
        provided at various government and commercial facilities around 
        the country. Following pre-arrival training, these crewmembers 
        will proceed to Pascagoula for pre-commissioning 
        familiarization. Cost: $1,830,816
  --Phase III: Winter/Spring 2007.--Remaining 61 crewmembers report to 
        Alameda then immediately proceed to Pascagoula for pre-
        commissioning familiarization. Cost: $1,063,930
  --May 2007.--First National Security Cutter/Maritime Security Cutter 
        Large (WMSL) is delivered to the Coast Guard.
    The travel and subsistence cost for crewmembers to complete the 
initial pre-arrival and pre-commissioning training is estimated at $3.1 
million.

                         RESEARCH & DEVELOPMENT

    Question. Section 888 of Public Law 107-296 ensures that Coast 
Guard ``functions and capabilities be maintained intact and without 
significant reduction.'' Under what authority does the proposal to 
shift Cost Guard R&D functions to the S&T Directorate fall under?
    Answer. Subsection 888(c) of the Homeland Security Act of 2002 
provided that: ``the authorities, functions, and capabilities of the 
Coast Guard to perform its missions shall be maintained intact and 
without significant reduction after the transfer of the Coast Guard to 
the Department, except as specified in subsequent Acts.''
    The proposed shift of appropriations for Research, Development, 
Test and Evaluation from the Coast Guard to the S&T directorate, if 
enacted, would be the result of a ``subsequent Act'' of Congress, in 
the terms of Subsection 888(c).
    Question. How would the proposed transfer improve the ability of 
the Coast Guard to accomplish its missions?
    Answer. The consolidation of Research and Development (R&D) funding 
at the Department level will maximize effectiveness of R&D activities 
across the Department by minimizing redundancies. Through the Coast 
Guard portfolio manager at S&T, the Coast Guard will continue to 
develop and provide homeland and non-homeland security research 
requirements which support all of the Coast Guard's homeland and non-
homeland mission programs.

                             ATTRITION RATE

    Question. What is the current attrition rate for Secret Service 
agents and Uniformed Division Officers?
    Answer. In fiscal year 2004, the attrition rate for special agents 
was 6.28 percent, and for Uniformed Division officers 7.6 percent. The 
Secret Service expects that the attrition rate for fiscal year 2005 for 
special agents will be 5.2 percent, and for Uniformed Division officers 
8.5 percent.

                             OVERTIME RATE

    Question. What is the current monthly overtime rate for Secret 
Service agents?
    Answer. The current average monthly overtime rate for Secret 
Service agents is 71 hours.

                              PAY INCREASE

    Question. The budget includes funding for a 2.6 percent pay 
increase for Secret Service employees in 2006, but the Administration 
requested a 2.1 percent across the board pay increase for Federal 
employees. Why is the Secret Service budgeting for a higher pay 
increase?
    Answer. The Secret Service's fiscal year 2006 budget includes 
funding for a 2.3 percent pay increase for Federal employees. This is 
the same percentage increase proposed by the Administration.
    Question. What is the cost difference between a 2.1 percent pay 
increase and a 2.6 percent pay increase?
    Answer. A 2.1 percent pay increase would require $11,752,000, and a 
2.6 percent pay increase would require $14,550,000, a difference of 
$2,798,000. The Secret Service request was $12,871,000 or 2.3 percent.

                            WHITE HOUSE MAIL

    Question. The budget includes $16.365 million to process White 
House mail. What is the status of the Department's efforts to develop a 
long-term plan for a fully operational White House Mail facility?
    Answer. In the summer of 2004, the U.S. Secret Service and the 
General Services Administration (GSA) initiated the planning of a 
permanent White House mail facility.
    The stakeholders utilized two previous studies in order to begin 
their effort. In 2003, the Secret Service commissioned Science 
Applications International Corporation (SAIC) to develop a full-scale 
mail screening facility in concept. In addition, GSA conducted a site 
selection study in which they identified four feasible locations in the 
Washington, D.C. metropolitan area for a White House mail facility.
    In October 2004, GSA procured the services of HDR, an architectural 
engineering and consulting firm, to complete a Program Development 
Study (PDS). The PDS, which was completed in February 2005, reflects 
the efforts of the team to define the feasibility, analyze needs, 
prepare cost analysis and program requirements for the program. A mail 
screening facility proposal was defined by the PDS. Three sites located 
at the Anacostia Naval Annex were selected as most feasible. The PDS 
estimated the cost for construction at $33.5 million.
    Since the completion of the PDS, the development team has worked 
closely with GSA to identify a potential future site for the White 
House mail screening facility. GSA is working with the Navy Real Estate 
Office to assess the availability of property at the Anacostia Naval 
Annex, in Washington, D.C. adjacent to other White House support 
facilities for this purpose. Upon identification of available Federal 
property, GSA will conduct environmental and design studies of the 
potential site. This information will be used to determine the GSA 
facility acquisition plan (lease/build) and project the new facility's 
operational costs.
    Question. What is the percentage of mail addressed to the White 
House that doesn't reach its destination?
    Answer. For the 14-month period beginning in March 2004 and ending 
April 2005, the White House mail screening facility received 
approximately 1,730,000 pieces of mail, flats or parcels. Of these, 
288,800 items (or 16 percent) were classified as junk mail and, 
therefore, not processed at the facility. Of the remaining 1,441,200 
processed mail pieces, 1,441,000 (or 99.9 percent) pieces were 
delivered to the complex.
    The two hundred pieces of mail (or less than 1 percent) not 
delivered to the complex were identified by the facility as containing 
an unknown substance or an overt threat and were referred to the Secret 
Service Intelligence Division for investigation. In addition, 29 
referrals were made to Secret Service field offices due to items 
received at the facility and two arrests were made.

                        EMERGENCY RESPONSE FUND

    Question. The latest report (date) from OMB on the status of the 
$40 billion Emergency Response Fund, enacted 3 days after 9/11, shows 
that the Secret Service has an unobligated balance of $6 million. Why 
have the funds not been used and what are your plans for the 
unobligated funds?
    Answer. As of October 2004, the Secret Service had no unobligated 
balance from the Emergency Response Fund.

                       NATIONAL RESPONSE PLANNING

    Question. DHS has recently released the National Incident 
Management System Plan, the Nation Preparedness Goal and begun the roll 
out of the National Response Plan which will better guide the spending 
of Federal resources like the over $11 billion Congress has 
appropriated for first responders programs. With this additional 
guidance, what changes have you seen/do you expect to see in the local 
requests for projects that will prevent wasteful spending?
    Answer. The National Incident Management System (NIMS) integrates 
effective practices in emergency preparedness and response into a 
comprehensive national framework for incident management. The NIMS will 
enable responders at all levels to work together more effectively to 
manage domestic incidents no matter what the cause, size or complexity. 
The Department is requiring that states and territories begin work on 
compliance with the NIMS as part of their fiscal year 2005 grant 
funding.
    The National Response Plan (NRP) establishes a comprehensive all-
hazards approach to enhance the ability of the United States to manage 
domestic incidents. The plan incorporates best practices and procedures 
from incident management disciplines--homeland security, emergency 
management, law enforcement, firefighting, public works, public health, 
responder and recovery worker health and safety, emergency medical 
services, and the private sector--and integrates them into a unified 
structure. It forms the basis of how the Federal Government coordinates 
with State, local, and tribal governments and the private sector during 
incidents.
    The National Preparedness Guidance, issued on April 27, 2005, 
addresses the implementation of the NIMS and the NRP, as one of the 
overarching national priorities. DHS is now beginning to work with 
states, territories, and urban areas to update their existing State and 
urban area homeland security strategies to bring them into alignment 
with the seven national priorities. This alignment with the national 
priorities will enable States and territories to continue expending 
funds in accordance with the goals and objectives already outlined in 
the strategies. With this, DHS expects a greater emphasis on training 
and exercises to further implement the NRP and NIMS within the States 
and territories. Historically, there has been a higher trend towards 
the purchase of specialized equipment, but DHS believes that the States 
are undertaking training and exercise programs that typically require 
longer-term planning.
    Question. How have the State and local entities reacted to the 
changes?
    Answer. State and local entities have had many questions about the 
publication of all three of these documents. Understandably, they do 
not always clearly understand the intent of the documents and how they 
are related to the grant funding that they receive. Likewise, they are 
concerned about the resources they will need at the State level to 
ensure compliance. Anticipating such concerns, DHS created on-line 
training materials through FEMA/USFA's Emergency Management Institute 
and National Fire Academy's Distance Learning Programs that cover both 
NIMS and the NRP. To date, more than 200,000 personnel have completed 
these training courses. In order to further articulate these 
requirements, the Department has scheduled several rollout conferences 
for the NIMS and NRP across the country to educate the State and local 
stakeholders. The NIMS Integration Center (NIC) is responsible for 
orchestrating NIMS implementation and NIMS compliance. Through 
training, exercises, and technical assistance, the NIC is working to 
ensure that our state, local, and tribal partners understand NIMS and 
take the appropriate steps to implement it in their communities. In 
addition to the NIMS and NRP outreach, the Office for Domestic 
Preparedness (ODP), within SLGCP, has scheduled three additional 
meetings on the National Preparedness Guidance so that States and 
territories understand the imbedded requirements. We also are offering 
technical assistance packages that are customized to each State and 
territory. ODP is committed to providing additional education and 
outreach to our grantees as we move forward in implementing the seven 
national priorities codified in the National Preparedness Guidance.

                    SLOW PACE OF GRANT DISTRIBUTIONS

    Question. On October 18, 2004, the President signed into law the 
fiscal year 2005 Homeland Security Appropriations Act. The majority of 
the grants funds have just recently been made available for application 
this month: 6 months since the Act was signed into law. Rail security 
funds were made available on April 5, 2005. Transit security funds were 
also just made available on April 5, 2005. Port security funds, as of 
April 20, 2005, still have not been made available for application. The 
State Homeland Security Grant Program is the only program that has 
awarded funding and that is because the Congress required it by law. 
None of the other fiscal year 2005 homeland security grant funds have 
actually been distributed.
    Why is it taking so long to get the money out the door?
    Answer. The responsibility for most non-aviation grant programs was 
transferred from the TSA to SLGCP during fiscal year 2004. This 
resulted in a transition period while programs and staff adapted to 
different processes and new automation. More importantly, the 
Department has used this time to work with Federal partnering agencies 
and applicable state, local, and private sector stakeholders to 
redesign these programs to include a more risk-based approach to 
allocation of funding that aligns with Administration priorities as 
described in Homeland Security Presidential Directive (HSPD)-8 and the 
recently released National Preparedness Goal. The Department is 
committed to awarding grants earlier in the year while maintaining 
effective oversight.
    Question. What steps are being taken to expedite the process?
    Answer. Completion of the programmatic redesign process coupled 
with automation of the application submission, reporting, and payment 
processes for these programs will result in greatly enhanced processing 
capabilities for future program funding. In addition, SLGCP has 
established the Transportation Infrastructure Security Division to 
manage these programs. The Division is in the process of filling 
remaining vacancies and consequently will be in a greatly strengthened 
position for management and administration of future grant programs.
    Question. When will funding be awarded for Intercity Passenger Rail 
Security, Transit Security, Intercity Bus Security and Port Security 
grants?
    Answer. The current schedule for each program is as follows: 
Intercity Passenger Rail Security Program--awarded July 18, 2005; 
Transit Security Grant Program--awarded July 15, 2005; Intercity Bus 
Security Grant Program--first round of awards were awarded on August 9, 
2005, and the final round of awards will be awarded on September 30, 
2005; Port Security Grant Program--awarded September 1, 2005.
    Question. As part of your Department review, will you commit to 
expediting the grant making process so that money that is supposed to 
make Americans safer does not sit in the Treasury in Washington, DC?
    Answer. The Department takes its responsibility very seriously for 
protecting Americans and the critical transportation infrastructure 
they depend on. As stated previously, the recent redesign of these 
programs, coupled with the newly instituted SLGCP Transportation 
Infrastructure Security Division and automation of the application, 
reporting, and payment processes for these programs will result in 
significantly enhanced capabilities relative to the management and 
administration of these programs. In addition, SLGCP is also in the 
process of establishing an Office of Grants Operations that will 
further streamline financial management activities associated with 
these grants.

                           PORT/RAIL/TRANSIT

    Question. According to the American Public Transportation 
Association, there are approximately 9.6 billion transit trips annually 
and people use public transportation vehicles over 32 billion times 
each workday. This is more than 16 times the number of aviation 
passengers, and yet the Department continues to spend less than 10 
percent of its transportation security resources on non-aviation 
security. The President's Budget Request proposes that individual grant 
programs for port, rail/mass transit, bus, and truck security grant 
programs be eliminated and collapsed into a new grant program called a 
``Targeted Infrastructure Protection Grants'' program. Because none of 
the previous individually appropriated grant programs are specified in 
this new account--ports will compete against rail and mass transit, and 
other infrastructure for $600 million. For mass transit security alone, 
the American Public Transportation Association estimates a need for $6 
billion in transit security. Not only does this insufficient request 
show a lack of support for modes of transportation other than air 
travel security but it further frustrates the officials responsible for 
securing people's safety on these modes by pitting them against each 
other for scarce resources. We currently spend $5 billion on aviation 
security. This proposal continues a disturbing pattern by the 
Department of focusing on the last battle--aviation security--and less 
on non-aviation modes of transportation.
    How does the agency really expect that this request furthers the 
mission of homeland security when we are only as strong as our weakest 
link?
    Answer. Enhancing the security of the Nation's critical 
infrastructure, including transportation, continues to be a high 
priority for the Department, which is why the Department proposed the 
development of a Targeted Infrastructure Protection (TIP) Program. This 
program would consolidate Port Security, Rail/Transit Security, 
Intercity Bus Security, and Trucking Industry Security grant programs 
into a single larger program. Because it is unrealistic to anticipate 
infrastructure threats and protection needs nearly 12 months in 
advance, the Secretary requires flexibility to target valuable TIP 
resources to address emerging needs, risks, and national priorities. 
Moreover, funds for this program will also allow the Department to 
build on and leverage partnerships with other Federal agencies and 
industry that seek to advance the State of the Nation's preparedness 
through better security solutions and information sharing approaches. 
Because the program is designed to provide us with maximum flexibility 
at the appropriate time, the Department is confident that the TIP will 
help further the mission of securing the homeland. The Administration 
requested a nearly 50 percent increase in total infrastructure funding 
in order to reduce concerns about ``competition'' among various 
sectors.

                              ALL-HAZARDS

    Question. The fine men and women of FEMA have recently responded to 
wildfires in Alaska, mudslides in California, and hurricanes in Florida 
in an unprecedented period of activity. As the backbone of the nation's 
all-hazards emergency management system the Emergency Management 
Performance Grants (EMPG) Program, now administered by the Office of 
State and Local Government Coordination and Preparedness, is the only 
direct source of Federal funding to assist State and local governments 
with planning and preparedness activities associated with natural 
disasters. Congress saw fit last year to reject the President's 
proposal to cap allowable salary expenses and to shift the program away 
from its all-hazards philosophy. Secretary Chertoff said on March 2 of 
this year ``while fighting terrorism was the reason for the 
department's creation, it is not our sole function,'' which implies 
that all-hazards prevention, preparedness, response and recovery is a 
priority of DHS. Yet, a proposed $10 million cut in the EMPG program 
appeared in the Budget Request.
    Why is it that the President proposes a $10 million cut in this 
program?
    Answer. The Department's fiscal year 2006 Budget request of $170 
million for the Emergency Management Performance Grants (EMPG) Program 
remains consistent with the fiscal year 2005 request and demonstrates a 
continued strong commitment and support to the nation's emergency 
prevention and response community through an all-hazards approach. In 
fiscal year 2006, EMPG will provide support for State and local 
emergency management departments and agencies based on identified needs 
and priorities for strengthening their emergency management 
capabilities, while addressing homeland security concerns. Further, the 
integration of EMPG into the Homeland Security Grant Program umbrella 
results in synergies with other related homeland security assistance 
programs. In addition, this integration also has facilitated efforts by 
states/local jurisdictions to leverage homeland security assistance to 
accomplish goals and objectives in their homeland security strategies.

                           FIRE GRANT FUNDING

    Question. Each day firefighters put themselves in harm's way to 
protect property and help citizens in time of need. There are currently 
over 1 million active firefighters in the United States, and about 73 
percent of those volunteer. According to the U.S. Fire Service, many 
fire departments report shortfalls in facilities, equipment, and 
training of personnel particularly volunteer companies in rural 
communities. An estimated one-third of firefighters per shift are not 
equipped with self-contained breathing apparatus. In communities under 
10,000 in population that have at least one building 4 stories high or 
higher, 10 percent are estimated to have no ladder or aerial apparatus. 
The assessment also found that overall fire departments can only equip 
about half of the emergency responders on a shift with portable radios. 
Additionally, 21 percent of fire departments, nearly all of them 
predominately volunteer departments, have four or fewer firefighters 
available in a mid-day fire house which means it is likely that the 
departments fail to deliver the minimum of 4 firefighters needed to 
safely initiate an interior attack on a fire. Fiscally stressed 
communities make every effort to support public servants but State and 
local funding simply is not there. Yet, the President proposes to 
reduce firefighter grants from $715 million to $500 million. In 
addition, he proposes to eliminate funding for the SAFER program, which 
Congress authorized to help communities hire firefighters.
    Please explain how the President's proposed 30 percent cut in 
funding helps fill these gaps.
    Answer. The Department's fiscal year 2006 Budget request reflects a 
strong commitment to our nation's fire service by providing $500 
million for the Assistance to Firefighters Grant Program. This request 
is consistent with the Administration's budget request since fiscal 
year 2003 and reflects the appropriate balance of funding priorities 
among DHS grant programs. Further, this program has been in existence 
for 5 years and has 4 years of grant experience. In its 
reauthorization, Congress directed that an update to an assessment of 
the needs of the fire service be done, as the prior assessment does not 
reflect the impact of more than $2 billion in grant funding that DHS 
has provided to the nation's fire service over the last 3 years, both 
through Assistance to Firefighter Grants and Homeland Security Grants. 
In fact, the nation's fire service has received more DHS grant funding 
than any other public safety discipline. This report is expected to be 
completed in February or March 2006. In addition, Firefighting 
Operations and Support for terrorist attacks, major disasters, and 
other emergencies is among the national target capabilities identified 
in the forthcoming National Preparedness Goal. Finally, it is important 
to note that there is significant funding available for similar 
purposes included in other programs, such as the State Homeland 
Security Program and the Urban Areas Security Initiative.
    Question. Also, please explain why the President proposes to 
terminate the SAFER firefighter hiring program.
    Answer. The Administration has requested significant funds over 
several years to support public safety preparedness at the State and 
local levels of government. Over the last 3 years, Congress has 
appropriated and DHS has granted over $12 billion to support training, 
exercising, and equipping public safety personnel, including 
firefighters, across the nation. The Administration maintains that 
hiring firefighters should remain a local responsibility, as local 
resources will eventually be needed to retain newly hired personnel. To 
that end, Federal support should focus on enhancing local capacities 
through training, equipment, and exercises; and not building inherently 
local capacities.

                    INTEROPERABILITY COMMUNICATIONS

    Question. Over $800 million in grant funding has been distributed 
for interoperability projects. The next largest specific first 
responder category--at less than half of that--is regional response 
teams funding. The Intelligence Reform Act authorizes a new DHS grant 
program for interoperability as well as a pilot program and the ability 
to establish and Office of Interoperability and Compatibility.
    What lessons learned or best practices has the agency gleaned from 
the fiscal year 2003 demonstration with COPS and FEMA?
    Answer. The ``fiscal year 2003 demonstration'' refers to the 
competitive grant program that COPS, FEMA, and SAFECOM collaborated on 
to maximize the funding available for interoperable communications 
equipment. The program provided competitive funding to local 
jurisdictions to demonstrate effective solutions for achieving 
interoperability. The lessons learned from this program have been 
incorporated into SAFECOM's coordinated grant guidance.
    SAFECOM, a program of the S&T Directorate's Office for 
Interoperability and Compatibility (OIC), is the umbrella program 
within the Federal Government that oversees all initiatives and 
projects pertaining to public safety communications and 
interoperability. SAFECOM's coordinated grant guidance provides the 
public safety community with consistent guidance, coordinated 
application processes, similar requirements across grant programs, and 
general guidelines for implementing a successful wireless 
communications system. This guidance seeks to incorporate best 
practices and lessons learned from the fiscal year 2003 demonstration 
program. The guidance was incorporated in the fiscal year 2003 FEMA and 
fiscal year 2003/fiscal year 2004 COPS grant awards, as well as ODP 
grant packages in fiscal year 2004. Examples of the lessons learned 
which are incorporated into the grant guidance include:
  --General criteria relating to public safety communications grants;
  --Criteria specific to block grants allocated to states;
  --Additional criteria based on the lifecycle of public safety 
        communications projects;
  --Additional guidelines, examples, and resources for improving public 
        safety communications and interoperability, and implementing a 
        wireless communication system; and
  --A thorough list of questions that applicants can use to help ensure 
        that they have taken into account the needs of public safety, 
        potential partners, and considered short and long-term goals.
    SAFECOM's coordinated grant guidance is available at 
www.safecomprogram.gov.
    Question. Outside of equipment acquisition what are the obstacles 
to interoperability?
    Answer. While equipment acquisition is a substantial obstacle, 
there are many other significant challenges to achieving 
interoperability. In a February 2003 report, the National Task Force on 
Interoperability identified five key challenges facing the development 
of interoperability, including: limited and fragmented radio spectrum, 
lack of coordination and cooperation, limited and fragmented funding, 
incompatible and aging communications equipment, and limited and 
fragmented planning.
    DHS understands the complexity of the problem of interoperability. 
The OIC, through SAFECOM--the umbrella program within the Federal 
Government that oversees all initiatives and projects pertaining to 
public safety communications and interoperability--has developed the 
Interoperability Continuum to serve as a framework for addressing the 
obstacles to interoperability, beyond just equipment. The Continuum 
helps the public safety community and local, tribal, state, and Federal 
policy makers address critical elements for success as they plan and 
implement interoperability solutions. These elements include 
governance, standard operating procedures, technology, training/
exercises, and usage of interoperable communications. Making progress 
in each of the five critical elements is crucial to the Department 
providing guidance to overcome the obstacles to interoperability.

                       INTEROPERABILITY STANDARDS

    Question. What is the status of national standards for 
interoperable communication?
    Answer. DHS has made significant strides in the development of 
national standards and requirements for interoperable communications 
through SAFECOM. SAFECOM has developed accelerated standards for public 
safety interoperable communications, and drafted a report as required 
by IRTPA that discusses DHS plans for accelerating standards. This 
report includes a schedule of milestones and achievements. The report 
is moving through the clearance process and will be sent to Congress 
immediately therafter.
    DHS recognizes that the development of standards can only occur 
within the context of an architectural framework. The SAFECOM process 
for identifying and developing standards begins with development of a 
practitioner-accepted statement of requirements which then drives the 
development of a Public Safety Architecture Framework (PSAF). SAFECOM 
released Version 1.0 of the first comprehensive Public Safety 
Communications and Interoperability Statement of Requirements (SoR) in 
2004. Developed with public safety practitioner input, the SoR defines 
the functional requirements for public safety practitioners to 
communicate and share information when it is needed, where it is 
needed, and when authorized. SAFECOM, in cooperation with the National 
Institute of Standards Technology's (NIST) Office of Law Enforcement 
Standards (OLES), completed a draft of the PSAF, currently being 
reviewed for publication. The architectural framework outlines what the 
overall structured approach is for facilitating interoperability and 
indicates how the architecture will operate through the development of 
interface standards.
    Since the release of v1.0 of the Public Safety Communications and 
Interoperability SoR, SAFECOM has undertaken the development of v1.1 of 
the SoR. SoR v1.1 will reorganize the requirements contained within 
v1.0 into a layered structure, reclassifying the requirements into 
Network Functional Requirements, Device Functional Requirements, and 
Application/Services Functional Requirements. SAFECOM is currently 
vetting v1.1 of the SoR with the public safety practitioner community 
and anticipates releasing v1.1 to the public upon completion of that 
vetting process.
    Development of v2.0 of the SoR is currently underway. SoR v2.0 will 
add additional quantitative values to the functional requirements 
contained in v1.1, as well as address NIMS compliance. SAFECOM 
anticipates that it will be able to vet the draft of this version with 
the public safety community beginning in early 2006.
    Question. What other equipment does DHS plan to publish standards 
for and when will those standards be published?
    Answer. The Standards Portfolio in the S&T Directorate is working 
with voluntary consensus standards organizations and the National 
Institute of Standards and Technology (NIST) to develop standards in 
many areas of homeland security. In the CBRNE area, standards should be 
published in fiscal year 2005-fiscal year 2006 for: radiation detection 
(portal monitors, neutron detectors, training and data format); 
suspicious powder protocols, trace explosive detection; and chemical 
agent vapor detection. Standards for CBRNE personal protective 
equipment for emergency responders are being developed for: powered air 
purifying and self contained breathing respirators; chemical/biological 
hot and warm zone ensembles; personal alert safety systems; thermal 
exposure measurement; law enforcement PPE; and a bomb suit. Standards 
are also in development for biometric evaluation protocols, user 
interface guidelines, image quality. Standards efforts are in progress 
for: building security personal identity verification and access 
control; gaseous air cleaning; economic standards for security-related 
issues; and design/economics for structural integrity. Check lists for 
security of information technology products and PDA forensic tools have 
been published. Finally, SAFECOM is working with NIST's OLES and other 
Federal partners to accelerate the publishing of relevant radio 
standards for public safety interoperable communications in fiscal year 
2006-fiscal year 2007. Standards for the Inter-Sub-System-Interface, 
Console Interface, and Fixed Station Interface will pave the way for 
future seamless communications. Standards for basic functionality will 
be published by the second quarter of fiscal year 2006, with the 
balance of the functions being published by the second quarter of 
fiscal year 2007.

                        NON-PROFIT GRANT FUNDING

    Question. In fiscal year 2005, $25 million was provided for non-
profits for security at high-threat facilities. Who have these awards 
been distributed to, for how much and for what purpose?
    Answer. The $25 million was provided to protect nonprofit 
organizations located in the top 18 urban areas receiving funds in the 
fiscal year 2005 UASI program. These funds are to be used for target 
hardening, which includes the acquisition and installation of security 
equipment in real property (including buildings and improvements) owned 
or leased by a nonprofit organization, specifically in response to a 
risk of terrorist attack. Specific allocations for urban areas are 
available in the fiscal year 2005 Homeland Security Grant Program 
(HSGP) program guidelines and application kit, which can be found at 
the following website address: http://www.ojp.usdoj.gov/fundopps.htm
    Question. Do funds remain available for obligation? If so, how 
much?
    Answer. Upon receipt of fiscal year 2005 funds awarded through the 
HSGP, States were required to issue a solicitation within 60 days of 
the award date for organizations to apply for funds allocated for 
nonprofit organizations. States are currently in the process of 
finalizing these awards.

                      EMS FIRST RESPONDER FUNDING

    Question. In response to a request of the Appropriations Committee, 
the Department recently submitted a report entitled, ``Support for EMS 
Provided by the DHS Office of State and Local Government Coordination 
and Preparedness'' which indicates that under the funding provided for 
our first responders, the Emergency Medical Services only receives 
about 4 percent of the total.
    What information does the Department have that tells us whether 4 
percent is an adequate share to prepare the professionals who will 
provide emergency medical care to victims at the scene of a potential 
attack or terrorist event?
    Answer. SLGCP provides training, funds for the purchase of 
equipment, support for the planning and execution of exercises, 
technical assistance, and other support to assist states, urban areas, 
and local jurisdictions in preventing, planning for, and responding to 
acts of terrorism. SLGCP established and maintains several programs 
that provide these services to emergency responders, including the 
HSGP, the UASI, and the Assistance to Firefighters Grant Program. SLGCP 
grant funds can be used to enhance emergency responder capabilities, 
including EMS, in accordance with the goals and objectives identified 
in the State or urban area's homeland security strategy. Additionally, 
fire department-based EMS providers have been, and continue to be, 
eligible for assistance under the Assistance to Firefighters Grant 
Program.
    The readiness of EMS is vital to ensuring prompt and appropriate 
emergency care and transportation as a component of the overall 
response to a terrorist incident. Therefore, it is essential that EMS 
agencies receive support and assistance from the States and be 
integrated into planning efforts and working groups to enhance the 
overall preparedness of state, urban area, and local public safety 
personnel to prevent, respond to and assist in the recovery from 
terrorist incidents. SLGCP funds for EMS agencies are allocated through 
the state's State Administrative Agencies (SAA), in accordance with 
each state's homeland security strategy. These strategies are based 
upon comprehensive assessments that address the specific 
vulnerabilities, threats, capabilities and needs in each state. In 
recognition of each state's unique threat, need, and vulnerability 
assessments, the Department does not dictate a specific percentage of 
funds that should be allocated to supplant EMS services. Instead, the 
Department supports a distribution strategy capable of addressing the 
distinctive needs of EMS agencies by allowing specific allocation 
amounts to be determined at the discretion of each state. However, in 
recognition of the important role played by EMS providers, the 
Department issued an Information Bulletin on May 6, 2004. The 
Information Bulletin reminded States that EMS providers are eligible to 
receive funding under the State HSGP and UASI programs.

                    PORT SECURITY GRANT COORDINATION

    Question. What coordination is occurring among states, local port 
authorities and the Captains of the Port, to ensure all vested parties 
are aware of grant determinations and that the limited resources are 
maximized when port security grants are made to independent terminal 
operators?
    Answer. As part of the transition of the Port Security Grant (PSG) 
Program from TSA to SLGCP, the Department has completely redesigned the 
process to focus on the risk-based prioritization of ports and 
allocation of the funds to address specific national port security 
priorities from a port-wide perspective. Redesign of the program was a 
collaborative process between SLGCP, the U.S. Coast Guard (USCG), the 
Information Analysis and Infrastructure Protection Directorate (IAIP), 
the Maritime Administration (MARAD) within DOT, and the American 
Association of Port Authorities (AAPA), among others. As part of this 
process the USCG Captain of the Port (COTP) will coordinate a field 
review of all projects submitted for funding consideration. This field 
review will be conducted in coordination with the MARAD Region 
Director, the SAA responsible for the state's Homeland Security 
Strategy, and appropriate members of each port area's Area Maritime 
Security Committee (which includes representatives of the local port 
authorities) to ensure that a port-wide approach to risk reduction is 
taken and that scarce resources are maximized. Lastly, when 
determinations of funding have been made, a consolidated list of 
projects for each port area will be provided to the COTP, MARAD Region 
Director, SAA, and relevant members of the Area Maritime Security 
Committee.

                          TECHNOLOGY TRANSFER

    Question. How much of the $50 million appropriated for the 
Technology Transfer Program has been awarded, to whom and for what 
projects?
    Answer. The Technology Transfer Program is known as the Commercial 
Equipment Direct Assistance Program (CEDAP). The legislation set aside 
$10 million for testing and evaluation of commercially available 
equipment to determine appropriateness for inclusion in the CEDAP 
program. The remaining $40 million was dedicated to the CEDAP program.
    On March 22, 2005, SLGCP officially opened the CEDAP to 
applications. The applications are competitive and must be consistent 
with the State homeland security plan. This first pilot test of the 
program ended May 5, 2005, with applications from 1,500 agencies for 
$34.4 million in equipment. The first award to 214 agencies of $2.0 
million in equipment and training will take place June 15, 2005. (See 
table below.)
    Phase II of the CEDAP program will begin with the opening of the 
application process in the summer of 2005. Award of the equipment and 
hands on training for the accepted applicants will take place early in 
the fall of 2005.

                                     CEDAP AWARDS, ROUND #1--AGENCY BY STATE
                                              [Total Agencies: 214]
----------------------------------------------------------------------------------------------------------------
          State/Agency                    City               Technology              Type            Unit Cost
----------------------------------------------------------------------------------------------------------------
Alabama:
    Alexander City Fire           Alexander City.....  Thermal Imager.......  Fire Department...      $12,500.00
     Department.
    Atmore Police Department....  Atmore.............  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
    Brick Hatton Volunteer Fire   Town Creek.........  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Calera Fire Department......  Calera.............  Thermal Imager.......  Fire Department...       12,500.00
    Calera Police Department....  Calera.............  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
    Cherokee Rescue Squad.......  Cherokee...........  Search Camera Victim   Emergency Medical        14,620.00
                                                        Locator System.        Services.
    Cherokee Volunteer Fire       Cherokee...........  Thermal Imager.......  Fire Department...       12,500.00
     Fighters.
    Choctaw County Emergency      Butler.............  Thermal Imager.......  Emergency                12,500.00
     Management Agency.                                                        Management.
    Cottonwood Police Department  Cottonwood.........  CEDAP Personal         Law Enforcement...        4,140.00
                                                        Protective Equipment
                                                        Kit.
    Daphne Police Department....  Daphne.............  Night Vision Kit.....  Law Enforcement...        3,700.00
    Georgiana Police Department.  Georgiana..........  CEDAP Personal         Law Enforcement...        4,140.00
                                                        Protective Equipment
                                                        Kit.
    Guntersville Fire/Rescue....  Guntersville.......  Thermal Imager.......  Fire Department...       12,500.00
    Jasper Police Department....  Jasper.............  Thermal Imager.......  Law Enforcement...       12,500.00
    Margaret Fire and Rescue....  Margaret...........  Thermal Imager.......  Fire Department...       12,500.00
    Phoenix City Police           Phoenix City.......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Russell County Sheriff's      Phoenix City.......  Night Vision Kit.....  Public Safety.....        3,700.00
     Department.
Alaska:
    Kodiak Police Department....  Kodiak.............  Night Vision Kit.....  Law Enforcement...        3,700.00
Arizona:
    Safford Police Department...  Safford............  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
Arkansas:
    Clinton Police Department...  Clinton............  Thermal Imager.......  Law Enforcement...       12,500.00
    Ouachita County Sheriff's     Camden.............  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Sherwood Police Department..  Sherwood...........  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
California:
    Greenfield Police Department  Greenfield.........  Thermal Imager.......  Law Enforcement...       12,500.00
    Humboldt County Sheriff's     Eureka.............  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Mariposa County Sheriff's     Mariposa...........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office.
    Monterey Peninsula Airport    Monterey...........  CEDAP Personal         Law Enforcement...        4,140.00
     Police.                                            Protective Equipment
                                                        Kit.
    San Rafael Police Department  San Rafael.........  Thermal Imager.......  Law Enforcement...       12,500.00
Colorado:
    Idaho Springs Police          Idaho Springs......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Manitou Springs Police        Manitou Springs....  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
Connecticut:
    Mohegan Tribal Fire           Uncasville.........  Night Vision Kit.....  Public Safety.....        3,700.00
     Department.
    Putnam Police Department....  Putnam.............  Thermal Imager.......  Law Enforcement...       12,500.00
    Torrington Police Department  Torrington.........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Town of Stafford............  Stafford...........  Night Vision Kit.....  Law Enforcement...        3,700.00
Delaware:
    Elsmere Bureau of Police....  Elsmere............  Thermal Imager.......  Fire Department...       12,500.00
    New Castle Police Department  New Castle.........  Thermal Imager.......  Law Enforcement...       12,500.00
Florida:
    Florida Gulf Coast            Fort Myers.........  Thermal Imager.......  Law Enforcement...       12,500.00
     University Police.
    Havana Police Department....  Havana.............  Thermal Imager.......  Law Enforcement...       12,500.00
    Kissimmee Police Department.  Kissimmee..........  Thermal Imager.......  Law Enforcement...       12,500.00
    Winter Springs Police         Winter Springs.....  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
Georgia:
    Austell Police Department...  Austell............  Night Vision Kit.....  Law Enforcement...        3,700.00
    Jackson County Sheriff's      Jefferson..........  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
Idaho:
    Madison County Sheriff's      Rexburg............  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Rexburg Police Department...  Rexburg............  Thermal Imager.......  Law Enforcement...       12,500.00
Illinois:
    Elkville Volunteer Fire       Dowell.............  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Homewood Police Department..  Homewood...........  Thermal Imager.......  Law Enforcement...       12,500.00
    Olney Fire Department.......  Olney..............  Thermal Imager.......  Fire Department...       12,500.00
Indiana:
    Francesville Volunteer Fire   Francesville.......  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Hudson Marshal's Office.....  Hudson.............  Night Vision Kit.....  Law Enforcement...        3,700.00
    Wayne County Sheriff's        Richmond...........  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
Iowa:
    Cedar Falls Police            Cedar Falls........  Search Camera Victim   Law Enforcement...       14,620.00
     Department.                                        Locator System.
    Eldridge Volunteer Fire       Eldridge...........  CEDAP Personal         Fire Department...        4,140.00
     Company, Inc..                                     Protective Equipment
                                                        Kit.
    Marion County Sheriff's       Knoxville..........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office.
    Poweshiek County Emergency    Grinnell...........  CEDAP Personal         HAZMAT............        4,140.00
     Management Agency.                                 Protective Equipment
                                                        Kit.
    Scott County Sheriff's        Davenport..........  Thermal Imager.......  Public Safety.....       12,500.00
     Office.
    Sheldon Police Department...  Sheldon............  Thermal Imager.......  Law Enforcement...       12,500.00
Kansas:
    Rose Hill Police Department.  Rose Hill..........  CEDAP Personal         Law Enforcement...        4,140.00
                                                        Protective Equipment
                                                        Kit.
    Washington County Sheriff's   Washington.........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
Kentucky:
    Bourbon County Sheriff's      Paris..............  Thermal Imager.......  Fire Department...       12,500.00
     Office.
Louisiana:
    District 8 Fire Department..  Rayville...........  Thermal Imager.......  Fire Department...       12,500.00
    Grant Parish Sheriff's        Colfax.............  Search Camera Victim   Law Enforcement...       14,620.00
     Office.                                            Locator System.
    Jackson Parish Sheriff's      Jonesboro..........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Lincoln Parish Sheriff's      Ruston.............  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Richland Parish Sheriff's     Rayville...........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office.
    Rosepine Police Department..  Rosepine...........  Night Vision Kit.....  Law Enforcement...        3,700.00
    St. James Parish Sheriff's    Vacherie...........  Search Camera Victim   Law Enforcement...       14,620.00
     Office.                                            Locator System.
    West Monroe Police            West Monroe........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
Maine:
    Ashland Police Department...  Ashland............  Night Vision Kit.....  Law Enforcement...        3,700.00
    Westbrook Fire Rescue         Westbrook..........  Search Camera Victim   Fire Department...       14,620.00
     Department.                                        Locator System.
Massachusetts:
    Burlington Police Department  Burlington.........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Fairhaven Police Department.  Fairhaven..........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Gardner Police Department...  Gardner............  Night Vision Kit.....  Law Enforcement...        3,700.00
    Granby Police Department....  Granby.............  CEDAP Personal         Law Enforcement...        4,140.00
                                                        Protective Equipment
                                                        Kit.
    Nantucket Fire Department...  Nantucket..........  Thermal Imager.......  Fire Department...       12,500.00
    Norwood Fire Department.....  Norwood............  Thermal Imager.......  Fire Department...       12,500.00
    Plymouth Police Department..  Plymouth...........  Thermal Imager.......  Law Enforcement...       12,500.00
    Saugus Emergency Management   Saugus.............  Thermal Imager.......  Emergency                12,500.00
     Agency.                                                                   Management.
    Wayland Police Department...  Wayland............  Thermal Imager.......  Law Enforcement...       12,500.00
Michigan:
    Gogebic County Emergency      Bessemer...........  Thermal Imager.......  Emergency                12,500.00
     Management.                                                               Management.
    Grosse lle Police Department  Grosse Ile.........  Thermal Imager.......  Law Enforcement...       12,500.00
    Hampton Township Fire         Essexville.........  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Harper Woods Police           Harper Woods.......  CEDAP Personal         Law Enforcement...        4,140.00
     Department.                                        Protective Equipment
                                                        Kit.
    Kent County Sheriff's         Grand Rapids.......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
Minnesota:
    Annandale Fire Department...  Annandale..........  Thermal Imager.......  Fire Department...       12,500.00
    Cleveland Police Department.  Cleveland..........  Thermal Imager.......  Law Enforcement...       12,500.00
    Douglas County Sheriff's      Alexandria.........  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Elk River Police Department.  Elk River..........  Thermal Imager.......  Law Enforcement...       12,500.00
    Hector Police Department....  Hector.............  Night Vision Kit.....  Law Enforcement...        3,700.00
    Mentor Volunteer Fire and     Mentor.............  Night Vision Kit.....  Fire Department...        3,700.00
     Rescue.
    Nicollet County Sheriff's     St. Peter..........  Search Camera Victim   Law Enforcement...       14,620.00
     Office.                                            Locator System.
    Red Lake County Sheriff's     Red Lake Falls.....  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office/OEM.
    Winona County Sheriff's       Winona.............  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Winona Police Department....  Winona.............  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
Mississippi:
    Clarkdale Fire & Rescue.....  Meridian...........  Search Camera Victim   Fire Department...       14,620.00
                                                        Locator System.
    North Haven Volunteer Fire    New Albany.........  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Tippah County Sheriff's       Ripley.............  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
Missouri:
    Buchanan County Sheriff's     St. Joseph.........  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    JasCo Metropolitan Police     Oronogo............  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Jonesburg Police Department.  Jonesburg..........  Advanced Portable      Law Enforcement...       10,200.00
                                                        Detector.
    Kelso Police Department.....  Kelso..............  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
    Madison County Sheriff's      Fredericktown......  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Park Hills Police Department  Park Hills.........  Thermal Imager.......  Law Enforcement...       12,500.00
    Sni Valley Fire Protection    Oak Grove..........  Thermal Imager.......  Fire Department...       12,500.00
     District.
    Terre du Lac Fire and Rescue  Bonne Terre........  Thermal Imager.......  Fire Department...       12,500.00
Nebraska:
    Cuming County Sheriff's       West Point.........  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Grand Island Police           Grand Island.......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Hall County Sheriff's         Grand Island.......  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Hay Springs Police            Hay Springs........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Keith County Sheriff's        Ogallala...........  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Platte County Sheriff's       Columbus...........  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Wayne County Sheriff's        Wayne..............  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office.
New Hampshire:
    Allenstown Police Department  Allenstown.........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Durham Police Department....  Durham.............  CEDAP Personal         Law Enforcement...        4,140.00
                                                        Protective Equipment
                                                        Kit.
New Jersey:
    Cinnaminson Township Police   Cinnaminson........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Clark Police Department.....  Clark..............  CEDAP Personal         Law Enforcement...        4,140.00
                                                        Protective Equipment
                                                        Kit.
    Franklin Township Police      Pittstown..........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Glen Ridge Police Department  Glen Ridge.........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Magnolia Police Department..  Magnolia...........  Thermal Imager.......  Law Enforcement...       12,500.00
    Ridgefield Police Department  Ridgefield.........  Thermal Imager.......  Law Enforcement...       12,500.00
    Sea Girt Borough Police and   Sea Girt...........  Advanced Portable      Other.............       10,200.00
     Fire Departments.                                  Detector.
    Washington Township Police    Robbinsville.......  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Waterford Township Fire       Atco...............  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Waterford Township Police     Atco...............  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
New York:
    Harriman Police Department..  Harriman...........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Melrose Fire District.......  Melrose............  Thermal Imager.......  Fire Department...       12,500.00
    New Windsor Police            New Windsor........  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
North Carolina:
    Beaufort Police Department..  Beaufort...........  Thermal Imager.......  Law Enforcement...       12,500.00
    Forest City Fire Department.  Forest City........  Thermal Imager.......  Fire Department...       12,500.00
    McDowell County Emergency     Marion.............  Thermal Imager.......  Emergency                12,500.00
     Management.                                                               Management.
    Rocky Mount Police            Rocky Mount........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Rutherfordton Fire            Rutherfordton......  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Trent Woods Police            Trent Woods........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
North Dakota:
    New England Fire Department.  New England........  Thermal Imager.......  Fire Department...       12,500.00
    Stark County Sheriff's        Dickinson..........  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
Ohio:
    Akron Police Department.....  Akron..............  Night Vision Kit.....  Law Enforcement...        3,700.00
    Beavercreek Police            Beavercreek........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Northwest Ambulance District  Geneva.............  Advanced Portable      Emergency Medical        10,200.00
                                                        Detector.              Services.
Oklahoma:
    Enid Fire Department........  Enid...............  Thermal Imager.......  Fire Department...       12,500.00
    Marlow Police Department....  Marlow.............  Thermal Imager.......  Law Enforcement...       12,500.00
    Owasso Fire Department......  Owasso.............  Thermal Imager.......  Fire Department...       12,500.00
    Woodward Police Department..  Woodward...........  CEDAP Personal         Law Enforcement...        4,140.00
                                                        Protective Equipment
                                                        Kit.
Oregon:
    Cascade Locks Fire &          Cascade Locks......  Thermal Imager.......  Other.............       12,500.00
     Emergency Medical Services.
    Hubbard Police Department...  Hubbard............  Night Vision Kit.....  Law Enforcement...        3,700.00
    Illinois Valley Fire          Cave Junction......  Thermal Imager.......  Fire Department...       12,500.00
     District.
    Malheur County Sheriff's      Vale...............  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Oakland Rural Fire District.  Oakland............  Thermal Imager.......  Fire Department...       12,500.00
    Turner Police Department....  Turner.............  CEDAP Personal         Law Enforcement...        4,140.00
                                                        Protective Equipment
                                                        Kit.
    Turner Rural Fire Protection  Turner.............  Thermal Imager.......  Fire Department...       12,500.00
     District.
Pennsylvania:
    Bristol Township Police       Bristol............  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Millersville Borough Police   Millersville.......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Wilkes-Barre Police           Wilkes-Barre.......  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Wilkes-Barre Township Police  Wilkes-Barre.......  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
Rhode Island:
    Bristol Police Department...  Bristol............  Thermal Imager.......  Law Enforcement...       12,500.00
    Cumberland Hill Fire          Cumberland.........  Thermal Imager.......  Fire Department...       12,500.00
     District.
    North Smithfield Fire &       North Smithfield...  Thermal Imager.......  Fire Department...       12,500.00
     Rescue Service.
    Pawtucket Fire Department...  Pawtucket..........  Thermal Imager.......  Fire Department...       12,500.00
South Carolina:
    Hardeeville Fire/Rescue.....  Hardeeville........  Thermal Imager.......  Fire Department...       12,500.00
Tennessee:
    Lenoir City Police            Lenoir City........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Martin Fire Department......  Martin.............  Thermal Imager.......  Fire Department...       12,500.00
    Milan Police Department.....  Milan..............  Night Vision Kit.....  Law Enforcement...        3,700.00
Texas:
    Arp Marshal's Office........  Arp................  Thermal Imager.......  Emergency                12,500.00
                                                                               Management.
    Bosque County Constable's     Meridian...........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office--Precinct 1.
    Brownsboro Police Department  Brownsboro.........  Thermal Imager.......  Law Enforcement...       12,500.00
    Clifton Volunteer Fire        Clifton............  Search Camera Victim   Fire Department...       14,620.00
     Department.                                        Locator System.
    Cockrell Hill Police          Dallas.............  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Conroe Fire Department......  Conroe.............  Thermal Imager.......  Fire Department...       12,500.00
    Crims Chapel Volunteer Fire   Henderson..........  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Gainesville Police            Gainesville........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Hillsboro Fire/Rescue.......  Hillsboro..........  Thermal Imager.......  Fire Department...       12,500.00
    Jacksboro Police Department.  Jacksboro..........  Thermal Imager.......  Law Enforcement...       12,500.00
    Marietta Volunteer Fire       Marietta...........  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Meridian Fire Department....  Meridian...........  Thermal Imager.......  Fire Department...       12,500.00
    Valley Mills Police           Valley Mills.......  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Victoria Police Department..  Victoria...........  Advanced Portable      Law Enforcement...       10,200.00
                                                        Detector.
    Wichita County Texas          Wichita Falls......  Search Camera Victim   Emergency                14,620.00
     Emergency Management.                              Locator System.        Management.
    Winters Police Department...  Winters............  Night Vision Kit.....  Law Enforcement...        3,700.00
Utah:
    Cedar City/Iron County Fire   Cedar City.........  Thermal Imager.......  Fire Department...       12,500.00
     Department.
    Emery County Sheriff's        Castle Dale........  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office.
    Helper Police Department....  Helper.............  Thermal Imager.......  Law Enforcement...       12,500.00
    Morgan County Sheriff's       Morgan.............  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
Virginia:
    Amherst County Sheriff's      Amherst............  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Buena Vista Police            Buena Vista........  Night Vision Kit.....  Public Safety.....        3,700.00
     Department.
    Cumberland County Sheriff's   Cumberland.........  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Emporia Police Department...  Emporia............  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
    Henry County Sheriff's        Martinsville.......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office.
    King George Sheriff's Office  King George........  Thermal Imager.......  Law Enforcement...       12,500.00
Washington:
    Bainbridge Island Police      Bainbridge Island..  Thermal Imager.......  Law Enforcement...       12,500.00
     Department.
    Chelan County Sheriff's       Wenatchee..........  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Columbia County Sheriff's     Dayton.............  Night Vision Kit.....  Law Enforcement...        3,700.00
     Office.
    Colville Police Department..  Colville...........  Thermal Imager.......  Law Enforcement...       12,500.00
    Colville Tribes Fire Rescue.  Nespelem...........  Thermal Imager.......  Fire Department...       12,500.00
    Jefferson County Sheriff's    Port Hadlock.......  Thermal Imager.......  Law Enforcement...       12,500.00
     Office.
    Kettle Falls Police           Kettle Falls.......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Lakewood Police Department..  Lakewood...........  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
    Pierce County Fire District   Orting.............  Thermal Imager.......  Fire Department...       12,500.00
     18.
    San Juan County Sheriff's     Eastsound..........  Night Vision Kit.....  Fire Department...        3,700.00
     Office.
    San Juan Fire District 3....  Friday Harbor......  Thermal Imager.......  Law Enforcement...       12,500.00
    Stevens County Fire District  Hunters............  Thermal Imager.......  Fire Department...       12,500.00
     2.
    Stevens County Fire           Clayton............  Thermal Imager.......  Fire Department...       12,500.00
     Protection District 1.
    Stevens County Sheriff's      Colville...........  Night Vision Kit.....  Emergency Medical         3,700.00
     Ambulance.                                                                Services.
    Sumas Police Department.....  Sumas..............  Thermal Imager.......  Law Enforcement...       12,500.00
    Tumwater Police Department..  Tumwater...........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Walla Walla Police            Walla Walla........  Search Camera Victim   Law Enforcement...       14,620.00
     Department.                                        Locator System.
Wisconsin:
    Auburndale Joint Fire and     Auburndale.........  Thermal Imager.......  Fire Department...       12,500.00
     Rescue Department.
    Chippewa Falls Fire and       Chippewa Falls.....  Thermal Imager.......  Fire Department...       12,500.00
     Emergency Services.
    Chippewa Falls Police         Chippewa Falls.....  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Chippewa Fire District......  Chippewa Falls.....  Thermal Imager.......  Fire Department...       12,500.00
    Cottage Grove Police          Cottage Grove......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Fox Valley Metro Police       Little Chute.......  Night Vision Kit.....  Law Enforcement...        3,700.00
     Department.
    Germantown Police Department  Germantown.........  Night Vision Kit.....  Law Enforcement...        3,700.00
    McFarland Police Department.  McFarland..........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Mishicot Police Department..  Mishicot...........  Search Camera Victim   Law Enforcement...       14,620.00
                                                        Locator System.
    Park Falls Police Department  Park Falls.........  Night Vision Kit.....  Law Enforcement...        3,700.00
    Sharon Police Department....  Sharon.............  Thermal Imager.......  Law Enforcement...       12,500.00
    Stanley Fire Department.....  Stanley............  Search Camera Victim   Fire Department...       14,620.00
                                                        Locator System.
    Vernon County Emergency       Viroqua............  Night Vision Kit.....  Law Enforcement...        3,700.00
     Management.
----------------------------------------------------------------------------------------------------------------

    Question. What success have come out of the technology transfer 
program?
    Answer. The first award to 214 agencies of $2.0 million in 
equipment and training took place on May 19, 2005. The second award 
will take place in the coming weeks. A detailed evaluation is under 
development to determine the impact and cost effectiveness of the CEDAP 
program.

                             CITIZENS CORP

    Question. For what, specifically, will the increase of $35 million 
for Citizens Corp in the fiscal year 2006 President's Request be used?
    Answer. The Citizen Corps Program (CCP) is the Department's grass-
roots initiative to actively involve all citizens in hometown security 
through personal preparedness, training, and volunteer service. CCP 
funds support Citizen Corps Councils with efforts to engage citizens in 
preventing, preparing for, and responding to all hazards, including 
planning and evaluation, public education and communication, training, 
participation in exercises, providing proper equipment to citizens with 
a role in response, and management of Citizen Corps volunteer programs 
and activities. State and local governments have embraced the concept 
of Citizen Corps. They are developing the management capacity of the 
Councils, conducting public education, providing training for citizens, 
and engaging citizens through volunteer programs. However, there is a 
need to expand this effort to ensure that citizens are integrated in 
all aspects of State and local government preparedness, response and 
recovery and to support more significant community outreach through 
schools, private and public sector worksites, faith-based 
organizations, recreational outlets, and local media. The requested $50 
million is critical to meet the demand and build the capacity of 
preparing, training, and involving citizens. In the end, this will 
result in the development of a fully-prepared community, with citizens 
who are fully aware, trained and practiced on how to detect, deter, 
prepare for, and respond to all hazards and threats.

                             BEST PRACTICES

    Question. As the Office of State and Local Government Coordination 
and Preparedness discovers lessons learned and best practices across 
the Nation regarding procurement and allocation of grant funding, are 
those practices being collected and made available for State and local 
governments to benefit?
    Answer. SLGCP currently has several avenues to identify and share 
grant-related best practices and lessons learned with its State and 
local grantees.
  --The office has analyzed the states' and territories' narrative on 
        management capabilities responses included in the fiscal year 
        2005 HSGP applications, including information on allocation of 
        grant funding. SLGCP will provide each respondent with a 
        written overview summary analysis that highlights best 
        management practices and lessons learned. This overview will 
        allow States to learn about approaches that are working 
        successfully in other states. In addition to the overview, 
        SLGCP will also provide a state-specific analysis of the 
        management capabilities outlined in the applications.
  --SLGCP is developing a Program Management Handbook that includes 
        guidelines for building strong program management 
        infrastructures. These guidelines have been written to provide 
        a common, flexible framework with potential for customization 
        at the state, regional, and local levels. Best practices in 
        program management will be collected and disseminated to 
        support the implementation of the capabilities outlined in the 
        Handbook.
  --ODP is exploring ways to provide procurement assistance including 
        identification and dissemination of procurement best practices 
        to help States develop streamlined procurement practices. 
        Currently under development is procurement technical assistance 
        including informational materials, tools and templates, and 
        customized on-site guidance.

              AIRBORNE RAPID IMAGING FOR EMERGENCY SUPPORT

    Question. In the aftermath of the September 11 terrorist attacks on 
the World Trade Center, the State of New York utilized a technology 
that provided maps to first responders showing location, elevation, and 
temperature ranges of features on the ground within 8-10 hours after 
data collection. The Department of Homeland Security's Office of State 
and local Government Coordination and Preparedness provided $3 million 
in 2004 to demonstrate and further improve this technology by reducing 
turn around time through a system called the Airborne Rapid Imaging for 
Emergency Support (ARIES).
    What were the results of the ARIES flight demonstration that was 
conducted last November?
    Answer. The Airborne Rapid Imaging for Emergency Support (ARIES) 
program was a DHS-funded initiative to explore the technical 
feasibility of providing near real-time map-quality imagery for first 
responders in the event of a crisis. The program began in the spring of 
2004 and culminated with a technical demonstration on November 17, 2004 
at Picatinny Arsenal in New Jersey. The objectives of the demonstration 
were as follows:
  --Demonstrate the capacity to obtain digital imagery rapidly using 
        commercial aircraft in a simulated emergency event.
  --Downlink this imagery directly from the aircraft to a receiving 
        station using micro millimeter wave technology.
  --Process the raw, uncorrected imagery in a portable environment for 
        use by existing DHS systems within 3 hours of acquisition.
  --Distribute the imagery to multiple agencies for emergency needs.
  --Provide on-site visualization, tracking, and information gathering 
        capabilities to assist with any emergency response 
        requirements.
    The demonstration satisfied the technical criteria for four of the 
five components. Distribution of the imagery was not successfully 
demonstrated. This was a technical demonstration that did not address 
the utility of ARIES' orthorectified imagery products to emergency 
responders.
    Overall, the ARIES program proved the technical feasibility of the 
concept. A final program report including a costing analysis of the 
ARIES concept was conducted by the Institute for Defense Analysis. The 
report is in the final review process and will be made available upon 
completion.
    Question. What is the current capability in Federal, state, or 
local government organizations or private industry to provide 
integrated digital imagery, lidar, and thermal information to first 
responders?
    Answer. Many types of imagery, acquired for particular uses, are 
available commercially to support first responders. The capability of 
various organizations to deliver this imagery directly to first 
responders varies significantly from State to state. However, the 
capability of first responders to receive it and do sophisticated 
analysis is limited because there is no end-to-end system in place to 
acquire process and deliver imaging products to the first response 
community. The DHS Geospatial Management Office (GMO) is currently 
conducting pilot programs to demonstrate delivery of geospatial 
products to first responders using wireless hand held devices.
    Question. What is the Department's need and plan to advance and 
utilize this technology?
    Answer. According to the DHS GMO, the simultaneous collection, 
processing and integration of Digital Electro-optical (EO) Imagery, 
Light Detection and Ranging (LIDAR) elevation data and Thermal Infrared 
(TIR) Imagery from a single aerial platform was demonstrated in the 
ARIES pilot. The ARIES demonstration provided a unique capability 
determined to be necessary in the aftermath of September 11. Imaging 
technologies are collected and used by Federal, State or local 
organizations in a variety of mapping applications or special studies. 
Currently, however, the acquisition, dissemination and use of airborne 
and space-borne sensor information for emergency response are mostly 
uncoordinated among levels of government, across jurisdictions and 
between mission areas.
    The DHS GMO is responsible for providing leadership and 
coordination in meeting the geospatial information requirements of 
those responsible for planning, prevention, mitigation, assessment and 
response to emergencies, critical infrastructure protection, and other 
functions of the Department. The GMO is working with the DHS components 
as well as other Federal, State and local organizations to understand 
the geospatial information needed to support their missions. The GMO 
developed the Geospatial User Needs Assessment Report which identified 
many of the needs. The GMO has also produced and is maintaining the 
Geospatial View of the Geospatial Enterprise Architecture which is a 
current view of the as-is and target geospatial information technology 
architecture for DHS. The DHS Geospatial Architecture view is 
referenced in the fiscal year 2005 HSGP and is being used as a model 
for the emerging Geospatial Profile. As the DHS and HLS architecture 
mature, rapid geospatial imagery acquisition requirements will be 
identified and services will be acquired.

                           HAZARD MITIGATION

    Question. The Hazard Mitigation Grant Program provides critical 
funding to States following a declared natural disaster to assist them 
in reducing future disaster losses. The funding is an amount equivalent 
to a percentage of eligible FEMA funds. The funds provided are 75 
percent Federal and 25 percent local or State. Since the passage in 
December 2000 of the Disaster Mitigation Act which amended the Stafford 
Disaster Relief Act, FEMA has encouraged States to put forth the 
additional effort required to obtain an approved enhanced plan. Those 
with an enhanced plan would be eligible for an amount equivalent to up 
to 20 percent of eligible FEMA funds. Based on this incentive numerous 
States are working to obtain this goal. The fiscal year 2006 
President's Budget proposes language to reduce the percentage to up to 
12.5 percent.
    Since this incentive has been in the law for 4 years, why are you 
requesting this change now that some States have put forth significant 
commitment of already overburdened resources to achieve enhanced 
status?
    Answer. The President's Budget request preserves the 5 percent 
incentive for developing enhanced mitigation plans. The Hazard 
Mitigation Grant Program (HMGP) now uses a 7.5-percent multiplier to 
calculate the amount of mitigation money available to a State after a 
disaster declaration, when the State has an approved basic mitigation 
plan. When the State has an approved enhanced mitigation plan, it is 
eligible for up to 12.5 percent. Both the Administration and Congress 
agreed to the 7.5 percent basic formula, which was changed from 15 
percent when Congress created the Pre-disaster Mitigation (PDM) program 
to provide additional funding for mitigation activities on a nationally 
competitive basis.
    The incentive was 5 percent when the program used a 15 percent 
baseline and when HMGP represented the primary means for States to 
receive Federal mitigation funds. The incentive remains 5 percent now. 
Under the old plan, only the States in which a disaster was declared 
were eligible. However, the availability of PDM grant funds allows the 
States to compete for mitigation funds without a Presidential disaster 
declaration. The budget request of up to 12.5 percent HMGP for the 
States with enhanced mitigation plans preserves the 5 percentage point 
incentive authorized in the Disaster Mitigation Act of 2000.
    Question. Which States have approved plans and which States are in 
the process of working on enhanced plans?
    Answer. All 50 States now have approved State Mitigation Plans. In 
addition, the District of Columbia, Puerto Rico, the U.S. Virgin 
Islands, American Samoa, Guam, the Commonwealth of the Northern Mariana 
Islands, and the Republic of the Marshall Islands have approved state-
level mitigation plans. (The Federated States of Micronesia is the only 
non-Tribal jurisdiction without an approved plan. FEMA Region IX 
expects to be able to approve it soon.)
    There are currently four States with approved enhanced mitigation 
plans: Missouri, Ohio, Oklahoma, and Washington. FEMA has recently 
reviewed enhanced plans from Maryland and Pennsylvania; however, they 
require revision prior to approval. The following States have advised 
FEMA that they may submit enhanced plans for review and approval within 
the next 6 months: Alabama, Florida, Georgia, Iowa, Louisiana, 
Minnesota, Mississippi, North Carolina, Oregon, Texas, Virginia, and 
Wisconsin. Arizona, California, Delaware, North Dakota, and Utah have 
expressed interest in developing enhanced mitigation plans, but, to 
date, such plans have not been received.
    Question. Were the States advised that you intended to reduce the 
incentive?
    Answer. The fiscal year 2006 President's Budget is the first time 
that a specific percentage, other than 20 percent, has been 
communicated to the States working on enhanced plans. The incentive for 
an enhanced plan, however, remains 5 percent.

                        FLOOD MAP MODERNIZATION

    Question. What is the schedule, by state, for implementation of the 
Flood Map Modernization Program?
    Answer. The schedule varies from State to State and changes from 
year to year. FEMA has developed a strong business planning process in 
which it works with the States and with other significant mapping 
partners to identify and schedule mapping projects jointly. FEMA then 
works with its partners to execute the plan based on the funding 
appropriated and makes adjustments twice a year to align schedules with 
current realities. FEMA balances stakeholder input with national and 
regional flood mapping needs to develop a nationwide plan for flood map 
update schedules and anticipated budgets. FEMA used stakeholder input 
to develop the initial plan, and received additional feedback on the 
plan that will be addressed in future updates. The current Multi-year 
Flood Hazard Identification Plan (MHIP), detailing the 5 year schedule 
and budget for developing the updated flood hazard data and maps, can 
be accessed online at http://www.fema.gov/fhm/mh_main.shtm.
    Question. Are we on track to complete this project within the 
projected timeframe of completion in fiscal year 2008 within the budget 
that has been appropriated and requested?
    Answer. FEMA is on track to complete the project by 2010, should 
the funding requested through 2008 be provided. That is, studies funded 
in 2008 are expected to be complete by 2010. The digital flood hazard 
data will meet quality standards contained in the MHIP. However, 
stakeholders have identified additional engineering requirements beyond 
what can be accomplished within this project. Data on these additional 
engineering requirements are being collected as FEMA coordinates with 
States and communities during the nationwide mapping effort. These data 
will provide the basis for evaluating future resource needs.
    Question. What sort of cooperation is happening with State and 
local governments?
    Answer. The map modernization effort is built upon constant 
collaboration between FEMA Headquarters and FEMA Regions I-X, the 
States and local entities, and the business planning process 
facilitates this collaboration. Many FEMA mapping partners are 
contributing not only to the flood map production process, but to the 
planning process as well. In fiscal year 2003 and fiscal year 2004, 
FEMA provided more than $92 million directly to its Cooperating 
Technical Partners (CTPs) to develop flood map data in support of map 
modernization. Also, in 2002, as part of its broader effort to 
incorporate local, state, and regional involvement in flood mapping, 
FEMA asked the states, territories, and some CTPs with multi-
jurisdictional responsibility for floodplain management to prepare map 
modernization plans. The plans included extensive flood mapping needs 
assessments that were developed pursuant to FEMA and other criteria. In 
early fiscal year 2004, FEMA made funds available through the Flood Map 
Modernization Management Support (FMMMS) program to these same entities 
to upgrade and update their plans. FEMA received a total of 55 plans 
covering 48 States and four of the five water management districts in 
Florida. FEMA also received plans from the District of Columbia and two 
Territories.
    The FMMMS program, with more than 50 partners, provides a means to 
ensure that partners can support Flood Map Modernization through 
administration and management activities. These activities, although 
not directly resulting in the production of a flood map, increase 
partners' investment and capability to manage their flood hazard data, 
strongly bolster the efforts of mapping partners, and ensure a 
tailored, local focus within a national program. Two of the most vital 
outcomes of FMMMS are the partners' ability to review program planning 
policy and guidance and their identification of needs as a part of 
their business planning process.
    Question. What will the maintenance cost of this program be once 
the modernization piece is completed?
    Answer. FEMA is currently estimating maintenance costs and will 
provide this information to the Office of Management and Budget as 
scheduled. The strong partnerships, business planning processes, and 
flood mapping technologies deployed as part of Flood Map Modernization 
will allow FEMA to improve its estimated maintenance costs as the 
program draws to completion. FEMA will continue to work with the States 
and communities to define the most efficient and effective approach for 
providing and maintaining up-to-date flood hazard information for the 
nation.

                        CERRO GRANDE FIRE CLAIMS

    Question. What is the unobligated balance of the Cerro Grande fire 
claims fund?
    Answer. As of April 30, 2005, the unobligated balance of the Cerro 
Grande fire claims fund is $36,559,305.
    Question. Is there a deadline for claims? If so, what is it?
    Answer. The deadline for filing claims (other than mitigation 
claims) with the Office of Cerro Grande Fire Claims was August 28, 
2002. The deadline for filing mitigation claims was August 28, 2003.
    Question. If it has passed, what is the remaining balance of the 
fund?
    Answer. As of April 30, 2005, the remaining unobligated balance of 
the Cerro Grande fire claims fund is $36,559,305.
    Question. How many claims totaling how much are left to be resolved 
and what is the timeline for resolving those claims?
    Answer. FEMA has successfully processed 21,453 claims, including 
all administrative appeals. There are two claims left to be resolved. 
Those claims, totaling $5,249,866, were filed in the United States 
District Court for New Mexico. The resolution of these two cases 
depends on the schedule of the United States District Court. All of the 
4,529 subrogation claims have been processed, and 70 percent of each of 
those claims has been paid, leaving $34,509,270 as the remaining 
subrogation liability. The subrogation claims will be paid with funds 
remaining after the adjudication of the two claims in Federal Court.

                     PRE-DISASTER MITIGATION GRANTS

    Question. Last year the Conferees expressed concern over the slow 
progress in awarding fiscal year 2003 Pre-disaster Mitigation Grants 
and over the unobligated balances that remained in the program. How 
much fiscal year 2004 funding has been released to date and how much 
remains unobligated in the program?
    Answer. To date, FEMA has not released any fiscal year 2004 
competitive grant funding ($131 million). Since the PDM funds are 
available until expended, FEMA is combining the remaining fiscal year 
2003 funds with the fiscal year 2004 funds and with the fiscal year 
2005 appropriation into a streamlined fiscal year 2005 PDM competitive 
grant program. Of the fiscal year 2004 appropriation of $149 million, a 
total of $137 million (competitive grants, administrative, and 
miscellaneous funding) remains unobligated.
    Question. For fiscal year 2005 funds, why is it taking so long to 
distribute the funds and how can the program be expedited?
    Answer. After completing the first competitive PDM process, FEMA 
began awarding the fiscal year 2003 grants in April 2004. The fiscal 
year 2003 appropriation, authorized in February 2003, directed FEMA to 
implement a PDM grant program in three parts: (1) a nationally 
competitive PDM grant program for state, territory, local government, 
and Indian tribal government projects and plans; (2) a nationally 
competitive PDM grant program for disaster-resistant university 
projects and plans; and (3) a one-time planning grant allocation to the 
states and territories. The PDM grants are awarded based on the results 
of a three-phase competition--eligibility and completeness review, 
technical evaluation, and national evaluation team review. The 
applications are ranked and announced, and subsequently, the applicants 
are notified that their application has been selected for funding. Once 
this takes place, the grant award process can begin. The majority of 
the fiscal year 2003 funds have been awarded; however, an additional 
$18.5 million will be awarded when ongoing Federally required 
environmental and historic preservation compliance reviews are 
complete. FEMA anticipates that this will be no later than the end of 
fiscal year 2005. At that point, FEMA will have funded all eligible 
fiscal year 2003 grant applications and approximately $11 million in 
fiscal year 2003 funds will remain.
    In response to the announcement of funds available for fiscal year 
2005, FEMA received 821 applications totaling nearly $517 million. FEMA 
conducted eligibility and completeness reviews in March 2005. Technical 
reviews in the areas of engineering, cost effectiveness, and 
environmental and historic preservation were conducted in March and 
April 2005. The National Evaluation will be conducted May 17-June 3, 
2005. Representatives from 27 states, 3 tribes, and 1 territory will 
participate in the National Evaluation process.
    Based on the eligibility, completeness, and technical reviews 
completed to date, FEMA expects that the selection of grants for award 
will be completed in June, after which pre-award activities and the 
obligation of grant awards will begin. Grants will be selected so that 
ultimately, all funds from fiscal year 2005 and prior years will be 
obligated.
    Federal environmental and historic preservation compliance 
requirements for project grants, as well as state-level grant 
processing requirements, are significant factors that can delay the 
obligation of grant funds to selected grantees. FEMA will work with 
grantees to complete these requirements expeditiously; however, for 
those grants that cannot be obligated in fiscal year 2005, FEMA will 
work to complete the requirements and to obligate the grant funds as 
early as possible in fiscal year 2006.

                             FEMA PERSONNEL

    Question. Recently FEMA has experienced a large number of 
vacancies. In fiscal year 2004 and to date in fiscal year 2005 how many 
vacancies has FEMA experienced in headquarters and in the regions?
    Answer. At the end of fiscal year 2004, there were approximately 
357 vacancies agency-wide (not including Stafford Act employees). By 
mid-year of fiscal year 2005, FEMA had approximately 342 vacancies 
agency-wide.
    Question. Were any of those vacancies eliminated or transferred to 
other parts of DHS?
    Answer. Yes, some of the vacancies were transferred to the SLGCP at 
the start of fiscal year 2005.
    Question. Is so, what is the total number eliminated, and the total 
number transferred and to where?
    Answer. Sixteen vacancies were transferred to SLGCP at the start of 
fiscal year 2005.
    Question. How many vacancies does FEMA have as of April 20, 2005?
    Answer. As of April 20, 2005, FEMA has approximately 342 vacancies.
    Question. What is the current plan at FEMA for filling vacancies?
    Answer. FEMA will continue to fill vacancies and to maintain 
staffing levels sufficient to sustain its mission.
    Question. How has the vacancy of so many positions affected the 
ability to prepare and respond to disasters?
    Answer. FEMA still is able to maintain its mission capability.

                  IA'S ROLE IN INTELLIGENCE COMMUNITY

    Question. In February 2004, the DHS IG noted that the mission of 
the IAIP Risk Assessment Division (RAD) overlaps in many ways with the 
Terrorist Threat Integration Center (TTIC), now called the National 
Counterterrorism Center. The TTIC was created through executive order 
in 2003. In August 2004, the IG noted that DHS is not playing a lead 
role in consolidating terrorist watch list information even though the 
Homeland Security Act called for DHS to play a major role in watch list 
consolidation. In December of 2004, the Intelligence Reform and 
Terrorism Prevention Act was signed by the President making sweeping 
changes in the intelligence community.
    With the Intelligence Reform Act and other executive orders 
stripping away most of the responsibilities of IA and placing them with 
the National Counterterrorism Center (NCTC) and the Terrorist Screening 
Center, what role does IA play in the intelligence community?
    Answer.
The Role of DHS Office of Information Analysis in the Intelligence 
        Community
    DHS Office of Information Analysis (IA) plays a leading role in the 
intelligence community for homeland security intelligence. The Office 
provides border, infrastructure, maritime and domestic threat analysis; 
fuses unique information from our components and our non-traditional 
stakeholders; and serves as the primary intelligence information 
provider to state, local, territorial and tribal governments and the 
private sector, as well as their advocate for intelligence information 
within the intelligence community. As I announced on July 12, 2005, I 
am committed to enhancing this role.
    DHS IA's role as a leader of homeland security intelligence within 
the intelligence community is likewise enhanced by the IRTPA 2004 and 
other executive orders; the greater integration of the intelligence 
community as a result of IRTPA 2004 will strengthen the ability of DHS 
IA to carry out its mission.
IRTPA 2004 and the Integration of the Intelligence Community
    DHS IA is aggressively integrating into the intelligence community 
to ensure we can maximally contribute to the nation's security, 
especially in our unique areas of expertise (producing unique analysis 
and providing unique information), and to ensure we are able to most 
effectively leverage the expertise and support of the intelligence 
community on behalf of the Homeland Security mission and its 
stakeholders, especially those non-traditional stakeholders such as 
State, local, territorial, and tribal governments and the private 
sector (with whom we have unique partnerships).

Integrating DHS IA Unique Analytic Expertise into the Intelligence 
        Community
    DHS IA has ``forward deployed'' DHS intelligence analysts to our 
intelligence community partners, to include the National 
Counterterrorism Center (NCTC), the Federal Bureau of Investigation, 
and to non-intelligence community members such as the TSC.
    These seasoned analysts are able to ensure our intelligence 
community partners have the benefit of our unique DHS analytic 
expertise in Border Security Intelligence, Infrastructure Security 
Intelligence, Maritime Security Intelligence (esp. through our Homeland 
Infrastructure Threat and Risk Assessment Center), and Domestic Threat 
Intelligence.
    We frequently collaborate with our partners when expertise is 
required in our unique analytic areas and we are fully engaged in 
ongoing community efforts to develop community production plans 
reflective of an efficient application of the community's resources. 
For example, DHS IA is fully participating in the NCTC led effort to 
develop a communitywide counterterrorism production plan; we are taking 
the lead in those areas that make use of our unique DHS analytic areas 
(borders, infrastructure, maritime and domestic threat, as appropriate) 
and partnering with other organizations on those topics that will be 
strengthen by including our experts' input.

Working with NCTC and TSC on Analysis
    DHS IA has been a strong partner in NCTC since its inception as the 
Terrorist Threat Integration Center in January 2003. On a daily basis 
we levy the expertise resident in the NCTC to answer the needs of our 
customers--we focus on ensuring the best counterterrorism analysis in 
the government is put into a form, context and classification that is 
useful for our state, local, territorial and tribal governments and 
private sector partners. At the same time, we provide our substantial 
expertise to the NCTC on areas where we are the experts: borders, 
infrastructure, maritime, and domestic threat analysis. The result of 
this partnership is that we work together on many joint products--
bringing the best expertise in the government to bear on behalf of our 
customers.
    DHS IA took a lead role in helping stand up the TSC, providing 
staff and support (to include a senior manager). Our experienced 
analysts in the TSC help ensure the success of its vital work in 
watchlist consolidation.
    DHS IA also conducts a valuable alternative analysis program; our 
Red Cell provides alternative analytic perspective to complement--and 
challenge--NCTC and others findings. Our Red Cell has received 
compliments for its insightful and adventurous thought--and this work 
is an essential component of the alternative analytic capability 
required under IRTPA 2004.

Integrating DHS IA Unique Information into the Intelligence Community
    In parallel with our efforts to integrate DHS unique analytic 
expertise into the intelligence community, we are also moving forward 
in ensuring our vast DHS unique information holdings are made available 
to the intelligence community through direct access and quality 
reporting.
    DHS has vast information holdings, unique to this department, 
either as a result of our operational elements' investigations and 
enforcement operations or as a result of our unique position as the 
primary interface between the Federal Government and the State, local, 
territorial and tribal governments and private sector.
    DHS IA is working to ensure analysts throughout the intelligence 
community have access to our information holdings, while respecting the 
privacy and civil liberties of our citizens. In several cases, the 
Department has made operational elements' data holdings directly 
available to partner organizations in the intelligence community. In 
addition, DHS IA is establishing a reports officer program, focused on 
drawing information out of the department's information holdings and 
placing them into traditional intelligence community channels, through 
the Intelligence Information Reports vehicle. DHS IA has deployed 
trained reports officers into key departmental operational nodes to 
report counterterrorism information derived from border enforcement 
efforts and immigration investigations to the intelligence community. 
In the future, DHS IA will deploy trained reports officers throughout 
the components--and out into State and Local Fusion Centers--to ensure 
the all the department's relevant information is made available to 
those who need it, in a timely manner and in the channels analysts in 
the intelligence community are comfortable with and expect to receive 
reporting.

Integrating DHS IA Unique Partnerships into the Intelligence Community
    DHS IA has been charged to be the primary Federal Government 
intelligence information provider to the State, local, territorial, and 
tribal governments and the private sector (a responsibility re-
emphasized by IRTPA 2004)--and to be their advocate within the 
intelligence community. On a daily basis we are integrating our support 
for these customers into the larger intelligence community by working 
to ensure the free flow of information and products from the 
intelligence community out to our customers, by providing actionable 
intelligence, and by contextualizing intelligence to explain the 
product to our customers in terms they understand and working with our 
partners to produce the reports at the classification levels our 
stakeholders can use.
    We are also continually working to ensure our customers' 
requirements--whether they are for information or for finished analytic 
production--are represented in the intelligence community requirements 
statements, collection decks, and production plans. Our work in 
integrating the homeland security intelligence requirements of the 
state, local, territorial, and tribal governments and the private 
sector into the intelligence community requirements system is the first 
time these requirements have been systematically included and advocated 
for in the intelligence community.

IRTPA 2004 and DHS IA Departmental Responsibilities
    In addition to our lead role for homeland security intelligence 
within the intelligence community, DHS IA maintains several key 
departmental support responsibilities--including a new role of leading 
and managing the departmental intelligence activities.
    Some of these key departmental roles include:
  --Providing direct support to the Secretary and department senior 
        staff for policy, programmatic, and operational decision 
        making.
  --Developing the plans, programs and policies required to build a 
        unified, integrated DHS intelligence capability, which the 
        Secretary has said will lie at the heart of the department's 
        risk-based approach to securing the homeland.
  --Supporting the Homeland Security Advisory System (HSAS). IA will 
        continue to provide specific intelligence to the Secretary and 
        the White House to enable timely changes in the threat level 
        and support dissemination of this information to stakeholders. 
        We will contribute to the function of Indications & Warning 
        (I&W) in partnership with the HSOC.
  --Building out of the intelligence infrastructure for DHS 
        headquarters.
  --Developing an Education, Training, and Career Workforce Management 
        Program for DHS analysts and intelligence professionals.
    Finally, early reviews by the DHS OIG and concerns resulting from 
the changing roles and responsibilities of the NCTC and other 
organizations due to IRTPA 2004 and other executive orders are not 
reflective of the successes DHS IA has demonstrated as a leader within 
the intelligence community for homeland security intelligence. As 
stated above, our value added comes in our unique data and analytic 
expertise (border, infrastructure, maritime, and domestic threat 
analysis--analysis that has distinguished itself on several occasions 
and led the community toward the appropriate threat characterization), 
in providing our unique information (information never before available 
to the intelligence community and by which we have already contributed 
to successes in other agencies), and in partnering with our 
stakeholders--especially in our unique role as the primary Federal 
Government intelligence information provider to the state, local, 
territorial, and tribal governments and the private sector and in our 
role as their advocate within the intelligence community.
    We remain focused on our mission of leading the DHS intelligence 
activities in support of the department and its components, and for the 
full benefit of the state, local, territorial, and tribal governments 
and the private sector, to secure the homeland, defend our citizenry, 
and protect our critical infrastructure.
    Question. What role does the Homeland Security Operations Center 
(HSOC) serve in comparison to the NCTC?
    Answer. In contrast to the NCTC, the HSOC provides general domestic 
situational awareness, a common operational picture, and support to the 
IIMG and DHS Leadership, as well as acting as the primary conduit for 
the White House Situation Room and IIMG for domestic situational 
awareness. The HSOC will continue to collect domestic related 
suspicious activity reports, look at domestic terror threats and 
natural disasters, focusing efforts domestically. HSOC is the lead 
conduit to State and local agencies.
    Question. The FTE levels authorized for IAIP appear to be based on 
the larger role in intelligence gathering and analysis that was 
envisioned when IAIP was established. What is the justification to 
carry such a high number of FTE for intelligence analysis now that many 
functions envisioned by the Homeland Security Act have been placed at 
other agencies?
    Answer. IAIP's mission is an entirely new one, and it is a 
manpower-intensive effort owing to the vast size and scope of the 
threats to the homeland. IAIP is performing an intelligence mission 
never before attempted, and it is a mission that includes Federal, 
state, local, tribal entities as well as privately-held interests. 
Additionally, IAIP is responsible for intelligence pertaining to 
securing the borders of the United States, which is in itself an 
enormous undertaking. DHS and IAIP have been given the mission of 
producing intelligence analysis and products that simply did not exist 
before, and to do so with a ``target set'' that is staggering in its 
size and complexity. While the need to conserve resources is clear, the 
need to perform the analyses needed to ensure that our Homeland is 
prepared to detect, intercept, withstand, and, if necessary, recover 
from a terrorist attack is even more vital.

                           CHEMICAL SECURITY

    Question. Last year, I asked Secretary Ridge about his plans to 
address security at chemical plants and he told me that the private 
sector was taking care of it. Yet, the Department has no benchmarks to 
determine whether the private sector is taking steps to secure its 
facilities. In response to this apparent gap in our security, last 
year, I asked GAO to determine what steps are being taken by the 
private sector to protect the American people. The GAO concluded that 
for 93 percent of the industry, it is uncertain whether facilities are 
improving security at all. Only 1,100 of the 15,000 chemical facilities 
identified by the Department of Homeland Security are known to adhere 
to voluntary industry security procedures.
    It has been more than 2 years since the GAO urged the EPA and DHS 
to develop a comprehensive strategy for the protection of our chemical 
plants. Yet, little has been done.
    What are your plans to enhance security for the chemical sector?
    Answer. As part of the development of the NIPP, the Office of 
Infrastructure Protection (IP) has been tasked with authoring the 
Chemical Sector Specific Plan (SSP), which will outline the strategic 
guidance for securing the Chemical Sector.
    While the Chemical SSP is being developed, DHS continues to work 
within the Chemical Sector to enhance overall protective capability 
through several ongoing initiatives. To help guide the resource 
targeting of these initiatives, the Department is applying a risk 
management process that examines the likelihood of a given event and 
its potential consequences. This approach allows for the Department's 
protective efforts to be directed at those chemical facilities posing 
the greatest potential danger to the American public. Examples of these 
protective efforts include the following:
  --Site Assistance Visits (SAVs).--SAVs are visits to critical 
        infrastructure facilities by DHS protective security 
        professionals in conjunction with subject-matter experts and 
        local law enforcement (LLE) to assist asset owner/operators in 
        assessing vulnerabilities at their facilities. To date, SAVs 
        have been conducted at 38 chemical facilities.
  --Buffer Zone Protection Plans (BZPPs).--BZPPs identify and recommend 
        security measures for the area surrounding a facility (the 
        ``Buffer Zone''), making it more difficult to plan or launch an 
        attack. DHS trains LLE personnel on how to assess Buffer Zone 
        security and provides a standardized template for use in the 
        creation of a BZPP. To date, DHS has received BZPPs for 111 
        chemical facilities, with BZPPs expected to be completed for 
        the 289 highest-risk chemical facilities by the end of fiscal 
        year 2005. In conjunction with the BZPP program, $14.5 million 
        in grants have been provided to first preventers responsible 
        for the protection of chemical facilities
  --Educational Reports.--Based on data gathered from SAVs and BZPPs, 
        DHS has developed three types of educational reports for use by 
        LLE and asset owner/operators to learn how to better secure CI/
        KR assets. Characteristics and Common Vulnerabilities reports 
        (CVs) identify common characteristics and vulnerabilities at 
        specific types of CI/KR. Potential Indicators of Terrorist 
        Activity reports (PIs) provide information on how to detect 
        terrorist activity in areas surrounding CI/KR. Protective 
        Measure (PM) reports identify best practices and other 
        protective measures for use at specific CI/KR types. CVs and 
        PIs have been developed for Chemical Facilities, Chemical 
        Storage Facilities, and Chemical and Hazardous Materials 
        Transportation. A PM report has been developed for the Chemical 
        and Hazardous Materials Industry.
  --Facility Security Assessments/Facility Security Plans (FSAs/
        FSPs).--Pursuant to the Maritime Transportation Security Act of 
        2002 (MTSA), owners of chemical facilities located along 
        waterways are required to complete FSAs and FSPs and submit 
        them to the USCG for review and approval. FSPs must include 
        security measures and procedures for responding to security 
        threats. To date, USCG personnel have visited over 230 chemical 
        facilities under the MTSA.
  --Risk Analysis and Management for Critical Asset Protection 
        (RAMCAP).--DHS, in conjunction with the American Society for 
        Mechanical Engineers, is developing the RAMCAP, a risk 
        assessment methodology that will allow asset owners/operators 
        to assess the security of their critical assets. Results from 
        RAMCAP assessments will allow comparison of assets from across 
        sectors, allowing for better prioritization of national CI 
        protective efforts. The Chemical Sector module will be 
        completed by the end of the second quarter of fiscal year 2005.
  --Webcams.--Web-based cameras have been installed at ten high-risk 
        chemical facilities in order to enable LLE and DHS to conduct 
        remote surveillance of the buffer zone surrounding each 
        facility during elevated threat levels.
  --Tabletop Exercises.--As part of DHS-IP's Exercise Program, tabletop 
        exercises have been conducted at six chemical facilities. The 
        findings from these exercises are compiled in After Action 
        Reports which serve as a basis for planning future exercises; 
        upgrading security plans and operating procedures; and taking 
        corrective actions.
  --TIH Rail Security.--DHS, in conjunction with DOT, is supporting a 
        variety of efforts to improve security for Toxic-by-Inhalation 
        Hazards (TIH) rail shipments. These efforts include studying 
        ways to make HAZMAT rail cars less identifiable; conducting 
        vulnerability assessments for the high-risk urban areas where 
        the largest quantities of TIH chemicals move by rail; a DC Rail 
        Pilot Project involving a ``virtual fence'' with various 
        sensors and monitors to help secure the DC rail corridor from 
        potential incidents involving HAZMAT; and establishing TIH 
        HAZMAT teams in the DC area.
  --Training.--DHS provides various training courses to asset owner/
        operators, State and local government officials, and LLE 
        agencies responsible for the protection of chemical facilities. 
        Such courses include: Terrorism Awareness and Prevention; 
        Advanced Bomb Technician Training; Surveillance Detection; SWAT 
        Operations; and Underwater Hazardous Device Search Training.
  --Private Sector Initiatives.--In addition to protective activities 
        led by DHS or other Federal entities, asset owner/operators in 
        the Chemical Sector are voluntarily undertaking a variety of 
        security initiatives. Chief among these is performance of self-
        assessments using the Responsible Care Security Code (Security 
        Code). This code, developed by one of the Chemical Sector's 
        largest trade associations, is designed to help chemical 
        facilities improve their security using a risk-based approach 
        to identify, assess, and address vulnerabilities; prevent or 
        mitigate incidents; and enhance training and response 
        capabilities. Implementation of the Security Code is a 
        prerequisite for membership in some of the sector's largest 
        industry associations. Recently, DHS reached a tentative third 
        party verification agreement with two of these associations 
        (the American Chemistry Council and the Chlorine Institute).
    Question. Will legislation be proposed to Congress that sets 
security standards across the industry?
    Answer. At this time, our non-regulatory partnerships with industry 
are producing results. However, DHS has concluded that the existing 
patchwork of authorities does not permit us to regulate the industry 
effectively. Accordingly, DHS has agreed to work with Congress to 
assess the need for a carefully measured, risk-based regulatory regime 
in the chemical sector designed to close the existing gaps and develop 
enforceable performance standards to reduce risk across the chemical 
sector.
    Question. Do you agree that the Department must establish 
benchmarks to assess both the private sector's and Federal Government's 
role in securing the chemical sector?
    Answer. DHS believes facility chem site security should be based on 
reasonable, clear, equitable performance standards. Enforceable 
performance standards should be based on the types and severity of 
potential threats posed by terrorists, and facilities should have the 
flexibility to select among appropriate site-specific security measures 
that will effectively address those threats.

                      BUFFER ZONE PROTECTION PLANS

    Question. DHS recently released $92 million in Buffer Zone 
Protection Plan grants. Of the 1,849 grants, provide a chart that shows 
the distribution of grants and the funding by critical infrastructure 
sector.
    Answer. Please see table below.

                             BREAKDOWN OF BZPPS BY SECTOR FOR FISCAL YEAR 2004-2005
----------------------------------------------------------------------------------------------------------------
                                                                     Number of      Percent of        Approx.
                             SECTOR                                  sites \1\         sites        funding \2\
----------------------------------------------------------------------------------------------------------------
Agriculture & Food..............................................               5            0.27        $250,000
Banking & Finance...............................................              41            2.20       2,050,000
Chemical & Hazardous Materials Industry.........................             272           14.62      13,199,870
Commercial Assets...............................................             880           47.29      43,592,631
Dams............................................................               7            0.38         350,000
Defense Industrial Base.........................................               6            0.32         300,000
Emergency Services..............................................               5            0.27         202,975
Energy..........................................................             213           11.45      10,550,954
Government Facilities...........................................             142            8.28       7,100,000
Information Technology..........................................               5            0.27         250,000
National Monuments & Icons......................................              10            0.54         500,000
Nuclear Power Plants............................................              92            4.94       4,423,802
Postal Shipping.................................................               2            0.11         100,000
Public Health...................................................              23            1.24       1,117,506
Telecommunications..............................................               5            0.27         250,000
Transportation..................................................              98            5.27       4,836,168
Water...........................................................              43            2.31       2,150,000
                                                                 -----------------------------------------------
      TOTALS....................................................           1,849          100.00     $91,223,906
----------------------------------------------------------------------------------------------------------------
\1\ The exact composition of the fiscal year 2004-05 BZPP list is still evolving; the current sector breakout is
  a snapshot, but will not change substantially.
\2\ Subject to prioritization decisions of 18 States and 1 territory that have elected to prioritize their
  assets, an exact sector breakdown is not currently available. A total of $91,315,793 is available under the
  grant program.

    Question. Does DHS plan to broaden the criteria for receiving 
grants to include the gross consequence of an attack and other 
vulnerabilities?
    Answer. In determining where to target its protection resources, 
DHS applies a risk management process that examines the likelihood of 
attack and its potential consequences. This approach allows the 
department's protective efforts to be directed at those facilities 
posing the greatest potential danger to the public. DHS is continuing 
to improve data collection in support of risk analysis, and to refine 
our risk assessment methodologies to ensure resources are being spent 
where they are most needed.

                      MANAGEMENT & ADMINISTRATION

    Question. The fiscal year 2006 congressional justification shows 
that $1 million will be spent on ``Purchases from Government Accounts'' 
and $19 million for fiscal year 2006. In response to reprogramming 
questions, IAIP adjusted the number for ``Purchases from Government 
Accounts'' to $20.2 million. Provide a detailed chart on what the $20.2 
million will buy in fiscal year 2005 and what the $19 million will buy 
in fiscal year 2006.
    Answer. In fiscal year 2005, the reprogramming of $20.2 million 
into ``Purchases from Government Accounts'' includes funding for 
facilities, Project Management Office, and IT costs. In fiscal year 
2006, the $19 million in ``Purchases from Government Accounts'' will 
fund the Homeland Secure Data Network (HSDN).

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Fiscal year 2005:
    Homeland Secure Data Network........................      $7,500,000
    Shared Services.....................................       2,000,000
    Facilities..........................................       4,500,000
    WCF Contribution....................................       7,700,000
    IT NCR ops..........................................         500,000
                                                         ---------------
      Total.............................................      22,200,000
                                                         ===============
Fiscal year 2006: Homeland Secure Data Network..........      19,400,000
------------------------------------------------------------------------

    Question. Explain the large increases in fiscal year 2006 for 
equipment and land and structures.
    Answer. The $38 million funding request does not support the design 
and construction phases of facilities projects. Department Operations 
requests funds for the facilities design, basic tenant improvements 
(construction/renovation), physical security upgrades, and emergency 
power requirements for facilities IAIP will occupy at the Nebraska 
Avenue Complex (NAC). The IAIP facilities funding is requested to 
support the costs of occupying facilities, both on and off the NAC, 
once they are ready, including fit out costs such as furniture, 
computers and other Information Technology (IT), and the operations and 
maintenance costs (rent, security, IT support) associated with occupied 
facilities. Specifically, the operations and maintenance portion of the 
IAIP facilities funding covers electric costs for additional air 
conditioning required due to the technology requirements in IAIP spaces 
(HSOC and server requirements), maintenance for the secure, up to date 
unclassified and classified Local Area Networks, IT desktop services, 
as well as required janitorial services. The tenant improvement portion 
of this funding covers the mentioned fit out costs and ensures 
facilities capable of meeting both the classified and unclassified 
space and technology requirements in recognition of the fact that IAIP 
is an IT and security intensive tenant. These costs include IT 
infrastructure and cabling, IT equipment, security, IT certification 
and accreditation, furniture, data migration and relocation costs. The 
request does not pertain to land, as IAIP is a tenant in GSA-controlled 
facilities.

                           CONTRACT EMPLOYEES

    Question. In response to fiscal year 2005 reprogramming inquiries, 
IAIP reported that there are 564 contractors supporting the program 
function of IAIP, 138 of which are funded through the Management & 
Administration account and 426 through the Assessments and Evaluations 
Account.
    Of the 426 in the A&E account, what is the distribution of contract 
support by portfolio?
    Answer. Please see chart below.

------------------------------------------------------------------------
                                                             Contract
                         Account                              support
------------------------------------------------------------------------
Management & Administration.............................             138
                                                         ===============
Assessments and Evaluations.............................             426
    Homeland Security Operations Center.................              32
    Critical Infrastructure Outreach and Partnerships...              74
    Cyber Security......................................              78
    NS/EP Telecommunications............................              32
    National Infrastructure Simulation and Analysis                   24
     Center; Protective Actions; Critical
     Infrastructure; Identification and Evaluation;
     Biosurveillance....................................
    Threat Determination and Assessment; Evaluations and             186
     Studies; Infrastructure Vulnerability and Risk
     Assessment.........................................
                                                         ===============
      Total.............................................             564
------------------------------------------------------------------------

    Question. What makes these positions not inherently governmental 
positions?
    Answer. The support personnel listed against the programs are 
performing services consistent with Appendix B to Office of Federal 
Procurement Policy (OFPP) policy letter 92-1. On-site contractor 
personnel only perform support functions to IAIP and do not perform any 
activities that are considered inherently governmental. IAIP is 
currently covering significant portions of the workload associated with 
open authorized FTE positions (which are inherently governmental) 
through significant workload sharing of on-board FTE and use of 
contractors to support non inherently governmental functions of those 
same FTEs. The mix of contractor support staff will change as programs 
progress and as new tasks are levied, and workloads will redistribute 
to more logical and efficient workflows as FTEs come on-board. Although 
the current work flow arrangements are difficult, they are working due 
to the dedication and professionalism of the current FTE workforce. 
IAIP is aware of its responsibilities under the FAIR Act (A-76) and we 
annually review functions for inherently governmental versus commercial 
activities.

                      ASSESSMENTS AND EVALUATIONS

    Question. The budget request shows--$137.404 million in Adjustments 
to Base. For each adjustment on page 76 of the congressional 
justification for IAIP, explain the reduction or increase.
    Answer. Please note that all dollars are in thousands.

          CRITICAL INFRASTRUCTURE IDENTIFICATION AND EVALUATION
------------------------------------------------------------------------
                      Description                           Adjustment
------------------------------------------------------------------------
A decrease of $4,789 is due in part to contractor               ($4,789)
 savings created by the increased number of FTE
 positions for Field Security Detachments.
 Additionally, further savings are garnered by the
 joint funding of Protective Security Task Forces
 (PSTFs) between Critical Infrastructure Identification
 and Evaluation (CIIE) and Public Actions (PA). There
 are elements of the PSTF program that align with CIIE
 such as the identification of critical infrastructure
 and the CI/KR expertise of the PSTF team members.
 However, the overarching emphasis of the PSTF mission
 is the implementation of protective measures at high
 priority CI/KR in light of emerging threats. In fiscal
 year 2006 the program will be funded jointly between
 CIIE and PA, but the entire program will be
 transitioned to PA in fiscal year 2007. This is an
 attempt of IP to better align our programs with the
 budget structure......................................
A decrease of $899 will be transferred to S&T to                   (899)
 support Supervisory Control and Data Acquisition
 Testing within Cyber Security, responsible for
 securing the U.S. industrial systems that have become
 increasingly dependent on powerful, electronic
 communications tools, the internet, and supervisory
 control and data acquisition (SCADA) systems..........
                                                        ----------------
      Total Adjustments to Base........................          (5,688)
------------------------------------------------------------------------


  NATIONAL INFRASTRUCTURE SIMULATION AND ANALYSIS CENTER ADJUSTMENTS TO
                                  BASE
------------------------------------------------------------------------
                      Description                           Adjustment
------------------------------------------------------------------------
Travel, includes all costs of transportation of                     ($5)
 persons, subsistence of travelers, and incidental
 travel expenses in accordance with Federal travel
 regulations. In fiscal year 2004 travel for
 Headquarters personnel was funded from M&A, but has
 been transferred to A&E for fiscal year 2005 and
 fiscal year 2006......................................
Advisory and Assistance Services; the fiscal year 2006           (3,995)
 request includes decreases due to decreases in program
 advisory services and transfers of shared service
 expenses from A&E back to M&A.........................
                                                        ----------------
      Total Adjustments to Base........................          (4,000)
------------------------------------------------------------------------


                   BIOSURVEILLANCE ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                       Description                          Adjustment
------------------------------------------------------------------------
Technical Adjustments...................................            $147
                                                         ---------------
      Total Adjustments to Base.........................             147
------------------------------------------------------------------------


                 PROTECTIVE ACTIONS ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                      Description                           Adjustment
------------------------------------------------------------------------
In fiscal year 2006, the PA program is reduced by              ($53,000)
 $53,000 to establish the new TIP program administered
 by the SLGCP. TIP grants will be used by state/local/
 territorial/tribal entities to procure goods and
 services determined necessary by IAIP's BZPP process.
 Previously, these goods and services which reduce the
 vulnerability to terrorist threats around certain high
 vulnerability critical infrastructures and key assets
 within the state/local/tribal jurisdiction were funded
 by assistance from IAIP. The TIP program will also
 result in a $3,000 savings in program consultation
 support costs.........................................
A decrease of $41,500 for Emerging Pilot Projects and    ...............
 Technology Application Pilots saving initiative.......
Technology pilots will be a cooperative effort with S&T  ...............
 for the development of new technologies for protective
 measures. This effort is funded within S&T............
Emerging Pilot Projects has evolved into the Protective  ...............
 Measures Demonstration Pilots project which takes
 advantage of innovative uses of existing protective
 methods and commercially available equipment and
 technology to enhance the security of CI/KA...........
A pilot project would take technology already developed  ...............
 for a specific use and apply it to fill gaps in
 protective security and evaluate the effectiveness and
 benefits in ``real life'' or field environments as
 they relate to IP objectives and priorities.
 Protective Security Pilots are developed from gaps and
 protection shortfalls identified in interdependency
 analysis and consequence of attack analysis as
 directed by the NIPP, and also from BZPPs, SAVs, and
 needs identified by Sector Specific Agencies. Pilots
 are meant to demonstrate solutions for vulnerabilities
 that cross sectors and stakeholders. Once the means of
 mitigating the vulnerability is established and
 proven, the solution is disseminated to all entities
 that have similar vulnerabilities so that the
 strategies can be integrated in their respective risk
 management strategies.................................
IP is the Sector Specific Agency for 3 sectors                  (41,500)
 (chemical, nuclear, and commercial assets) and is also
 responsible for cross-sector protection as detailed in
 the National Infrastructure Protection Plan. IP is
 responsible for increasing the general level of
 protection for CI/KR sites absent of specific threat
 and is also responsible for addressing specific threat
 events. PSD's intention in fiscal year 2006 is to
 address the most critical vulnerabilities identified
 by vulnerability assessments and BZPPs in fiscal year
 2005 within the sectors that IP is directly
 responsible for, including chemical, nuclear and
 commercial sectors. Other individual sectors and cross-
 sector vulnerabilities will also be addressed with the
 demonstration of pilot protective measures based on
 intelligence and threat information. As directed by
 the National Infrastructure Protection Plan (NIPP) and
 HSPD-7, demonstration pilots are also taken on by PSD
 to mitigate specific vulnerabilities across sectors as
 the dynamic threat environment changes................
A Decrease of $9,800,000 for Regional Protective         ...............
 Actions...............................................
Pilot programs to establish regional centers for use by          (9,800)
 local law enforcement entities will not be continued
 in fiscal year 2006. The performance impact will be
 negligible as PSD will maintain close contact with
 local police and protective security agencies through
 the use of the outreach program, training programs,
 Site Assistance Visits, the BZPP program and visits by
 Protective Security Advisors and other DHS personnel.
 DHS also conducts seminars and conferences in order to
 maintain contact with State and local agencies. PSD
 has developed close working relationships with local
 police agencies and will continue to foster and
 maintain these relationships in the future............
Technical Adjustments..................................           4,052
                                                        ----------------
      Total Adjustments to Base........................        (100,248)
------------------------------------------------------------------------


  CRITICAL INFRASTRUCTURE OUTREACH AND PARTNERSHIPS ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                      Description                           Adjustment
------------------------------------------------------------------------
Technical Adjustments..................................            $885
The cost of maintaining the data center which was               (35,000)
 funded in fiscal year 2005, in the CIOP program, and
 initiated under the direction of the Department's CIO
 is not requested in fiscal year 2006..................
A $13,800 reduction in CIOP results from a                      (13,800)
 restructuring and completion of analytical tasks,
 institutionalization of partnership relationships, and
 implementation of management efficiencies.............
                                                        ----------------
      Total Adjustments to Base........................         (47,915)
------------------------------------------------------------------------


                   CYBER SECURITY ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                       Description                          Adjustment
------------------------------------------------------------------------
Technical Adjustments...................................            $969
                                                         ---------------
      Total Adjustments to Base.........................             969
------------------------------------------------------------------------


              NS/EP TELECOMMUNICATIONS ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                       Description                          Adjustment
------------------------------------------------------------------------
Advisory and assistance services includes services to             $1,807
 support Executive Order 12472, which provides authority
 for the National Communications System (NCS) to
 initiate telecommunications service priority programs
 such as Wireless Priority Service (WPS) and Government
 Emergency Telecommunications Service (GETS). GETS and
 WPS are essential telecommunications services to
 support restoration and recovery following catastrophic
 events.................................................
Travel..................................................              57
Technical Adjustments...................................              14
                                                         ---------------
      Total Adjustments to Base.........................           1,878
------------------------------------------------------------------------


         THREAT DETERMINATION AND ASSESSMENT ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                      Description                           Adjustment
------------------------------------------------------------------------
Information can be provided under separate cover upon           ($2,043)
 request...............................................
                                                        ----------------
      Total Adjustments to Base........................          (2,043)
------------------------------------------------------------------------


  INFRASTRUCTURE VULNERABILITIES & RISK ASSESSMENTS ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                       Description                          Adjustment
------------------------------------------------------------------------
Information can be provided under separate cover upon             $3,267
 request................................................
                                                         ---------------
      Total Adjustments to Base.........................           3,267
------------------------------------------------------------------------


         COMPETITIVE ANALYSIS AND EVALUATION ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                      Description                           Adjustment
------------------------------------------------------------------------
Information can be provided under separate cover upon           ($4,000)
 request...............................................
                                                        ----------------
      Total Adjustments to Base........................          (4,000)
------------------------------------------------------------------------


               EVALUATIONS AND STUDIES ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                       Description                          Adjustment
------------------------------------------------------------------------
Information can be provided under separate cover upon            $20,139
 request................................................
                                                         ---------------
      Total Adjustments to Base.........................          20,139
------------------------------------------------------------------------


         HOMELAND SECURITY OPERATIONS CENTER ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                      Description                           Adjustment
------------------------------------------------------------------------
Technical Adjustments..................................           ($192)
                                                        ----------------
      Total Adjustments to Base........................            (192)
------------------------------------------------------------------------


        INFORMATION SHARING AND COLLABORATION ADJUSTMENTS TO BASE
------------------------------------------------------------------------
                       Description                          Adjustment
------------------------------------------------------------------------
Technical Adjustments...................................            $282
                                                         ---------------
      Total Adjustments to Base.........................             282
------------------------------------------------------------------------

    Question. The budget proposes a decrease of $41.5 million for 
Emerging Pilot Projects and Technology Application Projects with the 
understanding that ``this effort is funded within S&T.'' There is no 
budget transfer into S&T for this purpose. Is this just a simple 
reduction in this area?
    Answer. The Emerging Pilot Projects and Technology Application 
Projects are designed to review existing technologies and help get 
appropriate protective measures in the field in a usable manner. These 
pilots and projects identify commercially available or emerging 
technologies and determine if they can be successfully used to 
eliminate existing vulnerabilities in a real-world situation. These 
projects will allow DHS to expand the potential protective measures 
that can be deployed and to fill existing identified operational gaps. 
The Technology Application Projects identify commercially available 
technology and determine if the technology can be applied in the field 
to fill real needs. The Emerging pilots are required to ensure that any 
new technology is deployed to the field with appropriate methods and 
restrictions to allow the state, local, or commercial operators to 
successfully implement the new technologies. Aspects for successfully 
technology deployment require: pilots to determine the usefulness of a 
technology under various conditions; personnel training for deployment 
and effective use; monitoring methods or personnel required; required 
response time; technology calibration information; maintenance cycle 
and manuals, etc.

                          NOAA WEATHER RADIOS

    Question. Virtually none of the funding appropriated for NOAA 
radios as been obligated by IAIP. Why does this funding remain 
unobligated?
    Answer. IAIP has obligated the procurement and shipment of NOAA 
``All Hazard'' radios to schools across the country. Specifically, a 
$500,000 pilot program has been funded to disseminate these radios to 
all the K-12 public schools in certain UASI cities and two rural 
states. The radios will arrive in September, which coincides with the 
start of the school year and National Preparedness Month. These radios 
regularly disseminate weather related information and can now broadcast 
official DHS alert and warning information. (DHS/IAIP and Commerce/NOAA 
entered into a MOA in 2004 that provides for DHS message dissemination 
over NOAA's All Hazard Radio and also over FEMA's local Emergency Alert 
System.) IAIP, NOAA, Department of Education, DHS Citizen Corps, DHS 
Procurement, DHS Grants Office, and other DHS entities have been in 
regular contact regarding this effort for over a year. After lessons 
have been learned from this initial pilot, additional IAIP alert and 
warning funds ($1.5 million) will be used for radio procurement for 
other schools across the country. This $2 million obligation for the 
radios and the $18 million transferred to FEMA for program management 
of other alert and warning projects represent all IAIP funding to 
improve alert and warning for the general public.

                  VIOLATING THE DHS APPROPRIATIONS ACT

    Question. Congress and this Committee take very seriously the 
constitutional powers bestowed on the legislative branch to enact laws. 
Article I, Section 9, Clause 7 States that ``No money shall be drawn 
from the Treasury but in Consequence of Appropriations made by law.''
    Since the beginning of fiscal year 2005, the Department, on several 
occasions, has violated legislative provisions set forth in the fiscal 
year 2005 Homeland Security Act. For example, Section 503 of the Act 
sets strict reprogramming and transfer guidelines restricting the 
ability of the Department to reallocate appropriated dollars from one 
program to another without congressional notification. In fiscal year 
2005, DHS has violated that provision on more than one occasion. In one 
instance, DHS stood up a brand new office, called the Domestic Nuclear 
Detection Office, which has been reporting directly to the Secretary. 
The start-up costs for this office were taken from funds appropriated 
to the Under Secretary for Science and Technology. Within the 
Information Analysis and Infrastructure Protection Office, the 
Department reallocated funding from an appropriation that pays salaries 
to its employees to start a new program called Information Sharing and 
Collaboration. Section 507 of the fiscal year 2005 Act requires DHS to 
notify Congress on any contract or grant in excess of $1 million 3 
business days before it is announced. This provision is an important 
tool for Congress to keep track of the vast amount of contract and 
grant funding appropriated to the Department. On several occasions, the 
Committee has become aware of grants or contracts through the press 
after the award had been made and without a notification to Congress. 
In addition, the S&T Directorate spends the majority of its $1 billion 
annual appropriation on R&D contracts and grants. Through January 31 of 
this year, the S&T Directorate expended nearly $120 million, yet the 
Committee has received only 1 grant notifications and 1 contract 
notification.
    Mr. Secretary, I don't expect that you were apprised of these 
violations nor will you be able to comment on them today. My questions 
is however, will you look into this pattern of negligence and develop a 
plan within your office to ensure that the Department will follow the 
letter of the law as enacted by the U.S. Congress and signed by the 
President of the United States? As part of your transition review, will 
you develop a plan to avoid other violations similar to the examples I 
described?
    Answer. The Department takes seriously its responsibility to adhere 
to the reporting requirements referred to in this question. One of the 
key imperatives that will drive this Department is to improve DHS' 
stewardship, particularly with respect to financial management. 
Likewise, improving communications with Congress, including the timely 
provision of information such as reports and reprogrammings are 
important, and will be improved. The Department has already put in 
place new mechanisms to better track and more aggressively manage 
reports assigned to DHS by Congress. DHS considers this an important 
priority and is dedicating significant focus and attention toward 
ensuring reports are sent to Congress in a timely manner. With respect 
to the DNDO, the Department provided a reorganization notification and 
a reprogramming notification, and withheld spending resources for any 
DNDO activities, including the setting up a DNDO, during the required 
waiting period. Congress repeated this message in its action on the 
supplemental in May, and the Department has abided by the requirements 
and deadlines in that bill and report.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                  IMMIGRATION AND CUSTOMS ENFORCEMENT

    Question. Immigration and Customs Enforcement (ICE) has been 
plagued by budget problems basically since the creation of your 
department. ICE has had a hiring freeze in place since last year and it 
is unclear when it will be lifted, and only a significant reprogramming 
request allows it to balance its books for the current fiscal year. Of 
course, these funding problems are occurring while members of Congress 
from both parties have emphasized the importance of enforcing our 
immigration laws in the interior.
    How will you ensure that ICE has the funding it needs to perform 
its mission?
    Answer. I am committed to ensuring that ICE has the funding it 
needs to perform its mission. The fiscal year 2006 President's Budget, 
which includes $205 million to address base requirements within the 
agency, along with fiscal year 2005 supplemental funding, will assure 
that ICE has the necessary funding.
    Question. Does the Administration's fiscal year 2006 request 
provide sufficient funds to avoid another large reprogramming request 
next year?
    Answer. The fiscal year 2006 request provides sufficient funds to 
avoid another large reprogramming request in fiscal year 2006.

                           ALL-STATE MINUMUM

    Question. I was disappointed that President Bush' proposed budget 
for fiscal year 2006 reduces from 0.75 percent to 0.25 percent the all-
state minimum formula, which I authored, in applying it to the programs 
under the State Homeland Security Grant Program. This formula assures 
that each State receives a minimum of 0.75 percent of those grants to 
help support their first responders' basic preparedness needs.
    Not only would this change result in the loss of millions in 
homeland security funding for the fire, police and rescue departments 
in small- and many medium-sized states, but also deal a crippling blow 
to their efforts to build and sustain their terrorism preparedness.
    Mr. Secretary, does this Administration want to shortchange rural 
states, rolling back the hard-won progress we have begun to make in 
homeland security by slashing the protections provided to us by the 
all-state minimum?
    Answer. For fiscal year 2006, DHS proposes to redesign the homeland 
security funding process to award State HSGP funds based on an 
evaluation of risk and needs. The intent of this approach is to change 
the way DHS invests its limited homeland security resources in order to 
achieve the greatest return on investment for our nation's homeland 
security. This is consistent with recommendations from the 9/11 
Commission, which contends that Federal homeland security assistance 
should supplement State and local resources based on the risks or 
vulnerabilities that merit additional support. As proposed, fiscal year 
2006 awards will be based on a relative evaluation of risk and 
application-based review of need with no State receiving less than 0.25 
percent. DHS will consider risk factors such as threat, presence of 
critical infrastructure, vulnerability, population and population 
density, international borders, and ports of entry in making final 
award determinations. In the consideration of need, DHS will undertake 
an assessment with the States and territories to identify their 
capabilities and gaps consistent with the capabilities and tasks 
identified under Homeland Security Presidential Directive-8. In 
addition, at least 20 percent of funds awarded will be dedicated to 
support law enforcement terrorism prevention activities. Overall, this 
approach will result in the achievement of the highest possible 
readiness to prevent, protect against, respond to, and recover from 
major events in order to minimize the impact on lives, property, and 
the economy.
    Question. Mr. Secretary, would you agree that homeland security is 
a national responsibility shared by all states, regardless of size?
    Answer. Yes, DHS strongly believes that homeland security is not 
only a Federal responsibility, but it requires collective national and 
even international action. The protection of our citizens, our critical 
infrastructure, our businesses, and our communities is a shared 
responsibility, requiring Federal, state, local, international, and 
private sector partnerships. The partnership required to protect the 
homeland involves sharing information as well as responsibility. For 
that reason, allocation of State and local grant funding should reflect 
the best available data and analysis of the threats, risks, and unmet 
needs--not static formulas.
    Question. Mr. Secretary, do you agree that each State has basic 
terrorism preparedness needs and, therefore, a minimum amount of 
domestic terrorism preparedness funds is appropriate for each state?
    Answer. The President's Request proposes a 0.25 percent allocation 
to be provided to each State as a supplement to State and local 
resources allocated to domestic preparedness. DHS resources should be 
used to enhance basic levels of preparedness and not to supplant State 
and local responsibilities. In addition, the Department believes that 
States and urban areas should focus on a set of collective capabilities 
needed to prevent, protect against, respond to, or recover from a 
terrorist attack or catastrophic event. Through the newly-developed 
Interim National Preparedness Goal and the accompanying National 
Planning Scenarios and Target Capabilities List, the Nation will begin 
to implement a coordinated approach to national preparedness, utilizing 
a risk-based and regional methodology.
    Question. If you do not support applying the 0.75 percent minimum 
to the State Formula Grants Program, what compromise between 0.75 
percent and 0.25 percent for the distribution of funds would you 
support?
    Answer. The DHS proposal to reduce the minimum State allocation 
from 0.75 percent to 0.25 percent is based on the redesign of the 
homeland security program to support a risk and need-based approach to 
funding. Factors such as threat, presence of critical infrastructure, 
vulnerability, population, borders, and POEs will be used to make final 
award determinations. An increase in the base percentage allocation 
would result in a reduction in resources available for those States 
with the greatest risk and needs. Therefore, DHS believes that raising 
the minimum allocation is not conducive to maintaining maximum 
readiness.

                       FIRST RESPONDERS (GENERAL)

    Question. President Bush often says that he wants to ensure that 
our State and local first responders receive the resources necessary to 
do the job the American public expects them to do. I find that hard to 
believe, though, when I read that he proposes a $455 million overall 
cut in funds for State Homeland Security Grant Program, Law Enforcement 
Terrorism Prevention Program, Emergency Management Performance Grants 
and other programs SLGCP Office that directly benefit police, fire and 
medical rescue units. The Administration argues this is justified 
because it does not believe those funds are ``targeted'' to homeland 
security capabilities.
    I believe, however, that the current Administration has failed to 
make first responders a high enough priority by consistently 
underfunding homeland security efforts of every state.
    The Hart-Rudman Terrorism Task Force Report argued that our Nation 
will fall approximately $98.4 billion short of meeting critical 
emergency responder needs through this decade's end if current funding 
levels are maintained. Clearly, the domestic preparedness funds 
available are still not enough to protect from, prepare for and respond 
to future domestic terrorist attacks anywhere on American soil.
    Would you agree, Mr. Secretary, that to be truly protected from, 
prepared for and able to respond to terrorist attacks we must look to 
increase the funds to our Nation's State and local first responders, 
rather than decrease them, as proposed by the President?
    Answer. The President's fiscal year 2006 Budget request includes 
$3.6 billion for SLGCP to continue our strong commitment and support to 
the nation's emergency prevention and response community. Of this 
amount, $1.02 billion is for the State HSGP, which has been 
significantly redesigned to award funds based on risk and need, while 
aligning with national priorities. An additional $1.02 billion is for 
the continuance of the UASI, which targets funds to the nation's 
highest risk urban areas. Further, the President's request provides 
$600 million for a new TIP Program to supplement state, local, and 
private sector infrastructure protection efforts based on critical 
vulnerabilities. The fiscal year 2006 request also includes a strong 
commitment to our nation's fire service by providing $500 million for 
the Assistance to Firefighters Grant Program. The request includes $50 
million the CCP and $170 million for the EMPG. For continuation of our 
commitment to training our nation's first responders, the request 
includes $94.3 million for SLGCP's State and Local Training Program. 
The request also includes $59 million for the National Exercise 
Program, which includes support for State and local exercises and for 
the National Top Officials exercise series. Finally, the request 
includes $10.6 million for technical assistance initiatives for State 
and local agencies and $14.3 million for program evaluation and 
assessments. Between fiscal year 2002 and fiscal year 2004 the SLGCP 
awarded homeland security grants totaling $6.1 billion. In fiscal year 
2005, SLGCP anticipates awarding an additional $3.64 billion in grants. 
We believe, at this point, that funding provided to our nation's first 
responders has been sufficient to address their critical needs.

                             BORDER PATROL

    Question. The intelligence reform bill Congress passed and the 
President signed last December mandated an increase of 2,000 Border 
Patrol agents in fiscal year 2006, with an increase of 400 agents at 
the Northern Border. The President's budget for DHS would pay for an 
increase of slightly more than 200 agents, or about 10 percent of what 
Congress called for. None of these new agents would be deployed on our 
Northern Border.
    Why does the Administration believe that an increase of about 200 
agents is sufficient to secure our borders?
    Answer. Following the terrorist attacks of September 11, 2001, the 
CBP Border Patrol has accelerated its efforts in increasing its 
enforcement presence along the northern border to achieve the 
definitive goal of operational control, and the number of agents 
allowing the northern border more than tripled. DHS is completing work 
on comprehensive immigration reform, which calls for additional new 
hires. We have supported additional agents in fiscal year 2006 
consistent with both House and Senate appropriation marks for CBP 
hiring.
    Question. Would additional agents beyond the number proposed by the 
President be useful to the Department's efforts to prevent illegal 
entry into the United States?
    Answer. The Department appreciates the 500 additional agents funded 
in the Emergency Supplemental. As noted above, the Department is in the 
midst of a systems-level review of its border control architecture.

                             ICE/CBP MERGER

    Question. As you know, there has been substantial discussion in 
recent months about a possible merger of Immigration and Customs 
Enforcement with Customs and Border Patrol. Do you support such a 
merger?
    Answer. I do not support a merger at this time. ICE and CBP were 
formed just two and a half years ago and the transition to the current 
structure has been challenging. I am concerned about embarking on yet 
another far reaching transition affecting these organizations. Most 
importantly, however, it is too soon to say that the current structure 
will not effectively serve our border missions. As we move forward with 
comprehensive reforms and improvement to our border security and 
immigration system, I am confident that both ICE and CBP can operate in 
an effectively coordinated manner without being merged.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

                             PORT SECURITY

    Question. Mr. Secretary, one of my greatest concerns--as a Senator 
from a State that depends on its seaports for its livelihood--is that 
we have a cohesive port security plan that protects our communities and 
our economy from potential threats.
    Yet the Administration's budget request again seeks to eliminate 
the Port Security Grant program.
    Mr. Secretary, as I've mentioned before, the Coast Guard Commandant 
testified that it would take more than $7 billion to implement the 
Maritime Transportation Security Act. To date, we have provided a 
little more than $500 million toward this $7 billion--most of which was 
not requested by the Administration. Mr. Secretary, for the past 2 
years, nearly $1 billion in port security grant requests came to DHS 
annually. And, the American Association of Ports Authorities has 
estimated that there is a need of at least $400 million to help secure 
our port facilities this year. From our discussions, I know that 
securing our ports is a priority for you. And, again, I realize you did 
not draft this budget--but you've been sent here to defend it.
    I must ask--is this a budget game the Administration is playing, or 
does the White House discount all of the intelligence reports that tell 
us our ports are a significant risk?
    Answer. Enhancing the security of the nation's critical 
infrastructure, especially its ports, continues to remain a high 
priority for the Department. For fiscal year 2006, DHS is proposing to 
consolidate the Port Security, Rail/Transit Security, Buffer Zone 
Protection (BZP) Program and Trucking Industry Security grant programs 
into the single TIP Program. Combined resources for the fiscal year 
2005 distinct programs totaled $315 million. The DHS fiscal year 2006 
request for the TIP Program is $600 million, almost double the amount 
of fiscal year 2005 available resources for the distinct fiscal year 
2005 programs. With that being said, funds provided through TIP will 
directly enhance the ability of the owners and operators of key port 
assets and transit systems to prevent and respond to large scale 
incidents. In fiscal year 2005, DHS shifted to a more risk-based 
allocation of funding across sectors, as well as integration of these 
programs with regional homeland security planning efforts, such as 
those required by the UASI. The fiscal year 2005 program also considers 
intelligence and threat data to set specific security enhancement 
priorities. The fiscal year 2006 TIP Program will continue to build on 
these enhancements by shifting to a discretionary approach for all 
program elements, allowing DHS to better supplement state, local and 
private sector infrastructure based on risk. Additional priorities for 
the fiscal year 2006 program include further enhancing the linkages 
between critical infrastructure protection and regional planning 
efforts, and a continued emphasis on security investment at ports and 
transit agencies based on relevant intelligence and threat data. In the 
end, this will result in a more agile and responsive program based on 
risk.

                             CARGO SECURITY

    Question. Mr. Secretary, I know we both agree the agencies involved 
in securing these seaports are doing an admirable job--they are working 
through a difficult problem.
    Yet, they aren't being given the proper tools, resources, and 
guidance to knit together a coordinated port security regime for our 
nation.
    Last year, I added language into the fiscal year 2005 Committee 
Report that directed the Under Secretary of Border and Transportation 
Security to develop a plan to create that coordinated approach to port 
security. That report was due--quote--no later than February 8, 2005. 
Yet, we have not received that report. Unfortunately, the message that 
the Administration has sent is that the White House is not willing to 
take the responsibility for developing and implementing such a plan.
    Mr. Secretary, I've discussed this issue at great length with you, 
Deputy Secretary Jackson, Commissioner Bonner, your predecessors--
anyone who might listen.
    I've talked about legislation and additional funding but all we 
have seen from the Administration is a directive that appointed a new 
Commission to study the issue.
    Mr. Secretary, I know we agree this is an issue of importance. What 
do you believe we need to do--how can we help you come up with a 
coordinated approach to secure our ports, the cargo moving through them 
and the people who work and live near them?
    Answer. The report was submitted on June 8, 2005.
    Maritime and supply chain security remain priorities for DHS. When 
the President signed HSPD-13/NSPD 41 in December 2005, he indicated the 
Administration's commitment to addressing port security as part of the 
greater maritime system. In this Directive, DHS and DOD were directed 
by the President to develop a strategy for securing the Maritime 
domain, including a variety of issues related to port and cargo 
security. DHS is actively working with DOD and other Federal partners 
to meet this goal.
    In addition, I am reviewing the status of DHS's cargo security 
efforts, how they can be further strengthened and how we can further 
transform the system to ensure the United States security and economic 
needs are met.

                            HAMMER TRAINING

    Question. Mr. Secretary, as you might be aware, Washington State is 
home to the The Volpentest Hazardous Materials and Emergency Response 
Training and Education Center--we know it as HAMMER.
    This is a state-of-the-art, Department of Energy facility with 
expertise in threats posed by chemical, radiological, and biological 
agents, hazardous materials, and weapons of mass destruction. HAMMER 
specializing in hands-on training for first responders but the 
Department has not designated this facility a regional training center. 
Instead, first responders from throughout the Northwest have to use 
their local budget--or DHS funding--to travel to facilities around the 
country for the training they could receive close to home. Under the 
fiscal year 1999 Defense Authorization Act, the Secretary of Energy was 
specifically authorized to enter into partnership arrangements with to 
share the facilities at HAMMER with Federal agencies. Under the 
Homeland Security Act of 2002, you are authorized to enter into joint 
sponsorship arrangements with the Secretary of Energy to use DOE sites 
to carry out the missions of the Department of Homeland Security. Mr. 
Secretary, we have a great facility at HAMMER and I encourage you to 
come personally, or send your staff out to visit. I know that when you 
see their capabilities, you will agree that using HAMMER as a 
designated training center would be a benefit to both the first 
responder community throughout the Northwest--and DHS itself.
    Will you visit HAMMER and consider adding it as a member of the 
National Domestic Preparedness Consortium?
    Answer. The NDPC was chosen based on each member's expertise in 
first response training. At present, plans to expand DHS' training 
network are extremely limited, and more than likely will not include 
the establishment of additional consortium members or residential 
training facilities. Under the provisions of the Department of Homeland 
Security's fiscal year 2004 Appropriations Act (Public Law 108-90), ODP 
received funds for a limited ``competitive training grants'' program to 
supplement training efforts provided through the National Domestic 
Preparedness Consortium. The Competitive Training Grant Program (CTGP) 
was developed to facilitate national scale training programs, and the 
fiscal year 2004 program funded 14 training sites. Currently, the 
Department is undergoing its evaluation process for fiscal year 2005 
CTGP applicants. In addition, enhancing existing training programs is 
an eligible use of other SLGCP grant funds. The Department encourages 
HAMMER to explore the use of other DHS grants as a potential source of 
Federal funding in the future.

                        NORTHERN BORDER SECURITY

    Question. Mr. Secretary, the President's budget request only 
includes funding for 210 of the 2,000 new border agents called for by 
the Intelligence Reform Act that was signed into law last December.
    We currently have about 11,000 Border Patrol agents and 90 percent 
of them are stationed on the southern border. We have a major security 
issues at our northern border--ranging from drug trafficking to the 
apprehension of potential terrorists--and they aren't being addressed.
    What kind of message is this sending to our border communities? Is 
stepping up this security going to be a priority for you?
    Answer. Following the terrorist attacks of September 11, 2001, the 
CBP Border Patrol has accelerated its efforts in increasing its 
enforcement presence along the Northern Border to achieve the 
definitive goal of operational control, and the number of agents 
allowing the Northern Border more than tripled. This accelerated and 
focused effort has clearly provided the Nation with a more secure 
Northern Border. Moreover, Emergency Supplemental Legislation and 
President Bush's fiscal year 2006 Budget call for the hiring of an 
additional 710 agents by the end of fiscal year 2006, and CBP is taking 
aggressive steps to recruit, hire and train candidates to fill these 
spots. The hiring of these new agents comes in addition to the standard 
attrition hires that supplement the several hundred agents who retire, 
transfer, or leave for medical reasons over the course of a year. New 
agent positions will be allocated based on risk-based priorities. That 
said, effective control of the border--Northern or Southern--requires a 
more comprehensive approach than simply adding more agents.
    DHS is accordingly in the midst of a systems-level review of its 
border control architecture to identify the right mix of personnel, 
technology and infrastructure to help achieve effective control of the 
border. DHS will identify a program manager to oversee the development 
of a specific set of border security plans.

                        NORTHERN BORDER AIR WING

    Question. Along those lines, the first Customs Air and Marine 
Operations Wing was established in Bellingham, WA last summer. I was 
very happy to be there at the dedication and have worked with Director 
Stallworth to get the program up and running. The second air wing is in 
Up-State New York and 3 more are planned. We need to make these a 
priority--especially with the lack of Border Patrol agents on the 
Northern Border. They also need to be able to communicate with the 
local law enforcement. Since that time it has become clear that many 
local law enforcement jurisdictions don't have compatible radios--our 
eyes-in-the-sky can't coordinate with the police on the ground. I'm 
told it would cost about $5 million to run a pilot program.
    Do you agree that this is an issue we should deal with? Will you 
help make this happen?
    Answer. Deployment of additional Northern Border airwings will be 
addressed as part of the CBP Air and Marine program integration review 
now underway. This review is expected to be completed in the summer of 
fiscal year 2005.

                      NORTHERN BORDER PROSECUTIONS

    Question. Mr. Secretary, because of the increased presence and law 
enforcement activity on the northern border, incarcerations and 
prosecutions are up dramatically since September 11. The major border 
crossing between Seattle and Vancouver, BC is in Blaine--a very small 
community compared to Detroit and Buffalo--and a very limited local tax 
base to cover these costs. This community has already seen more than a 
$3 million increase in prosecution costs simply because they are 
located on the border. This trend is expected to continue with an 
expected $4 million in prosecution and incarceration costs in fiscal 
year 2005. Mr. Secretary, this community needs some special help--they 
don't have the tax base or population to sustain this and even greater 
increases.
    What can your Department do to help communities like this one?
    Answer. DHS has committed significant resources to address the 
increase in smuggling activity between the United States and Canada, as 
well as the demonstrated vulnerabilities that exist on the Northern 
Border. This dedication of enforcement resources has resulted in an 
increase in arrests, seizures, and prosecutions involving border 
related criminal activity. Some prosecutions based on DHS enforcement 
activities have been deferred to the State for prosecution since the 
violators also fall under State law.

                             SEATAC AIRPORT

    Question. Secretary Chertoff, I am very concerned with the reports 
that Seattle Tacoma International Airport in Washington State may see a 
reduction in their Federal security screener force this year. 
Currently, SeaTac Airport is facing a shortage of approximately 200 
FTEs to meet the summer travel season at present staffing levels. 
Without these additional screeners SeaTac will undoubtedly see repeats 
of 2002 and 2003 that saw security lines regularly exceeding 1 hour.
    Mr. Secretary, I request that you review the situation at SeaTac 
and work with the local Federal Security Director to ensure that 
SeaTac's screener staffing level allows the airport and TSA to provide 
the same level of customer service achieved last year.
    Answer. Based on the Screener Staffing Model, SeaTac Airport (SEA) 
is currently below its required staffing level. TSA is in the process 
of bringing SEA up to that staffing level. Recruitment of new screeners 
is underway.

                          SUBCOMMITTEE RECESS

    Senator Gregg. The hearing is recessed.
    [Whereupon, at 12:09 p.m., Wednesday, April 20, the 
subcommittee was recessed, to reconvene to subject to the call 
of the Chair.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        THURSDAY, APRIL 28, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:29 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Cochran, Stevens, Craig, Allard, 
Byrd, and Inouye.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF DR. PENROSE C. ALBRIGHT, ASSISTANT 
            SECRETARY FOR SCIENCE AND TECHNOLOGY

                OPENING STATEMENT OF SENATOR JUDD GREGG

    Senator Gregg. We will convene this hearing.
    The purpose of this Homeland Security hearing is to review 
where we stand relative to defending this Nation from 
biological or chemical attack, which is in my opinion the 
biggest threat to our country. If you prioritize threat, which 
is exactly what we should be doing as a Congress and as a 
Government, you have to put at the top of the list the concerns 
weapons of mass destruction used against the American 
population somewhere here in the United States or overseas 
obviously.
    We, 2 years ago, began the effort to try to aggressively 
address this issue, recognizing some fundamental flaws within 
our structure as a country, the biggest flaw being the 
pharmaceutical industry, which one would presume would 
naturally pursue ways of being able to respond to a biological 
attack, was not structured to do so, and the Government was not 
structured to deal with a chemical or a biological attack.

                               BIOSHIELD

    So we worked very hard, in my prior role as Chairman of the 
Health Committee, to pass a piece of legislation called 
BioShield, which was the initiative of the administration. And 
the purpose of this bill was to reenergize the vaccine industry 
in this country and to energize the research community within 
our Nation to pursue ways to respond to various chemical and 
biological agents which might be used against us.
    We understand, obviously, there is no market for a product 
to respond to these type of agents. These agents are by 
definition agents which do not commonly occur, but only occur 
when we are attacked, although smallpox was a problem, but it 
has been eradicated. So we needed to create a structure where 
there would be not only an atmosphere where creative 
individuals and scientists would step forward to develop 
responses to attacks involving threats such as anthrax, 
smallpox, botulism, and plague, but we also had to create a 
monetary system, a market system which would encourage this 
from a standpoint of making it a reasonable place to invest 
your money if you were an investor. And that is what BioShield 
was all about. It basically put the Government in the business 
of buying antidotes and vaccines for this list of major 
threats.
    We are now well into this process. Progress has been made 
in some areas but there is still a long way to go in other 
areas. The purpose of this hearing is to discuss what we are 
doing and what we should be doing that will better produce 
results.
    My own personal concern is we have still not stood up a 
vaccine industry in this country at the level I would like to 
see it. We still do not have many participants in the 
production of vaccine, that the research community, especially 
our academic research community, has not yet embraced this 
initiative as well as and as aggressively as I would hope, and 
that there appears to be some incentives in the system which 
are discouraging research in this area, and the question of how 
we are purchasing products, to the extent it is being brought 
on line, whether that is chilling competition or participation 
of other parties in the research and development of creative 
new ways to address these types of threats.
    It is a complex issue involving the most cutting-edge 
levels of science, and it does not have a simple solution. If 
it did, we would have gotten to it much sooner. But we do have 
a committed effort to do it, and we have got a committed 
Government to accomplish it, and I think we have got some good 
witnesses today to find out where we stand and where we should 
go.
    With that, I will yield to the honorable Senator from 
Virginia, Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. That is West Virginia.
    Senator Gregg. I apologize profusely.

                     BIOLOGICAL OR CHEMICAL ATTACK

    Senator Byrd. Mr. Chairman, first of all, let me thank you 
for your service. I listened with rapt attention at your 
remarks. You are well prepared to be the Chairman of this 
subcommittee and well prepared to probe this very important 
subject.
    I welcome the witnesses on both panels for this hearing, 
and I applaud you, Mr. Chairman, for calling us together for 
such an important topic.
    Earlier this year during testimony before the Senate 
Intelligence Committee, CIA Director Porter Goss warned and I 
quote ``It is only a matter of time before Al Qaeda or another 
terrorist group tries to use chemical, biological, 
radiological, or nuclear weapons in the United States.'' Mr. 
Chairman, I believe that. I believe it is absolutely the case, 
and I am not sure that we are prepared. I doubt it because we 
do not know when, we do not know where this monster will 
confront us with a bioterror attack, a chemical attack, a 
nuclear attack, or a radiological attack.
    With regard to a biological attack, Congress made a serious 
commitment by appropriating $5.6 billion to pursue new vaccines 
and medications to protect the American public from known 
biological threats. It is essential the agencies involved in 
this process be accountable for progress in this area. So, I 
look forward to discussing this and other homeland security 
efforts, not only to detect and respond to a bioterror 
incident, but what efforts are being made to prevent a 
biological, chemical, also to examine nuclear terror incident.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator Byrd.
    We will turn to the panel now. The first panel will be 
people in our Government who have first-line responsibility for 
getting us prepared for a biological or chemical attack and 
being able to respond to it. Our first witness is Dr. Albright 
who was confirmed as Assistant Secretary of Homeland Security, 
Plans, Programs, and Budgets on October 3. Our second witness 
is Mr. Simonson who is the Assistant Secretary for Public 
Health Emergency Preparedness, United States Department of 
Health and Human Services. And these two gentlemen have the 
portfolio and we look forward to hearing how we are doing. So 
let us start with you, Dr. Albright.

                  STATEMENT OF DR. PENROSE C. ALBRIGHT

    Dr. Albright. Good afternoon, Chairman Gregg, Senator Byrd, 
and distinguished members of the Subcommittee. I am pleased to 
appear before you today to discuss the progress the Science and 
Technology Directorate of the Department of Homeland Security 
is making in the Nation's efforts to prevent, protect against, 
respond to, and recover from acts of bioterrorism against the 
American people.
    President Bush has made strengthening the Nation's defenses 
against biological weapons a critical national priority. The 
President's focus on these issues has resulted in a joint 
Homeland Security Presidential Directive/National Security 
Presidential directive entitled Biodefense for the 21st Century 
that provides a comprehensive framework for our Nation's 
sustained and focused effort against biological weapons 
threats.

                     ACCOMPLISHMENTS IN BIODEFENSE

    The Department of Homeland Security and the Science and 
Technology Directorate have explicit responsibilities in this 
integrated national effort. In particular, I want to highlight 
the strategy, planning, and accomplishments to date of the 
Science and Technology Directorate in the area of biodefense 
and the essential collaborations with key Federal partners, 
including those represented here today.
    In 2004 and 2005, the Science and Technology Directorate 
developed a national architecture and plan for the detection of 
biological attacks, should they occur, and as initial steps, 
deployed the BioWatch Environmental Sensor System to protect 
our Nation's cities from the threat and ramifications of such 
an attack and also initiated the design of the National 
Biosurveillance Integration System as part of an interagency 
process.
    We completed the planning and conceptual design of the 
National Biodefense Analysis and Countermeasures Center. This 
center will focus on, among other things, creating a 
scientifically based understanding of the biological threat.
    We established the Biodefense Knowledge Center, which is an 
operational hub for enabling collaboration and communication 
within the Homeland Security enterprise. We have certified four 
material threats and have two additional certifications 
underway. These material threat determinations are required in 
order to commit BioShield funds.
    We have established a National Bioforensic Analysis Center 
to provide a national capability for conducting forensic 
analysis of evidence from biocrimes and terrorism to obtain a 
biological fingerprint to identify perpetrators and determine 
the origin and method of the attack.
    In 2006, our expectations are to complete the deployment of 
the second generation BioWatch system to the top threat cities 
and to complete test and evaluation of the laboratory 
prototypes for the third generation of these detection systems.
    We will also complete the first formal risk assessment that 
is required under HSPD-10 and close many of the key remaining 
experimental gaps in our knowledge of the classic biological 
threat agents.
    We will continue operations of the Plum Island Animal 
Disease Center and essential upgrades to the facility and 
initiate the design of the National Bio and Agrodefense 
Facility.
    We continue to develop bioassays for Foot and Mouth Disease 
and look-alike animal diseases. We continue to conduct cutting-
edge research in academia through our Homeland Security Centers 
of Excellence. Although each of the four centers we have has a 
role in addressing bioterrorism, let me highlight two.
    One is at Texas A&M and its partners which study foreign 
animal and zoonotic diseases at the National Center for Foreign 
Animal and Zoonotic Disease, and they address potential threats 
to animal agriculture, including Foot and Mouth Disease, Rift 
Valley fever, Avian influenza, Brucellosis, that sort of thing.
    The University of Minnesota and its partners established 
best practices and attract new researchers to manage and 
respond to food contamination events.

              S&T DIRECTORATE'S INTERAGENCY COLLABORATION

    Ensuring that all relevant Federal Departments and agencies 
coordinate in the area of biodefense is critical to protecting 
the Nation from biological threats. The Science and Technology 
Directorate has been and continues to be an active participant 
in relevant interagency activities. A full list of the S&T 
Directorate's interagency collaborations is in my statement for 
the record. Highlights include our integral participation in 
the creation of HSPD-10. We also participate in the 
Counterproliferation Technology Coordinating Committee, the 
National Science and Technology Council's Weapons of Mass 
Destruction Medical Countermeasures Committee, which is really 
crucial to our way ahead on BioShield. This last, which I 
personally co-chair, provides an interagency forum for 
discussing and prioritizing the medical countermeasure needs, 
as I said, that will be pursued under the BioShield program.
    We work closely with our colleagues in the Department of 
Health and Human Services and USDA. Mr. Simonson and I see each 
other very frequently, and he and I and our staffs interact 
nearly daily in our respective efforts to protect the Nation 
from the threats of bioterrorism.
    As I hope I have indicated, the Science and Technology 
Directorate's programs fully support the National Biodefense 
Program, as stated in HSPD-10. Moreover, they are conducted in 
an active collaboration with other Federal Departments and 
agencies, having a role in meeting this national priority and 
are focused on reducing the threat of a biological attack 
against the Nation's population and its agricultural and food 
infrastructures. We also support a science-based forensics and 
attribution capability.

                           PREPARED STATEMENT

    This concludes my prepared statement. With the 
subcommittee's permission, I request that my formal statement 
be submitted for the record. Mr. Chairman, Senator Byrd, 
members of the subcommittee, I thank you for the opportunity to 
appear before you and will be happy to answer any questions 
that you may have.
    [The statement follows:]

             Prepared Statement of Dr. Penrose C. Albright

                              INTRODUCTION

    Good afternoon, Chairman Gregg, Senator Byrd and distinguished 
members of the Subcommittee. I am pleased to appear before you today to 
discuss the progress the Science and Technology Directorate of the 
Department of Homeland Security is making in the Nation's efforts to 
prevent, protect against, respond to, and recover from acts of 
bioterrorism against the American people.
    President Bush has made strengthening the Nation's defenses against 
biological weapons a critical national priority. Although significant 
progress has been made to protect America, President Bush instructed 
Federal departments and agencies to review their efforts and find 
better ways to secure America from bioattacks.
    This review resulted in a Presidential Directive entitled 
Biodefense for the 21st Century that provides a comprehensive framework 
for our Nation's biodefense. This directive builds upon past 
accomplishments, defines specifies roles and responsibilities, and 
integrates the programs and efforts of various communities: national 
security, medical, public health, intelligence, diplomatic, 
agricultural and law enforcement into a sustained and focused effort 
against biological weapons threats.
    The Department of Homeland Security (DHS) and the Science and 
Technology (S&T) Directorate have explicit responsibilities in this 
integrated national effort. In particular, I want to highlight the 
strategy, planning and accomplishments to date of the Science and 
Technology Directorate in the area of biodefense, and the essential 
collaborations with key Federal partners.

                               BIODEFENSE

    Before I speak directly to the biodefense efforts of the S&T 
Directorate, I want to briefly address the role of the DHS's 
Information Analysis and Infrastructure Protection Directorate (IAIP), 
and how their work is linked to the S&T Directorate. IAIP assesses 
intelligence and information about threats and vulnerabilities from 
other agencies and takes preventative and protective action. They are 
partners in the total interagency efforts to obtain, assess and 
disseminate information regarding potential threats to America from 
terrorist actions. These threat and vulnerability assessments are 
inputs into the strategy and research, development, testing and 
evaluation (RDT&E) activities of the Science and Technology 
Directorate. For example, agriculture and food are two of the multiple 
critical infrastructure sectors identified by Homeland Security 
Presidential Directive 7 (HSPD-7). As such, they fall within the domain 
of the IAIP Directorate; they are also within the domain of concern for 
biological threats and are considered in HSPD-9 and HSPD-10/National 
Security Presidential Directive-33 (NSPD-33). In addition, the IAIP 
Directorate's cooperation with the Science and Technology Directorate 
is critical to the Department's mission to determine what agents would 
significantly impact national security if released (Material Threat 
Determinations).

Mission and Objectives
    HSPD-10 outlines four essential pillars of the Nation's biodefense 
program and provides specific directives to further strengthen the 
significant gains made in the past 3 years. The four pillars of the 
program are:
  --Threat Awareness.--Which includes biological weapons-related 
        intelligence, vulnerability assessments, and anticipation of 
        future threats. New initiatives will improve our ability to 
        collect, analyze, and disseminate intelligence on biological 
        weapons and their potential users.
  --Prevention and Protection.--Which includes interdiction and 
        critical infrastructure protection. New initiatives will 
        improve our ability to detect, interdict, and seize weapons 
        technologies and materials to disrupt the proliferation trade, 
        and to pursue proliferators through strengthened law 
        enforcement cooperation.
  --Surveillance and Detection.--Which includes attack warning and 
        attribution. New initiatives will further strengthen the 
        biosurveillance capabilities being put in place in fiscal year 
        2005.
  --Response and Recovery.--Which includes response planning, mass 
        casualty care, risk communication, medical countermeasures, and 
        decontamination. New initiatives will strengthen our ability to 
        provide mass casualty care and to decontaminate the site of an 
        attack.
    The Department of Homeland Security has a role and responsibility 
in each of these four pillars of the national biodefense program. The 
S&T Directorate has the responsibility to lead the Department's RDT&E 
activities to support the national biodefense objectives and the 
Department's mission.

Accomplishments and Planned Activities
    In fiscal year 2004 and fiscal year 2005, the Biological 
Countermeasures portfolio:
  --Deployed the BioWatch environmental sensor system to protect our 
        Nation's cities from the threat and ramifications of a 
        bioterrorist attack.
  --Engaged in creating additional near real-time monitoring 
        (Autonomous Pathogen Detection System) of critical 
        infrastructure facilities such as major transportation hubs. 
        New infrastructure protection efforts include shorter response 
        time biological agent detection capabilities for BioWatch. This 
        pilot (second generation Bio Watch) is in the process of being 
        deployed in New York City and will join an expansion of the 
        number of collectors in that city.
  --Initiated the design of the National Biosurveillance Integration 
        System (NBIS) as part of an interagency process. Recently 
        completed in the first quarter of fiscal year 2005, we will 
        work with the Information Analysis and Infrastructure 
        Protection (IAIP) Directorate to implement this system.
  --Conducted preliminary analyses, using the reference scenario 
        approach recommended by Homeland Security Presidential 
        Directive (HSPD)-10 for understanding the requirements of an 
        integrated national biodefense architecture, of four baseline 
        reference cases: a large outdoor release of a non-contagious 
        agent (anthrax); a large indoor release of a contagious agent 
        (smallpox); contamination of a bulk food supply; and two highly 
        virulent agricultural attacks, one on livestock (Foot and Mouth 
        Disease) and the other on crops (soy bean rust).
  --Established the Biodefense Knowledge Center, an operational hub for 
        enabling collaboration and communication within the homeland 
        security complex. The Biodefense Knowledge Center will meet the 
        operational and planning requirements of government decision-
        makers and program planners, the intelligence community, law 
        enforcement officers, public health practitioners, and 
        scientists. Specific capabilities offered to these end-users 
        include knowledge services, modeling and simulation, 
        situational awareness and a pathway to accelerate research and 
        development.
  --Certified four ``material threats'' (anthrax, smallpox, botulinum 
        toxin, and radiological/nuclear); will complete the rest of the 
        Category A bioagents (plague, tularemia) by the end of fiscal 
        year 2005.
  --Established the National Bioforensic Analysis Center (NBFAC) to 
        provide a national capability for conducting forensic analyses 
        of evidence from bio-crimes and terrorism to attain a 
        ``biological fingerprint'' to identify perpetrators and 
        determine the origin and method of attack. The NBFAC was named 
        in HSPD-10 as the lead Federal facility to conduct and 
        facilitate the technical forensic analysis of materials 
        recovered following a biological attack in support of the 
        appropriate lead Federal agency [in most cases the lead Federal 
        agency will be the Federal Bureau of Investigation (FBI)].
    In fiscal year 2006, the Biological Countermeasure portfolio plans 
to:
  --Complete the three high-level architectures initiated in fiscal 
        year 2005, identifying key requirements for each major element, 
        a ``report card'' on the current and projected status in that 
        area and performing detailed design tradeoffs for those areas 
        in which DHS has execution responsibility.
  --Complete the first formal risk assessment required under HSPD-10 
        and close many of the key remaining experimental gaps in our 
        knowledge of the classical biological threat agents. Near-, 
        mid-, and long-term plans for dealing with engineered agents 
        will be developed, and R&D on addressing the gaps in responding 
        to genetically modified organisms (e.g., antibiotic resistant) 
        initiated.
  --Complete the deployment of Generation 2 BioWatch systems to 
        additional cities while continuing to operate and optimize 
        already extant BioWatch systems.
  --Complete test and evaluation of laboratory prototypes of the 
        Generation 3 BioWatch detection systems for selection of 
        fieldable prototypes for fiscal year 2007.
  --Continue operation of the interim National Bioforensic Analysis 
        Center. International Organization for Standardization (ISO) 
        certification is expected to
  --5 have been achieved, giving the analyses conducted additional 
        credibility and authenticity in both the national and 
        international community and courts of law. R&D will continue on 
        the physical and chemical signatures of the ``matrix'' 
        materials associated with biological agents so as to develop 
        methods for understanding tell-tale remnants of enrichment 
        media, culture conditions, metabolites, and dispersion 
        technology.
  --Continue operation of the Plum Island Animal Disease Center (PIADC) 
        and essential upgrades to the facility and initiate design of 
        the National Bio and Agrodefense Facility (NBAF). R&D will 
        continue on next generation vaccines and antiviral therapeutics 
        for foot and mouth disease (FMD) and other high priority 
        foreign animal diseases.
  --Continue to develop bioassays for FMD and look-alike animal 
        diseases. The initial agricultural forensic capability 
        established in fiscal year 2004 at PIADC will be enhanced and 
        epidemiologic capability added. A High Throughput Diagnostics 
        Demonstration will be initiated to work with regional and State 
        laboratories to demonstrate a capability of analyzing thousands 
        of samples per day in support of response to a suspected case 
        or an outbreak. A FMD table top exercise will be conducted, and 
        development of a coupled epidemiological and economic model for 
        FMD will begin. The end-to-end systems study initiated in 
        fiscal year 2004 for Soybean Rust and FMD will be completed, 
        and system studies will be initiated for highly pathogenic 
        avian influenza.

National Bio-Defense Analysis and Countermeasures Center (NBACC)
    The NBACC, a key component of the National Strategy for Homeland 
Security, addresses the need for scientific research to better 
anticipate, prevent, and mitigate the consequences of biological 
attacks. The need for the NBACC facility is further defined in HSPD-10, 
the Nation's blueprint for future biodefense programs. The NBACC's 
mission will support two pillars of this blueprint--threat awareness 
and surveillance and detection. The NBACC is made up of two centers, 
the Biological Threat Characterization Center and the National 
Bioforensic Analysis Center to carry out these missions. Specifically, 
NBACC's mission is to:
  --Understand current and future biological threats, assess 
        vulnerabilities, and determine potential impacts to guide the 
        research, development, and acquisition of biodefense 
        countermeasures such as detectors, drugs, vaccines and 
        decontamination technologies; and
  --Provide a national capability for conducting forensic analysis of 
        evidence from bio-crimes and terrorism to attain a ``biological 
        fingerprint'' to identify perpetrators and determine the origin 
        and method of attack.
    In fiscal year 2004, the Department completed the planning and 
conceptual design of the NBACC facility. Additionally, the Department 
has been working through the National Environmental Policy Act (NEPA) 
process during the year, which culminated in the signing of the Record 
of Decision in January 2005 of the Final Environmental Impact Statement 
(EIS) for the construction project and subsequent operations. It was 
decided to delay the award of any contracts for design and construction 
until further in the EIS process. As the public concerns are analyzed 
and considered it is anticipated that contracts will be awarded in 
fiscal year 2005 to initiate design and construction of the NBACC 
facility
    In fiscal year 2005, the solicitations of contracts for the 
construction of the NBACC facility are expected to be awarded. The 
design of the NBACC facility will commence in March 2005. Congress 
appropriated $128 million in obligated funds, of which $35 million was 
appropriated for award of the construction contract in the fourth 
quarter of fiscal year 2005. Construction of the facility is planned 
for completion by the fourth quarter of fiscal year 2008.

University Centers of Excellence
    The mission of the University Programs is to stimulate, coordinate, 
leverage and utilize the unique intellectual capital in the academic 
community to address current and future homeland security challenges, 
and to educate and inspire the next generation of scientists and 
engineers dedicated to homeland security.
    Within the University Programs in the S&T Directorate, the Homeland 
Security (HS) Centers of Excellence provide independent, cutting-edge 
research in academia for focused areas of homeland security Research 
and Development. Established centers include: the Homeland Security 
Center for Risk and Economic Analysis of Terrorism Events, the National 
Center for Foreign Animal Disease and Zoonotic Defense, and the 
National Center for Food Protection and Defense. In the next few 
months, the S&T Directorate expects to establish the Homeland Security 
Center for Behavioral and Social Aspects of Terrorism and Counter-
Terrorism. Each Center is selected on a competitive basis, and each 
grant is for 3 years. Each Center has a role in addressing bioterrorism 
and two are specifically aligned with addressing bioterrorism.
    DHS awarded funds, over 3 years, to the University of Southern 
California (USC) and its major partners, University of Wisconsin at 
Madison, New York University and Structured Decisions Corporation 
(affiliated with MIT) to establish the Center on Risk and Economic 
Analysis of Terrorism Events. The mission objectives are to evaluate 
the risks, costs and consequences of terrorism and to guide 
economically viable investments in countermeasures. Specifically, the 
Center will develop risk assessment and economic modeling capabilities 
that cut across general threats and targets, in application areas such 
as electrical power, transportation and telecommunications. 
Additionally, USC and their partners will develop tools for planning 
responses to emergencies, to minimize the threat to human life and 
reduce economic impacts of terrorist attacks.
    Texas A&M University and its partners from the University of Texas 
Medical Branch, University of California at Davis, and the University 
of Southern California expect to receive funds over the course of the 
next 3 years for the study of foreign animal and zoonotic diseases. The 
Center, which will be known as the National Center for Foreign Animal 
and Zoonotic Disease Defense, will work closely with partners in 
academia, industry and government to address potential threats to 
animal agriculture including Foot and Mouth Disease, Rift Valley fever, 
Avian influenza and Brucellosis. The Foot and Mouth Disease research 
will be conducted in close collaboration with DHS's Plum Island Animal 
Disease Center.
    The Department of Homeland Security will provide the University of 
Minnesota and its partners, Michigan State University, University of 
Wisconsin at Madison, North Dakota State University, Georgia Institute 
of Technology, and the University of Tennessee at Knoxville with funds 
over the course of the next 3 years to establish best practices and 
attract new researchers to manage and respond to food contamination 
events, both intentional and naturally occurring. The University of 
Minnesota's National Center for Food Protection and Defense, will 
address agricultural security issues related to postharvest food 
protection.
    Negotiations began January 10, 2005, for a 3-year grant with the 
University of Maryland for a fourth Center on Behavioral and Social 
Research on Terrorism and Counter-Terrorism. We expect its mission 
objectives to be to provide strategies for intervention of terrorists 
and terrorist organizations and to embolden the resilience of U.S. 
citizens. Major domestic partners include, the University of California 
at Los Angeles, University of Colorado, Monterey Institute of 
International Studies, University of Pennsylvania, and the University 
of South Carolina.
    A broad agency announcement was released in mid-January, 2005 for 
proposals for a fifth DHS Center of Excellence on the topic of High 
Consequence Event Preparedness and Response.
    In addition to the University Centers of Excellence, the Department 
of Homeland Security's University Programs and the Environmental 
Protection Agency's Science to Achieve Results (STAR) Program are 
reviewing proposals for a research Center of Excellence focused on an 
area of high priority to both Agencies, Microbial Risk Assessment (MRA) 
for Category A bio-threat agents.

Interagency Collaboration
    Ensuring that all relevant Federal Departments and agencies 
coordinate in the area of Biodefense is critical to protecting the 
Nation from biological threats. The previously mentioned HSPD-10, as 
well as other directives including HSPD-9, Defense of United States 
Agriculture and Food; HSPD-8, National Preparedness; HSPD-4, National 
Strategy to Combat Weapons of Mass Destruction; and HSPD-7, Critical 
Infrastructure Identification, Prioritization, and Protection, identify 
national objectives and priorities, and departmental and agencies' 
roles in addressing these national objectives.
    The S&T Directorate has been, and continues to be an active 
participant in these interagency activities as illustrated by our 
participation in the biodefense program. At the highest level HSPD-10/
NSPD-33 laid out the overall strategy, department and agency roles, as 
well as specific objectives and called for periodic reviews to plan, 
monitor and revise implementation. This was followed by an interagency 
review, of specific fiscal year 2006-fiscal year 2010 science and 
technology needs to support the national biodefense strategy as 
articulated in HSPD-10.
    The National Science and Technology Council's Weapons of Mass 
Destruction Medical Countermeasures Subcommittee (WMD-MCM), co-chaired 
by the Assistant Secretary of the S&T Directorate, provides an 
interagency forum for discussing and prioritizing medical 
countermeasure needs to be pursued under BioShield. At still the next 
level of coordination, there are strong bilateral efforts around key 
elements of the strategy. Examples of this coordination including 
strong and frequent collaborations on Bioshield (HHS/DHS), the 
development of coordinated civilian and military surveillance and 
detection systems (DHS/DOD), the development and execution of a 
National Strategy for Agricultural Biosecurity (DHS/USDA), and 
development and assessment of decontamination technologies (DHS/EPA).
    In addressing these activities, DHS has a leadership role in 
several key areas and partners with lead agencies in others. Those 
areas in which the S&T Directorate provides significant leadership are:
  --Providing an overall end-to-end understanding of an integrated 
        biodefense strategy, so as to guide the Secretary and the rest 
        of the Department in its responsibility to coordinate the 
        Nation's efforts to deter, detect, and respond to biological 
        acts of terrorism.
  --Providing scientific support to the intelligence community and the 
        IAIP Directorate in prioritizing the bio-threats.
  --Developing early warning and detection systems to permit timely 
        response to mitigate the consequence of a biological attack.
  --Conducting technical forensics to analyze and interpret materials 
        recovered from an attack to support attribution.
  --Operation of the Plum Island Animal Disease Center to support both 
        research and development (R&D) and operational response to 
        foreign animal diseases such as foot and mouth disease.
    DHS also supports our partnering departments and agencies with 
their leads in other key areas of an integrated biodefense: the 
Department of Health and Human Services (HHS) on medical 
countermeasures and mass casualty response; the U.S. Department of 
Agriculture (USDA) on agriculture biosecurity; USDA and HHS on food 
security and the Environmental Protection Agency (EPA) on 
decontamination and on water security.
    In addition, the Science and Technology Directorate has engaged 
with other Federal Agencies in the following efforts:
  --The S&T Directorate worked with DOS (STAS), USDA, Office of Science 
        and Technology Police (OSTP), National Science Foundation (NSF) 
        to create and support the U.S.-Japan Safe and Secure Society 
        forum.
  --The Directorate and DOS (OES) jointly created and negotiated the 
        US-UK S&T Memorandum of Agreement (MOA). The resulting MOA 
        supports collaboration on Homeland Security research, 
        development, testing, and evaluation between the United States 
        and the UK.
  --The S&T Directorate represents DHS as the lead U.S. agency for the 
        US-CA Public Security Technical Program (PSTP) which is the 
        primary cooperative arrangement on S&T for homeland security 
        between the two countries. Other U.S. agencies involved in the 
        PSTP include: FBI, DOE, DOD, USDA, HHS, DOC (NIST), EPA, DOS, 
        NSA and other DHS components.
  --Currently leads a partnership with the Center for Disease Control 
        (CDC), EPA, and FBI on the deployment of BioWatch, a bioaerosol 
        detection system deployed to many of this Nation's cities.
  --Funds BioNet--Defense Threat Reduction Agency (DTRA) executed pilot 
        program to integrate civilian and military domestic 
        biodetection and consequence management, using San Diego as a 
        pilot city.
  --Leading an interagency effort with HHS, DOD, and the United States 
        Postal Service (USPS) to develop a National Integrated 
        Biomonitoring System, part of HSPD-10 responsibility.
  --Primary participant in the establishment of the National 
        Interagency Biodefense Campus being developed at Ft. Detrick.
  --The National Bioforensics Analysis Center (NBFAC) is a joint 
        Science and Technology Directorate-FBI program
  --In a joint effort with USDA, have developed an integrated national 
        agrodefense strategy, with especial emphasis on foreign animal 
        disease. The Directorate and USDA also conduct joint research 
        and development programs at the Plum Island Animal Disease 
        Center

Presidential Initiatives
    Three Presidential Initiatives address the needs of an integrated 
biodefense strategy and DHS plays a key role in each one. These three 
initiatives are:
    BioShield.--Signed into law July 21, 2004, BioShield is a program 
coordinated by the Secretary for Homeland Security and the Secretary 
for Health and Human Services that provides $5.6 billion over 10 years 
for the purchase and development of countermeasures to WMD. DHS's S&T 
Directorate plays a significant role in this in determining which 
agents constitute ``material threats'' and in developing scenarios that 
inform decisions on the quantity of countermeasures required. We have 
certified four ``material threats'' (anthrax, smallpox, botulinum 
toxin, radiological/nuclear, and nerve agents), have two additional 
underway, (plague and tularemia), and the rest of the Category A 
bioagents should be completed by fiscal year 2006.
    Biosurveillance Initiative.--A program that seeks to enhance 
systems that monitor the Nation's health (human, animal and plant) and 
its environment (air, food, water) and to integrate these with 
intelligence data to provide early detection of an attack and the 
situational understanding needed to guide an effective response. The 
S&T Directorate plays a major role in the Biosurveillance Initiative in 
operating its 1st Generation BioWatch System, in deploying a 2nd 
Generation system and significantly expanding the number of collectors 
in the highest threat cities and at key facilities (e.g. transportation 
systems), and in continuing to develop advanced detection systems to 
further increase the capabilities. We are also designing the 
information system that will be used to integrate health and 
environmental monitoring information from the sector specific agencies 
with intelligence data from the IAIP Directorate. Implementation of 
this system will actually be initiated by the IAIP Directorate in 
fiscal year 2005, but the S&T Directorate will continue to supply 
subject matter expertise in biological threat and defense.
    Food and Agricultural Initiative.--Seeks to enhance the security of 
our agricultural and food infrastructures. DHS activities in this area 
are led by the IAIP Directorate--but the S&T Directorate brings 
significant contributions in end-to-end studies of key agricultural and 
food threats, through the development of advanced diagnostics, and 
through R&D conducted jointly with USDA at the Plum Island Animal 
Disease Center.

                               CONCLUSION

    The Science and Technology Directorate's programs conducted within 
the Department of Homeland Security fully support the national 
biodefense program as stated in the presidential directive Biodefense 
for the 21st Century, and other Homeland Security Presidential 
Directives. Moreover, they are conducted in an active collaboration 
with other Federal departments and agencies having a role in meeting 
this national priority, and are focused on reducing the threat of a 
biological attack against this Nation's population and its agriculture 
and food critical agricultural infrastructures, and supports a science-
based forensics and attribution capability.
    This concludes my prepared statement. With the Committee's 
permission, I request my formal statement be submitted for the record. 
Mr. Chairman, Senator Byrd, and Members of the Subcommittee, I thank 
you for the opportunity to appear before you and I will be happy to 
answer any questions that you may have.

    Senator Gregg. Thank you, Mr. Albright.
    Before we turn to Mr. Simonson, it is the tradition of this 
subcommittee to recognize the Chairman of the full committee, 
whenever he arrives, for any statement he wishes to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. Let me 
congratulate you on the success of the legislation which you 
authored here in the Senate to establish the legal authority to 
appropriate funds to deal with threats to our food supply and 
our agriculture infrastructure and our other concerns in the 
whole general area of bioterrorism. There is nothing more 
frightening to contemplate than an attack against these 
resources and assets in our country, and we do have a serious 
lack of products, drugs, countermeasures to deal with a serious 
assault on our food supply and our agriculture infrastructure. 
So it is very appropriate, I think, that you chair this 
subcommittee now that is in charge of funding the law you 
helped create and took a leadership role in, and we appreciate 
those efforts very much.
    I am glad to be here with Dr. Albright and Mr. Simonson to 
congratulate them on their initiatives and hard work in 
developing a response structure at the Federal level and to 
provide national leadership in this very important undertaking.
    Thank you.
    Senator Gregg. Thank you, Mr. Chairman. I would simply 
note, it is only through your generosity that I chair this 
subcommittee, and I am very appreciative of that.
    Mr. Simonson.

STATEMENT OF STEWART SIMONSON, J.D., ASSISTANT 
            SECRETARY, OFFICE OF PUBLIC HEALTH 
            EMERGENCY PREPAREDNESS, U.S. DEPARTMENT OF 
            HEALTH AND HUMAN SERVICES
    Mr. Simonson. Good morning, Mr. Chairman, Senator Byrd, 
Senator Allard, and Senator Craig, and other members of the 
subcommittee. I am Stewart Simonson, Assistant HHS Secretary 
for Public Health Emergency Preparedness, and I appreciate the 
opportunity to share with you information on the progress of 
implementing the Project BioShield Act of 2004, which was 
enacted some 9 months ago.
    The events of September and October of 2001 made it very 
clear bioterrorism is a serious threat to our Nation and the 
world. The Bush administration and Congress responded 
forcefully to this threat by seeking to strengthen our medical 
and public health capacities to protect our citizens from 
future attacks. To encourage the development of new medical 
countermeasures against threats and to speed their delivery, 
President Bush in his 2003 State of the Union address proposed 
and Congress subsequently enacted Project BioShield. The $5.6 
billion 10-year special reserve fund was created to assure 
developers of medical countermeasures that funds would be 
available to enable the Government to purchase critical 
products.
    Since enactment, my office has moved aggressively to fill 
immediate gaps in our reserve of medical countermeasures. A 
sense of urgency has pervaded our efforts and has defined new 
ways of doing business. Let me briefly describe to you what we 
have done to address these gaps beginning with anthrax.

                                ANTHRAX

    Anthrax is a serious public health threat, and although the 
Strategic National Stockpile contains antibiotics sufficient to 
treat millions of persons exposed to anthrax, the vaccine has 
an important place in our preparedness and response strategy. 
The U.S. Government, relying on interagency expert input, 
defined the initial vaccine requirement for protecting 25 
million persons.
    The Institute of Medicine, in a report issued in 2002, 
urged that a new anthrax vaccine based on modern principles of 
vaccinology be developed. An assessment of developing 
technologies was undertaken by HHS, experts in the field, and 
it was determined there was sufficient scientific basis to 
support the aggressive development of a new generation of 
vaccine consisting of recombinant protective antigen, the so-
called rPA vaccine. Research spanning more than a decade, 
conducted in large part by the U.S. Government, permitted us to 
move the vaccine further along the development pipeline. The 
National Institutes of Health took the lead in working with the 
private sector to advance development of this new vaccine.
    When HHS felt the technology was mature enough to indicate 
that the vaccine could be licensed within 8 years, my office 
launched an initiative to acquire it for the Strategic National 
Stockpile. Utilizing a stringent evaluation process, we 
reviewed multiple proposals and finally negotiated a contract 
with VaxGen of Brisbane, California for 75 million doses of 
vaccine, anticipating a three-dose regimen. The milestone 
contract with VaxGen lays out an ambitious program, including 
delivery of the first 25 million doses of usable vaccine within 
2 years of award.
    I want to draw your attention to a feature of the contract 
with VaxGen and, indeed, all BioShield contracts. No payment 
for vaccine is made until the product is received into the 
stockpile.
    To provide for the stockpile's immediate needs, my office 
is in the process of completing negotiations for 5 million 
doses of the currently licensed vaccine and hopefully with an 
option for an additional 5 million doses. We expect those 
negotiations to be concluded shortly.
    But we are focused on threats beyond anthrax as well. My 
office has moved quickly to address the need for pediatric 
liquid formulation of potassium iodide, a drug that protects 
the thyroid from radioactive iodine. This formulation is aimed 
at young children who are at the greatest risk from the harmful 
effects of exposure to radioactive iodine. In March, a contract 
was awarded under Project BioShield for suspension potassium 
iodide to protect at least 1.7 million children. Product 
delivery will begin next month.
    In addition to the BioShield contracts that have already 
been awarded, there are several other BioShield procurement 
related activities underway. We are reviewing the responses for 
request for proposals for anthrax therapies and we are 
continuing to move forward on the acquisition of an antitoxin 
treatment for botulinum.
    To signal our intent to acquire a next generation smallpox 
vaccine, we will be releasing a draft request for proposal for 
industry comment within the next few weeks.
    Finally, in anticipation of yet-to-be-determined 
requirements, we actively monitor the state of the medical 
countermeasure pipeline, both within and outside of the U.S. 
Government, by evaluating Government research and development 
portfolios and engaging industry to the publication of requests 
for information. For example, we have released three RFIs to 
assess the time line to maturity of medical countermeasures to 
treat nerve agent exposure, acute radiation syndrome, and 
additional products that might be available to treat anthrax. 
These requests are key for HHS to dialogue with industry 
partners to inform them on the development of a sound 
acquisition strategy.
    Defining priorities and quantifying the size of the threat 
to the population are key steps in focusing our efforts. In the 
process, we must be mindful of the realities of the spectrum of 
efforts needed along the research and development pipeline to 
produce a usable medical countermeasure. The process of 
defining required specifications for countermeasures often 
reveals few, if any, candidates in the pipeline. We have been 
fortunate that some of our highest priority needs for 
countermeasures could be addressed using the available advanced 
development products already in the pipeline. However, basic 
research and early development efforts, when even robustly 
funded, often take years before a concept is mature enough for 
advanced development, and it is only when a product has reached 
the advanced development stage that Project BioShield provides 
a meaningful incentive for manufacturers to take the product 
the rest of the way.

                           PREPARED STATEMENT

    In closing, HHS has a clear mandate from President Bush and 
Congress to lead the charge in countermeasure development. We 
have already made important strides to address the public 
health needs of the Nation, but there is more that needs to be 
done. Mr. Chairman, I look forward to working with you and 
Senator Byrd and other members of the committee to address the 
challenges of bioterrorism and to improve the public health of 
the Nation.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Stewart Simonson

    Good morning, Mr. Chairman, Senator Byrd and Subcommittee members. 
I am Stewart Simonson, Assistant Secretary for Public Health Emergency 
Preparedness. I appreciate the opportunity to share with you 
information on our progress in implementing the Project BioShield Act 
of 2004, which was enacted some 9 months ago. Biodefense is a top 
priority for the Bush Administration and having an appropriate 
armamentarium of medical countermeasures is a critical aspect of the 
response and recovery component of the President's ``21st Century 
Strategy for Biodefense.'' The acquisition and ready availability of 
medical countermeasures, such as antibiotics, monoclonal and polyclonal 
antibodies against infectious threats, therapies for chemical and 
radiation-induced diseases, and vaccines to protect against exposure 
from biological agents will have a substantial impact on our 
preparedness and response capabilities.

                          PROTECTING AMERICANS

    The events of September and October 2001 made it very clear that 
terrorism--indeed bioterrorism--is a serious threat to our Nation and 
the world. The Bush Administration and Congress responded forcefully to 
this threat by seeking to strengthen our medical and public health 
capacities to protect our citizens from future attacks. The 
Bioterrorism Act of 2002 substantially increased funding authorization 
for the Centers for Disease Control and Prevention's Strategic National 
Stockpile. To encourage the development of new medical countermeasures 
against biological, chemical, or radiological agents and to speed their 
delivery and use in the time of an attack, President Bush, in his 2003 
State of the Union address proposed and Congress subsequently enacted 
the Project BioShield Act of 2004. The Special Reserve Fund, pre-
appropriated with $5.6 billion was created to assure developers of 
medical countermeasures that funds would be available to purchase 
critical products for use to protect our citizens.

                 THE STRATEGIC NATIONAL STOCKPILE TODAY

    The wake-up call that we received in the fall of 2001 brought 
clarity to the gaps in our chemical countermeasure armamentarium and we 
immediately sought to address them. Although there is much work still 
to be done, we have made significant progress in building our Strategic 
National Stockpile from that time to what we have on-hand today. For 
example, our smallpox vaccine stockpile has grown from 90,000 ready-to-
use doses in 2001 to enough vaccine to protect every man, woman, and 
child in America. Major strides have been made in building our chemical 
countermeasure reserve against anthrax, plague, and tularemia. We are 
now able to protect and treat millions of Americans in the event of an 
attack with one of these agents. We have taken the botulism antitoxin 
program started by the Department of Defense in the early 1990s to 
completion and we are now building our antitoxin stockpile further. We 
have also built our stockpile of countermeasures to address the effects 
of radiation exposure with products such as Prussian Blue and 
diethylenetriaminepentaacetate, or DTPA. These countermeasures act to 
block uptake or remove radioactive elements such as cesium, thallium, 
or americium from the body after they are ingested or inhaled. 
Potassium iodide, a drug that can protect the thyroid from the harmful 
effects of radioactive iodine, is also in the Stockpile.

    THE STRATEGIC APPROACH TO ADDRESSING MEDICAL COUNTERMEASURE GAPS

    The initial focus of our efforts to protect the Nation was aimed 
largely at those threats that could do the greatest harm to the 
greatest number of our citizens, namely, smallpox and anthrax. A sense 
of urgency has pervaded our efforts and has defined new ways of doing 
business. Our new national security environment demanded accelerated 
product development timelines and new paradigms of interactions between 
industry and government with risk-sharing and enhanced intra-
governmental collaboration. Using a robust interagency process, that 
mined intra- and extra-governmental expertise, requirements for medical 
countermeasures were identified, and options elaborated for addressing 
immediate and long-term needs. These experts continue to help us define 
the most expeditious way to traverse the critical pathway to develop 
and acquire usable countermeasures for the Strategic National 
Stockpile.

Application of the strategic approach: Anthrax
    Although not transmissible from person-to-person, an attack 
involving the aerosol dissemination of anthrax spores, particularly in 
an urban setting, was considered by public health experts to have the 
potential for catastrophic effects similar to smallpox. . . . The 
potential for large-scale population exposure following aerosol release 
of anthrax spores, the threat demonstrated by the anthrax letters, and 
our knowledge that anthrax had been weaponized by state-actors, 
highlighted the nature of the treat. The Secretary of the Department of 
Homeland Security determined that anthrax posed a material threat to 
the Nation. And, because untreated inhalation anthrax is usually fatal, 
the Secretary of HHS identified anthrax as a significant threat to 
public health.
    The approach to protect citizens against this threat demanded 
immediate, intermediate and long-term strategies and requirements. 
First, the existing stockpile of antibiotics in the Strategic National 
Stockpile was increased. Second, there was a need for a licensed 
vaccine to be used not only for pre-exposure protection for laboratory 
and other workers at known risk for anthrax, but for use along with 
antibiotics after an exposure to potentially decrease the currently 
recommended 60-day course of antibiotic therapy. Anthrax spores are 
stable in the environment and would have a profound impact if released 
in an urban population. Availability of a vaccine is a critical 
requirement for repopulation and restoration of the functionality of 
any exposed area.
    The limitations inherent in the currently available anthrax vaccine 
were articulated in a 2002 Institute of Medicine report, ``Anthrax 
Vaccine: Is It Safe? Does it Work?'' The report stated, ``. . . a new 
vaccine, developed according to more modern principles of vaccinology, 
is urgently needed.'' An assessment of developing technologies was 
undertaken by HHS experts in the fall of 2001 and the decision was made 
that there was a sufficient scientific foundation, including a detailed 
understanding of the pathogenesis of anthrax and how anthrax vaccines 
provide protective immunity, to support the aggressive development of a 
next generation vaccine consisting of recombinant protective antigen 
(rPA). This research, spanning more than a decade from its inception in 
the early 1990s, was conducted in large part by the United States Army 
Medical Research Institute of Infectious Diseases at Fort Detrick, 
Maryland.
    HHS defined a three-stage development and acquisition strategy with 
open competition for awards at each stage. The early and advanced 
development programs were supported by the National Institutes of 
Health's National Institute of Allergy and Infectious Diseases with 
contract awards in September 2002 and 2003, respectively. These were 
milestone-driven contracts with well-defined deliverables including the 
manufacture of clinical-grade vaccine and the conduct of Phase 1 and 
Phase 2 clinical trials. Large-scale manufacturing capacity would be 
required to support the civilian requirement for this medical 
countermeasure, which was defined through an interagency process to be 
the initial protection of up to 25 million persons. Senior officials 
throughout the United States government evaluated acquisition options 
to achieve this requirement and, in the fall of 2003, the decision was 
made to pursue the acquisition of rPA anthrax vaccine.
    An evaluation of the status of the NIAID rPA anthrax vaccine 
development program suggested rPA vaccine could potentially become a 
licensed product within 8 years. In March 2004, the acquisition program 
for this vaccine, under the direction of my office, was launched using 
the Special Reserve Fund created in the fiscal year 2004 Department of 
Homeland Security appropriations bill. Utilizing a robust technical and 
business evaluation process, we reviewed multiple proposals and finally 
negotiated a contract with VaxGen of Brisbane, California, for 75 
million doses of the vaccine, (anticipating a three-dose regimen). 
Using a milestone and deliverables approach utilized with the ACAM2000 
smallpox vaccine development and acquisition program, and the rPA 
anthrax vaccine development related contracts at NIAID, the VaxGen 
contract lays out an ambitious program to include the delivery of the 
first 25 million usable vaccine doses to the Strategic National 
Stockpile within 2 years of contract award. A unique and critical 
aspect of the rPA vaccine BioShield acquisition contract is the fact 
that no payment is made until a usable product is delivered to the 
Stockpile. While awaiting delivery of this new vaccine to the Stockpile 
my office will complete negotiations for 5 million doses of the 
currently licensed anthrax vaccine in the next few days to support 
immediate requirements. Delivery of the product to the Stockpile will 
begin very soon after the contract award and will have a direct impact 
on our preparedness.

Other Needed Countermeasures
    In an effort to fill other gaps in the Stockpile, we have made 
progress in contracting for products that will soon be delivered for 
use.

Potassium Iodide
    In March 2005 a contract was awarded under Project BioShield for a 
pediatric liquid formulation of potassium iodide, a drug that helps 
limit risk of damage to the thyroid, from radioactive iodine. This 
formulation is aimed at young children who cannot take pills and are at 
the highest risk of harmful effects from exposure to radioactive 
iodine. This acquisition will provide needed protection for at least 
1.7 million children. Product delivery will begin next month.

Ongoing Project BioShield activities
    In addition to the Project BioShield acquisition contracts that 
have been awarded in the last 9 months, there are several other 
important BioShield procurement-related activities underway. We are 
reviewing the responses for Requests for Proposals for anthrax 
therapies, and we are continuing to move forward on the acquisition of 
an antitoxin treatment for botulism. Furthermore, to signal our intent 
to acquire a next generation smallpox vaccine, we will be releasing a 
draft request for proposal for industry comment within the next 2 
weeks. Finally, in anticipation of yet to be determined requirements, 
we actively monitor the state of the medical countermeasure pipeline--
both within and outside the government--by evaluating USG research and 
development portfolios and engaging industry through the publication of 
Requests for Information (RFIs). For example, we have recently released 
three RFIs to assess the timeline to maturity of medical 
countermeasures to treat nerve agent exposure, acute radiation 
syndrome, and additional products that might be available to treat 
anthrax. These requests are a key tool for HHS to dialogue with 
industry partners and to inform the development of sound USG 
acquisition strategies.

Priority Setting Beyond Smallpox and Anthrax
    The approach taken to rapidly expand our Nation's response capacity 
to meet the medical and public health impact of either a smallpox or 
anthrax attack demonstrate our national resolve to address these 
threats. But, in many ways, anthrax and smallpox represent the ``low 
hanging fruit'' for medical countermeasure research, development and 
acquisition and was enabled by a substantial research base developed by 
USAMRIID and NIH. There was consensus that these were our highest 
priorities and we had countermeasures available or relatively far along 
in the development pipeline to permit acquisition. Given an almost 
endless list of potential threats with finite resources to address 
them, prioritization is essential to focus our efforts. We rely heavily 
upon our interagency partner, the Department of Homeland Security, to 
provide us with a prioritized list of threats along with material 
threat assessments that will provide reasonable estimates of population 
exposure. This information is critical for future strategic decision 
making regarding how best to focus our National efforts in 
countermeasure development and acquisition, including whether in the 
short-term, the so-called ``one-bug, one-drug'' approach should 
continue while simultaneously investing in more broad-spectrum 
prevention and treatment approaches for the longer term.

Challenges to Rapidly Expanding the Strategic National Stockpile
    Although defining priorities and quantifying the size of the threat 
to the population are the key steps to focus our efforts, we must be 
mindful of the realities of the spectrum of efforts needed along the 
research and development pipeline to produce a useable medical 
countermeasure. The process of defining required specifications for a 
countermeasure often reveals few, if any, candidates in the pipeline. 
Basic research and early development efforts, even when robustly 
funded, often take years before a concept is mature enough for advanced 
development. When a product has reached the advanced development stage, 
Project BioShield Act of 2004 provides an important incentive for 
manufacturers to take the product the rest of the way through the 
pipeline. And, as I have outlined here today, in the 9 months since 
Project BioShield was enacted, the incentive has sped final development 
of several products for the Stockpile.

Conclusion
    In closing, I must emphasize that the number of threat agents 
against which we could guard ourselves is endless and new and emerging 
threats introduced by nature will present continuing challenges. 
Although we cannot be prepared for every threat, we have the ability to 
create a strategic approach to identifying and combating the greatest 
threats. HHS and its agencies including NIH, CDC, and FDA, have a clear 
mandate from President Bush and Congress to lead the charge in this 
arena. We have already made important strides and will continue to work 
to address the obstacles identified. Mr. Chairman, I look forward to 
working with you and members of the Subcommittee to address the 
challenges of bioterrorism preparedness and its impact on public 
health.
    I will be happy to answer any questions you may have.

    Senator Gregg. Thank you, gentlemen.
    Let me start by saying I think there has been significant 
progress made. We started at zero, but I do not think we should 
underestimate how far we still have to go. We will start off by 
saying you have done a good job getting to where you are going, 
but the context of this hearing may ask questions about where 
do we have to go and how do we get there and why are we not 
there yet.
    Let us begin. You, Mr. Simonson, talked about anthrax, and 
that is probably a good case study to look at because if you 
order the pathogens which are our biggest threat, smallpox is 
number one, followed by anthrax, and you have botulism. Then 
you actually drop down a level in my opinion and you hit 
botulism and hemorrhagic fever and a number of other things 
that are much more controllable than either anthrax or 
smallpox.

                           SYSTEM WEAKNESSES

    But we have also seen three instances of what I would call 
real-life case studies as to how we react. We have got the SARS 
situation. We have got the avian flu situation, and we have 
just the simple flu vaccine situation. In each one of those 
instances, we saw weaknesses and we saw strengths of our 
system. I wanted to focus a little bit on the weaknesses 
because the strengths are good. Let me congratulate you for 
them, but I am concerned about the weaknesses.
    The weaknesses, as I see it, are this. In the flu 
vaccination situation, we found ourselves with an ``all the 
eggs in one basket'' philosophy, and the provider of the 
vaccine turned out to be incapable of maintaining the supply. 
And thus, people were unable to get the vaccine. Are we 
creating the same problem again with anthrax, for example, 
where we essentially committed to a single supplier where the 
situation is that the supplier has not even gotten through 
clinical trials yet. Should we be approaching this by throwing 
the net wider and trying to energize more input to get more 
participation from more players?
    We have one approved vaccine out there, which you mentioned 
you are buying 5 million doses from. It is a much more complex 
vaccine procedure than the one being proposed, but the one 
being proposed has not been approved, whereas the one that 
exists is approved. And so I guess my question is, why are we 
not splitting up at least into a couple baskets here rather 
than going full bore with one basket? That is the first 
question.
    The second question is, are we energizing the minds out 
there that might have even more creative answers? Again, I will 
use anthrax as an example. I hate to be anecdotal because this 
should be more systematic than anecdotal. But I was up at 
Dartmouth where they have a very fine research facility, and 
the researchers up there said they were having great success 
with a proposal which basically addressed not only pre-
prevention, but also if you were actually exposed to anthrax, 
had almost 100 percent recovery from anthrax. It was just at 
the mice level but they thought they were making great 
progress. But their attitude was they could not break into the 
system.
    How many other people are out there? Are there people at 
Baylor? Are there people at Duke? Are there people out in 
Minnesota who basically have not figured out how to break into 
the system but might have the ideas? Are we energizing the 
research community first to come up with ideas and are we 
giving them a clear pathway that gets those ideas into the 
process, or are we shutting them out by simply choosing a 
winner here and saying this is the vaccine we are going to use, 
everybody else is off the table for the next 5 years because 
all the money is committed to this vaccine?
    So it is two levels of questions. Have we made technically 
the right decision by choosing one vaccine to basically put all 
our eggs in one basket in light of the flu experience? And 
secondly, in doing that, have we also shut down the creativity 
in this area of anthrax because everybody now says, well, the 
anthrax is off the table because they have chosen this vaccine? 
So people at Dartmouth, people at Baylor, people at Duke are 
going to move on to something else.
    Mr. Simonson. I think, Senator, the influenza situation and 
other situations where we have put all of our eggs in one 
basket is distinguishable from what we are doing on anthrax. 
Utilizing what we sometimes call the push-pull, you push 
scientific development along the way using NIH and other 
instrumentalities to the point where it is far enough along 
that a Government contract can incentivize a maker to pull it. 
That is a very delicate balance in the negotiations with these 
companies. We found in our negotiations with the contractor 
that got the award that the $75 million was about what we 
needed to pull it and----
    Senator Gregg. How much does that constitute in dollar 
value?
    Mr. Simonson. $877 million.
    That was the pull needed to get there. Cutting it in half 
would have really limited our ability to take advantage of the 
economies of scale and so forth as you ramp up.
    But I think our interest in acquiring more AVA BioPort 
vaccine shows we are seeking not to put all of our eggs in one 
basket. Hopefully, we will be finishing the 5 million dose 
contract very soon. There is an option in there for another 5 
million doses. It keeps the door open and allows us to continue 
a dialogue with BioPort so we can, where appropriate, adjust 
our stockpiles there.
    Plus, we are doing some other things that are related. We 
have enormous quantities of antibiotics effective against 
anthrax.
    We are trying to develop a good anthrax therapeutic, and 
this procurement I think especially speaks to the situation you 
mentioned earlier about people feeling locked out. What we have 
said is in order to keep our acquisition in sort of the state 
of the art, we are going to engage in essentially a three-stage 
acquisition, acquire the first round of anthrax therapeutics, 
but keep RFPs open for the next 2 years so products that were 
not able to compete in the first round could compete in the 
second round so that we have a diverse portfolio of anthrax 
therapeutics. So it was specifically designed for the purpose 
of not locking out someone who was on the verge of a 
breakthrough but had not quite gotten to the point where he 
could meaningfully compete for a BioShield contract. So we are 
sensitive to that.
    I am not sure we are doing it the right way. I am not 
saying we are fully satisfied with the experience, but I think 
we are learning as we go and we are trying to be good stewards 
and to not over-commit where we do not see a need to. But we 
are sensitive to the need to keep the scientific community 
energized and interested in breakthroughs.
    Senator Gregg. Senator Byrd.

                     CHEMICAL AND BIOLOGICAL AGENTS

    Senator Byrd. The Gilmore Commission in its December 15, 
2003, report stated that a single biological or nuclear attack 
could realistically kill tens of thousands of people. The 
report went on to say that to meet today's threats, we need 
technological breakthroughs such as the development of sensors 
to detect deadly chemicals or biological agents.
    I believe that is your area, Dr. Albright. What are you 
doing to prevent these deadly agents from crossing our borders, 
coming into our ports, or arriving by plane?
    When Secretary Ridge testified before the subcommittee last 
year, he said if a passenger wanted to board a plane with a 
biological or chemical weapon, we do not have the capacity to 
detect it. Is that still the situation? Does your budget 
request address this issue?
    Dr. Albright. So there were a couple questions. To answer 
the second question, the answer is no, we do not have a good 
way of detecting someone trying to bring a vial of pathogen 
across the border. That would be an extraordinarily difficult 
technical problem to address. If you think about the amount, 
for example, of anthrax or of smallpox needed to be brought 
across the border in order to either affect a large number of 
people or to act as seed stock for a domestic capability, you 
do not really need very much. The amount of the actual anthrax 
you would need would be about the size of a quarter. You would 
need very little smallpox to start culturing seed stock.
    So the approach we have taken is rather than trying to 
solve what appears to be an intractable problem at the borders, 
let me stop and say there is another side to this, and that is 
when people and cargo do cross our borders, to the extent that 
we are able to target suspicious individuals or suspicious 
cargo and then inspect them manually and thoroughly, that would 
certainly provide a venue, just as it would provide a venue for 
detecting almost anything else they would bring across the 
border. But looking for, as I said, a vial of anthrax, the 
technical obstacles to that are just extraordinary.
    So the approach we have taken instead is rather to detect 
an attack when it occurs because, in a sense, one of the real 
dangers or terrors associated with these kinds of pathogens is 
if they are deployed covertly, they start to infect people 
before anybody really knows what has happened. And by the time 
you start to see symptoms, it is usually too late to do much 
about it. So the trick here is to detect the attack before 
people become symptomatic, and when we have an opportunity, 
deploy the stockpile and treat the individuals concerned and 
save them.

                             BUDGET REQUEST

    Senator Byrd. Would you touch upon the other question I 
asked? Does your budget request address this issue?
    Dr. Albright. Yes, sir. Our budget request I believe is 
approximately $80-odd million for the next generation of the 
BioWatch. These are the urban detection systems. We have also 
got about $100 million in our budget, roughly that is 
operations in support for the current system and actually there 
is another generation being deployed as we speak.

                           CHEMICAL DETECTORS

    Senator Byrd. The Department is spending over $100 million 
on the system of sensors known as BioWatch. The budget request 
for fiscal year 2006 proposes over $225 million for a new 
office called the Domestic Nuclear Detection Office.
    Less clear are the Department's efforts to prevent a 
chemical attack. After 9/11, the Senate approved $15 million 
for the D.C. Metro system to deploy chemical detectors in the 
D.C. subway system. Now, that is an excellent system. It gives 
Metro the capacity to immediately determine if the subway has 
been exposed to a chemical agent so it can effectively respond.
    This funding was included at Congress' initiative. It was 
not requested by the President. In fact, the White House 
specifically objected to the funding, describing it as 
excessive.
    Last year, Under Secretary McQueary listed the D.C. Metro 
project as an accomplishment.
    Is there any funding in the President's budget to take 
advantage of the lessons learned from this pilot program to 
deploy the chemical detectors in other large subway systems or 
urban areas around the country?
    Dr. Albright. The short answer is yes. Let me explain to 
you how it works.
    First, it is called the PROTECT System, the system we have 
in the Washington Metro system. We see it as a significant 
success. In fact, the Department of Homeland Security is no 
longer really involved with it. We turned it over to the 
Washington Metropolitan Area Transit Authority. They operate it 
to the extent they need technical assistance, which is almost 
never, we supply it for them, but this is something that has 
been completely transitioned.
    I will also add that during both the Republican and 
Democratic national conventions, we deployed this system also 
to the subway systems in Boston and in New York, and in fact, 
at the specific request of the New York Transit Authority 
police, we have kept the system deployed at certain sites in 
the New York subway system.
    The way it works, though, is that from our perspective, the 
technology development is finished. So now the question here is 
one of transition. How does one do that? In particular, how 
does one transition these technologies to transit authorities 
which are local government entities?
    So what we have been doing is working very closely with the 
Office of Domestic Preparedness, with ODP, to create grant 
guidance that will allow and focus grants to be deployed in 
local metro systems. There are something like over 30 metro 
systems around the country. They would then basically take the 
system and install it. It is really very inexpensive. It is 
only a few million dollars per metro system that is needed to 
do this. So that work is underway, but that would be embedded 
within our overall grant budget.
    Senator Byrd. My time is up. Thank you, Mr. Secretary.
    Senator Gregg. Thank you. Again, I recognize the chairman 
of the full committee.

           NEW PRODUCTS TO PROTECT AGAINST BIOTERRORISM ACTS

    Senator Cochran. Mr. Chairman, I just have a couple of 
questions. One is to focus attention on how we are developing 
incentives for researchers to discover and develop new products 
to protect the general public against bioterrorism acts. Dr. 
Albright, what are we doing and what is in the budget to try to 
help reach that goal?
    Dr. Albright. In terms of fundamental research for medical 
countermeasures, sits within the realm of my colleague here, 
Mr. Simonson, and the Department of Health and Human Services. 
I will point out they have well over $1 billion devoted to 
research and development activities within NIAID to invoke 
intramural and extramural contracts, and by that, I mean to 
researchers within NIAID, as well as to universities to develop 
the scientific basis for countering these threats across the 
entire list of category A and even B and C agents.
    Senator Cochran. Mr. Simonson, do you have a response?
    Mr. Simonson. That is absolutely right. We have about $1.7 
billion assigned to the biodefense research portfolio at NIH. 
It is a very aggressive agenda there to move advancement 
forward.
    Senator Cochran. Will this utilize expertise that we have 
at academic health science centers, specifically the drug 
discovery efforts of schools of pharmacy?
    Mr. Simonson. The extramural program does leverage academic 
health centers. I will check this for certain, but I would be 
shocked if discoveries in schools of pharmacology did not 
leverage some of this money.

         SYSTEMS THAT MONITOR SUPPLY OF PHARMACEUTICAL PRODUCTS

    Senator Cochran. I know there are efforts underway at the 
Centers for Disease Control and other agencies to develop 
systems that monitor the supply of pharmaceutical products 
besides those already in the strategic stockpile that could be 
needed in the event of widespread bioterrorism attack. Mr. 
Simonson, can you comment on such systems?
    Mr. Simonson. Yes. CDC, through the Strategic National 
Stockpile, has a monitoring function where we are looking for 
availability in the both reverse distribution and distribution 
system, in case something happens where we would have to 
leverage what is already out in the field.
    The FDA has a drug shortage function where they are 
tracking vulnerabilities in the pharmaceutical industry, how 
much of a particular product is out there and could be used in 
an emergency.
    The difference is FDA has access to very closely held 
proprietary data that CDC often does not have access to. So we 
work it together.
    Senator Cochran. Is there a sufficient amount of money in 
the budget request to get us started, Dr. Albright, to develop 
the infrastructure, the facilities for continued research in an 
aggressive way to meet this challenge?
    Dr. Albright. I think certainly in our fiscal year 2006 
budget request, the answer is yes. There are multiple aspects 
to your question. Certainly in the research side, again that 
would be in DHHS, but there have been funds actually 
appropriated in 2004, for example, for the development of the 
laboratory infrastructure, the capitalization, for example, of 
biosafety level 4 research facilities across the country, and 
it is my understanding is well underway.
    There are other issues, though. One of the things that Mr. 
Simonson and I have been working closely with is some of the 
capitalization needs associated with the developmental process. 
There are some unique issues associated with putting some of 
these bioterror pathogens through clinical trials, or the 
equivalent of clinical trials, because obviously we do not 
infect human beings with these diseases in order to test them, 
that we are actively discussing at the moment.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Gregg. Thank you.
    Senator Craig.

                        SHELF SENSITIVE VACCINES

    Senator Craig. Mr. Chairman, thank you very much.
    You touched upon a subject I want to pursue with our panel, 
and gentlemen, you are the professionals here. You tell me if 
this is an area that does not pertain to this particular area.
    In the last several years, I chaired the Select Committee 
on Aging and a week before Chiron announced its Liverpool plant 
had been shut down, they were before us telling us they were 
going to meet the necessary 100 million doses, or whatever the 
number was, for the flu season. They did not meet it. We got 
through that season.
    But it exposed to us the vulnerability of that particular 
vaccine industry, and it was a product, in part, because of 
what had transpired over a course of years. Here you have a 
mutating virus, I believe, and it changes annually, and you 
cannot stockpile, and so you have to predict and produce. If 
you mispredict, you end up with a lot more doses and it 
bankrupts your company and you go away. And you find out it is 
much too expensive to play in that field of health care, if you 
will, unless it is incentivized by government.
    Of course, that technology is an egg-driven culture 
technology, and we are not into cell technology yet. We are 
trying to get money there.
    The bottom line is we made it through this last season. I 
do not know that a flu virus could be brought to this country 
effectively and spread to create a pandemic by a terrorist 
organization. You are the ones who would have to be able to 
tell us that, whether it was a doable proposition.
    But if it were, we would be so unprepared at this time to 
deal with it by all situations, and in certain segments of our 
country, certain demographics, the elderly, flu can be lethal, 
as we know, losing thousands and thousands of them in a normal 
flu season.
    We are trying to correct that problem, but we are not quite 
there yet. Government is simply going to have to help these 
companies and buy off the surplus at the end of the season to 
allow them to produce.
    Senator Cochran. How many of these kinds of vaccines or 
treatments are we preparing that are shelf-sensitive, that have 
to be rotated on an annual basis, that have to be sensitized to 
the mutating viruses all the time to be good and usable?
    Mr. Simonson. Flu is the only vaccine that has to be made 
in this campaign process.
    Senator Craig. Is it transportable and can it be used as a 
weapon?
    Mr. Simonson. Influenza?
    Senator Craig. Yes.
    Mr. Simonson. One would think so, yes.
    Senator Craig. Would you agree we are totally unprepared if 
it were ever used in that situation?
    Mr. Simonson. I am not sure I would say we are totally 
unprepared, but it presents an enormous challenge to us and it 
is something we have been mindful of and worried about I think 
since the President took office.
    Senator Craig. We are proceeding into the next flu season 
with how many producers of flu vaccine? Two?
    Mr. Simonson. There are two producers of the killed 
vaccine, one producer of the live attenuated vaccine, and a 
third on the horizon. There is still regulatory work occurring 
with respect to the third.

               CELL TECHNOLOGY VERSUS CULTURE TECHNOLOGY

    Senator Craig. How much investment are we making in the new 
cell technology versus, if you will, the culture technology of 
eggs?
    Mr. Simonson. We entered into a $97 million contract for 
tissue culture, cell culture technology, which has enormous 
benefits over the embryonated hen's egg approach.
    Senator Craig. And that benefit is to be able to speed up a 
process ultimately to produce a vaccine more quickly. Is that 
not correct?
    Mr. Simonson. More quickly and it is less vulnerable to the 
things chickens are vulnerable to. We have hundreds of 
thousands of chickens who lay eggs for our vaccine every year. 
A high path influenza virus, avian influenza virus----
    Senator Craig. Clean chickens.
    Mr. Simonson. Yes, but they are still susceptible to 
disease. So it has worked out so far, but it is a fragile 
infrastructure.
    We have also developed over the last 6 months some 
contingencies for our chicken flocks. We are building up flocks 
so if we have a problem in one, we can supplement with another, 
and we can also produce year around.
    Senator Craig. But you have a tremendous time spread in 
that technology compared to tissue. Is that not correct?
    Mr. Simonson. That is right.
    Senator Craig. Well, I hope you are putting money into that 
new technology. We lucked out this year. We made it through the 
season with a lot of cooperation and, frankly, a lot of good 
coordination on the part of NIH and others and a lot of 
communities of interest. But I was absolutely amazed at our 
vulnerability in that area and the unwillingness, at least of 
Congress to date, to recognize it and incentivize it so we can 
keep industries functioning in those areas, not just in 
influenza but in other childhood areas. There is the liability 
issue, along with a lot of other things, that have just simply 
caused them to leave the market.
    Mr. Simonson. Even before 9/11, this was a very clear 
priority of the Bush administration. There was work going 
forward even before 9/11 on this. There is so much more to be 
done, but we have made a very good start I think. But it was, 
for decades, neglected as a seasonal nuisance, the flu, and the 
flu is not a seasonal nuisance. The flu is, in some ways, a 
very, very unique threat to us if you look back at 1918 and 
what that did to this country, and we have to prepare for that 
and we are.
    Senator Craig. Thank you.
    Senator Gregg. Senator Stevens.

                         ADVANCE APPROPRIATION

    Senator Stevens. Thank you very much, Mr. Chairman.
    I was pleased to join you in introducing this basic bill on 
BioShield, Senator Gregg. We gave an advance appropriation of 
$5,593,000,000. How much of that has been allocated to you for 
2005? That was for the years 2004 to 2013. I just wondered how 
much has been released to you.
    Mr. Simonson. Well, $2.5 billion has been released to us.

                    DEMONSTRATION OF IDEAS BY PEOPLE

    Senator Stevens. We had a sense of urgency in terms of your 
mission. Part of it came from the fact that I was chairman of 
appropriations. Senator Cochran is now, and he is going to have 
this delightful experience. But people came to me to 
demonstrate some of the things they said they had prepared. One 
gentleman told me he had a substance which, if it was injected 
into the leg of an individual, would guarantee protection 
against all substances for a period of 48 hours. Now, I sent 
them to see you. What do you do with people like that when they 
come in?
    Mr. Simonson. Well, there are a number of these people.
    Senator Stevens. There are a great number of people, but 
somewhere there might be one who knows what he is doing. That 
is what I want to know. What do you do with them?
    Mr. Simonson. I hold out that hope as well. So what we do 
is we gather the research and development types, the physicians 
and scientists, in my office who have the capability of seeing 
maybe a gem in the rough and we go through it. In fact, we do 
this, I would say, in the regular course of business. We are 
going to be doing it again next week with a provider, a stem to 
stern review of what they say will protect against, in this 
case, irradiation exposure.
    But it does happen often. We do it, and if we think there 
is any hope for it, we bring in our colleagues from NIH. We are 
looking all the time for more. Sometimes they are stacked up a 
little bit, but we do get to the people who come forward with 
these ideas.
    Senator Stevens. Is Dr. Franz still out there?
    Senator Gregg. He has not testified yet.
    Senator Stevens. He has not testified yet. Can I ask him a 
question?
    Senator Gregg. You can, sure.

                    NONGOVERNMENTAL SCREENING GROUP

    Senator Stevens. Do you think there should be a 
nongovernmental screening group that people will know exists 
that could review suggestions like this coming from individual 
scientists?
    Dr. Franz. I'm sorry, sir. A nongovernmental screening 
group?
    Senator Stevens. Yes. Should we have provided for such an 
entity in the bill that we passed, a nongovernmental screening 
entity to review these suggestions so it would be quickly 
reviewed?
    Dr. Franz. I think it depends on the resources. My own 
experience was as the Commander of the USAMRIID, we used to 
receive a lot of these things, and for the most part, as Mr. 
Simonson has said, I believe it is possible to look at the data 
presented, and oftentimes it is scanty. And to sit down with 
some smart people with both basic research and clinical 
experience and make a decision to do a very careful screening, 
using good laboratory practices and so on, of each of these 
products would be very, very expensive. So I think it is 
important there be some kind of careful look outside the 
laboratory by some smart people before we send them to the 
laboratory.
    Senator Stevens. Thank you.
    Mr. Simonson, my only comment is it just sounds to me there 
are a great many people in our national community who are 
thinking about these threats and some of them have capability 
and others do not. But I do hope we find some way to have an 
identification of where these people can take their 
suggestions. I am sure Senator Cochran will appreciate this 
because they still keep coming to us for money and we do not 
know one single thing about what they are talking about. So I 
do think there ought to be some identifiable place where people 
with capability and ingenuity to try to help solve some of 
these problems could go and know who they are talking to and we 
could know who to send them to.
    Mr. Simonson. There is one other mechanism we use, as I 
indicated earlier. This request for information. We will take a 
look at what is missing and having looked through the 
Government pipeline, seeing nothing, we will send out a request 
for information, sources sought. Do you have work in this area 
that might be useful to the Government? And that produces a 
fair amount of really reliable data that we can then move 
forward on. So we are trying to do that.
    I think there is no question, Senator, that when it comes 
to security countermeasures, people coming forward and saying 
we have got these ideas and we need a place to go, ours is the 
place to go. We want to have an open door for those sorts of 
inquiries.
    Senator Stevens. Thank you very much. My only comment would 
be if I let someone study how many permits the Wright brothers 
would have had to proceed with the demonstrations down at Kill 
Devil Hills, it would amaze you how many they would have had. I 
am sure similar things apply in this area. There is just an 
overwhelming number of permits necessary for anyone to even 
proceed with this independently. So I do hope we find some way 
to accommodate the knowledge of some people who may have the 
ingenuity to think a lot better than we thought they could.
    Senator Gregg. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.

                  BIOTERRORISM AND COOPERATIVE EFFORTS

    I would like to make an inquiry as to how your efforts 
against bioterrorism are being coordinated with the Department 
of Defense, as well as the CDC lab? They are all deeply 
involved in biological threats to this country either through 
an epidemic, what we naturally have occurring in this country, 
which may be introduced or could be used by other nations as 
far as a bioweapon is concerned. I wonder if you might comment 
about your cooperative efforts, if you would, please.
    Mr. Simonson. We have a structure in place that Dr. 
Albright and I, Dr. Winkenwerder, Assistant Secretary for 
Health Affairs at the Department of Defense, and Dr. Kline, who 
is Assistant to Secretary Rumsfeld for chemical and 
radiological and nuclear matters. The four of us chair an 
interagency group that works through these countermeasure 
issues, set requirements, and make sure the right hand knows 
what the left is doing because there is a fair amount going on 
outside of HHS laboratories. Parny may have something to add to 
this, but I think that really is where all the coordination is 
occurring right now on the countermeasure development front.
    Senator Allard. Are you communicating with the Department 
of Agriculture's plant and animal infectious diseases also? 
That is anthrax and potentially plague and zoonotic diseases. I 
assume you are also communicating with them.
    Mr. Simonson. Yes. They participate in this group.

             INTRODUCTION OF DISEASES FROM OTHER COUNTRIES

    Senator Allard. Now, I understand the chairman had some 
questions he raised about flu. I was not sure whether he was 
talking about just the regular variety of flu that affects 
humans or he was talking about the avian influenza, which does 
not occur in this country but causing some deaths in Asia and 
apparently is pretty virulent and is a disease that is of 
serious concern to get introduced in this country.
    When you have those kind of reports, what kind of action do 
you take?
    Mr. Simonson. The first thing we do is to ensure that we 
are getting reliable data out of the region.
    Senator Allard. So we send scientists down there to confirm 
the diagnosis.
    Mr. Simonson. We do send people there. We also bring 
material back to the CDC or other laboratories to make sure the 
sample is being properly evaluated and that we are watching for 
antigenic drift, changes in the characteristics of the disease.
    We fund, directly through the World Health Organization 
(WHO) or through bilateral agreements, ways to improve 
surveillance in these countries that have minimal 
infrastructure.
    The United Kingdom and the United States fund a transport 
fund to actually pay for isolates to be shipped out of these 
countries that cannot afford to ship them, believe it or not. 
It is a very expensive proposition.
    So that is the first thing we do. We trim that up. We send 
doctors into the field working with the WHO.
    I think the second thing we do, this is something Secretary 
Levitt has been very committed to doing, is work diplomatically 
with his counterparts, health ministers and so forth to 
underscore the importance of transparency because without 
transparency, none of this is going to do us any good. We are 
trying to back up that transparency with funding.
    Senator Allard. Well, the importation of material that is 
infected or potentially infected is a very volatile issue. We 
have a research laboratory off the shores of this country so we 
can make a claim that the disease does not occur in this 
country. I would hope that when you are bringing in those types 
of materials some consultation be made that in this particular 
case we happen to be talking about animal diseases, and it is 
important on our trade agreements that we never and we can 
always make the claim the disease does not occur in the United 
States. And avian influenza can have a dramatic impact, for 
example, in the poultry industry if we cannot make that claim 
as far as import and international trade and everything.
    So I would encourage you, if you are not, to work closely 
with those various agencies because we are trying to do what is 
necessary to protect our population. We need to study. We need 
to be prepared for them, but yet we have to be careful in what 
way we set up our studies and how we handle that kind of 
material. It can be very complicated and it could be very 
controversial.
    Mr. Simonson. I just want to follow up on something I said 
a moment ago. When we bring material back into this country, it 
is done in a very high level of bio-security so that we do not 
have to worry about it getting out, much like when other agents 
are brought back----
    Senator Allard. Very, very important. Thank you.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you. I want to thank the panel.
    I think Senator Stevens' point that we need to formalize 
the point of access where people of ideas can go is a pretty 
valid one because I know I hear it too. I have people come to 
me and say I have got a solution to this problem, and I refer 
them. It would be nice, I think, if we could pick a central 
Government place where we could send all these people who have 
those good ideas. I guess yours is the shop. I am not sure how 
we make it more visible in that area, but I think that might be 
useful.
    But we do appreciate your work and we thank you for your 
time this morning and appreciate your testifying.
    We are going to now move on to the second panel which is 
folks who are outside the Government right now and who have 
expertise as to whether or not we are doing a good job as a 
Government and who have a lot of experience, beginning of 
course with Dr. Franz, who has already been drawn into the 
discussion here, which we very much appreciate. Hopefully we 
can get the electronics here to work well so we do not end up 
with a lot of interference. Dr. Franz we know well because he 
was head of the U.S. Army Medical Research and Materiel Command 
for 23 years. He is now active in a number of other activities.
    We have Dr. Leighton Read, who has joined the Alloy 
Ventures as a general partner in October 2001. He has 14 years 
as a biotechnical entrepreneur and investor, and he is going to 
give us his thoughts as to how you get into this business and 
whether or not the Government is making it easy.
    And we have Mr. John Clerici who is an expert in liability 
issues. He was Judge Advocate in the United States Air Force 
where he spent a considerable amount of time advising the Air 
Force research laboratories on how to procure technologies.
    So we appreciate all of you taking the time to be with us 
today. What we are interested in hearing about is how you think 
the Government is doing in instituting the goals of BioShield, 
which have certainly been outlined rather thoroughly this 
morning, to prepare ourselves to deal with a biological/
chemical attack and to anticipate what the problems would be 
and be ready to deal with them. So we want to hear your 
thoughts on this.
    We will start with you. Why do we not start with Dr. Franz 
and make sure we have got this thing working so that he is up 
and running. Dr. Franz is in Boston, which is obvious because 
there is a Red Sox symbol in front of him, probably curing Red 
Sox fever. If you could give us a test, Dr. Franz, that would 
be good.
    Dr. Franz. Good morning, sir. Can you hear me?
    Senator Gregg. Yes, we can. Thank you. Why do you not 
proceed?
STATEMENT OF DR. DAVID FRANZ, CHIEF BIOLOGICAL 
            SCIENTIST, THE MIDWEST RESEARCH INSTITUTE
    Dr. Franz. Mr. Chairman, distinguished members, it is an 
honor to appear before you to address issues related to the 
procurement of medical countermeasures to protect the American 
population from bioterrorist agents and emerging infectious 
disease. I am currently Senior Biological Scientist at the 
Midwest Research Institute in Kansas City. I believe you have 
my resume.
    This committee has asked that I provide some broad 
perspective on the medical aspects of biological defense in the 
context of a world in which intentional release of biological 
agents is of significant concern and natural introduction of 
disease is a reality. I will make seven brief points that 
encapsulate my written statement and then summarize my thoughts 
regarding the implications of these points for the challenges 
at hand.
    First, regarding the threat, I believe the most significant 
barriers to biological terrorism today is the intention to 
commit the crime. This is especially true for contagious 
viruses. In the future, technology will draw on the options for 
both protection and for abuse.
    Second, we are extremely vulnerable to bioterrorist attack 
in this free society, but for many technical and behavioral 
reasons measuring actual risk to any segment of the American 
population or its agriculture will continue to be extremely 
difficult.
    Third, biology is characterized by great diversity. 
Microbes like our own immune systems can be either strong or 
weak. We can rank microbial capabilities that cause disease and 
even their utility for terrorist exploitations, but without 
solid intelligence, we can never know for sure which specific 
biological agent we might face or when. Many of us agree, 
however, as was mentioned earlier, there are outliers among the 
diverse microbial population. These include organisms that 
cause smallpox, anthrax, and foot and mouth disease.
    Fourth, biology is neither as crisp nor are the rules of 
play as well defined as they are for physics and chemistry. 
Therefore, there are many opinions regarding the way ahead for 
bioterrorism defense.
    Fifth, just trying to decide how to organize to protect 
ourselves is challenging. Secretary Richard Danzig has proposed 
a handful of select scenarios to be used ``as an anvil against 
which to hammer our ideas.'' A compatible approach, which I 
have often discussed, is to prepare for the outliers and then 
broadly enhance our public health system as if we were 
expecting an unknown emerging infectious disease.
    Sixth, regarding future threats, we should assume that 
almost anything is or will be possible, but we must not forget 
just because it is theoretically possible it is almost always 
harder for us to manipulate biology either for good or for ill 
than we predicted.
    And finally, seventh, we can do many things to protect 
ourselves but our preparation can never be perfect. I believe 
it is critically important that we carefully craft our concept 
of use and application of various biodefense measures are being 
developed so we address the greatest risks and vulnerabilities 
and ensure the maximum benefit for our investments. It will be 
costly, but the cost of failure in this area is potentially 
enormous. So how can we apply these principles?
    First for vaccines. It is relatively easy to justify the 
acquisition of vaccines for anthrax and smallpox for the 
population. It is important, however, we thoroughly understand 
our concepts of use as we attempt to develop traditional agent-
specific vaccines for the civilian population. In the short 
term, we should exploit next generation, flexible vaccine 
platforms. We were working on these in USAMRIID in the mid-
1990's already, which will allow us relatively quickly to 
produce a licensed product, counter an outbreak of either 
epidemic or even pandemic. The basic platform might be licensed 
for use in humans now, allowing us to simply add a genetic 
cassette when a new vaccine is needed, greatly shortening the 
time for use. Our current system of vaccine research, 
development, and approval is simply not flexible enough to 
respond to terrorist attack or emerging disease.
    For drugs, it is difficult to argue against spending as 
much as we can afford on antivirals and new classes of 
antibiotics and exploiting the genomic revolution to develop 
new categories of anti-infectives. All of these will improve 
the lives of Americans with or without a bioterrorist attack.
    And regarding the future, attempting to protect our 
population from the unknown threat of today and especially of 
tomorrow with specific countermeasures like traditional 
vaccines will likely be extremely costly and inefficient. 
Significantly boosting the immune system to give us broad, 
multi-agent protection is now slightly more than a great idea I 
believe. I will not be surprised if it will be 15 or 20 years 
before we can do this in domestic animals effectively and maybe 
30 years before we can really make a difference in the broad 
population of humans. But I believe we must be doing the 
necessary research right now. We probably do not yet know how 
much difference attempts to turn up the gain on our own immune 
systems will make. It is likely that for prophylactic use in a 
broad population where side effects may be totally 
unacceptable, the value could be minimal. However, in select 
populations or the already exposed or ill, where non-life-
threatening side effects are accepted, this class of 
countermeasures may be significantly more effective. We 
actually have examples of use in individual patients with 
cancer and hepatitis today, but our tools are still very, very 
crude.
    Finally, regarding market drivers for medical 
countermeasures, my experience is second-hand and limited. I 
believe specific countermeasures for most bioterrorism agents 
and probably for briefly emerging infectious diseases will, for 
the most part, require Government funding. For those 
countermeasures that have broader application, a significant 
portion of the research will still probably be funded by the 
Government. However, advanced development and even production 
will be of interest to industry, I am sure. Even there, 
incentives may be helpful or necessary in driving development 
and production of certain compounds.

                           prepared statement

    Again, I appreciate the opportunity to present this 
information before the committee. I worked hard to keep our 
leading national laboratory for the development of medical 
countermeasures for the force solvent through the 1990's. I 
know it is not easy to convince someone that medical 
countermeasures for a poorly understood threat of unknown risk 
are really important. The field of the vaccine and antiviral 
drugs requires both science and imagination, a phenomenal 
personal dedication by scientists and shepherding over enormous 
regulatory hurdles. And when it is completed, you cannot paint 
on the national colors and sail it around the world or even fly 
it over the Super Bowl at half-time. When it is finally 
licensed, the administration of that vaccine is often dreaded 
by the healthy recipient whose very life you want to save.
    Thank you for your important work and for this opportunity. 
I'd be happy to answer any questions.
    [The statement follows:]

                 Prepared Statement of Dr. David Franz

Medical Countermeasures to Biological Threats--and Emerging Infectious 
        Disease
    Mr. Chairman, distinguished Members, it is an honor to appear 
before you to address issues related to the research, development and 
procurement of medical countermeasures to protect the American 
population from bioterrorist agents and emerging disease. I am 
currently the Senior Biological Scientist at the Midwest Research 
Institute in Kansas City. I served on active duty in the U.S. Army from 
1971 to 1998, with 24 of those years in the U.S. Army Medical Research 
and Materiel Command. I served for 11 years at the U.S. Army Medical 
Research Institute of Infectious Disease, which I commanded before my 
retirement. I currently serve on a number of senior S&T advisory panels 
for the Department of Defense and Department of Homeland Security.
    This committee has asked that I provide some broad perspective on 
the medical aspects of biological defense in the context of a world in 
which intentional release of biological threat agents is of significant 
concern and natural introduction of disease is a reality. I have 
attempted to provide my views on a number of these issues below.
What is the nature of the bioterrorist threat?
    Biological terrorism is a unique threat to our society, our economy 
and our freedom. Like the biological warfare threat of a decade ago, 
dual-use facilities and technologies may be exploited to make terrorist 
weapons. Although we have improved our defensive capability, we can 
still not yet, geographically or temporally, warn our citizens of an 
attack in time to take evasive or protective action. Unlike biological 
warfare, the production facility' and the weapon of the bioterrorist 
may be very small indeed. Finally, as we have learned since October 
2001, attribution of a small scale attack can be very difficult or 
impossible. Furthermore, the microbes are generally widespread in 
nature and the technological tools are rapidly improving in capability 
and availability worldwide. Neither the microbes nor the tools to 
manipulate them can be outlawed, the former because if their ubiquity 
and the latter because of their value to society. Therefore, it is 
possible to easily hide a biological terrorist program. With proper 
agent selection there could be minimal technical hurdles. The most 
significant barrier to the biological terrorist today--and for the 
foreseeable future--is the intention to commit the crime.
Can we measure the risk?
    We know that our human and livestock populations are extremely 
vulnerable; this is a function of our free society and our well-
developed livestock industry. We know that the impact of an intentional 
attack with microbes could be enormous, measured in human lives or 
dollars lost. We know there are groups and individuals who threaten us 
and we have some sense of their abilities with things biological. Our 
understanding of the all-important factors of intent and motivation is 
much less clear. Therefore, risk--where all these variables come 
together--is only poorly understood. The president's directive 
``Biodefense for the 21st Century'' specifically calls for a biological 
risk assessment to be performed every two years, so that our national 
response to the threats, vulnerabilities and consequences of 
bioterrorism can be improved. This risk assessment presents technical 
challenges that are being addressed by the Department of Homeland 
Security.
Are some agents to be feared more than others?
    Biology is characterized by great diversity. Microbes of a given 
genus or family may be strong or weak. Species, subspecies or strains 
within a genus or family may be stronger or weaker than their near 
relatives. We call variola virus (the agent of smallpox), Bacillus 
anthracis bacterium, the foot and mouth disease virus and maybe even 
the toxin, botulinum, ``outliers'' because they can cause severe 
disease in humans or impact animal populations. Even that is an 
oversimplification. Botulinum isn't botulinum and anthrax isn't 
anthrax. All of these organisms, or the toxins they produce, live on a 
spectrum with regard to the pathology they can cause in humans or 
animals: some weaker; some stronger. To be an agent of concern' the bug 
need not only be able to cause disease in humans or animals, but must 
also have the right combination of a series of important 
characteristics, for example: stability, transmissibility, easy 
producability and/or the ability to overcome countermeasures. With 
regard to catastrophic bioterrorism, we may be truly concerned about 
less than 1 percent of those microbes found in nature. Yet, that's 
enough! The lesson for us is that we can--at least to some degree--
prioritize the agents for which we use our resources to develop 
countermeasures. However, without solid intelligence, we can never know 
for sure which one we will face.
What is the impact of all this variability in biology?
    If we were able to plot all known microbes in the world on a graph 
with their name stacked up on the vertical (Y) axis and their relative 
ability to hurt us spread across on the horizontal (X) axis, we would 
get some kind of a curve. Let's assume the curve would be roughly bell-
shaped with a small number of microbes having very low ability to cause 
disease, most of them with moderate ability to cause disease and few 
which can cause severe disease. We could do the same thing with 
stability, transmissibility and the ease with which they can be 
produced. If that isn't enough, we could plot all Americans on a 
similar curve, describing the relative ability of their natural immune 
systems to combat disease of various kinds. Some of us are strong and 
some are weak, but most of us are average in ability to withstand 
exposure to disease. More than half of us might survive exposure to 
smallpox, without any medical help, but maybe only a few percent of us 
would survive inhalational anthrax. To complicate the picture even 
further, the outcome of some exposures is dose-dependant. This is 
especially true of the toxins, which don't replicate within out bodies, 
but act more like chemicals. Biology is just not as crisp and clean as 
physics or even chemistry; this is one reason we have heard so many 
opinions about protecting our citizens from biological terrorism.
How can we decide what to protect ourselves against?
    The short answer is, ``We can't''. However, certain bugs are much 
better suited as weapons than others: B. anthracis, because of it's 
ability to survive in a spore form for many years; variola virus, 
because of its ability to spread from person to person and foot and 
mouth disease virus because of the way it can sweep through an 
agricultural economy so quickly that its point of introduction may be 
difficult to discern. We have recognized those and either have dealt 
with the outliers or are in the process of dealing with them 
specifically--as we should.
    Richard Danzig has proposed another scheme in his excellent 
document entitled, ``Catastrophic Bioterrorism: What is to be done?'' 
His approach involves a short set of specific agent release or 
introduction scenarios, which if prepared for properly will likely give 
us many of the tools and capabilities to deal with most other agents 
which have characteristics similar to those we specifically prepared 
for. Several of our government departments and agencies responsible 
have implemented Secretary Danzig's approach.
    Another model which I, and others, have put forward--after taking 
anthrax and smallpox off the table with specific countermeasures--is to 
think about the unknown as emerging infectious disease and take general 
steps such as establishing surveillance systems, upgrading diagnostics 
capabilities and educating healthcare providers regarding outbreak 
response. Eliminating vulnerabilities in our public health system is 
not difficult to justify, and has a beneficial ``dual use''. I have 
characterized this way of thinking about preparation by the simple 
equation, Bioterrorism--Emerging Infectious Disease + Intent. We don't 
know when we will face a bioterrorist attack, but history tells us that 
we should expect emergence and reemergence of ``exotic'' diseases every 
few years in the United States. If we prepare our public health system 
to deal with these types of occurrences, we will be far better prepared 
to deal with a bioterrorist attack.
What about future threats?
    We believe that multiple-drug-resistant bacteria were produced by 
the Soviets before the genomic era. We know that foreign genes can be 
added to both bacteria and viruses, making avirulent agents virulent, 
or conferring additional properties of virulence or pathogenicity. We 
know that the tropism--the virion's preference regarding the body's 
cells it infects--can be changed. We know that nature can change an 
animal pathogen so that it infects humans. In the biology of microbes, 
we should assume that almost anything is possible. That does not mean 
that it will be done by a human--but we are entering an era in which 
all these manipulations and more will become easier.
Can we place a value on classes of countermeasures?
    We can do many things to protect ourselves from a bioterrorist and 
his bugs; they range from political and behavioral actions to change 
intention in those who might harm us, or to undermine their support 
where they live, to medical solutions like vaccines and drugs, physical 
devices such as protective masks that filter microbes out of the air we 
breath, or monitoring systems to detect an attack on high population 
densities. All have a place in our integrated national defense, but not 
all are equally suitable for all populations we must protect--or 
deter--OR for every agent we wish to protect against. The Nunn-Lugar 
Cooperative Threat Reduction program has had a very significant 
positive result among the now-aging weaponeers of the FSU, but we would 
not expect the same model to work with Al Quiada. A protective mask 
will be of much greater utility to a soldier on the battlefield than a 
businessman in Boston, because we don't have, and probably can't 
afford, the capability to tell the business man when to don it. A 
vaccine against plague will more likely be useful to a Marine than a 
housewife, for behavioral and cost reasons. A currently-available 
antibiotic may be of great utility after an anthrax attack and useless 
after the release of highly-pathogenic avian flu virus that has been 
adapted to infect humans. We need to carefully craft our concept of use 
and application of the various biodefense measures that are being 
developed so that we address the greatest risks and ensure the maximum 
benefit of our investments.
Can we place a value on individual countermeasures within a class?
    Vaccines are the most agent specific of medical countermeasures; 
therefore, for agents which are rarely seen in the clinic, they have 
very limited application. Stockpiling vaccines for civilians makes 
sense for anthrax and smallpox for two reasons. For these two agents, 
unlike most others, vaccines can be used--in different ways--after an 
attack. For most other agents, efficacy of post-exposure vaccination 
just hasn't been demonstrated. The one instance in which, let's say a 
plague vaccine or an Ebola vaccine if we had one, might have utility is 
during a bioterrorist campaign; a series of sequential attacks (the 
term ``reload'' was coined by Secretary Danzig). Here, an individual or 
group attacks one U.S. city and then announces that another city will 
be targeted unless we capitulate. I will leave it to epidemiologists 
and statisticians to decide if we could respond effectively in such a 
situation, assuming we had the right vaccine licensed and in stock. In 
attempting to place a value on such a vaccine, we must consider actual 
cost to develop, produce and license, the shelf life, as well as the 
biology and the psychology involved. The behavioral and legal issues 
surrounding the prophylactic use of vaccines in the general population, 
without significant evidence of risk, can be difficult, as has been 
seen with both anthrax and smallpox vaccine programs in the recent 
past.
    Antibiotics are considered a general countermeasure and, therefore, 
will likely have dual-utility. They can and are typically given post-
exposure. This makes them ideally suited for protecting a civilian 
population after an attack. The issues to be considered include, first, 
sensitivity of the specific bacteria to a given antibiotic, then 
availability of the drug and its timely distribution to the affected 
population, if that population can be determined. Secondary issues, 
post attack, include possible allergy or other reactions to the drug, 
but the psychological and public relations issues may be slightly 
different after an attack than before. We currently have licensed 
antibiotics which are effective against most bacterial agents likely to 
be used by a terrorist. For some there would be issues of availability 
and, possibly, surge production. We believe that the Soviet Union 
developed antibiotic resistant strains in the past. Resistant strains 
have also developed naturally' throughout the world in recent years. 
Although, I am not expert regarding recent submissions to the FDA, it 
is my understanding that there are few, if any, new classes of 
antibiotics moving forward for licensure. This trend should be of 
concern to all of us, even if there were no potential for bioterrorist 
attack on our population.
    Anti-viral preparations can, for this purpose, be considered to 
have the general use characteristics of antibiotics, but are for use 
against viruses. They would have wide application if we never have a 
bioterrorist attack. For a number of reasons related to the way viruses 
live and function in our bodies, it is more difficult to develop 
antivirals that both stop the microbe and are safe for human use than 
it is to develop antibacterials. A very few antiviral drugs have been 
developed in the past 20-30 years. Now, with the availability of 
genomic and proteomic information, we are probably in a better position 
regarding the discovery or design of new classes of antivirals 
compounds, at least for certain families of viruses. As is with 
antibiotics, it is my understanding that market dynamics within the 
pharmaceutical industry have not, in recent years, been favorable for 
the development of antiviral drugs.
    Antibody preparations which provide passive immune protection 
without vaccination, whether produced in animals, or by modern 
synthesis methods, have a place in our medical tool kit. They, like 
vaccines, are specific in that they typically are only effective 
against the agent they were developed for. Unlike vaccines, they can be 
used immediately before exposure, immediately after and in some cases 
in the face of disease. They are typically less effective than 
vaccines, even if given before exposure; an exception to this 
generality is the antibody preparation for botulinum toxins, which, if 
given before clinical signs of disease, is amazingly effective in 
laboratory animals. Logistically, however, antibody preparations are 
cumbersome in that they must be administered either intramuscularly or 
intravenously.
    Vaccines protect by stimulating the body to produce a specific 
antibody which identifies and deals with the microbe when it enters the 
body. Antibiotics and antiviral drugs generally attack the microbe 
directly. There is a fourth possibility that we haven't fully 
exploited, primarily because we don't yet understand our immune systems 
well enough. This method is called non-specific immunity. Our bodies 
normally produce a variety of cells and chemical substances that attack 
microbes and help keep us healthy. These cells and chemicals deal with 
both bacteria and viruses. This part of our immune system is tightly 
integrated into our entire being and might be what we are describing 
when we say one person is generally ``healthy'' and another is not. The 
``innate'' immune system is generally stronger when we have had a good 
night's sleep, when we are fit, when our nutritional and hydration 
status is within normal limits and when we are ``happy''. This 
protective system breaks down when we are jet-lagged or stressed. The 
beauty of the innate immune system is that it can protect us from many 
different agents and it's always on board. The limitation is that it 
can be easily overwhelmed. Some scientists believe that, if we could 
increase the ``strength'' of the innate immune system, we might be able 
to actually shift each of us toward ``healthy'' on the population bell 
curve. Today we understand this system only well enough to use very 
crude tools to treat some cancers and viral infections like hepatitis 
C. Even when we gain greater precision, it is likely that turning up 
the power of the innate immune system won't work for everyone. Just as 
a vaccine might only work for 90 percent of a given population, this 
method might work for 40 or 60 percent--and until we get really good, 
there will be significant side effects. As we learn more and more about 
this system, we will be better able to control it and protect humans 
and animals from infectious diseases. This method of protecting our 
citizens from biological terrorist attack--or emerging infections--may 
be available in 15 years--or maybe 30. It is critical that we do the 
basic research now to make the most of the innate immune system. This 
investment will pay enormous dividends even outside the world of 
infectious disease.
    Principles regarding development of medical countermeasures for 
biodefense:
  --Vaccines are probably the best solution, but they are good for only 
        one microbe and must generally be given long before onset of 
        illness. Their concept of use is more consistent with military 
        deployment than with homeland security, with some specific 
        exceptions.
  --Antibiotics have more general application, but they are good only 
        for bacteria.
  --Antivirals that are safe and effective have been difficult to 
        discover, but we have some new tools and should exploit them.
  --Our innate immune system, if manipulated appropriately, holds 
        promise, but we have a lot to learn before we can exploit it, 
        especially in the healthy population.
What principles might we consider regarding acquisition of medical 
        countermeasures?
    Vaccines.--It is relatively easy to justify the acquisition of 
vaccines for anthrax and smallpox. Reactogenicity, cost, shelf-life, 
animal efficacy and licensure are all being considered. It is important 
that we thoroughly understand our concepts of use as we develop 
additional agent-specific vaccines. We should be developing next-
generation flexible vaccine platforms which will allow us to relatively 
quickly produce and license a vaccine to counter an outbreak that 
subsequently becomes epidemic or pandemic. The basic platform might be 
licensed for use in humans, allowing us to simply add a genetic 
cassette when a new vaccine is needed, to greatly shorten the time to 
use. Our current system of vaccine research, development and approval 
is simply not responsive enough to respond to terrorist attack or 
emerging disease.
    Drugs.--It is difficult to argue against spending as much as we can 
afford on antivirals, new classes of antibiotics and exploiting the 
genomic revolution to develop new categories of anti-infectives. All of 
these will improve the lives of Americans with or without a 
bioterrorist attack.
    Non-Specific Therapies.--We have a long way to go to achieve broad 
application of what is little more than a hypothesis, but we should be 
doing the necessary research now. Attempting to protect our population 
from the unknown threat of today, and tomorrow, with specific 
countermeasures, will likely be extremely costly and inefficient. We 
probably don't yet know how much difference these preparations will 
make; it is likely that, for use prophylactically in the broad 
population where side-effects may be totally unacceptable, the value 
will also be minimal. In select populations or the already exposed or 
ill, where non-life threatening side effects are accepted, this class 
of drugs may be significantly more effective.
Market issues:
    My experience regarding market drivers for medical countermeasures 
is second-hand and limited. I believe that specific countermeasures for 
most bioterrorism agents--and probably for emerging infectious 
disease--will remain in the category of orphan drugs. Research, 
development and production will be dependent on funding by the U.S. 
Government and the debate regarding licensure or investigational use 
will be handled for each preparation. For those countermeasures that 
have broader application, a significant proportion of the research will 
be funded by the government; however, advanced development and even 
production will be of interest to industry. Tax- or intellectual 
property-related incentives may be helpful or necessary in driving 
development and production, especially where the market is large enough 
to interest the pharmaceutical industry.
    Again, I appreciate the opportunity to present this information 
before the Committee. I shall be happy to answer your questions.

    Senator Gregg. Thank you, Dr. Franz. The last few comments 
there are well taken and very much appreciated. We appreciate 
your service to the Nation. Clearly you should have a flag 
painted over your front door and the appreciation should be 
there for all you have done in the area of protecting our 
soldiers, sailors, and airmen.
    Dr. Read.
STATEMENT OF J. LEIGHTON READ, M.D., GENERAL PARTNER, 
            ALLOY VENTURES
    Dr. Read. Mr. Chairman and members, thank you for the 
opportunity to testify about BioShield and our Nation's 
strategy. Your interest in stopping to consider the overall 
approach is timely and appropriate here.
    I am commenting today as an individual who has been 
building and financing biotechnology companies in Silicon 
Valley for about 17 years now. Before that I was an internal 
medicine doctor, and my academic career was studying costs, 
risks, and benefits of new medicines and vaccines.
    When I received your invitation just a little a while ago, 
I looked up my testimony on biodefense for the Senate 
Governmental Affairs Committee in 2002 and then in 2003 for the 
Subcommittees of the House Energy and Commerce Committee. Re-
reading that testimony, I have to say I had concerns and 
recommendations that I voiced then that are just as relevant 
today as they were when the Department of Homeland Security and 
Project BioShield were still on the drawing board. So there is 
clearly still some work to do.
    This problem requires long-term thinking. I agree with 
statements made earlier by your colleagues that there is no 
potential threat to us. I would like to focus particularly on 
our economy and our lifestyle. If an easy-to-deploy, 
transmissible bioweapon were deployed, even with a very small 
loss of life, the impact on our economy would be unbelievable 
because the necessary steps to interrupt the chain of 
transmission would interfere with travel and commerce of all 
kinds, even potentially food and medical supply distribution. 
Most importantly, I am really concerned about the impact of 
this on the freedom of people to meet during a time of stress 
and worry and political consequence. Nothing would test our 
trust in Government authority more than a quarantine separating 
loved ones. So, the stakes are very high.
    One of the companies I built was in the influenza vaccine 
business, and I agree it would be a very realistic proposition 
that someone could smuggle a dangerous strain of influenza into 
the United States. That deserves serious attention.
    Now, a great deal of positive work has been done. It is 
hard to describe how big a step forward the BioShield 
legislation was and some of the implementation that has 
followed that at the same time as talking about how much is 
still to be done, but we need to do that. Much remains to be 
done to educate the public and strengthen our traditional 
public health systems, our first responders.
    I was very heartened by some of the responses to the 
presidential directives in Mr. Albright's testimony. Many of 
those problems or challenges can be dealt with in just a few 
years of sustained effort, and one of my key points is that is 
not the case for our longest lead time countermeasures, drugs 
and vaccines, that have not even been invented yet to counter 
these threats. As you know, drugs typically take 5 to 10 years 
from the first commitment to do something to the delivery of 
something for patients; vaccines, more like 10 to 20 years.
    This company I founded in 1992 licensed a very promising 
influenza vaccine, nasal influenza vaccine technology from the 
University of Michigan in 1995. This technology had already 
undergone 20 years of clinical trials under NIH support, and 
yet it was 2003, 8 years later, and after the expenditure of $1 
billion by three different companies of private capital before 
this product was approved by the FDA. This is a product known 
as FluMist which is now of growing importance as part of our 
influenza protection armamentarium.
    My second point is we clearly need the private sector to be 
involved and BioShield represented a very strong and clear 
recognition that this was the case, that we needed to get the 
incentives right. There are many reasons why we need the 
private sector, but basically all of the drugs and vaccines we 
use today for everything outside the field of biodefense come 
from the private sector, admittedly and with great respect for 
the huge national investment in the basic science made these 
discoveries possible.
    Start-ups and smaller companies play a very important role. 
I invest in these companies as a full-time venture capitalist. 
They take on higher-risk projects. They can demonstrate proof 
of principle.
    But I would like to underscore today the importance of the 
larger, more capable companies. They often acquire technology 
by acquiring these smaller companies that we invest in or by 
carrying out licensing deals with them. But there are skills 
for the downstream development of pharmaceuticals and vaccines 
that are very hard to come by outside a relatively small number 
of very large pharmaceutical and biotechnology companies. The 
real test of whether BioShield is working is whether it engages 
the capabilities of these companies in the development of 
countermeasures. I would say we are not there yet.
    A biodefense procurement strategy that relies on companies 
that have not even launched a commercial product is likely to 
incur extra delays and other down-side surprises. So this is 
really a point for attention.
    What I think is a key missing ingredient is, we need 
markets for these products which mimic the size and the 
predictability of markets for treatment and prevention of other 
diseases. That is really the goal. The current BioShield law 
was, as I said, a step in the right direction, but it fails to 
adequately signal the Government's intention to purchase 
successful countermeasures. We need much more transparency on 
what the priority list is so the companies can begin to think 
about these things in advance. We need much more clarity about 
who are the people who have both the knowledge to comment and 
the authority to make decisions.
    There are lessons to be learned from some of the ideas 
being aggressively explored to stimulate private sector 
investment in vaccines for global health problems, such as 
AIDS, malaria, and TB. This notion of advanced purchase 
contracts deserves study as a model for your continued 
refinement and enhancement of BioShield. The notion there is a 
strong connection between the benefits of investing in 
infectious disease research for other diseases or even broadly 
and defense against biodefense is a very valid concept that is 
completely appropriate.
    BioShield misses in important respects with respect to 
providing indemnification from product liability. Basically it 
is a test of confidence. If a company tells you they are not 
really concerned about that in a conversation about working 
with the Government in biodefense, it is just because they have 
not grown up to understand how critical it is for their 
shareholders.
    We need to streamline procurement. It is not clear that any 
of the work so far by our great public servants who are 
carrying out the legislation of BioShield have taken advantage 
of the full ability to streamline the procurement process and 
take advantage of those special provisions. I think that is 
going to be important.
    I would like to come back to emphasize the point raised by 
Senator Stevens that we need a way to screen. As a venture 
capitalist, we get a very large number of proposals for 
investments, and only a tiny, tiny percentage are actually 
companies that receive investment. We have worked out screening 
processes, and I do not know that it is a model but it makes me 
sympathetic to the problem of a public servant who gets calls 
from people who think they have a good idea but the science is 
not really there and the person who gets lost in that crowd 
really does have the right idea. I can think of a number of 
ways we could use some of the new technologies, web-based 
technologies, table top exercises and maybe even a private 
sector intermediary to help with some of the filtering.
    We are in a biological arms race with our future attackers, 
and there are specific targets we should be going after. I 
completely agree with the priority for anthrax and smallpox. 
That makes sense to me. I must say it is pretty hard for people 
outside the Government to figure out what the priority list is 
below that. We have the long list of 20 or 30 agents, but the 
Government's own thinking about the rank order of what comes 
after smallpox and anthrax for civilians in particular is 
obscure. And it seems to me while it might require some defense 
of that ranking and that might be a little bit difficult, that 
it should be transparent so the private sector can set 
priorities.
    Sooner or later, despite our efforts to make good specific 
countermeasures, a clever or lucky perpetrator may deploy an 
agent for which we have not made specific preparations. And 
this calls for the notion of some kind of broader approach. We 
may need broad spectrum antimicrobials or vaccines, as has been 
mentioned. We may need to harness the nonspecific defenses 
already working in human biology like innate immunity. We may 
need to build systems, still very speculative, that you could 
move from obtaining the pathogen to having a drug in a very 
short time period. And all of those are worth stimulating some 
kind of prize or novel recognition and financial reward for 
some of these more speculative approaches. It might be very 
useful. I compare it to the X-prize for manned space flight 
that was successfully competed for and won in the last year.
    If we want to think about this broadly and in the long time 
frame which is really appropriate, a 2030, maybe even longer 
time horizon, we should be looking broadly. One idea I would 
like to suggest as an example, it should be studied before 
moving forward, would be to think about a survey of the 
microbial world on a scale that has not been attempted. Just as 
we carry out ambitious projects to systematically catalog the 
sky within reach of our light and radio telescopes, maybe it is 
time to carry out a planetary scale survey of humans and the 
microorganisms with which we frequently interact. We might want 
to begin by focusing on the respiratory tract.

                           PREPARED STATEMENT

    There is technology available. I cite a remarkable 
experiment by Craig Venter's group in which they obtained 
sequences for over a million new genes by looking at 1,500 
liters of Atlantic seawater. A company called Affy Metrix has 
gene chips that have been used to study which organisms are 
present in nasal swabs taken from approximately 10,000 subjects 
in studies. So it is possible now with some of the technology 
to think about such a broad survey. Not only could it provide 
us a baseline for measurement of new emerging infections by 
intent or by nature, but the basic science that would be 
enabled by this survey could provide more fundamental 
understandings to help us deal with the general problem.
    Thank you very much, Mr. Chairman.
    [The statement follows:]

              Prepared Statement of J. Leighton Read, M.D.

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today regarding BioShield and our Nation's 
strategy for confronting bioterrorism. Your interest in stopping to 
consider our overall approach is timely and appropriate.
    I am commenting today as an individual who has been building and 
financing biotechnology companies in Silicon Valley for over 17 years. 
Before that, I was an internal medicine doctor doing research on the 
cost, risk and benefits of new medicines and vaccines. On receiving 
your invitation to appear here, I looked up my testimony on biodefense 
for the Senate Governmental Affairs Committee \1\ in 2002 and for 
Subcommittees of the House Energy and Commerce Committee \2\ in 2003.
---------------------------------------------------------------------------
    \1\ http://www.bens.org/highlights_testimony_read.html.
    \2\ http://www.bio.org/healthcare/biodefense/20030327.asp.
---------------------------------------------------------------------------
    Unfortunately, the concerns and recommendations voiced then are as 
just as relevant today as they were when the Department of Homeland 
Security and Project BioShield were still on the drawing board. Since 
those remarks are available on the internet, I will only restate the 
main points here before turning to new thoughts.
Long Term Thinking
    Biodefense is a gigantic, long-term problem. There is no potential 
threat to our economy or lifestyle that would be as easy to deploy or 
costly to contain as the release of a transmissible bioweapon. We 
should be clear that deliberate introduction of an agent that spreads 
from person to person is a completely different category of risk than 
an attack with dangerous organisms that do not spread. This is because 
our reasonable efforts to interrupt the chain of transmission would 
interfere with travel and commerce of all kinds, including distribution 
of food and medical supplies, and importantly, the freedom for people 
to meet each other in a time of grave worry and political consequence. 
Effective quarantine separating loved ones will profoundly test our 
trust in government authority.
    Despite a great deal of positive work, we are not yet organized to 
deal with this threat. Much remains to be done in educating the public 
and strengthening traditional public health systems and our first 
responders. Fortunately, much of this kind of work can be accomplished 
in only a few years of sustained effort. That is not the case for the 
longest lead-time components of our readiness: medicines, vaccines and 
other biomedical technologies needed to protect our population and that 
of our trading partners. For drugs against viruses or bacteria, it 
takes 5-10 years from commitment to delivery of medicine for patients. 
The process for vaccines typically takes 10-20 years. In 1995, a 
company I founded, named Aviron, licensed a promising intranasal 
influenza vaccine from the University of Michigan that had already 
undergone 20 years of clinical testing by the NIH. It took nine more 
years and over $1 billion in private investment by three companies 
before the product known as FluMist <SUP>TM</SUP> was approved by the 
FDA. Despite these timelines and costs, some pathogens are such natural 
candidates for potential abuse well into the foreseeable future that we 
must begin work now. It is important to seize this opportunity because 
infectious diseases represent some of our greatest triumphs in 
discovering, preventing and treating disease.
Larger, More Capable Companies must be Involved
    This work will require enthusiastic and committed engagement by our 
country's most capable pharmaceutical and biotechnology companies. All 
of the drugs and vaccines in use in the United States come from the 
private sector, often after substantial public investment in government 
and university laboratories. Start-ups and smaller companies play an 
essential role in taking on many higher-risk projects and demonstrating 
proof of principle. Larger players gain access to these technologies 
through licensing deals or purchase of the smaller companies. Several 
hundred million dollars of private capital and down-stream development 
skills rarely found outside of larger companies are usually required to 
finish the job for each important innovation. When R&D is successful, 
this investment makes sense because innovative products that address 
substantial medical need are reimbursed at the high value they 
represent to patients and healthcare payers.
    The experience factor is so important that a biodefense procurement 
strategy that relies on companies with scant experience in launching 
commercial products is likely to incur extra delays and other down-side 
surprises. Yet this appears to be exactly where we are heading with 
BioShield because the market incentives are not yet in place to attract 
the most capable innovators.
    The missing ingredients for biodefense countermeasures are markets 
which mimic the size and predictability of markets for treatment and 
prevention of other serious diseases. The current BioShield law 
provided an important step in the right direction, but it fails to 
adequately signal the Government's intention to purchase successful 
countermeasures that are still years away from completion. There is 
much to be learned from progress in defining Advanced Purchase 
Contracts and related ``pull'' mechanisms for stimulating vaccine R&D 
against global health targets such as malaria., tuberculosis and HIV. 
Restoration of patent term lost during regulatory review will be 
helpful. Important gaps still remain in the details and degree of 
indemnification from product liability. Larger, more capable companies 
will not participate unless these problems are addressed in future 
legislation.

Streamline Procurement and Improve the Dialogue With Industry
    It is time to finish the job of re-inventing procurement of 
biodefense countermeasures. The bureaucratic tangle of approvals and 
sign-offs involving multiple agencies and departments (even including 
the President) prescribed in BioShield must be streamlined. Spending 
authority should be concentrated in the hands of someone close to the 
intelligence analysis which helps set priorities.
    It is essential that much more frequent and transparent 
conversation occur between companies and those setting the priorities 
for countermeasures. The formal process of RFPs and related acronyms 
cannot substitute for frequent, informal contact. Novel formats for 
meetings, including more table-top exercises web-based interactions 
should be encouraged. Antitrust relief may be required if these 
concerns are inhibiting valuable multiparty conversations.
    BioShield did not adequately address the need for more 
centralization of authority for setting priorities, funding solutions, 
and managing incentives. There is a recurring theme in my conversations 
with executives interested in making a contribution to biodefense: they 
can't find the right person in the government who knows the issues AND 
can make a decision. This more centralized authority should also have 
enhanced ability to adjust FDA influence processes and safety standards 
in preparing for high-risk threats.

A Biological Arms Race
    One can identify the highest risk agents for the near and 
intermediate time frame, based on the biology of the microbes, the 
technical challenges faced by our potential attackers and intelligence 
data. These agents are presumably at the top of the priority list for 
BioShield, although it is hard to get clarity about which of a dozen 
potential threats rank most highly after anthrax and smallpox. There 
are at least a dozen agents that deserve serious countermeasure 
investment.
    Sooner or later, however, a clever or lucky perpetrator may deploy 
an agent for which we have not make specific preparations. It may have 
been derived from nature, cultivated in the laboratory, or engineered 
to have novel drug resistance or host range. There are several paths to 
get ready for this event. One is to seek broader spectrum antimicrobial 
drugs or vaccines. While there are examples of such agents discovered 
by accident, the rational design of broad spectrum countermeasures is 
largely beyond our current capabilities. Another path is to harness and 
enhance the non-specific defenses already available in human biology. 
We are still early in our understanding of how to manipulate innate 
immunity and the role of cellular factors such as interferon. Finally, 
highly speculative processes have been proposed by which one could move 
from knowledge of a new pathogen to a new treatment in a month, or a 
week, or a day. Technologies such as antisense agents and interfering 
RNAs may hold promise for such a goal.
    Our biodefense strategy must include a mix of disease-specific 
countermeasures and new technologies which offer more general treatment 
or prevention. I am concerned that getting the right mix depends on the 
quality of the dialogue among companies and the diverse government 
agencies that are involved. A high level of transparency on priorities 
and authority will be essential before the parties can effectively 
explore technical risk and financial incentives needed to get the job 
done. For some of the more aggressive goals, serious prizes, such as 
the X-prize for manned space flight may be the most appropriate way to 
focus innovator's attention.

The Basic Science of Biodefense
    Our country has made and continues to make a large national 
investment in the underlying science of infectious disease and host 
defense. This effort is serving us well in many current biodefense 
efforts. In many cases, adequate financial rewards for the final 
product will provide incentives to develop new research tools along the 
way. In other cases, and particularly, animal models it is more 
efficient to have centralized research tools that can be shared by many 
innovators. When the government has the keys to scarce resources needed 
to carry out research, such as higher level biocontainment facilities, 
or access to dangerous strains, it is essential that access be 
facilitated for all who need them in pursuit of sanctioned goals.
    It may be time to consider an even bolder investment in basic 
understanding of the relationship between humans and microbes. Research 
is giving us a growing appreciation of the interdependency of genetics 
and environment, with particular emphasis on the environmental 
interaction of unrelated, but physically proximal organisms. Technology 
is now available to conduct a broad survey of microorganism diversity, 
genetics and metabolism A few projects have demonstrated the 
feasibility of collecting and analyzing data on a very large number of 
organisms. One example is Craig Venter's report on a rapid genetic 
sequencing technique that found evidence of 1.2 million new genes in 
1,500 liters of Atlantic seawater. Another comes from a company called 
Affymetrix whose gene chips have been used to identify which organisms 
are present in nasal swabs taken from thousands of study subjects.
    Just as we have carried out ambitious projects to systematically 
catalogue all of the heavenly bodies within reach of our telescopes, it 
may be time to carry out a planetary-scale survey of humans and the 
microorganisms with which they frequently interact. A focus on agents 
which colonize or infect the respiratory track might be the best place 
to begin. Data from such a survey could serve as a baseline for 
detecting introduction of novel threats. More importantly, analysis of 
the data could lead to more fundamental understanding of how to create 
robust protection against such threats.
    Mr. Chairman, I know that you have recently introduced legislation 
that would address many of the concerns mentioned here. Thank you for 
your leadership on this issue and your persistence in asking whether we 
are doing enough of the right things at the right time. I would be 
happy to provide further comment if you have questions.

    Senator Gregg. Thank you.
    I have to recess. I have got to make a quick phone call. I 
will be right back. It should not take more than 5 minutes.
    Thank you for your courtesy. I apologize for the 
interruption.
    Mr. Clerici.

STATEMENT OF JOHN M. CLERICI, ESQ., PARTNER, McKENNA, 
            LONG & ALDRIDGE, LLP
    Mr. Clerici. Thank you, Mr. Chairman. Mr. Chairman, members 
of this subcommittee, it is an honor to testify before you 
regarding my views of where we are with Project BioShield and 
biodefense in general. I applaud the leadership of you, Mr. 
Chairman Gregg, in your work on the Health Committee and being 
the lead sponsor on BioShield I, and also applaud the 
bipartisan leadership of Senator Lieberman and Senator Hatch, 
and Senator Kennedy, obviously, took a great leadership role in 
that effort and continue to be leaders on the issue of 
biodefense.
    Over the last few years, I have had the chance to 
personally work with the Department of Health and Human 
Services on behalf of a number of clients and entities not only 
in the area of biodefense, but also emerging infectious 
disease. We have negotiated contracts, some of which Assistant 
Secretary Simonson referred to, for SARS, avian flu, pandemic 
influenza planning, and other issues.
    Based upon that experience, it is clear to me that HHS does 
need additional tools beyond what was provided in BioShield to 
get the goals accomplished that the legislation meant to 
accomplish. Primary and first among those goals, as Dr. Read 
has pointed out, is to address the issue of liability.
    As we have begun to purchase these countermeasures slowly 
and there have been a couple contracts let to date, as 
Assistant Secretary Simonson said, and a few more on the way 
shortly, the primary obstacle at the end of the day to getting 
these deals done is addressing how liability concerns will be 
addressed. Certainly, as Dr. Read just pointed out, the 
liability concerns of a public company with shareholders and 
large assets are much different than a small biotech which has 
the ability to bet the company without worrying about 
liability. And I am not sure those are the types of companies 
we want necessarily participating or leading the way in this 
effort to bring these countermeasures to market.
    Today, there are two primary ways liability can be 
addressed. Public Law 85-804 has been on the books since the 
first Wars Powers Act during World War II, and it allows the 
Government to indemnify contractors after award, only after 
award, for risks that are deemed in the national security 
interest. It is an indemnity contract. Therefore, the public is 
at risk, and I know in your role as budget chairman is of great 
concern to you as well, Senator. But unfortunately, it provides 
no predictability because you do not know whether you are going 
to get liability protection until after you bid on the 
proposal, negotiated a contract, and are prepared to deliver. 
It provides no certainty to industry and no transparency to 
industry to plan.
    The second mechanism has been pointed to is the SAFETY Act, 
and I am very familiar with the operations of the SAFETY Act. 
It is a piece of landmark legislation to address the tort 
concerns of providers of Homeland Security goods and services 
in general. It does not work particularly well for 
countermeasures for two primary reasons.
    First, the SAFETY Act has a gap in it that does not protect 
vaccine manufacturers because the liabilities removed by the 
SAFETY Act are only those that occur following an act of 
terrorism. Most of the liability concerns of a vaccine 
manufacturer are, of course, before anything has happened. It 
is in the administration of the vaccine itself.
    Second, much like with Public Law 85-804, it is an 
application process, and there is lack of predictability 
involved with the SAFETY Act. And currently there are less than 
20 companies that have been certified under the Act and no 
biodefense measures or pharmaceutical companies are among 
those.
    The SAFETY Act also requires a company to litigate all over 
the country to exert what amounts to an affirmative defense to 
get out of litigation. Therefore, there are still substantial 
uncertainty subject to the judicial system in America, which is 
obviously not something that anyone wants to be their company 
on sometimes.
    I note in your bill, Senator, in Senate bill 3, you have 
done an excellent job of addressing, in my view, the liability 
concerns for biodefense manufacturers, and you also attempt to 
address the liability concerns of pandemic flu manufacturers. 
As we heard during the previous panel, the threat facing the 
country from a pandemic flu is much greater in my mind than the 
threat facing the country in bioterrorism, and that threat is 
enormous, as you know. The 1918 influenza pandemic, Spanish flu 
pandemic, killed millions of Americans, and unless we are 
prepared for that pandemic, we will be facing those same sort 
of liabilities both in terms of lives and in dollars if another 
influenza pandemic occurs again.
    The reason why pandemic influenza should be treated off 
line in my view is the sense of urgency. No amount of 
detection, no amount of intervention, and we can have the 
biggest armies and navies in the world, are going to prevent 
mother nature from affecting us. And this is urgent. We are 
past the time when this country and this world should be facing 
a pandemic based on statistics.
    The threat of pandemic liability is much like the threat of 
smallpox in the sense that if there is a pandemic, you will 
need to vaccinate the entire Nation. And your previous 
committee, the Health Committee, and through the Homeland 
Security Act, addressed the liability for smallpox vaccine 
manufacturers particularly by providing them immunity. We need 
to provide at least the same sense of liability protection to 
providers of pandemic flu vaccine because the threat from 
liability is identical, if not greater than the threat of 
liability from a smallpox vaccine manufacturer.
    Your staff has also asked me, Senator, to address some of 
the challenges in the implementation of the procurement 
provisions of BioShield, aside from liability, and liability is 
certainly first among them again.
    As Dr. Read has mentioned, the Department, in implementing 
Project BioShield, has not taken full advantage of all of the 
authorities that Project BioShield gave them back in 2004 when 
the legislation was signed. They have the ability at HHS to 
conduct these procurements under simplified acquisition rules. 
They have not exercised that authority to date. What has 
transpired through these negotiations is nongovernmental 
contractors, commercial entities, that are not used to doing 
business with the Federal Government are subject to the same 
amount of Federal acquisition regulation that our large defense 
contractors are subject to in providing these goods and 
services. That causes them both delay, uncertainty, a lack of 
transparency in what they are signing up to, and the delays 
resulted have been definitely inhibiting our ability to bring 
these countermeasures into the market as quickly as possible.
    We have discussed already there have been two awards to 
date, primarily big awards. There is a third smaller award 
addressing irradiation treatment for children, but two large 
awards using the special reserve fund under Project BioShield, 
one large award and one RFP pending, one award pending.
    The first award went to VaxGen which has already been 
discussed. Although that is often labeled as the first 
BioShield procurement, I would disagree with that 
characterization. It is the first procurement using BioShield 
funding, but the mechanisms to procure that countermeasure was 
done the same traditional way the Government would normally 
procure things. It was a multi-stage procurement, taxpayer-
funded research and development resulting in, at the end of the 
day, a contract that as Secretary Simonson says, will not be 
paid until substantial delivery but, nevertheless, is a multi-
stage, prolonged procurement. We did not set a market or set 
someone to guarantee it. Rather we had them chase the market 
just as if they would traditionally.
    The next award up in Project BioShield will most likely be 
for anthrax therapeutic, and Secretary Simonson mentioned that 
as well. Now, that will be the very first BioShield 
procurement, but again, HHS has not made use, in the 
solicitation at least, of the simplified acquisition procedures 
allowed to make use of it during that process.
    As a result, those contractors, whoever will get this 
award, face the possibility of very powerful and strong 
regulatory burdens upon them, including certified cost and 
pricing data and other burdens that have led this award to take 
over a year at this point from award. The request for 
information for anthrax therapeutics was issued on April 1, 
2004, and I believe we are at least 2 months away from award 
for that contract. So these pharmaceuticals and these vaccines 
are not entering the stockpile at the rate I think Congress 
intended.

                          PREPARED STATEMENTS

    Going forward, we can certainly do oversight to make sure 
that HHS and DHS work closely together to make better use of 
the authorities that BioShield I provided them. We can also, 
through BioShield II or other legislation such as Senate bill 
S. 3, provide additional tools such as liability reform and 
encouragement to make clear these contracts are not to be 
burden by over-regulation.
    I look forward to your questions. Thank you very much.
    [The statements follow:]

                 Prepared Statement of John M. Clerici

    Chairman Gregg, Senator Byrd, and Members of the Committee, it is 
an honor for me to testify before you today regarding my views on the 
Project Bioshield Act of 2004 and whether we are meeting the biodefense 
needs of the United States.
    I appear before you today as someone who has worked with industries 
helping to supply the United States with critical biodefense, chemical, 
radiological, and nuclear countermeasures since even before the attacks 
of 2001. During this time, I have worked with a number of large 
pharmaceutical companies, mid and small size biotechs, and companies 
that provide detection equipment and other ancillary services to help 
protect the Nation from the threat of biological, chemical, nuclear, or 
radiological weapons. I also have had the opportunity to work with 
Congress and the Administration to help formulate policies to stimulate 
the creation of a thriving bio-defense industry in America. I and other 
members of our firm have provided testimony to both the House and 
Senate regarding the Project Bioshield Act of 2004 and we continue to 
work closely with your staff, Mr. Chairman, and the staff of other 
leaders in this area, including Senator Lieberman, Senator Kennedy, 
Senator Burr, and Senator Enzi, to ensure the best possible policies 
are in place to promote the deployment of the best possible 
countermeasures in this critical area.
    During the last 3 years, I have been personally involved with a 
number of direct negotiations with the Department of Health and Human 
Services (HHS) for a number of critical biodefense countermeasures, as 
well as negotiations for contracts for critical vaccines for emerging 
infectious disease such as SARS, Avian influenza, and pandemic 
influenza. That said, it is my view, and I believe the view of many 
others in this industry, that HHS should be given additional tools to 
maximize participation of the entities that are best suited to provide 
critical countermeasures.
    First among these additional tools must be expanded authority to 
address the issue of unmitigated liability associated with undertaking 
Bioshield contracts.

Liability Must be Addressed to Have a Successful Bio-Defense Industry
    Industry concerns over the massive cost of product liability 
lawsuits are preventing critical countermeasures from being developed 
for the Strategic National Stockpile (SNS). The liability concerns of a 
company engaged in day-to-day drug development are clearly different 
from the liability concerns of a company participating in Project 
Bioshield. Manufacturers of countermeasures produced under Project 
Bioshield risk exposure to devastating product liability lawsuits to a 
far greater degree than typical drug companies. Safety and efficacy 
data must be derived, for the most part, from animal trials since 
healthy humans cannot be exposed to toxic agents during testing. Thus, 
these critical countermeasures must be developed and are likely to be 
deployed without the full battery of testing typical of other drugs. 
Without liability protections, responsible companies will remain on the 
sidelines for fear of risking corporate assets to defend lawsuits 
brought as a result of producing a countermeasure that generally has a 
much lower profit margin than a typical pharmaceutical product.
    Even as the Federal Government has begun to purchase Bioshield 
countermeasures, it has no current way to resolve issues of liability 
with any degree of certainty. As a result, needed countermeasures are 
not being developed and deployed, thereby exposing the economy, and the 
Nation as a whole, to far greater potential liability due to the lack 
of available effective countermeasures in the event of attack. Either 
way, the Federal Government is likely to bear both the human and 
financial cost of such an attack as it did on September 11th. By 
failing to account for these costs before an attack, countermeasures 
will not be developed and the Nation will be more exposed to attack.
    Senate Bill 3 attempts to address these liability concerns for not 
only terrorism, but also countermeasures developed and deployed to 
protect the United States against naturally occurring epidemics such as 
SARS and pandemics such as Avian influenza. These epidemics and 
pandemics have the potential to be even more costly in terms of lives 
and dollars than even the worst terrorist attack. By addressing the 
issue of liability before an event occurs, we are not only assuring 
that needed countermeasures are developed, but also, being fiscally 
responsible by mitigating at the least economic cost of such a tragedy 
and reducing the cost of needless litigation.
    While the similarities between the public health threats of bio-
defense and infectious disease are obvious, I would strongly urge 
Congress to consider--and act upon--liability protections that are 
necessary to bring a pandemic influenza vaccine to market as quickly as 
possible. The dangers of a pandemic are real and immediate. Should the 
Nation face a pandemic similar to the one it faced in 1918 and 1919 
with the Spanish flu, millions of American are certain to die. While I 
do believe Senate Bill 3 provides adequate protections to stimulate the 
creation of a bio-defense industry, it is inadequate to protect 
providers of pandemic vaccine given that the response to such an event 
would be to quickly vaccinate nearly 300 million Americans. Thus, the 
response to a pandemic is similar to--and perhaps, far broader than--
the response to a potential outbreak of smallpox. For this reason, the 
liability protections provided for a pandemic influenza vaccine 
provider must be at least as strong as those protections given to 
providers of smallpox vaccine under the Homeland Security Act of 2002.
    Under the Homeland Security Act of 2002, manufactures, suppliers 
and administrators of smallpox vaccine are immune from any and all 
liability resulting from the administration of the vaccine during a 
declared emergency. These protections provide the certainty necessary 
to ensure the Nation has an adequate supply of smallpox vaccine in the 
event of an attack. While there are several improvements that should be 
made to this legislation to ensure health care workers are properly 
compensated, these same types of protections must be extended to 
providers of pandemic influenza vaccine.
Available Liability Mitigation Tools are Inadequate
    Under current law, there are currently only two legal authorities 
that allow the Federal Government to mitigate the liability concerns 
for providers of countermeasures other than smallpox vaccine--through 
Federal indemnification under Public Law 85-804 and through 
designation/certification under the SAFETY Act. Both measures are 
inadequate to address the practical realities of potential litigation 
facing the providers of countermeasures and the fiscal realities facing 
the Federal Government
    Public Law 85-804 grants the President an extremely broad authority 
to allow a Federal Government contractor to obtain financial or other 
forms of relief under certain circumstances, even when the government 
may have no express legal obligation to grant such relief, or when 
there are express prohibitions against such relief contained in other 
statutes, regulations, or common law. Under this authority, the heads 
of designated departments or agencies have the discretionary power to 
provide contractors with government indemnity when they are engaged in 
``unusually hazardous'' activities and when it is in the interest of 
the national defense to provide such indemnity.
    Indemnification under Public Law 85-804 relies upon the American 
tort system and places the Federal Government in the position of an 
insurer--where payments are made only after all claims have been 
adjudicated in the court system and judgments have been rendered. This 
rather lengthy process does not result in compensation to victims being 
paid in a timely manner nor does it place any effective limits on the 
Federal Government's potential payments to victims when it acts in this 
capacity.
    Although this authority has been invoked by the Department of 
Health and Human Services (which was first granted the authority in 
October 2001 following the anthrax attacks) in agreements involving the 
donation of smallpox vaccine by Wyeth and Aventis Pasteur to the 
Federal Government in 2001, HHS will only address the issue of 
indemnification prior to the award of a contract for a countermeasure. 
As a result, potential providers of countermeasures must expend scarce 
resources to prepare and submit a proposal that may result in a 
contract that cannot be accepted due to the lack of liability 
protections should HHS ultimately refuse to provide indemnification. 
More often, companies simply refuse to bid at all due to the lack of 
certainty on the issue of liability. This has resulted in the largest, 
and far more experienced, drug companies with the necessary expertise 
to address this threat being left on the sidelines.
    Moreover, HHS and OMB have taken the position that indemnification 
under Public Law 85-804 cannot be granted to protect suppliers of 
pandemic influenza vaccine since there is not an immediate connection 
to national security. This extremely narrow view of what constitutes 
``national security'' ignores the implications that our troops 
stationed in Southwest Asia (which is currently facing a potential 
Avian Flu epidemic), it also ignores the national security implications 
of having millions of America perish in a pandemic. Thus, Congress must 
address this issue immediately to ensure the Nation is fully prepared.
    Congress did attempt to address the issue of liability associated 
with antiterrorism goods and services with the passage of the SAFETY 
Act in November 2002. The SAFETY Act does, in fact, provide significant 
protections to providers of countermeasures that receive certification 
under the Act. However, to date, no such certifications have been 
granted for bio-defense countermeasures. In addition, there are 
specific limitations upon the effectiveness of the SAFETY Act for 
providers of countermeasures under Project Bioshield.
    Section 865(1) of the SAFETY Act notes that qualified anti-
terrorism technologies may include technologies deployed for the 
purpose of ``limiting the harm such acts [of terrorism] might otherwise 
cause.'' The ``harm'' that may be caused by an act of terrorism clearly 
goes beyond the immediate effects of the Act itself. An act of 
terrorism such as the attacks of September 11th or the October 2001 
anthrax attacks trigger a number of immediate remedial and emergency 
responses to limit the resulting harm and deter follow-on attacks.
    While the SAFETY Act can provide signification protections to a 
company, its application in the context of countermeasures is extremely 
limited. Most significantly, the potential liability of a provider of 
anti-terrorist technologies that may allegedly cause injury PRIOR to a 
terrorist attack, such as a vaccine, are not currently addressed by the 
SAFETY Act. This limitation of the SAFETY Act leaves providers of anti-
terrorism vaccines without any adequate projections aside from the 
possibility of Federal indemnification.
    Moreover, SAFETY Act certification is most inadequate to provide 
the type of protections required for large companies to enter the 
market for countermeasures. Holders of SAFETY Act certification are 
still faced with the possibility of hundreds of lawsuits brought 
against them throughout the country, albeit in Federal court. Since the 
SAFETY Act protections must be asserted as an affirmative defense to 
any lawsuit, the unpredictability of the American judicial system still 
places providers of countermeasures with a large degree of uncertainty 
regarding potential liability. This uncertainty, coupled with the 
``gap'' in the SAFETY Act for vaccine providers and the cumbersome 
nature of the application process to receive SAFETY Act certification 
makes it an inadequate protection for providers of countermeasures 
under Project Bioshield.
    For all of these reasons, Congress should equip HHS with the 
adequate tools to address liability concerns that are inhibiting the 
development and deployment of critical countermeasures as soon as 
possible. More over, it is in the best interests of the United States 
that Congress act immediately to extend the same types of protections 
afforded to providers of smallpox vaccine to providers of pandemic 
influenza vaccine to ensure an adequate response to the certain public 
health crisis an influenza pandemic will cause the United States unless 
we are adequately prepared.
Additional Regulatory Relief for Providers of Countermeasures is Needed
    The Project Bioshield Act of 2004 makes great strides to reduce 
many of the regulatory burdens that are obstacles to allowing companies 
that do not traditionally sell the Federal Government to participate in 
the development of needed countermeasures. Based upon the experience of 
industry during the first procurements conducted Bioshield, more can be 
done to reduce the amount unnecessarily burdensome regulations. To 
date, industry reaction to Bioshield has been muted, partly because of 
initial implementation challenges and partly because the scope and 
incentives of Bioshield are too limited to attract serious attention 
from investors, including venture capitalists, institutional investors, 
or manufacturers that are needed to grow the biodefense industry.
    It is important to examine the first actions HHS has taken under 
the Project Bioshield to understand the challenges in implementing the 
statute, as well as the need for additional procurement reforms.
    On October 26, 2004, HHS received the first proposals to provide 
therapeutic products for treatment of inhalational anthrax disease in 
response to Solicitation No. 2004-N-01385 (the ``Anthrax Therapeutics 
Solicitation'') under what was the first, true, Project Bioshield 
procurement. Just over 2 weeks later, on November 4, 2004, VaxGen, Inc. 
(``VaxGen'') received an award of a large contract to produce an 
experimental recombinant protective antigen anthrax vaccine (``rPA'').
    While this award to VaxGen was the first countermeasure contract 
funded from Bioshield's Special Reserve Fund, this was not a true 
Bioshield procurement. In fact, all of the research and development for 
this countermeasure was funded at the taxpayer's expense through the 
National Institute for Allergy and Infectious Disease under two earlier 
awards totaling over $200 million. Unlike the goals of Bioshield to 
create a market to encourage private investment, the first award funded 
by Bioshield was a very typical, multi-stage, Federal procurement fully 
funded at the taxpayer's expense, without utilizing any of the unique 
authorities Congress provided to HHS under Project Bioshield.
    The first Bioshield procurement for Anthrax therapeutics 
solicitation is for the acquisition and maintenance within the SNS of 
therapeutic products to treat U.S. civilians who have inhalational 
anthrax disease. The Anthrax therapeutics solicitation contemplates 
that the awarded contract(s) will be for 10 grams of an investigational 
new drug (``IND'') for use in testing. The actual manufacture of 
anthrax therapeutic product is an optional contract line item, which 
the government may decide to exercise within 12 months from the date of 
contract award and after the government reviews and approves the test 
sample. However, while this procurement could have utilized the 
streamlined procurement provisions provided under Project Bioshield, 
the solicitation includes numerous provisions of the Federal 
Acquisition Regulation (``FAR'') and other detailed requirements for 
bidders, including detailed rules governing the methods of preparing 
pricing for the proposal.
    This initial Bioshield solicitation was curious in three ways. 
First, the way the solicitation structures the options in the contract 
fall short of the Congressional intent of the Act to provide for a 
commitment to recommend funding for production for the SNS as 
contemplated by Project Bioshield. Contrary to the intent of the Act, 
HHS has not committed to recommend exercise of the options for 
production quantities of the countermeasure upon successful development 
of the countermeasure. Such a commitment would help to advance the 
Act's purpose of promoting the development of a biodefense industry by 
informing the markets that there is some certainty that there will be a 
government market for the product. Second, as noted above, the 
solicitation failed to use the simplified acquisition authorities that 
Bioshield makes available to the government, which would have permitted 
far fewer bidding requirements. Third, the solicitation makes IND 
status an absolute criteria for award of the contract. This has been 
criticized as unduly--restricting the ability of companies with 
promising technologies that have not yet reached IND, FDP status from 
competing.
    Unlike the Anthrax therapeutics solicitation, the VaxGen 
solicitation did not suffer from a lack of commitment to production 
quantities. The scope of work for the rPA contract requires VaxGen to 
manufacture and deliver to the SNS 75 million doses of experimental 
(and non-FDA approved) rPA vaccine in pre-filled syringes along with 
safety needles (with a minimum of 25 million doses delivered within two 
years of contract award). The contract also requires a variety of 
ancillary commitments by VaxGen related to testing and licensing.
    The VaxGen contract is valued at $877.5 million, representing 
approximately 15 percent of the amounts appropriated for Project 
Bioshield for the next 10 years. The contract provides for payments to 
VaxGen of $754 million in advance of the following milestones: (1) 
approval of a Biologics License Application (``BLA'') for general use 
prophylaxis, (2) approval of a BLA for post exposure prophylaxis; and 
(3) demonstration of 18 months of real time stability in pre-filled 
syringes. When and if these milestones are accomplished, VaxGen will 
receive specified per dose price supplements.
    There are three main criticisms of the VaxGen contract. First, it 
appears that, as with the Anthrax therapeutics solicitation, HHS 
elected not to use simplified acquisition procedures in awarding the 
contract. Second, despite the availability of an FDA licensed competing 
vaccine technology, HHS restricted the competition for the contract to 
firms that produced rPA-based vaccines, which have not been advanced 
beyond early testing in the regulatory approval process. This has made 
the government and the Nation's security against anthrax attacks highly 
dependent on an early stage, unproven technology. Third, the government 
awarded the contract to a single vendor, thereby making the Nation's 
security against such attacks dependent on this single vendor.
Proposed Implementation Improvements
    HHS can take several steps to implement Bioshield to increase 
industry participation. To fully realize the legislative intent of the 
law, HHS should enact regulations required under the Project Bioshield 
Act that take into account the following issues:
  --Specify that Project Bioshield Act procurements include only those 
        FAR clauses specifically required by FAR Part 13, Simplified 
        Acquisition Procedures;
  --Fully describe how HHS and DHS will make a determination of a 
        material threat and the other determinations required by the 
        Project Bioshield Act;
  --Provide for determinations of the order in which the government 
        plans to procure countermeasures;
  --Require HHS to specify a firm number of doses or courses of 
        treatment in the call for countermeasures stage;
  --Provide for industry participation in market surveys undertaken 
        during the assessment of the availability and appropriateness 
        of countermeasures stage;
  --Provide critical suppliers of needed medical countermeasures annual 
        ``warm base'' funding to ensure that the U.S. Government will 
        have continued access to those products following any 
        procurement contract;
  --Provide that multiple products manufactured by multiple suppliers 
        using multiple technologies be procured where practicable to 
        avoid undue dependence on any single supplier or single 
        technology;
  --Provide that countermeasures that are already licensed by the Food 
        and Drug Administration should where possible be purchased 
        under Project Bioshield; and
  --Provide for the appropriate use of HHS' ``Other Transaction'' 
        Authority in procurements under Sections 2 and 3 of the Project 
        Bioshield Act, in accordance with the authority provided to HHS 
        by Title XVI of the fiscal year 2004 Defense Authorization Act.
    Also, as required by Section 319F-2(c)(4)(C)(ii) of the Public 
Health Act, HHS should, in a call for bio-terrorism countermeasures, 
provide industry with an estimate of the quantities of a countermeasure 
(in the form of number of doses or number of effective courses of 
treatment) that HHS intends to procure upon development of a 
countermeasure that meets the statutory criteria. Providing industry 
with wide ranges of potential requirements for a countermeasure, as HHS 
did in the Anthrax therapeutics solicitation, does not serve the 
statutory purpose of promoting the development of a biodefense industry 
because it introduces additional uncertainty about the size of the 
government market for the countermeasure.
    HHS and the Department of Homeland Security (``DHS'') should 
provide industry with information concerning the implementation of the 
Project Bioshield Act. For example, HHS and DHS should provide industry 
and the public with a status report concerning the governmental 
processes required by Section 319F-2(c)(2)-(6) of the Public Health 
Act. HHS should also publish the report on the adequacy of 
biocontainment facilities required by Sec. 5(c) of the Project 
Bioshield Act. This report was due in January, and yet, has not been 
completed or provided to industry.
    Perhaps most important, DHS should inform industry of the progress 
and priority of the required threat assessments so that companies can 
make proper business decisions in their planning process. Project 
Bioshield requires that the DHS, in conjunction with the HHS, conduct a 
threat assessment to ``assess current and emerging threats of chemical, 
biological radiological, and nuclear agents; and determine which of 
such agents present a material threat against the United States 
population sufficient to affect national security'' and for which a 
countermeasure is needed. As implemented, this threat assessment must 
be conducted prior to any decision to purchase a needed countermeasure 
under the Project Bioshield.
    It is my understanding that, to date, no such assessment has been 
conducted to determine the threat of cyanide to the American people. 
Aside from cyanide's historical use as a battlefield weapon in World 
War I, this country has already suffered from terrorist attacks and 
plots using cyanide: in the 1980s, with the tampering of Tylenol; in 
2003, with the discovery of a cyanide bomb in the possession of a white 
supremacist in Texas that held enough cyanide to fatally gas everyone 
in a 30,000 sq ft facility; and, in early 2004, with the discovery by 
U.S. troops in Baghdad of a 7-pound block of cyanide salt. Moreover, 
soon after our successful liberation of Afghanistan in 2002, our forces 
discovered Al Qaeda training videos using cyanide to poison dogs and 
other animals.
    I note that in the legislative history of the Project Bioshield, a 
potential treatment for cyanide poisoning, hydroxocobalamin is 
specifically identified in the reports filed by the House Committees on 
Government Reform and Energy and Commerce. Thus, providers of this 
countermeasure are ``on hold'' pending completion of this threat 
assessment. Providing this information to industry will aid industrial 
base planning efforts and thereby promote the Project Bioshield Act's 
objective of fostering the development of a biodefense industry.
    In addition to the specific recommendations above that should be 
taken into account during regulatory process and in order to carry 
forth the initiative's legislative intent, we have several policy 
suggestions that should be considered in implementing Project 
Bioshield: HHS should keep in mind that the government's use of 
multiple countermeasure suppliers and technologies would be in the 
overall interests of public health and homeland security. As evidenced 
by the recent influenza vaccine shortage, having a diverse 
``portfolio'' of countermeasures in the strategic national stockpile 
will facilitate flexibility in responding to bioterrorism threats and 
attacks.
    First and foremost, HHS should make clear that the statute does not 
require contractors to comply with burdensome government procurement 
requirements, including the requirement for certified cost and pricing 
data, in order to stimulate the maximum interest possible by commercial 
companies. Similarly, HHS should avoid the use of cost-type contracts 
or contract line items (thus, eliminating the need for a proposed 
contractor to adopt non-GAAP accounting practices) wherever possible.
    HHS should structure Bioshield contracts to avoid a ``staged'' 
procurement approach such as that announced in the recent Anthrax 
therapeutic request for proposal, wherever possible. While we recognize 
the need for staged procurements under certain circumstances, using 
this method where HHS has conducted proper market research will avoid 
unnecessary delays and unpredictable results, thereby stimulating far 
greater private sector interest.
    Maximizing the use of these authorities, as well as enactment of 
the additional streamlined authorities identified above, will go a long 
way to ensuring the greatest possible participation in Bioshield. 
Moreover, as we have already seen in how slow the contracting process 
has been to date with Bioshield, failure to act on these procurement 
reforms will cost the Nation something that no amount of money or any 
act of Congress can ever make up for time.
    I very much appreciate the opportunity to offer testimony on this 
very important public health and anti-terrorism issue. Achieving the 
objectives of the Project Bioshield Act of 2004 and Senate Bill 3 are 
of the utmost importance to ensuring homeland and national security. 
Again, I applaud your efforts, and the efforts of President Bush and 
his Administration, and look forward to continuing our work with 
Congress and the Administration in this critical area.
    I am happy to respond to any questions you may have.
                                 ______
                                 

             Prepared Statement of the Sarnoff Corporation

    Chairman Gregg, Ranking member Byrd, Sarnoff Corporation 
appreciates the opportunity to offer testimony on ``BioShield and 
Bioterrorism.'' Sarnoff Corporation (www.sarnoff.com) produces 
innovations in information, biomedical, and electronic technology that 
generate successful new products and services for clients worldwide. 
Founded in 1942 as RCA Laboratories, Sarnoff has been serving both the 
public and private sectors to develop breakthroughs in integrated 
circuits, lasers, and imagers; drug discovery and development; digital 
TV, video for security, surveillance and entertainment; high-
performance networking; and wireless communications. Our history 
includes the development of color TV, liquid-crystal display, and the 
disposable hearing aid, as well as a leadership role in creating the 
U.S. digital television standard. With the Rosettex Technologies and 
Ventures Group (a joint venture with SRI), Sarnoff has demonstrated a 
unique ability to bring a broad range of private sector organizations 
together to accelerate technology development in the interest of the 
national security. As discussed below, we believe that these skills are 
vital to the Nation's ability to meet the bioterror threat.
    As a science and technology leader, Sarnoff recognizes the serious 
danger posed by bioterrorism and emerging infectious diseases to the 
United States. In addition to the many infectious agents already 
recognized as threats, new agents, like the SARS coronavirus and the 
avian flu continue to emerge. Moreover, the bioterrorist threat 
includes the growing potential to use biotechnology to create new, 
genetically engineered pathogens against which existing countermeasures 
are ineffective.
    To effectively secure our Nation against the threat of 
bioterrorism, in addition to developing countermeasures for all 
existing threats, it will be necessary to rapidly develop, manufacture, 
and distribute new countermeasures to treat illness and prevent further 
infections in the population for those agents we cannot predict. 
However, today it takes an average of 10 years to develop a 
countermeasure for a new agent. Clearly, this process must be 
accelerated if the entire spectrum of the biothreat, not just the set 
of currently recognized agents, is to be defeated.
    Sarnoff believes that the countermeasure development process can be 
significantly shortened with a focused effort. For this reason, we are 
highly supportive of the inclusion of the concept of ``research tools'' 
in S. 3 and other legislative efforts seeking to improve the Nation's 
biodefense. Research tools are integral to the drug and vaccine 
development process, and thus an essential focus of all efforts to 
accelerate this process. The concept of research tools includes not 
only animal models and in vitro tests, but also technologies that 
reside outside the laboratory or in computers, such as bioinformatics 
and toxicological databases and drug and disease modeling systems. In 
addition, the use of new technology and methods in the clinical setting 
and during manufacturing will have crucial roles to play in 
accelerating development. While new animal models are essential for 
approval of needed countermeasures under FDA's current Animal Rule, 
ultimately research tools will help us move beyond the existing 
regulatory system by enabling much faster, less expensive, but highly 
reliable routes to new countermeasures. The FDA's 2004 report, 
Innovation or Stagnation? The Critical Path to New Medical Products 
lays out a vision of faster translational research and improved product 
development, and calls for better research tools for determining safety 
and efficacy and new manufacturing processes.
    Determining what research tools are necessary to shorten the 
countermeasure development process is a significant challenge. Drug and 
vaccine development is extremely complicated, highly diverse, and 
multidisciplinary, involving hundreds of different types of technology 
and areas of scientific expertise. Along the pathway, roadblocks and 
time-consuming steps, often referred to as ``bottlenecks,'' are 
multiple and interconnected. We believe a systems approach is required 
to address what is essentially a complex systems problem. Research 
tools must be integrated into end-to-end systems in order to move from 
the local acceleration of the development process that is current 
practice to substantial, overall reductions in the drug development 
cycle.
    The development of research tools and research tool systems 
requires more than just scientific and technological advancements. It 
requires a well coordinated and tightly orchestrated national strategy 
designed to encourage and support creation of these systems. That 
coordinated national strategy is not yet in place.
    Further, Sarnoff believes an unprecedented public-private 
partnership will be required not only to bring new research tools and 
research tool systems into use, but also to enable their application to 
rapid development of production of life-saving countermeasures in the 
event they are needed in a national public health emergency.
    In summary, the Sarnoff Corporation thanks you, Mr. Chairman, and 
the Committee for the opportunity to submit this statement for the 
record of this important and very timely hearing. We look forward to 
working with you and your colleagues in ensuring that the threat 
bioterrorism and infectious disease pose to national security and the 
public health is adequately addressed, mitigated, and, ultimately, 
eliminated.

                      THREATS IN ORDER OF PRIORITY

    Senator Gregg. Thank you and thank all members of the panel 
for what were very informative presentations. Hopefully there 
is somebody here from HHS and Homeland Security listening to it 
besides just those of us in Congress who try to get their 
attention. I think some excellent points were made.
    Dr. Franz, you essentially seem to be attracted to the 
second approach here, which you outlined, which is to pick off 
the major threats and try to come up with ways to address those 
rather than a more global approach. You mentioned smallpox and 
anthrax as being obvious areas to start with and where we do 
appear to have started and made progress. Dr. Read said, but 
what is next, and the market does not know what is next.
    Is it possible, with your years of experience in the 
Government, to get an agreement as to what the threats are in 
order of priority for, say, the top 10 potential pathogens so 
people could predictably start to look at those, if they are in 
the scientific community, as places where they might want to 
put some resources to develop responses?
    Dr. Franz. Senator, I believe as I mentioned, there are 
clearly outliers. The two that we all agree on are well above 
many of the others in my opinion, and that is based on the 
characteristics of the organisms. I really do not know anything 
about the likelihood of their being used, but we would have 
enormous vulnerabilities to those and likewise, as the last 
speaker mentioned, influenza. I think we would have enormous 
vulnerabilities there as well.
    Senator Gregg. So should we go beyond those pathogens? 
Should we just do those three then and get ready for those?
    Dr. Franz. I think if you start into plague and tularemia 
and Q fever and even botulinum--most of my lab work was done 
back at the bench at USAMRIID before I moved into the front 
office with bot. I do not put that up as high as these others, 
and it is because of the characteristics of the organisms, how 
difficult they are to grow, how easy they are to treat, how 
stable they are in the environment and so on.
    So I think it becomes so hard and so expensive to produce 
specific countermeasures for those we do not consider outliers 
that I prefer a broad, general approach to public health for 
those, after we have dealt with the outliers. That should 
include good diagnostics, good disease surveillance, good 
epidemiology, and the same kinds of things, good education for 
our health care providers and for our citizens, the same kinds 
of things that help us in any emerging outbreak.
    So I am a believer in very specific countermeasures for 
those that are really tough to deal with and then very broad 
preparedness for those which are easier to deal with and harder 
to pick as potential threats.
    Senator Gregg. That sounds like a rational approach, and it 
is sort of the approach we are taking. Is it not?
    Dr. Franz. I think it is, and I am happy with that. In that 
regard, I am actually involved at the S&T review for DHS 
programs for Secretary McQueary's program here today, and about 
6 weeks ago, I was in Galveston to review the RCE meeting which 
is the Fauci $1.5 billion or $1.8 billion basic R&D program. 
Academe is heavily involved in both of these, and I have really 
been quite pleased with the fundamental research going on out 
there. We have some of our best scientists in the country 
stepping forward as the Nation needs them to contribute.
    As the other speakers have said and as I learned in the 
military, the hard part is transitioning that good basic 
research into the arms or into the airwaves of our citizens to 
protect them, and that is where we need the most help I think.

                            INDEMNIFICATION

    Senator Gregg. Well, the first part is good news, and the 
second part is Dr. Read's job since he is the investment guy 
here.
    You listed a whole series of points, Dr. Read, as to how we 
could create a better climate for getting people to pursue 
these and move them to commercialization, if that is the right 
term. Probably not, but at least to being used.
    Would you put indemnification at the top of that list?
    Dr. Read. Maybe because it is a non-starter without. So 
there are many important things needed to be done to enhance 
BioShield in order for it to meet the test of drawing in our 
most capable innovators into this fight. So dealing with 
product liability and indemnification is clearly going to be 
necessary to have large, capable companies join the fray.
    Senator Gregg. And next on the list would be what? The need 
to know what the targets are, targets of opportunity, so to 
say?
    Dr. Read. Well, it is nice put next because it is clear and 
somehow we ought to be able to do it. I do not understand why 
the private sector should have to guess what the Government is 
thinking about these priorities. So I would put it second for 
clarity and because we ought to be able to check that box off.
    I think one of the best ways it can be signaled is through 
the economic incentives that our public servants can send using 
the legislation and the funds available through BioShield and 
whatever improvements you are working on. The clear economic 
signals about a market, a reward at the end is by far the most 
compelling way to communicate those priorities, as opposed to a 
list. So if we knew the reward that had been created by the 
Government because it cared so much about, just for example, 
pick an agent on that list, tularemia or ebola or something, 
was twice the size of the financial incentive to succeed with a 
vaccine against another one, that would be about as clear a way 
to send those priorities as possible. And it would be 
incredibly useful not only if the reward were big enough and 
product liability were dealt with. I sincerely believe our 
largest and most capable companies would engage.
    The truth is the market signals are used all the time to 
make portfolio decisions inside large companies and small ones. 
And if the large companies are there, the small ones will be 
there, the companies I invest in, because the small companies 
often make the key early-stage contributions that enable the 
larger companies to finish the job.

                           RISK OF LIABILITY

    Senator Gregg. Which brings us to Mr. Clerici's point, 
which is that the big companies are not in there and the reason 
we have lost our vaccine industry in this country is the 
liability and the fact that the risk of liability so far 
exceeds the risk of return that there is no way to get people 
to put capital into this market.
    Do you think we need to go beyond what we have in S. 3 or 
do we have enough in there on this liability? I mean, we know 
this whole liability fight is an uphill fight in the Senate, 
period.
    Mr. Clerici. Right. The approach that you take in S. 3, 
whereby a winner of a BioShield contract is automatically 
protected from liability, so it is based on the same theories 
as the SAFETY Act, but without the same hurdles, I think would 
provide the necessary incentives for manufacturers to get into 
the biodefense market, large and small, because there at least 
would be some certainty that, assuming that you deliver, this 
liability protection is forthcoming automatically. I will put 
aside the political challenges of a system such as that which 
amounts to, more or less, tort reform rather than an 
indemnification scheme such as present with smallpox or under 
Public Law 85-804.

                     ADDITIONAL COMMITTEE QUESTIONS

    For pandemic flu, I am not sure it is going to be enough 
because the providers of that vaccine know at the end of the 
day their vaccine is going into the arms of 300 million people. 
Even under the legislation proposed in S. 3, you are still 
going to be in Federal court defending those lawsuits 
throughout the country. So the predictability of what a Federal 
judge may do with the legislation and the fact that the 
plaintiffs could certainly file litigation in every 
jurisdiction throughout the land would be problematic to those 
companies. And the companies that are primarily going to supply 
the pandemic flu vaccine are the largest of the vaccine 
manufacturers and therefore have the most shareholders and the 
most concerns, being a large public company.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Questions Submitted to Dr. Penrose C. Albright

               Questions Submitted by Senator Judd Gregg

    Question. Which Federal agency determines the bioterrorism threat 
and the Federal response to that threat?
    Answer. Homeland Security Presidential Directive 10 (HSPD-10), 
Biodefense for the 21st Century, identifies the Department of Homeland 
Security as the lead Federal agency for ``conducting threat periodic 
assessments of the evolving biological weapons threat'' and for 
``developing comprehensive plans that provide for seamless, coordinated 
Federal, State, local, and international responses to a biological 
attack.''
    Question. Under what authority is the Department of Homeland 
Security (DHS) involved in responding to bioterrorist threats?
    Answer. DHS authority to respond to bioterrorist threats traces 
originally through Section 502 of the Homeland Security Act of 2002 
which states that ``The Secretary, acting through the Under Secretary 
for Emergency Preparedness and Response, shall include  . . . (3) 
providing the Federal Government's response to terrorist attacks and 
major disasters'' and has been reaffirmed specifically for biological 
attacks in the HSPD-10 as cited previously. This role is one of 
providing overall coordination with the individual Sector Specific 
Agencies executing their legislated responsibilities, e.g. the 
Department of Health and Human Services is responsible for public 
health and the Environmental Protection Agency for decontamination.
    Question. How is a biological threat addressed once the threat has 
been determined and what avenue does DHS use to respond to that threat?
    Answer. Once a biological threat has been determined, it becomes a 
potential or actual Incident of National Significance and DHS becomes 
responsible for the overall coordination of the response. This is done 
under the framework of the National Incident Management System (NIMS) 
using the National Response Plan (NRP). The NRP provides the 
coordinating structure and mechanisms for national level policy and 
operational Federal support to state, local and tribal incident 
managers. The Homeland Security Operations Center (HSOC) serves as the 
primary national-level multi-agency situational awareness and 
coordination center. Other key coordinating mechanisms include: the 
Interagency Incident Management Group (IIMG), a senior level 
interagency group who provide strategic advice to the Secretary of DHS; 
a Joint Field Office (JFO), a temporary Federal facility established 
locally to provide a central point for Federal, State, local and tribal 
representatives responsible for incident support and coordination; and 
a Principal Federal Officer (PFO), designated by the Secretary of DHS 
to work in conjunction with other Federal officials to coordinate 
overall Federal incident management efforts. The Federal response to 
actual or potential Incidents of National Significance is typically 
provided through the full or partial activation of the Emergency 
Support Functions (ESF). The NRP applies a functional approach that 
groups the capabilities of Federal departments and agencies, as well as 
the American Red Cross, into ESFs to provide the planning, support, 
resources, program implementation, and emergency services that are most 
likely to be needed during an Incident of National Significance. Each 
ESF is composed of primary and support agencies, based on their 
authorities, resources, and capabilities.
    The NRP also includes a Biological Incident Annex, which outlines 
the actions, roles, and responsibilities associated with response to a 
disease outbreak of known or unknown origin requiring Federal 
assistance. The annex outlines biological incident response actions, 
including threat assessment notification procedures, laboratory 
testing, joint investigative/response procedures, and activities 
related to recovery. Because of its authorities, capabilities, and 
resources, the Department of Health and Human Services is the lead 
agency for the Biological Incident Annex.
    Question. What role does DHS' Science and Technology (S&T) 
Directorate play regarding research into bioterrorist threats?
    Answer. The S&T Directorate plays a major role in research into 
bioterrorist threats. The S&T Directorate is the national lead for the 
periodic assessments required by HSPD-10 under its Threat Awareness 
Pillar. These assessments include formal Risk Assessments every 2 
years, with the first due in January of 2006, and Net Assessments every 
4 years, with the first due in 2008. Under the BioShield Act of 2004, 
DHS is also responsible for making the Material Threat Determinations 
(MTDs) that inform the Department of Health and Human Services as to 
which agents are of especial concern as to warrant pursuit of medical 
countermeasures utilizing BioShield funding. To support and inform its 
assessment roles, the S&T Directorate also conducts research to improve 
the Nation's understanding of critical agent properties that might have 
a significant impact on its defense and response, e.g. the infectivity 
of agents at low doses or how long an agent survives in air, food or 
water.

    SCIENCE & TECHNOLOGY DIRECTORATE AND INTEGRATED BIOSURVEILLANCE

    Question. Can you provide the Committee an update on the status of 
Integrated Biosurveillance?
    Answer. The Information Analysis and Infrastructure Protection 
Directorate (IAIP) of DHS is implementing the National Biosurveillance 
Integration System (NBIS) to integrate biosurveillance information with 
the objective of identifying and characterizing a biological attack on 
the Nation. The NBIS implementation is closely aligned with the NBIS 
design effort that was led by the S&T Directorate in 2004, with the 
full participation of the interagency partners. Currently, IAIP is in 
the procurement process for the NBIS system.

             DEPARTMENT OF HOMELAND SECURITY AND BIOSHIELD

    Question. How does the National Biodefense Analysis and 
Countermeasures Center, or NBACC, fit into the Department's role in 
defending against a bioterrorist threat?
    Answer. The National Biodefense Analysis and Countermeasures Center 
(NBACC) is one of the Department's and the Nation's key tools in 
defending against bioterrorism. NBACC consists of two centers: the 
BioThreat Characterization Center (BTCC) and the National BioForensics 
Analysis Center (NBFAC). The BTCC is responsible for the threat 
characterization activities described previously, i.e. for conducting 
the periodic Risk Assessments required under HSPD-10 and for the 
scientific research to inform these threat assessments and support 
intelligence activities. The NBFAC, as designated under HSPD-10, is the 
lead national facility for conducting technical analysis of forensic 
materials to support attribution by the appropriate Departments and 
agencies. As such, the NBFAC is operated in close coordination with the 
Department of Justice's Federal Bureau of Investigation and with 
portions of the Intelligence Community.
    Question. Since its inception, the NBACC has received $130 million 
in Federal appropriations from various sources, beginning with work 
conducted by the Department of Defense (DOD). Given the current 
research conducted by the Army at Fort Detrick, is there any 
duplication of effort between what the Army does and what is proposed 
for the NBACC facility?
    Answer. The Department of Homeland Security (DHS) National 
Biodefense Analysis and Countermeasures Center (NBACC) and the U.S. 
Army Medical Research Institute of Infectious Diseases (USAMRIID) 
fulfill complementary but distinct missions at the Fort Detrick 
National Interagency Biodefense Campus (NIBC), where Congress has 
identified the need for Federal agencies to work collaboratively to 
address the threat of bioterrorism.
    NBACC conducts research to protect the American public by enhancing 
our scientific understanding of biological threats. This complements, 
not duplicates, USAMRIID biodefense research and development and test 
and evaluation to provide medical protections such as vaccines, drugs, 
diagnostics, and information for military service members. Unlike 
USAMRIID, NBACC does not perform research to develop medical 
countermeasures.
    NBACC threat characterization research provides a scientific basis 
to understand current and future biological threats, to assess 
vulnerabilities, and to determine potential impacts. Moreover, NBACC 
threat characterization supports DHS material threat assessment 
responsibilities under the BioShield Act.
    NBACC bioforensic research provides a national capability to 
conduct forensic analysis of bio-crimes and terrorism to attain a 
``biological fingerprint'' to identify perpetrators and determine the 
origin and method of a terrorist attack. HSPD-10 designates NBACC's 
National Bioforensic Analysis Center to be the lead Federal facility to 
conduct and facilitate forensic analysis of biological terrorism.
    Question. How does the Department address its responsibilities for 
dealing with a biological threat to our agricultural infrastructure?
    Answer. As specified in HSPD-7 (Critical Infrastructure 
Identification, Prioritization and Protection), the DHS Information 
Analysis and Infrastructure Protection Directorate (IAIP) has the lead 
DHS role for vulnerability assessments and protection of the Nation's 
critical infrastructure, and has led the inter-agency effort to develop 
a National Infrastructure Protection Plan (NIPP; sector-specific plans 
for agriculture and food are now in preparation). IAIP also has the DHS 
lead role for outreach to the private sector, including the development 
of a Food and Agriculture Sector Coordinating Council (F&ASCC) to 
facilitate information sharing between government and the private 
sector, and a Government Coordinating Council (GCC) to facilitate 
coordination across government and between government and the sectors. 
A ``food and agriculture portal'' has been created for the Homeland 
Security Information Network (HSIN) to provide a platform for the 
secure sharing of information (e.g., alerts, warnings, incident 
reporting, event tracking, etc.), and a Protected Critical 
Infrastructure Information (PCII) classification for the protection and 
special handling of proprietary industry information (e.g., 
vulnerabilities, threats).
    And, as specified in HSPD-9 (Defense of United States Agriculture 
and Food), the S&T Directorate has responsibility for the overall 
inter-agency coordination to ``accelerate and expand development of 
current and new countermeasures against the intentional introduction or 
natural occurrence of catastrophic animal, plant, and zoonotic 
diseases.'' Since June of 2003, the S&T Directorate has been 
responsible for the operation and management of Plum Island Animal 
Disease Center (PIADC) and has developed a joint research and 
diagnostic strategy with USDA (Animal Research Service and the Animal 
and Plant Health Inspection Service) for foreign animal diseases (FAD). 
Together with USDA and HHS, we have also begun the conceptual design of 
the next generation National Bio and Agro-defense Facility (NBAF) 
needed to replace the aging PIADC. Other major S&T Directorate 
agricultural thrusts include: systems studies, coupled disease and 
economic models, and table top exercises to better understand outbreak 
control options and inform policy and decision makers; demonstration of 
high throughput detection to better control and respond to outbreaks of 
foreign animal disease; detection systems for monitoring critical food 
nodes in the processing and distribution of selected food products; and 
two University Centers--one on foreign animal and zoonotic diseases and 
the other on food protection--to provide longer term research and train 
the next generation of agro-defense researchers and practitioners.
    As specified in HSPD-5 (Management of Domestic Incidents), DHS has 
developed a framework for overall national coordination. This framework 
is established in the National Response Plan (NRP) and National 
Incident Management System (NIMS). The NRP includes Emergency Support 
Functions (ESF) to organize and provide Federal resources during 
responses (e.g., ESF-8, ``Health & Medical Services'', DHHS lead; and 
ESF-11, ``Agriculture and Natural Resources'', USDA lead) and Support 
Annexes to insure efficient and effective incident management (e.g., 
``Science and Technology'', DHS Science and Technology Directorate 
(S&T) lead).
    Question. Who determines which vaccines are placed in the National 
Stockpile and what's the Department's role in that decision, given its 
responsibility for determining the bioterrorism threat?
    Answer. The process to determine which vaccines are placed in the 
National Stockpile is determined by the Centers for Disease Control and 
Prevention (CDC) within the Department of Health and Human Services 
(HHS). Recommendations for advance development of chemical, biological, 
radiological, and nuclear (CBRN) countermeasures utilize the Weapons of 
Mass Destruction Medical Countermeasures (WMD MCM) Subcommittee. This 
is an interdepartmental subcommittee initially chartered by the 
National Science and Technology Council (NSTC) and co-chaired by senior 
government officials from the Department of Homeland Security (DHS), 
the Department of Health and Human Services (HHS) and the Department of 
Defense (DOD). The material threat assessments (MTA) developed by the 
DHS based on a plausible attack scenario informs the sizing of the 
requirement. The HHS then evaluates the availability of current 
countermeasures and the possibility of development of new 
countermeasures. The WMD MC subcommittee deliberates on the nature of 
the medical consequence and the availability of appropriate 
countermeasures to develop a recommendation for the acquisition of a 
specific countermeasure. The HHS can issue a Request for Information 
(RFI) to determine the market availability and to alert industry to the 
U.S. Government interests. A Request for Proposals (RFP) announcing the 
specific requirements will then follow, once a U.S. Government 
requirement for a particular new medical countermeasure has been 
established by the WMD MC subcommittee, and approved by the Office of 
Management and Budget (OMB). The HHS implements the acquisition 
process.
    Question. Explain the steps in developing and putting into the 
stockpile new medical countermeasures. Who has the lead at each step? I 
understand the role of the National Institutes of Health (NIH) in basic 
research, but how is that science translated into product?
    Answer. The science and research to develop a new medical 
countermeasure will most likely have been supported by the National 
Institutes of Health (NIH) or the U.S. Army Medical Research Institute 
for Infectious Diseases (USAMRIID); however many industrial initiatives 
are launched independently to develop a new product. In order to 
translate a basic science advancement into a viable product, certain 
applied research and advanced development is required. This process 
will focus on establishing a ``formulation'' for the product and a 
scalable manufacturing process utilizing a Good Manufacturing Processes 
(GMP) validated process conducted under appropriate Quality Assurance 
and Quality Control activities. In addition the appropriate animal 
studies and human safety studies need to be conducted in accordance 
with FDA regulations to assure that the results can be applied to 
regulatory decisions. The ability to manufacture a consistent and 
stable product is also evaluated. Please consult HHS for a more 
complete description.
    Question. Does BioShield sufficiently incentivize industry to 
develop countermeasures to the bioterrorism threat?
    Answer. This question is perhaps best answered by industry. 
However, Project BioShield is a good first step and has sent a message 
to industry that the U.S. Government is committed to obtaining 
appropriate countermeasures for the Strategic National Stockpile (SNS). 
The establishment of a 10 year special reserve fund of $5.6 billion 
provides confidence to industry that acquisition funds are available in 
the long-term. Ten months after the enactment of the Project BioShield 
Act, the U.S. Government awarded three contracts totaling over $1 
billion for SNS acquisitions. Negotiations are in progress for two 
other contracts. In addition, two RFIs and one draft RFP have been 
recently published.
    Question. What is the appropriate Federal role regarding research 
and development of countermeasures for the National Stockpile?
    Answer. The role of the U.S. Government regarding research and 
development for countermeasures has traditionally been through the 
support of basic research. Both NIH and DOD (USAMRIID, USAMRICD, and 
AFRRI) have excellent records in this regard. The U.S. Government can 
further target and facilitate research and development (R&D) efforts by 
setting clear requirements and specifications for medical 
countermeasures; facilitating partnerships as needed between government 
and industry or between differing industries; and providing critical 
resources such as facilities (e.g. biocontainment labs), animals (for 
testing), reagents and assays.
    Question. How does the Department address the development of 
countermeasures as it relates to industry disparities regarding large 
and small companies and their available capital for research and 
development?
    Answer. Human medical countermeasures development is done through 
HHS and DOD and not through the Department of Homeland Security, so we 
will defer to them on the medical portions of this answer. For non-
medical countermeasures, the S&T Directorate does not require nor 
expect cost sharing in our R&D programs. A company's available capital 
to co-fund R&D is not an issue. Our competitive solicitations for all 
kinds of countermeasures research and development have offered multiple 
opportunities for both large and small businesses. Competitive 
solicitation results show that for research and development in highly 
technical fields, small companies can successfully compete outright, 
and this is especially true when they partner with larger or other 
small businesses.
    Question. From your perspective, how has BioShield helped DHS 
respond to the bioterror threat? Is it working as intended, and what 
would BioShield II do for DHS and S&T specifically?
    Answer. BioShield is helping DHS respond to bioterror threats by 
stimulating the development of needed medical countermeasures, by 
providing for emergency use authorization of these and other 
countermeasures if needed, and by streamlining the review process for 
research related to future generations of medical countermeasures for 
these threats. Procurements are now in progress for botulinum anti-
toxin, the current generation anthrax vaccine (AVA), the next 
generation anthrax vaccine (rPA) and for a pediatric formulation of 
potassium iodide--a therapeutic for certain kinds of radiation 
exposure. A Request for Information has recently been issued for a 
third generation smallpox vaccine (MVA) which would further minimize 
any side effects. Also, earlier this month, the National Institute of 
Allergies and Infectious Diseases (NIAID) made its first series of 
research awards using its new BioShield authorities.
    Question. Please provide a list of administrative, regulatory and 
legislative proposals needed to invigorate scientific research relevant 
to the development of needed countermeasures and products to counter 
natural pandemics and epidemics.
    Answer. The Nation has a strong program in basic scientific 
research related to the development of medical countermeasures. There 
are broad activities in understanding the genomics and proteomics of 
microorganisms. In addition many research programs are focused on the 
understanding and control of the immune system. Advanced research and 
development however falters after the proof of principle stage when 
applied product development activities are required. Additional 
attention is needed in areas critical to mid-stage development of 
medical countermeasures such as animal studies, clinical studies, 
regulatory issues and the need to establish and validate a GMP (Good 
Manufacturing Processes) production process.
    Question. I understand that you are the lead DHS representative for 
an interagency working group on bioterrorism and bioterrorism 
countermeasures. I also understand that the U.S. Department of Health 
and Human Services (HHS) and DOD participate in this working group. Can 
you tell me who else is involved in the working group, how often you 
meet, and what the basic function of the group is?
    Answer. Recommendations for advance development of CBRN 
countermeasures utilize the Weapons of Mass Destruction Medical 
Countermeasures (WMD MCM) Subcommittee. This is an interdepartmental 
subcommittee initially chartered by the National Science and Technology 
Council (NSTC) and co-chaired by senior government officials from the 
Department of Homeland Security (DHS), the Department of Health and 
Human Services (HHS) and the Department of Defense (DOD). The material 
threat assessments (MTA) developed by the DHS based on a plausible 
attack scenario informs the sizing of the requirement. The HHS then 
evaluates the availability of current countermeasures and the 
possibility of development of new countermeasures. The WMD MC 
subcommittee deliberates on the nature of the medical consequence and 
the availability of appropriate countermeasures to develop a 
recommendation for the acquisition of a specific countermeasure.

   DEPARTMENT OF HOMELAND SECURITY, BIOWATCH, AND DETECTION OF EVENTS

    Question. How does DHS respond to recent criticism in the press 
that BioWatch is not effective?
    Answer. BioWatch has been deployed to over 30 cities and provides 
these cities with protection against biological threat agents. At the 
request of the stakeholders, additional assets currently are being 
installed to provide increased coverage to include high trafficked 
facilities and other venues that attract large numbers of the 
population. DHS believes that BioWatch is an effective system which 
will be further improved by enhanced coverage while maintaining the no 
system false positives to date after conducting over two million 
assays.
    Question. What kind of measures are in place to assist the 
Department in its coordination role regarding BioWatch?
    Answer. Formal BioWatch coordination is done officially through a 
Memorandum of Understanding with the DHS, HHS/CDC, and EPA. Roles and 
responsibilities are articulated and budgetary aspects addressed. 
Additionally, the BioWatch Office works closely with CDC and EPA 
regarding day to day operations, enhancement of the current program, 
and future capabilities, thus ensuring success through close ties with 
the partners. Supported by a HSC Biodefense Memorandum of 
Understanding, the S&T Directorate also is actively engaged with USPS, 
DOD, HHS, and DoJ to discuss technology R&D programs and 
interoperability, concept of operations to include notification, and 
the development of a national architecture.

     DEPARTMENT OF HOMELAND SECURITY'S ROLE IN DETECTION EQUIPMENT

    Question. Given the overarching responsibility the Department has 
regarding biodefense, what is the Science and Technology Directorate's 
role in the development and evaluation of biological threat detection 
equipment?
    Answer. The S&T Directorate's role in the development and 
evaluation of biological threat detection equipment is to enhance 
current systems capabilities while developing the next generation of 
detection systems to provide early detection of attacks on outdoor and 
indoor areas and on our agricultural and food infrastructures. 
Currently, S&T Directorate efforts include: detection systems to enable 
the next generation of BioWatch, our urban monitoring program; the 
development of rapid (in minutes) identifiers for protection of high 
valued facilities and special events, and the development of detection 
systems for food distribution systems. Additionally, the S&T 
Directorate has a robust bio-assay development program which both 
supports our current biomonitoring systems such as BioWatch and is also 
integrated with the Directorate's detection technology development 
programs. The S&T Directorate, working through the Association of 
Analytical Chemists (AOAC), has also taken the lead in testing and 
evaluating hand-held assays for screening of so called ``white powder'' 
events.
    The S&T Directorate participates routinely on interagency working 
groups through the Homeland Security Council (HSC) and Office of 
Science Technology Policy (OSTP) to help establish and coordinate 
biodefense detection strategies and requirements. A major recent 
accomplishment in this area is the signing of a Memorandum of 
Understanding for Coordinated Monitoring of Biological Threat Agents 
Amongst the Department of Homeland Security, the Department of Health 
and Human Services, the Department of Defense, the Department of 
Justice and the United States Postal System. The S&T Directorate also 
interacts regularly with the detection development, test and evaluation 
programs in the DOD and the EPA (e.g. the Environmental Testing and 
Verification Program), including mutual participation in each others 
program reviews. S&T Directorate staff members routinely monitors 
literature, attend technology conferences, and host members from 
industries, academia, and non-profit organizations which present their 
current efforts and findings in technology development.
    Question. How does the Directorate foster the growth in biothreat 
detection equipment, and how do you respond to a rapidly changing 
industry?
    Answer. The S&T Directorate fosters the growth in bio-threat 
detection equipment through two key steps (1) a clear formulation and 
communication of our needs and requirements; and (2) an active, multi-
pronged, outreach to the broad R&D community for the best way to meet 
these requirements in a timely fashion. Through systems studies and 
scientific and interagency committees, we have focused on three classes 
of detection systems that are critical to an integrated national 
biodefense: advanced detection for monitoring urban areas; rapid 
(minutes) identification for protecting key facilities and special 
events; and detection systems for protecting our agricultural and food 
infrastructures. Detailed performance and cost requirements have been 
formulated to inform industry, academia and the national and Federal 
laboratories of our needs and have been published on the S&T 
Directorate's Homeland Security Advance Projects Research Agency 
(HSARPA) website. The S&T Directorate has had broad solicitations in 
each of these areas, typically involving an open, national level 
workshop conveying the needs and asking for inputs and refinements from 
the participants, a formal Request for Information (RFI), and then a 
formal proposal solicitation. Hundreds of proposals have been received 
and evaluated, with some fifteen proposals already funded and others in 
the works. The focus is on applied research with a goal of fielding 
technology as rapidly as possible, typically within 3 to 5 years. A 
phased development approach is used. The technology developers are 
evaluated and down selected by rigorous testing during each phase 
(Preliminary Design Review, Critical Design Review, etc.). Each 
technology does receive feedback during the testing at each phase with 
an opportunity for adjustments and re-evaluation. However, candidate 
technologies will be terminated if they fail to show reasonable 
progress. The S&T Directorate will also consider testing technologies 
funded through other programs (from other organizations) against the 
goals set forth by the S&T Directorate. In parallel, the S&T 
Directorate participates in a range of technical conferences and 
discussions with developers of detection systems to stay abreast of any 
developments that might change how it thinks about the realm of the 
possible' in both near- and longer-term biodetection system. The S&T 
Directorate believes the strategy outlined above provides both the 
guidance and the flexibility to foster growth and responsiveness in a 
rapidly changing industry.
    Question. What role do the national labs play in this arena?
    Answer. The national laboratories have played a key role in 
BioWatch sensor development and deployment and provide expertise on 
siting of detection systems. They continue to be a vital part of the 
S&T Directorate's strategy to develop and pilot advanced biothreat 
detection systems, with research and development activities in the 
following areas:
  --Development of specific instrumentation (Biobriefcase, Enhanced 
        BioAerosol Detector): Lawrence Livermore National Laboratory 
        (LLNL) and Sandia National Laboratory (SNL).
  --Development of new nucleic acid- and protein-based assays of 
        recognized biothreat agents to be used in biodetection 
        instruments: LLNL, Los Alamos National Laboratory (LANL), 
        Pacific Northwest National Laboratory (PNNL), and SNL.
  --Identification of next-generation signatures that reflect either 
        (a) the host-pathogen interaction or (b) virulence 
        characteristics or antibiotic resistance of recognized or 
        emerging biothreat agents and using these signatures to develop 
        new assays for biothreat detection: LLNL and PNNL.
  --Provision of informatics support to enable the discovery of new 
        targets for assays and to develop new reporting tools for 
        detection instruments: LLNL, LANL, Lawrence Berkeley National 
        Laboratory (LBNL), PNNL, and Oak Ridge National Laboratory.
    Question. Without getting into classified information, please tell 
us how we are doing in the deployment of surveillance and detection 
equipment.
    Answer. In January and February 2003, BioWatch was deployed to 
approximately 30 U.S. cities. At that time, a limited number of 
collectors were strategically placed in each city to provide for 
maximum population protection. At the request of the BioWatch cities, a 
Generation (Gen) 2 BioWatch was developed to provide increased temporal 
and spatial coverage and was piloted in New York City in fiscal year 
2004 and early fiscal year 2005. Gen 2 increases the number of 
collectors two to fourfold, including coverage of key priorities 
identified by the cities, such as transportation hubs and other indoor 
venues that are highly trafficked. Gen 2 is in the process of being 
deployed to the top threat cities in fiscal year 2005 and fiscal year 
2006. Additional samplers will be placed in each BioWatch city to be 
used at special events and/or at the cities' discretion. New technology 
is now under development that will enable a ``Gen 3'' BioWatch which 
reduces the sampling and analysis time to four hours on site and will 
be wirelessly networked to a local public health interface for further 
confirmation and so that positive samples can be retrieved for further 
analysis. This technology will provide for the high sensitivity and 
extremely low false positive rate consistent with the current system.
    We are also developing other detection systems. High throughput 
diagnostics for agricultural testing will be piloted in fiscal year 
2006 and food sensors for specific applications will be developed by 
fiscal year 2007. R&D is also on-going on detect-to-warn' sensors that 
can detect biological agents in a less than five minutes and hence be 
used to provide warning of releases in high value building, facilities, 
and special events.
    Question. Have you done any evaluation or testing of surveillance 
and detection equipment once it's been deployed and is in use?
    Answer. Yes, there is active evaluation and testing of the BioWatch 
system. The BioWatch Exercise and Evaluation Program (BWEEP) is an 
annual proficiency test for BioWatch laboratory and field operations 
and is designed to insure protocols and procedures continue to meet or 
exceed prescribed standards. If there are no deficiencies, they will 
not be revisited until the next annual cycle. If there are minor 
deficiencies, on-the-spot corrections or additional training will be 
administered and they will be re-inspected in approximately 6 months. 
If there are major deficiencies and/or safety violations, immediate 
remedial actions will be taken.
    Question. What collaborative process does the Department use to 
gain the input from industry, researchers, and responders in the 
development of new technology? Does the process include peer review?
    Answer. The Science and Technology Directorate uses an open and 
competitive solicitation process for research and development with the 
private sector.
    Before the official solicitation is issued, the S&T Directorate may 
publish a draft Statement of Work for public comment, giving industry 
the opportunity to provide advice and recommendations. In appropriate 
cases, full scale technical workshops are held to assess the state-of-
the-art, inform all potential bidders of current developments in the 
field, and sharpen the technical focus of the solicitation. In most 
cases, after each solicitation is published, a public Bidders' 
Conference is held to explain the solicitation in detail and answer 
questions that may have arisen in the minds of potential bidders. Each 
solicitation has an open Frequently Asked Questions (FAQ) section on 
the website where individual bidders' questions are answered and 
published for the benefit of all. In a typical solicitation procedure, 
the S&T Directorate uses the first bidder submission--the white paper--
as a vehicle for discussion with private sector bidders. In addition, 
industry representatives are free to request direct interviews with S&T 
Directorate Program Managers to describe or discuss their concepts, 
ideas, and ongoing developments for new technologies.
    The criteria by which white papers and proposals are evaluated by 
DHS technical experts are listed fully in the public solicitation so 
that bidders understand how their submissions will be judged. The S&T 
Directorate uses a technical merit review instead of peer review. 
Technical solutions to DHS needs and requirements often involve complex 
engineering, proprietary information, and other information of economic 
value to competitors. To perform technical review, the S&T Directorate 
organizes a panel of Federal Government experts, including S&T 
Directorate staff, other DHS technical and operational staff, and 
experts from other Federal agencies. The evaluation panel may be 
supplemented by outside advisors if there is a need for specialized 
expertise the government evaluators do not have. These outside advisors 
must agree that neither they nor their home institutions may bid 
against that particular solicitation. The S&T Directorate has found 
that providing review by government personnel, rather than a panel of 
peers, allows bidders to be more open about proprietary information 
supporting their proposed project.
    Additionally, DHS and national laboratories are consulted 
frequently by the S&T Directorate to formulate the strategic direction 
of research, development, technology and evaluation (RDT&E) programs.
    The science and technology needs of emergency responders are 
represented in the S&T Directorate by the Portfolio Managers. Other 
methods for collecting salient inputs include the annual Science and 
Technology Requirements Council, an annual joint conference with the 
Department of Justice, an annual conference to forecast S&T Directorate 
opportunities and major program direction to the industrial community, 
an intense 6 week effort each year involving the identification of 
responders' needs for rapid prototypes, and face-to-face contact with 
customers while working on current R&D projects.
    Question. What types of detection equipment are most difficult to 
develop, and how is the industry responding to the demands of the 
requirements? For example, the drug/vaccine industry indicates that 
decades of research are required before a drug/vaccine becomes 
available in the market. Is that same time and financial investment 
required by other industries?
    Answer. In general, any development program that deals directly 
with human health can take years of research, development, testing and 
evaluation prior to becoming available to the market because of 
extensive safety regulations. Instrumentation, including detectors for 
biological, chemical, and explosive threats, also has a difficult 
development schedule. Initial systems can be developed and deployed 
within the next few years, but it may take upwards of a decade to 
develop and deploy cost effective instruments with all the desired 
capabilities. The main reason is the requirement to achieve a high 
probability of detection and a extremely low probability of false 
alarms in instruments that are of sufficiently low cost that they can 
be widely deployed and used for continuous monitoring. This will 
require development of completely novel technologies or complex 
engineering projects.

             SCIENCE & TECHNOLOGY DIRECTORATE AND STANDARDS

    Question. Given that Science and Technology (S&T) Directorate's 
2004 guidelines and standards for biological countermeasures have been 
in place for a year, please give us an assessment of the effectiveness 
and relevance to the standards issued by the S&T Directorate regarding 
biothreat agents? How has industry responded to them?
    Answer. The S&T Directorate has a role and responsibility to ensure 
the effectiveness of biological countermeasures tools developed for and 
used by the homeland security community. By setting consistent and 
verifiable measures of effectiveness for basic functionality, minimum 
performance, interoperability, efficiency, sustainability, and 
appropriateness and adequacy for the task, standards improve the 
quality of homeland security systems and technologies. The S&T 
Directorate's Standards Program strives to enable the homeland security 
community to make informed equipment purchases by establishing minimum 
performance standards which can be linked to Federal grants programs so 
that equipment purchases comply with these minimum performance 
standards.
    In 2004, the primary focus for Standards for Biological 
countermeasures revolved around developing minimum performance criteria 
for biological screening devices (specifically lateral flow 
immunoassays) used by first responders. In fiscal year 2004 and early 
fiscal year 2005, an interagency task force was formed to address the 
effectiveness and use of lateral flow immunoassays for the detection of 
Bacillus anthracis (anthrax) by emergency responders. The task force 
agreed upon and published accepted performance criteria associated with 
the hand held assays (HHAs). The HHAs were tested and evaluated against 
the accepted criteria and those results were also published. An effort 
was also initiated with the Center for Domestic Preparedness to develop 
a standard Bio-Protocol for first responders to use to guide their 
response to a suspicious powder incident.
    The relevance and effectiveness of this important effort to develop 
and implement standards for biological field screening devices are 
clear. In the past these devices were procured in great numbers and 
often used incorrectly in the field by first responders to assess the 
biological threat associated with suspicious powders. Numerous false 
alarms were raised based on the results of these devices. Before these 
devices can be used in the field, first responders must understand 
their limitations, have a clear concept of how they are to be used, and 
be trained to use them properly. The S&T Directorate's effort to 
develop standards for the detection of anthrax using HHAs has given the 
homeland security community access to reliable information on how these 
devices perform and which devices met the performance standards. These 
standards are just a first step in ensuring confidence in the Nation's 
response to biological threats. There are numerous other types of 
biological countermeasures technologies to be evaluated against the 
range of biological agents. In addition, standard sampling protocols 
and standardized training must be developed and implemented.
    Industry was heavily involved from the onset with the process of 
developing these standards. Manufacturers voluntarily attended the 
interagency task force meetings, provided technical feedback on the 
study design and testing protocols, and provided instruments for 
testing. The entire standards development process relied upon working 
in an open atmosphere and gaining consensus of the majority of the 
stakeholders. Results of the testing were supplied to the manufacturers 
in a clear and timely manner. Unfortunately not all of the devices met 
the published acceptance criteria and hence some manufacturers were 
disappointed with the outcome. However, most manufacturers have 
indicated a desire to improve their devices and enter into a second 
round of testing.
    Question. How does S&T respond to the Department's Office of State 
and Local Government Coordination finding that its existing standards 
are inadequate?
    Answer. The S&T Directorate acknowledges that the existing 
biological countermeasures standards only address the performance of 
one type of detection equipment to one type of biological agent. The 
S&T Directorate's Standards Program is building a long-term plan and 
process for the development of standards to ensure the effectiveness 
and performance of all critical biological countermeasures technologies 
for a number of biological agents. However, the standards development 
process relies on consensus building, an activity that is often time-
consuming and costly. Therefore, standards development activities have 
focused to date on urgent, high priority areas. In order to validate 
the entire spectrum of biological countermeasures products and 
technologies, requirements for each of the technologies must be defined 
and consensus between the agencies on those requirements must be 
obtained. Additionally, standards need to be fully developed that are 
tested and evaluated for the various biological technologies, methods 
and processes. Also needed is the development of integrated policies 
and procedures based on conformance to the standards, and institute 
standardized training. All of these tasks are necessary and important 
and shall be incorporated in a long-term plan, but their accomplishment 
requires the necessary resources and cooperation of all of the key 
stakeholders. In addition, the Standards Program must assess and 
balance the need for standards in all homeland security areas based on 
the available resources. In the near future, (fiscal year 2005 and 
fiscal year 2006) the standards portfolio will address the need for 
standards for biological sampling activities and additional biological 
screening devices.
    Question. Have any revisions or refinements been made to those 
standards?
    Answer. The standards development process consists of a number of 
well-defined steps including periodic review and revision of standards 
when necessary. Revisions or refinements have not currently been made 
to the published acceptance criteria for the performance of hand held 
immunoassays for the detection of anthrax. DHS intends to initiate a 
second round of testing of new and improved devices and will hold a 
meeting of the interagency task force to determine whether revisions 
are needed and incorporate lessons learned before the new round of 
testing is initiated. As always, voluntary consensus standards 
development is an open process, and interested stakeholders will have a 
means of providing comments and feedback on any necessary revisions or 
refinements.
    Question. What process is used to update the biothreat standards?
    Answer. Because DHS is not a regulatory agency, the process of 
updating standards will follow the voluntary standards development 
organization's guidelines. In the case of the hand held immunoassays, 
the Association of Analytical Chemists International (AOACI) was the 
standards development organization. Hence, the AOAC process to update 
the standards will be followed.
    Question. Have end-users and industry found the biothreat standards 
useful in the development and use of new equipment? Can you give us an 
example?
    Answer. End-users are now able to obtain reliable information on 
the performance of various manufacturers' hand held immunoassays before 
procurement. That information enables end-users to make knowledgeable 
decisions on whether to use these devices and if so which ones are most 
reliable. In addition, many of the manufacturers have indicated that 
they have already made adjustments to their technologies and are eager 
to submit the new and improved technologies for a second round of 
testing.

                               SAFETY ACT

    Question. How much of the SAFETY Act has been implemented by the 
Department? Is it being implemented by industry, issue, or on an ad hoc 
basis?
    Answer. The Department has placed significant emphasis on the full 
implementation of the Support Anti-terrorism by Fostering Effective 
Technologies Act (SAFETY Act) and has accomplished much in an extremely 
short time period. In less than 15 months, the Department has 
established an Office of SAFETY Act Implementation (OSAI), which is 
responsible for administration of the program. The Department has 
developed, published, and implemented a proposed rule (July 11, 2003) 
and an interim rule (October 16, 2003) governing the implementation of 
the SAFETY Act. In addition, the Department is in the process of 
developing revisions to the current implementing regulations to address 
public comments and operational experience.
    More than 450 experienced technical and economic reviewers have 
been vetted and are available to evaluate SAFETY Act applications in 
accordance with the statutory criteria. OSAI has designed a reviewer 
training program specific to SAFETY Act requirements that each reviewer 
is required to attend.
    The Department initially developed a SAFETY Act application kit for 
use by interested parties and has since revised the kit. The revised 
application kit reflects substantial feedback from applicants and 
industry as well as our operational experience, and we expect it to 
provide applicants with better guidance and tools for a successful 
application. On December 13, 2004, a Paperwork Reduction Act notice for 
the revised version of the new kit was published in the Federal 
Register. Further, a web-based, interactive application process has 
been instituted that allows sellers to submit applications 
electronically, obtain automatic feedback on the status of an 
application, submit questions to a help desk to obtain assistance with 
navigating the application process, and provide access to resource 
documents and frequently asked questions.
    Significant elements of the Department's SAFETY Act implementation 
include:
  --Website.--The SAFETY Act website (www.safetyact.gov) contains the 
        electronic application kit, reference materials, Frequently 
        Asked Questions (FAQs), and specific instructions for 
        applications submitted in connection with a procurement.
  --Help Desk.--OSAI established a help desk that can be accessed by 
        way of on-line forms, an e-mail address 
        (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f272a233f2b2a3c240f3c2e292a3b362e2c3b61282039">[email&#160;protected]</a>), or a toll free phone (1-866-788-
        9318). The Department has received much praise for the help 
        desk. Applicants not only receive timely responses, but they 
        can actually speak with a staff member.
  --Outreach.--Throughout the past year, OSAI has made presentations at 
        numerous SAFETY Act-relevant conferences, held meetings with 
        applicants, and established internal procedures to ensure that 
        each applicant has the opportunity to discuss an application 
        with relevant staff early in the review process.
  --Pre-Applications.--OSAI implemented a pre-application process 
        designed to provide applicants with a quick assessment of the 
        likelihood of its technology being approved for Designation or 
        Certification if a full application is filed. These pre-
        applications are processed within the 21 days advertised and, 
        in addition to a written assessment, each applicant is given 
        the opportunity for a personal debriefing on its pre-
        application. Early processing delays have been eliminated--
        essentially all of the approximately 120 pre-applications filed 
        since March 1, 2004, have been completed on time.
  --Application Kit.--The initial application kit was designed with the 
        expectation that changes would be required as operational 
        experience was obtained. During the past year, OSAI has sought 
        input from applicants, industry, and government on areas 
        appropriate for revision. Utilizing this input and its own 
        operational experience, OSAI prepared a revised Application kit 
        in concert with the proposed revision to the interim rule. The 
        Paperwork Reduction Act notice for the final version of the new 
        kit was published in the Federal Register on December 13, 2004, 
        and the Department anticipates early adoption of the new kit.
    The SAFETY Act requires the Department to evaluate technologies on 
an application by application basis; however, the Department has 
undertaken a significant effort to coordinate the SAFETY Act 
application process with major anti-terrorism procurements where 
multiple Sellers will be providing the same technology to ease the 
burden on applicants and speed the evaluation process.
    To date, the Department has received more than 200 pre-applications 
and 94 full applications. As of June 18, 2004, twenty Designations and 
Certifications have been granted and five applicants have received 
Designation only.
    Question. How is the SAFETY Act being applied to Project BioShield 
products?
    Answer. The Department is not aware of any application submitted in 
connection with the BioShield program. Any provider of an anti-
terrorism technology may apply for the protections afforded by the 
SAFETY Act and it is reasonable to anticipate that participants in the 
BioShield program will apply for SAFETY Act protections as their 
technologies mature.
    Question. Is the Department going to apply the SAFETY Act to the 
pharmaceutical industry when it comes to the development of biological 
countermeasures?
    Answer. A very wide range of technologies may potentially qualify 
for protection under the SAFETY Act. The Act explicitly applies to any 
qualifying product, equipment, service (including support services), 
device, or technology (including information technology) that is 
designed, developed, modified, or procured for the specific purpose of 
detecting, identifying, preventing, or deterring acts of terrorism, or 
limiting the harm that such acts might otherwise cause. This broad 
definition of ``technology'' encompasses tangible products, software, 
services, various forms of intellectual property, and anything else 
that can be sold that has a specific anti-terrorism application. This 
definition of technology would encompass pharmaceutical products and 
their related delivery technologies when used for anti-terrorism 
purposes.
    Question. How is S&T working with the drug and vaccine industry to 
determine which products should be considered for SAFETY Act 
protection?
    Answer. The Office of Safety Act Implementation (OSAI) has a robust 
outreach program. Members of OSAI staff frequently provide informative 
presentations on the SAFETY Act at a variety of trade shows and 
industry meetings and often have a presence in the vendor areas where 
additional informative material on the application process and the 
benefits of protection under the SAFETY Act are available. OSAI staff 
members also provide informal guidance on an individual basis at these 
same events. In addition, OSAI will host another round of nationwide 
SAFETY Act seminars to introduce prospective applicants to the program 
including the benefits of SAFETY Act protections, the new application 
kit, and the revised interim rule.
    The Department does not pre-determine if a particular technology is 
an anti-terrorism technology within the context of the SAFETY Act. Each 
applicant describes its specific anti-terrorism technology in its 
application and explains why it believes the technology or its proposed 
use of the technology meets the statutory criteria. OSAI does provide 
personalized guidance to applicants on a variety of issues at a number 
of points throughout the application process. Most often, the anti-
terrorism application of the technology is reviewed, analyzed, and 
discussed with the applicant during the pre-application process, 
telephone discussions following receipt of the formal response to the 
pre-application, and through telephone conversations at the end of the 
completeness review before formal evaluation is commenced.
    While we are not able to assess directly the extent to which this 
information has penetrated the pharmaceutical community, the fact that 
we have received some applications relating to vaccines indicates that 
some measure of penetration has been achieved.
    Question. Is the SAFETY Act perhaps too limited with respect to 
certain areas? Is the Department reviewing the Act's authorities and 
issuing regulations or other administrative means to best utilize the 
Act?
    Answer. The Department is committed to the primary goal of the 
SAFETY Act--to ensure that the threat of liability does not deter 
potential manufacturers or sellers of critical anti-terrorism 
technologies from developing and commercializing technologies that 
could save lives. The SAFETY Act review process is not intended to 
guarantee that anyone will be able to purchase ``the very best'' 
product or services. It is designed, as required by the statute, to 
help individual effective technologies overcome market barriers on an 
application-by-application basis. Throughout its implementation of this 
program, the Department has engaged applicants, industry, and the 
public to solicit feedback to enhance the process. Many concerns raised 
by interested parties have already been addressed and the Department 
will continue to encourage input to improve the program. The Department 
is committed to fulfilling the intent of Congress as set forth in the 
language of the SAFETY Act and will continue to improve upon efforts 
working towards successful implementation of this important 
legislation.
    Among the efforts being undertaken by the Department to improve its 
implementation of the SAFETY Act are revisions to the application kit 
and the interim rule. The initial application kit was designed with the 
expectation that changes would be required as operational experience 
was obtained. During the past year, Office of Safety Act Implementation 
(OSAI) has sought input from applicants, industry, and government on 
areas appropriate for revision. Using this input and its own 
operational experience, OSAI prepared a revised application kit in 
concert with the proposed revision to the interim rule. The Paperwork 
Reduction Act notice for the final version of the new kit was published 
in the Federal Register on December 13, 2004. In addition, the 
Department is in the process of developing revisions to the current 
regulation. The revised regulations will address public comments and 
address other areas with a view to facilitating greater participation 
in the SAFETY Act program.

                           RAPID PROTOTYPING

    Question. How does the rapid prototyping function within S&T assist 
in the Department's effort to combat bioterrorism?
    Answer. The S&T Directorate's Rapid Prototyping Portfolio assists 
in the effort to combat bioterrorism by reducing the time needed to 
develop and commercialize relevant technologies that can meet needs on 
an interim basis while technologies that meet long-range needs are in 
development. The S&T Directorate's first rapid prototyping effort 
(conducted with the Technical Support Working Group (TSWG) in fiscal 
year 2003) produced thirteen separate efforts related to combating 
bioterrorism. When developed and completed, these efforts will provide 
such capabilities as: better methods to characterize biological 
backgrounds in facilities; methods for large-scale restoration of 
biologically contaminated urban areas; a low-cost, personal bio-
decontamination system; a biological aerosol threat warning detector; 
direct detection assays for botulinum toxin; and improvements in 
biological detection systems.
    The S&T Directorate's Rapid Technology Application Program (RTAP) 
has worked intensively with the DHS internal customers and field agents 
to identify their most urgent needs for countering bio threats. These 
needs will be published to the private sector in early summer 2005 with 
the goal of delivering the prototypes to those customers within 18 
months of contract award.
    Question. Do bioterrorism-related technologies lend themselves well 
to rapid prototyping?
    Answer. All technologies, including technologies for bioterrorism 
countermeasures lend themselves well to rapid prototyping. Technologies 
needed to combat bio-terrorism range from near-term prototypes to 
extremely difficult long-term projects. Based on the expressed 
expectations of DHS customers, tactical concerns in the field dominate. 
They need technical capabilities to determine if a suspicious substance 
is a bio-agent or powdered sugar, other capabilities to tell them if an 
entire area is contaminated or not, and a fast, reliable method of 
definitive bio-agent identification. Technically effective isolation or 
containment of suspected bio-contaminants and improved protection of 
field personnel from bio hazards are cited often as developments needed 
in the short term.
    In other areas, such as bioinformatics, forensics, bioassays for 
novel or engineered bio-agents, rapid prototyping must give way to 
careful, painstaking, long-term development.
    Question. How do you determine which items are chosen for the rapid 
prototyping program?
    Answer. The Rapid Technology Application Program annually conducts 
a series of meetings with DHS internal customers and field agents, and 
State and local responders to identify their highest priority needs for 
rapid prototyping developments. These customers identify and prioritize 
their needs in any technical area. Within the constraints of technical 
feasibility, development time (no longer than 18 months), and available 
resources, their top priority rapid prototyping needs will be 
developed.
    Question. Has the rapid prototyping effort incentivized both the 
scientific community and entrepreneurs to develop products?
    Answer. Industry has been avidly interested in the S&T 
Directorate's solicitations. For example, the S&T Directorate's first 
rapid prototyping effort (with TSWG in fiscal year 2003) was valued at 
$60 million over 2 years and resulted in 94 contract awards for 
research and development work now underway. When developed and 
completed, these efforts will provide such capabilities as: better 
methods to characterize biological backgrounds in facilities, methods 
for large-scale restoration of biologically contaminated urban areas, a 
low-cost, personal bio-decontamination system, a biological aerosol 
threat warning detector, direct detection assays for botulinum toxin, 
and improvements in biological detection systems. There were more than 
3,000 initial submissions for that solicitation. The DHS Rapid 
Technology Application Program, currently valued at $35 million is 
scheduled to release its first public, competitive, rapid prototyping 
solicitation in early Summer 2005 and a proportional strong response is 
expected.
    Question. What is the most difficult hurdle when it comes to rapid 
prototyping?
    Answer. The most difficult part of the rapid prototyping process is 
deriving meaningful customer requirements that are feasible, 
affordable, and have a high potential for actual deployment upon 
completion of development.
    Question. Do antidote and vaccine development fall under the rapid 
prototyping effort or is that entirely under HHS' jurisdiction?
    Answer. Section 302(4) of the Homeland Security Act of 2002 assigns 
to the Under Secretary for Science and Technology the responsibility 
for, . . . conducting basic and applied research, development, 
demonstration and testing, and evaluation activities that are relevant 
to any or all elements of the Department, through both intramural and 
extramural programs, except that such responsibility does not extend to 
human-health related research and development activities:'' [emphasis 
added]. Section 304 (a) assigns this responsibility to the Secretary of 
Health and Human Services.
    Question. Are different tools combined and cross-pollinated to 
accelerate research and development when rapid prototyping to address 
bioterrorism?
    Answer. Yes. The S&T Directorate's Rapid Prototyping development 
period is nominally between 6 and 18 months from contract award. In all 
but a very few cases this implies that most rapid prototypes will not 
involve basic research, but will heavily involve development. These 
developments take forms such as modifications of existing equipment for 
new purposes, increases in effectiveness derived from new algorithms or 
software, changes in configuration to be smaller, lighter weight, or 
redesign for decreased power consumption for example. Many of these 
rapid prototyping developments use ``tools'' developed for other 
purposes. Personal Data Assistants can be modified for identification 
of, and use by emergency responders. Personnel protective equipment can 
be redesigned to be less bulky, more effective against an array of 
hazards and more user-friendly. Wireless communications technology, for 
example, has many uses in bio countermeasures and it can be licensed 
off-the-shelf for many applications.
    Question. How are the legal ramifications to rapid prototyping 
being addressed when S&T is dealing with items which do not have 
patents filed? Under this scenario, who owns the intellectual property 
when the product is changed as it moves through the rapid prototyping 
process?
    Answer. In all but a very few cases most rapid prototypes will be 
heavily focused on late stage development. These developments take 
forms such as modifications of existing equipment for new purposes, 
increases in effectiveness derived from new algorithms or software, 
changes in configuration to be smaller, lighter weight, or have 
decreased power consumption, for example. The S&T Directorate will use 
procurement contracts (or Other Transactions for Prototypes) for rapid 
prototyping developments. Both kinds of vehicles are legally binding 
and require negotiation of many aspects of the development. Generally 
the developer retains title in any invention or data developed with the 
Government receiving a license. When appropriate, the Government will 
require licenses for Federal, State, tribal, and local government use. 
Specific intellectual property treatment, ownership, licensing, usage 
and royalties are always addressed in these detailed negotiations and 
contractually secured on terms agreeable to the developer and the 
Government, subject to all applicable laws and regulations.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

               CHEMICAL AND BIOLOGICAL DETECTION PROGRAM

    Question. In 2003, the Department of Energy transferred to the 
Department of Homeland Security a highly successfully Chemical and 
Biological Detection program, including $78 million in annual funding. 
This was a capability supported in conjunction with the nuclear 
detection capabilities at our national laboratories.
    How much progress has DHS made in implementing this capability and 
how much is budgeted for these activities?
    Answer. The Department of Energy's Chemical and Biological National 
Security Program (CBNP) was a highly successful R&D program that served 
as the foundation of the S&T Directorate's Biological and Chemical 
Countermeasures Portfolio, which was eventually split into biological 
and chemical components. The program was continued, augmented, and 
expanded to cover a range of biological and chemical countermeasures 
R&D targeted at homeland security applications. Efforts initiated in 
the CBNP that have come to fruition include the Biological Aerosol 
Sentry and Information System (BASIS), a deployable capability for 
biological threat agent detection that is now part of the S&T 
Directorate's special event monitoring and National Security Special 
Events (NSSEs), and served as the foundation for the BioWatch program 
that was deployed to over 30 U.S. cities. The Program for Response 
Options and Technology Enhancement for Chemical Terrorism (PROTECT) 
currently is operational and owned and operated by the Washington 
Metropolitan Area Transit Administration and the associated program in 
the San Francisco International Airport has provided guidance on 
airport protection. A restoration demonstration effort is underway 
there and will be completed this year. PROTECT served as a basis for 
the operational NSSE chemical protection efforts in New York City and 
Boston in fiscal year 2004.
    Another key CBNP chemical defense program is the MicroChem lab, an 
effort to develop a next-generation hand-held chemical detector with 
capability to detect a broader set of chemical hazards than currently 
available sensors and with fewer false positive responses. Under DHS 
funding in fiscal year 2003 and fiscal year 2004, the effort has now 
completed development through prototype phase and will be evaluated 
against other developing sensors under the S&T Directorate's Chemical 
Detection program test/evaluation phase. There is no current active 
funding for this project as it has already accomplished the target 
prototype needed for evaluation. After fair test and evaluation among 
all candidates, successful technologies will be selected for further 
support toward final engineering. The Local Integration of NARAC 
(National Atmospheric Release Advisory Center) with Cities (LINC) 
program will continue to operate in its current configuration in five 
U.S. cities through this fiscal year and will be subsumed into the 
Biological Warning and Incident Characterization System once it is 
mature. R&D efforts that transitioned with the program in March 2003 
have been continued through this year and new ones, such as the foreign 
animal disease R&D efforts and NBACC-related activities have been 
initiated. In fiscal year 2004, Biological Countermeasures was funded 
at $286.5 million and in fiscal year 2005, $362.6 million.
    Question. Under the DHS Chem-Bio Detection program many research 
and development contracts have been made through industry instead of 
the national labs. The laboratory program supported a long term 
capability, but has also been successful in commercializing handheld 
detection units.
    How is DHS allocating funding between industry, universities and 
national laboratories?
    Answer. The S&T Directorate collaborates with academia through the 
Centers of Excellence program and its associated Integrated Network of 
Centers, which is establishing a national network of affiliated 
universities. Additionally, the S&T Directorate has a sizeable number 
of interactions and programs with individual universities on specific 
research topics and needs.
    The S&T Directorate solicits proposals from industry and uses a 
full range of contracting vehicles and its authority under the Homeland 
Security Act to engage businesses (large and small), federally funded 
research and development centers, universities, and other entities in 
development of advanced technologies for homeland security. The 
contracted research and development work now underway is the S&T 
Directorate's main form of collaboration with industry and academia. 
The S&T Directorate maximizes and leverages the existing capability 
base of the national laboratory complex. The Directorate engages all 
the national laboratories on a case-by-case basis, to tap into unique 
technical expertise that is critical to accomplishing portfolio 
objectives and goals. The Directorate also relies on national 
laboratory technical experts as needed throughout the RDT&E processes 
based on their years of experience applying technologies and processes 
to field applications. This technical and practical expertise is used 
to accelerate spiral development of technologies for transitioning 
capabilities to operational end-users.
    The S&T Directorate's CounterMeasures Test Beds (CMTB) program 
operates in close partnership with a number of Federal and national 
laboratories to execute its mission of testing and evaluating all 
threat countermeasures and systems. The following national laboratories 
participate in all CMTB Operational Testing and Evaluation (OT&E) 
efforts and enable deployments in response to heightened alert 
conditions as necessary. Multi-laboratory teams are encouraged to 
ensure objectivity and a healthy interchange of ideas.
    The Office of Interoperability and Compatibility (OIC) is currently 
leveraging the resources of Eastern Kentucky University in developing 
effective test methodologies for equipment and to provide technical 
assistance to states and localities under the SAFECOM Program. At the 
same time, OIC has enlisted a consortium of well over one hundred 
universities and colleges to support the annual conference on 
Technologies for Public Safety in Critical Incident Response, jointly 
sponsored by DHS and the Department of Justice (DOJ).
    Industry associations participate in SAFECOM Program activities, 
especially in standards development efforts. OIC has established a 
monthly vendor process which allows for constant communication and 
collaboration with our industry partners. Additionally, OIC/SAFECOM 
will be conducting an industry summit in late fall to allow for ever 
greater collaboration.
    Question. Is this allocation sufficient to support long term 
research and development necessary to develop the next generation 
technology?
    Answer. The S&T Directorate's strategic planning process uses a 
risk-based approach (including threats, vulnerabilities, and 
consequences) that identifies critical areas of need for RDT&E. The 
potential impact of RDT&E investments is evaluated and those efforts, 
both short- and long-term, that will have the greatest impact on 
reducing risk are pursued.
    In the 2 years that this Department has been in existence, the S&T 
Directorate has focused its efforts on near-term development and 
deployment of technologies to improve our Nation's ability to detect 
and respond to potential terrorist acts. However, we recognize that a 
sustained effort to continually add to our knowledge base and our 
resource base is necessary for future developments. Thus, we have 
invested a portion of our resources, including our university programs, 
toward these objectives.
    The S&T Directorate believes the distribution of funding between 
industry, universities, and national laboratories supports both long-
term capabilities development as well as meeting near-term requirements 
for end-users. The current funding distribution may change based on 
national requirements and needs. We recognize the value of longer-term 
capability development to ensure that the Nation has the necessary 
knowledge for application development.
    Question. Can you please provide me list of the grants the 
Department has made in allocating the Chem-Bio diction funding for this 
the past year?
    Answer. The fiscal year 2004 grants that DHS has made in the area 
of chemical and biological detection and related areas are listed 
below:

------------------------------------------------------------------------
                 Performer                              Topic
------------------------------------------------------------------------
U of Pitt.................................  Surveillance--RODS Decision
                                             Enhancements for The
                                             BioWatch System
Johns Hopkins.............................  Surveillance--ESSENCE
                                             Implementation of ESSENCE
                                             Biosurveillance Systems
Arizona University........................  High Resolution DNA
                                             Signatures for biothreat
Multiple \1\..............................  ECBC--Technical Advisory
                                             Group to HSARPA on
                                             Bioaerosol sensor testing
                                             and evaluation.
Multiple..................................  Bioinformatics and Assay
                                             Development Program
Potomac Institute for Policy Studies......  Bio-Alert
MIT/Lincoln Lab...........................  Architecture Studies
Johns Hopkins University/APL..............  Real-Time Neutralization of
                                             Biological Weapons in
                                             Stadiums or Arenas
SAIC and Battelle.........................  Demonstration & Verification
                                             of Chlorine Dioxide
                                             Decontamination Tech. in
                                             Large-Scale Test
National Center for Atmospheric Research..  Urban Studies-Atmospheric
                                             Transport & Dispersion
                                             Calculations
MIT/Lincoln Laboratory....................  Water System Vulnerability
                                             Studies for Homeland
                                             Defense
Edgewood Chemical and Biological Command..  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
MIT/Lincoln Laboratory....................  High-Collection-Efficiency
                                             Bio-aerosol Sampling
General Dynamics/CBRTA....................  DFU Filter Replacement Study
NYC DOHMH.................................  Integration of Clinical
                                             Testing to Complement
                                             BioWatch and Disease
                                             Surveillance in NYC
Army Research Laboratory..................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Naval Research Laboratory.................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Battelle Laboratory.......................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Ionian Corp...............................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Johns Hopkins University/APL..............  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Research Triangle Institute...............  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Multiple..................................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Agilent Corp..............................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Smiths Detection/Pasadena.................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
JHU/APL...................................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Smiths Detection/Watford..................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Goodrich Corp.............................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Sarnoff Corp..............................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
DOE National Laboratories.................  Enhanced Bioaerosol
                                             Detection System
Lawrence Livermore & Sandia Natl            Bio-briefcase
 Laboratories.
Pacific Northwest Natl Lab................  Botulinum detection system
Institute for Defense Analysis............  IDA Chemical Hazard Analysis
Edgewood Chemical and Biological Command..  Evaluation of Fielded
                                             Decontaminants Against Non-
                                             Traditional Agents
Institute for Defense Analysis............  Infrastructure Sensitivity
                                             to Chemical Hazards
MITRE Corp................................  A JASON Study of Selected
                                             Topics for the Department
                                             of Homeland Security
Naval Research Laboratory.................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures use of
                                             CASPAR
Naval Research Laboratory.................  Autonomous Rapid Facility
                                             Chemical Agent Monitor
National Institute for Standards            Solid State MEMs Microsensor
 Technology.                                 Arrays to Detect Dangerous
                                             Chemicals
Goodrich Corp.............................  TeraSpec
Sarnoff Corp..............................  TeraSpec
Multiple..................................  Detection Systems for
                                             Biological and Chemical
                                             Countermeasures
Monterey Institute........................  Survey/Evaluation of CBW
                                             Detectors
Multiple..................................  Low Vapor Pressure Chemical
                                             Detectors
Los Alamos National Lab...................  Study of Receptor
                                             Development for Certain
                                             Chemical Threat Agents
Multiple..................................  Novel Personnel Protection
                                             Equipment, BAA 04-13
Multiple..................................  Bioinformatics and Assay
                                             Development Program
Lawrence Livernore Lab....................  Bioassays for Detection and
                                             Forensics
Los Alamos Nat'l Lab......................  Bioassays for Detection and
                                             Forensics
Sandia National Labs......................  Bioforensics
National Academy of Sciences..............  Assessing Vulnerabilities
                                             Related to the Nations
                                             Chemical Infrastructure
Scientific Applications International Corp  IBIS TIGER Biosensors
Space and Naval Warfare Command...........  Border Net (Chem/Bio Agent
                                             Support)
Naval Sea Systems Command.................  Chem/Bio Agent Support
Lawrence Livermore & other DOE Labs.......  High Throughput Diagnostics
                                             for Agricultural
                                             Applications
Palo Alto Sensor Technology Innovation....  New System/Technologies to
                                             Detect Low Vapor Pressure
                                             Chemicals (e.g., TICs)
Seacoast Science, Inc.....................  New System/Technologies to
                                             Detect Low Vapor Pressure
                                             Chemicals (e.g., TICs)
Intelligent Optical Systems, Inc..........  New System/Technologies to
                                             Detect Low Vapor Pressure
                                             Chemicals (e.g., TICs)
Synkera Technologies Inc..................  New System/Technologies to
                                             Detect Low Vapor Pressure
                                             Chemicals (e.g., TICs)
Cape Cod Research, Inc....................  New System/Technologies to
                                             Detect Low Vapor Pressure
                                             Chemicals (e.g., TICs)
CogniScent, Inc...........................  New System/Technologies to
                                             Detect Low Vapor Pressure
                                             Chemicals (e.g., TICs)
Technispan LLC............................  New System/Technologies to
                                             Detect Low Vapor Pressure
                                             Chemicals (e.g., TICs)
Nanomat, Inc..............................  New System/Technologies to
                                             Detect Low Vapor Pressure
                                             Chemicals (e.g., TICs)
Weld Star Technology, Inc.................  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
SomaLogic, Inc............................  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
Orthosystems, Inc.........................  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
Nomadics, Inc.............................  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
Peterson Ridge LLC (dba Fluence)..........  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
BioElectroSpec............................  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
Echo Technical............................  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
Operational Technologies Corporation......  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
Accacia International LLC.................  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
BioTraces, Inc............................  Chem-Bio Sensors Employing
                                             Novel Receptor Scaffolds
CFD Research Corporation..................  Advanced Low Cost Aerosol
                                             Collectors for Surveillance
                                             Sensors and Personal
                                             Monitoring
Digital Flow Technologies, Inc............  Advanced Low Cost Aerosol
                                             Collectors for Surveillance
                                             Sensors and Personal
                                             Monitoring
MesoSystems Technology Inc................  Advanced Low Cost Aerosol
                                             Collectors for Surveillance
                                             Sensors and Personal
                                             Monitoring
Research International, Inc...............  Advanced Low Cost Aerosol
                                             Collectors for Surveillance
                                             Sensors and Personal
                                             Monitoring
InnovaTek, Inc............................  Advanced Low Cost Aerosol
                                             Collectors for Surveillance
                                             Sensors and Personal
                                             Monitoring
Enertechnix, Inc..........................  Advanced Low Cost Aerosol
                                             Collectors for Surveillance
                                             Sensors and Personal
                                             Monitoring
Isotron Corporation.......................  Wide-Area TIC Neutralization
Gumbs Associates, Inc.....................  Wide-Area TIC Neutralization
Synergistic Advanced Technologies LLC.....  Wide-Area TIC Neutralization
 
------------------------------------------------------------------------
\1\ Multiple indicates contract awards to more than one recipient in a
  category from the funding provided for this solicitation. In most
  cases, there remain companies in negotiation for award.

                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                           CHEMICAL DETECTORS

    Question. In your oral testimony, you indicated that there are 
funds in the budget to deploy chemical sensors, yet the S&T budget 
document refers to ``critical design review'' of technologies, but 
nothing about deployment of sensors across the country. Based on your 
hearing comments, please provide specifics on the Department's 
capabilities and deployment schedule for chemical monitoring.
    Answer. The interface to which this question refers was a short 
discussion on the issue of PROTECT, a networked chemical detection 
system for enhanced response against chemical attacks on facilities, 
particularly transit systems. This system has been demonstrated in and 
transitioned to three subway systems (DC, Boston, and NYC). With 
successful demonstration, the program has transitioned away from DHS 
S&T Directorate and is available for installation in other transit 
systems via the fiscal year 2005 Transit Security Grants Program 
administered by the DHS Office of State and Local Government 
Coordination and Preparedness (SLGCP) Office for Domestic Preparedness. 
The reference to ``funds in the budget'' to support deployment was a 
reference to funds in the Department's budget versus the S&T 
Directorate budget. The fiscal year 2005 Transit Security Grant Program 
includes $108 million for rail transit security, targeted to specific 
urban areas for the prevention and detection of explosive devices and 
chemical, biological, radiological and nuclear agents. Expenditures to 
acquire the PROTECT system are permissible under this program. The 
Science and Technology Directorate is assisting SLGCP with technical 
data package development and is prepared to offer technical assistance 
in the deployment of the system through this program.

                           BIOWATCH DETECTION

    Question. Your budget proposes over $100 million for bio-aerosol 
detection systems, better known as the ``BioWatch'' program. These 
sensors are located in over 30 major cities across the country.
    Samples are taken manually 1 or 2 times daily and then tested at a 
lab to determine if a biological attack has occurred. If an attack 
really occurs, hundreds or thousands of people could be harmed before 
the lab results come in. What investments are you making to close the 
gap between the release of a biological agent and the time it takes to 
detect it?
    Answer. We have a major program to develop the next generation of 
biodetection systems which we call Biological Autonomous Networked 
Detection (BAND). These systems will collect and analyze the sample on 
site, reporting out as often as every four hours, and will wirelessly 
transmit the data from any positives to the nearest Laboratory Response 
Network for confirmation and to initiate sample retrieval. The BAND 
system will simultaneously perform analyses for twenty or more agents, 
significantly more than the current BioWatch system, with sensitivities 
and false alarm rates equal to or better than the current BioWatch 
system. Because the sample collection and analyses is fully automated 
and done on site, the operational costs per ``detection site'' will be 
about one-fifth that of the current system or less. This greatly lower 
operational cost and the fully autonomous nature of the system will 
enable expansion of biological protection within existing BioWatch 
cities as well as to those cities and venues where it was previously 
not practical. We are currently on schedule for demonstrating a 
laboratory prototype of the BAND system in fiscal year 2006, developing 
engineering prototypes in fiscal year 2007, piloting them in a BioWatch 
city or cities in fiscal year 2008 and deploying them throughout the 
existing BioWatch cities in fiscal year 2009/fiscal year 2010.
    Question. My understanding is that certain prototypes are being 
tested, but they won't be deployable until 2009. Is this a matter of 
resources? What is needed to accelerate deployment of this system?
    Answer. Your understanding is correct, as per the discussion 
previously, we are not scheduled to begin deployment of the BAND System 
to BioWatch cities until fiscal year 2009. This is in part technology 
limited and in part resource limited. If the available R&D funding for 
this system was increased from its projected fiscal year 2006-fiscal 
year 2007 levels of about $25 million per year to $60 million per year, 
we would be able to significantly reduce the technical risk in 
developing the system and speed its deployment by 6 to 12 months. This 
would be accomplished by pursuing more technology options more 
aggressively. The competition engendered by being able to carry two or 
three systems all the way through development would further assist in 
meeting the challenging technical performance and cost goals. In 
addition, manufacturing of these detection systems to enable wide scale 
deployment would benefit from creating a guaranteed market for 1,000-
2,000 of these advanced detection systems, at a total estimated cost of 
$50-100 million. A significant portion of this additional required 
funding would need to be available in fiscal year 2007 so as to enable 
deployment to start in fiscal year 2008.

                           BIOWATCH RESPONSE

    Question. The budget notes as an accomplishment that the 
``BioWatch'' detection systems, which are deployed in over 30 major 
U.S. cities, conducted over a million assays with no false alarms.
    While that is certainly an indication that the system works, an 
official with the National Association of County and City Health 
Officials recently complained that not enough focus has been placed on 
what happens if the ``alarm bell'' rings.
    If an incident of national significance is detected, are State and 
local governments prepared to respond?
    Answer. The S&T Directorate, in collaboration with CDC, EPA, and 
DoJ, has prepared BioWatch Preparedness and Response Guidance (interim 
draft guidance) and distributed it to the BioWatch cities. This draft 
guidance is intended to assist the cities in their development of an 
incident characterization plan following a positive BioWatch signal. 
While some cities have developed a comprehensive plan, other cities' 
plans are under development. The S&T Directorate continues to offer 
assistance to each city and currently has an effort underway to address 
the concerns of the local public health epidemiology community.
    Question. What management practices are in place at the Federal 
level to ensure that State and local governments are prepared to 
respond to an incident of national significance? I would like to hear 
both Assistant Secretary Albright and Assistant Secretary Simonson 
respond to the question.
    Answer. Contingency planning with State and local governments is an 
important and ongoing process. A key component of the National Incident 
Management System (NIMS) compliance for State and local jurisdictions 
is the requirement for updating and revising emergency operations 
plans. With the release of the National Response Plan (NRP), State and 
local jurisdictions are encouraged to align their plans with the NRP. 
State, local, and tribal organizations must adopt NIMS by fiscal year 
2007 as a condition of receiving Federal preparedness assistance. State 
and local governments can use DHS grant funds to implement the NIMS.
    The NRP and the NIMS provide the template, policies, and protocols 
for integrating all jurisdictions and the private sector as key 
components of the Nation's response to domestic incidents. The NRP and 
the NIMS are built on the principle that most incidents start, end, and 
are managed at the local level. The NIMS stresses the concepts of 
mutual aid, communications, resource typing, and preparedness, in 
addition to the command and control elements, including the Incident 
Command System and Multi-agency Coordination. The NRP details how those 
varying levels of responsibility work together during Incidents of 
National Significance (a new concept developed in the NRP to cover 
every significant incident), which require the Department of Homeland 
Security to take on the overall coordination role for Federal 
involvement in domestic incident management. The NRP provides the 
multi-agency coordination structures to support incident commanders and 
local entities at the scene. It also provides coordination structures 
for integrating with the private sector. One of the key concepts of the 
NRP is that preventing, preparing for, responding to, and recovering 
from Incidents of National Significance require the collective 
capabilities of all involved jurisdictions.

                DOMESTIC NUCLEAR DETECTION OFFICE (DNDO)

    Question. The DHS budget proposes $227 million for a new office 
called the Domestic Nuclear Detection Office (DNDO). I share the 
Department's concerns that this threat warrants a coordinated effort at 
the Federal level to address it. However, the criticism following 9/11 
that led to the creation of the Department of Homeland Security was 
that there were too many stovepiped agencies across the Federal 
Government dealing with homeland security that didn't know what the 
other was doing.
    In your opinion, is enough being done by the Secretary's office to 
ensure that the DNDO will not become a stovepiped organization?
    Answer. One of the principal motivators in the formation of the 
DNDO was to remove this type of stovepiping within the Department, and 
across the Federal Government, with regards to the prevention of 
nuclear terrorist attack. DNDO is charged with integrating and 
coordinating all planning and implementation efforts across the other 
Federal departments and agencies, and within DHS, to ensure that 
individual efforts are effectively and efficiently contributing to a 
global strategy to defend against the terrorist use of a nuclear weapon 
on our Nation.
    The DNDO serves as a unique entity within the Department to 
consolidate all nuclear-detection related activities, allowing for the 
development of an integrated office that will be responsible not only 
for research and development, but also for developing a global nuclear 
detection architecture and developing and implementing a domestic 
detection system, to include acquisition programs for detection assets 
and operational support functions. This integration, as well as 
coordination with nuclear detection programs in other departments, will 
allow for the development of a single global nuclear detection 
architecture to protect the Nation from attempts to import or transport 
a nuclear device or fissile or radiological material intended for 
illicit use.
    Question. For instance, the proposal for DNDO calls for its own 
office of assessments and evaluations. It has its own policy planning 
office. It has an R&D office as well as a systems development and 
acquisitions office. These are also functions currently performed by 
the Science and Technology Directorate and the Information Analysis and 
Infrastructure Protection (IAIP) Office.
    Is the Secretary proposing to set up a separate intelligence unit 
and a separate R&D arm just for this office? How does this affect 
ongoing efforts within the Science & Technology Directorate?
    Answer. With regards to intelligence collection and analysis, IAIP 
will continue to be the conduit for DNDO coordination with the larger 
intelligence community. Additionally, DNDO will leverage the current 
capabilities within IAIP for intelligence analysis. The DNDO's Joint 
Center for Global Connectivity (JCGC) will be closely integrated with 
the Homeland Security Operations Center (HSOC) to ensure that effective 
information flows in both directions. DNDO expects to receive all 
relevant intelligence information from IAIP in a timely manner and will 
provide additional technical analysis capabilities on a 24/7 basis as 
part of the JCGC. The JCGC, by receiving information and finished 
intelligence from sources across the Federal, State and local levels, 
will be able to additionally provide continuous analysis of real-time 
data streams and the capability to provide continual national 
situational awareness.
    With regards to research and development, the DNDO will continue to 
closely interface with the S&T Directorate on joint projects, as 
appropriate, for the development of technologies that may provide 
countermeasures against multiple threat types. The separation of the 
DNDO nuclear detection research, development, test, and evaluation 
(RDT&E) from the RDT&E conducted within the S&T Directorate will be 
conducted so as to not have any detrimental affect on potential 
collaborative efforts that would be gained through the S&T 
consolidation effort. The goal is to make sure that this Nation 
maintains a preeminent research and development program to address the 
technical challenges in radiation detection science and technology, 
while at the same time capitalizing on the benefits of integrating this 
program with larger acquisition and operational support efforts.
    Again, the intent of the DNDO is to provide an integration of 
efforts across the Department, as well as the rest of the Federal 
Government, rather than another disconnected layer of bureaucracy. For 
exactly this reason, the DNDO will be a jointly-staffed office with 
detailed employees from other DHS components, as well as other 
departments, to provide strong linkages and a mutual continual 
awareness between the DNDO and the parent organizations. The DNDO will 
not operate in a vacuum separate from the rest of the Department, but 
will instead operate in a fully-informed environment, cognizant of all 
relevant Department efforts, including the intelligence and R&D efforts 
mentioned.

    RADIOLOGICAL/NUCLEAR COUNTERMEASURES TEST AND EVALUATION COMPLEX

    Question. The budget request includes $9 million for a 
Radiological/Nuclear Countermeasures Test and Evaluation Complex. The 
budget indicates that $13 million was appropriated prior to fiscal year 
2004 and $11 million was appropriated in fiscal year 2004. When was the 
$13 million appropriated? Under which public law or laws was the 
funding included?
    Answer. At the stand up of DHS and S&T, funds were transferred from 
other departments to provide an initial funding base. In particular, 
funds for the Radiological/Nuclear Countermeasures Portfolio were 
originally transferred from the Defense Threat Reduction Agency (DTRA) 
and the Department of Energy (DOE). The first $13 million that was put 
on contract for the Radiological/Nuclear Countermeasures Test and 
Evaluation Complex was part of the fiscal year 2003 funding. Funding 
was included under a reprogramming of funds request, and Radiological/
Nuclear Countermeasures received $65 million which was approved by the 
House and Senate Appropriation Committees. The reprogramming did not 
specifically state that the S&T Directorate was using funds for the 
Radiological/Nuclear Countermeasures Test and Evaluation Complex; 
however, the S&T Directorate used $13 million for this effort.
    Question. The project schedule indicates that the construction 
phase is scheduled to begin on May 1, 2005. Is the project on schedule? 
If not, what impact does that have on the June 2006 completion goal?
    Answer. The Radiological/Nuclear Countermeasures Test and 
Evaluation Complex (CTEC) construction project is currently on schedule 
to meet the expected June 2006 completion goal.

                    UNIVERSITY CENTERS OF EXCELLENCE

    Question. Under Secretary McQueary testified last year that in 
addition to the risk analysis and agro-terrorism centers, two more 
solicitations would occur in fiscal year 2004 and if the budget request 
for fiscal year 2005 was maintained at fiscal year 2004 levels, an 
additional five Centers could be selected for a total of nine centers. 
In fiscal year 2005, the fourth center was named, but the fiscal year 
2006 budget request indicated that a fifth is being evaluated and two 
additional Centers are anticipated in fiscal year 2005 and fiscal year 
2006 for a total of seven.
    Why has the number of Centers planned by the Department changed?
    Answer. The Science and Technology Directorate plans on supporting 
seven Centers of Excellence and two Cooperative Centers in fiscal year 
2005 and fiscal year 2006, for a total of 9 Centers supported. The 
Broad Agency Announcement (BAA) for the fifth Center had proposals due 
at the end of April 2005. The BAAs for the sixth and seventh Centers 
are in development. The DHS-EPA Cooperative Center on Microbial Risk 
Assessment has been funded for fiscal year 2005, with the recipient to 
be announced shortly, and the second Cooperative Center is in 
development.
    Question. What areas of mission relevant research are not being 
considered because of the reduction from nine to seven Centers?
    Answer. We are planning on supporting a total of seven merit-based 
Centers of Excellence through fiscal year 2006; topics for the sixth 
and seventh Centers are being vetted within the Department for approval 
prior to announcement. We anticipate releasing Broad Agency 
Announcements requesting proposals for merit-based consideration in 
fiscal year 2005. In addition to the seven Centers of Excellence, the 
S&T Directorate will support two Cooperative Centers in fiscal year 
2005 and fiscal year 2006. We believe that these seven centers will 
address all current mission relevant research.

                 NATIONAL BIO AND AGRODEFENSE FACILITY

    Question. The budget proposes $23 million for the National Bio and 
Agrodefense Facility, which according to the project schedule, will 
cost over $450 million to complete. According to the project schedule, 
work to be performed in fiscal year 2006 will cost only $3 million. Why 
is $23 million needed in fiscal year 2006?
    Answer. The $3 million referenced will be spent in fiscal year 2005 
to initiate a conceptual design study to define the scope and size of 
the new facility. The $23 million fiscal year 2006 request will 
complete the conceptual design, the NEPA process including site 
selection, and initiate the detailed engineering design of the chosen 
concept.
    Question. Has a site been selected for this facility?
    Answer. No site has been chosen at this point in the NBAF 
development process. An interagency conceptual study has been 
undertaken by DHS, USDA and DHHS to explore three major options for 
NBAF each with increasing capability. The study will determine the 
programmatic requirements, scope and size of the facility taking into 
account cost, schedule, technical requirements and public support. This 
process will provide the basis for more detailed engineering design, 
NEPA evaluation and the site selection.
    Question. Is an authorization required for this facility?
    Answer. It is our understanding that under current legislation, an 
authorization for this facility is not required. However, should 
Congress decide to require one, we would of course comply.

                        CHEMICAL COUNTERMEASURES

    Question. The budget request includes an additional $49 million for 
the chemical countermeasures portfolio. The request indicates that $24 
million supports construction of a new facility for countermeasures 
testing. The object class for this funding is listed under ``Purchase 
of goods/services from Gov't accounts.'' Will this facility be leased 
or owned by DHS? Where will it be located? Why isn't this facility 
listed under the Capital Investment and Construction Initiative 
Listing?
    Answer. The budget request identifies a $24 million increase from 
fiscal year 2005 to fiscal year 2006 in ``Purchases from Government 
Accounts.'' This funding includes support of two activities: 
construction of a singular facility to conduct tests of countermeasures 
against non-traditional agents and the enhancement of threat 
characterization, analysis, and assessment, including initiation of 
toxicology and environmental fate studies of non-traditional agents. 
For clarity, of this $24 million, only $11 million are apportioned to 
support the construction of the countermeasure test facility. The test 
facility will be constructed at Edgewood Area, Aberdeen Proving Ground, 
MD, and will be a Department of Defense (DOD) facility. The DHS funds 
will be utilized to conduct a series of critical studies to provide 
much of the foundation data to support design and safe use of the 
facility, which is required for countermeasures assessment both by DOD 
and DHS. A Memorandum of Agreement (MOA) between DHS and DOD is in 
development to outline agreement on the requirements, shared expenses, 
and use terms of the facility. Since the DHS funding is provided to 
another government agency (Army) to support a facility of that agency, 
the object class is identified as ``Purchase of goods/services from 
Gov't accounts'' versus Capital Investment.
                                 ______
                                 

                Questions Submitted to Stewart Simonson

               Questions Submitted by Senator Judd Gregg

                HEALTH AND HUMAN SERVICES AND BIOSHIELD

    Question. Please provide a list of administrative, regulatory or 
legislative proposals needed to invigorate scientific research relevant 
to the development of needed countermeasures and products for natural 
pandemics and epidemics.
    Answer. There is a very active scientific effort underway to 
develop needed medical countermeasures and products for natural 
pandemics and epidemics. Much of this effort is supported by the 
National Institute of Allergy and Infectious Diseases (NIAID) at the 
National Institutes of Health (NIH). For example, NIAID is using 
Project BioShield authorities to expedite the development of assays to 
be used for the high-throughput screening of candidate therapeutics for 
influenza. Influenza is currently considered a Category C biological 
threat agent by the Centers for Disease Control and Prevention (CDC). 
The influenza antiviral therapeutics currently available are limited 
and the rapid emergence of antiviral resistance with widespread use of 
these therapeutic agents is a potential concern.
    Finding new options for treating influenza are a high priority for 
the Nation, as the Department of Health and Human Services (HHS) draft 
Pandemic Influenza Response and Preparedness Plan articulates.\1\ 
Grants will support research projects focused on the development of 
needed diagnostic assays and screening techniques to permit speedier 
identification of compounds with the potential to be effective against 
a broad spectrum of influenza strains, including newly emergent 
influenza strains.
---------------------------------------------------------------------------
    \1\ A copy of the Pandemic Influenza Response and Preparedness Plan 
can be found at http://www.hhs.gov/nvpo/pandemicplan/.
---------------------------------------------------------------------------
    In an effort to address the pressing need for additional reliable 
influenza medical countermeasures, the RFP, NOT-AI-05-045, was released 
on June 17, 2005, and the receipt date for applications is September 1, 
2005. Grants are expected to be awarded in fiscal year 2006. The 
Department of Health and Human Services will implement appropriate 
administrative and regulatory actions to facilitate this research 
activity.
    Question. Many innovators complain that they cannot get access to 
your office for an evaluation of their new product ideas. Please 
describe your process for screening new products and new ideas.
    Answer. HHS/OPHEP/ORDC has hosted numerous meetings with external 
stakeholders. These meetings provide a forum for innovators to give 
presentations on their products and to describe their capabilities to 
ORDC. We have had over thirty contacts from industry since January 
2005. ORDC hosts a Project BioShield website http://www.hhs.gov/ophep/
bioshield/ that provides frequently updated information on ongoing and 
planned acquisitions under Project BioShield. The website also has an 
email link that allows users to send a message directly to ORDC.
    New products or ideas are screened depending upon factors including 
the credibility and potential impact of the threat it proposes to treat 
and stage of development in the research and development pipeline.
    If the product is in the early stages of development, companies and 
researchers need to seek NIH funding through grants, contracts, 
partnerships or the Small Business Innovation Research (SBIR) program. 
The SBIR is a set-aside program (2.5 percent of an agency's extramural 
budget) for domestic small business concerns to engage in Research/
Research and Development (R/R&D) that has the potential for 
commercialization. The SBIR program was established under the Small 
Business Innovation Development Act of 1982 (Public Law 97-219), 
reauthorized until September 30, 2000 by the Small Business Research 
and Development Enhancement Act (Public Law 102-564), and reauthorized 
again until September 30, 2008 by the Small Business Reauthorization 
Act of 2000 (Public Law 106-554).
    If an innovator's product is sufficiently advanced in development, 
then the Office of Research and Development Coordination (ORDC) in the 
Office of Public Health Emergency Preparedness (OPHEP) at HHS meets 
with developers to provide guidance concerning the Project BioShield 
acquisition process. This process includes a Material Threat 
Determination (MTD) and a Material Threat Assessment (MTA) by the 
Department of Homeland Security. A MTD is issued by the Secretary of 
Homeland Security if it is determined that the specific CBRN threat 
presents a material threat against the United States population 
sufficient to affect national security. The MTAs provide information 
about the extent of the threat and the vulnerabilities and are used to 
inform U.S. Government (USG) medical countermeasure requirements. The 
USG requirements and recommendations for acquisitions are established 
by the interagency Weapons of Mass Destruction Medical Countermeasures 
Subcommittee of the National Science and Technology Council. The 
Project BioShield acquisition process also includes a joint 
recommendation for acquisition by the Secretaries of HHS and the 
Department of Homeland Security (DHS), and an approval for the 
acquisition by the White House.
    Question. Several recommendations have been made to formalize 
access for screening new ideas for products, including convening a 
working group of outside experts, contracting with the private sector, 
and web-based submissions. Please provide a list of proposals on how 
you would recommend formalizing access for screening new ideas for 
products.
    Answer. The NIH peer review process works very well in providing an 
initial evaluation of new ideas. Both NIH and ORDC staff frequently 
meet with developers using a ``Technology Watch'' process aimed at 
ensuring that USG medical countermeasure research and development 
experts are informed about promising, innovative products. As part of 
the Technology Watch process, ORDC issues periodic Requests for 
Information (RFI) to determine the level of maturity of the medical 
product targeting countermeasures of interest in the developmental 
pipeline. Finally, ORDC has a regularly updated website and an email 
address that allows for web-based submission of questions.
    Question. You made mention in your testimony of a number of Project 
BioShield related procurement-related activities that include Pre-
solicitation notices, Requests for Information, and Requests for 
Proposals. Can you provide additional information about these 
activities?
    Answer. A copy of the current OPHEP/ORDC BioShield procurement 
activities is attached for your convenience. Furthermore, information 
on these procurement-related activities is available on our website at 
http://www.hhs.gov/ophep/bioshield/PBPrcrtPrjct.htm. This information 
is also available at http://www.fedbizopps.gov.
    Question. As described in the Project BioShield Act of 2004, there 
are a number of determinations that must be made to support the 
acquisition of a security countermeasure using the special reserve fund 
appropriated in the fiscal year 2004 DHS Appropriations bill. Can you 
please describe the role of HHS and the process used to make these 
determinations, specifically that the determinations that 
countermeasures are necessary and are appropriate for inclusion in the 
Strategic National Stockpile and the joint recommendation for 
procurement?
    Answer. The Secretary of Homeland Security is charged with making 
material threat determinations (MTDs). Upon receipt of the DHS MTD the 
Secretary of Health and Human Services determines if medical 
countermeasures are necessary to protect the public health. If 
countermeasures are needed, the Secretary of Health and Human Services 
must determine the number of doses required, if production and delivery 
of a approved or licensed product is feasible with 8 years of contract 
award, and an evaluation of whether there is a commercial market for 
the product(s) other than as a security countermeasure. Finally, the 
Secretaries of Homeland Security and Health and Human Services jointly 
recommend to the President that the Special Reserve Fund be made 
available for the recommended countermeasure procurement. The approval 
for the procurement is made by the President (now delegated to the 
Office of Management and Budget.)
    Question. In your testimony, you've provided us with a summary of 
the many accomplishments of your office since the enactment of the 
Project BioShield Act of 2004, also known as BioShield I. As you know, 
I am sponsoring the so-called ``BioShield II'' bill to further expand 
on the efforts of BioShield I including indemnification for product 
manufacturers and liability protection for health workers and patent 
protections. Do you feel that the new bill appropriately addresses 
remaining obstacles to medical countermeasure development against 
weapons of mass destruction?
    Answer. The Department of Health and Human Services is committed to 
the development and acquisition of priority security countermeasures 
and will work with Congress and stakeholders to address obstacles to 
the effective implementation of Project BioShield.
    Question. It is often stated that it takes 10 years to develop 
medical products. What makes HHS believe that it can accomplish this in 
less time?
    Answer. It generally takes 10 years to develop a medical product 
from inception to full FDA licensure or approval by proceeding along a 
conservative, serial regulatory path. Project BioShield allows for the 
procurement and delivery of medical countermeasures to the Strategic 
National Stockpile (SNS) prior to full FDA approval or licensure and 
their use under the Emergency Use Authorization provision of the 
Project BioShield Act of 2004.
    In order to acquire these critical medical countermeasures as 
quickly as possible, Project BioShield encourages a parallel 
development process in which the developer concurrently is finalizing a 
formulation while conducting animal or human clinical trials and 
scaling up and validating a current Good Manufacturing Practices (cGMP) 
production process. This approach has some increased risk of failure; 
however, the process is very closely monitored by relevant HHS staff.
    Question. There are many different biological threats. Can you 
explain why so much of the BioShield activities are focused on anthrax?
    Answer. The initial focus of our efforts to protect the Nation was 
aimed largely at those threats that could do the greatest harm to the 
greatest number of our citizens--namely, smallpox and anthrax. An 
attack involving the aerosol dissemination of anthrax spores, 
particularly in an urban setting, was considered by public health 
experts to have the potential for catastrophic effects. The potential 
for large-scale population exposure following aerosol release of 
anthrax spores, the threat demonstrated by the anthrax letters, the 
persistence of anthrax spores in the environment and our knowledge that 
anthrax had been weaponized by state-actors, highlighted the nature of 
the threat. The Secretary of Homeland Security determined that anthrax 
posed a material threat against the United States population sufficient 
to affect national security. And, because untreated inhalation anthrax 
is usually fatal, the Secretary of HHS determined that additional 
countermeasures were necessary to protect the public health.
    Question. I understand that the NIAID rPA anthrax vaccine advanced 
development contracts with VaxGen and Avecia are still ongoing. Why did 
you make the decision to commit to the acquisition of 75 million doses 
of this product before those NIAID contracts were completed?
    Answer. The material threat assessment provided by the DHS 
supported the requirement to acquire sufficient vaccine to protect 25 
million persons (75 million doses). The development work performed 
under the NIAID contracts had proceeded to a level such that HHS had 
confidence that a final rPA vaccine product was achievable and 
licensable within 8 years of a contract award.
    Question. In your statement you testified that the stockpile 
already contains sufficient smallpox vaccine to protect every American. 
Can you please explain why it is necessary to purchase any additional 
vaccine?
    Answer. The smallpox vaccines currently in the Strategic National 
Stockpile are live virus vaccines derived from a virus called vaccinia. 
These replicating vaccines are contraindicated in some segments of the 
population, particularly those with weakened immune systems. Therefore, 
there is a need to develop a vaccine which will be more appropriate for 
use in these persons. An attenuated smallpox vaccine with limited 
replication in humans, such as the Modified Vaccinia Ankara (MVA) 
vaccine would be appropriate for use in such individuals.
    Question. Former Secretary Tommy Thompson stated that food-borne 
bioterrorism was one of his greatest concerns. Certainly, deliberate 
contamination of food with botulism could result in a large number of 
casualties. Would you please further describe your planned procurement 
for botulism countermeasures?
    Answer. Botulism toxin was determined to be a material threat by 
the Department of Homeland Security on June 9, 2004. Presidential 
approval for the acquisition of botulinum antitoxin using special 
reserve funds under Project BioShield was granted on August 17, 2004. 
HHS released a presolictiation notice on September 4, 2004 indicating 
its intention to acquire 200,000 doses of heptavalent equine botulinum 
antitoxin through a sole-source contract. The Request for Proposal was 
issued to the prospective offeror on July 14, 2005. Horses are 
currently being immunized to generate the plasma necessary to produce 
the botulinum antitoxin. A contract award is anticipated in the 3rd 
quarter of 2005.
    Question. There is concern that we may not be responding adequately 
to the threat of nuclear or radiological terrorism. What is HHS doing 
to protect the public from illness after exposure to radiation? 
Particularly, would you provide more information regarding procurement 
of medical countermeasures against this threat?
    Answer. The Strategic National Stockpile (SNS) currently contains 
medical countermeasures to treat the spectrum of potentially life-
threatening effects of radiation exposures. These include drugs to 
block entry or to remove radioactive particles from the body as well as 
to treat a major effect of penetrating radiation known as acute 
radiation syndrome (ARS). Specifically, the SNS currently contains the 
following:
  --Potassium Iodide and a pediatric liquid formulation of potassium 
        iodide. Potassium Iodide is used to block the uptake of 
        radioactive iodine that could be released following a nuclear 
        detonation or a nuclear power plant accident;
  --Calcium and zinc diethylenetriaminepentaacetate (Ca/Zn DTPA). The 
        DTPAs are used to remove radioactive transuranic particles such 
        as plutonium and americium from the body following the use of a 
        dirty bomb or similar device;
  --Prussian Blue. This drug is used to remove radioactive cesium from 
        the body after a nuclear detonation or use of a dirty bomb or 
        similar device; and
  --Filgrastim. This drug is used to treat life-threatening suppression 
        of infection-fighting white blood cells after whole-body 
        exposure to high doses of penetrating radiation--a form of 
        acute radiation syndrome.
    Additionally, a Request for Information (RFI) for countermeasures 
for an acute radiation syndrome was published in October 2004. 
Responses to that RFI have been evaluated and a Request for Proposals 
(RFP) is being developed. We are in the process of determining what the 
specific requirements and acquisition options are so that we can 
proceed with the acquisition process. HHS is eager to enlarge the 
holdings of the Strategic National Stockpile (SNS) with respect to 
radiological/nuclear countermeasures. Accordingly, the quality of the 
proposals and the stage of product development will determine how HHS 
acts on the results of the RFI and RFP.
    Question. Nuclear or radiological terrorism has been cited as one 
of the greatest threats this country faces with regard to homeland 
security. Several promising bone marrow protection drugs could be 
available in the near term to protect against this threat. When do you 
expect to procure such drugs for the National Strategic Stockpile?
    Answer. The Strategic National Stockpile (SNS) currently contains 
medical countermeasures to treat the spectrum of potentially life-
threatening effects of radiation exposures. These include drugs to 
block entry or to remove radioactive particles from the body as well as 
to treat a major effect of penetrating radiation known as acute 
radiation syndrome (ARS). Specifically, the SNS currently contains the 
following:
  --Potassium Iodide and a pediatric liquid formulation of potassium 
        iodide. Potassium Iodide is used to block the uptake of 
        radioactive iodine that could be released following a nuclear 
        detonation or a nuclear power plant accident;
  --Calcium and zinc diethylenetriaminepentaacetate (Ca/Zn DTPA). The 
        DTPAs are used to remove radioactive transuranic particles such 
        as plutonium and americium from the body following the use of a 
        dirty bomb or similar device;
  --Prussian Blue. This drug is used to remove radioactive cesium from 
        the body after a nuclear detonation or use of a dirty bomb or 
        similar device; and
  --Filgrastim. This drug is used to treat life-threatening suppression 
        of infection-fighting white blood cells after whole-body 
        exposure to high doses of penetrating radiation--a form of 
        acute radiation syndrome.
    Additionally, a Request for Information (RFI) for countermeasures 
for an acute radiation syndrome was published in October 2004. 
Responses to that RFI have been evaluated and a Request for Proposals 
(RFP) is being developed. We are in the process of determining what the 
specific requirements and acquisition options are so that we can 
proceed with the acquisition process. HHS is eager to enlarge the 
holdings of the Strategic National Stockpile (SNS) with respect to 
radiological/nuclear countermeasures. Accordingly, the quality of the 
proposals and the stage of product development will determine how HHS 
acts on the results of the RFI and RFP.
    Question. It is estimated that one quarter of the U.S. population 
cannot take the current smallpox vaccine that we have in our stockpile. 
NIH has been hard at work on the development of a safe MVA-based 
smallpox vaccine for that portion of the population that is 
contraindicated. Please describe where we are in the development of the 
vaccine and when you plan to issue your RFP for the purchase of the MVA 
vaccine?
    Answer. HHS released a presolicitation notice in anticipation of 
releasing an RFP by the end of the summer to manufacture and deliver to 
the SNS up to 20 million doses of the attenuated smallpox vaccine, 
modified vaccinia Ankara (MVA).
    Question. If the recent anthrax incident at the DC postal and DOD 
facilities had turned out be a real anthrax attack requiring the use of 
both antibiotics and the vaccine for those exposed and vaccinations for 
first responders, how many doses of the FDA licensed anthrax vaccine 
that are currently in Strategic National Stockpile managed by HHS would 
be used?
    Answer. The SNS currently contains sufficient antibiotics to treat 
about 180,000 symptomatic anthrax patients and to provide for a 60 day 
prophylaxis of more than 25 million persons. This stockpile of 
antibiotics is growing monthly. The USG is currently negotiating for 
the acquisition of specific anthrax antitoxins to treat symptomatic 
anthrax patients. In addition to the use of antibiotics, HHS would 
deploy as much anthrax vaccine from the SNS as was required to respond 
to the event and to protect the population. The vaccine and the 
prophylactic antibiotics would likely be used concurrently. There 
currently is no FDA-licensed vaccine for post-exposure use following 
anthrax exposure. In May 2005, HHS awarded a contract to BioPort 
Corporation for the manufacture and delivery of 5 million doses of 
licensed anthrax vaccine adsorbed (AVA) to the stockpile. There are at 
present over 1 million doses of AVA available for the pre-exposure 
immunization of at-risk groups such as certain laboratory workers and 
first responders who would be involved with the response to an attack.
    Question. For the past 1\1/2\ years, HHS has been in the process of 
acquiring 5 million doses of the FDA licensed vaccine for the CDC 
stockpile while the agency has committed nearly $1 billion under 
government contracts to acquire 75 million doses of an early-stage 
anthrax vaccine from a single manufacturer. Why has it taken so long 
after the 2001 anthrax attacks for HHS to acquire any additional doses 
of the current FDA-licensed vaccine for the stockpile?
    Answer. HHS acquired a small amount of the AVA vaccine for civilian 
use (21,400 doses) following the anthrax events of the fall of 2001. 
Thereafter HHS initiated a process to acquire licensed AVA anthrax 
vaccine from DOD. Various administrative and legal issues caused delays 
in this acquisition. Once Project BioShield was enacted, HHS determined 
that initiating a BioShield acquisition contract directly with the AVA 
vaccine manufacturer, BioPort Corporation, would be the best mechanism 
to acquire this vaccine. HHS awarded the contract on May 5, 2005 for 5 
million doses and the company completed the initial delivery of over 1 
million doses soon after contract award. We would be happy to provide 
timelines if helpful.
    Question. Please explain the decision to eliminate from the 
President's fiscal year 2006 budget the funding for the CDC dose 
reduction studies to allow FDA approval for fewer doses of the FDA-
licensed anthrax vaccine given that FDA approval of the new anthrax 
vaccine is still years away? If the number of doses for pre-exposure 
vaccinations against anthrax could be reduced in half, wouldn't that 
also result in significant net cost savings for the Federal Government 
and double the number of 1st responders and other who could be 
vaccinated and protected before an anthrax occurs?
    Answer. At the inception of this program in 1999, HHS anticipated 
it would take 5 years to complete the necessary studies. It is 
important to note that this type of study is normally undertaken by the 
manufacturer in the interest of improving product utilization. To date 
the program has generated sufficient data to allow BioPort to submit a 
request to the FDA to change the route of administration from 
subcutaneous to intramuscular and to decrease the six dose priming 
series from six to five doses.
    CDC has now completed the anthrax vaccine clinical trial interim 
safety analysis, has presented the results to key stakeholders and has 
submitted the final report detailing all findings from the safety 
analysis to the Food and Drug Administration (FDA). Accordingly, the 
HHS bioterrorism preparedness budget placed the highest priority on 
expanding mass-casualty treatment capacity and procuring additional 
pharmaceuticals for the Strategic National Stockpile.
    Question. Would HHS provide assurance that the human clinical, 
animal and CDC laboratory dose reduction studies for the currently 
licensed anthrax vaccine will be continued and completed given the 
potential rapid deployment and cost saving benefits for first 
responders, lab workers and others from fewer doses?
    Answer. Yes. As indicated above, HHS anticipated it would take 5 
years to complete the necessary studies. CDC has now completed the 
anthrax vaccine clinical trial interim safety analysis. The program has 
generated sufficient data to allow BioPort to submit a request to the 
FDA to change the route of administration from subcutaneous to 
intramuscular and to decrease the six dose priming series from six to 
five doses.
    Question. One of the chief purposes of the Project BioShield Act of 
2004 (the ``Act'') was to provide contracting flexibility to enable the 
government to more rapidly acquire countermeasures against biological, 
chemical, radiological or nuclear agents that might be used in 
terrorist attacks. To what extent has HHS used simplified acquisition 
procedures in the following Bioshield procurements:
  --Solicitation No. DHHS-ORDC-05-01 for Pediatric Formulation of 
        Potassium Iodide;
  --Solicitation No. RFP-DHHS-ORDC-04-01 for Licensed Anthrax 
        Recombinant Protective Antigen (rPA) Vaccine for the Strategic 
        National Stockpile;
  --Solicitation No. 2004-N-01385 for Therapeutic Products for 
        Treatment of Inhalational Anthrax Disease for the Strategic 
        National Stockpile (the ``Anthrax Therapeutics Solicitation''); 
        and
  --Solicitation No. 2005-B-01696 for Anthrax Vaccine Adsorbed 
        (BioThrax<SUP>TM</SUP>).
    Answer. Simplified acquisition procedures were not used for these 
procurements. Some of these products could be obtained only through a 
sole source, therefore a Justification for Other than Full and Open 
Competition (JOFOC) was used. Since there was more than one potential 
source, other products were acquired under full and open competitive 
procedures as governed by the FAR.
    Question. To what extent does HHS plan to use simplified 
acquisition procedures in the following upcoming procurements:
  --Solicitation No. 2004-N-01183 for 200,000 Doses of Heptavalent 
        Botulinum Immune Globulin Reference-Number;
  --Request for Information (RFI) ORDC-05-01 for Therapeutics to Treat 
        Neutropenia and Thrombocytopenia Associated with the Acute 
        Radiation Syndrome (ARS); and
  --RFI No. ORDC-05-03 for Development and Manufacture of Plasma 
        Derived Human Butyrl-Cholinesterase as a Prophylactice/
        Therapeutic for Exposure to Nerve Agents?
    Answer. For each proposed BioShield procurement, HHS reviews the 
contract options available and applies the most appropriate authorities 
to facilitate a fair, technically sound, and rapid acquisition. For 
example, HHS has selected to use a sole-source acquisition strategy for 
the procurement of the 200,000 doses of equine heptavalent botulinum 
immune globulin cited above.
    Question. Certain discretionary procurement laws and regulations, 
such as the requirement for submission of certified cost and pricing 
data under the Truth in Negotiations Act, place tremendous burdens on 
commercial entities that do not regularly do business with the Federal 
Government. Given that the express goal and clear intent of the Act is 
to encourage greater participation by commercial entities in supplying 
the Nation with needed countermeasures, to what extent has HHS, in its 
discretion, required compliance with such laws and regulations (and 
specifically, the submission of certified cost and pricing data) 
notwithstanding the existing regulatory exemptions for commercial 
entities to avoid such unnecessary burdens and the clear intent of the 
Act to reduce the regulatory burden on procurements conducted under the 
Act as much as possible?
    Answer. In order to obtain the best value to the government and to 
negotiate a fair price it is essential for the USG to have certified 
cost and price data unless the contract can be awarded based on 
adequate price competition. Cost or pricing data is especially needed 
in regard to those entities that may not as yet have a commercially 
marketed product or may be using a unique, innovative production 
process.
    Question. Please provide an explanation for any failure in Project 
Bioshield procurements, both completed or on-going, to use the 
simplified acquisition authorities granted to HHS under Sections 319F-
1(b)(1) and 319F-2(c)(7)(C)(iii) of the Public Health Service Act 
(``PHSA'') as intended by the Act.
    Answer. Simplified acquisition procedures have not been used for 
Project Bioshield procurements to date. Some products could only be 
obtained through a sole source, therefore a Justification for Other 
than Full and Open Competition (JOFOC) was used. Since there was more 
than one potential source, other products were acquired under full and 
open competitive procedures as governed by the FAR.
    Question. Another chief purpose of the Act was to create incentives 
for manufacturers to develop countermeasures. The main incentive 
included in the Act was a grant of authority to the Secretary of HHS to 
issue a call for development of countermeasures and to include in that 
call a commitment that, upon the first development of a countermeasure 
that meets the criteria of the Act, the Secretaries of HHS and the 
Department of Homeland Security (``DHS'') will recommend procurement of 
the countermeasure to the President. This provision was intended to 
promote the development of a biodefense industry by informing the 
markets that there is some certainty that there will be a government 
market for the product. The Act also requires that calls for 
countermeasures include: an estimated quantity of purchase, necessary 
measures of minimum safety and effectiveness; estimated price for dose 
and other information necessary to encourage and facilitate research, 
development and manufacture of the countermeasure. Sec. 319F-2(c)(4) of 
the PHSA.
  --What calls for countermeasures have been issued by HHS? Please 
        provide copies of these announcements.
  --BioShield requires HHS to provide a single estimate of the quantity 
        of countermeasures needed by the government. Has this process 
        been included in every Bioshield procurement to date and if 
        not, why not?
    Answer. The publication of a Request for Information (RFI) signals 
the USG interest in a particular countermeasure. The publication of the 
Request For Proposal (RFP) is essentially a ``call for 
countermeasures'' and indicates, by setting specific requirements and 
expectations, the government's commitment to an acquisition, including 
that funds are available to proceed with the procurement. The 
publication of the RFP and the statement of the specific requirements 
in the RFP establish that there is a certainty for a government market 
for the product.
    It is expected that most RFPs for BioShield acquisitions will 
provide a single baseline required quantity for procurement. Some RFPs 
also may provide options to acquire additional product beyond an 
initial requirement, based on ongoing threat assessments and ongoing 
requirements reviews. The RFP for ``Therapeutic Products for the 
Treatment of Inhalation Anthrax Disease'' (RFP-2004-N-01385) indicated 
a range of treatments required (10,000 to 200,000 treatments). This was 
structured to allow for the flexibility to acquire several products of 
differing therapeutic classes to meet the stockpile goal.
    Question. The Act envisions the use of animal models to permit 
expedited consideration by the FDA of request for approval for 
countermeasures. What steps have been taken to assure that the FDA has 
developed and implemented new procedures under the animal rule and 
related emergency-like powers under BioShield to signal its commitment 
to not slow down industries work to develop more countermeasures as 
quickly as possible?
    Answer. The FDA has been actively engaged in the review of animal 
models and the applicability of the ``Animal Efficacy Rule'' (Federal 
Register 67: 37988-37998, 2002) to facilitate the acquisition of 
critically needed medical countermeasures. Meetings with developers and 
the review of submissions related to bioterrorism countermeasures are 
given a priority status. The FDA staff work closely with NIH and DOD 
staff in the early phases of protocol designs and test methodology 
development. The FDA has a major role in the Product Development Tools 
(PDT) Working Group of the Weapons of Mass Destruction Medical 
Countermeasures Subcommittee which includes representatives of DOD, DHS 
and USDA as well as HHS. This PDT working group evaluates the need for 
animals, appropriateness of animal models in use and the need for 
additional models, facilities and reagents to support medical 
countermeasures R&D.
    Question. As you are aware, the issue of liability protections has 
been widely discussed as a necessary component to encourage greater 
participation in Project BioShield. While additional legislation may be 
needed, what steps has HHS made to maximize use of its existing 
authorities under Public Law 85-804 and the SAFETY Act to mitigate the 
risks associated with the development of countermeasures? Specifically, 
has HHS made clear that indemnification will be included as a contract 
term during the Request for Proposal process, thus allowing potential 
bidders the assurance that liability will not be a issue should they be 
successful in winning the award in advance of incurring proposal costs? 
If not, why not? Has HHS sought and/or received an exception from the 
requirement under the implementing Executive Order for Public Law 85-
804 that application under the SAFETY Act is a condition for 
application for indemnification? If not, has HHS been willing to 
indemnify contractors for risks not otherwise excluded by the SAFETY 
Act? Has HHS worked with the Department of Homeland Security to 
integrate the SAFETY Act application process into the procurement 
process for countermeasures in order to expedite review and 
consideration of a SAFETY Act application by bidder? If not, why not?
    Answer. In a number of instances, HHS has required contractors to 
apply for SAFETY Act protection as a condition of indemnification. 
Moreover, we have complied with Executive Order No. 13286, which 
requires that before granting indemnification, the indemnifying agency 
obtain (1) the Department of Homeland Security's (DHS) judgment as to 
whether the agency's requirement may constitute a qualified anti-
terrorism technology (QATT) eligible for SAFETY Act protection, and (2) 
Office of Management and Budget approval in light of the DHS 
determination.
    HHS has not generally indicated in its solicitations that 
indemnification will be included as a contract term. Subpart 50.4 of 
the Federal Acquisition Regulation, concerning indemnification under 
Public Law 85-804, contemplates that contractors will request 
indemnification, rather than that the procuring agency will offer 
indemnification on its own initiative. Not all BioShield contractors 
have sought indemnification. Moreover, the Secretary must personally 
consider each request for indemnification on its own merits based on 
contractor submissions regarding, e.g., the availability of insurance. 
Thus, the contracting officer cannot preempt the Secretary by 
guaranteeing indemnification in the solicitation.
    Executive Order No. 13286 does not require that contractors apply 
for SAFETY Act protection as a condition of indemnification; rather, as 
described above, the indemnifying agency must obtain DHS' determination 
whether the agency's requirement may constitute a QATT eligible for 
SAFETY Act protection. HHS has not sought an exception to this 
requirement. HHS has indemnified contractors for risks not excluded by 
the SAFETY Act.
    Question. The Project BioShield Act grants HHS authority to enter 
into personal service contracts and streamlined personnel authorities 
to aid in the performance, administration or support of countermeasure 
research and development. Sec. 319F-1(d) and (e) of the PHSA. To what 
extent has HHS used this authority? Please explain any failures to use 
this authority.
    Answer. To date, NIAID has used Project BioShield authorities to 
hire two individuals, with a third appointment pending. The positions 
filled are:
  --One individual in the dual positions of NIAID Associate Director 
        for Biodefense Product Development and Director of the Division 
        of Microbiology and Infectious Diseases' Office of Biodefense 
        Research Activities; salary >$100,000.
  --One individual for the position of Associate Director for Product 
        Development in the Division of Allergy, Immunology, and 
        Transplantation; salary >$100,000.
  --One individual for the position of Associate Director for Radiation 
        Countermeasures Research and Emergency Preparedness, in the 
        Division of Allergy, Immunology, and Transplantation; salary 
        >$100,000.
    Question. Section 5(c) of the Act requires the Secretaries of DHS 
and HHS to issue a report to Congress within 120 days after the 
enactment of the Act concerning whether there is a lack of adequate 
large scale biocontainment facilities necessary for the testing of 
countermeasures in accordance with Food and Drug Administration 
requirements. Why has this report not been issued? What work has been 
done on this report? When will it be issued?
    Answer. An interim report was submitted to Congress on April 28 
2005, and the final report will be submitted soon. Additional time was 
needed to sufficiently conduct an assessment of U.S. Biocontainment 
facilities.
    Question. The Act requires the Secretaries of HHS and DHS to enter 
into an interagency agreement for procurement of countermeasures in 
accordance with the requirements of the Act. Sec. 319F-2(c)(7)(B). 
Please provide a copy of this agreement.
    Answer. A copy of this agreement as it applies to the acquisition 
of rPA anthrax vaccine is attached.
    Question. The Act requires HHS to institute appropriate controls 
concerning the use of procurement authorities under the Act. Secs. 
319F-1(b)(1)(C) and 319F-2(c)(7)(C)(iii)(III) of the PHSA. Please 
provide a copy of the written guidance explaining these controls. Does 
HHS intend to publish the controls as regulations? Does HHS intend to 
promulgate implementing regulations for the entire Act? If so, when? If 
not, why not?
    Answer. The BioShield Act is sufficiently detailed and prescriptive 
to obviate the need for regulations. The procurement control process is 
conducted consistent with the Federal Acquisition Regulations (FAR) and 
the Health and Human Services Acquisition Regulations (HHSAR). HHS will 
be happy to provide the Committee with a copy of these documents should 
you so desire.
                                 ______
                                 

              Questions Submitted by Senator Arlen Specter

    Question. What role do you envision CDC would play in any new 
BioShield legislation? Should not CDC be heavily involved in the 
implementation of any future BioShield program?
    Answer. CDC plays a significant role in current BioShield programs. 
The Strategic National Stockpile (SNS) is located within CDC, is very 
actively engaged in the BioShield acquisition process, and provides the 
primary storage sites and distribution mechanisms for BioShield 
products. Subject matter experts (SMEs) at CDC are participants of the 
Weapons of Mass Destruction Medical Countermeasure Subcommittee (WMD 
MC), which reviews and establishes the requirements for BioShield 
acquisitions.
    Section 10 of President Bush's Homeland Security Presidential 
Directive/HSPD-8 issued in December of 2003 States that ``the Secretary 
of HHS . . . and heads of other Federal departments and agencies that 
provide assistance for first responders preparedness will base those 
allocations on assessments of population concentrations, critical 
infrastructures, and other significant risk factors, particularly 
terrorism threats, to the extent permitted by law.''
    Question. Has HHS abided by this Presidential directive in the 
allocation of State and Local bioterrorism preparedness funding?
    Answer. The Department of Health and Human Services (HHS) funding 
priorities for State and local bioterrorism preparedness are consistent 
with Homeland Security Presidential Directive 8 (HSPD-8). A large 
percentage of public health emergency preparedness funds are allocated 
using a ratio of jurisdictional to U.S. population. In addition, this 
year CDC allocated funds for mass prophylaxis preparedness in 21 major 
metropolitan areas through the Cities Readiness Initiative (CRI). Mass 
preparedness is one of our Nation's priorities as described in the 
Interim National Preparedness Goal. Urban areas are selected for CRI 
based on population, risk, threats, and infrastructure. All of the CRI 
awardees are also Urban Area Security Initiative (UASI) grantees. This 
year HHS awarded funds to 15 additional metropolitan statistical areas 
to support preliminary planning for becoming full CRI awardees in 
fiscal year 2006, as proposed in the President's budget request. CDC 
has developed Preparedness Goals designed to measure urgent public 
health system response performance parameters that are directly linked 
to health protection of the public. The Preparedness Goals are intended 
to measure urgent public health system response performance for 
terrorism and non-terrorism events including infectious disease, 
environmental and occupational related emergencies. Preparedness 
measures are a subset of the overarching targeted capabilities list and 
are consistent with national preparedness goals
    Question. What is the process for determining the prioritization of 
items to be purchased for the Strategic National Stockpile? At what 
level of the process are the scientists and infectious disease experts 
of the National Institutes of Health and the Centers for Disease 
Control and Prevention included?
    Answer. The classifications of Category A, B, and C agents (agents 
that are likely to be used in a bioterror attack) have been generated 
from infectious disease and medical analyses to which NIH and CDC 
scientists contributed significantly. We have initially focused our 
countermeasure procurement efforts on Category A agents that pose the 
greatest threats. To address the threat of any one particular agent, 
consideration is given to currently available countermeasures, such as 
antibiotics and vaccines. Further consideration includes the need for 
or role of new countermeasures, such as antitoxins, next generation 
vaccines, or antibiotics. Perceived need and absence of a new 
countermeasure informs research initiatives. Scientists from OPHEP, 
NIH, CDC, Food and Drug Administration (FDA), Department of Defense 
(DOD), and Department of Homeland Security (DHS) are asked to determine 
which new countermeasures are scientifically advanced enough to invest 
in advanced development and testing, would have the greatest public 
health impact, and have the greatest likelihood of success.
    The process to determine which countermeasures are placed in the 
SNS is informed by the interagency WMD MC subcommittee. This is an 
interdepartmental subcommittee initially chartered by the Office of 
Science and Technology Policy (OSTP) and co-chaired by senior 
government officials from DHS, HHS, and DOD. The material threat 
assessments (MTA) developed by DHS based on a plausible attack scenario 
informs the sizing of the procurement requirement. HHS, through the 
coordination efforts of OPHEP, then evaluates the availability of 
currently developed countermeasures and assesses the scientific 
opportunities to develop new countermeasures. The WMD MC then 
deliberates on the nature of the medical consequence and the 
availability of appropriate countermeasures to develop a recommendation 
for the acquisition of a specific countermeasure. HHS can issue a 
Request for Information (RFI) to determine the market availability and 
to alert industry to the U.S. Government interests. Once a U.S. 
Government requirement for a particular new medical countermeasure has 
been established by the WMD MC and approved by OMB is granted, a 
Request for Proposals (RFP) announcing the specific requirements 
follows. HHS implements the acquisition process.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

             LACK OF BIOSHIELD FUNDING FOR RAD/NUC RESPONSE

    Question. On April 13th, the Department of Homeland Security wrote 
Congress notifying us of the creation of the Domestic Nuclear Detection 
Office. In the letter, the Department justified the creation of the 
Office based on the assertion that, ``The risk that terrorists will 
acquire and use a nuclear/radiological device is one of the gravest 
threats that confronts the Nation.''
    Yet despite this assertion, our Nation is still without a practical 
way to medically treat the thousands or even hundreds of thousands of 
Americans who may be exposed or who may believe they have been exposed 
to radiation in the event we are attacked in this way. While I 
understand that radiological and nuclear threats have been certified as 
a ``material threat,'' I was surprised to learn that the Bioshield 
program has not actually been used to procure several very promising 
drugs that are now in late-stage development and could be available in 
the near term to respond to this most insidious of threats.
    Beyond your limited plan to purchase pediatric potassium iodide, 
what is your schedule for procuring drugs for the national stockpile to 
respond to what is called Acute Radiation Syndrome (ARS)?
    Answer. HHS is eager to enlarge the holdings of the SNS with 
respect to radiological/nuclear countermeasures. A Request for 
Information (RFI) for countermeasures for an ARS was published in 
October 2004. Responses have been evaluated; and a Request for 
Proposals (RFP) is being developed. We anticipate releasing a draft RFP 
for industry comment on the general topic of ARS as soon as July 2005. 
Accordingly, the quality of the proposals and the availability of 
resources will determine how HHS acts on the results of the RFI and 
RFP. The SNS currently contains Potassium Iodide, Pediatric Potassium 
Iodide, Calcium/Zinc Diethylenetriaminepentaacetate (Ca/Zn DTPA) and 
Prussian Blue (Ferric hexacyanoferrate (II)) as countermeasures for a 
radiation event. In addition, Granulocyte-Colony Stimulating Factor (G-
CSF) is available to the SNS under Investigational New Drug (IND).

                  PRIVATE SECTOR INTEREST IN BIOSHIELD

    Question. When the President signed the BioShield Act into law last 
July, the Washington Post reported that ``Few companies have shown much 
enthusiasm for diverting staff and money from programs to develop 
drugs, such as cancer and cholesterol treatments, with bigger and more 
established markets. Of about 1,000 U.S. biotechnology companies, about 
100 are working on biodefense projects, according to the Biotechnology 
Industry Organization, an industry trade group.''
    Has the interest in BioShield increased or are companies still 
reluctant to participate in the program? What recommendations would you 
make to increase private sector interest in BioShield?
    Answer. We have seen significant interest in BioShield, however we 
recognize the need for continuing improvement and expanded outreach. 
Many of the innovative approaches to developing a medical 
countermeasure occur in small biotech companies that are inexperienced 
in manufacturing, clinical trials, and the regulatory process. They are 
generally funded by venture capital investors and are operating at a 
loss. They usually need funds to validate a current Good Manufacturing 
Practices (cGMP) manufacturing process and to conduct the necessary 
animal studies or human safety studies to qualify for an 
Investigational New Drug (IND) application.
    The large pharmaceutical companies have numerous opportunities to 
consider when establishing their business model and the priority 
targets of their research and development portfolios. They must weigh 
the opportunity costs for the biodefense market with its intrinsic 
uncertainty regarding the size and sustainability against more 
predictable and quantifiable markets for medical products for diseases 
with relatively well-established target populations, many of which will 
be sustained over many years. As large pharmaceutical companies 
consider the profits for traditional medical products versus the 
profits available for vaccines or other medical countermeasures, the 
reason for their reluctance appears to be driven by the markets. For 
example, as mentioned by Dr. Fauci in his February 8, 2005 testimony, a 
year's supply of Lipitor to lower cholesterol is $1,608; a year's 
supply of 50-milligram Viagra is $3,500; but a flu vaccine generally 
sells for $7 to $10.
    Today, the U.S. Government is involved throughout the pipeline of 
countermeasure development, through basic research support at NIH and 
the U.S. Army Medical Research Institute of Infectious Diseases 
(USAMRIID) all the way to the procurement activities undertaken through 
Project BioShield. Both NIH and the USAMRIID have excellent records in 
this regard. The U.S. Government can further target and facilitate 
research and development efforts by setting clear requirements and 
specifications for: medical countermeasures; facilitating partnerships 
as needed between government and industry or between industry and 
industry; and providing critical resources such as facilities (e.g. 
laboratories with high-level biocontainment), animals (for testing), 
reagents and assays.
Grant Coordination--for Assistant Secretary Simonson
    Question. The recent TOPOFF 3 training event recently portrayed a 
scenario that exercised first responders, hospital capacity and the 
ability to treat a sudden rush of people affected by chemical and 
biological agents. We look forward to a report on the exercise around 
mid-summer. Since fiscal year 2002, Congress has appropriated $11 
billion to first responders through the Department of Homeland Security 
and $5.5 billion through the Department of Health and Human Services to 
provide local monitoring for outbreaks and surge capacity for 
treatment. BioShield has $5.6 billion over 10 years to feed our 
Strategic National Stockpile. We have committed a significant amount of 
money into these programs, over $22 billion. However, when tragedy 
strikes the citizens of this country demand a seamless operation that 
provides emergency care, timely correct information, and treatment if 
needed.
    Do local health agencies have the capacity and infrastructure to 
deal with a surge in activity?
    Answer. CDC funding, distributed through cooperative agreements, 
has enabled local health departments to increase both capacity and 
infrastructure to deal with surges by providing for increased 
epidemiologic capacity, terrorism preparedness and response trainings 
for public health practitioners, improved communications systems (in 
terms of not only equipment but also improved relationships between the 
public health, medical and homeland security communities), and enhanced 
technology and staff in public health laboratories. HHS recognizes that 
not each of the approximately 4,000 local health departments can or 
should have the same response capability, especially considering the 
wide variation in size, risks and populations served as well as a 
finite amount of funding. Therefore, HHS encourages and supports local 
health departments to work together to develop regional capacity and 
infrastructure through shared equipment, personnel, information and 
other assets. For example, during a mass prophylaxis event, neighboring 
local health departments might assist the affected jurisdiction in some 
aspect of the response, such as staffing, so that the local health 
department can focus on mass prophylaxis.
    Local health departments have been developing volunteer pools and 
strengthening partnerships with other agencies and businesses to 
provide support activities such as mass prophylaxis. Another example is 
laboratory capacity--a key asset for public health emergency 
preparedness and response that is expensive for a local jurisdiction's 
budget. Not every local health department can have advanced laboratory 
capability. Therefore, some local health departments have basic 
laboratory capability and refer some samples to a Laboratory Response 
Network (LRN) laboratory. Other local health departments have 
collaborative relationships with neighboring laboratories that have 
existing capability. The State public health laboratory can provide 
additional capability to all local health departments within their 
jurisdiction. While local health departments continue to improve, 
maintaining this capacity and infrastructure will also be necessary.
    For healthcare surge capacity, HHS has proposed in its fiscal year 
2006 budget funding for the procurement and maintenance of portable 
hospital units (Federal Medical Contingency Stations) as a part of its 
Mass Casualty Intiative. These units can be rapidly deployed to 
anywhere in the country and would supplement local hospital surge 
capacity by 5,500 beds in the event of an emergency.
    Question. What lessons have we learned through coordinating first 
responder efforts with medical response efforts?
    Answer. Force Protection.--Important steps have been taken to 
establish the necessary medical counter and preventive measures to 
protect first responders. Vaccination and prophylaxis for the most 
common agents have been studied and best practices developed. Personal 
Protective Equipment (PPE) standards have been established by the first 
responder industry in conjunction with public health. Manufacturers are 
now certifying equipment such as Self Contained Breathing Apparatus 
(SCBA) as Weapons of Mass Destruction (WMD) compliant.
    Surge.--Issues of surge capacity have been addressed in multiple 
ways. Solutions are being sought both in and out of the hospital. 
Within the hospitals, mechanisms are being implemented to open beds in 
case of a catastrophic incident. These mechanisms include the use of 
adding beds to the existing infrastructure as well as discharging or 
transferring patients who could receive care elsewhere. First 
responders are being asked to support efforts to sustain develop and 
various levels of treatment outside the hospitals that are free 
standing or potentially an annex to an existing hospital.
    Incident Command Structure.--With the advent of the National 
Incident Management System (NIMS) and the National Response Plan (NRP), 
we now have a common methodology for managing an event that 
incorporates first responders and medical communities. As planning 
efforts continue to move forward in these communities, the essential 
link between them may be articulated.
    Forensic Epidemiology.--CDC has created a course on Forensic 
Epidemiology in collaboration with the Federal Bureau of Investigation 
(FBI) from which more than 13,000 public health and law enforcement 
officials have graduated. Criminal and epidemiological investigative 
methods are used to demonstrate an understanding of the similarities 
and differences in public health and law enforcement investigative 
goals and methods. Common operating procedures about how finding are 
communicated between the two groups are of primary importance.
    Equipment Standardization.--HHS has supported the efforts and 
participated in the Interagency Board (IAB) for Equipment 
Standardization and Inter Operability Working Group since its 
inception. The IAB is designed to ``establish and coordinate local, 
State, and Federal standardization, interoperability, and responder 
safety to prepare for, respond to, mitigate, and recover from any 
incident by identifying requirements for Chemical, Biological, and 
radiological, Nuclear or Explosives incident response equipment.''
    Early Event Detection (Syndromic Surveillance).--Information 
recorded by the first responders such as 9-1-1 call information, 
Emergency Medical Services patient care records, and other public 
health data are reviewed for statistical anomalies in the syndromes 
that present. These anomalies are reviewed against signs and symptoms 
of bio and chemical terrorism, as well as unforeseen natural disease 
outbreaks. By collaborating with the first responder community, public 
health authorities can obtain advanced insight into the changing health 
conditions of a given population or frequency with which they occur.
    Decontamination.--The capability of first responders to properly 
decontaminate hundreds of people has become well established in the 
majority of metropolitan statistical areas, which can be attributed in 
large part to leadership from Health Resources and Services 
Administration (HRSA) grants. Hospitals understand the importance of 
not allowing facilities to become contaminated, and have taken 
important steps to protect themselves. While acute mass decontamination 
continues to be a challenge, significant efforts are under way to 
develop methods to quickly decontaminate thousands of people.
    Rapid Registry.--The Rapid Response Registry (RRR) is an HHS 
response tool intended to assist local officials in rapidly 
identifying, enumerating, and obtaining contact information for 
individuals who have been, or who believe they may have been, exposed. 
The emergency contact information collected is necessary for both 
short-term and long-term follow-up for exposed, injured, and ill 
individuals and would be available to public health officials to guide 
public health response services directed at the affected population 
during the emergency response. In addition to the data collection tool, 
the Agency for Toxic Substances and Disease Registry (ATSDR) staff can 
provide either remote or on-scene technical assistance to support 
public health needs assessment activities, medical assistance, health 
interventions, or health education in the affected population during or 
immediately following the recognition of a Chemical, Biological, 
Radiological, and Nuclear Warfare, and Explosives (CBRNE) emergency. 
This process allows State and local public health responders to target 
enrolled individuals with updated information, triage their specific 
risk for potential exposures, determine appropriate self-
decontamination procedures, and recommend any immediate medical 
evaluation or interventions (countermeasures). Real time data 
collection also enables future health studies by State and local public 
health as part of long-term mitigation activities, should these be 
determined appropriate.
    HHS Secretary's Emergency Response Team (SERT).--The SERT acts as 
the Secretary's agent on emergency sites working along with the first 
responder community under the direction of the Assistant Secretary for 
Public Health Emergency Preparedness (ASPHEP). The ASPHEP, on behalf of 
the Secretary, directs and coordinates the Department's efforts to 
prevent, prepare for, respond to, and recover from, the public health 
and medical consequences of disaster or emergency. The SERT directs and 
coordinates the activities of all HHS personnel deployed to the 
emergency site to assist State, local, Tribal, and other Federal and 
government agencies as applicable.
    Health Alert Network (HAN).--The HAN ensures that each community 
has rapid and timely access to emergent health information; a cadre of 
highly-trained professionals; and evidence-based practices and 
procedures for effective public health preparedness, response, and 
service on a 24/7 basis. The HAN is dedicated to strengthening the core 
public health infrastructure for information access, communications, 
and distance learning at the State and community levels. Through 
continuous, high-speed internet connectivity and broadcast capacity to 
support emergency communication, HAN provides the national public 
health system with a network of public health officials and other 
first-responders who are continuously connected to information vital to 
emergency and non-emergency public health practice.
    Medical Reserve Corp (MRC).--MRC units are community-based and 
function as a way to locally organize and utilize volunteers who want 
to donate their time and expertise to prepare for and respond to 
emergencies, and promote healthy living throughout the year. MRC 
volunteers supplement existing first responders and public health 
resources. MRC volunteers include medical and public health 
professionals such as physicians, nurses, pharmacists, dentists, 
veterinarians, and epidemiologists. Many community members--
interpreters, chaplains, office workers, legal advisors, and others--
also fill key support positions in the first responder community.
    SNS.--The SNS has large quantities of medicine and medical supplies 
to protect the American public if there is a public health emergency 
severe enough to drain local supplies. Should Federal and local 
authorities agree that the SNS is needed, medicines will be delivered 
to any State in the United States or territory within 12 hours. Each of 
our 62 grantees has plans to receive and distribute SNS medicine and 
medical supplies to local communities as quickly as possible. Many of 
these medical countermeasures will initially be used by the first 
responder community so that they can continue to fulfill their vital 
role in support of an event.
    The National Incident Communications Coordination Line (NICCL).--
NICCL is a special toll free line with limited access via PIN number, 
is maintained by DHS and is used to bring together the key Public 
Affairs representatives from Federal, State and local agencies during 
major incidents. DHS convenes calls to ensure all agencies are fully 
aware of the facts concerning the incident, achieve agreement as to 
which agencies have the public communications lead concerning the 
various aspects of the incident and coordinate all public announcements 
concerning the incident. The NICCL has been used effectively during a 
number of incidents over the past year and as part of the Top Officials 
3 (TOPOFF3) exercise. In each case not only Federal agencies 
participated in the calls but also State and local Public Affairs 
Officers from the affected areas were included.
    Question. Are grant programs coordinated by DHS and HHS so that 
Americans, in their time of need, are protected and treated to the 
highest standard possible without confusion or lack of direction?
    Answer. HHS cooperative agreement programs and DHS grant programs 
are being coordinated at the Federal, State, and local levels. Since 
2003 HHS has required that the State-wide joint advisory committees 
required by CDC and HRSA cooperative agreements include members from 
State homeland security or emergency management, fire, and police 
agencies. In 2005, DHS added similar language to its program guidance 
documents, which now requires State homeland security agencies to reach 
out to the public health and medical communities. Many intrastate 
coordinating bodies, which have been established by local 
jurisdictions, require participation by homeland security, emergency 
management, public health, and medical communities in regional planning 
and response efforts as well. HHS also requires its awardees to comply 
with the NIMS, which facilitates coordination, communication and 
cooperation between first responders (e.g., fire, police, public 
health) and first receivers (e.g., hospitals) during an event.
    At the Federal level, both HHS and DHS review and comment on the 
program announcements and guidance documents of their sister agencies, 
to which States and local jurisdictions respond in order to receive 
funds. Both Departments also have ten regional emergency coordinators, 
who work closely with one another and with States to plan, train and 
exercise across jurisdictional lines. More recently, HHS and DHS have 
formed a steering committee to identify additional mechanisms to 
increase coordination and collaboration between the awardees and 
grantees, as well as between the Departments at the Federal level. 
Future activities may include joint site visits and regional meetings.
BioShield Benchmarks--for Assistant Secretary Simonson
    Question. In 1999, Congress charged the Department of Health and 
Human Services and the Centers for Disease Control and Prevention with 
the establishment of the National Pharmaceutical Stockpile. The 
Homeland Security Act of 2002 renamed the effort the Strategic National 
Stockpile and tasked the Department of Homeland Security with defining 
the goals and performance requirements but the Stockpile was to be 
jointly managed by DHS and HHS. The Project BioShield Act of 2003 
returned oversight and guidance of the stockpile to HHS.
    With all of the changes in command, what information and tools are 
we using to ensure that Project BioShield is properly feeding the 
Strategic National Stockpile so that it is truly ready to provide rapid 
access to large quantities of the right types of pharmaceuticals and 
medical supplies? What specific benchmark are we using to gauge 
ourselves in the ability to respond to an unknown attack or natural 
disaster?
    Answer. The SNS staff has remained intact during the recent 
departmental changes. In addition, the deliberative process to set 
requirements and implement acquisitions for the SNS under Project 
BioShield has also remained constant. The SNS engages in deployment 
exercises with various State and local entities on a regular schedule 
to assess the readiness of State and local partners and to improve the 
deployment process. In addition, CDC and the SNS participate in 
National and international exercises, such as TOPOFF3, to fully assess 
their response capabilities for communication, logistics, resource 
allocations, and stockpile utilization. These exercises serve as a 
benchmark for the Nation's level of preparedness for an unknown or 
natural disaster. SNS performance measures to deliver assets within 12 
hours of decision to deploy. While project Bioshield is focused on 
development of new countermeasures which will be incorporated into SNS 
once available, SNS acquires and maintains significant countermeasures 
currently available.

                         CONCLUSION OF HEARINGS

    Senator Gregg. Well, if you have got thoughts, we would be 
interested in language you think would improve that because I 
do believe unless we address this issue of liability, we will 
never get this straightened out and we will never get the 
participation we need.
    Well, all of your input has been excellent. I am trying to 
think of what title we should have on this novel award. We will 
have to come up with something. We will call it the Franz 
award.
    In any event, thank you very much. We appreciate your 
input. This is not an end. This is just an ongoing discussion 
as to how we make this whole system work better and just one 
part of the discussion. We intend to continue to pursue this as 
a committee. You obviously intend to pursue it as 
professionals. So thank you.
    Dr. Read. Thanks for your leadership.
    Senator Gregg. The subcommittee is recessed.
    [Whereupon, at 12:15 p.m., Thursday, April 28, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2006 budget 
request for programs within the subcommittee's jurisdiction.]

  Prepared Statement of the American Public Transportation Association

    Mr. Chairman, thank you for this opportunity to submit written 
testimony on the security and safety of public transportation systems. 
We appreciate your interest in transportation security, and we look 
forward to working with you as you develop the fiscal year 2006 
appropriations bill for the Department of Homeland Security (DHS).

                               ABOUT APTA

    The American Public Transportation Association (APTA) is a 
nonprofit international association of over 1,500 public and private 
member organizations including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
State departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. Over 90 percent of persons using public transportation in 
the United States and Canada are served by APTA member systems.

                                OVERVIEW

    Mr. Chairman, public transportation is one of our Nation's critical 
infrastructures. We cannot over-emphasize the critical importance of 
our industry to the economic quality of life of this country. Over 9.6 
billion transit trips are taken annually on all modes of transit 
service. People use public transportation vehicles over 32 million 
times each weekday. This is more than 16 times the number of daily 
travelers aboard the Nation's airlines.
    Safety and security are the top priority of the public 
transportation industry. Transit systems took many steps to improve 
security prior to 9/11 and have significantly increased efforts since 
then. Since September 11, 2001, public transit agencies in the United 
States have spent over $2 billion on security and emergency 
preparedness programs and technology, almost all from their own budgets 
with only minimal Federal funding. Last year's events in Madrid further 
highlight the need to enhance security on public transit systems and to 
do so without delay. We do not need another wakeup call like Madrid.
    In response to an APTA survey, transit agencies around the country 
have identified in excess of $6 billion in transit security needs. 
State and local governments and transit agencies are doing what they 
can to improve security, but it is important that the Federal 
Government be a full partner in the effort to ensure the security of 
the Nation's transit users.
    In fiscal year 2003, transit security received $65 million in 
Federal funding from DHS. In fiscal year 2004, $50 million was provided 
for Federal transit security programs from DHS. For the first time in 
fiscal year 2005, Congress specifically appropriated $150 million for 
transit, passenger and freight rail security. Out of the $150 million, 
transit will receive approximately $130 million--almost $108 million 
for rail transit and more than $22 million for bus. Also, ferries will 
receive an additional $5 million for security from a separate account. 
We are very appreciative of this effort. However, in the face of 
significant needs, more needs to be done.
    We urge Congress to act decisively on this issue. In light of the 
documented needs, we respectfully urge Congress to provide $2 billion 
in the fiscal year 2006 Homeland Security Appropriations bill for 
transit security. Of that amount, we recommend that $1.2 billion be 
provided for capital needs, and $800 million for transit costs. Federal 
funding for needs should provide for, among other things, planning, 
public awareness, training and additional transit police.
    We are disappointed that the Administration recommended only $600 
million for a Targeted Infrastructure Protection Program in the fiscal 
year 2006 DHS budget proposal, which would fund infrastructure security 
grants for transit, seaports, railways and energy facilities. We were 
also disappointed that the Administration does not include a specific 
line item funding amount for transit security. We look forward to 
working with the Administration and Congress in securing adequate 
transit security funding that begins to address unmet transit security 
needs of the country.
    We further request that the existing process for distributing DHS 
Federal grant funding be modified so that funds are distributed 
directly to transit authorities, rather than to State Administrating 
Agencies (SAA). While we are willing to coordinate with the States and 
urban areas that we serve, we believe direct funding to the transit 
authorities would be more efficient and productive.
    We are pleased to note that APTA has become a ``Standards 
Development Organization'' (SDO) for the public transportation 
industry. Our efforts in standards development for commuter rail, rail 
transit and bus transit operations over recent years have been 
significant and our status as a SDO has been acknowledged by both the 
Federal Transit Administration (FTA) and the Federal Railway 
Administration (FRA). The FTA and the Transportation Research Board 
have also supported our standards initiatives through the provision of 
grants. We would like to apply our growing expertise in standards 
development of transit industry safety and security, best practices, 
guidelines and standards. We look forward to working with the 
Administration and Congress in support of this initiative and trust 
that Federal financial assistance would be made available to develop 
such standards and practices.
    We also would like to work with Congress and the Department of 
Homeland Security's Directorate of Science and Technology to take a 
leadership role in advancing research and technology development to 
enhance security and emergency preparedness for public transportation.

                       SECURITY INVESTMENT NEEDS

    Mr. Chairman, after the awful events of 9/11, the transit industry 
invested some $2 billion in enhanced security measures, building on the 
industry's already considerable efforts. At the same time, our industry 
undertook a comprehensive review to determine how we could build upon 
our existing industry security practices. This included a range of 
activities, some I discussed earlier in testimony, which include 
research, best practices, education, information sharing in the 
industry, and surveys. As a result of these efforts we have a better 
understanding of how to create a more secure environment for our 
riders, and the most critical security investment needs.
    Our latest survey of public transportation security identified 
enhancements of at least $5.2 billion in additional capital funding to 
maintain, modernize, and expand transit system security functions to 
meet increased security demands. Over $800 million in increased costs 
for security personnel, training, technical support, and research and 
development have been identified, bringing total additional transit 
security funding needs to more than $6 billion.
    Responding transit agencies were asked to prioritize the uses for 
which they required additional Federal investment for security 
improvements. Priority examples of operational improvements include:
  --Funding current and additional transit agency and local law 
        enforcement personnel.
  --Funding for over-time costs and extra security personnel during 
        heightened alert levels.
  --Training for security personnel.
  --Joint transit/law enforcement training.
  --Security planning activities.
  --Security training for other transit personnel.
    Priority examples of security capital investment improvements 
include:
  --Radio communications systems.
  --Security cameras on-board transit vehicles and in transit stations.
  --Controlling access to transit facilities and secure areas.
  --Automated vehicle locator systems.
  --Security fencing around facilities.
    Transit agencies with large rail operations also reported a 
priority need for Federal capital funding for intrusion detection 
devices.
    Mr. Chairman, the Department of Homeland Security issued directives 
for the transit industry in May 2004, which would require that transit 
authorities beef up security and to take a series of precautions which 
would set the stage for more extensive measures without any Federal 
funding assistance. We believe these directives are unfunded mandates. 
Many of our transit systems have already carried out most of the 
measures that Transportation Security Administration (TSA) is calling 
for, such as drafting security plans, removing trash bins and setting 
up procedures to deal with suspicious packages. The cost of these 
measures and further diligence taken during times of heightened alert 
is of particular concern to us. We look forward to working with you in 
addressing these issues.
    As you know, in the fiscal year 2005 Homeland Security 
Appropriations bill (Public Law 108-334), TSA can hire up to 100 rail 
inspectors using a $10 million appropriation. We have concerns about 
this provision. We believe that funding for the inspectors would be 
better spent on things that would support the industry such as 
surveillance cameras, and emergency communication and other systems 
rather than highlighting security issues without providing the 
necessary resources to address them. We look forward to working with 
you in addressing our concerns.

                               BACKGROUND

    Mr. Chairman, prior to and following September 11, 2001--the date 
of the most devastating terrorist attack in U.S. history--APTA has 
played a key role in addressing the safety and security issues of our 
country. American public transportation agencies have also taken 
significant measures to enhance their security and emergency 
preparedness efforts to adjust to society's new state of concern. 
Although agencies had a wide range of security initiatives in place at 
the time of the World Trade Center and Pentagon attacks and already had 
developed emergency response plans, the September 11 incidents focused, 
strengthened and prioritized security efforts throughout the industry.
    Transit agencies have had an excellent safety record and have 
worked for years to enhance their system security and employee security 
training, by following government standards and APTA guidelines, and by 
learning from the attacks on transit agencies abroad. For example, the 
1995 sarin gas attack in the Tokyo subway system caused U.S. transit 
properties managing tunnels and underground transit stations to go on 
high alert. The San Francisco Bay Area Rapid Transit District, for 
instance, responded to the potential threat of chemical weapons attacks 
by sending a transit police team to Fort McClellan, Alabama, to learn 
response tactics from U.S. Army chemical weapons experts.
    In the months following the September 11 terrorist attacks, transit 
agencies of all sizes worked to identify where they might be vulnerable 
to attacks and increased their security spending for both operations 
and capital costs. The agencies subsequently upgraded and strengthened 
their emergency response and security plans and procedures, taking 
steps to protect transit infrastructure and patrons and to increase the 
transit security presence while giving riders a sense of security.
    Some initiatives around the country include:
  --Increased surveillance via closed circuit TV;
  --Increased training for employees;
  --Hired more police, K-9 units added;
  --Chemical detection systems being tested;
  --Infrastructure design to eliminate hiding places;
  --Drills are routinely held with first responders; and
  --Encouraging riders to be vigilant for suspicious activities or 
        items.
    After September 11, transit systems enhanced efforts to prevent 
unauthorized entry into transit facilities. The need for employees and 
passengers to stay alert and report suspicious occurrences became a key 
goal of many agencies. These efforts are paying off. But, while many 
transit agencies are more secure than they were prior to September 11, 
more can and should be done.
    APTA has launched additional efforts to further transit industry 
security and preparedness, collaborating with FTA in developing 
emergency preparedness forums, and sponsoring and organizing security-
related conferences and workshops. Moreover, APTA developed a list of 
critical safety and security needs faced by the transit industry, which 
it has provided to the Department of Transportation and the U.S. 
Congress.

PUBLIC TRANSPORTATION INFORMATION SHARING ANALYSIS CENTER (ISAC)--NEED 
                          FOR ONGOING FUNDING

    Presidential Decision Directive Number 63 authorizes and encourages 
national critical infrastructures to develop and maintain ISACs as a 
means of strengthening security and protection against cyber and 
operations attacks. APTA is pleased to have been designated a public 
transportation Sector Coordinator by the U.S. Department of 
Transportation, and in that capacity has received a $1.2 million grant 
from the Federal Transit Administration to establish a transit ISAC. 
APTA formalized an agreement with a private company to implement the 
ISAC and make it available to public transit systems around the 
country.
    This ISAC for public transit provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories as well as the collection, analysis and dissemination of 
security information from transit agencies. The public transit ISAC 
also provides a critical linkage between the transit industry, the U.S. 
Department of Transportation, the Transportation Security 
Administration, and the Department of Homeland Security.
    The Public Transit ISAC has been invaluable to the public transit 
industry. However, its 2-year funding from the FTA has expired, and 
even though APTA pursued future funding for the ISAC from DHS and other 
agencies, we were not successful. DHS has decided it will no longer 
provide funding for ISACs. Instead, DHS has launched a new program--
Homeland Security Information Network-Critical Infrastructure (HSIN-
CI), in which we are participating. HSIN is designed to provide a new 
set of tools to share critical sector information among private 
industry and government, but a fully functioning HSIN has yet to be 
realized. Once it is, there is no guarantee that it will ever be as 
useful and comprehensive as the Public Transit ISAC. Consequently, we 
believe that ongoing, reliable and consistent funding from Congress for 
the Public Transit ISAC is necessary.

                   ONGOING TRANSIT SECURITY PROGRAMS

    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alertness, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. 
Shortly after the September 11 events, the APTA Executive Committee 
established a Security Task Force. The APTA Security Task Force has 
established a security strategic plan that prioritizes direction for 
our initiatives. Among those initiatives, the Task Force serves as the 
steering group for determining security projects with more than $2 
million in Transit Cooperative Research funding through the 
Transportation Research Board.
    Through this funding, APTA has conducted four transit security 
workshop forums around the Nation for the larger transit systems with 
potentially greater risk exposure. These workshops provided 
confidential settings to enable sharing of security practices and 
applying methodologies to various scenarios. The outcomes from these 
workshops were made available in a controlled and confidential format 
to other transit agencies unable to attend the workshops. The workshops 
were held in New York, San Francisco, Atlanta, and Chicago.
    In partnerships with the Transportation Research Board, the APTA 
Security Task Force has also established two TCRP Panels that 
identified and initiated specific projects developed to address 
Preparedness/Detection/Response to Incidents and Prevention and 
Mitigation. The Security Task Force emphasized the importance for the 
research projects to be operationally practical.
    In addition to the TCRP funded efforts, a generic Checklist For 
Transit Agency Review Of Emergency Response Planning And System Review 
has been developed by APTA as a resource tool and is available on the 
APTA web site. Also through the direction of the Security Task Force, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and to continue efforts that raise 
the bar for safety and security effectiveness.
    APTA has long-established Safety Audit Programs for Commuter Rail, 
Bus, and Rail Transit Operations. Within the scope of these programs 
are specific elements pertaining to Emergency Response Planning and 
Training as well as Security Planning. In keeping with our industry's 
increased emphasis on these areas, the APTA Safety Audit Programs have 
been modified to place added attention to these critical elements.


                               CONCLUSION

    Mr. Chairman, in light of our Nation's heightened security needs 
post 9/11, we believe that increased Federal investment in public 
transportation security by Congress and DHS is critical. The public 
transportation industry has made great strides in transit security 
improvements since 9/11 but much more needs to be done. We look forward 
to building on our cooperative working relationship with the Department 
of Homeland Security and Congress to begin to address these needs. We 
again thank you and the Committee for allowing us to submit testimony 
on these critical issues, and look forward to working with you on 
safety and security issues.
                                 ______
                                 

  Prepared Statement of the Association of State Floodplain Managers, 
                                  Inc.

    The Association of State Floodplain Managers, Inc. (ASFPM) is 
pleased to share comments on these key aspects of the fiscal year 2006 
budget proposal for FEMA, which we believe greatly impact the ability 
to reduce the Nation's risk and cost from flooding (or natural 
hazards):
  --Urge transfer of funds from the National Flood Insurance Fund to 
        the Flood Mitigation Fund in the amounts authorized in 2004 to 
        deal with the drain represented by repetitively flooded, 
        insured properties.
  --Support for continued full funding for modernization of flood maps, 
        with comments about quality and the need to re-evaluate the 
        funding and duration of the effort.
  --Restore the 15 percent formula for the Hazard Mitigation Grant 
        Program funding in States with Basic Mitigation Plans and 
        oppose the Administration's proposed reduction of Hazard 
        Mitigation Grant Program funds from 20 percent to 12.5 percent 
        for States that have Enhanced Mitigation Plans approved by 
        FEMA.
  --Monitor how the Department of Homeland Security addresses natural 
        hazards, which each year threaten nearly every local 
        jurisdiction to some degree, and how the Department addresses 
        mitigation programs intended to bring about long-term reduction 
        in the impacts of hazards.
  --Clarify that mitigation funds provided to private property owners 
        under FEMA's programs are not taxable as income.
    The Association of State Floodplain Managers, Inc., and its 20 
State chapters represent over 7,000 State, local, and private sector 
officials as well as other professionals who are engaged in all aspects 
of floodplain management and hazard mitigation. All are concerned with 
reducing our Nation's flood-related losses and reducing the costs of 
flooding.
Transfer Funds to Address the NFIP'S Repetitive Loss Problem
    Following several years of deliberation, Congress enacted the Flood 
Insurance Reform Act of 2004. In large part, the Act is intended to 
provide FEMA, States and communities with the funding and tools needed 
to deal with the National Flood Insurance Program (NFIP) repetitive 
loss problem. For many years FEMA has identified the disproportionate 
amount of repetitive claims paid on a very small percentage of NFIP-
insured properties as the most significant factor that drives increases 
in the cost of flood insurance--which affects 4.4 million policyholders 
in every State and over 20,000 counties, cities and towns. Fewer than 
50,000 properties account for a drain of approximately $200 million a 
year.
    The Reform Act of 2004 authorizes transfers of funds (total of $90 
million) from the National Flood Insurance Fund (which contains only 
premium and fee income, no General Funds) into the National Flood 
Mitigation Fund to aggressively mitigate repetitive loss structures. 
Funds authorized for three elements of the Flood Mitigation Assistance 
program are: Basic ($40 million/year), Pilot ($40 million/year through 
fiscal year 2009), and Individual Property ($10 million/year). The 
Basic Program is mature, with virtually all States currently active to 
some degree. For the fiscal year 2006 Basic Program the Administration 
requests $28 million, just $8 million over the funding level of recent 
years. No funds were requested for the Pilot Program and the Individual 
Property Program.
    FEMA consistently asserts the merits of focusing mitigation efforts 
on repetitive loss properties in order to help stabilize and strengthen 
the National Flood Insurance Fund (NFIF). The Reform Act of 2004 
directs that the repetitive loss programs be funded by transfer from 
the NFIF without differentiating between fee income and premium income. 
DHS Undersecretary Mike Brown testified that the budget request is 
limited to only the additional $8 million for the Basic FMA program 
because the Department is studying how to fund the repetitive loss 
effort from fee income. ASFPM believes it is appropriate to transfer 
funds, without further delay, from fee income and/or premium income. 
Since the NFIF as a whole will benefit--and all policyholders will 
benefit if the pressure to raise the rates is diminished--then it is 
well worth the investment of some premium income.
  --ASFPM urges the Subcommittee to fully fund the Flood Mitigation 
        Assistance programs authorized in the Flood Insurance Reform 
        Act of 2004 by transferring funds from the National Flood 
        Insurance Fund to the National Flood Mitigation Fund.
  --ASFPM urges the Subcommittee to make clear that transfer funds for 
        the repetitive loss grant programs may be taken from premium 
        income and/or fee income, subject to the limitations of the 
        Reform Act of 2004.
Continue Support for Flood Map Modernization
    Flood maps are used for many purposes beyond the immediate needs of 
the National Flood Insurance Program. Good flood maps play a major role 
in disaster cost reduction--they are used to support land use and 
management of identified flood-prone areas. FEMA estimates that local 
regulation of flood hazard areas, using the flood maps, avoids property 
losses of over $1 billion each year. FEMA's estimate does not count the 
benefits associated with using the maps to guide development to less 
hazard-prone areas. Quality flood maps yield benefits at all levels of 
government. They help reduce the need for Federal disaster assistance 
and casualty loss tax deductions because at-risk homes with federally-
backed mortgages are required to be covered by flood insurance, which 
provides financial resources to help owners recover.
    ASFPM is concerned that rigid metrics imposed on FEMA are driving 
map production, rather than the goal of producing defensible and 
accurate flood maps that reflect necessary revisions. Further, budget 
constraints created by an out-of-date estimate of map needs is 
artificially restricting restudies and new studies to only a small 
number of streams or short reaches of coastline. The expectation that 
revised flood maps will meet high quality standards is an incentive and 
justification for States and communities to invest their own funds in 
the modernization effort--ASFPM is concerned that this expectation is 
not being met.
  --ASFPM strongly endorses the Administration's request for $200 
        million.
  --ASFPM urges the Subcommittee to request that FEMA re-evaluate the 
        duration and anticipated funding levels required to produce 
        revised and updated flood risk maps to the appropriate and 
        defensible quality standards. Re-evaluation is warranted 
        because of advances in technology, lessons learned in the early 
        years of this effort, improved understanding of the extent of 
        areas not adequately mapped, priorities identified by States 
        and communities, and the number of partnership efforts with 
        States and communities, including in-kind and other 
        contribution.
  --ASFPM urges the Subcommittee to express its expectation that FEMA 
        will address State-identified priorities and that adequate 
        quality data and mapping for streams and coastlines where 
        people are at-risk are the objectives.
Restore 15 percent Formula for Hazard Mitigation Grant Program and 
        Reject Reduction of Funding Available for States with Enhanced 
        Mitigation Plans
    ASFPM urges restoration of the 15 percent formula used to determine 
amounts made available after disasters for the Hazard Mitigation Grant 
Program (HMGP) authorized by Section 404 of the Stafford Act. States 
and communities across the country have evidence that the most 
effective time to garner support for mitigation projects is in the 
aftermath of disasters. While mitigation planning is a vital activity 
to identify hazards and potential risks, only actual damaging events 
generate significant public interest and State and local financial 
support. Redundant Regardless of the statistical evidence of the 
likelihood of future disaster occurrence, communities rarely place 
hazard mitigation above today's demands for education, social programs, 
local first responders, and the like. This is especially true in 
smaller communities where financial resources are always tight.
    On the proverbial sunny day,' flooding is a low priority for the 
millions of homeowners and business owners in the Nation's flood hazard 
areas--regardless of the mounting evidence that future floods will 
occur. Homeowners and business owners view offers for buyouts, 
elevations, and retrofit floodproofing very differently when they are 
shoveling mud, coping with toxic mold, or faced with collapsed 
foundations. Restoring HMGP to the 15 percent formula will provide 
resources to those who have just experienced damage and are most 
receptive to change.
    ASFPM recommends that pre-disaster funding be directed to 
community-based planning in order to prepare communities to undertake 
mitigation projects when the disaster strikes. It would also be 
reasonable to make pre-disaster mitigation funds available to support 
public projects that address at-risk State and community buildings, 
facilities, and public infrastructure--among the more costly categories 
of post-disaster public assistance. These projects, which do not 
require direct and voluntary participation of property owners, can 
readily be designed and implemented in the pre-disaster context and 
provide broad public benefits.
  --ASFPM urges the Subcommittee to restore the Hazard Mitigation Grant 
        Program formula to 15 percent of certain Federal disaster 
        expenditures. The Disaster Mitigation Assistance Act of 2000 
        calls for communities to have pre-disaster local mitigation 
        plans in order to access HMGP. One result of this requirement 
        is that communities will be better prepared to identify 
        eligible activities after the next declared disaster, thus 
        further shortening the time needed to obligate and expend the 
        HMGP funds.
  --ASFPM urges the Subcommittee to reject the Administration's 
        proposed reduction in the formula to determine amounts 
        available to States with Enhanced Mitigation Plans. To qualify 
        for HMGP based on the 20 percent that is authorized by the 
        Stafford Act, a State demonstrates a strong commitment by 
        administering a comprehensive mitigation program, including 
        having the capability and capacity to manage grants and assess 
        the cost avoidance of mitigation measures. The potential 
        availability of the increased HMGP amount is a powerful 
        incentive for States to take on the significant additional 
        responsibility to work with communities and others to identify 
        and implement feasible and cost-effective mitigation measures.
  --ASFPM recommends that the Subcommittee examine the effectiveness of 
        the nationwide, competitive Pre-Disaster Mitigation program. In 
        the fiscal year 2005 appropriations bill DHS was directed to 
        consult with State mitigation officials. Last fall State 
        officials were provided just 2 weeks to respond and, to date, 
        no report has been released. ASFPM recommends that particular 
        attention should be paid to citizen, community and State 
        interest in pre-disaster mitigation and how the ability to 
        provide the non-Federal cost share differs in the pre- and 
        post-disaster periods.
Monitor How the Department of Homeland Security Addresses Natural 
        Hazards and Mitigation
    Floods, hurricanes, severe storms, tornadoes, harsh winter storms, 
landslides, wildfires, and earthquakes put millions of Americans are at 
risk every day. From a cost and future consequences perspective, ASFPM 
remains concerned with the diminished focus on natural hazards and 
mitigation by the Department of Homeland Security. Despite continued 
assertions of commitment to FEMA's all-hazards mission, DHS has reduced 
cohesiveness of programs and reduced the number of staff who deal with 
natural hazards and mitigation. The following remain specific concerns: 
transferring FEMA funds to areas of DHS that are not under the 
jurisdiction of the Under Secretary for Emergency Preparedness & 
Response; detailing FEMA staff out of that directorate; and reducing 
support for the vital network of State and local public safety and 
disaster mitigation officials.
    DHS Secretary Chertoff is beginning a thorough examination of 
threats and vulnerabilities in order to prioritize them, and has 
expressed his intent to align DHS resources and priorities based on 
this analysis. Natural hazards are a threat in every State--every State 
has experienced multiple devastating floods that resulted in 
declaration of major disasters. Damage due to floods of all magnitudes 
are estimated as exceeding $5 billion each year. Most areas are at risk 
to other natural hazards, as well. Clearly, our communities and our 
citizens are vulnerable. ASFPM hopes that adequate consideration of 
natural hazards is made in the analysis called for by Secretary 
Chertoff.
  --ASFPM urges the Subcommittee to monitor DHS proposals and actions 
        that affect FEMA programs and staff to prevent unwise and 
        unnecessary reduction in FEMA's effectiveness, which in turn 
        will jeopardize State and local efforts to deal with natural 
        hazards and mitigation.
Clarify that Mitigation Grant Funds Received by Private Property Owners 
        are not Taxable as Income
    In 2004 the IRS made a determination that mitigation grants to 
property owners who work with their communities and States to prevent 
and minimize future damages to their homes and businesses are taxable 
as income. This decision is having a dramatic impact on the Nation's 
ability to reduce future damages and costs (many disaster costs are 
paid directly by taxpayers). Property owners, when told that mitigation 
cost-share grants will be taxable, are simply opting to NOT mitigate, 
thus remaining at-risk to future damage. Ironically, property owners 
are only eligible for cost sharing mitigation grants if it is clearly 
shown that the benefits to the Nation outweigh the costs to the Nation.
  --ASFPM urges the Subcommittee to include language in the 
        appropriations bill to clarify that mitigation cost sharing 
        grants are not taxable income.
    For information about ASFPM and this testimony, contact Larry 
Larson, Executive Director, at (608) 274-0123 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfdeccd9cfd2ffd9d3d0d0dbcc91d0cdd8">[email&#160;protected]</a>) or 
Rebecca Quinn, Legislative Officer, at (410) 267-6968 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aad8c9dbdfc3c4c4eacfcbd8dec2c6c3c4c184c4cfde">[email&#160;protected]</a>).
                                 ______
                                 

          Prepared Statement of the City of San Marcos, Texas

    Mr. Chairman and Members of the Subcommittee: On behalf of the City 
of San Marcos, Texas, I am pleased to submit this statement in support 
of our request for project funding through the Appropriations Bill for 
Homeland Security.
    The City of San Marcos requests an appropriation of $5,000,000 for 
the San Marcos Municipal Airport to construct and equip a multi-purpose 
fire station and fire fighter training facility. We would respectfully 
suggest that this project would properly fall within the scope of first 
responder, emergency preparedness and response training. There is no 
provision for this funding in the President's budget, nor has there 
been any prior year Federal funding.
    The City of San Marcos and facility users would be actively engaged 
in the project's funding through cost-sharing. Approximately $200,000 
would be provided by the City for all required real estate and 
utilities. The City and facility users would provide an estimated 
$600,000 annually in operating revenues when the facility is fully 
functional.
    The San Marcos Municipal Airport is a public general aviation 
airport owned and operated by the City of San Marcos, Texas. It is 
located just east of Interstate Highway 35 on Texas Highway 21 
approximately 30 miles south of Austin and 45 miles north of San 
Antonio. The airport occupies the site of a closed military air base, 
and we share the former military base with the Department of Labor's 
Gary Job Corps Center.
    There are currently 225 aircraft based at the airport, and the 
airport supports over 100,000 air operations annually. This makes the 
San Marcos Municipal Airport the largest and most active general 
aviation airport in the bustling Austin-San Antonio corridor. To serve 
the present and future safety and security needs of the airport, an 
emergency response capability, known in aviation terms as an Aircraft 
Rescue and Fire Fighting (ARFF) facility, has been among our highest 
priority goals. We have encountered a challenge in obtaining Federal 
funding assistance through conventional Federal Aviation Administration 
channels. In order for the airport to qualify for ARFF funding, the 
airport must first be certified under Federal Air Regulation, Part 139; 
however, to achieve certification, the airport requires an ARFF.
    As a better, more cost-efficient approach to achieving our goal, we 
are proposing to partner with the San Marcos Fire Department and the 
Gary Job Corps Center to construct and equip a facility on the airport 
that will meet the airport ARFF requirement, serve as a fire station 
for the City of San Marcos, and also be a training venue for the Gary 
Job Corps Center and other regional agencies to train fire fighters and 
emergency service first responders.
    Our plan proposes to construct, equip, and then operate a multi-
purpose fire station and fire fighter training facility located on the 
airport. The fire station would consist of two components. One would be 
a Federal Aviation Administration certified ARFF to meet the evolving 
public safety and security requirements of a growing public airport. 
Another component would be a conventional City of San Marcos fire 
station to be integrated with the San Marcos Fire Department's other 
emergency response forces to serve the citizens of San Marcos.
    In addition to these two emergency response capabilities, the 
facility would be the educational site and provide support to the Gary 
Job Corps Center's mission of training students for careers as 
professional fire fighters and emergency service first responders. We 
further envision that the facility will serve other regional training 
needs, especially for the many small community and rural emergency 
services responders who do not have the resources to maintain their own 
training facilities and programs. The planning estimate's total cost 
for project design, construction, furnishing, and equipping is 
$5,000,000.
    The San Marcos Municipal Airport is in desperate need of an ARFF to 
enhance public safety and security. Both the City of San Marcos and the 
San Marcos Fire Department need a fire station to serve the expanding 
eastern section of the city. The Gary Job Corps Center needs a fire 
fighter and first responder training school. All these critical public 
policy needs can be most effectively and efficiently met with a multi-
purpose fire station and fire fighter training facility located on the 
San Marcos Municipal Airport. This multi-purpose facility would 
maximize the use of limited public safety tax dollars, and, 
consequently, makes sense from a public policy perspective.
    We appreciate very much the Subcommittee's consideration of this 
request for $5,000,000 for the City of San Marcos for this important 
public safety and security project.
                                 ______
                                 

     Prepared Statement of the Coalition of Northeastern Governors

    As the Subcommittee begins the fiscal year 2006 transportation 
appropriations process, the Coalition of Northeastern Governors (CONEG) 
is pleased to share with the Subcommittee testimony on the fiscal year 
2006 Homeland Security Appropriations bill. The CONEG Governors commend 
the Subcommittee for its past support of funding for the Nation's 
critical transportation security needs, particularly rail security. 
Although we recognize the extensive demands being made upon Federal 
resources in the coming year, we urge the Subcommittee to continue the 
important Federal role in securing the Nation's transportation systems.
    Efforts to strengthen the Nation's security, particularly its 
multi-modal transportation system, are of paramount importance to the 
CONEG Governors. We believe high priority must be given to the safety 
and security of the Nation's passenger rail systems, and therefore urge 
that the fiscal year 2006 Appropriations include the funding necessary 
to enable the Department of Homeland Security to help strengthen the 
security of the Nation's intercity, commuter rail, and rail transit 
systems. These extensive systems move millions of riders daily, and are 
critical components of the transportation network. Funding for rail 
security programs will allow the Department of Homeland Security to be 
an essential partner with States, local governments and public 
transportation authorities in ensuring that these vital rail systems 
remain accessible, reliable--and safe.
    The CONEG Governors thank the entire Subcommittee for the 
opportunity to share these priorities and appreciate your consideration 
of these requests.
                                 ______
                                 

      Prepared Statement of the Greater Orlando Aviation Authority

    Chairman Gregg and distinguished members of the Senate 
Appropriations Subcommittee on Homeland Security: The Greater Orlando 
Aviation Authority (``the Authority'') greatly appreciates the 
opportunity to submit written testimony in support of funding 
initiatives necessary to enhance the efficiency and execution of 
Department of Homeland Security requirements at Orlando International 
Airport. The Authority remains a steadfast partner in ensuring the 
highest standards of public safety and security of our homeland and 
deeply appreciates the leadership and efforts put forth by you and your 
Subcommittee to advance this mission.
    The Authority respectfully requests your Subcommittee's 
consideration and support of the following Federal initiatives:
Integrated U.S. Customs and Border Protection (CBP)/USDA Animal and 
        Plant Health Inspection Service (APHIS) Facility
    Two years ago, our Nation took a bold advancement in border 
protection by unifying all Federal entities with border 
responsibilities under one frontline border agency--the U.S. Bureau of 
Customs and Border Protection (BCBP) within the Department of Homeland 
Security. Identified as ``One Face at the Border'', this historic 
initiative merged the personnel and functions of the former Customs 
Service, the Immigration and Naturalization Service, the Animal and 
Plant Health Inspection Service and the U.S. Border Patrol to enhance 
efficiencies and create greater accountability in one seamless border 
service. Today's CBP officers are cross-trained to perform all 
functions previously fulfilled by the individual legacy agencies.
    On March 1, 2003, CBP designated a Port Director at each port of 
entry to implement a single, unified chain of command. At Orlando 
International Airport, an officially designated Port of Entry, over 230 
employees of the legacy agencies were brought under the single command 
of our Area Port Director. Although functions have been merged to 
create a seamless border and inspection service, operational locations 
are still stretched across the airport's 13,247 acres at multiple 
locations.
    The primary CBP facility, constructed almost a decade ago, is 
located on the west side of the airport in the Tradeport Drive area. As 
a result of the BCBP initiative, this facility is being utilized to its 
maximum capacity and does not have the flexibility to accommodate the 
realignment and future growth of staffing. INS functions are housed in 
an independent facility along the west side of the airport, as is the 
USDA Animal and Plant Inspection Service personnel.
    The Greater Orlando Aviation Authority respectfully requests 
funding under the Department of Homeland Security to construct a 28,000 
square foot companion facility adjacent to the existing CBP facility in 
order to promote a campus-style complex. This facility will accommodate 
capacity needed by CBP and bring existing APHIS staff and inspection 
facilities closer to CBP to increase interaction and accessibility. 
Such a facility will ensure improved communications and efficiencies 
needed to implement the Department's mission to protect the security of 
our borders and homeland.
    The Authority respectfully requests the Committee to include the 
following line item in the fiscal year 2006 DHS budget:
    ``Design and Construction of an Integrated U.S. Customs and Border 
Protection/USDA APHIS Facility at Orlando International Airport--
$9,000,000''
Additional U.S. Customs and Border Protection Staffing Positions
    Orlando International Airport continues to steadily rebound from 
the events of September 11, 2001 and significantly outpace passenger 
growth estimates. During the past year, our airport has moved upward in 
performance rankings to now lead as the 12th busiest commercial 
passenger service airport in the Nation and the 20th busiest in the 
world. Orlando International Airport has also surpassed Miami 
International Airport as Florida's busiest commercial service airport.
    As Orlando is a top destination choice of passengers, it is no 
surprise that Orlando International Airport also ranks as our Nation's 
5th largest Origination and Destination (O&D) Airport. As O&D 
passengers are required to undergo more security screening requirements 
than connecting passengers because they enter the sterile security area 
for the first time, appropriate levels of staffing are needed to ensure 
the efficient and timely flow of passengers through the screening and 
inspection process.
    CBP passenger wait times at Orlando International Airport routinely 
exceed the national average. Additional inspectors are needed to 
accommodate the airport's continuing growth. Annual CBP Inspector 
expenses are approximately $150,000 per inspector per year. Federal 
funding in the amount of $750,000 is needed to support the addition of 
five new CBP officers.
    The Authority respectfully requests the Committee to include the 
following line item in the fiscal year 2006 DHS budget:
    ``Additional CBP staffing positions at Orlando International 
Airport--$750,000''
Installation of In-Line Checked Baggage Explosive Detection System 
        (EDS)
    Over 2 years ago, the Authority received concept approval from the 
Transportation Security Administration (TSA) for the installation of an 
In-Line Checked Baggage Explosive Detection System (EDS); however, the 
TSA has not issued a Letter-of-Intent to proceed with installation of 
this system due to lack of available Federal funding. Since the design 
has already been completed, the system could be installed and fully 
operational within two years if Federal funding is obtained.
    Orlando International Airport (OIA) currently has 41 EDS machines 
located throughout the airport, with the majority in ticket lobbies and 
other passenger areas of the terminal. The physical size of each 
machine and the footprint support area consumes a significant portion 
(10 to 15 percent) of the terminal's capacity needed to process and 
move passengers efficiently. The airport has already implemented 
substantial renovations to the main terminal in partnership with the 
Federal Aviation Administration to maximize the flow and efficiency to 
the greatest extent possible. The existing placement of the EDS 
equipment negates the effectiveness of this substantial investment and 
may lead to the airport exceeding capacity levels earlier than 
projected.
    Installation of an In-Line system would result in a significant 
reduction in the number of EDS machines needed and the number of 
personnel required to manual operate the integrated system. Of the 
1,000 plus TSA personnel currently stationed at the airport, almost 
half (50 percent) are dedicated to the operation of the free standing 
EDS machines. Initial investments by TSA for in-line systems clearly 
result in immediate and long-term operational cost savings to the 
Administration.
    OIA primarily serves origination and destination travelers, who 
undergo more screening requirements than connecting passengers. O&D 
passengers represent approximately 95 percent of all passengers at OIA. 
This high level of O&D activity is expected to continue. The Airport 
accommodates more leisure travelers, who typically travel with a 
greater number of bags and unusually-sized accompaniments such as golf 
clubs, water skis, surfboards, etc. Under the current system, 
passengers must wait in airline check-in lines to obtain a boarding 
pass; then carry their luggage to the nearest EDS machine. Overall, 
installation of an In-Line EDS at Orlando International Airport would 
result in significant operational cost savings for TSA; recovered 
terminal capacity for the airport; and a return to customer-friendly 
expedited passenger processing. The total cost of the In-Line EDS Phase 
II System is estimated at $100 million.
    The Authority respectfully requests the Committee to include 
additional funding for the installation of In-Line Checked Baggage 
Explosive Detection Systems to enable TSA to execute additional Letters 
of Intent to airports such as Orlando International Airport.
Justification and Closing
    Orlando International Airport remains steadfast in its commitment 
to help our Nation in its mission to protect our borders and homeland 
while enabling safe, efficient and timely movement of passengers and 
commerce.
    Orlando International Airport (OIA) is one of the Central Florida's 
primary assets and has been designated as an U.S. Security Category X 
airport. In 2004, OIA served approximately 31.1 million passengers, 
surpassing Miami International Airport as the busiest commercial 
passenger airport in Florida. Additionally, OIA is the 12th busiest 
commercial service airport in the Nation and the 20th busiest in the 
world. In terms of origin and destination (O&D) passenger traffic at 
domestic airports, OIA ranked 5th behind Los Angeles International and 
traditional airline hub airports such as Las Vegas' McCarran 
International, Atlanta's Hartsfield International and Chicago's O'Hare 
International. O&D passengers represent approximately 95 percent of all 
passengers at OIA. This high level of O&D activity is expected to 
continue.
    OIA has scheduled service to 82 non-stop domestic destinations and 
19 non-stop international destinations, promoting increased airline 
service and competitive fares. The largest rental car market in the 
world is located at OIA. The airport shares a unique relationship with 
the regional economy. A completed Economic Impact Study determined OIA 
generates a $20.7 billion annual economic impact on Central Florida and 
is responsible for 62,100 direct and indirect jobs.
    The Authority expresses its gratitude for the opportunity to 
present this testimony to your Subcommittee. We look forward to working 
with you in advancing these safety and security initiatives that will 
benefit the National Aviation System.
                                 ______
                                 

   Prepared Statement of the International Association of Emergency 
                                Managers

    Chairman Gregg, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for allowing me this opportunity to provide 
testimony on the President's fiscal year 2006 budget request for the 
Department of Homeland Security.
    I am Dewayne West. As the Director of Emergency Services for 
Johnston County, North Carolina, I supervise the Emergency Management 
program, the Fire Marshal's Office and Emergency Medical Services. I 
currently serve as the President of the International Association of 
Emergency Managers (IAEM) and am providing this testimony on their 
behalf. I am also a Certified Emergency Manager (CEM), a member and 
past president of the North Carolina Emergency Management Association, 
and the Vice Chairman of the Emergency Management Accreditation 
Commission (EMAP). I was recently appointed by the Governor to serve on 
the N.C. State Emergency Response Commission (SERC).
    The International Association of Emergency Managers has over 2,600 
members including emergency management professionals at the State and 
local government levels, the military, private business and the 
nonprofit sector in the United States and in other countries. Most of 
our members are city and county emergency managers who perform the 
crucial function of coordinating and integrating the efforts at the 
local level to prepare for, mitigate the effects of, respond to, and 
recover from all types of disasters including terrorist attacks. Our 
members include emergency managers from large urban areas as well as 
rural counties.
    We appreciate the support the Subcommittee has given to emergency 
management in the past 2 years and especially appreciate your support 
for the Emergency Management Performance Grants and your strong support 
for and the all hazards mission.
    We respectfully request your assistance on two issues.
    Emergency Management Performance Grants (EMPG)
  --Request the $10,000,000 funding cut be rejected and the amount 
        increased to $280 million to begin addressing the shortfall.
  --Request that EMPG funding be maintained in a separate account as in 
        the fiscal year 2005 Congressional action and not combined with 
        other grant programs.
    Hazard Mitigation Grant Program (HMGP)
  --Request that the legislative language proposed in the budget to 
        reduce the formula for States with enhanced plans from 20 
        percent to 12.5 percent be rejected.
  --Request HMGP formula for States with basic mitigation plans be 
        restored to 15 percent of FEMA eligible cost.

             EMERGENCY MANAGEMENT PERFORMANCE GRANTS (EMPG)

    Increase funding for EMPG.--Appropriations Committee report 
language referred to the program as ``the backbone of the Nation's 
emergency management system.'' In order to maintain this system and 
build the capacity required to meet the greatly increasing demands, 
additional investment is needed.
    However, the President's Budget request for fiscal year 2006 
proposes to reduce the funding from the $180,000,000 appropriated in 
fiscal year 2005 to $170,000,000. According to a biennial study 
conducted by the National Emergency Management Association (NEMA) in 
2004 there is a shortfall of $264 million. We respectfully request that 
EMPG be increased $100 million over the fiscal year 2005 level for a 
total of $280,000,000 to begin addressing this shortfall.
    The Emergency Management Performance Grants (EMPG) constitute the 
only source of direct Federal funding for State and local governments 
to provide the foundation for basic emergency coordination and planning 
capabilities for all hazards, including those related to homeland 
security. The grants are pass through grants to State and local 
emergency management offices and are used predominately for personnel 
who plan, train, coordinate, and conduct exercises and other functions 
essential to effective preparedness, mitigation, response and recovery 
efforts.
    EMPG grants require a 50 percent State or local match. Currently 
many local jurisdictions are receiving 20 percent or less. In addition 
many local jurisdictions receive no funding because of shortage of 
funds.
    Natural disasters continue to remind us of the great need for 
preparedness and response coordination. In 2004 alone there were 68 
federally declared disasters and 7 emergencies and local officials 
responded to many more disasters that were not federally declared. The 
size and scope of Hurricanes Charley, Frances, Jeanne and Ivan 
underscored the need for a strong national emergency system. Eight 
hundred personnel from thirty-eight States provided support to the 
affected States and communities through the Emergency Management 
Assistance Compact.
    State and local emergency management programs are in desperate need 
of financial support if they are to continue to meet the requirements 
of all hazard planning and coordination as well as implement the 
President's homeland security strategy in States, counties, cities and 
neighborhoods across America. Emergency managers must meet the 
challenge of bringing the emergency response planning and organizations 
in their States and communities in line with new Federal requirements 
contained in the National Incident Management System (NIMS), the 
National Response Plan (NRP), and numerous new and pending national 
standards for preparedness and response.
    The new security concerns arising from the current world situation 
make the coordination and unifying role served by emergency managers 
more important than ever. Given continued support and funding, 
emergency managers have the skills, the expertise, and the willingness 
to rise to the planning and coordinating challenges presented by the 
full range of hazards affecting their communities.
    Maintain EMPG as a separate account.--We also urge you to continue 
to maintain EMPG as a separate account. The President's budget includes 
this program in the ``State and Local'' account with a number of other 
grant programs. EMPG is different from the other programs in this 
account. EMPG has existed for over 50 years and supports all hazards 
emergency management, including terrorism. In addition, it is a 
performance based continuing program with deliverables and requirements 
which must be met in order to receive funding the next year.

                 HAZARD MITIGATION GRANT PROGRAM (HMGP)

    The Hazard Mitigation Grant Program which is authorized by Section 
404 of the Robert T. Stafford Disaster Relief and Emergency Assistance 
Act provides funding to States following a Presidentially declared 
disaster in an amount equivalent to a percentage of eligible FEMA 
funds. The monies are provided by the President's Disaster Relief Fund 
and the costs are shared 75 percent Federal and 25 percent State or 
local. These funds are critical to reducing the costs and impacts of 
future disasters by breaking the cycle of damage and repair and damage 
again.
    Reject funding cut for States with enhanced plans.--The fiscal year 
2006 budget request in the Disaster Relief account in the Emergency 
Preparedness and Response Directorate proposes the following 
legislative language which would amend the Stafford Act: Provided, that 
the post-disaster hazard mitigation set aside for States is 7.5 percent 
of eligible disaster costs: Provided further, That States with an 
Enhanced Mitigation Plan may receive up to 12.5 percent of eligible 
disaster costs.
    This language would reduce funding available for post disaster 
mitigation to States with approved enhanced mitigation plans from an 
amount equivalent to 20 percent of eligible FEMA disaster costs to only 
12.5 percent. Since the passage of the Disaster Mitigation Act of 2000 
which added the 20 percent incentive, FEMA has strongly encouraged 
States to work toward these enhanced plans. The FEMA regulations stated 
``A State with a FEMA approved Enhanced State Mitigation Plan at the 
time of a disaster declaration is eligible to receive increased funds 
under the HMGP, based on 20 percent of the total estimated eligible 
Stafford Act disaster assistance.'' The States of Missouri, Oklahoma, 
and Washington have achieved this goal and others have been diligently 
working toward it. This effort required a very significant commitment 
of resources from already overburdened State and community officials to 
develop a comprehensive mitigation program and requires States to take 
on significant additional responsibility. However, many States have 
committed to the additional effort because of the 20 percent incentive 
provided by Congress. The ``carrot'' of increased funding has been in 
the law over 4 years. Now that States have made the effort to achieve 
the goal, the Federal commitment should be kept. We urge you to reject 
the language lowering the percentage for States with Enhanced 
Mitigation Plans.
    Restore Hazard Mitigation Grant Program (HMGP) to 15 percent.--The 
President's budget language continues the HMGP program at 7.5 percent. 
The fiscal year 2003 Omnibus Appropriations bill changed the formula 
used to determine hazard mitigation funding from 15 percent to 7.5 
percent of eligible disaster costs and provided funds for a new 
nationally competitive predisaster mitigation grant program. Citizens 
and elected officials are most receptive to undertaking projects and 
initiatives that prevent the loss of life and reduce destruction of 
property immediately after a disaster has occurred. States and 
communities regularly report that the demand for post-disaster grants 
exceeds the available funding. Now, with the HMGP funding reduced by 
half, many more of these post disaster opportunities are being missed. 
We urge you to restore HMGP to 15 percent.
    Thank you for giving us the opportunity to provide this testimony. 
We would welcome the opportunity to provide additional information to 
the Subcommittee.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

                              INTRODUCTION

    Thank you Chairman Gregg, Ranking Member Byrd, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on the Department of Homeland Security 
(DHS) fiscal year 2006 budget. I am David Liebersbach, the President of 
the National Emergency Management Association and Director of the 
Alaska Division of Homeland Security and Emergency Management. In my 
statement, I am representing the National Emergency Management 
Association (NEMA), whose members are the State emergency management 
directors in the 50 States, the U.S. territories, and the District of 
Columbia. NEMA's members are responsible to their governors for 
emergency preparedness, homeland security, mitigation, response, and 
recovery activities for natural, man-made, and terrorist caused 
disasters.
    Over the past year, our Nation's emergency management system has 
been tested by the extensive natural disasters that we have faced. In 
all, there were 68 major disaster declarations, seven emergency 
declarations, and 43 fire management assistance declarations. Our 
Nation bravely faced and responded to one of the most active hurricane 
seasons with impacts by tropical Storm Bonnie, Hurricanes Charley, 
Frances, Gaston, Ivan and Jeanne, while also dealing with other 
disasters like flooding, tornadoes, and earthquakes. We also watched 
the aftermath of the tsunami in the Indian Ocean and saw graphically 
illustrated the importance of catastrophic disaster planning and 
maintaining our own emergency preparedness and response system. In 
Alaska, we experienced the largest fire season ever, with fires 
impacting over 6.5 million acres and 10,000 square miles. At the same 
time, emergency management continues to prepare for the threat of 
terrorism with new requirements coming from the Federal government such 
as updating State plans to reflect the National Response Plan (NRP), 
training emergency responders on the new National Incident Management 
System (NIMS), and implementing the National Preparedness Goal mandated 
by Homeland Security Presidential Directive 8 (HSPD 8) on National 
Preparedness with no additional Federal financial assistance to meet 
Federal mandates. The multi-hazards emergency management system 
continues to be the means to practice and exercise for devastating acts 
of terrorism, while at the same time preparing the Nation for 
hurricanes, tornadoes, hazardous materials spills, and floods. We 
respectfully ask for your Committee to consider the role of emergency 
management as you address the fiscal year 2006 appropriations.
    All-hazards preparedness is in danger of being regarded as a thing 
of the past as more focus is being placed on terrorism. We must ensure 
that our capability to deal with many hazards, including terrorism 
remains intact and that we do not shift our focus to preparedness for a 
single peril. The capability to coordinate an effective response to an 
event does not change by the type of disaster. The HSPD 8 process shows 
the increased focus on terrorism with only 2 of the 15 disaster 
scenarios representing traditional natural disasters. The all-hazards 
approach relies upon the maintenance of plans, trained personnel to 
carry them out, and supporting infrastructure in the form of emergency 
operations facilities with inter-operable communications. We must 
continue this approach in practicing and exercising for all 
emergencies, to include devastating acts of terrorism, as well as day-
to-day emergencies. We cannot afford to lose the system we have in 
place to deal with all disasters in order to build new infrastructure 
for homeland security's sake.
    The Department of Homeland Security budget provides critical 
support to State and local emergency management programs through actual 
dollars, grants, and program support. This year, NEMA would like to 
address three main issues with the proposed Federal budget for 
Department of Homeland Security.
  --Extreme concern for proposed cuts to the Emergency Management 
        Performance Grant (EMPG) program while requirements increase 
        for State and local governments;
  --The need to address massive shortfalls in updating Emergency 
        Operations Centers (EOCs); and
  --Concern about the reduced formula for the post-disaster Hazard 
        Mitigation Grant Program (HMGP).

              EMERGENCY MANAGEMENT INFRASTRUCTURE FUNDING

    The Emergency Management Performance Grant (EMPG) is the only all-
hazards emergency preparedness grant program in support of capacity 
building at the State and local level. At a time when we are aiming to 
build the system, additional resources and funding is needed to sustain 
State and local emergency management. The State and local government 
partnership with the Federal Government to ensure preparedness dates 
back to the civil defense era, yet increased responsibilities over the 
last decade have fallen on State and local governments. With the recent 
expanded focus on terrorism and the increased demands of the Federal 
Government to assist in implementation of Federal initiatives like the 
NRP, the NIMS, and HSPD 8, EMPG becomes more important as a means to 
ensure State and local involvement and compliance with new systems.
    The President's budget proposal will have a devastating impact on 
the Nation's emergency management system at the same time that 
responsibilities are increasing for new and emerging hazards. The 
proposal decreases funding for the EMPG program by $10 million. These 
cuts mean that emergency management would be saddled with increased 
mandates, while coping with decreases to an already modest budget. In 
budget consideration for fiscal year 2003 and 2004, Congress has 
affirmed the importance of EMPG in appropriations bills in language 
addressing the significance of the program and increased the levels of 
funding for the program twice. Prior to these increases in fiscal year 
2003 and 2004, the program had been straight lined for over a decade. 
Additionally, Congress affirmed the intent of the program as all-
hazards and dedicated to supporting personnel during consideration of 
the fiscal year 2005 budget. NEMA is appreciative of Congress' 
recognition of the EMPG program, but this year we respectfully ask that 
Congress aggressively address the programs shortfalls with an 
additional $100 million in funding for EMPG for fiscal year 2006.
    EMPG is the only all-hazards program that State and local 
governments can use to build their emergency management capacity. The 
grants can be used for personnel, planning, training, exercises, 
warning systems, emergency operations centers, public outreach, and 
interagency coordination. EMPG is a flexible program that allows State 
and local governments to tailor funds to address the specific risks and 
needs of their jurisdiction. While it is called a grant, EMPG is really 
a 50/50 cost-share system which ties together the emergency management 
system of local, State, and Federal Governments. Every dollar 
contributed by the Federal Government is doubled with State and local 
contributions. EMPG's modest Federal increases in 2003 and 2004 helped 
the program grow, but shortfalls continue to force an unequal burden on 
state and local governments. States are continuing to increase their 
out of pocket costs in order to ensure there is adequate funding for 
local programs. In fact, a 2004 NEMA study found that there is 
approximately a $264 million shortfall in EMPG for all 50 States. This 
means that many communities that would like to implement a full-time, 
professional emergency management capability cannot do so because of 
shortfalls in Federal funding. Further, EMPG is primarily used as a 
pass-through program for local governments, so the shortfall affects 
our smallest localities that are often those most in need of emergency 
preparedness planning. Currently, States and local governments are over 
matching the Federal Government's commitment to national security 
protection through EMPG by $96 million according to the same 2004 NEMA 
study.
    During last year's hurricane season, the interdependencies of the 
Nation's emergency management system were tested through the Emergency 
Management Assistance Compact (EMAC). The state-to-state mutual aid 
compact enabled 38 States to provide assistance in the form of more 
than $15 million in human, military, and equipment assets and over 800 
personnel to support the impacted States for over 85 days of continuous 
response operations. The nature of the Nation's mutual aid system 
vividly shows the need for all States to have appropriate capabilities 
for all disasters. Additionally resources are needed to build emergency 
response capabilities on a national basis and to ensure the system can 
handle the demand of natural disasters and other emergencies no matter 
where they occur. EMPG is the only means to support this assistance 
that can be offered by other States in the face of disaster through 
adequate preparedness. EMPG ensures all States have funding to develop 
and maintain a base level capacity that can be utilized by other States 
for mutual aid.
    While terrorism continues as a major focus at this time, we must 
balance preparedness efforts by integrating terrorism as one of the 
many threats facing our Nation, rather than the current approach of 
making all other preparedness efforts a subset of terrorism. Further, 
Homeland Security Presidential Directive 8 States that, ``to the extent 
permitted by law, Federal preparedness assistance will be predicated on 
the adoption of statewide comprehensive all-hazards preparedness 
strategies.'' The all-hazards approach cannot be dismissed based upon 
the assumption that one threat is greater and more significant than the 
other. After all, no one really has a crystal ball to predict what the 
next disaster or emergency may be. Yet, the Federal requirements tied 
to homeland security are not funded. Focus and resources will have to 
be taken away from other preparedness initiatives in order to address 
these new demands. Our system for day-to-day public safety and homeland 
security must be mutually supportive and nimble enough to address any 
hazard.
    Last year, Congress affirmed the Department of Homeland Security's 
(DHS) intent to create a ``one stop shop'' for homeland security 
funding. As the fiscal year 2005 funding has been processed, NEMA has 
been working alongside the Office of State and Local Coordination and 
Preparedness (OSLCP) to ensure that the all-hazards intent of the 
program is not changed. Additionally, OSLCP is looking at ways to 
improve the program also in coordination with NEMA. However, because 
DHS is a new Department with a new and developing financial management 
system the changeover has not been without significant delays in the 
amount of time that it takes for States to get their funding. In fact, 
homeland security funding including EMPG is processed through the 
legacy Department of Justice system that was used before the Office for 
Domestic Preparedness was transferred into DHS. Additionally, 
integrating EMPG funding into the homeland security grant program means 
that in more than half of the States, another layer of bureaucracy is 
added because only half of the Nation's emergency managers serve as the 
State administering agency (SAA). In these cases, it takes even longer 
for emergency management agencies to access the EMPG funding once it is 
awarded. This has a domino effect as delays are then experienced by 
local governments that receive EMPG monies. NEMA has received reports 
of situations in which county emergency management programs were on the 
verge of shutting their doors because they had expended their match 
funds while Federal funding continued to lag. In most States, EMPG 
funds were not received until 6 months into the Federal fiscal year. 
NEMA hopes to work collaborately with Congress and OSLCP to resolve 
these issues in the coming year to ensure swifter grant awards in 
fiscal year 2006. Specifically, we ask that Congress de-couple the 
Emergency Management Performance Grant which is an all-hazards, 50/50 
match program from the homeland security grant program which is 
terrorism focused with different and longer-term requirements.
    The Federal Government must continue the commitment to ensuring 
national security though all-hazard preparedness. Without adequate 
numbers of State and local personnel to operate the all-hazards 
emergency management system, the infrastructure used to prevent, 
prepare for, respond to, and recover from all disasters will collapse. 
Congress must ensure predictable and adequate funding levels for the 
program.

                      EMERGENCY OPERATIONS CENTERS

    Emergency Operations Centers (EOCs) serve as the nerve center as 
well as the State and local government coordination point during 
disasters and emergencies. In fiscal year 2002 and 2003, a total of $81 
million was appropriated to the Federal Emergency Management Agency to 
address Emergency Operations Centers (EOCs) improvements. The $81 
million was allocated to States to begin the planning process to assess 
the necessary infrastructure and security improvements and security 
measures to be taken. Since then, no dedicated Federal funding has been 
provided for the implementation of these plans. Many State and local 
facilities are out of date; do not have the interoperable technology to 
coordinate with the Federal Government or among State and local levels; 
and lack adequate security features. Federal assistance is necessary to 
match State and local commitments to upgrade their EOCs as an integral 
part of the Nation's emergency response system. According to a 2004 
NEMA survey, it is projected that more than $1.6 billion will be needed 
to construct and maintain State and local primary and alternate EOCs 
over the next 2 to 5 years. This includes the costs to consistently 
upgrade equipment, buildings, and software, train personnel, and 
conduct operations during emergency and non-emergency situations. NEMA 
calls on Congress to assist in addressing this shortfall and immediate 
need. When Congress did begin to address this shortfall, the match 
requirement was lowered to 25 percent for State and local governments. 
Congress should make a $160 million commitment this year as a down 
payment to addressing the shortfall, or EOCs will fall further behind.

        HAZARD MITIGATION GRANT PROGRAM & PREDISASTER MITIGATION

    NEMA supports efforts by the Congress and the Administration to 
continue both pre- and post-disaster mitigation activities. NEMA calls 
on Congress to restore the post-disaster Hazard Mitigation Grant 
Program (HMGP) formula to 15 percent and maintain the formula at 20 
percent for ``enhanced plan'' States. Disasters present the opportunity 
to learn from past mistakes and to also take advantage of the lessons 
learned during the disaster. This means funding for utilizing 
elevations and buy-outs as tools and building warning systems and 
shelters.
    Effective February 20, 2003, Congress changed the formula for post-
disaster mitigation grants from 15 percent to 7.5 percent. This change 
limits the availability of funds for post-disaster mitigation and 
prevents the lessons learned from disasters from being immediately 
incorporated into mitigation projects to prevent loss of life and 
destruction of property. The months immediately following disasters 
provide unique opportunities to efficiently incorporate risk reduction 
measures in a very cost-effective manner, in many cases lowering the 
overall cost of the project by leveraging other funding sources 
including insurance settlements. We ask that you restore the formula to 
15 percent this year in order to address mitigation needs.
    This year, the Administration is proposing to decrease the post-
disaster formula for ``enhanced plan'' States as well. Last year, all 
States were required to complete hazard mitigation plans and to have 
them approved by the Federal Emergency Management Agency (FEMA). As a 
result of changes made to the Stafford Act in the Disaster Mitigation 
Act of 2000, States could opt to do more work and planning in order to 
qualify for enhanced plans. Thus far, three States (Missouri, 
Washington, and Oklahoma) have qualified to receive the 20 percent 
formula as enhanced plan states, and many more States are pursuing 
enhanced plans for approval. But, the Administration is proposing to 
lower the enhanced plan formula to 12.5 percent of disaster costs, 
reducing the incentives for States to make the investment to seek 
enhanced plans. Further, this will limit even more the mitigation 
opportunities that are addressed in disaster-prone States.
    The HMGP has proven to be a highly effective tool in steering 
communities toward risk reduction measures, in many cases breaking 
repetitive loss cycles that have cost other Federal disaster relief 
programs multiple times. Cost-benefit analysis is currently a 
requirement for predisaster mitigation programs. We must not lose these 
opportunities to initiate projects to enhance our communities and 
reduce future disaster costs. HMGP must be restored and the enhanced 
plan formula must be maintained.

                    HOMELAND SECURITY GRANT PROGRAM

    Congress has made significant attempts to ensure that the Homeland 
Security Grant Program is streamlined and provides greater flexibility. 
We appreciate the attention and funding that the Congress has given to 
ensuring emergency responders are adequately prepared for domestic 
terrorism threats. Emergency responders are better prepared today to 
face the various threats associated with terrorism because of the 
Federal commitment to address the war on terrorism that is being played 
out in our States, cities, and towns. States continue to take an all-
hazards approach to disaster preparedness as we have integrated our 
domestic preparedness efforts into the proven systems we already use 
for dealing with both man-made and natural disasters.
Funding Levels
    We continue to be concerned about cuts in the President's budget 
proposal for homeland security that has been dedicated to improving 
emergency responder preparedness for homeland security. The Federal 
Government must maintain its commitment to ensure that homeland 
security preparedness continues and the Constitutional responsibility 
to maintain a national defense is not compromised. Continuity of effort 
can only be maintained by State and local governments with adequate 
Federal support, especially when it deals with the front line emergency 
responders. Reductions in funding will immediately be translated into 
reductions in prevention, protection, and preparedness activities. 
Regional collaboration and mutual aid are critical components of the 
National Preparedness Goal. If the Federal Government provides adequate 
funding to the States for the necessary resources to be put in place to 
respond to any event, then the Federal Government is supporting one of 
the key overarching goals of the National Preparedness Goal. Further, 
continued or increased funding should not take away from traditional 
all-hazards capacity building programs for public safety, public 
health, and emergency management.
Congressional Legislation to Simplify the Grants Process
    As Congress considers legislation to address and reform the 
Homeland Security Grants, we ask that you take NEMA's suggestions into 
consideration. The suggestions include the following:
  --Each State must have a base minimum level of funding to ensure the 
        capacity to respond to any event. Such capacity is necessary 
        for homeland security because of the changing nature of the 
        threat and also because of the importance our emergency system 
        places on mutual aid to respond to events;
  --All efforts to increase emergency management capacity must be 
        coordinated through the States to ensure harmonization with the 
        State emergency operations plan, ensure equitable distribution 
        of resources, and to synthesize resources for intra-state and 
        inter-state mutual aid. Also, the Stafford Act, which governs 
        the way disaster assistance is allocated, successfully uses 
        States and Governors as the managers of Federal disaster relief 
        funds for local governments, which can become overwhelmed and 
        in need of assistance when disasters occur.
  --States understand the need to get funding quickly to the first 
        responders and have long coordinated statewide and regionally 
        to ensure adequate State assistance to local governments for 
        emergency preparedness and response; and
  --Traditional emergency management capacity building programs like 
        EMPG must be continued as separate and distinct from the 
        homeland security grants programs.
Fiscal Conditions and Match Requirements
    Further, because the war on terrorism is a national emergency and 
States and local governments continue to be in the toughest fiscal 
situations since the deep recession in the early 1980s, we must be wary 
of programs that would require significant matches. In fact, for local 
governments to meet the match would be even more difficult given their 
fiscal constraints. If a significant match is required, the application 
of this initiative will only go to those agencies and governments that 
can fiscally afford the match and not necessarily where the need is 
greatest. If a match is necessary, we would suggest that the match be 
non-fiscal or in the form of a deliverable as opposed to soft or hard 
dollars. Waivers may be a way for the Federal Government to also 
address the lack of capital for a match when State and local 
governments are experiencing fiscal distress.
Flexibility for Personnel to Manage the Program
    Greater flexibility to use some of the first responder grants for 
personnel both at the State and local level to manage the programs is 
critical to completing the preparedness mission. As an existing funding 
stream, EMPG is used in part to fund State and local staff to manage 
critical programs including the homeland security grants. The First 
Responder Grants should recognize that personnel are necessary to 
manage these programs, particularly when rigid deadlines are set for 
obligating millions of dollars and accountability is paramount. 
Additionally, new needs such as intelligence fusion personnel must be 
recognized. As HSPD 8 deadlines loom, States will be faced with a new 
set of requirements that could be tied to funding. Simply hiring 
contractors to do the work is not a long-term solution for building and 
maintaining national preparedness capabilities. State and local 
government, emergency management, and responder organizations are 
already working at a maximum capacity within existing resources and 
need Federal support for more than the purchase of equipment and 
exercises. Flexibility based on strategic approaches should be the 
norm, not single-issue, narrowly focused grants.

                 NATIONAL HOMELAND SECURITY CONSORTIUM

    The National Homeland Security Consortium is a voluntary, education 
and outreach group representing State homeland security advisors, State 
and local law enforcement, emergency management, fire, public health, 
EMS, National Guard, public works, emergency communications, State and 
local elected officials and private sector partners. The Consortium was 
established in 2003 by the National Emergency Management Association 
and was endorsed by former DHS Secretary Tom Ridge in September 2004. 
This comprehensive group of subject matter experts offers itself as a 
technical resource and sounding board for the Department of Homeland 
Security as they develop and implement new policies and programs. The 
Consortium represents State and local officials on the ground, in city 
hall and in the statehouses charged with the responsibility of homeland 
security and overall public safety. The group is meeting again in May 
to provide another opportunity for all disciplines and levels of 
government involved in emergency prevention, preparedness, response and 
recovery to come together to continue to share information, develop 
solutions to common challenges and build relationships that will 
enhance State and local homeland security capabilities. The Consortium 
serves as a model for intergovernmental coordination and demonstrates 
the commitment of State and local governments to collaboratively 
address the complex challenges of homeland security.

                               CONCLUSION

    While we as a Nation are fortunate that another year has passed 
without a terrorist incident on our Nation's soil, we must continue to 
build national preparedness efforts with a multi-hazard approach. We 
must be prudent and thoughtful in addressing homeland security 
enhancements to our existing emergency preparedness and response 
system. In this year's appropriations process Congress will make 
critical decisions that shape the future of emergency management in 
this country. As you begin your consideration, we ask you to recognize 
the importance of adequately funding the EMPG program in building 
capacity through people at the State and local level for all disasters. 
I thank you for the opportunity to testify on behalf of NEMA and 
appreciate your partnership.
                                 ______
                                 

   Prepared Statement of the National Flood Determination Association

    Mr. Chairman and members of the Subcommittee, the National Flood 
Determination Association (NFDA) strongly supports the Budget Request 
for the Flood Map Modernization Presidential Initiative. This major 
project to update and modernize the Nation's flood risk maps is 
critical to the functioning of the National Flood Insurance Program 
(NFIP) and to protection of property through effective floodplain 
management.
    The NFDA is a professional association of companies which provide 
flood zone determinations to lenders for compliance with the mandatory 
purchase requirements of the NFIP. The association represents some two 
thirds of the industry and has implemented a certification program 
containing standards for flood zone determination companies. Because 
the FEMA flood maps are the official documents for compliance with the 
NFIP, flood determination companies are probably the most frequent 
users of the maps. A survey of the NFDA membership reveals that it has 
completed approximately 33,000,000 determinations in the year 2003.
    Flood maps are used both to determine which properties are in or 
out of a Standard Flood Hazard Area (SFHA) and also are used by county 
and community officials to plan development and to reduce future risk.
    Approximately 70 percent of the maps are 5 years and older, 45 
percent at least 10 years old, and more that 2,200 flood prone 
communities remain without flood hazard maps. The current process 
utilized by FEMA to produce an updated map is 58 months. More than 
20,000 map panels identified as requiring updates, meaning they have 
outdated or inadequate flood hazard data requiring updates through 
field reconnaissance, engineering analysis and floodplain mapping 
utilizing improved analysis methodologies. The detailed flood studies 
will include ``approximately studied'' and ``unstudied'' flood-prone 
communities. There are more than 40,000 maps with adequate flood hazard 
data but inadequate non-engineering data and reference features such as 
roads. New elevation reference marks will be developed and implemented 
emphasizing the use of GPS surveying technology and a network of 
approximately 580,000 benchmarks.
    Complaints to lenders, flood determination companies, and realtors 
dramatized the problems caused for real estate transactions when maps 
do not reflect true risk. Over a 10 or 20 year period, development, 
road building and re-grading of land significantly alter flood risk.
    The NFDA has been extremely gratified that the Administration has 
recognized the real need to update and modernize the flood maps. As the 
Map Modernization project develops, however, we have some concerns 
about the update component. Updating the maps, particularly in high 
growth areas, requires a full restudy which includes engineering, 
surveying, hydrology and hydraulics. It should be noted that such 
extensive restudy is not needed everywhere as the water flow and 
retention properties may not have changed much over the years. Because 
the updates require more time and investment, we are worried that 
insufficient analysis is being undertaken in order to complete action 
on maps more quickly. The quantitative requirements by which the map 
modernization is judged may be moving away from the restudies and 
toward limited revisions and digitization. Such a newly issued map, 
with a new date, can be very misleading. Flood determinations done 
using these ``new'' maps will continue to generate complaints.
    To do justice to the national investment in good flood risk maps, 
there may need to be some adjustment to the quantitative standards by 
which the program is evaluated. It may not be possible to complete the 
job in the originally projected 5 years.
    Some technical coordination issues have also become apparent. It is 
key that the map modernization process and product reflect the needs 
and requirements of map users. For this reason, we strongly urge the 
establishment of a stakeholder advisory group. This could be modeled on 
the successful Technical Mapping Advisory Board established for 5 years 
by the Flood Insurance Reform Act of 1994. It is our understanding that 
FEMA has been looking into creating this kind of advisory board. We 
urge the Committee to support this effort.
    We were aware of a possibility last year that certain (at the time) 
funds not obligated to map modernization could be redirected to other 
needs of the Department of Homeland Security. Because it is becoming 
very clear that the Nations' flood map modernization needs are 
extensive, we are concerned about any redirection of funds appropriated 
for the Flood Map Modernization Initiative.
    The National Flood Determination Association remains committed to 
working with FEMA to achieve the updated, modernized national flood 
risk maps we all need. We urge the Committee to approve the full budget 
request of $200 million.
                                 ______
                                 

  Prepared Statement of the Ohio Department of Chiefs of Police, Inc.

    Chairman Gregg, Ranking Member Byrd and Distinguished Members of 
the Subcommittee, thank you for the opportunity to provide a statement 
for the record regarding the fiscal year 2006 budget proposal for the 
Department of Homeland Security.
    Our names are Director Kenneth L. Morckel, Ohio Department of 
Public Safety and Director Todd N. Wurschmidt, Ph.D., Ohio Association 
of Chiefs of Police (OACP). Director Morckel is the designated head of 
Homeland Security efforts in Ohio as appointed by Governor Bob Taft. 
Dr. Wurschmidt oversees staff operations for the OACP and is involved 
in managing the statewide effort and information sharing between Ohio 
law enforcement agencies.
    We respectfully request consideration on restoring a separate line 
item in Homeland Security funding for the category, ``LETPP--Law 
Enforcement Terrorism Prevention Program.'' Highlights of our statement 
include:
  --Prevention, Such As Information Sharing, Involves 100 percent of 
        America's Law Enforcement Agencies
  --Terrorists Can Plan Anywhere, Thus Involving 100 percent of 
        America's Geography
  --Preventing Terrorism Is Not UASI \1\ Urbans Versus SARASI \2\ 
        Suburban and Rurals
---------------------------------------------------------------------------
    \1\ USAI=Urban Area Security Initiative.
    \2\ SARASI=Suburban and Rural Area Security Initiative.
---------------------------------------------------------------------------
  --Law Enforcement's Prevention Role Should Not Be Formula Funded At 
        the Expense of Law Enforcement's First Responder Role
  --Proposed fiscal year 2006 Budget Cuts For Suburban and Rural 
        Prevention and Responder Efforts Total 32 percent
    Have you heard of Iyman Faris? Probably not. In 2003, Mr. Faris was 
making plans to blow up the Brooklyn Bridge. He was NOT living in 
Manhattan. Mr. Faris was apprehended outside of Columbus, Ohio. Had the 
Brooklyn Bridge gone down, we probably would have all known Mr. Faris's 
name well.
    Heard of Azmi Al-Jayyusi? Probably not. In 2004, Mr. Al-Jayyusi 
headed up a sophisticated plot, designed in the small villages in 
Jordan, in which trucks, chemicals and explosives were surreptitiously 
purchased for purposes of blowing up select strategic targets 
(including the American Embassy) in the capital of Jordan, Amman. It 
was estimated the chemical explosives would have caused the deaths and 
injuries of 250,000 civilians. Once again, the urban city was not Mr. 
Al-Jayyusi's site for plotting and preparing; it was the rural 
countryside. Had Mr. Al-Jayyusi's terrorist plot been successful, we 
could probably recite his name easily as well.
    Heard of Ted Kazenski, the Unabomber? Yes, of course. Why? Because 
this domestic terrorist was successful in reeking widespread fear, his 
deeds carried out from the isolated forests of rural Montana. How about 
Eric Rudolph, the Abortion Clinic Bomber? Yes? Mr. Rudolph's eventual 
capture occurred during late night, at the site of a trash bin, behind 
a business in the small North Carolinian town of Murphy; a rural 
apprehension.
    ``All across our Country we'll be able to tie our terrorist's 
information to local information banks so that the front line of 
defeating terror becomes activated and real, and those are the local 
law enforcement officials. We expect them to be part of our effort; we 
must give them the tools necessary so they can do their job.'' 
President George W. Bush, February 2003
    As President Bush so accurately notes, preventing domestic and 
international terrorism requires enlisting the commitment and 
involvement of 100 percent of America's geography and 100 percent of 
America's law enforcement agencies.
    Geography.--In the United States, there are 3,042 counties. There 
are only 60 to 65 counties within the UASI (Urban Area Security 
Initiatives) areas as designated by the U.S. Department of Homeland 
Security (Map 1). That leaves some 2,980 counties within the non-UASI, 
non-urban areas involved in preventing, detecting, deterring and 
disrupting terrorism (Map 2).
    Successful terrorism prevention requires that these 2,980 SARASI 
counties (Suburban and Rural Area Security Initiatives) continue to 
receive LETPP \3\ funds commensurate with their percentage geography, 
and commensurate with the need to prepare, equip and train all local 
law enforcement, urban, suburban and rural.
---------------------------------------------------------------------------
    \3\ LETPP=Law Enforcement Terrorism Prevention Program.
---------------------------------------------------------------------------
    L/E Agencies.--This Nation's terrorism fight requires our enlisting 
the aid and commitment of all of America's 19,000 law enforcement 
agencies. Over 80 percent of U.S. law enforcement agencies are located 
outside the UASI cities, and within the SARASI counties, towns and 
villages. Less than 20 percent of America's law enforcement agencies 
are in UASIs. Yet, proposed fiscal year 2006 prevention funding is 
weighted toward 50 large cities and decreases funding allocations 
available to the over 80 percent of America's suburban and rural law 
enforcement agencies (Table 1).

     TABLE 1.--UASIS \4\ VERSUS SARASIS \5\ IN PREVENTING, DETECTING, DETERRING AND DISRUPTING DOMESTIC AND
                                             INTERNATIONAL TERRORISM
          [Prevention (E.G. Information Sharing) Involves 100 Percent of U.S. Law Enforcement Agencies]
----------------------------------------------------------------------------------------------------------------
                                                                    Total U.S.         UASIs          SARASIs
----------------------------------------------------------------------------------------------------------------
Counties:
    Number......................................................           3,042           60-65           2,980
    Percent.....................................................             100               2              98
Law Enforcement Agencies:
    Number......................................................    About 19,000     About 3,500          15,500
    Percent.....................................................             100              18             82
----------------------------------------------------------------------------------------------------------------
\4\ UASI=Urban Area Security Initiative.
\5\ SARASI=Suburban and Rural Area Security Initiative.

    ``Preventing terrorism equates to intelligence'' (eg. information 
sharing). Congressman Christopher Cox (R-CA), Chair, Homeland Security 
Committee, U.S. House of Representatives, February 2005.
    In fiscal year 2004, the President and Congress identified the 
unique role of law enforcement in the Nation's fight against terrorism. 
That unique role of law enforcement is prevention. Thus, within the 
U.S. Department of Homeland Security's grant programs, the ``Law 
Enforcement Terrorism Prevention Program'' (LETPP) was created. In the 
above television interview, Chairman Cox emphasized the need for 
prevention, intelligence and information sharing. Prevention, 
intelligence and information sharing can only be achieved with 100 
percent involvement of America's law enforcement agencies.
    Although the proposed fiscal year 2006 President's budget collapses 
grant fund categories and incorporates LETPP funding into UASI and 
SHSGP \6\ categories, the loss of the separate LETPP funding category 
will:
---------------------------------------------------------------------------
    \6\ SHSGP=State Homeland Security Grant Program.
---------------------------------------------------------------------------
  --Greatly restrict suburban and rural law enforcement from moving 
        forward on prevention efforts such as information sharing;
  --Increase the likelihood that local law enforcement will not be 
        fully funded on prevention plus their responder roles because 
        of the funding needs by all other public safety first responder 
        and health agency groups; and
  --Greatly restrict funding for law enforcement's responder roles 
        because of formula funding that could be interpreted as having 
        funded law enforcement because of the 20 percent prevention 
        mandate.
    Below we offer explanations for these potential complications.
    ``Smaller States would see an 80 percent cut according to the 
proposed fiscal 2006 budget. That's not just a small drop. That's a 
leap off the cliff.'' Senator Susan Collins (R-Maine), Chair, Senate 
Homeland Security and Governmental Affairs Committee.
    The four-fold purposes of this document are to respectfully request 
the U.S. Congress:
  --Reinstate the Homeland Security funding category of ``LETPP--Law 
        Enforcement Terrorism Prevention Program'' as a separate line 
        item funding category;
  --Restrict the use of formula funding to require a threshold 
        percentage of funding be directed toward prevention versus 
        response efforts;
  --Avoid funding allocations that will have UASI urban cities funded 
        to the detriment of all other counties, towns and villages 
        involved in the prevention of terrorism; and
  --Avoid melding the prevention plus responder roles of law 
        enforcement into one funding category used to fund responder 
        functions for all other first responder public safety and 
        health agency forces.
    The original purpose of the fiscal year 2004 LETPP was to ``seek to 
provide law enforcement communities with enhanced capabilities for 
detecting, deterring, disrupting, and preventing acts of terrorism.'' 
\7\ It should be noted that the mission statement identified ``law 
enforcement communities,'' not just urban area law enforcement 
communities.
---------------------------------------------------------------------------
    \7\ Fiscal year 2004 Homeland Security Grant Program: Program 
guidelines and application kit, U.S. Department of Homeland Security, 
page 38.
---------------------------------------------------------------------------
    The LETPP program funding category provided law enforcement 
communities with monies to pursue five program areas: (1) information 
sharing; (2) target hardening; (3) threat recognition; (4) intervention 
activities; and (5) interoperable communications.
    The President's 2006 Proposed Budget from the U.S. Department of 
Homeland Security will inhibit efforts to build forward on terrorism 
prevention and first responder work of local law enforcement officials. 
The program budget review document for fiscal year 2006 ``State 
Homeland Security Grants Program'' (as prepared by the Office of State 
and Local Government Coordination and Preparedness, U.S. Department of 
Homeland Security) shows a total appropriation budget request of $1.242 
billion or, a $482 million reduction from the $1.725 billion homeland 
security funds approved for fiscal year 2005.8 This loss of half a 
billion dollars from thousands of public safety agencies' budgets will 
greatly reduce suburban and rural terrorism prevention and first 
responder efforts (Table 2 and Table 3).
    The philosophical and strategic argument for increasing funds for 
the Nation's UASIs (Urban Area Security Initiatives) appears to involve 
the adoption of ``risk assessment'' as opposed to population formula 
for allocation of Homeland Security funds. The argument being put 
forward is that the major cities will, in greater probability, be the 
location of future terrorist attacks. Then, the argument of logic is 
furthered that these major urban centers need more monies to adequately 
prepare to prevent and respond. This argument should also recognize the 
significant role that all of this Nation's law enforcement agencies 
play in prevention efforts--to ``detect, deter, disrupt and prevent 
acts of terrorism.''

 TABLE 2.--PROPOSED $480 MILLION (32 PERCENT) LOSS IN PREVENTION AND RESPONDER FUNDING FOR THE 2,980 SARASI \9\
                                                    COUNTIES
 [All suburban and rural prevention and responder efforts by fire, EMS, EMA, health and police will experience a
                                    32 percent total cut in fiscal year 2006]
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year    Fiscal year 2006
                                                             2005  enacted       request             Change
----------------------------------------------------------------------------------------------------------------
SHSGP \10\................................................           1,100              1,020               (80)
LETPP \11\................................................             400  .................              (400)
                                                           -----------------------------------------------------
      Total Funding to Suburban & Rural SARASIs...........           1,500              1,020              (480)
                                                                                                (32 percent cut)
----------------------------------------------------------------------------------------------------------------
\9\ SARASI=Suburban and Rural Area Security Initiative.
\10\ SHSGP=State Homeland Security Grant Program.
\11\ LETPP=Law Enforcement Terrorism Prevention Program.


 TABLE 3.--WITH THE PROPOSED FISCAL YEAR 2006 20 PERCENT FORMULA FUNDING
 FOR LETPP \12\, FUNDING FOR JUST RESPONSE EFFORTS BY SUBURBAN AND RURAL
PUBLIC SAFETY FORCES WILL BE CUT BY ($284 MILLION) (26 PERCENT CUT) FROM
                            FISCAL YEAR 2005
 [Proposed fiscal year 2006 First Responder cuts to SARASIs amount to a
          26 percent cut from fiscal year 2005 funding levels]
                        [In millions of dollars]
------------------------------------------------------------------------
                                 Amount                        Amiount
------------------------------------------------------------------------
Fiscal year 2006 Request           $1,020  SARASI First          $1,100
 SHSGP \13\.                                Responder
                                            fiscal year
                                            2005.
Formula Funding percent to            204  SARASI First             816
 LETPP.                                     Responder
                                            fiscal year
                                            2006.
Balance to First Responder            816  Loss to SARASI          (284)
 SARASIs \14\.                              First
                                            Responders.
------------------------------------------------------------------------
\12\ LETPP=Law Enforcement Terrorism Prevention Program.
\13\ SHSGP=State Homeland Security Grant Program.
\14\ SARASI=Suburban and Rural Area Security Initiative.

    Prevention of terrorism needs the involvement of 100 percent of the 
law enforcement community throughout the Nation. Although the 
probability of a future terrorist attack may involve major urban areas, 
the prevention of future terrorist attacks must involve all 19,000 law 
enforcement agencies throughout the 3,042 counties in the United 
States.
    Information Sharing as Prime Example: Information sharing amongst 
law enforcement agencies is as critical as President Bush noted in his 
February 2003 comments noted earlier, and as reinforced by U.S. House 
Homeland Security Chair Congressman Cox's February 2005 comments noted 
previously. Of the five program areas authorized in 2005 for LETPP 
Homeland Security funding, information sharing between law enforcement 
agencies is listed first. Effective information sharing requires 
linking information systems for all 19,000 law enforcement agencies, 
not just crime data systems within UASI agencies.
    As example, the ``Ohio Local Law Enforcement Information Sharing 
Initiative,'' as supported by the Ohio Department of Public Safety and 
managed by Ohio Attorney General Jim Petro's Office and the Ohio 
Association of Chiefs of Police, involves the linking of Record 
Management Systems (RMS) between the nearly 1,000 law enforcement 
agencies in Ohio. Approximately 18 percent of the Ohio law enforcement 
agencies are within the four Ohio UASI regions, while 82 percent of the 
law enforcement agencies are within Ohio's 84 SARASI counties.
    The cost of linking all nearly 1,000 Ohio law enforcement agency 
RMS systems approximates $20-25 million. The linking of any given 
single agency is on, average, approximately the same, whether located 
in an UASI region or SARASI region. Thus, of the total cost for Ohio's 
Information Sharing Project, $3.5 million to $4.5 million must be 
allocated for UASI located agencies, while $16.5 to $20.5 million must 
be directed toward the law enforcement agencies in the SARASI counties 
(Table 4).

   TABLE 4.--OHIO INFORMATION SHARING PROJECT--COST TO LINK THE 18 PERCENT OHIO UASI \15\ AGENCIES AND THE 82
                                        PERCENT OHIO SARASI \16\ AGENCIES
 [The proposed fiscal year 2006 LETPP budget formula will only direct up to 50 percent of the LETPP to Non-UASI
  or SARASI areas, while Ohio's suburban and rural SARASI agencies will need 82 percent of prevention funds to
            complete one aspect of prevention, i.e., information sharing between agency RMS systems]
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                Cost of connect
                                              No. of counties           No. of agencies         agency RMSs \17\
----------------------------------------------------------------------------------------------------------------
Ohio UASIs:
    Number................................                  4    about 175...................           $3.5-4.5
    Percent...............................                  4.5  17..........................                 17
Ohio SARASIs:
    Number................................                 84    about 825...................         $16.5-20.5
    Percent...............................                 95.5  82..........................                 82
                                           ---------------------------------------------------------------------
      Total...............................                 88    about 1,000.................             $20-25
----------------------------------------------------------------------------------------------------------------
\15\ UASI=Urban Area Security Initiate.
\16\ SARASI=Suburban and Rural Area Security Initiative.
\17\ RMS=Record Management systems.

    The U.S. Department of Homeland Security's fiscal year 2006 Budget 
proposes the cost for information sharing prevention efforts be 
allocated as a 50/50 split between UASIs and SARASIs. LETPP dollars 
have been incorporated within the UASI and State Homeland Security 
Grant Programs. By approaching 2006 LETPP funding using formula 
percentages, States will no longer have the flexibility to allocate 
necessary dollars to accomplish full information sharing.
    In addition, the proposed U.S. Department of Homeland Security 
fiscal year 2006 Budget also begins to increase the potential for 
funding competition between law enforcement and all other public safety 
first responder agencies. In the fiscal year 2004 and fiscal year 2005 
budgets, Homeland Security separated the law enforcement prevention 
role by having the separate LETPP line item. By separating LETPP from 
the State Homeland Security grant programs, response issues for all 
First Responders (including law enforcement) were debated and explored 
within the funds allocated to the ``State Homeland Security Grant 
Programs.'' Prevention issues did not have to be co-mingled with 
response discussions because LETPP existed as a separate line item.
    By collapsing the LETPP program within the State Homeland Security 
grant program, non-law enforcement First Responders (Fire, EMA, EMS, 
Health) may be inclined to restrict additional funding needs of law 
enforcement, be they prevention or response needs, because 20 percent 
has already been required for law enforcement. The predictable concern 
will be, ``Why should law enforcement get 22 or 30 or 40 percent of 
funding, when Congress has already assigned 20 percent of funds for 
police.''
    The proposed 20 percent formula funding of LETPP will restrict 
prevention efforts for the suburban and rural communities and counties, 
potentially increase competition between law enforcement versus all 
other first responders, and further inhibit police response role issues 
to be separated from prevention role issues.
    Additionally, all suburban and rural first responders will 
experience reductions from the fiscal year 2005 $1.1 billion allocated 
to State grants. With the proposed formula allocation of $204 million 
incorporated within the State Homeland Security Grant Program for 
LETPP, State grant allocations will be reduced to $816 million (an 
almost $300 million reduction for SARASI or non-UASI county use for 
response plans, equipment and training) (Table 3). These 80 percent of 
First Responder and Health agencies within the SARASI communities will 
experience a more than 25 percent reduction from funds available for 
all First Responders involved in response planning, equipment and 
training.
    In summation, we would respectfully ask that the United States 
Congress:
  --Reinstate the Homeland Security funding category of ``LETPP--Law 
        Enforcement Terrorism Prevention Program'' as a separate line 
        item funding category;
  --Restrict the use of formula funding to require a threshold 
        percentage of funding be directed toward prevention versus 
        response efforts;
  --Avoid funding allocations that will have UASI urban cities funded 
        to the detriment of all other counties, towns and villages 
        involved in the prevention of terrorism; and
  --Avoid melding the prevention plus responder roles of law 
        enforcement into one funding category used to fund responder 
        functions for all other first responder public safety and 
        health agency forces.
    America has not had any major terrorist incidents since 9/11. We 
would respectfully ask, ``Why would we want to change that which is 
working?'' Instead, would it not be more prudent to build forward, in 
not redesigning that which is working, but to instead address 
deficiencies which may have been recently identified? LETPP, as a 
separate line item, has served this Nation well toward accomplishing 
significant prevention strategies and in effectively separating out the 
unique prevention role 19,000 law enforcement agencies perform amongst 
the first responder roles all public safety forces are engaged in our 
3,042 counties. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

             Prepared Statement of the University of Miami

    Chairman Gregg, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for giving me the opportunity to provide 
testimony on the Disaster Resistant University initiative and to 
request the program be continued in the fiscal year 2006 appropriations 
bill of your Subcommittee.
    We very much appreciate the interest Members of Congress have shown 
in this program. With only a small Federal investment, the Disaster 
Resistant University program created a model for other educational 
institutions to develop and implement a loss control program and 
created a sense of focus, pride and achievement. It is a small program 
with great benefits. We urge that the program be continued.
Request for Fiscal Year 2006
    We respectfully request the following language in the fiscal year 
2006 Department of Homeland Security Appropriations Report in the 
Emergency Preparedness and Response section under Predisaster 
Mitigation.
    The Committee directs Emergency Preparedness and Response (FEMA) to 
continue the Disaster Resistant University Program as a separate 
program and to provide continued support of $500,000 directly to each 
of the pilot universities and $500,000 each to those selected in 2004 
to implement mitigation efforts to reduce their vulnerabilities and 
improve protection of their students, employees, and the Federal 
investment in vital research.
    The FEMA Disaster Resistant University (DRU) Program was created to 
reduce the potential for large loss of life and hundreds of millions of 
dollars in key Federal research and billions of dollars in damage from 
natural disasters. The University of California at Berkeley was the 
prototype and founding member of the program.
    In October 2000, FEMA selected five additional universities to join 
Berkeley in the pilot phase of the program: the University of Alaska at 
Fairbanks, University of Miami, University of North Carolina at 
Wilmington, Tulane University, and the University of Washington at 
Seattle. The pilot universities have two elements in common: a 
vulnerability to disasters and a commitment to improve protection of 
students, faculty and staff, and one of our most valuable assets, 
intellectual property. The pilot program was funded with $700,000 in 
grants from predisaster mitigation funds and the U.S. Fire 
Administration.

Purpose of the Program
    The purpose of the program is to help the Nation's colleges and 
universities facing the threat of natural disasters and acts of 
terrorism to assess their vulnerabilities and find ways to protect the 
lives of their students, faculty, and staff; their research; and their 
facilities. It will provide a framework and process for other 
universities to do the same.
    The intent of the program is to assist universities by first 
providing a small grant for them to assess their vulnerabilities, 
devise appropriate plans, and set priorities and then to provide grants 
in following years of approximately $500,000 each for the universities 
to implement projects to reduce campus vulnerabilities to disaster.
Need for the Program
    The Federal Government funds $21.1 billion annually in university 
research, according to the National Science Foundation statistics in 
2002, the latest year available. This Federal investment in the vital 
intellectual property of the Nation should be protected.
    In addition, universities are critical to the economic health of 
their surrounding communities. The ability to resume operations quickly 
following a disaster greatly speeds the recovery of the entire 
community.
    Some examples of the economic impact of universities on their 
communities follow:
  --The University of Miami is the largest private employer in Miami-
        Dade County with 10,157 employees and 6th largest employer 
        overall and has an economic impact of $3.9 billion a year and 
        37,000 employment positions in the community.
  --The University of Washington is the 3rd largest employer in the 
        state of Washington and has a $3.4 billion impact.
  --The University of North Carolina at Wilmington is the 3rd largest 
        employer in the area and is a $400 million annual benefit to an 
        eight county area.
  --The University of California at Berkeley is the 3rd largest 
        employer in the Bay area and generates $1.4 billion annually in 
        the Bay area.
  --Tulane University is the largest private employer in the New 
        Orleans metropolitan area and the 5th largest private employer 
        in Louisiana with an $842 million annual economic impact on the 
        City of New Orleans and an annual economic impact of $1.12 
        billion on the state of Louisiana.
  --The University of Alaska at Fairbanks is the largest civilian 
        employer in the Tanana Valley.
    In addition, many universities operate medical schools which 
provide essential clinical services to the residents of their 
communities and adjacent areas.
    In the past decade, disasters have affected university and college 
campuses with increasing frequency. For most universities, damage that 
results in closure of four weeks or more would result in canceling a 
semester with devastating consequences for the school, the students and 
the community.
    Many recent events underscore the need for the program: the loss of 
many years of research at the Texas Medical Center as result of 
flooding from Tropical Storm Allison; the earthquake damage to the 
University of California at Northridge and the University of California 
at Los Angeles; the facility damage and loss of life at the University 
of Maryland as result of a tornado; hurricane damage to the University 
of North Carolina at Wilmington; the earthquake damage to the 
University of Washington at Seattle; and the declaration by the FBI 
that our universities are ``soft' targets for terrorists.
Status of the Program
    Congress directed in the fiscal year 2003 Appropriations Bill for 
FEMA that $500,000 was to be available to the six existing DRUs and 
$100,000 each was to be available for at least six new ones to start 
the process. On December 31, 2003, FEMA published a Notice of Funds 
Availability (NOFA) for grant applications. The funds were from the 
PreDisaster Mitigation Fund.
    Forty-four universities and four consortia applied by the March 
2004 deadline. Applications were received from six Historic Black 
Colleges and Universities (HBCU) and one tribal school. Applications 
were received from universities located in nine of the ten FEMA 
regions.
    In October 2004 FEMA announced twenty-four colleges and 
universities had been selected to join the six pilots in the program. 
Those universities are as follows: Radford University (VA), Virginia 
State University, Virginia Tech, Florida Agricultural & Mechanical 
University, Florida International University, University System of 
Georgia, University of Louisville (KY), University of Mississippi, 
Horry-Georgetown Tech (SC), University of Memphis (TN), University of 
Akron (OH) Southern University (LA), University of New Orleans (LA), 
University of Central Oklahoma, Texas State Technical College, Texas 
University-Medical Center, Metropolitan Community College (MO), 
University of Colorado at Boulder, North Dakota State University, 
Sitting Bull College (ND), San Jose State University (CA), University 
of Southern California, University of Nevada-Reno, and the University 
of Oregon. These colleges and universities received Federal grants 
ranging from $31,000 to $100,000. The institutions are providing 25 
percent of the cost.
    The applications for the fiscal year 2003 funding for the pilots 
and the new schools had layers of requirements and were very time 
consuming. One of the new schools indicated that over 150 hours of 
staff time was required to complete the application for $100,000. 
However, the colleges and universities seeking to enter the program and 
obtain a grant put forth the effort and accepted the responsibilities 
of a rigorous planning and risk analysis process because of the 
incentive to become part of the separate DRU program and to be eligible 
for yearly grants of $500,000 to implement mitigation projects. In 
addition the colleges and universities expected to be mentored by other 
universities and guided by FEMA.
    However, FEMA guidance for the PreDisaster Mitigation Program (PDM) 
issued in October 2004 for the combined 2004 and 2005 PDM grant cycles 
indicated that FEMA was not continuing the DRU as a separate program 
and recommended that colleges and universities apply for projects in 
the nationally competitive PDM program. Given the great benefit to FEMA 
and the Nation from such a small investment, this was a great 
disappointment to the pilots and to the new selections. Public and 
private nonprofit colleges and universities were already eligible 
applicants for the nationally competitive PDM program. Receiving a 
single grant for one hurricane shuttering project, one drainage 
improvement, or one earthquake retrofit is very helpful, but it is not 
a substitute for a comprehensive, multiyear program.
    Given the many challenges facing our universities, it is difficult 
to compete for attention and money for disaster preparedness and 
mitigation when there is not an immediate threat. However, designation 
as a Disaster Resistant University has real value. The pilot 
universities found that the designation as a Disaster Resistant 
University and the expectation of continuing to participate in the 
program brought attention and commitment at the highest levels of the 
universities. The networking and partnerships built with Federal, 
State, and local emergency management officials and other entities 
serving the public, such as hospitals and utilities, have benefits to 
the communities far beyond the scope of the original program and 
certainly way beyond the amount of the grants. Participating in the 
program created a framework for disaster planning and mitigation 
activities that helped universities focus and enhance efforts to 
protect their students, faculty, staff, vital research, and facilities. 
Two of the great values of the program which should not be overlooked 
have been the mentoring and exchanging of ideas among participating 
universities and the pilots spreading the FEMA mitigation message as 
they share their experiences at many different national and regional 
meetings of educational institutions.
    We again thank you for the opportunity to provide written comments 
and respectfully urge that the DRU program be continued. A summary of 
previous Congressional interest in this program is attached. We would 
welcome the opportunity to provide additional information or to discuss 
the program further with your staff.
Summary of Congressional Interest
    We very much appreciate the support Congress has given this 
program.
Fiscal Year 2002
    The Conference Report on the VA, HUD and Independent Agencies 
Appropriations bill for 2002 (House Report 107-272) contained the 
following language:
    The conferees believe that many of the Nation's universities are 
vulnerable to disaster and urge FEMA to continue its Disaster Resistant 
University program and expand the scope to include safe-guarding 
university assets from acts of terrorism.
Fiscal Year 2003
    The Conference Report on the fiscal year 2003 Omnibus bill in the 
FEMA section of the VA, HUD and Independent Agencies stated the 
following:
    The conferees are in agreement that FEMA should continue the 
Disaster Resistant University program and direct FEMA to carry out the 
direction contained in House Report 107-740.
    House Report 107-740 stated the following:
    Finally, the Committee notes that in September of 2000 FEMA 
selected five universities to join the University of California at 
Berkeley in the pilot phase of the Disaster Resistant University 
program: University of Alaska/Fairbanks, University of Miami, 
University of North Carolina/Wilmington, Tulane University, and 
University of Washington/Seattle. The purpose of the program is to help 
the Nation's colleges and universities facing the threat of natural 
disasters to assess their vulnerabilities and find ways to protect 
their research, facilities and the lives of students, faculty and 
staff. The Committee directs FEMA to continue the Disaster Resistant 
University Program with grants of $500,000 to each of the six pilot 
Disaster Resistant Universities and $100,000 each to at least six 
additional universities, including at least one HBCU, to join the 
program.
Fiscal Year 2004
    The Senate Report on the Department of Homeland Security 
Appropriations bill (S. Report 108-86) included the following language 
under the National Pre-Disaster Mitigation Fund which was funded at 
$150,000,000.
    The Committee encourages the Department to continue the existing 
Disaster Resistant University program at the fiscal year 2003 level.
    The House receded to the Senate in the conference agreement.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five States' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budgets for the U.S. Coast 
Guard and the Federal Emergency Management Agency (FEMA).
    Both the Coast Guard and the FEMA have vital functions specifically 
related to homeland security that must be adequately funded. But both 
also have other traditional missions that are equally important to 
public health and safety, economic well-being, and environmental 
protection. For the Coast Guard, these include activities such as aids 
to navigation, vessel and facility inspections, emergency response, and 
mariner licensing. For FEMA, key traditional missions include the 
National Flood Insurance Program, flood map modernization, hazard 
mitigation, and response to floods and other natural disasters. Nowhere 
are these services more important than on the Upper Mississippi River 
System, which supports a vital link in the inland waterway 
transportation system, some of the Nation's most productive 
agricultural land, population centers ranging from small towns to major 
metropolitan areas, and a nationally significant ecosystem.

                     COAST GUARD OPERATING EXPENSES

    A continuing priority for the UMRBA is the Coast Guard's Operating 
Expenses account. The President's fiscal year 2006 budget proposal 
includes $5.55 billion for this account, an increase of almost 8 
percent from the fiscal year 2005 enacted level. However, this net 
increase of $390 million for Operating Expenses will be largely 
consumed by specific increases tied to implementation of the Maritime 
Transportation Security Act (MTSA); increased personnel costs; and 
operating costs for new vessels, aircraft, and facilities related to 
the Coast Guard's saltwater responsibilities. These initiatives are 
important in their own right and will benefit a range of Coast Guard 
missions. However, it is also true that the Coast Guard's non-security 
missions on the Nation's inland waterways will be under continued 
strain as the inflation-adjusted resources for many of these missions 
remain static or shrink.
    When the Department of Homeland Security was formed, the UMRBA 
strongly supported the Coast Guard's stated objective of sustaining 
traditional missions near their pre-9/11 levels. These traditional 
missions are critical to the safe, efficient operation of the Upper 
Mississippi River and the rest of the inland river system. Under these 
mission areas, the Coast Guard maintains navigation channel markers, 
regulates a wide range of commercial vessels in the interest of crew 
and public safety, and responds to spills and other incidents. The 
beneficiaries include not only commercial vessel operators, but also 
recreational boaters; farmers and others who ship materials by barge; 
and the region's citizens, who benefit enormously from the river as a 
nationally significant economic and environmental resource.
    Even prior to September 11, recent years had brought a number of 
changes to the way the Coast Guard operates on the inland river system, 
including elimination of the Second District; closure of the Director 
of Western Rivers Office; decommissioning the Sumac, which was the 
largest buoy tender on the Upper Mississippi River; and staff 
reductions. While the States understand the need for efficiency, the 
cumulative impacts of these changes must be carefully monitored, 
particularly in light of the increased demands that we are now placing 
on the personnel and assets that remain in the region. The UMRBA is 
quite concerned that staff reductions and resource constraints have 
combined to impair the Coast Guard's ability to serve as an effective, 
proactive partner.
    Specifically, increased security demands have reduced the staff 
assigned to vessel inspections and limited the Coast Guard's 
investigation of reported spills. Sending a single person to conduct 
vessel inspections reduces the rigor of those inspections, and, in a 
worst case scenario, potentially puts the inspector at risk. Similarly, 
electing not to respond to reports of small spills means some of these 
spills will go uninvestigated and puts increased demands on local 
officials, who do not have the Coast Guard's expertise or resources. 
Moreover, it could result in costly delays should a spill turn out to 
be larger than first reported, an all-too-common occurrence. Temporary 
adjustments initially made to accommodate immediate security needs are 
now evolving into long term standard operating procedures. While 
everyone recognizes the need to adjust to our new security environment, 
it is essential for the Coast Guard to retain the capacity to perform 
its traditional missions on the Upper Mississippi River. Toward that 
end, the UMRBA supports the President's fiscal year 2006 budget request 
for the Coast Guard's Operating Expenses account, and urges Congress to 
ensure that sufficient resources from within this account are allocated 
to the Coast Guard's inland river work.
Research, Development, Testing, and Evaluation
    Through its Research, Development, Testing, and Evaluation (RDT&E) 
program, the Coast Guard conducts cutting edge research in several 
critical areas, including oil spill prevention and response, risk 
assessment, and mariner safety. Of particular note, researchers at the 
Coast Guard's Groton, Connecticut Research and Development Center have 
made invaluable contributions to State-of-the-art fast water spill 
response, in situ burning, and human error reduction. However, the 
President is once again proposing to shift the Coast Guard's RDT&E 
funding to the Department of Homeland Security's Science and Technology 
(S&T) Directorate. This proposal represents precisely the kind of 
diminution of the Coast Guard's non-security missions with which the 
UMRBA and others have repeatedly expressed concern. Research on 
innovative oil spill recovery equipment or new methods for combating 
crew fatigue will likely be lost in the department-wide S&T 
Directorate, with its overwhelming focus on homeland security issues. 
Moreover, the President's proposal appears to be inconsistent with 
Section 888 of the Homeland Security Act, which calls for ``the 
authorities, functions, and capabilities of the Coast Guard to perform 
its missions . . . [to] be maintained intact.'' The UMRBA urges 
Congress to provide adequate and direct funding of approximately $24 
million to the Coast Guard's multi-mission RDT&E program in fiscal year 
2006. This is the amount the Administration suggests the Coast Guard 
would receive from the S&T Directorate's competitive funds in fiscal 
year 2006, and is a $5.5 million increase over the fiscal year 2005 
RDT&E appropriation.

Reserve Training
    The President is requesting $119 million for Coast Guard Reserve 
Training in fiscal year 2006, an increase of $6 million, or 5 percent, 
over the fiscal year 2005 enacted level. The UMRBA States are keenly 
aware of the importance of the reserve forces. During major flood 
events on the inland rivers, reservists have consistently provided 
exemplary service, augmenting the Coast Guard's capabilities and 
helping to protect public health and safety. More recently, many 
reservists have been called to active duty, enabling the Coast Guard to 
meet many new security-related demands. On the inland rivers, this has 
included increased patrols near critical facilities and development of 
security plans for key inland ports. The UMRBA urges Congress to fund 
Reserve Training at $119 million in fiscal year 2006, thereby helping 
to maintain a Coast Guard reserve that can effectively execute both 
homeland security- and natural disaster-related missions.

Boating Safety Grants
    The Coast Guard's boating safety grants to the States have a proven 
record of success. The Upper Mississippi is a river where all types of 
recreational craft routinely operate in the vicinity of 15-barge tows, 
making boating safety all the more important. As levels of both 
recreational and commercial traffic continue to grow, so too does the 
potential for user conflicts.
    Boat safety training and law enforcement are key elements of 
prevention. However, the future of this successful grants program is 
uncertain. Following the pattern of recent years, the President has 
requested $59 million in fiscal year 2006 funding for boating safety 
grants to the States. This is the amount historically authorized 
without annual appropriation from the Boat Safety Account, which is 
funded by a tax on fuel for recreational motor boats. Successive 
Administrations have not typically exercised their option to request an 
additional $13 million in annual appropriations for the grants. 
However, the authority for the funding from the Boat Safety Account 
must be extended if the program is to continue in fiscal year 2006. 
Such a provision is currently being considered as part of pending 
transportation legislation. The UMRBA urges prompt reauthorization of 
the Boating Safety Program, and funding of this important work at $72 
million annually.

    FEDERAL EMERGENCY MANAGEMENT AGENCY (EMERGENCY PREPAREDNESS AND 
                         RESPONSE DIRECTORATE)

Hazard Mitigation
    UMRBA is particularly interested in FEMA programs that help 
mitigate future flood hazards. Mitigation, which is the ongoing effort 
to reduce or eliminate the impact of disasters like floods, can include 
measures such as relocating homes or community facilities off the 
floodplain, elevating structures, and practicing sound land use 
planning. Mitigation planning and projects are essential to reducing 
the Nation's future disaster assistance costs. Given the importance of 
mitigation, UMRBA supports the Pre-Disaster Mitigation (PDM) grant 
program, which was created in fiscal year 2003 and for which the 
President is requesting $150 million in fiscal year 2006. While the PDM 
grant program is still relatively new, it holds promise for enhancing 
communities' ability to prevent future damages, particularly in areas 
that have not experienced a major disaster and thus have not had access 
to post-disaster mitigation assistance through the Disaster Relief 
Fund. In addition, pre-disaster mitigation assistance is an effective 
means of meeting the ongoing need in all communities to plan for future 
floods and reduce their vulnerability before the next flood disaster.
    In fiscal year 2003, forty communities in the five Upper 
Mississippi River Basin States received PDM competitive grants, 
totaling $3.4 million. While most were relatively small planning 
grants, funding was also provided for acquisitions, safe rooms, and 
electric utility protection. The application period for the second 
round of grants (fiscal year 2004-2005 combined) just ended. While 
there have been concerns expressed about the complexities of the 
competitive process, there is no doubt that communities need such 
grants to help them develop effective mitigation plans and reduce the 
impacts of floods. Thus UMRBA supports the President's fiscal year 2006 
funding request of $150 million for the PDM program.

Flood Map Modernization
    Flood maps are not only used to determine risk-based National Flood 
Insurance Program premium rates, but also provide the basis for local 
regulation of flood hazard areas and for State and local disaster 
response planning. However, current flood maps are rapidly becoming 
obsolete due to the effects of land use changes in the watersheds. When 
outdated maps underestimate flood depths, it can often lead to 
floodplain development in high risk areas. It is therefore important 
that flood maps be updated on an ongoing basis and in a timely way.
    The President's fiscal year 2006 budget proposes $200 million for 
FEMA's Flood Map Modernization program. While funding for flood maps 
has increased substantially since the Map Modernization initiative 
began in fiscal year 2003, there are growing concerns about the 
adequacy of the original time and cost estimates. For instance, 
producing updated and accurate maps often requires that new studies be 
conducted. However, the existing map modernization budget is only 
sufficient to fund actual mapping costs and will not adequately cover 
the costs of necessary associated tasks, such as new flood elevation 
studies or levee certifications. Given that mapping needs are being 
prioritized based on population, rather than flood risk or need, it is 
not clear when relatively sparsely populated counties along the 
Mississippi River will be mapped. Ironically, the Federal Government, 
through the U.S. Army Corps of Engineers, recently spent approximately 
$17 million to develop new flood profiles for the Upper Mississippi and 
Lower Missouri Rivers. Unfortunately this updated information cannot be 
fully utilized until sufficient funding is made available to modernize 
and digitize the flood maps for river communities. Thus, the UMRBA 
urges Congress to provide adequate funding for map modernization, 
including sufficient funding to develop new maps for the Upper 
Mississippi and Lower Missouri Rivers based on the new flood profiles.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Aguirre, Eduardo, Jr., Director, U.S. Citizenship and Immigration 
  Services, Department of Homeland Security......................     1
    Prepared Statement of........................................    32
    Statement of.................................................    30
Albright, Dr. Penrose C., Assistant Secretary for Science and 
  Technology, Department of Homeland Security....................   349
    Prepared Statement of........................................   353
    Questions Submitted to.......................................   400
    Statements of................................................   351
Allard, Senator Wayne, U.S. Senator From Colorado, Statement of..   147
American Public Transportation Association, Prepared Statement of   435
Association of State Floodplain Managers, Inc., Prepared 
  Statement of...................................................   439

Bonner, Robert C., Commissioner, Customs and Border Protection, 
  Department of Homeland Security................................     1
    Prepared Statement of........................................    18
    Statement of.................................................    15
Byrd, Senator Robert C., U.S. Senator From West Virginia:
    Letter From..................................................     5
    Questions Submitted by............................99, 229, 416, 429
    Statements of...........................................3, 136, 350

Chertoff, Michael, Secretary, Department of Homeland Security....   117
    Prepared Statement of........................................   121
    Statements of................................................   120
City of San Marcos, Texas, Prepared Statement of.................   442
Clerici, John M., Esq., Partner, McKenna, Long & Aldridge, LLP...   388
    Prepared Statement of........................................   391
    Statement of.................................................   388
Coalition of Northeastern Governors, Prepared Statement of.......   443
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statement of........................................   155
    Questions Submitted by......................................48, 218
    Statements of................................................1, 359
Craig, Senator Larry, U.S. Senator From Idaho, Statement of......   140

Domenici, Senator Pete V., U.S. Senator From New Mexico:
    Questions Submitted by.................................90, 221, 413
    Statement of.................................................   151

Feinstein, Senator Dianne, U.S. Senator From California, 
  Statement of...................................................   138
Franz, Dr. David, Chief Biological Scientist, The Midwest 
  Research Ins- 
  titute.........................................................   376
    Prepared Statement of........................................   378

Garcia, Michael J., Assistant Secretary, Immigration and Customs 
  Enforcement, Department of Homeland Security...................     1
    Prepared Statement of........................................    10
    Statement of.................................................     8
Greater Orlando Aviation Authority, Prepared Statement of........   443
Gregg, Senator Judd, U.S. Senator From New Hampshire:
    Opening Statements of......................................117, 349
    Questions Submitted by................................163, 400, 421

Inouye, Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by...................................................   111
International Association of Emergency Managers, Prepared 
  Statement of...................................................   445

Kohl, Senator Herb, U.S. Senator From Wisconsin, Statement of....   153

Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Questions Submitted by.....................................113, 341
    Statement of.................................................     2

Murray, Senator Patty, U.S. Senator From Washington:
    Prepared Statement of........................................   145
    Questions Submitted by.......................................   344
    Statement of.................................................   142

National:
    Emergency Management Association, Prepared Statement of......   447
    Flood Determination Association, Prepared Statement of.......   452

Ohio Department of Chiefs of Police, Inc., Prepared Statement of.   453

Read, J. Leighton, M.D., General Partner, Alloy Ventures.........   382
    Prepared Statement of........................................   386

Sarnoff Corporation, Prepared Statement of.......................   396
Shelby, Senator Richard C., U.S. Senator From Alabama, Questions 
  Submitted by...................................................    91
Simonson, Stewart, J.D., Assistant Secretary, Office of Public 
  Health Emergency Preparedness, U.S. Department of Health and 
  Human Services.................................................   359
    Prepared Statement of........................................   361
    Questions Submitted to.......................................   421
Specter, Senator Arlen, U.S. Senator From Pennsylvania, Questions 
  Submitted by...................................................   428
Stevens, Senator Ted, U.S. Senator From Alaska, Questions 
  Submitted by..................................................89, 219

University of Miami, Prepared Statement of.......................   459
Upper Mississippi River Basin Association, Prepared Statement of.   462


                             SUBJECT INDEX

                              ----------                              

                    DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
Absconders and Violators of Release Orders and Return Orders.....   150
Accomplishments in Biodefense....................................   351
Additional Committee Questions.............................48, 162, 400
Advance Appropriation............................................   372
Agricultural Inspections.........................................   169
Air:
    And Marine Operations--Recapitalization......................    75
    Cargo........................................................   285
        Security.................................................   175
    Carrier Fees.................................................   288
    Traveler Satisfaction........................................   188
Airborne Rapid Imaging for Emergency Support.....................   326
Airport Security.................................................   148
All:
    Hazards......................................................   313
    State Minumum................................................   342
Alternatives to Detention........................................    35
America's Shield Initiative.....................................72, 105
AMO Fleet Modernization Plan.....................................   274
Anthrax..........................................................   360
Antidumping/Countervailing Duty Collections......................    37
APHIS--Food Safety Inspectors....................................   274
Arizona Border Control Initiative................................    67
Assessments and Evaluations......................................   337
Asylum and Expedited Removal.....................................    68
Attrition Rate...................................................   310
Automated:
    Commercial Environment.......................................    74
    Identification System........................................   305
Automation/Information Technology................................    26
Aviation Security..............................................156, 218
Avoiding Future Fund Lapses......................................   231
Background on GSA Basic Purchasing Agreement With IMC............   135
Backlog:
    Elimination..................................................    31
    Reduction Plan...............................................    81
Backscatter Technology...........................................   154
Base Decreases...................................................   289
Best Practices...................................................   326
Biodefense.......................................................   353
Biological or Chemical Attack....................................   350
Bioshield........................................................   349
Bioterrorism and Cooperative Efforts.............................   373
BioWatch:
    Detection....................................................   417
    Response.....................................................   417
Border:
    Needs:
        Security Updgrades at Ports..............................   221
        UAV Technology...........................................   221
    Patrol................................................110, 138, 343
        Agent Staffing Increases.................................    40
        Aircraft Replacement.....................................    47
        Apprehensions............................................   109
        Checkpoints..............................................   114
        Stationing of Agents.....................................   110
        Vehicles.................................................    98
    Personnel:
        Manpower.................................................   222
        Training at FLETC........................................   222
    Problems.....................................................   141
    Security....................................................95, 271
Budget:
    Amendment....................................................   137
    Issues.......................................................     9
    Request......................................................   367
        For Fiscal Year 2006.....................................    13
    Shortfalls and Increased Staffing for the Border Patrol......     2
Buffer Zone Protection Plans.....................................   335
C-130Js..........................................................   308
C-TPAT...........................................................   278
Call Centers.....................................................    89
Cargo:
    Container Security...........................................   271
    Security...................................................144, 344
    Supply Chain Security........................................    18
CBP Response.....................................................     7
Cell Technology Versus Culture Technology........................   371
Cerro Grande Fire Claims.........................................   329
Challenges.......................................................    12
Chemical:
    And Biological:
        Agents...................................................   366
        Detection Program........................................   413
    Countermeasures..............................................   420
    Detectors..................................................367, 416
    Security.....................................................   333
Chief Information Officer........................................   260
CIS Local Ombudsman..............................................   100
Citizens Corp....................................................   326
Citizenship and Immigration Services Funding.....................   115
Classified vs. Sensitive Information.............................   231
Coast Guard:
    C-130........................................................   211
    Support of NSF Research Operations in the Polar Regions......   306
Collection of:
    Antidumping and Countervailing Duties........................   279
    Duties.......................................................   106
Communication:
    And Technology Systems.......................................   213
    With ICE Employees...........................................     9
Comprehensive:
    Border Control Strategy......................................    17
    Review of the Department.....................................   163
Concerns of Employees............................................   257
Consulting With Congress.........................................   262
Container Security...............................................   105
    Initiative: Expansion and Regularization.....................   103
Continued Funding Shortfalls--ICE................................    48
Contract Employees...............................................   337
Contracting Out Report...........................................   232
Covert Surveillance Aircraft.....................................   305
Creating a 21st Century Department...............................   132
Critical Infrastructure Protection...............................   199
Cross-Cutting Functions and Integration..........................   122
Customer Service.................................................    82
Customs:
    And Border Protection--The Second Year.......................    19
    Trade Partnership Against Terrorism..........................    72
Cyber Crimes.....................................................   284
Debt Management Center...........................................   114
Deepwater........................................................   209
    Budget.......................................................   295
    Program Management...........................................   298
Default of a Surety Company......................................    39
Demonstration of Ideas by People.................................   372
Department of Homeland Security:
    And BioShield................................................   401
    BioWatch, and Detection of Events............................   404
    ``Branding'' Not Completed...................................   277
    Headquarters.................................................   231
    Intelligence.................................................
        Mission..................................................   198
        Role.....................................................   158
    Reports Due..................................................   260
    Role in Detection Equipment..................................   405
Departmental Reorganization......................................   166
Detailees to the:
    Department...................................................   235
    White House..................................................   233
Detention:
    And Removal..................................................    10
    Bedspace.....................................................   101
    Facilities...................................................   282
Domestic Nuclear Detection Office..............................192, 418
Drug Trafficking.................................................   229
Electronic Surveillance..........................................   135
    Along the Border.............................................   119
Emergency Response Fund..........................................   311
Emerging:
    Checkpoint Explosives Technology.............................   292
    Issues.......................................................   156
EMS First Responder Funding......................................   317
Expedited:
    Removal......................................................   150
    Traveler Expanding Overseas..................................   269
F2B Preference Visa Petition.....................................   112
Federal:
    Air Marshals.................................................    78
        Service..................................................    10
    Law Enforcement Training Center (FLETC)......................   216
    Protective Service...........................................    80
FEMA Personnel...................................................   330
Financial and Procurement Controls...............................   208
FIRE Grant Funding...............................................   314
First Responders (General).......................................   343
Fiscal Year:
    2004 Workload Statistics.....................................    16
    2005 Accomplishments.........................................   125
    2006 Budget Request.................................9, 30, 119, 128
        Enhancements.............................................    13
        For Citizenship and Immigration Services.................     3
Fisheries Enforcement............................................   219
Flood Map Modernization..........................................   328
Foreign:
    And Domestic Repair Station Inspections......................   294
    Student Visas................................................   154
Fugitive Operations..............................................    78
Funding:
    For First Responders.........................................   172
    Issue........................................................     4
Global Supply Chain Security.....................................   169
H2B Visa Program.................................................     3
Hammer Training..................................................   345
Hazard Mitigation................................................   327
Hazardous Materials Endorsement for Commerical Driver's License..   293
Health and Human Services and BioShield..........................   421
Hearings on the PATRIOT Act......................................   261
HH-65 Helicopter Re-engining.....................................   211
Hiring Journalists...............................................   249
Homeland Secure Data Network.....................................   166
Human:
    Resources....................................................   207
    Smuggling....................................................    81
I-91 Checkpoint..................................................    41
I-Staff..........................................................   206
IA's Role in Intelligence Community..............................   331
IAIP:
    Coordination of Protection...................................   202
    Hiring Difficulities.........................................   200
ICE:
    CBP Merger...................................................   344
    Cyber Crime Center...........................................    89
    Hiring in Fiscal Year 2006...................................    39
    Response.....................................................     7
IDENT/IAFIS......................................................   272
    Integration..................................................   273
    Update.......................................................   106
Illegal Immigrants..............................................92, 279
Immigration......................................................   118
    Advisory Program.............................................    71
    And Customs Enforcement......................................   341
    Enforcement..................................................   101
    Officers in Local USCIS Offices..............................   111
    Services.....................................................    89
Impact of:
    Bush Amnesty on Backlog Reduction/Workload...................    99
    ICE Budget Shortfall.........................................   102
    Late Duty Collection on Crawfish Industry....................   104
    Networking...................................................   152
    REAL ID on Backlog Reduction/Workload........................   271
Implementation of the Visa Reform Act............................    45
Imported Shrimp Industry.........................................    98
Improvement in Customer Service..................................    31
Improving:
    Airport Security.............................................   154
    National Preparedness and Response...........................   130
Indemnification..................................................   399
Independent Review of Collective Bargaining Disputes.............   257
Information Concerning the PATRIOT Act...........................   261
Initial Preliminary Orders in Liquidation........................    39
Institutional Removal Program....................................    79
Integration of CBP Air and Marine Assets.........................    47
Intelligence.....................................................   118
    Reform:
        Act/Border Patrol Staff Increases........................    44
        And Terrorism Prevention Act.............................     4
        Bill Authorizations......................................   249
International Partnerships.......................................   163
Interoperability:
    Communications...............................................   315
    Standards....................................................   315
Interoperable Communications.....................................   174
Introduction:
    And Overview.................................................    18
    Of Diseases From Other Countries.............................   374
Investigations:
    And Intelligence.............................................    10
    Of Arms Export Control Act Violations........................   102
IT issues........................................................   118
L1 Visa Inter-Agency Task Force..................................    45
Lack of:
    BioShield Funding for RAD/NUC Response.......................   429
    Funding for Border Security..................................   270
Land Port of Entry...............................................    90
Law Enforcement Support Center...................................2, 114
Legal Orientation Programs.......................................   115
Leveraging Technology............................................   131
LIFE Act.........................................................   111
Lobbying Rules...................................................   229
Management and:
    Administration...............................................   336
    Staffing.....................................................   165
Mandatory Termination With No Outside Review.....................   258
Maritime:
    Security Cutter--Large Operational Costs.....................   309
    Transportation Security Act Implementation...................   299
Measures for Determining Budgets.................................   284
Meeting:
    Our Twin Goals: Building More Secure and More Efficient 
      Borders....................................................    21
    With Unions..................................................   261
Merging CBP and ICE..............................................   272
Merit System Protection Board (MSPB).............................   257
Movement of Resources............................................   157
NAC..............................................................   208
National:
    Bio and Agrodefense Facility.................................   420
    Border Security Assessment...................................   101
    Center for Critical Information Processing and Storage.......   219
    Preparedness Goal............................................   170
    Response Planning............................................   311
    Security Mission.............................................    31
Need for Additional Assistance From the Subcommittee.............   162
New:
    Mexico Capabilities--Training at Playas......................   222
    Office of Screening Coordination and Operations..............    41
    Products to Protect Against Bioterrorism Acts................   368
NOAA Weather Radios..............................................   340
Non-Profit Grant Funding.........................................   316
NonGovernmental Screening Group..................................   372
Northern Border:
    Air Wing.....................................................   346
    Prosecutions.................................................   346
    Security.....................................................   346
Number of Border Patrol Agents Needed............................   133
Observations Regarding the Department of Homeland Security.......   151
Office of:
    Citizenship..................................................    84
    Fraud Detection and National Security........................    82
    Screening Coordination and Operations........................   167
        Mission..................................................    44
        (9/11 Commission Recommendation).........................    65
    Security.....................................................   204
One Face at the Border...........................................    16
1-800 Customer Service Numbers...................................   112
Operation Predator...............................................    91
Other:
    Concerns.....................................................   119
    Traditional Missions.........................................    27
Overhead Cost Sharing............................................    78
Overtime:
    Pay While Receiving Training.................................   104
    Rate.........................................................   310
Overview of ICE Fiscal Year 2006 Budget Request..................    10
Passenger Air Fees...............................................   285
Passport Privacy.................................................   271
Pay:
    For Performance..............................................   259
    Increase.....................................................   310
Personnel Concerns...............................................   119
Port Security..................................................143, 344
    Assessments..................................................   304
    Estimates....................................................   304
    Grant:
        Coordination.............................................   317
        Program..................................................   304
Port/Rail/Transit................................................   313
Ports of Entry in Vermont........................................   113
Pre-Disaster Mitigation Grants...................................   330
Pre-Packaged News................................................   286
Preparation for Biological Attack................................   160
Private:
    Screeners....................................................   293
    Sector Interest in BioShield.................................   430
Progress Since March 2003........................................    30
Protecting Americans.............................................   361
Pulsed Fast Neutron Analysis.....................................   276
R&D Consolidation................................................   191
Radiological/Nuclear Countermeasures Test and Evaluation Complex.   419
Rapid Prototyping................................................   411
Recruiting.......................................................   308
Regions Initiative...............................................   205
Registered Traveler..............................................   295
Repatriation Program With Mexicans...............................   150
Requirements Gap.................................................   300
Research and:
    Development................................................213, 310
    Technology:
        Domestic Nuclear Detection Office (DNDO).................   228
        Generally................................................   225
        NISAC....................................................   227
Review of ICE Accomplishments....................................    11
Revolutionizing the Borders......................................   128
Risk:
    Based Approach...............................................   125
    Of Liability.................................................   399
Role of Science and Technology Directorate.......................   194
Rudeness of Customs Employees....................................   148
S&T:
    Directorate's Interagency Collaboration......................   352
    University Partnership Program...............................   197
SAFETY Act.......................................................   409
Satisfaction With Status Quo Budget..............................   150
Science & Technology Directorate and:
    Integrated Biosurveillance...................................   401
    Standards....................................................   407
Screening Workforce Performance..................................   287
SeaTac Airport...................................................   347
Second Stage Review..............................................   122
Section 605 of Vision 100........................................   288
Secure:
    Electronic Network for Travelers Rapid Inspection Program 
      (SENTRI)...................................................    71
    Flight.......................................................   262
        And Privacy..............................................   264
        Movement to SCO..........................................   264
Security and Prosperity Partnership of North America.............   259
Shelf Sensitive Vaccines.........................................   370
Significant ICE Achievements.....................................     8
SIPRINET.........................................................   309
Six-Month Average for Processing Benefits Applications...........    37
Slow Pace of Grant Distributions.................................   312
Southwest Border Control.........................................   139
Stabilization of Senior Management...............................   161
Staffing........................................................85, 282
    Model........................................................    60
Status of:
     Security of the United States 2 Years After the 
      Establishment of the Department of Homeland Security.......     6
    Technology in Use on the Borders and Detention Space.........   134
Status Quo Budget Request........................................   149
Stepped up Enforcement Along the Border..........................   142
Strategic:
    Approach to Addressing Medical Countermeasure Gaps...........   362
    National Stockpile Today.....................................   362
Strengthening Law Enforcement....................................   129
Supply Chain and Container Security..............................   271
System:
    That Monitor Supply of Pharmaceutical Products...............   369
    Weaknesses...................................................   365
Tasking the FLRA and MSPB........................................   258
Technology Transfer..............................................   317
Temporary Worker Program.........................................   142
    And Backlog Elimination Program..............................    97
Terrorist Travel (9/11 Commission Report)........................    65
Thefts of Luggage of Passengers..................................   158
Threats in Order of Priority.....................................   397
TOPOFF Exercise..................................................   161
Trade/Travel Facilitation........................................    17
Training of:
    Border Patrol Agents.........................................   134
    CBP Inspectors...............................................   108
    Supervisors..................................................   258
Transportation of Butant Stoves (Without Butane) on Airplanes....   219
TSA............................................................118, 156
    Air Carrier Security Fees....................................   178
    Contract Screeners...........................................   179
    ``No Fly'' Lists/Secure Flight...............................   185
    Passenger Fees...............................................   177
    R&D..........................................................   295
    Screener Training............................................   182
    Spending Abuses..............................................   287
TWIC Program--Why the Delay?.....................................   269
UAVs.............................................................   220
Unfair Trade Practices--Catfish Imports..........................    46
University Centers of Excellence.................................   419
US VISIT.......................................................168, 268
    When Will We Have a Real ``Exit'' Component?.................   267
USCIS Response...................................................     7
Use of:
    IDENT, IAFIS and US VISIT....................................   159
    Radiation Monitors...........................................    36
    Stolen Passports--Inspector General Report...................    68
    Unmanned Aerial Vehicles.....................................   276
Vehicle Fleet Management Report..................................   274
Vetted Traveler Programs.........................................    42
Violating the DHS Appropriations Act.............................   341
Visa:
    Overstays....................................................    92
    Security Unit................................................    76
    Waiver.......................................................   139
        Program: Further Extension...............................    99
Visit to One of the Ports........................................   148
War on Drugs--Historical.........................................   111
Weapons of Mass Destruction Detection Technology.................    17
White House Mail.................................................   310
Worksite Enforcement............................................75, 284

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
